<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2009</title>
<body><pre>[Senate Hearing 110-806]
[From the U.S. Government Printing Office]




                                               S. Hrg. 110-806 

                                                        Senate Hearings

                                 Before the Committee on Appropriations

_______________________________________________________________________


Departments of Labor,

Health and Human Services,

and Education, and Related

Agencies Appropriations

                                                            Fiscal Year
                                                                   2009

110th CONGRESS, SECOND SESSION            

S. 3230



        DEPARTMENT OF HEALTH AND HUMAN SERVICES
        DEPARTMENT OF LABOR
        NONDEPARTMENTAL WITNESSES
  Departments of Labor, Health and Human Services, and Education, and 
       Related Agencies Appropriations, 2009 (S. 3230)

                                                     S. Hrg. 110-806
 
  DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2009

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   on

                                S. 3230

 AN ACT MAKING APPROPRIATIONS FOR THE DEPARTMENTS OF LABOR, HEALTH AND 
HUMAN SERVICES, AND EDUCATION, AND RELATED AGENCIES FOR THE FISCAL YEAR 
           ENDING SEPTEMBER 30, 2009, AND FOR OTHER PURPOSES

                               __________


                Department of Health and Human Services
                          Department of Labor
                       Nondepartmental witnesses

                               __________

         Printed for the use of the Committee on Appropriations


 Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________




                   U.S. GOVERNMENT PRINTING OFFICE
41-260 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001


                      COMMITTEE ON APPROPRIATIONS

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            TED STEVENS, Alaska
TOM HARKIN, Iowa                     ARLEN SPECTER, Pennsylvania
BARBARA A. MIKULSKI, Maryland        PETE V. DOMENICI, New Mexico
HERB KOHL, Wisconsin                 CHRISTOPHER S. BOND, Missouri
PATTY MURRAY, Washington             MITCH McCONNELL, Kentucky
BYRON L. DORGAN, North Dakota        RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         JUDD GREGG, New Hampshire
RICHARD J. DURBIN, Illinois          ROBERT F. BENNETT, Utah
TIM JOHNSON, South Dakota            LARRY CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              SAM BROWNBACK, Kansas
FRANK R. LAUTENBERG, New Jersey      WAYNE ALLARD, Colorado
BEN NELSON, Nebraska                 LAMAR ALEXANDER, Tennessee
                    Charles Kieffer, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

 Subcommittee on Departments of Labor, Health and Human Services, and 
                    Education, and Related Agencies

                       TOM HARKIN, Iowa, Chairman
DANIEL K. INOUYE, Hawaii             ARLEN SPECTER, Pennsylvania
HERB KOHL, Wisconsin                 THAD COCHRAN, Mississippi
PATTY MURRAY, Washington             JUDD GREGG, New Hampshire
MARY L. LANDRIEU, Louisiana          LARRY CRAIG, Idaho
RICHARD J. DURBIN, Illinois          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              TED STEVENS, Alaska
FRANK R. LAUTENBERG, New Jersey      RICHARD C. SHELBY, Alabama
ROBERT C. BYRD, West Virginia, (ex 
    officio)

                           Professional Staff

                              Ellen Murray
                              Erik Fatemi
                              Mark Laisch
                            Adrienne Hallett
                             Lisa Bernhardt
                       Bettilou Taylor (Minority)
                    Sudip Shrikant Parikh (Minority)
                        Dale Cabaniss (Minority)

                         Administrative Support

                              Teri Curtin
                         Jeff Kratz (Minority)


                            C O N T E N T S

                              ----------                              

                         Wednesday, May 7, 2008

                                                                   Page

Department of Labor: Office of the Secretary.....................     1

                        Wednesday, July 16, 2008

Department of Health and Human Services: National Institutes of 
  Health.........................................................    93

Nondepartmental witnesses........................................   175


  DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2009

                              ----------                              


                         WEDNESDAY, MAY 7, 2008

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:48 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Tom Harkin (chairman) presiding.
    Present: Senators Harkin, Murray, Cochran, and Specter.

                          DEPARTMENT OF LABOR

                        Office of the Secretary

STATEMENT OF HON. ELAINE L. CHAO, SECRETARY


                opening statement of senator tom harkin


    Senator Harkin. Good morning. The Appropriations 
Subcommittee on Labor, Health and Human Services, and Education 
will now come to order for the hearing on funding for the 
Department of Labor (DOL).
    Madam Secretary, earlier this year you gave a speech in 
which you said: ``The Department's fiscal year 2009 budget is 
nearly 15 percent less than 10 years ago. That is proof-
positive that the Government can do more with less.''
    Last year, President Bush vetoed the 2008 Labor 
appropriations bill stating that the bill ``spends too much,'' 
and that ``health care education, job training, and other goals 
can be achieved without this excessive spending if the Congress 
sets priorities.'' He also said, there were ``too many 
earmarks'' in our bill.
    I hope you do not mind if I respectfully disagree. Your 
Department, I think, is doing much less since President Bush 
took office. Much less. Under this administration, the Labor 
Department's ability to protect America's workers and support a 
prepared and competitive workforce has declined significantly. 
Two examples I want to point out.
    Last November, the Department of Labor Inspector General 
(IG) found that the Mine Safety and Health Administration 
(MSHA) had missed 15 percent of its mandated inspections 
nationally and in some areas as many as 30 to 50 percent. The 
IG also said that inspection quality was low, which jeopardized 
the safety of miners. You know what MSHA said in response? It 
said MSHA lacked the resources to hire new personnel to replace 
retiring inspectors and keep up with increases in mining 
activity.
    Again, with all due respect, Madam Secretary, that is not 
what I call doing more with less. It is called doing less with 
less.
    Let us look at another worker protection agency, the 
Occupational Safety and Health Administration (OSHA), where the 
enforcement staff is down 9 percent since 2001. Last year, the 
Chemical Safety and Hazard Investigation Board released a 
report on the BP Texas City refinery explosion in 2005 that 
resulted in the deaths of 15 workers and more than 100 
injuries. The board found that the Occupational Safety and 
Health Administration had not conducted one planned 
comprehensive inspection in the oil refining industry. Not one 
during the entire Bush presidency.
    As a result, OSHA committed to completing inspections at 
all refineries under its jurisdiction by the end of fiscal year 
2008. Now OSHA says it cannot finish them until the end of 
2009. So, again, is that doing more with less? I do not think 
so.
    It is not just worker protection programs where I believe 
the President's budget is underfunded. For the 7th year in a 
row, the President calls for disinvesting in our workforce and 
drastically cutting programs aimed at improving our global 
competitiveness. His budget would cut $474 million, or 16 
percent, for State grants for employment and training programs. 
These are the programs that will help workers develop the 
skills they need to find employment. Yet, the President sent 
this budget to us in February when the economy was shedding 
jobs and millions were out of work. So, Madam Secretary, ask 
the manufacturing worker in Ohio who has just lost his job, has 
two kids to support, is this doing more with less?
    Now, there is one area where the Bush administration wants 
to do more and is putting more funding into it, and that is 
going after labor unions. His budget proposes a 30 percent 
increase for the Office of Labor-Management Standards (OLMS) to 
support onerous new financial disclosure requirements for rank 
and file members, as well as other reporting requirements. Now, 
this is one office that has not been asked to do more with 
less.
    Meanwhile, much of the money that the Department has spent 
on President Bush's initiative to ``give workers the skills 
they need to realize their dreams''--that is quoting the 
President--was awarded without any competition. From 2001 to 
2006, the Department provided more than $250 million in grants 
on a noncompetitive basis under the High Growth Job Training 
Initiative. This amounted to 90 percent of the funds available 
under this initiative going out without any competition, 
otherwise known as an earmark.
    Now, regrettably, we have learned that there were 
significant problems with how these grants were awarded. We 
also know that the grantees were not monitored or evaluated 
effectively to determine whether the funds were well spent. We 
know this because of the Inspector General audit that I 
requested last year. Just this morning, the GAO, the Government 
Accountability Office, released a report that found many of the 
same problems identified by the IG.
    So, Madam Secretary, budgets are about priorities, and I 
believe this budget does not reflect the right priorities for 
American workers. Again, it proposes the greatest increase of 
all for new reporting requirements for rank and file union 
members, while slashing funding for job training and the fight 
against child labor. So as we move forward through the budget 
process, I am going to do everything I can to fight for 
investments that keep our work sites safe and workers' skills 
sharp.
    With that, I will recognize my ranking member, Senator 
Specter, for an opening statement.


               opening statement of senator arlen specter


    Senator Specter. Thank you, Mr. Chairman. At the outset, I 
thank you for our long cooperative relationship. When the power 
in the Senate has changed, as you and I say, the gavel shifts 
seamlessly.
    I join you in welcoming the Secretary of Labor, who has the 
distinction of having served the entire tenure of President 
Bush's two terms, the longest serving cabinet officer and the 
only cabinet officer to be through two terms. So we note that, 
Madam Secretary, and the very hard and devoted work you have 
undertaken in a very, very difficult circumstance.
    The reduction in the overall budget for your Department I 
think is unfortunate, but I understand what is happening here 
with the limited discretionary funding. It would be my hope 
that one day in the not too far distant future, there would be 
a re-evaluation of priorities.
    I talk in the far distant future of becoming chairman of 
the committee, and I am second only to Senator Cochran who is 
term-limited. Every 6 years or so, the parties change. I may 
get to be chairman ahead of Senator Harkin.
    Senator Harkin. You know that would be okay with me.
    Senator Specter. Do I have your vote?
    Senator Harkin. If you were chairman--well, anyway, I will 
not get into that.
    Senator Specter. I mention that not at all in jest because 
of what I consider to be the need for the re-evaluation of 
priorities to give you more funding.
    I was disappointed, for example, that your budget proposes 
major decreases in community service employment for older 
Americans in Job Corps and eliminates adult employment in youth 
training programs. Well, that is unfortunate, but I understand 
you have a limited budget which has been decreased in absolute 
dollars, and when you take the cost-of-living adjustments, even 
more.
    I do want to note a couple of issues specifically, and one 
is the tremendous incidence of juvenile crime hitting my 
hometown of Philadelphia especially hard--400 homicides a year. 
Earlier this week, a police officer brutally killed in a 
robbery. I note the $50 million which has been put in 
mentoring, and commend you for the prompt disbursal of those 
funds. I would urge you to do more.
    The initiative that I put in for $25 million for mentoring, 
$5 million to each of five major cities in America, one of 
which is Philadelphia, should be helpful.
    In the balance of your administration, I would urge you to 
take a very, very close look at what is happening in the Utah 
mine tragedy. Worker safety is vital. Senator Harkin has 
highlighted it on what OSHA needs to be doing far in advance of 
the end of fiscal year 2009. I associate myself with those 
remarks.
    I would also commend to you special activities to try to 
have confirmations of the National Labor Relations Board 
(NLRB). It has two members and cannot function. There are 
enormous delays which prejudice both labor and management where 
cases take 5 years or more before they come up.
    I regret the necessity to excuse myself at this point, but 
the Judiciary Committee is having a very key hearing on the 
confirmation for the Sixth Circuit, and I am the ranking member 
there. So, I will be following the hearing closely. We will 
have some questions for the record. My absence will not be 
really missed because I note the presence of our distinguished 
ranking member, Senator Thad Cochran.
    Thank you.
    Senator Harkin. Thank you.
    Senator Cochran.


                   statement of senator thad cochran


    Senator Cochran. Mr. Chairman, thank you. I am glad to be 
here to join you in welcoming the distinguished Secretary of 
Labor to our committee to review the budget request for the 
next fiscal year.
    It is increasingly important, I think, that our Nation's 
workers and employers have the necessary resources to meet the 
demands of the global economy. We have always tried to work 
with the administration to ensure that American workers receive 
both the education and the skill preparations they need to 
enter and maintain in a quality performance level in our 
workforce.
    But increasingly higher levels of education and advance 
skills are required to be competitive in the new environment. 
That is why I am pleased to see the President include in the 
budget a request for approximately $7.3 billion for the 
Department's Employment and Training Administration (ETA), 
which is designed to increase the competitiveness of the 
American workforce. I look forward, Madam Secretary, to hearing 
your ideas on how these programs will evolve and how the funds 
will be used to accomplish this important goal.
    Getting our youth more interested and involved in the 
opportunities of the workplace will help fill the demands of 
our labor force in the years ahead. The Job Corps and 
YouthBuild programs are good examples of how we can reach young 
people and provide the training they need to be productive 
members of the workforce. The President includes a request for 
$1.5 billion and $50 million, respectively, for these two 
programs. Your perspective on the future of the programs and 
how these funds will be put to use would be appreciated.
    Madam Secretary, I know the challenges the Department faces 
are very interesting and unique, particularly in the 
development and maintenance of our labor market. I am impressed 
with your efforts and hard work over the years and certainly 
those efforts that are designed to maintain qualified and 
sustainable workforce participants. That is critical to our 
Nation's future.
    Thank you.
    Senator Harkin. Thank you very much, Senator Cochran.
    Madam Secretary, again, welcome to the committee and the 
floor is yours. Please proceed as you so desire.


                summary statement of hon. elaine l. chao


    Secretary Chao. Thank you, Mr. Chairman, Senator Cochran, 
for the opportunity to present the administration's fiscal year 
2009 budget for the Department of Labor.
    The total Department budget is $53.1 billion, of which 
$10.5 billion is for discretionary spending.
    The Department's fiscal year 2009 budget focuses on five 
overall priorities: protecting worker safety and health; 
protecting workers' pay, benefits, pensions, and union member 
rights; securing the employment rights of America's veterans; 
increasing the competitiveness of America's workforce; and 
modernizing the temporary foreign labor certification programs.
    In fiscal year 2009, $1.4 billion is requested for the 
Department's worker protection activities. The Department has 
consistently increased our budget for worker protection, and 
the Department has consistently requested increases in our 
budget for worker protection activities. Over the last 7 years, 
we have seen consistent record results on worker safety and 
protection.
    In terms of MSHA, $332.1 million and 2,361 FTEs are 
requested. Please note again that we are increasing funding for 
enforcement. While there was a slight reduction over the fiscal 
year 2008 enacted level, this is due to the fact that some 
funds appropriated for fiscal year 2008 were one-time expenses, 
including the overtime, travel expenses, and new roof needed in 
the training facility in Beckley, West Virginia. This request 
enables MSHA to continue implementing the historic MINER Act 
and maintains our strong commitment to mine safety and health. 
It includes $7.4 million specifically targeted to support and 
train an additional 55 mine safety enforcement personnel. This 
is also in addition to the 304 coal enforcement personnel hires 
since June 2006. This budget will support MSHA's efforts to 
finalize rules on belt air and mine refuge chambers and 
vigorously enforce increased monetary penalties.
    Our fiscal year 2009 request also includes $501.7 million 
and 2,173 FTEs for OSHA. This is, again, a 3 percent increase 
over last year's enacted level.
    The request for ESA is for $468.7 million and 3,190 FTEs.
    This includes $193 million and 1,283 FTEs for Wage and Hour 
including $5.1 million to hire an additional 75 inspectors. The 
ESA request also includes $89 million and 585 FTEs for OFCCP, 
and another $110 million and 872 FTEs are requested for the 
Worker Compensation programs.
    Let me note that the Department of Labor recently passed a 
$3.5 billion mark in compensation to EEOICPA beneficiaries, and 
initial decisions have been made in all of the 22,000 part E 
cases that were transferred to DOL from the Department of 
Energy in 2004.
    The ESA request also includes $58.3 million and 369 FTEs 
for the Office of Labor-Management Standards. This is the same 
request as requested last year.
    There seems to be some angst among some special interest 
groups about the increases in this budget. This is less than 
one-tenth of 1 percent in the total budget of the Department of 
Labor. 1,500 audits were conducted in 1985. By the end of 2000, 
the number of audits had dropped below 220. We are merely 
trying to restore the budget and enforce the law.
    For EBSA, the request is $147.9 million. This is an 
increase of 6 percent over the fiscal year 2008 levels, and a 
total of 867 FTEs.
    For VETS, our budget request is $238.4 million and 234 
FTEs. This is a 5 percent increase over the previous year's 
enacted level.


                           prepared statement


    As you know, our country is transitioning to a knowledge-
based economy. New jobs are being created, but many require 
more education and higher skills. It is noteworthy to note that 
States have carried forward over $1 billion in unspent 
Workforce Investment Act funds on average every year. There is 
an urgent need for worker training now, and I will be more than 
glad to talk about ETA and the budget and what we should do 
about reforming the system to better suit the needs of workers 
in the 21st century economy.
    Thank you.
    [The statement follows:]
                  Prepared Statement of Elaine L. Chao
    Good morning Mr. Chairman, Senator Specter, distinguished members 
of the subcommittee, ladies and gentlemen. Thank you for the 
opportunity to appear before you today to present the fiscal year 2009 
budget for the Department of Labor.
    The total request for the Department in fiscal year 2009 is $53.1 
billion and 16,848 FTE, of which $13 billion is before the committee. 
Of that amount, $10.5 billion is requested for discretionary budget 
authority. Our budget request will allow us to build on the 
accomplishments achieved in recent years and enable the Department to 
meet its critical priorities for fiscal year 2009, while helping to 
achieve the President's deficit reduction goals by reforming programs 
and reducing or eliminating ineffective or duplicative activities.
                        notable accomplishments
    Over the past 7 years, the Department's agencies that protect 
workers' health, safety, benefits, pay, and union member rights have 
achieved record-setting results for America's workers and their 
families. For example:
  --Since 2001, the Wage and Hour Division has increased by 67 percent 
        the back wages recovered for workers. In 2007 alone, a record 
        $220.6 million was recovered for workers, including many 
        vulnerable workers in low-wage industries, who did not receive 
        the wages they were due.
  --Between 2001 and 2007, the Employee Benefits Security 
        Administration, which has oversight over nearly every private 
        pension plan in America, closed over 28,000 civil cases and 
        over 1,200 criminal cases; recovered or protected nearly $11 
        billion for plans and participants; and, working with the 
        Department of Justice and State and local prosecutors, obtained 
        indictments against more than 800 individuals for crimes 
        against plans and participants.
  --Since 2001, the workplace fatality and serious injury and illness 
        rates have fallen to record lows. Since 2002, the overall 
        injury and illness rate has declined by 17 percent and the 
        worker fatality rate has remained at historically low levels. 
        Perhaps most notable is the reduction in the fatality rate 
        among Hispanic workers, which has declined by 17 percent since 
        2001.
  --Since 2001, the Department's Office of Federal Contract Compliance 
        Programs has posted record results in enforcing equal 
        opportunity rights for employees of Federal contractors, with 
        an increase in financial recoveries of 78 percent between 2001 
        and 2007. Our efforts to ensure that Federal contractors 
        achieve equal opportunity workplaces resulted in a 245 percent 
        increase from fiscal year 2001 to fiscal year 2007 in the 
        number of Americans recovering back pay and benefits.
  --Since 2001, we have rebuilt the Department's Office of Labor-
        Management Standards' capability to enforce the laws that 
        require union transparency and protect union democracy. As a 
        result, from fiscal year 2001 to fiscal year 2007, the number 
        of financial compliance audits has risen by 226 percent, and 
        the number of convictions has increased by 16 percent.
  --We have implemented a number of new programs to assist America's 
        veterans. The Department launched the national HireVets First 
        campaign designed to help employers tap this pool of talent as 
        our service men and women transition to civilian life. In 2004, 
        the Department created REALifelines, a comprehensive new 
        program to provide individualized job training, counseling, and 
        re-employment services to each and every service member 
        seriously injured or wounded in the War on Terrorism.
                      fiscal year 2009 priorities
    The Department's fiscal year 2009 budget seeks to build on the 
success of previous years. The budget features five critical 
priorities: protecting workers' safety and health; protecting workers' 
pay, benefits, pensions, and union member rights; modernizing the 
temporary foreign labor certification programs; providing additional 
resources and services for our Nation's veterans and transitioning 
service members; and increasing the competitiveness of America's 
workforce. In fiscal year 2009, the Department will continue to pursue 
regulatory reforms and strengthening policies that encourage growth, 
job creation, and opportunity.
                 protecting workers' safety and health
    The 2009 budget includes $1.5 billion in discretionary funds for 
DOL's worker protection activities. Within this funding level, $833.7 
million is requested to enable the Department to continue to pursue its 
record-setting protection of workers' safety and health.
Mine Safety and Health Administration (MSHA)
    The fiscal year 2009 budget request for MSHA is $332.1 million and 
2,361 FTE. The request will allow MSHA to continue implementing the 
historic Mine Improvement and New Emergency Response (MINER) Act, the 
most sweeping mine safety legislation in 30 years.
    The request includes $7.4 million specifically targeted to support 
and train an additional 55 mine safety enforcement personnel. These 
additional personnel, in addition to the more than 300 enforcement 
personnel hired since July 2006, will enable MSHA to complete 100 
percent of mandated annual mine inspections in both coal and metal and 
nonmetal mines. The 2009 budget will also support MSHA's work to 
finalize rules on belt air and mine refuge alternatives and implement 
stronger civil penalties, in accordance with the final rules published 
in fiscal year 2007 and fiscal year 2008.
Occupational Safety and Health Administration (OSHA)
    The fiscal year 2009 budget request for OSHA is $501.7 million and 
2,173 FTE. The request provides resources to support 87,200 Federal and 
State safety and health inspections.
    The request reflects an increase of $15.7 million and 47 FTE above 
fiscal year 2008, which includes an increase of $11.4 million to 
support enforcement programs and $5.2 million to provide compliance 
assistance to employers and employees, especially small businesses. The 
budget supports OSHA's balanced approach to worker safety and health 
which includes aggressive enforcement, cooperative programs, outreach, 
and education.
           protecting workers' pay, benefits, and union dues
    In fiscal year 2009, the Department will also continue its high 
priority programs to protect workers' pay, benefits and union dues.
Employment Standards Administration
    The Department's Employment Standards Administration (ESA) is DOL's 
largest agency, which administers and enforces a variety of laws 
designed to enhance the welfare and protect the rights of American 
workers. The fiscal year 2009 budget request includes discretionary 
resources for ESA administrative expenses of $468.7 million and 3,190 
FTE, and a proposal to cancel $30 million in H-1B fund balances.
Wage and Hour Division
    The Wage and Hour Division is responsible for the administration 
and enforcement of a wide range of worker protection laws, including 
the Fair Labor Standards Act, Family and Medical Leave Act, Migrant and 
Seasonal Agricultural Worker Protection Act, worker protections 
provided in several temporary non-immigrant visa programs, and 
prevailing wage requirements of the Davis-Bacon Act and the Service 
Contract Act. These laws collectively cover virtually all private 
sector workers, as well as State and local government employees.
    The fiscal year 2009 budget request for the Wage and Hour Division 
totals $193.1 million and 1,283 FTE, which excludes $31 million in 
estimated fee revenue from DOL's portion of the H-1B visa fraud 
prevention fee authorized by the 2004 H-1B Visa Reform Act. Given the 
strict statutory limits on the use of these funds, DOL has only been 
able to spend around $6 million in any single year. Therefore, the 
fiscal year 2009 budget cancels $30 million of the H-1B fund balances 
and proposes amendments to the Immigration and Nationality Act to 
permit a more effective use of the fraud prevention fees collected 
under this provision.
    The fiscal year 2009 budget also includes $5.1 million to hire an 
additional 75 Wage and Hour enforcement staff to target resources on 
industries and workplaces that employ low-wage immigrant workers. 
Finally, the fiscal year 2009 Budget includes $962,500 for seven legal 
enforcement support FTE for the Office of the Solicitor.
Office of Federal Contract Compliance Programs
    The fiscal year 2009 budget request for the Office of Federal 
Contract Compliance Programs (OFCCP) totals $89 million and 585 FTE. 
OFCCP is responsible for ensuring equal employment opportunity and non-
discrimination in employment for businesses contracting with the 
Federal Government. OFCCP carries out this mandate by conducting 
compliance evaluations to identify instances of systemic discrimination 
in the workplace, taking appropriate enforcement action, and providing 
relevant and effective compliance assistance programs. The fiscal year 
2009 budget request for OFCCP includes $2 million to launch the design 
phase of the Federal Contractor Compliance System, a new case 
management system to improve the effectiveness and efficiency of 
OFCCP's compliance and enforcement strategies. It will replace the 
existing OFCCP Information System, which was developed more than 20 
years ago and is functionally inadequate to meet current program needs.
Office of Workers' Compensation Programs
    The fiscal year 2009 discretionary Budget request for 
administration of the Office of Workers' Compensation Programs (OWCP) 
totals $110.2 million and 872 FTE to support the Federal Employees' 
Compensation Act (FECA) ($96.2 million) and the Longshore and Harbor 
Workers' Compensation program ($14.1 million). The fiscal year 2009 
budget for the Longshore program includes $500,000 for addressing 
workers' compensation claims submitted under the Defense Base Act for 
civilian workers in Iraq and Afghanistan.
    The OWCP budget includes mandatory funding totaling $108.2 million 
and 598 FTE for the Department's role in administering the Energy 
Employees Occupational Illness Compensation Program Act (EEOICPA). 
EEOICPA provides compensation and medical benefits to employees or 
survivors of employees of the Department of Energy and certain of its 
contractors and subcontractors, who suffer from a radiation-related 
cancer, beryllium-related disease, chronic silicosis or other covered 
illness as a result of work at covered Department of Energy or DOE 
contractor facilities. The 2009 budget requests that resources for the 
EEOICPA program activities carried out by the National Institute for 
Occupational Safety and Health be requested directly in the Department 
of Health and Human Services budget. This funding request will enhance 
congressional oversight, while improving the financial management and 
transparency of EEOICPA's dose reconstruction and Special Exposure 
Cohort program.
    Lastly, OWCP's fiscal year 2009 budget includes $37 million in 
mandatory funding and 195 FTE for its administration of Parts B and C 
of the Black Lung Benefits Act, and $52.7 million and 127 FTE in FECA 
Fair Share administrative funding.
    The 2009 budget includes two legislative proposals affecting OWCP 
programs that play a critical role in protecting workers' economic 
security, by providing monetary and medical benefits to Federal 
employees and coal miners whose ability to work has been diminished by 
an occupational injury or illness. The first re-proposes reforms to 
FECA to update its benefit structure, adopt best practices of State 
workers' compensation systems, and strengthen return-to-work 
incentives. This proposal is expected to generate Government-wide 
savings of $377 million over 10 years. The second is a proposal to 
restructure, and eventually retire, the mounting debt of the Black Lung 
Disability Trust Fund--a debt that now stands at $10 billion.
Office of Labor-Management Standards
    The fiscal year 2009 Budget request for the Office of Labor-
Management Standards (OLMS) totals $58.3 million and 369 FTE. OLMS 
enforces provisions of Federal law that establish standards for union 
democracy and financial integrity. OLMS conducts investigative audits 
and criminal investigations, primarily for embezzlement; conducts civil 
investigations of union officer elections and supervises remedial 
elections where required; administers statutory union financial 
reporting requirements; and provides for public disclosure of filed 
reports. OLMS also administers employee protective provisions created 
under Federal transit legislation. The resources requested will allow 
OLMS to continue all core mission work and to further the goals of 
union financial integrity, democracy, and transparency.
Employee Benefits Security Administration
    The Department's Employee Benefits Security Administration (EBSA) 
protects the integrity of pensions, health plans, and other employee 
benefit plans holding some $5.6 trillion in assets for more than 150 
million Americans. The fiscal year 2009 budget request for EBSA is 
$147.9 million and 867 FTE. The request will maintain the strong 
enforcement record of recent years, and support oversight of pension 
and health care plans and other employee benefits. Also in fiscal year 
2009, EBSA will transition to a streamlined, entirely electronic filing 
system for the Form 5500 Annual Report which is filed by approximately 
1 million employee benefit plans. These reports provide essential 
information on pension and other benefit plans' financial condition, 
investments, and operations. The move to electronic filing will 
substantially reduce processing times for the Form 5500 and improve the 
reliability of the data reported on the form. By making data on the 
funding of pension and other benefit plans more transparent and 
accessible, this new system will support the President's efforts to 
strengthen retirement security for the Nation's workers and retirees.
Pension Benefit Guaranty Corporation
    The fiscal year 2009 request for the Pension Benefit Guaranty 
Corporation's (PBGC) administrative expenses is $444.7 million. The 
PBGC is now responsible for paying the benefits of 1.3 million workers 
and retirees. While the Pension Protection Act of 2006 made significant 
structural changes to the retirement system, the PBGC is still not 
solvent on a long-term basis. Although PBGC will be able to pay 
benefits for some years to come, it is projected to be unable to meet 
its long-term obligations under current law. Further reforms are needed 
to address the $14 billion gap between PBGC's liabilities and its 
assets. If there is not enough money in the system to cover worker 
benefits, taxpayers are at risk for having to cover the shortfall. The 
fiscal year 2009 budget proposes to give PBGC's Board the authority to 
adjust premiums to produce the revenue necessary to meet expected 
future claims and retire PBGC's deficit over 10 years. Proposed premium 
reforms will improve PBGC's financial condition and safeguard the 
future benefits of American workers and retirees.
         increasing the competitiveness of america's workforce
Reforming the Workforce Investment System
    The fiscal year 2009 budget request for the Department's Employment 
and Training Administration (ETA) is $6.3 billion in discretionary 
funds and 1,148 FTE, which includes the 152 FTE associated with the 
legislative proposals for application fees in the permanent and 
temporary labor certification programs. Through innovative reforms, the 
budget request for ETA will allow the Department to increase the 
competitiveness of the American workforce in a knowledge-based economy.
    The United States competes in a global economy that is far 
different from the international markets of the past. In the future, as 
in the past, our long-term economic growth will also be enhanced by 
supporting international trade, by opening world markets to U.S. goods 
and services and by keeping our markets open. Congress can help create 
jobs and economic opportunity by passing the pending Free Trade 
Agreements with Colombia, Panama and South Korea. As our Nation's 
economy and businesses transform to meet the challenges of the 21st 
century, so too must the Government systems and structures that support 
our economic growth and job creation.
    It is in this context that the President has sought to transform 
worker training programs into a demand-driven system that prepares 
workers for jobs in growth sectors of the economy. The workforce 
investment system should recognize and strengthen workers' ownership of 
their careers, and provide more flexible resources and services 
designed to meet their changing needs.
    American workers will need higher levels of education and skills 
than at any time in our history, as evidenced by the fact that almost 
90 percent of new jobs in high-growth, high-wage occupations are 
expected to be filled by workers with at least some post-secondary 
education. However, the current workforce investment system does not 
provide the necessary education and training opportunities for workers. 
Too much money is spent on competing bureaucracies, overhead costs, and 
unnecessary infrastructure, and not enough on meaningful skills 
training that leads to employment opportunities and advancement for 
workers.
    To increase the quality of training offered, as well as the number 
of workers trained, the Department proposes legislative reforms to 
consolidate funds for the following programs into a single funding 
stream:
  --Workforce Investment Act (WIA) Adult Program;
  --WIA Dislocated Worker Program;
  --WIA Youth Program; and
  --Employment Service programs (including Employment Service formula 
        grants, labor market information grants, and grants for 
        administration of the Work Opportunity Tax Credit).
    States would use these funds primarily to provide Career 
Advancement Accounts (CAAs) to individuals who need employment 
assistance. CAAs are self-directed accounts of up to $3,000, an amount 
sufficient to finance approximately 1 year's study at a community 
college. The accounts could be renewed for one additional year, for a 
total 2-year account amount of up to $6,000 per worker. CAAs would be 
used to pay for expenses directly related to education and training. 
The accounts would be available to both adults and out-of-school youth 
entering the workforce or transitioning between jobs, and incumbent 
workers in need of new skills to remain employed. The funds would also 
be used by States to provide basic employment services such as career 
assessment, workforce information, and job search assistance to job 
seekers. By removing bureaucratic restrictions that can prevent workers 
from being trained, increasing the flexibility of State and local 
officials to shift funding to where it is most needed, and requiring 
the majority of dollars in the system to be spent on training, these 
reforms will significantly increase the number of individuals who 
receive job training and attain new and higher-level job skills.
Community-Based Job Training Initiative
    The fiscal year 2009 budget provides $125 million for the fifth 
year of grants under the President's Community-Based Job Training 
Initiative. This competitive grant program leverages the expertise of 
America's community colleges and takes advantage of the strong natural 
links between community colleges, local labor markets and employers to 
train workers for jobs in high-demand industries. In October 2005, the 
Department awarded the first grants totaling $125 million to 70 
community colleges in 40 States. A second competition for Community-
Based Job Training Grants was held in the summer of 2006, and in 
December 2006, the Department awarded $125 million in grants to 72 
entities in 34 States. In March 2008, the Department awarded $125 
million to 69 community colleges and community-based institutions that 
competed successfully for the third round of Community-Based Job 
Training Grants. The administration strongly supports providing 
standalone funding for this program, rather than redirecting funds from 
the National Reserve, which should be preserved to allow the Department 
to respond to emergency and unanticipated situations.
Foreign Labor Certification
    The fiscal year 2009 budget builds on our successes in reforming 
the Foreign Labor Certification programs. The Department has eliminated 
the backlog in the Permanent (PERM) program, which peaked at 363,000 
applications in 2005. In the fiscal year 2009 budget, the Department is 
requesting $78 million for the foreign labor programs, an increase of 
$24 million from fiscal year 2008. The request includes $7.5 million 
for a new case management system for the foreign labor programs, $5.7 
million to assist States in processing anticipated H-2A and H-2B 
workload increases, $4 million for Federal staff to process anticipated 
workload increases, and $6.2 million to restore funds for inflationary 
costs not provided under the fiscal year 2008 Omnibus appropriation. 
This system will allow on-line application filings, replace four 
separate systems with a single integrated system, and combat fraud by 
allowing ETA to track employers' use of the various programs.
    In fiscal year 2009, the Department will complete its reforms to 
the H-2A and H-2B Temporary Labor programs. The budget also proposes 
legislation to authorize cost-based, employer-paid application fees in 
the foreign labor programs to cover the costs of running the programs. 
This will enable the programs to efficiently manage the workload with a 
predictable funding source. It is essential to prevent the re-emergence 
of backlogs in the PERM program, and to streamline processing under the 
temporary programs.
A Second Chance for Ex-Offenders
    As you know, last month the President signed into law the Second 
Chance Act of 2007. This act builds on the work begun under the 
President's Prisoner Re-Entry Initiative, and authorizes the Department 
of Labor to award grants to nonprofit organizations to provide 
mentoring, job training and job placement services to assist eligible 
offenders in obtaining and retaining employment. The Second Chance Act 
authorizes $20 million to be appropriated in each of fiscal years 2009 
and 2010 for these grants. The administration will work with the 
Congress to determine the appropriate level of funding for the new 
program within the fiscal year 2009 Budget request of $39.6 million for 
Reintegration of Ex-Offenders, the predecessor pilot program.
Strengthening Unemployment Insurance Integrity and Promoting Re-
        Employment
    The fiscal year 2009 budget continues the administration's efforts 
to ensure the financial integrity of the Unemployment Insurance (UI) 
system, and help unemployed workers return to work promptly. Our three-
pronged approach includes:
  --A package of legislative changes that would prevent, identify, and 
        collect UI overpayments and delinquent employer taxes. These 
        changes include: allowing States to use a small amount of 
        recovered overpayments and collected delinquent taxes to 
        support additional integrity efforts; authorizing the U.S. 
        Treasury to recover UI benefit overpayments and certain 
        delinquent employer taxes from Federal income tax refunds; 
        requiring States to impose a penalty on UI benefits that 
        individuals obtain through fraud and using those funds for 
        integrity activities; and requiring employers to include a 
        ``start work'' date on New Hire reports to help identify 
        persons who have returned to work but continue to receive UI 
        benefits. We estimate that these legislative proposals would 
        reduce overpayments of UI benefits by $5 billion and employer 
        tax evasion by $400 million over 10 years.
  --A $40 million discretionary funding increase over the fiscal year 
        2008 enacted level to expand Reemployment and Eligibility 
        Assessments, which review UI beneficiaries' need for re-
        employment services and their continuing eligibility for 
        benefits through in-person interviews in One-Stop Career 
        Centers. This initiative has already yielded quicker returns to 
        work for UI beneficiaries. We estimate that a total of $155 
        million in benefit savings could result from this investment.
  --A legislative proposal to permit waivers of certain Federal 
        requirements to allow States to experiment with innovative 
        projects aimed at improving administration of the UI program, 
        and speeding the re-employment of UI beneficiaries.
    We urge the Congress to act on these important proposals to 
strengthen the financial integrity of the UI system and help unemployed 
workers return to work.
Senior Community Service Employment Program
    The fiscal year 2009 budget requests $350 million for the Senior 
Community Service Employment Program (SCSEP). At this level, SCSEP will 
support 72,000 participants. This program was rated ``ineffective'' by 
the Performance Assessment Rating Tool (PART), largely due to 
inadequate competition in the grants process, lack of data on program 
performance and impact, and duplication with other Federal programs. 
Recent legislative reforms, though limited in terms of their promotion 
of competition, will promote improvement in program efficiency 
(allowing more participants to be served per dollar), collection of 
performance data, and the share of participants placed in unsubsidized 
jobs.
Job Corps
    The budget includes $1.6 billion to operate a nationwide network of 
123 Job Corps centers in fiscal year 2009. Job Corps provides training 
to address the individual needs of at-risk youth and ultimately equip 
them to become qualified candidates for the world of work. The request 
includes $59 million for the construction of new Job Corps centers. In 
the fiscal year 2006 appropriation act, the Congress directed the 
Department to transfer the Job Corps program out of the Employment and 
Training Administration (ETA) into the Office of the Secretary. The 
2009 budget again proposes to return the program to ETA, where it had 
been administered for more than 30 years, to ensure close coordination 
with the other job training and employment programs administered by 
ETA, including the YouthBuild program.
       securing employment rights and opportunities for veterans
Veterans' Employment and Training Service
    This Nation's commitment to our veterans must be honored. No 
veteran should return home without the support that is needed to make 
the transition back to private life a smooth and successful one. For 
the Department's Veterans' Employment and Training Service (VETS), the 
fiscal year 2009 budget request is $238.4 million and 234 FTE. This 
will enable VETS to maximize employment opportunities for veterans and 
protect their employment and re-employment rights.
    The $168.9 million requested for VETS to provide State grants under 
the Jobs for Veterans Act includes an increase of $7 million above the 
fiscal year 2008 level and will help approximately 700,000 veterans 
seeking employment in the civilian workforce. The additional funds will 
help serve 185,000 Transition Assistance Program (TAP) participants in 
domestic and overseas workshops, an increase of 25,000 participants 
above the fiscal year 2008 level. TAP employment workshops play a key 
role in reducing jobless spells and helping service members transition 
successfully to civilian employment. The fiscal year 2009 budget 
includes $25.6 million for the Homeless Veterans Reintegration Program 
(HVRP), allowing the program to provide employment and training 
assistance to an estimated 15,100 homeless veterans. The fiscal year 
2009 request will also enable VETS' staff to more effectively 
administer the Uniformed Services Employment and Reemployment Rights 
Act (USERRA) to protect the civilian employment opportunities and re-
employment job rights and benefits of veterans and members of the armed 
forces, including members of the Guard and Reserve.
                             other programs
Bureau of Labor Statistics
    In order to maintain the development of timely and accurate 
statistics on major labor market indicators, the fiscal year 2009 
budget provides the Bureau of Labor Statistics (BLS) with $592.8 
million and 2,418 FTE. This funding level allows BLS to focus resources 
on its core surveys that produce sensitive and critical economic data, 
including the Consumer Price Index (CPI) and the monthly Employment 
Situation report. The CPI is a key measure of the Nation's economic 
well-being that directly affects the income of millions of Americans. 
To ensure that the CPI is accurate and up-to-date, the Budget includes 
funding of $10.4 million to continually update the housing and 
geographic samples that underlie the index to ensure that these samples 
fully incorporate the most recent demographic and geographic trends and 
changes. The current sample was derived from the 1990 Census and has 
not been updated since the late 1990s. In addition, the budget requests 
$8.7 million to cover the rising cost of the Current Population Survey, 
including enhanced efforts to safeguard respondent confidentiality, 
secure data, and maintain response rates.
Office of Disability Employment Policy
    The fiscal year 2009 budget request provides the Office of 
Disability Employment Policy (ODEP) with a total of $12.4 million and 
40 FTE. The fiscal year 2009 budget reflects the elimination of ODEP's 
grant-making function, which duplicates those of other Federal 
agencies. The fiscal year 2009 budget returns ODEP to its core mission 
of providing national leadership in developing disability employment 
policy and influencing its implementation to increase employment 
opportunities and the recruitment, retention and promotion of people 
with disabilities. The request also includes a transfer of $550,000 to 
the BLS to finalize ODEP's partnership with BLS in the development and 
testing, and for BLS to begin and sustain monthly publication, of the 
unemployment rate for people with disabilities.
Bureau of International Labor Affairs
    The request for the Bureau of International Labor Affairs (ILAB) in 
fiscal year 2009 is $14.8 million and 58 FTE. In recent years, ILAB has 
had a very large grant-making function. Several Federal agencies have 
grant initiatives that support the objectives of improving 
international labor conditions and providing educational opportunities 
to children. DOL believes funding for such international grant 
activities should be provided to the Department of State, so it can 
better coordinate these projects. The Budget returns ILAB to its 
mission of developing international labor policy and performing 
research, analysis, and advocacy. The President's Budget also includes 
$1.5 million to allow ILAB to monitor the use of forced labor and child 
labor in violation of international standards, as required in the 
Trafficking Victims Protection Reauthorization Act of 2005.
    The requested funding levels would allow ILAB to implement the 
labor supplementary agreement to NAFTA and the labor provisions of 
trade agreements negotiated under the Trade Act of 2002, participate in 
the formulation of U.S. trade policy and negotiation of trade 
agreements, conduct research and report on global working conditions, 
assess the impact on U.S. employment of trade agreements, and represent 
the U.S. Government before international labor organizations, including 
the International Labor Organization.
    ILAB will continue to implement ongoing efforts in more than 75 
countries funded in previous years to eliminate the worst forms of 
child labor and promote the application of core labor standards.
Office of the Solicitor
    The fiscal year 2009 budget includes $108.2 million and 643 FTE for 
the Office of the Solicitor (SOL). This amount includes $100.8 million 
in discretionary resources and $7.4 million in mandatory funding. The 
Solicitor's Office provides the legal services that support all of the 
five critical priorities of the Department, including litigation and 
legal advice necessary to the success of the Department's enforcement 
programs. This appropriation level will allow SOL to provide legal 
services and legal enforcement support for the nearly 200 laws the 
Department must enforce, including recently enacted legislation to 
strengthen mine safety and retirement security. The requested 
appropriation level is essential to allow SOL to fulfill its primary 
mission of ensuring that the Nation's labor laws are forcefully and 
fairly applied, and providing the legal assistance necessary to ensure 
that the Department's mission goals identified for fiscal year 2009 are 
achieved.
Women's Bureau
    The fiscal year 2009 budget includes $10.2 million and 60 FTE for 
the Women's Bureau. This budget will allow the Women's Bureau to 
continue its mission of designing innovative projects addressing issues 
of importance to working women and providing information about programs 
and polices that help women succeed in the 21st century workplace.
President's Management Agenda and Department-wide Management 
        Initiatives
    Before I close today, Mr. Chairman, I also want to highlight the 
Department's sustained efforts to implement the President's Management 
Agenda (PMA). In August 2001, President Bush sent to Congress his 
Management Agenda, a strategy for improving the management and 
performance of the Federal Government. The PMA called for focused 
efforts in the following five Government-wide initiatives aimed at 
improving results for citizens: Strategic Management of Human Capital; 
Competitive Sourcing; Improved Financial Performance; Expanded 
Electronic Government; and the Performance Improvement Initiative 
(formerly Budget and Performance Integration). DOL is also responsible 
for three of the PMA initiatives that are found only in selected 
departments: Faith-Based and Community Initiative, Real Property Asset 
Management, and Eliminating Improper Payments.
    I am proud to say that, in June 2005, the Department became the 
first Cabinet agency to earn ``green'' ratings in all five Government-
wide PMA initiatives. Through the PMA, the Department placed a strong 
emphasis on human capital and E-Government--both of which strengthen 
the integration of all the PMA initiatives. DOL's MBA Fellows program--
which I established in 2002--has been successful in bringing on bright 
new talent as we build a foundation of future leaders at the 
Department. And our E-Government efforts have provided numerous 
solutions that have supported our management efforts. I remain 
particularly proud of the Department's role as the managing partner of 
GovBenefits.gov--a partnership of Federal agencies that provides 
improved, personalized access to Government programs.
    DOL is making progress and achieving results in eliminating 
improper payments. To better support these efforts, DOL was 
instrumental in ensuring the enactment of the State Unemployment Tax 
Act (SUTA) Dumping Prevention Act of 2004--which President Bush signed 
into law in August 2004. This law provided State UI programs access to 
the National Directory of New Hires (NDNH). In 2005, the Department's 
Office of the Chief Financial Officer and the Employment and Training 
Administration launched an Unemployment Insurance (UI) pilot program in 
three States to determine how a cross-match between the NDNH and State 
UI claimant data could help identify individuals no longer eligible to 
receive UI benefits. The pilot program showed significant potential to 
detect and reduce improper payments and now 41 States are actively 
matching against the NDNH. These steps have resulted in the saving of 
millions of taxpayer dollars, but we have more work to do--and we are 
committed to seeing this effort through to the end.
    In recognition of our efforts since 2001, DOL has been honored with 
four President's Quality Awards from the Office of Personnel Management 
for our achievements and management excellence in implementing the PMA.
    The Program Assessment Rating Tool, or PART, remains central to our 
efforts at the Department of Labor to improve the performance of our 
programs. To date, 35 DOL programs have been assessed through the PART. 
The PART assessments have not only been useful to informing the public 
and policy makers of our programs' strengths and weaknesses, but they 
have provided our programs and their managers a systematic method of 
self-assessment. A PART review helps inform both funding and management 
decisions aimed at making programs more effective. The Department is 
actively implementing program improvements identified through PART 
assessments--and looks forward to building upon our progress to date.
                               conclusion
    With the resources we have requested for fiscal year 2009, the 
Department will continue its strong enforcement of worker protection 
laws, provide innovative programs to increase the competitiveness of 
our Nation's workers, secure the employment rights of veterans, and 
maintain fiscal discipline.
    Mr. Chairman, this is an overview of the programs we have planned 
at the Department of Labor for fiscal year 2009.
    I am happy to respond to any questions that you may have.
    Thank you.

    Senator Harkin. Madam Secretary, if you have more--I do not 
know why that light was on like that. If you have more, take 
the time you needed to finish. I did not mean to have that stop 
at 5 minutes.
    Secretary Chao. No. I think that is fine. Thank you.
    Senator Harkin. There was not anything else you wanted to--
--
    Secretary Chao. I saw the light coming, so I kind of 
skipped through this really quickly.
    Senator Harkin. Well, I am sorry about that. I did not mean 
to have that come on at 5 minutes. I just noticed it myself. 
Well, that is all right for our questions, but not for her 
statement. So I apologize.
    Secretary Chao. No, not at all. We try to be very 
responsive to you.
    Senator Harkin. Well, thank you, Madam Secretary. I 
appreciate that.

                         NONCOMPETITIVE GRANTS

    Madam Secretary, let me get right into it here. Something 
that has been of interest to me for the last couple of years is 
the awarding of noncompetitive grants by the Department of 
Labor.
    In his veto message last year, the President stated that 
``this bill has too many earmarks. Congressional earmarks 
divert Federal taxpayer funds to localities without the benefit 
of a merit-based process. Americans sent us to Washington to 
achieve results and be good stewards of their hard-earned tax 
dollars.''
    Now, for the record I want to point out that less than--
much less than--1 percent of the funds in the bill were subject 
to congressionally directed spending.
    However, from 2001 to 2006, the Department of Labor 
earmarked more than $250 million under the High Growth Job 
Training Initiative without any competition or transparency. 
Now, Federal regulations allow for the awarding of 
noncompetitive grants in certain situations.
    However, 90 percent of these funds raised serious questions 
for me. So last year I asked the DOL Inspector General to 
examine how these decisions were made and what we have achieved 
with these funds. The IG's report includes some troubling 
findings, including inadequate justification for the grant 
decisions, unfulfilled commitments by grantees to provide 
matching funds, and insufficient monitoring and evaluation of 
grant activities.
    So, Madam Secretary, your Department responded to the 
recent IG report by maintaining that it was not necessary or 
valuable to formally evaluate all grant activities. Well, how 
does that square with the President's veto message when he said 
that he was opposed to earmarks? How does that square with 
that? I mean, $250 million.
    Secretary Chao. The High Growth Job Training Initiative was 
originally designed to help the workforce investment system 
become more demand-driven. What we want to make sure is that 
when dislocated workers, unemployed workers invest their time 
and trust in us to come into our training system, that we give 
them relevant training. So the High Growth Job Training 
Initiative was to be a demand-driven program.
    Due to the broad-based demand for this kind of program, we 
had 450 unsolicited bids. In an effort to quickly and 
strategically respond to the workforce challenges identified by 
the high growth industries who were lacking skilled workers, 
this program was initiated.
    It was ETA's intent always from the beginning to go into a 
competitive mode, and after this initial phase, all High Growth 
Job Training grants are awarded through a competitive process.
    Just because it did not go through a competitive process, 
did not mean that it did not go through a solicitation process 
within the Department. There is something called the 
Procurement Review Board which reviews all sole-source 
contracts, and all of these contracts went through that.
    Second of all, these were all pilot programs. So after the 
pilot programs were initiated, they were all competitively bid.
    The IG report itself acknowledges that they only examined 
10 of the 133 noncompetitive grants and that many others, in 
fact, were fine. If you look at the number of the 10 grantees 
reviewed in the audit, they included the Service Employees 
International Union, the Down River Community Conference, the 
Shoreline Community College, the Maryland Department of Labor. 
This is a very wide base and it was a demand-driven initiative 
to fulfill the needs of our economy for high-skilled workers. 
Again, the purpose is to ensure that workers are getting 
relevant training, so when they graduate from our programs, 
they can actually get a real job.
    Senator Harkin. Well, Madam Secretary, I have here the 
years from 2001 to 2007. Competitive grants, 2001, 0; 2002, 0; 
2003, 0; 2004, 0; 2005, 12; 2006, 0; and 2007, 17. I do not 
know what kind of planning that is to have--let me read you the 
noncompetitive.
    Secretary Chao. But the program did not start until 2003, 
number one.
    Number two, when we are talking about our Department, we 
have a budget of $10.5 billion. The majority, 99.9 percent, of 
the grants are, number one, formulaic or they are competitive 
grants. This is a very, very small part of the total number of 
grants that are given out.
    Senator Harkin. Madam Secretary, okay, let us take 2003. As 
I said, competitive, 0, 0, 12, 0. Last year 17. I will tell you 
why.
    In noncompetitive grants, 2003, 15; 2004, 37; 2005, 55; 
2006, 21; last year, 1. Now why was it one last year? Because 
in our bill last year, we said you cannot do that anymore.
    Secretary Chao. We responded.
    Senator Harkin. Yes, that is true. You did respond. I will 
hand you that. That is true.
    But my point is that was $263.8 million for 137 grants.
    Secretary Chao. Out of an annual budget of more $10.5 
billion.
    Senator Harkin. Well, now, would you like to come up here 
and argue for Congress's directed spending? Would you like to 
talk to your boss down at the White House?
    Secretary Chao. Not at all.
    Senator Harkin. You see why I am making this point. First 
of all, I am making the point that when we do congressionally 
directed funding--and the former chairman knows this--it is 
transparent, it is open, everybody knows about it, and we 
follow up on these.
    Quite frankly, what the IG did--now, you mentioned 10. The 
first phase of the investigation by the IG took 39 grants, and 
in 90 percent of the samples, the DOL did not follow proper 
procedures for making earmarks, including a lack of 
documentation for how DOL made earmark award decisions. DOL has 
not required grantees to contribute their own funds or leverage 
funds from third parties, even though that was the basis for 
making noncompetitive awards in many cases. Now, that was the 
first phase.
    The second phase, the IG reviewed 10 grantees that 
completed their activities to find out what they did and were 
the objectives met. Thirty percent of the grant objectives were 
not met or were not clear enough to determine whether they were 
met. For example, the National Retail Federation could only 
demonstrate that it placed in employment just more than half of 
the minimum 2,500 job seeker goals that it set. Then in four of 
the nine grants where DOL justified it on the basis that 
funding organizations would match the funds, the IG could not 
identify any matching funds at all.
    So, again, we have said no. That is what our committee 
said, and obviously you have not done that anymore. You put one 
grant out but that was last fiscal year under the continuing 
resolution. So now we are going to go more to competitive 
grants.
    Now, I will say this. There is one other item I have got 
relating to this, and that is that we included bill language in 
the last appropriations bill that required all the Departments 
under our jurisdiction to provide a report to this committee on 
all funding in excess of $100,000 made available on a 
noncompetitive basis. The Education Department has submitted 
its report for the two quarters, the first quarter being last 
October, November, December; the second quarter, January, 
February, and March. We have gotten them. As of today, we have 
not received one of the required reports from the Department of 
Labor.
    Secretary Chao. That is correct.
    Senator Harkin. When are we going to get those?
    Secretary Chao. I think you might be pleased to hear that 
we have been overwhelmed with data requests from the Hill, 
number one. Number two, they have to go through clearance. So 
that currently is under clearance. I was made aware of it 
preparing for this hearing, and we are trying to get it out as 
quickly as possible.
    [The information follows:]

   LIST OF REPORTS DELIVERED TO CONGRESS AFTER THE SECRETARY'S MAY 7TH
                                 HEARING
             [Reports--Completed and Submitted to Congress]
------------------------------------------------------------------------
             Agency                    Material         Date submitted
------------------------------------------------------------------------
OSHA............................  Issuance of OSH     First quarterly
                                   Standards.          report was sent
                                                       to Congress on 5/
                                                       15/08.
OSHA............................  Regulatory Agendas  First quarterly
                                                       report was sent
                                                       to Congress on 5/
                                                       15/08.
All DOL.........................  List of Non-        First and second
                                   Competitive         quarter reports
                                   Contracts, Grants   delivered to
                                   & Awards.           Congress on 5/13/
                                                       08.
ETA/TES.........................  Status of H-1B and  First quarterly
                                   NEG Grants.         report was sent
                                                       to Congress on 5/
                                                       8/08.
ETA/TES.........................  Farmworker Housing  The report was
                                   Funds.              submitted to
                                                       Congress on 5/16/
                                                       08.
ESA/Wage Hour...................  Contractors that    The report was
                                   employ pineros.     submitted to
                                                       Congress on 5/28/
                                                       08.
DM/ASP, OSHA & ESA/Wage Hour....  National Plan on    The report was
                                   Pandemic            submitted to
                                   Influenza           Congress on 5/16/
                                   Preparedness.       08.
Job Corps.......................  Enrollment Levels.  The report was
                                                       submitted to
                                                       Congress on 5/16/
                                                       08.
EBSA............................  Schedule of EFAST2  Fourth monthly
                                                       report was sent
                                                       to Congress on 5/
                                                       30/08.
ILAB............................  Operating Plan....  The plan was
                                                       submitted to
                                                       Congress on 6/6/
                                                       08.
------------------------------------------------------------------------

    Senator Harkin. Well, the Department of Education did not 
seem to have much of a problem complying.
    Secretary Chao. I usually beat Margaret Spellings on a 
whole bunch of things, so I am not very pleased that she has 
beat me to this one. But we are going to do better on that one.
    Senator Harkin. Okay. Well, we would like to have those. 
Again, one of the reasons we are asking that request again is 
to just find out what is happening on this and where these are 
going. As I said, we in Congress in our congressional funding 
now, we have to put it in the record. It has to be out there. 
It is all transparent. Everybody knows who is doing what. We 
just want to make sure this applies to the administration. I do 
not mean just yours. I mean every administration, that they 
have to do the same thing in every one of their Departments. So 
what is good for the goose is good for the gander I guess you 
might say.
    Did my time run out? I will pick up some more questions. I 
think my 5 minutes are up here, but I will yield to Senator 
Cochran. Then I will pick up some more later.
    Senator Cochran. We could use some skilled labor training 
to figure out how to work those.
    Madam Secretary, thank you for the conscientious and 
effective work you have done as Secretary of Labor. I have been 
very impressed and we appreciate your service in that capacity.

                               YOUTHBUILD

    In our State, we are troubled and concerned about the 
availability of labor to help us rebuild and recover from 
Hurricane Katrina, and that is true not only of Mississippi, 
but Louisiana certainly and other areas there. I know there is 
a program--and it is funded in the budget request at $50 
million--called YouthBuild. I was wondering whether this is a 
program that could be helpful or has been used in training or 
trying to identify people who are at risk maybe because of the 
effects of the hurricane situation so we could put them to work 
maybe or training to fill some of the voids in the labor market 
so we can improve the performance of reconstruction. Low income 
housing comes to mind as an area where there might be a 
particular opportunity for at-risk youth to be employed there 
if they had the training and supervision necessary.
    What is the Department of Labor able to do to help in that 
situation?
    Secretary Chao. You make a very good point about the short 
supply of skilled labor, trade labor, skilled trades people, 
workers. That has been a real problem down in the gulf area and 
in rehabilitating and rebuilding the gulf area.
    At the risk of appearing as if I am going back to a topic 
that the chairman does not like, the High Growth Job Training 
Initiative actually includes skills training in the skilled 
trades because those are good paying jobs. They have good 
future prospects, and yet we have a dearth of skilled trades 
people in this country. So we do need to emphasize that.
    On YouthBuild, that was recently transferred over from HUD 
to the Department of Labor. I am pleased to say that the 
transition appears to have gone well. Both Departments thought 
it was a much better fit for YouthBuild, which is more involved 
in skills training, to be shifted over to the Department of 
Labor.
    Your suggestion that YouthBuild workers be more involved in 
the Gulf area recovery and rebuilding effort is a good one. I 
think there have been some efforts in incorporating these young 
people in this area, but certainly I think we can take another 
look at that and see how these young people can gain real life 
experience that would be very satisfying for them as they gain 
new skills and see the actual results of how their skills can 
help people.

                               JOB CORPS

    Senator Cochran. One other program that I paid a lot of 
attention to when it was first created was Job Corps. Is that 
still an active program? Is it growing, or do you have the 
funds necessary to continue to support the efforts of Job 
Corps? What is your evaluation of its effectiveness?
    Secretary Chao. I have just come back from the reopening of 
the Cleveland Job Corps Center. This was a dilapidated, old 
facility that over the last 18 months saw a $25 million 
renovation of its facilities. We want these young people--the 
national director Esther Johnson calls them at-promise young 
people--to feel pride in their surroundings and to have the 
right equipment and facilities with which to learn and gain new 
skills and put their lives back on track. So I went there 
yesterday, and I went also to the reopening of the Job Corps 
center in New Orleans just less than 3 months ago. So we have a 
very aggressive building program.
    It is under some challenge because of funding pressures, 
but overall we are very focused on ensuring that Job Corps 
remains a strong program. The new director has been focusing on 
academics. We are very concerned about ensuring, again, that 
young people get the skills that they need. So we have cut the 
budget for Job Corps in terms of the slots, which I think is a 
source of discussion, and we can talk more about that later. 
But we have about 4,000 slots that need to be reallocated, and 
part of that process is ongoing as well.
    Senator Cochran. Well, thank you very much.
    Thank you, Mr. Chairman.
    Senator Harkin. Thank you, Senator Cochran.
    Let us just pick up on that because obviously Job Corps 
centers have broad support up here, and you actually cut it. 
What is the justification for cutting Job Corps centers?
    Secretary Chao. Well, the budget request maintains a level 
of service currently offered by the Job Corps program. I think 
there is a great deal of discussion about the empty slots. 
There are about 4,000 of them. We want to ensure that there is 
funding for all current students and any students who want to 
enter the program in the future. We want to continue making 
improvements and upgrades to the facilities, but there is this 
concern about unused slots which we can discuss as well.

                 OFFICE OF DISABILITY EMPLOYMENT POLICY

    Senator Harkin. Madam Secretary, this is not a trick 
question I am going to ask you. If you were to look at 
different groups of people, categories of workers, in our 
country, what group would spring to mind that would have the 
highest rate of unemployment?
    Secretary Chao. Probably young people and disabled.
    Senator Harkin. Disabled. Thank you. Much higher. The rate 
of unemployment among disabled people who actually look for 
work, who want work is----
    Secretary Chao. 70.
    Senator Harkin [continuing]. About 70 percent.
    Secretary Chao. Yes.
    Senator Harkin. It is one of the highest. Well, your budget 
proposes a cut of $14.8 million, or a 54 percent cut, for the 
Office of Disability Employment Policy. I mean, now this 
screams out that something is wrong here. This budget proposal, 
I am told, would eliminate all grant activity at ODEP. What is 
the justification for a 54 percent cut in ODEP when we have the 
highest rate of unemployment in America among our people with 
disabilities? What is the justification for a 54 percent cut?
    Secretary Chao. Mr. Chairman, I know that you have a 
personal--I know that you are very committed to the disabled 
community.
    Senator Harkin. Actually you are too.
    Secretary Chao. I am too. I know that you started ODEP, and 
it would not have happened without you.
    Senator Harkin. Well, I appreciate that. I am not asking 
about your commitment. I know you are personally committed. I 
am just asking why this big a cut. This does not make sense to 
me.
    Secretary Chao. I think we are just going to have to differ 
on what the purpose--what the core mission of ODEP is. There 
seems to be a disagreement about whether ODEP should be a 
research or policy agency rather than a grantmaking agency. 
When we talk about grants, this is, in fact, one area in which 
we have been found that we have been unable--that it has been 
very hard to gauge what has been the real achievements or 
results of these grants. What we should be doing is working 
more with the employer community and urging them, exhorting 
them to hire more Americans with disabilities. That is not done 
through primarily grants.
    Senator Harkin. Now, Madam Secretary, as you know, this is 
a personal interest of mine and professional interest of mine, 
not just personal. So I follow this up every year, and I have 
my staff follow it.
    Last year, when you sat there, I asked you about the 
accomplishment of ODEP grant funding and your Department's 
response was, ``46 States have adopted evidence-based policies 
and practices that ODEP has developed based on the findings of 
the grants that the agency has funded.'' Well, I would think 
based on that, that ODEP should fund more grants. So I am 
getting another story from you this year than what I got last 
year. I would think based on this, we ought to be doing more of 
that grant-making.
    Secretary Chao. Well, we are continuing with grants. It is 
just not as much as you would like.
    Senator Harkin. Well, yes, a 54 percent cut, I guess not.
    Secretary Chao. We gave approximately $12 million.
    Senator Harkin. I mean, the overall cut in your budget--
your overall cut was what? 7 percent?
    Secretary Chao. No, it was not a cut. It has always been--
--
    Senator Harkin. I mean overall.
    Secretary Chao. The President's budget has always been that 
way. It has always been at this level. Then the committee has 
put more in.
    Senator Harkin. I do not mean ODEP. I mean your entire 
budget request. Is it not down from last year?
    Secretary Chao. Primarily because----
    Senator Harkin. I thought you told me in your opening 
statement it was down.
    Secretary Chao. No, not in the worker protection areas. 
Basically it is in--ODEP--the President's request has always 
been the same. It is less than what the enacted was.
    Senator Harkin. I am just saying that your overall request 
is down a few percentage points from last year.
    Secretary Chao. That is primarily probably due to the 
overhang in ETA.
    Senator Harkin. Well, but anyway, 54 percent is illogical 
to be cutting from ODEP. It is just not so. Now, again, that 
would eliminate all grant activity.
    Again, Madam Secretary, I've got to read you the law, 
Public Law 106-1033. ``Beginning in fiscal year 2001, there is 
established in the Department of Labor an Office of Disability 
Employment Policy which shall, under the overall direction of 
the Secretary, provide leadership, develop policy and 
initiatives, and award grants furthering the objective of 
eliminating barriers to the training and employment of people 
with disabilities. Such office shall be headed by an Assistant 
Secretary.''
    It did not say you may award grants. It says you shall. Now 
you have submitted a budget to me that says we will not award 
any grants, and from what I just heard you say, that is not a 
big deal with ODEP. Grant-making is just not that important. 
Well, we put it in the law specifically for that.
    That is why I asked you about it last year. I thought your 
answer last year was pretty good, you know, that 46 States have 
developed these things. I thought, well, that cries out for 
more grant activity to pursue these and to find out just what 
are the barriers. Why is it 70 percent? What are those barriers 
out there?
    Anyway, I just want to tell you this is over the top on 
that 54 percent cut. I mean, we will have to put it back in, 
but I just do not think it represents the priorities that we 
ought to be doing when we are trying to help people get 
employment.

                 BUREAU OF INTERNATIONAL LABOR AFFAIRS

    Now, there is one other area, as you know, that is an 
intense interest of mine. It is called international child 
labor.
    Secretary Chao. Right.
    Senator Harkin. You knew I was going to ask that question.
    Well, here we go. As it has done each year under this 
administration, the Department's budget drastically reduces 
funding for the elimination of child labor worldwide. Your 2009 
budget requests $14.8 million for ILAB, a decrease of $66.3 
million, or--hang on to your hats--82 percent decrease in 
funding. 82 percent. Why did you not just zero it out?
    The 2009 budget proposal will set back efforts to continue 
the positive progress. According to your own Department, this 
program has resulted in almost 230,000 children prevented or 
withdrawn from child labor and provided education opportunities 
just in 2007. That is pretty good. So, again, cut it by 82 
percent.
    You and I have disagreed on this before. You cut the budget 
and we have to fight to get it in. You have often said that one 
of the reasons the funding is eliminated is the Bush 
administration believes grant-making should not be a part of 
ILAB's mission. Is that still your position?
    Secretary Chao. I think we are going to have a disagreement 
about this. Every year we go through this, and I am sorry to be 
here to say the same thing again. But we really do disagree on 
the mission of ODEP and on the mission of ILAB. We believe that 
ILAB should go back to its core functions, and our budget 
request every year has been the same. So it has not been a cut 
from the budget request point of view.
    Senator Harkin. Madam Secretary, here is a book I just got 
handed to me the other day. It is the Honor Awards, the 95th 
Anniversary Celebration, Wednesday, April 30, the United States 
Department of Labor Honor Awards. Secretary's Exceptional 
Achievement Award, in recognition of individual employees and 
groups of employees who have achieved an unusually significant 
work product that fosters one or more of the Department's 
strategic goals. The first one was Employment Standards 
Administration.
    Here we are, next page. Bureau of International Labor 
Affairs, ILAB. Here it is right here. Office of Child Labor, 
Forced Labor, and Human Trafficking Team. In recognition of 
outstanding commitment and dedication to the implementation of 
a high quality program that has enabled more than 1 million 
children in over 75 countries to be removed or prevented from 
exploitive labor and provided with educational and training 
opportunities.
    That is what the grants do. This is not reporting. This is 
not a report. This is what ILAB has done, and you said it 
yourself and you gave them an exceptional award. So I am having 
a hard time getting my head around this one. You honor this 
team, ILAB, for what they have done, and now you tell me that 
you do not agree with this mission.
    Secretary Chao. We do not, but since the money has been 
given to us, we do have a responsibility to be good stewards of 
the taxpayers' dollars, which is why when this money was given, 
we are going to do the best we can with it, and this team did a 
good job.
    Senator Harkin. Well, I just wonder. I was in Ghana earlier 
this year too, and I noticed you here at the primary school 
outside Accra. We went out and looked at some child labor 
things in the cocoa fields and stuff in both Ghana and the 
Ivory Coast. Here is a nice picture of you with all these kids 
who have been taken away from forced labor and exploitative 
labor. I bet you were proud to stand there with them, were you 
not?
    Secretary Chao. Well, I have an interest in child labor and 
I went to visit a lot of child labor sites.
    Senator Harkin. I bet you were proud to stand there with 
them.
    Secretary Chao. I was very proud of that.
    Senator Harkin. To see those happy faces, no more 
exploitation, they are in schools, and ILAB had a big part to 
do with it.
    Now you come up here and say we should not have that 
mission? Now, Madam Secretary, have you told these people that 
you are going to request that we are going to cut them by 82 
percent?
    Secretary Chao. We are not the only ones doing this work, 
and as I mentioned, we are going to have a disagreement about 
this.
    Senator Harkin. I know you are not the only one, but you do 
a big part of it. I am just saying, have you told all these 
people you are going to request, when you see them over there--
I am going to cut your budget by 82 percent? Because what I 
keep hearing from them is are we going to be able to do our 
job. Are we going to be able to continue to do the good work 
that we do in a lot of places around the world?
    So I have a hard time understanding why you say this should 
not be a mission, and yet you seem to be quite proud of the 
work they do. You ought to be proud of it. They do a great job. 
They are doing a great job.
    As long as I am here, we are going to make sure we fund 
them. But this idea of cutting them 82 percent--budgets 
represent priorities. So when I see you cutting this 82 
percent, I've got to believe this is on the bottom rung.
    Secretary Chao. We have always had a disagreement about 
this.
    Senator Harkin. So you do not think we should be doing 
this.
    Secretary Chao. No. It is our position that we should not 
be doing it through ILAB. It should be done through some other 
agency. We have not cut this budget.
    Senator Harkin. What agency should it be done through?
    Secretary Chao. There are many other Departments within the 
Federal Government. We have not cut this budget. We have 
consistently been very steady in asking for $12 million for 
ILAB every single year, and we get more than that. If we do get 
more, of course, we are going to be responsible and try to do a 
good job with it.
    Senator Harkin. Well, I do not know. Again, it just 
represents to me a low priority, very low, and I think it ought 
to be a very high priority. You say, well, it could be done in 
other areas. Well, there are a lot of things that could be done 
in some other Department. With all due respect, Madam 
Secretary, I just do not think that is really a legitimate 
response on that, to say somebody else can do it. The fact is 
it is in your Department. It does good work. You recommend it 
with an outstanding service award.
    I would think you would tell your boss down there at the 
White House that this is something that gives us pride as 
Americans. It is one of the best things we do in some of these 
countries to help get these kids out. Maybe the President does 
not even know about it. He probably does not even know about 
it. I do not know. He has got a lot on his plate, but it would 
seem to me this would be a source of pride, which I think 
represents that picture you took. It looks like you are pretty 
proud of that.
    All right, moving right along. I wanted to also cover just 
a couple of other things.

                   OSHA SAFETY AND HEALTH REGULATIONS

    Labor-management reporting. I mentioned in my statement 
this is one area that got an increase. I have been looking at 
this OSHA thing seeing what has happened over the last few 
years. Do you realize, Madam Secretary, that during the entire 
tenure that you have been there, OSHA has issued only three 
significant safety and health regulations, two of which were 
issued as a result of court orders or lawsuits? In all these 
years, only one that you have issued that was not demanded by a 
court order or a lawsuit.
    Let me read for you what happened in the--well, I have got 
the three here. 2006, one in 2007, and another one in 2007. One 
was court ordered. One was in response to a lawsuit. Here is 
what the Clinton administration did, 18. You have got one.
    Now, lest you think this is just some kind of Democrat-
Republican thing, how about if I read you the Bush I 
administration, which was only 4 years? Bush I, 17. That is for 
4 years.
    Let us look at what President Reagan did in his two terms, 
20. You have issued one.
    Well, that indicates to me that you are just not doing much 
with OSHA in safety and health regulations. I do not know what 
your response might be to that. Why is it just one, when I go 
back over the last administrations and find it is pretty 
consistent? It is 20, 18, 15.
    Secretary Chao. I am a little bit surprised at that number. 
I do not know where it came from. OSHA has completed 23 final 
regulatory actions since 2001. We have had the lowest injury 
and illness rate ever in the history of this country. We have 
had the lowest fatality rate ever in this country. Let us look 
at results. We have also issued the most violations since 1994. 
So I am a bit puzzled also as to what that number comes from.
    Senator Harkin. I am told that those 23 do not represent 
significant safety and health. These are very minor little 
things. I did not include those in the Clinton and Bush. I will 
go back and get those too. We will probably be up around 50 in 
each one of them. So that is what I am talking about.
    Secretary Chao. We issued 23 regulations. That seems a lot 
already.
    Senator Harkin. What?
    Secretary Chao. 23 regulations since 2001.
    Senator Harkin. 23?
    Secretary Chao. Yes.
    Senator Harkin. Would you give those to us so we can see 
how significant they are?
    Secretary Chao. Sure.
    [The information follows:]
             OSHA's 23 Final Regulatory Actions Since 2001
          (title, publication date, federal register citation)
1. Recordkeeping (Interim Guidance Hearing Loss & MSDs) (Regulation) 
        (10/12/2001; 66:52031)
    OSHA delayed implementation of provisions for recording 
occupational hearing loss and musculoskeletal disorders published in 
its January 19, 2001, revised recordkeeping regulation. This delay 
provided OSHA the opportunity to gather further public comment and to 
re-evaluate the recording criteria for these specific conditions.
2. Recordkeeping Final Provisions Hearing Loss (Regulation) (07/01/
        2002; 67:44037)
    OSHA published specific criteria for recording occupational hearing 
loss on the OSHA Form 300. These criteria are set forth in 29 CFR 
1904.10. The recording criteria are a modification of the criteria 
published in OSHA's January 19, 2001, recordkeeping revision and are 
based on public comment solicited after the 2001 rulemaking.
3. Occupational S&H Standards for Shipyard Employment (Technical 
        Amendments) (07/03/2002; 67:445336)
    OSHA published technical amendments to its Shipyard Employment 
standards. This document corrected general errors, as well as several 
inaccurate cross-references in these standards.
4. Signs Signals & Barricades (Direct Final) (04/15/2002; 67:18091)
    The direct final rule amended construction standards to require 
that traffic control signs, signals, barricades, or devices protecting 
construction workers conform to Part VI of either the 1988 Edition of 
the Federal Highway Administration (FHWA) Manual on Uniform Traffic 
Control Devices (MUTCD), with 1993 revisions (Revision 3) or the 
Millennium Edition of the FHWA MUTCD (Millennium Edition), instead of 
the American National Standards Institute (ANSI) D6.1-1971, Manual on 
Uniform Traffic Control Devices for Streets and Highways (1971 MUTCD). 
By ensuring conformity on signs and signals, this rule will alleviate 
confusion among workers as well as the traveling public regarding 
hazards during road and highway construction.
5. Update & Revisions on Exit Routes (11/07/2002; 67:67949)
    The Agency revised the means of egress standards clarifying 
existing requirements so they will be easier to understand by 
employers, employees, and others who use them.
6. Recordkeeping (Regulation) (Removal of MSD Provisions) (06/30/2003; 
        68:38601)
    The final rule deleted two provisions of the Occupational Injury 
and Illness Recording and Reporting Requirements rule published January 
19, 2001. These provisions required employers to check the MSD column 
on the OSHA 300 Log if an employee experienced a work-related 
musculoskeletal disorder (MSD), and stated that MSDs are not considered 
privacy concern cases.
7. Commercial Diving Operations: Revision (02/17/2004; 69:7351)
    OSHA issued this final rule to amend its Commercial Diving 
Operations (CDO) standards. This final rule allows employers of 
recreational diving instructors and diving guides to comply with an 
alternative set of requirements instead of the decompression-chamber 
requirements in the current CDO standards. This rule recognizes 
advances in technology of diving equipment and provides greater 
flexibility.
8. Controlled Negative Pressure Fit Testing Protocol: Amendment to the 
        Final Rule on Respiratory Protection (08/04/2004; 69:46986)
    OSHA approved an additional quantitative fit testing protocol, the 
controlled negative pressure (CNP) fit testing protocol, for inclusion 
in Appendix A of its Respiratory Protection Standard. Proper fit is 
essential to the effectiveness of respirators in protecting against 
respiratory disease hazards.
9. Fire Protection in Shipyard Employment (Part 1915, Subpart P) (09/
        15/2004; 69:55667)
    OSHA promulgated a fire protection standard for shipyard employment 
that provides increased protection for shipyard workers from the 
hazards of fire on vessels and vessel sections and at land-side 
facilities. The Standard affects 669 employers and 98,000 employees. It 
is estimated that 1 death and 292 injuries (102 lost workdays/190 non-
lost workdays) will be averted annually.
10. Standards Improvement Project--Phase II (01/05/2005; 70:1111)
    The final rule removed and revised provisions of its standards that 
were outdated, duplicative, unnecessary, or inconsistent. The Agency 
estimated that the final standard would result in total annual cost 
savings of $6.8 million annually with no adverse effect on employee 
safety or health.
11. Procedure for Handling Discrimination Complaints under Section 6 of 
        Pipeline Safety Improvement Act of 2002 (04/08/2005; 70:17889)
    This document provided the final text of regulations governing the 
employee protection (``whistleblower'') provisions of Section 6 of the 
Pipeline Safety Improvement Act of 2002 (``Pipeline Safety Act''), 
enacted into law December 17, 2002.
12. Oregon State Plans: Notice of Final Approval Determination (05/12/
        2005; 70:24947)
    OSHA granted final approval under Section 18(e) of the Act to the 
Oregon State Plan, reflecting a determination that the State plan was 
at least as effective as Federal OSHA in structure and in actual 
operation. Concurrent Federal enforcement jurisdiction was relinquished 
in the State, and Federal OSHA standards no longer apply except with 
regard to those specific issues not covered by the State plan, e.g., 
Federal agencies, U.S. Postal Service, private contractors on military 
bases, maritime employment, etc.
13. Updating OSHA Standard Based on National Consensus Standards (12/
        14/2007; 72:71061)
    The direct final rule removed several references to consensus 
standards that have requirements that duplicate, or are comparable to, 
other OSHA rules, and corrected a paragraph citation in one of these 
OSHA rules. The Agency also removed a reference to American Welding 
Society standard A3.0-1969 (``Terms and Definitions'') in its general-
industry welding standards.
14. Rollover Protective Structures (12/29/2005; 70:76979)
    In 1996, OSHA replaced the existing roll-over protective structures 
(ROPS) standards that regulate the testing of ROPS used on tractors 
with references to the source consensus standards from which they were 
developed. Subsequently, OSHA identified several substantive 
differences between the national consensus standards and the original 
ROPS standards. The Agency reinstated the original ROPS standards by 
issuing a direct final rule that also contained a number of minor 
revisions that improve comprehension of, and compliance with the ROPs 
standard. Clarity will assist employers in complying with the 
standards.
15. Steel Erection: Slippery Surfaces (Revocation of Requirement for 
        Slippery Surfaces) (01/18/2006; 71:2879)
    This document revoked a provision within the Steel Erection 
Standard which addresses slip resistance of skeletal structural steel. 
The provision was revoked because it was determined that insufficient 
progress had been made in developing coatings and surface testing 
methods for meeting the requirement. As a result of the revocation of 
this provision, the projected $29.5 million annualized costs for 
affected establishments that were anticipated in the economic analysis 
for the final rule of Subpart R will not be incurred.
16. Occupational Exposure to Hexavalent Chromium (02/28/2006; 71:10099)
    OSHA amended the existing standard which limits occupational 
exposure to hexavalent chromium (Cr(VI)). This Standard reduced OSHA's 
existing permissible exposure limit and added requirements for exposure 
monitoring, medical surveillance and other protective measures. An 
estimated 1,782 to 6,546 lung cancer cases would be prevented over the 
lifetime of the current worker population.
17. Occupational Safety & Health of Contractor Employees at Certain DOE 
        Sites (06/29/2006; 71:36988)
    This notice clarifies jurisdiction and enforcement responsibilities 
of OSHA and 14 of its approved State Plans at various Department of 
Energy sites which are not subject to the Atomic Energy Act. OSHA's 
regulations in 29 CFR 1952 are amended to reflect this jurisdiction, as 
appropriate.
18. New York State Plan for Public Employees Only (08/16/2006; 
        71:47081)
    In this final rule, OSHA approved revisions to the New York State 
Plan for Public Employees Only and certified that the plan was 
structurally complete and had met all of its developmental commitments.
19. Assigned Protection Factors (08/24/2006; 71:50121)
    OSHA revised the Respiratory Protection Standard to add definitions 
and requirements for Assigned Protection Factors (APFs) and Maximum Use 
Concentrations (MUCs). The revisions supersede the respirator selection 
provisions of existing substance-specific standards with these new APFs 
(except for the respirator selection provisions of the 1,3-Butadiene 
Standard). The APF rule helps ensure that the benefits from the 1998 
revision of the Respiratory Protection Standard are fully achieved. 
OSHA estimated that the 1998 revised Respiratory Protection Standard 
would avert between 843 and 9,282 work-related injuries and illnesses 
annually, with a best estimate (expected value) of 4,046 averted 
illnesses and injuries annually, and would prevent between 351 and 
1,626 deaths annually from cancer and many other chronic diseases, 
including cardiovascular disease, with a best estimate (expected value) 
of 932 averted deaths from these causes.
20. Updating National Consensus Standards in OSHA's Standard For Fire 
        Protection in Shipyards (Direct Final) (10/17/2006; 71:60843)
    In this direct final rule, OSHA replaced the references to 11 
National Fire Protection Association standards by adding the most 
recent versions. No adverse comments were received and the Direct Final 
Rule became effective on January 16, 2007.
21. Occupational Exposure to Hexavalent Chromium [Amendment to General 
        Industry Standard for SFIC Settlement] (10/30/2006; 71:63238)
    OSHA amended its final rule governing occupational exposure to 
hexavalent chromium in general industry. This amendment implements a 
settlement agreement (Agreement) entered into among OSHA, the Surface 
Finishing Industry Council (SFIC), Public Citizen Health Research Group 
(HRG), and the United Steel, Paper and Forestry, Rubber, Manufacturing, 
Energy, and the Allied Industrial and Service Workers International 
Union (Steelworkers).
22. Subpart S Electrical Standard (02/14/2007; 72:7135)
    The Final rule revises the general industry electrical installation 
standard found in Subpart S of 29 CFR Part 1910. This rule focuses on 
safety in the design and installation of electric equipment, which 
poses a significant risk of injury or death in the workplace. This 
revision updates the standard and is based primarily on the 2000 
edition of National Fire Protection Association's national consensus 
standard for Electrical Safety Requirements for Employee Workplaces 
(NFPA 70E). The final rule is expected to prevent one to two fatalities 
per year.
23. Employer Payment for Personal Protective Equipment (11/15/2007; 
        72:64341)
    This final rule requires employers to pay for the PPE provided, 
with exceptions for specific items. The rule does not require employers 
to provide PPE where none has been required before. Instead, the rule 
merely stipulates that the employer must pay for required PPE, except 
in the limited cases specified in the standard. OSHA estimates that the 
rule will prevent about 21,800 injuries and approximately two deaths 
annually.

    Senator Harkin. Because I am told they are not. I am told 
that these do not rise to the level of a significant OSHA 
safety or health regulation.
    Secretary Chao. But let us take a look at the results. We 
have had the best injury and illness rate, the lowest fatality 
rate. We have issued the most regulations. That is what really 
matters, the overall health and safety record. Have we really 
helped the workforce become safer, healthier?
    Senator Harkin. I am going to go back to your statement 
here. Just a second here. I want to challenge you a little bit 
on this. I am going to find out why we have a little difference 
here.
    You said, ``Since 2001, the workplace fatality and serious 
injury and illness rates have fallen to record lows.'' They 
have declined by 17 percent.

                       HISPANIC WORKER FATALITIES

    Here is another thing. ``Perhaps most notable,'' your 
testimony says, ``is the reduction in the fatality rate among 
Hispanic workers, which has declined by 17 percent since 
2001.'' That is in your statement.
    Here is the Department of Labor, Bureau of Labor 
Statistics, which you just get off your Web site. ``Question: 
How many Hispanic workers have been fatally injured on the 
job?'' This is from your Web site. ``In 2006, 990 Hispanic 
workers were fatally injured while at work, a new series 
high.''
    Secretary Chao. It is the absolute number. We are talking 
about the percentages. Our workforce increases by about 1 
million workers every year. So our workforce continues to 
increase, which is why the absolute numbers will increase. But 
the percentage has decreased.
    Senator Harkin. This figure represents a 7 percent increase 
from the 923 fatalities reported in 2005. The fatality rate 
also increased from 4.9 to 5.0. Hispanic worker fatalities 
accounted for 17 percent of the total fatal work injuries that 
occurred in the United States in 2006. The rate of 5 fatalities 
per 100,000 workers recorded for Hispanic workers was a 25 
percent higher rate than the rate of 4 fatalities per 100,000 
recorded for all workers. Let me just finish this. While fatal 
work injuries to Hispanic workers increased in 2004, 2005, 
2006, they decreased in 2002 and 2003, but then they shot up.
    So you say the reduction in fatality rate among Hispanic 
workers has declined by 17 percent. Yet, your own thing says, 
no, it has increased.
    Secretary Chao. That was a 1-year result, and even though 
the up-tick occurred last year, the rate is still the lowest 
ever.
    Senator Harkin. The rate.
    Secretary Chao. Yes.
    Senator Harkin. The rate----
    Secretary Chao. Of the total workforce.
    Senator Harkin. The rate of fatalities among Hispanic 
workers as compared to the entire workforce in America is at 
the lowest point ever. Is that what you are saying?
    Secretary Chao. Yes. You are talking about the changes----
    Senator Harkin. Well, here the fatality rate is----
    Secretary Chao [continuing]. Which is what the increases or 
the decreases per year is. But if you look at the whole 
workforce, the rate is still the lowest.
    Senator Harkin. Well, let me read this again. The rate of 5 
fatalities per 100,000 workers--that is all workers--recorded 
for Hispanic workers was a 25 percent higher rate than the rate 
of 4 fatalities per 100,000 workers recorded for all workers.
    Secretary Chao. You are talking about the changes. You need 
to take a look at the whole workforce.
    Senator Harkin. Well, I am looking. When I see that 990 
Hispanics workers are fatally injured and it is a new series 
high and it represents a 7 percent increase, I do not care 
about the total workforce. You were talking about Hispanic 
workers.
    Secretary Chao. No.
    Senator Harkin. If I were to read that sentence, Madam 
Secretary, I would say, ``oh, it just declined by 17 percent. 
Boy, that is pretty good news.'' But I read this.
    Secretary Chao. Over a 7-year period, yes.
    Senator Harkin. That is not true. It is not true.
    Secretary Chao. It is true.
    Senator Harkin. Has declined by 17 percent of what?
    Secretary Chao. The OSHA injury and illness rate is down by 
17 percent between 2002 and 2006. The fatality rate is down 7 
percent between 2001 and 2006.
    Senator Harkin. For Hispanic workers.
    Secretary Chao. The Hispanic fatality rate is down by 16.7 
percent. If you took the 2001 number, take a look at 2006, it 
is a 16.7 percent decrease. OSHA inspections in fiscal year 
2007 are up by 7.6 percent.
    Senator Harkin. Well, Madam Secretary, please send that up 
to me because I would like to take a look at that because that 
is not what this says. Now, I do not know what you are talking 
about. All I can do is read what the plain English is on your 
Web site, and I will say one more time, 2006, 990 Hispanic 
workers fatally injured while at work, a new series high. It is 
a 7 percent increase reported in 2005. Per 100,000 workers, the 
rate of 5----
    Secretary Chao. It is the change.
    Senator Harkin [continuing]. Is 25 percent higher than 
before.
    Secretary Chao. You are talking about the change per year. 
You are talking about the change per year. We are talking about 
the rate overall.
    Senator Harkin. Oh, from 2001 to 2007.
    Secretary Chao. No. The rate of the whole workforce. You 
are talking about the changes from one year to the next.
    Senator Harkin. No. I am just talking about Hispanic 
workers.
    Secretary Chao. Yes, I understand that.
    Senator Harkin. You say that the fatality rate has gone 
down by 17 percent. 17 percent of Hispanic workers?
    Secretary Chao. Between 2001 and 2006.
    Senator Harkin. Of all Hispanic workers----
    Secretary Chao. Hispanic fatality rate, right.
    Senator Harkin. Has gone down by 17 percent.
    Secretary Chao. 16.7, yes.
    Senator Harkin. Well, I am sorry, Madam Secretary. You 
better change your Web site because that is not what that says. 
That is not what that says. I just read it. Unless I forgot my 
English, I mean, it just does not say that. They said here, 
while it decreased in 2002 and 2003, it has gone back up in 
2004 and 2005 and 2006. I guess we do not have it for 2007. The 
rate for Hispanics is 25 percent higher. That is for one year, 
but it is higher than it was in 2002 also. I am just reading 
from this. So maybe you need to correct your sheet here. I do 
not know.
    Secretary Chao. We will take a look.
    [The information follows:]

    Secretary Chao's testimony cited the decline in the rate of 
Hispanic fatalities, the number of Hispanic fatalities divided by 
Hispanic employment, which has fallen by 16.7 percent from 6 per 
100,000 Hispanic workers in 2001 to 5.0 in 2006.
    Senator Harkin cited the count of Hispanic fatalities, which, at 
990 in 2006, was a series high. Because Hispanic employment has grown 
substantially since 2001, this count does not lead to an increase in 
the rate of fatal work injuries to Hispanic workers.
    Also, Senator Harkin correctly noted that the Hispanic fatality 
rate in 2006 (5 per 100,000 workers) is 25 percent higher than that of 
all workers (4 fatalities per 100,000).
    Below are the numbers and rates of Hispanic worker fatalities and 
the fatality rate for all workers from 2001-2006:

----------------------------------------------------------------------------------------------------------------
                                                                    Hispanic worker fatalities      All worker
                              Year                               --------------------------------   fatalities
                                                                      Number         Rate \1\        rate \1\
----------------------------------------------------------------------------------------------------------------
2001............................................................             895             6.0             4.3
2002............................................................             841             5.0             4.0
2003............................................................             794             4.5             4.0
2004............................................................             902             5.0             4.1
2005............................................................             923             4.9             4.0
2006............................................................             990             5.0             4.0
----------------------------------------------------------------------------------------------------------------
\1\ Rate reflects the number of fatalities per 100,000 workers.

    Senator Harkin. I see our distinguished Senator from 
Washington is here, and I will yield to her for any statement 
or questions. Senator Murray?
    Senator Murray. Well, thank you very much, Mr. Chairman, 
and welcome, Secretary Chao. I am sorry I am late. I have 
several committee hearings going on today.

                  HIGH GROWTH JOB TRAINING INITIATIVE

    But I wanted to come and chat with you because in your 
testimony today and previously before this subcommittee, I have 
heard you speak about the Department's five critical priorities 
in budget and policy planning. One of those is--and I quote--
``increasing the competitiveness of America's workforce.''
    I have also heard you and many other administration 
officials talk about your agency's efforts to support the 
President's ``results-driven agenda.''
    Now, to me, ``results'' implies being able to measure the 
impact and effectiveness of programs that are supported by your 
Department. So today I was pretty disappointed that the GAO 
report released today finds that for almost $900 million spent 
under the President's demand-driven workforce agenda, your 
agency has failed to establish any kind of benchmarks that 
would allow you to adequately monitor whether any of these 
grants met the statutory requirements that they were awarded 
under or allow you to measure the performance of the programs 
that received this funding.
    Now, I initiated this report, along with Senator Harkin and 
Senator Kennedy, after we learned that the Employment and 
Training Administration awarded 90 percent of its high growth 
dollars noncompetitively over the last 6 years.
    I find the GAO's findings particularly troubling given that 
the agency intended to use these grants to shift the focus of 
our Nation's workforce development system, but because there 
has been very little planning by your agency on the front end, 
it is impossible now to compare these initiatives to the other 
programs under the Workforce Investment Act.
    It means that providing that your initiatives are more 
successful in ``increasing the competitiveness of America's 
workforce'' is really out of the question. In fact, GAO found 
that the Department failed to even integrate these initiatives 
fully under its strategic plan. Now, in my opinion, that fails 
to live up to a results-driven agenda.
    So given the findings of this GAO investigation and the 
Inspector General's audit that I believe Senator Harkin talked 
about in the High Growth grants, I think everyone on this 
subcommittee is eager to hear how you plan to demonstrate the 
effectiveness of the President's demand-driven job training 
program today.
    Reference reports: Dept. of Labor IG--Office of Audit, Rep. 
Number: 02-08-204-03-390, released April 29, 2008. GAO Report 
Number GAO-08-486.
    Can you tell us why we should continue to fund what seems 
like an effort to derail the Nation's workforce investment 
development system under WIA?
    Secretary Chao. I will be more than glad to. First of all, 
the GAO report was conveniently released this morning. We have 
not had a chance to review it.
    Number two----
    Senator Murray. Conveniently released?
    Secretary Chao. I do not have it.
    The High Growth Job Training Initiative was designed to 
respond to, as you well know, a demand-driven system. Every 
year there are in excess of $1 billion in unspent funds. There 
are duplicative structures within the system. That is an issue 
that the authorization committee has to take care of. But there 
is something called Employment Services and there is something 
called Workforce Investment Act. Much of the funding that goes 
on goes to Employment Services, which is a duplicative, side-
by-side structure next to workforce investment. If we are 
really concerned about increasing the competitiveness of our 
workforce, there is a crying need to reform the system, and 
that is what we are trying to do.
    Of the High Growth Job Training program, that is an effort 
to respond to the skills that are needed in our economy. As I 
mentioned before, if we are to have the trust and confidence of 
workers to come into our system seeking training, we need to 
give them relevant training, number one. Number two, we need to 
ensure that when they get the training, they actually can get a 
job when they leave. They demand no less. We can do no less.
    Senator Murray. Will you give us your commitment that you 
will look at this GAO report as soon as possible?
    Secretary Chao. Sure.
    Senator Murray. Will you implement its recommendations?
    Secretary Chao. I need to see what it is, but sure.
    Senator Murray. Well, we expect you to do that, and I am 
certain the committee would like to hear back about that.

                           WIA CONSOLIDATION

    I am concerned about the consolidation of the WIA funding 
streams for adult dislocated workers and youth. Obviously, that 
is something you continue to push. Even though your proposals 
have been rebutted by Congress on a bipartisan basis here, we 
have seen a continual decline in dollars in training and 
employment. This is a time when the economy is really hurting. 
Our constituents are asking how can we get the employment and 
training we need. We have seen proposals to eliminate 
employment services by zeroing out the $703 million that we 
have available for State grants. So line item after line item, 
we are seeing a continued decline in dollars here, yet people 
are very worried about holding on to their jobs. Does that not 
concern you?
    Secretary Chao. Of course, it concerns me. It concerns me 
that there are such duplication and excess funds in this system 
that is not helping people get the training that they need.
    Senator Murray. Give me a specific.
    Secretary Chao. We have $863 million, something like that, 
in unspent funds in the system.
    Senator Murray. Why is that? Is it being held back?
    Secretary Chao. We have duplicative systems. If we visit 
the workforce investment system, on the one side of the 
building is employment services. On the other side is workforce 
investment. They should be combined so that workers can get the 
training that they need. Currently that is not happening, and 
we are training people for jobs that do not exist. That is 
terrible.
    Senator Murray. That is exactly why under WIA we think the 
Workforce Development Councils at the local level who know 
their own local communities better than any of us here in 
Washington, DC----
    Secretary Chao. But they are separate from----
    Senator Murray. Well, we have a difference of philosophy 
that is not going to be solved in the next several months.
    I came in when the chairman was asking you about the 
workplace injuries and illnesses, and this is something that we 
have had a number of OSHA oversight hearings in my Employment 
Workforce Safety Subcommittee, when Dr. David Michaels 
testified recently. He told us that the true incidence--and I 
am quoting him--``is far higher than reported by the Bureau of 
Labor Statistics since these data do not include approximately 
two-thirds of occupational injuries and illnesses.''
    In all of our oversight hearings, it became very clear that 
the under-reporting of workplace injuries and illnesses is a 
serious issue today. Is this something you are hearing about or 
you are concerned about--under-reporting?
    Secretary Chao. I do not believe there is under-reporting, 
but if you are concerned about it, I will take a look at it.
    Senator Murray. This is something that our committee looked 
extensively at. It is very clear that there is under-reporting 
throughout the process. We will give you some of our hearing 
backgrounds because I think it may change your view on whether 
or not there is a decreased number of injuries.
    Mr. Chairman, I have several other questions I will submit 
for the record, but I appreciate the opportunity this morning. 
Thank you, Madam Secretary.
    Secretary Chao. Thank you.
    Senator Harkin. Thank you, Senator.

                            WIA RESCISSIONS

    I would just follow up a little bit on that, Madam 
Secretary. Of the 20 States that responded, 19 reported they 
needed waivers so they could cover the rescissions with fiscal 
years 2007 and 2008 funds. In other words, they did not have 
enough 2005 and 2006 funds left that could be used to cover the 
rescission. We went through this last year.
    Secretary Chao. We did not ask for the rescission. It was 
the Congress.
    Senator Harkin. No.
    Secretary Chao. I take it back. I am sorry.
    Senator Harkin. Yes. You asked for $335 million and we 
did--well, let me get the right figure here. Yes, we did $250 
million. You asked for $335 million.
    Secretary Chao. So the question was----
    Senator Harkin. Well, I am just pointing out that the 
States did not have enough funds. I just thought I heard you 
say that there is all this leftover money out there. Did I hear 
that?
    Secretary Chao. Yes.
    Senator Harkin. Yes. Well, the data we have does not show 
that there is all that leftover money. Of 20 States that 
responded, 19 said they needed waivers.
    Secretary Chao. Okay. I will take a look at that.
    [The information follows:]

    As indicated in the attached table, a total of 47 States 
(including the District of Columbia and the Navaho Nation) have 
requested approval to use Program Year (PY) 2007 funds to 
satisfy the rescissions. The appropriations language 
specifically allows the Secretary to grant such approval. 
However, the appropriations language does not contain any 
authority for the Secretary to grant a waiver enabling a State 
to pay back money due to the rescission from a subsequent 
program year (i.e., PY 2008). Therefore, a waiver allowing the 
use of Program Year 2008 or other future funds cannot be 
granted and no States have made such a request. Additionally, 
the State of Tennessee has requested a separate waiver in 
response to the rescissions that will provide greater 
flexibility in the recapture and reallocation of local funds. 
This waiver does not contradict any of the requirements 
contained within the rescissions and is regularly granted under 
the Workforce Investment Act.

DEPARTMENT OF LABOR EMPLOYMENT AND TRAINING ADMINISTRATION $250 MILLION 
RESCISSION OF UNEXPENDED BALANCES DISTRIBUTION OF RESCISSION BY FUNDING 
                    YEAR AS REQUESTED BY THE STATES


----------------------------------------------------------------------------------------------------------------
                                                                  Funding year                      Requested
                     State                      ------------------------------------------------  waiver to use
                                                     PY 2005         PY 2006         PY 2007      PY 2007 funds
----------------------------------------------------------------------------------------------------------------
ALASKA.........................................         645,570         752,251  ..............               N
ALABAMA........................................         864,407         876,360       1,118,950               Y
ARKANSAS.......................................  ..............       1,308,786       2,915,426               Y
ARIZONA........................................          74,501       3,512,795       5,891,464               Y
CALIFORNIA.....................................         262,937       1,501,341      11,790,901               Y
COLORADO.......................................          51,160       3,569,938       5,144,692               Y
CONNECTICUT....................................  ..............  ..............         669,896               Y
DC.............................................  ..............  ..............       2,292,101               Y
DELAWARE.......................................  ..............         378,486          58,289               Y
FLORIDA........................................       1,659,910       2,099,438       6,833,750               Y
GEORGIA........................................  ..............       7,183,495       2,250,192               Y
HAWAII.........................................  ..............  ..............         239,536               Y
IOWA...........................................  ..............         286,198         993,132               Y
IDAHO..........................................  ..............  ..............         210,683               Y
ILLINOIS.......................................       1,220,530       5,203,752       1,751,880               Y
INDIANA........................................       6,876,594       4,093,268  ..............               N
KANSAS.........................................  ..............         751,532       4,896,619               Y
KENTUCKY.......................................          82,357         135,469       2,290,279               Y
LOUISIANA......................................  ..............  ..............       4,426,629               Y
MASSACHUSETTS..................................         393,273         789,873         431,815               Y
MARYLAND.......................................  ..............  ..............       2,087,739               Y
MAINE..........................................  ..............         220,066          40,068               Y
MICHIGAN.......................................         216,223         123,913       5,213,936               Y
MINNESOTA......................................  ..............         573,853         294,427               Y
MISSOURI.......................................  ..............  ..............       1,503,748               Y
MISSISSIPPI....................................          30,677       1,912,858       1,407,583               Y
MONTANA........................................  ..............         189,376  ..............               N
NORTH CAROLINA.................................       1,561,572  ..............       1,308,565               Y
NORTH DAKOTA...................................         238,238  ..............         147,895               Y
NEBRASKA.......................................         437,191       1,154,684         759,836               Y
NEW HAMPSHIRE..................................  ..............         216,222         145,238               Y
NEW JERSEY.....................................  ..............  ..............       2,393,715               Y
NEW MEXICO.....................................         132,350       1,489,196       1,185,327               Y
NEVADA.........................................  ..............  ..............         390,190               Y
NEW YORK.......................................      20,657,557       9,954,817       7,053,353               Y
OHIO...........................................       2,500,000      10,557,343       6,725,717               Y
OKLAHOMA.......................................         822,272       5,221,830       4,213,712               Y
OREGON.........................................         674,514       1,925,147       2,231,011               Y
PENNSYLVANIA...................................  ..............  ..............       4,434,297               Y
PUERTO RICO....................................       3,170,099       6,581,296  ..............               N
RHODE ISLAND...................................  ..............  ..............         314,971               Y
SOUTH CAROLINA.................................  ..............  ..............       5,637,141               Y
SOUTH DAKOTA...................................  ..............         555,825         362,605               Y
TENNESSEE......................................         661,037       5,153,561       4,508,974               Y
TEXAS..........................................       5,782,445       3,635,845  ..............               N
UTAH...........................................  ..............       1,884,533  ..............               N
VIRGINIA.......................................       1,279,747       2,510,039         868,365               Y
VERMONT........................................  ..............  ..............         141,574               Y
WASHINGTON.....................................  ..............  ..............       2,651,487               Y
WISCONSIN......................................  ..............  ..............         583,404               Y
WEST VIRGINIA..................................  ..............  ..............         476,806               Y
WYOMING........................................  ..............          78,180         184,289               Y
NAVAHO NATION..................................          73,492  ..............       1,777,574               Y
                                                ------------------------------------------------
      Total....................................      50,368,654      86,381,565     113,249,781
----------------------------------------------------------------------------------------------------------------

    Senator Harkin. Okay.

                       WORKERS COMPENSATION DATA

    Madam Secretary, I want to cover a couple of other issues 
with you. One is this. Your whole statement about the fact that 
injuries are down and fatalities are down. Serious injury and 
illness rates have fallen to record lows, et cetera. I went 
over the Hispanic thing with you. I will not go back over that. 
Just the totality of it, and we are finding some really 
disturbing information here.
    I will just read this again. This is from your own Web 
site. ``While BLS occupational injury and illness data have 
been the subject of scrutiny from time to time, a study 
released in early 2006 is the first specific research 
documenting missing cases in individual firms as determined by 
comparisons between BLS and State workers compensation data.''
    Well, I have asked my staff to take a closer look at this. 
It looks like what we have here is under-reporting. So how do 
we know that what you are telling us is so when your own BLS 
says that the first specific research documented missing cases 
out there? So how do we know that these figures are even 
remotely correct when BLS says that there are missing cases out 
there documented that they picked up?
    In other words, what they did is they went to State 
workman's comp offices, looked at people who had got workman's 
comp for an injury, looked at the injury data from that place 
back to your Department and said they were not reported. They 
were injured or had serious illness--I do not know which--were 
receiving workman's comp but were not reported. This is very 
disturbing that we do not know. That way we do not have the 
accurate data.
    Secretary Chao. OSHA conducts audit programs for these. 
They do audits of all these programs, and OSHA has conducted 
these audit programs for about the last 10 years. They believe 
that the accuracy rate is about 90 percent.
    Senator Harkin. Well, the Bureau of Labor Statistics is 
saying that they have got missing cases that they documented. 
So if OSHA is out there doing it, they are missing something. 
Something is being missed here. What I do not know is the 
extent of it. We do not know the extent of it. I intend to get 
to the bottom of it sometime either this year or next or 
something like that and find out. We may include language in 
this bill to find out. I may have to get the GAO to do another 
investigation. I do not know.
    Secretary Chao. We will be more than glad to work with you 
because OSHA basically checks the record keeping on every 
inspection that it does.
    Senator Harkin. If the BLS says they are not doing it right 
or they are missing something, then you have got to wonder 
about the validity of their data.

                      LM-30 REPORTING REQUIREMENTS

    Now, as I said earlier, only three significant safety and 
health regulations were issued, and you are going to send me 
these other ones that you did so I can see what they look like.
    In contrast, however, DOL has issued revised regulations 
for the LM-2 and the LM-30 reporting programs. Now, I have 
heard a lot about this. The new LM-30 reporting requirements 
force rank and file union members to report on personal loans 
even at market rates, such as a mortgage, student loan, or car 
loan. Because of these reporting requirements, unions are 
telling me that this has a dampening effect, discouraging 
members from serving even as a shop steward because then they 
have got to give all this data out, or they do not serve as 
board members.
    Now anticipating that you might say, ``Well, this has to do 
with ensuring there are no conflicts of interest,'' these are 
loans that are offered to the general public. These are market 
rate loans, and yet you are requiring that data to be 
submitted.
    So I am just wondering what is the purpose of having rank 
and file union members report on personal loans that they get 
at market rates, such as mortgages, student loans, car loans, 
et cetera, since these loans in question are on terms offered 
to the general public. What is the purpose of collecting that 
kind of data?
    Secretary Chao. You know, there is so little that we do in 
OLMS. We have only issued two regulations--not even issued. We 
have updated these regulations, LM-2, LM-30s. They have not 
been updated since 1959. The LM-30s are required by law, and 
there was very bad compliance. Until we focused on this, there 
was no compliance at all. I have no other laws within the 
Department of Labor in which there is no compliance. With LM-
2s, it was 50 percent compliance within a 3-year period.
    This is a very small office. The budget is only $50 million 
in a budget of $10.5 billion.
    On the issue that you raise, if there is no conflict of 
interest, then there is no need to file.
    Senator Harkin. Well, I am told they have to file it if 
they have got a loan, if they have got a mortgage or they have 
got a student loan or a car loan. They still have to file that. 
Is that wrong?
    Secretary Chao. I will check into that for you. If there is 
no conflict of interest, then there is no need to file. The 
only purpose for this is to ensure that rank and file members 
know about non-arm's-length transactions occurring with the 
leadership of their unions.
    Senator Harkin. I have no problem with that. Well, maybe my 
information is wrong. I do not know. We will find out.
    Secretary Chao. If there is a misunderstanding, we need to 
clarify that.
    Senator Harkin. Will you have somebody find out for me if 
this is wrong or not?
    Secretary Chao. Sure.
    [The information follows:]

    Under the revised Form LM-30 rules, no report is due unless 
there is a potential conflict of interest. For this reason, 
there are different rules depending on whether the financial 
institution is affiliated, or does business, with the union.
    Generally, a union official or employee filing a Form LM-30 
need not report bona fide loans, interest or dividends from 
national or State banks, credit unions, savings or loan 
associations, insurance companies, or other bona fide credit 
institutions, so long as these transactions are made on terms 
unrelated to the official's status in the labor organization.
    However, union officials and employees must report such 
payments when the labor organization established, or selects 
the directors of, the financial institution. In this 
circumstance, there is a potential conflict of interest because 
of the potential for self dealing when a financial institution 
affiliated with a union is lending money, or making other 
payments, to an official of that union.
    In addition, loans to union officials must be reported when 
made by financial institutions that do business with the union 
or union-affiliated organizations, or do substantial business 
with the employer of the union members. The potential conflict 
of interest is plain. Union members have a right to know if 
their union is doing business with a financial institution 
because it is offering the best terms available or because a 
union official is getting special deals from the institution.
    Finally, there is never any requirement to report everyday 
financial matters such as credit card transactions (including 
unpaid balances) or interest and dividends paid on savings 
accounts, checking accounts or certificates of deposit.

    Senator Harkin. But I would just point out that on page 157 
of your performance and accountability report, you say that 
OLMS--I quote--``met its target of 7.5 percent for the 
percentage of unions with indicators of fraud. Private sector 
research indicates that this rate of fraud is significantly 
lower than fraud in corporations, which is estimated at 10 
percent.'' So, again, why do we keep increasing the money for 
that office when your own thing says it has met its target of 
7.5 percent? Why keep asking for more money and for more 
people?
    Secretary Chao. In the 1980s, the compliance audits was 
about 1,500. By the year 2000, there were less than 204 
international audits. There were international audits in fiscal 
year 2000 of two labor unions. Of the 33,000 labor 
organizations, only 3,000 have been audited since 2001. This is 
required by the law. The FTE in that little office was slashed 
more than 7--I do not want to say 7--my impression was 70 
percent. We are just trying to build it up. In the late 1980s, 
the FTE was 435. We are currently at 321. It is still much 
below what it was then. In the decade of the 1990s, the FTEs 
were slashed. There are international unions that have never 
been audited.
    Senator Harkin. Again, your documentation here--this is 
from your performance and accountability report. I was 
intrigued by this because here on page 156 it talks about the 
union financial integrity and transparency. That is where we 
got the 7.5 percent.
    Down here it says, ``Percent of union reports meeting 
standards of acceptability.'' Your target for fiscal year 2004 
was 75 percent. The result, 92 percent. Your target for 2005 
was 95 percent. The result was 94 percent. Fiscal year 2007 
goal was 95 percent. I am sorry. The target was 97 percent. The 
result is 95 percent. So 95 percent of union reporting meeting 
standards of acceptability are 95 percent.
    Secretary Chao. That is great. That is how it should be. 
But you have to have audits.
    Senator Harkin. But now you are telling me--I thought I 
just heard you say that these were not acceptable reports and 
stuff that were coming in, and so you have to have more audits. 
I am saying no.
    Secretary Chao. We have to have audits.
    Senator Harkin. By your own thing----
    Secretary Chao. But that is our statutory responsibility. 
We have to conduct audits. We have not been conducting audits.
    Senator Harkin. When did you start?
    Secretary Chao. No, no. They have been going on, but it has 
been much reduced. In fiscal year 2001, for example, we did 220 
audits.
    Senator Harkin. When?
    Secretary Chao. Fiscal year 2001, I believe. We did 220 
audits. There were 110 indictments. That is an incredible 
number. What we are trying to do is to enforce the law.
    Senator Harkin. That was 2001?
    Secretary Chao. Yes. It was 2001. I do not have the exact, 
but it is around that time frame. Yes. I can get that for you.
    [The information follows:]

    OLMS audits, indictments and convictions for each year 
2001-2007 are as follows:

----------------------------------------------------------------------------------------------------------------
                                                                   Fiscal year
                                         ---------------------------------------------------------------  Total
                                            2001     2002     2003     2004     2005     2006     2007
----------------------------------------------------------------------------------------------------------------
Indictments.............................       99      166      131      110      115      121      100      842
Convictions.............................      102       89      152      111       97      133      118      802
Compliance Audits (CAP).................      238      277      255      532      612      737      775    3,426
International Compliance Audits  (I-CAP)        1        2  .......        1        7        5        7       23
----------------------------------------------------------------------------------------------------------------

    Senator Harkin. The figures you just gave me--there were 
220----
    Secretary Chao. Audits done in fiscal year 2001.
    Senator Harkin. 110 indictments.
    Secretary Chao. Yes.
    Senator Harkin. Do you know what they were for subsequent 
years?
    Secretary Chao. I do not have that. That was just the first 
year. The Inspector General's Semi-Annual Report shows all of 
the activities in OLMS as does the OLMS Annual Report as well.
    Senator Harkin. Would you get me the same type of data, how 
many audits and how many indictments for every year?
    Secretary Chao. Yes. I thought I had that, but I do not.
    Senator Harkin. I just do not have it. All I have got is 
this right here.
    Secretary Chao. But again, we are just trying to enforce 
the law here and to ensure compliance. That is all.

                       LABOR-MANAGEMENT REPORTING

    Senator Harkin. Well, I guess my point is that--I remember 
one time a long time ago when we were having a debate on food 
stamp fraud and people were going on about all the fraud in 
food stamps and stuff. I made the point. I said there is a 
clear way to stop all fraud in food stamps or any other 
Government program like that. You just make sure that every 
recipient has an account assigned to them and a priest, rabbi, 
or minister. You will stop all the fraud. Of course, it will 
cost 10 quadrillion dollars to do it, but you will not have any 
fraud.
    So, again, in all of these things, it has to do with what 
is the acceptable level, and if we are down to 7.5 percent in 
indicators, then it seems to me that to be adding more money 
and more money and requiring more reports does not seem to be 
cost effective.
    Secretary Chao. This is one of the least regulated areas in 
the whole Department. As I mentioned, there have only been two 
regulations, LM-2, LM-30s, and there has been very little 
compliance. With LM-2s, we can get you the numbers on that, and 
there has been a tremendous decrease in audits, tremendous 
increase in enforcement, tremendous decrease in compliance. It 
is not that we are singling out any one community. We are just 
trying to enforce the law, and the record for compliance in 
this area has been very disappointing.
    Senator Harkin. I come back to that point and you have only 
issued three in 8 years, three OSHA. But you are going to send 
me the other 23 too I guess and let me take a look at it.
    Secretary Chao. OSHA has a huge program. This is a little 
agency of $50 million. It has a disproportionate level of 
attention. I do not understand it. It is not that we are 
singling it out. It is a $50 million little agency. All we are 
trying to do is enforce two regulations.
    Senator Harkin. Yes, but the LM-30s that you have issued, 
in terms of all this reporting--but you are going to tell me 
whether or not it is right that they have to report all these 
things.
    Secretary Chao. Yes, we will.
    Senator Harkin. I will find out about that.
    Secretary Chao. We have actually had workshops to try to 
clarify, not that it is so complicated, but what is requested. 
We have actually held workshops. But we will certainly provide 
that information.
    Senator Harkin. I would like to know whether I am right on 
that or not. I do not know.

                         MINE SAFETY AND HEALTH

    In November 2007, the DOL Inspector General issued a report 
regarding missed safety and health inspections in underground 
coal mines. MSHA is required by law to inspect underground 
mines not fewer than four times a year. Here is what the IG 
found. During fiscal year 2006, 15 percent of the Nation's 
underground coal mines were inspected at least one time fewer 
than the four times required by law. Second, the number of 
inspectors relative to mining activity increased from fiscal 
year 1997 to 2001, but decreased significantly, 25 percent 
inspectors--decreased 25 percent from fiscal year 2002 to 2006. 
MSHA said inspector resource limitations affected their ability 
to complete all of the required inspections in fiscal year 
2006, noting that lack of funding prevented MSHA from hiring or 
filling vacancies.
    Again, it is priorities. You are asking more money for 
labor-management reporting, which I pointed out you said you 
have already met your goal of 7.5 percent, and yet you cut the 
funding from MSHA. Your request is $332 million. It is a 
reduction of almost $2 million from the amount provided in 
2008. Congress had to provide MSHA with $20 million more than 
your budget request last year to help MSHA meet its 
obligations. So, again, on the one hand, you are putting more 
money here, but you are taking money out of MSHA. I have to 
wonder about priorities here.
    Secretary Chao. The budget request for OLMS is the same 
this year as it was last year. Last year the Congress added 
$936 million more to the President's request for worker 
protection, and yet it cut $2 million from OLMS. We are just 
asking for the same amount of money in an effort to try to 
restore the funding and the functions of this office to pre-
1991 levels.
    On the issue of worker protection, we have consistently 
asked for increased budgets for worker protection programs 
throughout our whole tenure here. In 2008, MSHA's budget was 
not cut. There was a one-time expense to MSHA such as roof 
replacement for the MSHA academy, high methane detectors for 
inspectors. We have had earmarks of $3.4 million, Wheeling 
Jesuit, $1.2 million; UMWA, $2.2 million. We have had 
regulations for technical support equipment. These are one-time 
expenses. So if you take out the one-time expenses, our request 
this year is actually higher than the previous year.
    Senator Harkin. Okay. Is your budget request less than what 
we provided last year for MSHA?
    Secretary Chao. Yes, it is.

                           ERGONOMIC INJURIES

    Senator Harkin. Ergonomics. Again, this has been an issue 
that quite frankly, Madam Secretary, we just keep kicking the 
can down the road on ergonomics. As you know, that was the 
first thing I think that President Bush argued for after he 
took office.
    One-third of all injuries--we were told, approximately one-
third--and illnesses and days away from work are 
musculoskeletal disorders from exposure to ergonomic hazards on 
the job. In 2006, 375,540 serious ergonomic injuries resulting 
in time off the job reported by employers.
    Getting back to issuing regulations, 375,540. Yet, no 
regulations.
    In 2002 you, Madam Secretary, announced a comprehensive 
plan to address ergonomic injuries, including ``industry-
targeted guidelines and tough enforcement measures.'' Those 
were your words. To quote you further, ``Our goal is to help 
workers by reducing ergonomic injuries in the shortest possible 
timeframe.''
    Well, let us see what has happened. OSHA has only issued 19 
ergonomic citations since 2001, and there was one in 2005, none 
in 2006 or 2007. In 2006, there were 375,540 serious ergonomic 
injuries resulting in time off the job.
    According to information you provided to the committee last 
year, the number of hazard alert letters also appears to be 
declining. In 2003, there were 224 ergonomic hazard alert 
letters issued. In 2004, 109. The number fell to 52 in 2005 and 
31 letters issued in 2006.
    So if we see there were 375,540 serious ergonomic injuries 
in 2006, why have the number of hazard alert letters declined 
so significantly? Is OSHA inspecting workplaces for ergonomic 
hazards?
    Secretary Chao. Yes.
    Senator Harkin. They are.
    Secretary Chao. Yes.
    Senator Harkin. But then why are the hazard alert letters 
going down when we see all these injuries?
    Secretary Chao. We send out approximately 625 hazard alert 
letters.
    Senator Harkin. How many?
    Secretary Chao. 625.
    Senator Harkin. 625? When?
    Secretary Chao. I do not have those dates. I can get that 
for you, but we have sent approximately 625 hazard alert 
letters to notify employers of ergonomic problems.
    We have also issued final ergonomic guidelines for nursing 
homes, retail grocery stores, poultry processing, and 
shipyards. We have also conducted over 700 ergonomic 
inspections per year, and overall ergonomic injuries have been 
declining.
    Senator Harkin. Well, just a second about that. I will tell 
you that I do not have 2001 or 2002, but I do have 2003, 2004, 
2005, and 2006, and that adds up to maybe 330-some. I do not 
know where the 625 comes from. Maybe that comes from 2001 and 
2002 that I just do not have here.
    My point is that it went from 224 to 109 to 52 to 31, and I 
am just wondering why are the number of hazard alert letters 
going down so precipitously.
    Secretary Chao. I will take a look at the numbers, but I 
think, as I mentioned, we have issued approximately 625 hazard 
alert letters. I will go and try to clarify that for you.
    [The information follows:]

    The Occupational Safety and Health Administration did not 
start tracking the ergonomics hazard alert letters until mid-
2002 when the Secretary's four-pronged ergonomics program was 
launched. For 2002-2008, the following information is provided 
on the number of ergonomics hazard alert letters that were 
issued by OSHA:

------------------------------------------------------------------------
                         Year                            Alert letters
------------------------------------------------------------------------
2002.................................................                 31
2003.................................................                259
2004.................................................                128
2005.................................................                 81
2006.................................................                 38
2007.................................................                 49
2008.................................................            \1\ 18
------------------------------------------------------------------------
\1\ Through April 2008.

    Secretary Chao. Let us take a look at the injury rate 
involving days away from work declined because of ergonomic 
injuries--our injury rate for all injuries, and they have 
basically have been declining. So in terms of injuries and days 
lost in terms of work, the trend again has been positive and it 
has been better than in previous years.
    Senator Harkin. I would ask you to submit that for the 
record what data you have on showing that decline in ergonomic 
injuries. Again, I will just say once again if BLS says that 
they have evidence that they are documenting missing cases 
because they have workman's comp cases out there but they are 
not being reported, then I wonder about the validity of how 
much ergonomic injuries are going down. Even if they are going 
down, in 2006, it was 375,540. So even if it is coming down, 
that is way, way----
    [The information follows:]

   NUMBER AND INCIDENCE RATE OF OCCUPATIONAL INJURIES AND ILLNESSES 
INVOLVING DAYS AWAY FROM WORK WITH MUSCULOSKELETAL DISORDERS IN PRIVATE 
                     INDUSTRY FOR ALL UNITED STATES


------------------------------------------------------------------------
                                     Number of cases    Rate per 10,000
               Year                        \1\              workers
------------------------------------------------------------------------
2006..............................            357,160               38.6
2005..............................            375,540               41.3
2004..............................            402,700               45.2
2003..............................            435,180               49.6
2002 \2\..........................            487,915               55.3
2001..............................            522,528               57.5
------------------------------------------------------------------------
\1\ Includes cases where the nature of injury is: sprains, strains,
  tears; back pain, hurt back; soreness, pain, hurt, except back; carpal
  tunnel syndrome; hernia; or musculoskeletal system and connective
  tissue diseases and disorders and when the event or exposure leading
  to the injury or illness is: bodily reaction/bending, climbing,
  crawling, reaching, twisting; overexertion; or repetition. Cases of
  Raynaud's phenomenon, tarsal tunnel syndrome, and herniated spinal
  discs are not included. Although these cases may be considered MSDs,
  the survey classifies these cases in categories that also include non-
  MSD cases.
\2\ Effective January 1, 2002, the Occupational Safety and Health
  Administration (OSHA) revised its requirements for recording
  occupational injuries and illnesses. Due to the revised recordkeeping
  rule, estimates from the 2002 survey are not comparable with those
  from previous years prior to 2002.

Source.--BLS Annual Survey of Occupational Injuries and Illnesses.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Secretary Chao. We are concerned about it, of course.
    Senator Harkin [continuing]. Way too many.
    Secretary Chao. Yes, but that is the overall measurement, 
is it not? Overall injuries and illnesses?
    Senator Harkin. Yes, but you have only issued 19 ergonomic 
citations since 2001. You had one in 2005 and none in----
    Secretary Chao. We have a four-prong approach. It is 
enforcement. It is education and outreach. It is research. It 
is compliance assistance. Obviously that four-prong approach is 
working.
    Senator Harkin. Well, when there are 375,540 in 2006, it 
does not seem like it is working too well.
    Secretary Chao. Obviously, it is working. The current 
approach has provided positive results, but we can always do 
better.
    Senator Harkin. Your National Advisory Committee on 
Ergonomics recommended 16 industries for the development of 
guidelines, but only 4 were issued. Do you have a timeline when 
the rest of them will be issued?
    Secretary Chao. The appropriations bill last year asked us 
to further evaluate these 16 and that is what we are doing now.
    Senator Harkin. I am sorry.
    Secretary Chao. The fiscal year 2008 appropriations bill 
asked for the Department to further evaluate these 16, and we 
are doing so.
    Senator Harkin. You are evaluating the 16? Four were 
issued.
    Secretary Chao. Right. There were 16 additional ones. You 
are asking for 16 additional ones.
    Senator Harkin. You are evaluating those now?
    Secretary Chao. So we are looking at those, yes.
    Senator Harkin. Okay. Well, just let us know when those are 
going to be issued.
    I do not have the 2007 figures for ergonomic injuries. Do 
you have them for 2001, 2002, 2003, 2004, and 2005?
    Secretary Chao. I do not have them with me.
    Senator Harkin. I only have 2006.
    Secretary Chao. I will provide them.
    [The information follows:]

    The Department of Labor has taken a comprehensive approach to 
ergonomics since 2002, including development of industry- and task-
specific guidelines, enforcement, outreach and assistance, and 
research. As part of this effort, OSHA has committed considerable 
resources to preventing MSDs in the workplace.
    OSHA published guidelines for three industries recommended for 
guideline development by the National Advisory Committee on Ergonomics 
(NACE): nursing homes, retail grocery, and poultry processing. OSHA has 
also just recently published its fourth set of guidelines in the 
series, which is Ergonomics for the Prevention of Musculoskeletal 
Disorders: Guidelines for Shipyards.
    Further OSHA analysis has identified industries for which the 
incidence rates for MSDs resulting in days away from work were more 
than twice the national average for at least 2 of the 3 years for which 
data were examined. The analysis identified the following 24 
industries:
    (NAICS 238140) Masonry contractors
    (NAICS 311423) Dried and dehydrated food manufacturing
    (NAICS 311500) Dairy product manufacturing
    (NAICS 312000) Beverage and tobacco product manufacturing
    (NAICS 321992) Prefabricated wood building manufacturing
    (NAICS 327100) Clay product and refractory manufacturing
    (NAICS 331420) Copper rolling, drawing, extruding and alloying
    (NAICS 331500) Foundries
    (NAICS 334416) Electric coil, transformer, and other inductor 
manufacturing
    (NAICS 336100) Motor vehicle manufacturing
    (NAICS 336214) Truck trailer and camper manufacturing
    (NAICS 336391) Motor vehicle air-conditioning manufacturing
    (NAICS 336600) Ship and Boat Building
    (NAICS 337215) Showcase, partition, shelving, and locker 
manufacturing
    (NAICS 424400) Grocery and related product merchant wholesalers
    (NAICS 424800) Beer, wine and distilled alcoholic beverage merchant 
wholesalers
    (NAICS 444100) Building material and supplies dealers
    (NAICS 481000) Air transportation
    (NAICS 485100) Urban transit systems
    (NAICS 492000) Couriers and messengers
    (NAICS 493100) Warehousing and storage
    (NAICS 562100) Waste collection
    (NAICS 621900) Other ambulatory health care services
    (NAICS 623000) Nursing and residential care facilities
    OSHA is currently reviewing this list to determine the next 
industries to target with ergonomics guidance beyond guidance that has 
already been issued.

    Senator Harkin. I would like to see how much they are 
declining by.
    Secretary Chao. Okay, will do.
    Senator Harkin. Still one of the highest reasons for people 
not being able to work and losing time off the job is ergonomic 
injuries. Quite frankly, this is going to have to be addressed. 
I do not suppose it will be, obviously, this year in this 
administration, but whichever the next administration is, if I 
am here, I am telling you we are going to get onto ergonomics. 
Something has to be done because I have been to places.
    I have been in places where they have had ergonomic 
injuries and time off, and sometimes the companies took it upon 
themselves. Their board of directors said something needs to be 
done and they did it. By changing simple, little things and 
providing for different heights of tables and different things 
like that, you can really cut down on these. I think your 
Department----
    Secretary Chao. I agree with you on that. It is not a one-
size-fits-all, but it is giving general guidelines, education, 
and research and how employers can adapt the technology and 
their knowledge to their specific workplace because there is no 
one-size-fits-all solution to this.
    Senator Harkin. Right, I agree.
    Well, it seems to me you had a plan. Well, to me, just 
again looking at it, it does not seem like you are really 
implementing your own plan.
    Secretary Chao. It is a four-prong strategy and a great 
deal of it rests with education, outreach, helping employers 
and worker groups find their own solution on reducing ergonomic 
injuries.
    Senator Harkin. I do not disagree with you. That is. But 
sometimes a good citation----
    Secretary Chao. We certainly do that too.
    Senator Harkin [continuing]. Wakes people up.
    Secretary Chao. Yes, and we have inspections.
    Senator Harkin. Wait a minute. No, you do not----
    Secretary Chao. We use alert letters.
    Senator Harkin. You do not do citations. You did none in 
2006 and none last year, not one. There are 375,540 serious 
injuries in 2006, and you issued no citations. I mean, if it 
had been three or four, okay. You only issued 19 since 2001. 
Like I said, sometimes a good citation wakes people up and they 
start doing things.
    Secretary Chao. We do have inspections too. We have 700 
ergonomic inspections every year.
    Senator Harkin. You have 700 ergonomic inspections every 
year for the entire country. I do not find that too impressive 
a figure, I got to tell you.
    Secretary Chao. I understand. But the overall injury rate 
is down, and we can talk about that. We will give the numbers 
to you.
    Senator Harkin. Well, that is okay. I am glad it is down. 
It is just awfully high.
    Your table says here for fiscal year 2007, there were only 
449 ergonomic inspections.
    Secretary Chao. Well, we seem to have a difference of 
opinion. So let me find out what the difference is. My notes 
said----
    Senator Harkin. It is in your budget request.
    Secretary Chao. That is not good. Let us find out what 
happened because I have 700 ergonomic inspections per year.
    Senator Harkin. The actual fiscal year 2007 was 449 in your 
own book.
    Secretary Chao. Over what period, may I ask?
    Senator Harkin. Fiscal year 2007.
    Secretary Chao. Okay. Let me take a look at that because my 
notes here said it is 700. So there must be some disconnect.
    [The information follows:]

    In fiscal year 2006, OSHA conducted 795 ergonomic inspections. In 
fiscal year 2007, the Agency conducted 705 ergonomic inspections. The 
discrepancy between this number and the erroneous reporting for fiscal 
year 2007 in the Agency's fiscal year 2009 Congressional Budget 
Justification reflects the correction of an error in the coding of 
inspections that was made subsequent to the publishing of the 
Congressional Budget Justification.

    Secretary Chao. But from 2003 to 2006, the ergonomic injury 
rate again declined about 22 percent overall. So this broad-
based, multi-prong approach does have value.
    Senator Harkin. From 2002 to 2006?
    Secretary Chao. Right.
    Senator Harkin. Well, I would again appreciate those every 
year. But again, I will always look at that askance until I 
find out whether or not we are getting accurate reporting, and 
we are going to include language in our bill for the Department 
to go after this and find out what the BLS is saying. Why are 
they saying that there is missing cases out there? Is it big? 
Is it small? I do not know. I have not the foggiest idea, but I 
think we need to find out whether that is real or not because 
it brings into question whether it has really been a 22 percent 
decline or not. I do not know until we get a better handle on 
missing cases and what that means in terms of reporting.

                            OSHA STATE PLANS

    Iowa is an OSHA State plan State. How many States are State 
plans?
    Secretary Chao. About half.
    Senator Harkin. How many?
    Secretary Chao. About half.
    Senator Harkin. Half?
    Secretary Chao. Yes.
    Senator Harkin. About half the States have State plans. It 
means that the Division of Labor Services rather than OSHA 
administers the State's workplace safety and health program. 
Under the Occupational Safety and Health Act, States are 
authorized to develop their own occupational safety and health 
plans. The Federal Government will provide 50 percent of the 
costs. Half of the States operate such a plan. I have got that 
there.
    Dave Neil, the Commissioner of the Department of Labor 
Services, wrote me earlier this year and noted that the Federal 
amount provided to Iowa in fiscal year 2008, which we are in, 
is $1.6 million, or 37.8 percent, rather than the 50 percent 
required by OSHA. Why? Why is it less than the 50 percent? And 
are other States like this? I only know my own State. But why 
are they getting 37.8 percent rather than the 50 percent?
    Secretary Chao. I actually boned up on the answer for this, 
and I do not have it handy with me right now.
    Senator Harkin. Well, if you do not have it, just submit it 
for the record.
    Secretary Chao. Let me get that for you.
    [The information follows:]

    There are 26 States that operate OSHA-approved State Plans, which 
deliver the OSHA program to 40 percent of the Nation's employers and 
employees. Twenty-one States (including Iowa) and Puerto Rico operate 
complete plans, which cover both the private and public (State and 
local government) sectors. Three States and the Virgin Islands operate 
plans that are limited in scope to the public sector.
    Section 23(g) of the Occupational Safety and Health Act provides 
for funding of these State programs at a level which ``may not exceed'' 
50 percent of the total cost to the State of such a program. Annual 
appropriations language ensures that no State plan is required to 
contribute more than a 50 percent match of the available Federal funds. 
However, many States have chosen to contribute significant amounts of 
additional funding. Iowa, for the first time in fiscal year 2008, is 
one of those States.
    The Federal funds available for State Plan grants in fiscal year 
2008 total $89,502,000, less than the President requested as a result 
of final congressional action. Based on the State programs' funding, 
all States matched the available funds and 20 States contributed 
additional funds above their match. Iowa contributed $1,096,040 over 
and above their $1,580,800 match.

    Senator Harkin. That is fine. All I would like to know is 
what would that impact be. Why are they getting less than 50 
percent, and how many other States that have State plans are 
getting less than 50 percent?
    We have talked about disability policy.
    This will be my last issue I want to go over, and that is 
the job training portion. Again, the BLS statistics say there 
are 1.6 million more individuals unemployed today than there 
were when this President took office, when you took office. The 
unemployment rate is higher, 5 percent versus 4.2 percent. 
Nevertheless, this budget cuts training and employment services 
account programs by almost 14 percent, or $484 million.
    Again, this is training and employment services. Well, with 
unemployment going up, the number of unemployed going up, why 
is your budget cutting the training and employment services 
account by 14 percent?
    Secretary Chao. Well, let me say, again, the workforce 
expands by about 1 million--800,000 workers a year--8.6 million 
net new jobs have been created since August 2003. The 
unemployment rate is 5 percent. This is lower than the average 
unemployment rate of the decade of the 1990's, which is 5.7 
percent.
    We still have an estimated $875 million carryover of 
unspent WIA funds available to the States, even after 
completing the $250 million rescission required by the fiscal 
year 2008 appropriations bill.
    There is a major debate about the Workforce Investment Act 
and how we should proceed.
    Senator Harkin. Yes, I heard that.
    Secretary Chao. Yes. It is an issue with the authorizing 
committees. We obviously have very different points of view 
about it. With every successive round of reforms to the system, 
there are overlays of new systems upon the old. It is to the 
point now that there are duplicative structures.
    So we have an employment services. They are staffed by 
wonderful people. I do not mean to disrespect the professionals 
who do this work. But I think they also must face some 
frustration in dealing with the bureaucracy that is 
duplicative, that is not responsive to the needs of a new 
century in which higher skill jobs are being created and more 
training of more specialized types is required. That is not 
currently being provided fully by the system.
    So, again, with unspent funds of $1.7 billion sometimes to 
currently this year of $875 million, there is a lot of 
carryover.
    Senator Harkin. I just told my staff--I said I got to get a 
handle on this. I know there is a 3-year roll on that thing.
    States have been reporting to you how much they have to 
return because of this rescission that we had. Iowa's share is 
$1.3 million. They returned almost $1 million of funds 
available for current operations, and they did not have any 
excess money out there. So as a result, they are going to 
provide less training and job search and placement.
    So this excess funds is not right. I keep hearing you say 
that, but I look at my own State and they do not have any.
    Secretary Chao. I do not have the State-by-State breakdown. 
I usually carry it with me. We can provide that for you. Even 
after the rescission--I do not know about Iowa, but most of 
them do have excess funds left over.
    Senator Harkin. My staff said what they are doing is they 
are taking it out of current money, of course. That is exactly 
what they are doing.
    But all I know is Iowa does not have it, and I just do not 
know how many States--well, that might be interesting. Do we 
know what States?
    Secretary Chao. It is pretty much across the board.
    Senator Harkin. My staff says they are reporting today on 
that. The Department of Labor is reporting on this today. So I 
will take a look at that also.
    Secretary Chao. But there are duplicative structures. 
Beyond the excess unspent funds, there is a larger issue about 
workforce investment. WIA was supposed to be a one-stop 
shopping center for workers, dislocated workers, unemployed 
workers. It has still not fulfilled this one-stop function 
through a variety of reasons. There are other agencies who have 
not joined in. There are duplicative structures that are still 
outstanding.
    I totally agree with you. We need to invest in our 
workforce, but we need to make sure that the reforms are there 
so that workers are, indeed, getting trained. Currently not as 
many are getting the training as they need, and that is the 
real tragedy.
    Senator Harkin. Well, I agree with you on that, but I do 
not think there is all that excess money out there that you 
keep talking about.
    Secretary Chao. Well, if you go a workforce investment 
system--and I love the system dearly. These are wonderful 
people who staff this system, but you have duplicative 
services. You go into a building. On the left is employment 
services. On the right is workforce investment, and they do not 
work with one another. Something needs to be done about that, 
which is what the reform package is all about.
    I am optimistic. I think that this discussion is ongoing on 
a national level. It will take some more time for the system to 
come to some consensus on how to reform this, but there are 
some real reforms that are necessary.
    Senator Harkin. Well, Madam Secretary, thank you very much. 
You have been very kind with your time, and these are tough 
areas. Some of them you and I have just had disagreements on 
for a long time, on that ILAB and a few other things like that. 
But on that ILAB, I still think it is an important thing that 
they are doing on that grant program.
    I want to get a handle on this BLS issue on under-
reporting.
    But I will close with this. Madam Secretary, last year's 
appropriations bill and report called for reports on a number 
of issues, including noncompetitive awards, the issuing of 
safety and health regulations, among other topics. I would 
request that you personally look into moving those reports 
along.
    Secretary Chao. I will.
    Senator Harkin. Like I said, sometimes I do not know if 
what we have here is right or not. We have to look at these 
things. So I would ask that you move those reports along so we 
can take a look at them.
    Also, I would leave the record open for any members of the 
subcommittee who could not be here to submit questions for you 
in writing for the record.
    Secretary Chao. Thank you. I also realized I did not answer 
your question about the refinery inspections, and I certainly 
do not want to drag this anymore. But if I can provide a fuller 
answer on what happened there, in terms of inspections, I would 
appreciate that.
    Senator Harkin. That would be good. That was one issue that 
sort of stuck out like a sore thumb there.
    Well, Madam Secretary, unless you have anything else----
    Secretary Chao. Thank you very much.
    [The information follows:]
    The Occupational Safety and Health Administration's refinery 
National Emphasis Program (NEP) was initiated in June 2007. At that 
time, OSHA stated that the agency will conduct all of the refinery 
inspections covered by the NEP within 2 years--June of 2009. The agency 
is on track to meet that timeline.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Harkin. There will be some additional questions 
which will be submitted for your response in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted by Senator Tom Harkin
                          program integration
    Question. In the Department's response to congressional concerns 
about adult, dislocated, and youth programs at local one-stop career 
centers overlapping statewide labor exchange services provided through 
the State unemployment insurance and employment services operations 
account, the Department indicated that it has worked with States to 
develop and submit plans for program integration.
    How many States have developed and submitted such plans?
    Answer. The Department has worked with States to develop and submit 
plans for Workforce Investment Act (WIA) and Wagner-Peyser Act 
Employment Service program integration; these plans are part of the 
WIA/Wagner-Peyser Act Strategic State Plans that are regularly 
submitted by the States. WIA section 112 requires all States to submit 
a State Plan as a condition of receiving funds. The Plans address 
multiple requirements of WIA, including program integration, governance 
structures, performance accountability systems, effective use of funds, 
and planned service delivery strategies.
    Question. Please describe specifically the policies implemented to 
break down barriers to program integration; how States plan to increase 
the efficient use of administrative resources; and how States plan to 
coordinate the use of Wagner-Peyser Act and WIA funds to avoid 
duplication?
    Answer. The State Plan Guidance issued by the Department for 
Program Years (PY) 2007-2008 was supplemented by a revised National 
Strategic Direction issued in Training and Employment Guidance Letter 
13-06. The National Strategic Direction outlined a vision for 
transforming the public workforce investment system to develop and 
implement talent development strategies that support growth in economic 
regions, contributing to the Nation's economic competitiveness. Program 
integration is a key pillar in this approach, and the National 
Strategic Vision articulates a need for the workforce system to operate 
as a seamless system functionally organized around service delivery 
rather than as an array of separate programs with separate processes, 
where customers are seen as customers of the entire workforce system 
rather than of a particular program.
    In keeping with that vision of integration, the State Plan 
instructions required States to: (1) describe policies in place to 
change or modify barriers to integration; (2) describe more efficient 
uses of administrative resources, such as eliminating duplicative 
facility and operational costs; (3) promote models or strategies for 
local use that support integration; (4) describe how services provided 
through One-Stop partners will be coordinated; and (5) describe how 
States will coordinate Wagner-Peyser Act funds to avoid duplication. 
State Plans for Program Years 2007-2008 were last submitted in May 
2007, and will expire June 30, 2009. States will next submit plans in 
April 2009 for Program Year 2009.
    The Department has made an effort to use State Plans as a strategic 
tool to advance a transformed workforce system. To this end, the 
Department regularly monitors States' implementation of the strategies 
outlined in their State Plans, including their level of integration, 
and offers technical assistance to States that require it. The 
Department has also developed a comprehensive technical assistance 
plan, based in part on the needs of States the Department identified by 
reviewing their State Plans and monitoring their implementation.
    All States have developed and submitted State Plans, and all plans 
address program integration. One specific example of a State effort to 
break down barriers to program integration is setting program 
integration as a State policy objective. For instance, Massachusetts 
has established the ``Regional Directors of Workforce Integration'' to 
ensure program integration at One-Stop Career Centers, and Oregon's 
workforce development leadership personally visits areas in the State 
that need technical assistance to achieve State integration of service 
goals. Another State policy to break down barriers to integration is 
combining and integrating State government agencies that oversee 
different workforce programs. For example, New Mexico's legislature 
recently created the New Mexico Department of Workforce Solutions, 
California consolidated its WIA and Employment Service programs into a 
single integrated unit called the Workforce Services Division, and Utah 
administers a number of federally-funded workforce programs under the 
Department of Workforce Services. Other States have looked to improve 
One-Stop Career Center operations to improve program integration. For 
instance, Maine has organized its staffing and services around a 
functional team concept, rather than teams driven by funding source, to 
deliver seamless and integrated services to participants. Lastly, 
several States, such as New Jersey, require satisfactory levels of 
integration in order to certify sites as One-Stop Career Centers.
    State Plans also define strategies to increase the efficient use of 
administrative resources as well as strategies to use funds to avoid 
duplication. For instance, Texas administers a number of Federally-
funded workforce programs through the Texas Workforce Commission and 
gives local workforce investment boards wide discretion in the use of 
funds to best serve their local population and regional economy. 
Arizona has moved to centralize service delivery in structures where 
overhead and administrative services are shared, particularly in rural 
areas.
    Question. Is there any evidence that these plans are leading to 
better program integration, more efficient use of Federal resources and 
better program outcomes?
    Answer. The Department believes that strategic planning does lead 
to better program integration, more efficient use of Federal resources, 
and better program outcomes. Because all States have been required to 
submit State Plans since the inception of WIA, the Department cannot 
compare States with plans to States without plans, or compare 
performance before and after a plan in order to produce ``evidence'' 
that plans result in positive changes. However, experience shows that 
States that have written strong, strategic State Plans are more likely 
to have integrated service structures, resulting in more efficient use 
of funds and improved program outcomes. For instance, Oregon, which 
ranks among the top 10 States on the entered employment rates for both 
the Adult and Dislocated Worker programs, submitted a plan that showed 
close coordination between workforce programs, and has recently closed 
a number of ``stand-alone'' Employment Service offices. Michigan, which 
also ranks among the top 10 States on both Adult and Dislocated Worker 
entered employment rates, submitted an exemplary State Plan that 
includes creative solutions for programs integration, regional 
planning, and innovative talent development strategies.
    Although the strategic use of State Plans encourages program 
integration, the statutory requirements of WIA and the Wagner-Peyser 
Act still result in duplication in the public workforce investment 
system. By streamlining these systems, States can train more workers 
and provide more services. The Department has consistently supported 
legislative proposals to consolidate WIA title I and Wagner-Peyser Act 
Employment Service programs, most recently in the WIA reauthorization 
and reform proposal, ``Workforce Investment Act Amendments 2007,'' 
submitted to Congress in April 2007. Further, the Department has 
pursued rule making that would require local Employment Service offices 
to be located in the comprehensive One-Stop Career Centers and not be 
considered affiliate sites (Federal Register: December 20, 2006, Vol. 
71, No. 244). However, Congress barred the implementation of this 
revision in the fiscal year 2007 and fiscal year 2008 Appropriations 
Acts.
                    capacity building and evaluation
    Question. Please describe the specific actions (including any 
discretionary grant funding) ETA has taken to build the capacity in 
States to share best practices and undertake rigorous evaluations on 
the impact of WIA State grant funding?
    Answer. One of the Department's core missions is to build the 
capacity in States to effectively provide workforce services and to 
actively engage with a wide array of strategic partners in workforce 
development strategies. Examples of strategies to support sharing of 
best practices include the Workforce\3\One Web site, the Workforce 
Innovations Conference, Transformational Forums, and the National 
Business Learning Partnership.
  --Workforce\3\One is an interactive Web site designed to build the 
        capacity of the public workforce investment system through 
        training, resources, and regular communication 
        (www.workforce3one.org). The Workforce\3\One Web site offers 
        the workforce system an innovative knowledge network designed 
        to create and support community solutions that respond directly 
        to business needs and to develop strategies that enable 
        individuals to be successful in the 21st century economy.
  --Workforce Innovations is a forum hosted by the Department for 
        States to share best practices. The conference draws over 3,000 
        participants from industry, education, the economic development 
        community, and the workforce system, offering an opportunity to 
        explore their important roles in meeting the national challenge 
        of global competition.
  --The Transformational Forums series, is a broad-based capacity 
        building initiative to transform the workforce system, and 
        provides an opportunity for States to share best practices. The 
        Forums offer teams, comprised of State and local workforce 
        representatives, a unique, customer-driven learning experience 
        designed to provide support as they envision energized, and 
        catalyzed innovative service delivery strategies.
  --The National Business Learning Partnerships (NBLP), a peer-to-peer 
        collaborative technical assistance effort among State and local 
        Workforce Investment Boards and the Employment and Training 
        Administration's regional and national offices, provides States 
        an opportunity to build their workforce system capacity and 
        share best practices.
    In addition to capacity building the Department is currently 
conducting, a rigorous non-experimental net impact evaluation of the 
receipt of Workforce Investment Act (WIA) core and intensive services 
and the incremental impact of WIA training on participant's earning, 
employment, and retention. The evaluation involves comparing the 
outcomes of WIA participants to the outcomes of similar individuals 
drawn from a matched comparison group. Results from this evaluation 
will be provided to the Department in the fall of this year.
    In June 2008, the Department will launch the Workforce Investment 
Act Gold Standard Evaluation (WGSE). The WGSE is a 7-year, rigorous, 
random assignment evaluation of the Adult, Dislocated Worker, and Youth 
formula programs established under title I of WIA. The evaluation will 
examine these programs' impacts on participants' post-program 
employment and earnings and their cost effectiveness. The evaluation 
will compare outcomes of WIA participants to the outcomes of similar 
individuals who do not receive WIA services. The results of the 
evaluation will be used to determine what aspects of the current system 
work versus those that do not work. This information will help improve 
the workforce investment system and inform any WIA reforms, as 
applicable. Interim evaluation results will from the WGSE will be 
generated periodically beginning in the fall of 2011 and final results 
are anticipated to being available in 2015.
    Question. What has been the outcomes associated with these 
activities?
    Answer. The outcomes associated with the Department's activities to 
build the capacity in States to share best practices include:
  --Workforce\3\One.--There is currently over 31,000 registrants of the 
        site. Registrants engage in Webinar events, download materials, 
        and share best practices by submitting content. Individuals 
        have visited the site over 72,000 times in the past year, have 
        downloaded over 15,000 pieces of content, and thousands of 
        individuals have engaged in Webinars.
  --Workforce Innovations.--States have directly shared best practices 
        through workshop sessions, conference materials, and structured 
        and informal opportunities for networking.
  --Transformational Forums.--A total of 55 teams, representing over 40 
        States, were able to explore critical workforce system 
        challenges and opportunities, receive customized coaching from 
        mentors and peers, develop concrete action steps for advancing 
        talent development strategies for economic growth, and 
        contribute to the development of a shared national vision for 
        workforce system transformation
  --National Business Learning Partnerships.--A total of 44 State and 
        local workforce investment boards attended workshops, 
        established mentor/protege teams, shared technical assistance, 
        documented best practices, and published numerous case studies 
        and other technical assistance materials.
    Question. What is proposed in the 2009 budget for this purpose?
    Answer. The Department's fiscal year 2009 budget requests $16.88 
million to support workforce information, electronic tools, and system 
building. In addition, the Department has requested $32 million for 
labor market information grants; these grant funds are part of the 
administration's WIA reform proposal. With this request, the Department 
will continue to share innovative demand-driven talent development 
strategies in support of regional economic competitiveness through the 
Workforce\3\One Web site. The Department will also implement a 
comprehensive technical assistance strategy that continues the work of 
the Transformational Forum teams, offer Webinars on topics to address 
capacity-building needs identified through the WIA/Wagner-Peyser State 
Planning process, and support various strategies to integrate program 
and services. Lastly, the Department will continue to develop expanded 
sets of strategic partnerships with community colleges, the economic 
development community, faith and community-based organizations, 
foundations, and other Federal agencies.
                           wia youth services
    Question. In February of this year, the Government Accountability 
Office (GAO) issued a report on disconnected youth. The report noted 
that researcher estimates of the number of disconnected youth range 
from 2.3 million to 5.2 million. According to GAO, funding for many of 
the key Federal programs we reviewed that serve disconnected youth has 
remained the same or declined since 2000. The report also found that 15 
directors with Federal WIA Youth funding noted that the need to meet 
certain WIA youth performance goals within short-term time frames 
discouraged them from serving youth that may need more time and 
assistance to achieve specified outcomes. What is the Department's plan 
for ensuring that funds are able to be used to effectively address 
youth most in need of WIA services?
    Answer. As a long-term strategy to ensure that WIA Youth Formula 
funds are used to effectively address youth most in need of WIA 
services, in 2004, the Department adopted and announced its new 
strategic vision to serve more effectively those youth most in need of 
services: out-of-school youth and at-risk youth. Recognizing the need 
to involve other Federal agencies, the Department pursued an outreach 
and recruitment strategy that led to the creation of a national cross-
agency group. This group has evolved into the Shared Youth Vision 
Federal Partnership and includes the U.S. Departments of Agriculture, 
Education, Health and Human Services, Housing and Urban Development, 
Justice, Labor, and Transportation; the Social Security Administration; 
and the Corporation for National and Community Service. By leveraging 
other Federal resources in support of WIA enrolled youth, WIA youth 
service providers and local workforce areas can focus their resources 
on employment and training needs while also collaboratively supporting 
other important issues faced by a needier youth population, including 
health, substance abuse, transportation, and housing.
    The Federal Partnership has been actively involved in sponsoring 
numerous activities to promote the Shared Youth Vision to State and 
local agencies serving youth. These activities have included: (1) a 
series of Shared Youth Vision technical assistance forums nationwide 
for State teams; (2) the selection of 16 Shared Youth Vision Pilot 
Project State teams to develop and implement strategic approaches that 
leverage their State-level coordination at the local service delivery 
level; (3) the development and implementation of a comprehensive 
technical assistance plan for infusing the collaborative vision in all 
States throughout the country; and (4) funding a Shared Youth Vision 
Implementation Study to conduct an analysis of the work of the Federal 
Partnership and the work of the State pilot teams to better serve the 
neediest youth. The findings from this analysis will be widely 
distributed throughout the country.
    The Department also intends to work with workforce investment 
boards to identify constraints and plans to issue guidance to the 
public workforce investment system in the fall of 2008 that will 
provide specific examples on how local service providers successfully 
serve youth at varying skill levels, but with an emphasis on youth most 
in need. In addition, the Department will provide technical assistance 
to support the implementation of this guidance.
    Question. How have the funding reductions noted in the GAO report 
impacted program performance, including youth participation and 
outcomes?
    Answer. Although fewer total youth have been served through the 
Workforce Investment Act (WIA) Youth program, more of the youth being 
served are out-of-school youth who require more intensive services. 
Despite this challenge, there has been no significant change to the 
performance outcomes of participants in the WIA Youth program. In its 
report, the Government Accountability Office State that the increased 
Federal coordination efforts currently underway should help to address 
the challenges faced by local programs.
                    national farmworker jobs program
    Question. According to the Department's website, the National 
Farmworker Jobs Program (NFJP) entered employment rate rose from 64 
percent in the quarter ending 9/30/06 to 76 percent in the quarter 
ending 9/30/07, an increase of almost one-fifth in the percentage of 
exiters who found jobs. This sounds like an effective investment. Did 
the Department base its decision to eliminate program funding on some 
other outcome information? If not, why would the Department propose 
eliminating funding for this successful program?
    Answer. Individuals being served by the National Farmworker Jobs 
Program (NFJP) have similar types of barriers to full-time employment 
as other workers, and the relatively small NFJP do not provide its 
participants with the full array of benefits they would derive from the 
public workforce investment system. Historically, many program 
participants received only supportive services in the NFJP. Rather than 
placing farmworkers into a program that has not always provided year-
round employment to its participants, the Department believes that 
these workers should have access to the full spectrum of workforce 
investment services and a broader employment network.
    For the past 6 fiscal years (fiscal year 2003-2008), the 
administration has not requested budget authority for Workforce 
Investment Act section 167 NFJP. Instead, the Department has pursued 
other strategies to ensure agricultural employers and farmworkers have 
access to the full spectrum of workforce investment services available 
through the broader workforce system, including:
  --Providing technical assistance and information to increase the 
        level of collaboration and coordination among One-Stop partners 
        to increase services to farmworkers in the One-Stop system; and
  --Investing $1 million in a cross-training demonstration in 
        California focused on integrating services available to 
        farmworkers.
    Question. Previously, the Department has stated that one of the 
reasons funding has not been requested for this program is that migrant 
and seasonal farmworkers can be served through the workforce investment 
system. Does the Department have any data that reflect service levels 
to this population through the workforce system?
    Answer. The most recent performance data pertaining to services 
provided through Wagner-Peyser Employment Service funding indicates 
approximately 150,000 migrant and seasonal farmworkers have been served 
in PY 2007.
    Question. State and local workforce boards have developed plans to 
address this population. What evidence do you have that activities 
planned are actually being implemented? Is there any evidence that they 
are resulting in effective services to migrant and seasonal farmworker 
population?
    Answer. The Department has been actively implementing a strategy 
within the current National Farmworker Jobs Program (NFJP) and 
Workforce Investment Act (WIA) programs to integrate farmworker 
services into the broader public workforce investment system. The 
States have provided the Department with preliminary indications that 
State and local workforce boards have been expanding the network of 
employers using the workforce investment system, targeting occupations 
in high-growth industries and operationalizing the integration of 
services.
    The most recent WIA State Plans included specific State and local 
activities:
  --The Missouri workforce system has established a strong partnership 
        with the NFJP grantee. This partnership results in the sharing 
        of knowledge and collaboration to perform planned community 
        activities and intake for the migrant and seasonal farmworker 
        (MSFW) population. The combined local expertise of faith-based, 
        community, and other organizations that specialize in serving 
        the MSFW population have increased the capacity and 
        effectiveness of the One-Stop system.
  --The New Mexico Workforce Centers will provide on-site services in 
        local workforce investment areas where the MSFW population is 
        employed.
  --Tennessee will conduct an outreach program designed to contact 
        MSFWs who are not reached by usual intake activities and inform 
        them of the full range of services available.
    Additionally, since WIA requires the Department to conduct a 
biennial grant competition for the NFJP, the last three Solicitations 
for Grant Applications have required applicants to design their 
programs around priorities engineered to continue the drive towards the 
full integration of services. The next round of grant applications is 
due June 2, 2008. In reviewing these applications, the Department will 
look for additional indicators of improved service delivery for 
farmworkers.
    Question. The National Agricultural Workers Survey (NAWS) is an 
employment-based, random survey of the demographic, employment, and 
health characteristics of the U.S. crop labor force. It has been more 
than 3 years since the 2001-2002 report was released and I understand 
the Department collected the 2003-2004 data some time ago. When will 
the 2003-2004 report be issued? What is the timeline for future data 
collections and reports related to the NAWS?
    Answer. The Department's Employment and Training Administration 
(ETA) is currently working on two National Agriculture Workers Survey 
(NAWS) national level findings reports. The first report will summarize 
NAWS data collected in fiscal years 2003 and 2004; the second will 
summarize fiscal years 2005-2006 NAWS data. ETA expects both of these 
reports to be available via the NAWS Web site in August, http://
www.doleta.gov/agworker/naws.cfm.
    NAWS data are collected annually in three interview cycles. The 
third interview cycle for fiscal year 2008 began on June 3, 2008 and is 
expected to continue through September 2008. The first interview cycle 
of fiscal year 2009 will begin in October 2008. Depending on the 
availability of resources, NAWS reports are published biannually. The 
summary report of the fiscal 2007-2008 findings is expected to be 
available by September 2009.
    ETA has focused its efforts over the last 2 years in developing and 
obtaining approval for release of a NAWS public access data set. This 
decision was prompted by the large number of requests for a wide range 
of data and findings from the NAWS.
    We are very pleased to report that the public access data set 
covering fiscal years 1989 to 2006, as well as the codebook, English 
and Spanish versions of the questionnaire, the interviewer training 
manual, and documents describing the statistical methodology and tips 
for analyzing the data, were posted to the NAWS Web site in November 
2007. The release of these materials was announced to all State 
Workforce Agencies and liaisons via Training and Employment Notice 18-
07, http://wdr.doleta.gov/directives/attach/TEN/ten2007/TEN18-
907acc.pdf.
                               youthbuild
    Question. Congress passed legislation to move the YouthBuild 
program to the Department of Labor in response to the White House Task 
force on Disadvantaged Youth recommending that YouthBuild was better 
aligned with the DOL's mission to bring the most disadvantaged youth 
into productive employment. How do you see YouthBuild fitting into that 
mission and how is this first year going? And, how do you plan to 
expand to meet the growing demand for YouthBuild services?
    Answer. The YouthBuild model balances in-school learning, geared 
toward a high school diploma or GED, and construction skills training, 
geared toward career placement. The in-school component is an 
alternative education program that assists youth who are often 
significantly behind in basic skills to obtain a high school diploma or 
GED credential. The primary target populations for YouthBuild are high 
school drop-outs, adjudicated youth, youth aging out of foster care, 
and other at-risk youth populations. The YouthBuild model enables these 
youth to access the education and training they need to secure 
employment in the 21st century economy.
    The first year of administering the YouthBuild program is going 
extremely well.
    The YouthBuild Transfer Act was enacted on September 22, 2006. 
Since that time, the Department has:
  --Held its first YouthBuild grant competition in the spring of 2007 
        and awarded 96 grants on October 15, 2007;
  --Developed, implemented, and trained grantees on a Web-based Case 
        Management and Performance system that provides quarterly 
        performance reports and captures performance data on the 
        effectiveness of the YouthBuild program;
  --Initiated the process of developing regulations for the YouthBuild 
        program;
  --Provided on-going technical assistance to YouthBuild grantees; and
  --Created an oversight structure for grant monitoring.
    In fiscal year 2009, the program will continue to provide job 
placement and employment opportunities for disadvantaged youth, and 
will serve an estimated 3,200 participants.
            community service employment for older americans
    Question. The 2009 budget proposes $350,000,000 for the Community 
Service Employment for Older Americans program, a reduction of 
$171,625,000 from the 2008 level. This would result in a cut in the 
number of authorized training slots from 59,316 supported by the 2008 
appropriation to 36,300 allowed by the budget request. What 
appropriation level is needed in 2009 to avoid the reduction proposed 
in the 2009 President's budget?
    Answer. An fiscal year 2009 Appropriation of $571,924,872 would be 
needed to fund the number of slots funded by the 2008 level (59,316 
slots).
                      assistance to older workers
    Question. The recently released report ``Current strategies to 
employ and retain older workers'' which was commissioned by the 
Department to support the Task Force on the Aging of the American 
Workforce highlights the challenges older workers face, particularly 
with low skills, in the labor market. Many SCSEP participants have 
additional barriers to employment that WIA programs are less suited to 
adequately assist.
    With deep cuts proposed to the workforce system and the elimination 
of funding for the Employment Service, One-Stop centers will have fewer 
resources with which to attempt to serve effectively this population. 
How can the administration request cuts to this program, once again, at 
a time when our senior population continues to grow with low employment 
prospects?
    Answer. The fiscal year 2009 budget request complements the 
administration's proposal for job training reform, which seeks to 
provide services in a more cost-effective way and will benefit older 
workers, as well as others. Overall, the fiscal year 2009 budget makes 
a substantial investment in job training to the benefit of all workers, 
including older individuals.
    Older workers are a diverse group. Some older workers have retired 
and want to or need to go back to work for self-fulfillment or 
financial reasons, or both. Other older workers are approaching 
retirement and are looking for more flexible alternative employment 
that will allow them to balance work, leisure, and the pursuit of other 
interests. Still others have lost their jobs due to business closures 
and downsizings before they qualify for a pension or Social Security 
and they need a new job, often in a different career field, to support 
themselves and their families until they are eligible for retirement. 
What these workers have in common is the need to acquire new skills to 
qualify for jobs in today's labor market. The Career Advancement 
Accounts proposed by the administration offer a flexible new approach 
that will allow older workers in each of these situations to obtain the 
training and education they need to obtain new jobs.
    Older workers will benefit from the administration's reform 
proposals in other ways, too. The requirements relating to the 
eligibility of training providers, which under current law have had the 
unintended consequence of deterring many training providers from 
participating in WIA, would be simplified. This change in eligibility 
requirements will substantially increase the number of training 
providers, such as community colleges, and provide participants with a 
greater availability of choices. Also, training will be available for 
incumbent workers to help them move up career ladders. Most important, 
the public workforce investment system will be made more productive, 
with three times the number of workers trained compared with the 
current system--this means more opportunities for older workers.
     state unemployment insurance and employment service operations
    Question. What is the 5-year funding history of obligations for 
automation investments, including the most recent year for which 
information on such obligations is available? How have these 
investments contributed toward the goals of detecting overpayments and 
facilitating re-employment?
    Answer. Between fiscal year 2004 and fiscal year 2008, $12.8 
billion was appropriated for State Unemployment Insurance (UI) 
Administration. Of that amount, the Department has information on a 
relatively small portion, approximately $83.7 million or 0.658 percent 
, that it allocated to the States for specific automation investments. 
Additionally, States have used appropriated funds allocated for overall 
UI program administration, as well as a significant amount of State 
funds, to make automation investments. However, information about the 
specific uses of those funds is not collected. Such funds were 
typically used for major automation acquisitions, such as the 
replacement of computer hardware and the modernization of State benefit 
and tax system software systems. These major modernization projects 
usually cost between $30 million to $70 million.
    The $83.7 million the Department provided the States for specific 
automation investments was used as follows:
  --$6.9 million was obligated to States specifically for integrating a 
        software package developed by the Department into their UI and 
        Workforce automated systems that significantly improve the 
        accuracy and efficiency of UI claimant occupational coding. 
        Improving the accuracy of occupational coding ensures that 
        those charged with providing re-employment services have the 
        best information available to match UI claimants to employment 
        opportunities.
  --$31.6 million was obligated to correct information technology (IT) 
        security vulnerabilities identified through IT security audits. 
        These improvements help protect electronically stored data 
        (personal identifiable information and wage information) that 
        States store on virtually every worker in the country that if 
        stolen could lead to identity theft, fraudulent UI claims, and 
        other problems for the affected workers.
  --$15.6 million purchased systems that support the detection and 
        collection of improper payments, such as tools to aid the 
        investigation of potential overpayments and the collection of 
        outstanding overpayment debts.
  --$12.9 million implemented a variety of systems that helped detect 
        fraudulently filed claims, such as multiple claims filed from 
        the same telephone number or multiple benefit payments going to 
        the same address.
  --$6.8 million was used for State system changes necessary for 
        electronic access to the National Directory of New Hires which 
        allows States to determine if UI beneficiaries have recently 
        returned to work anywhere in the country and are ineligible to 
        claim and collect UI benefits.
  --$6.7 million allowed States to cross-match information provided by 
        UI claimants with other sources of information, such as 
        departments of motor vehicles to ensure the claimants' 
        identity, or prison records to ensure inmates were not 
        collecting benefits.
  --$1.8 million helped implement debit cards as a means of paying UI 
        benefits, thus, improving efficiency and also preventing stolen 
        benefit checks.
  --$0.7 million implemented electronic access to the Social Security 
        Administration database to validate Social Security Numbers of 
        UI claimants, thereby eliminating the possibility of an 
        individual using a bogus number to collect benefits 
        fraudulently.
  --$0.7 million for internal security software to monitor employee 
        access to confidential records to detect unusual patterns that 
        might signal fraudulent activity.
            re-employment and eligibility assessments grants
    Question. The Department is requesting $40 million for the re-
employment eligibility assessments initiative, to build on the grants 
that have been made available over the past several years. What has the 
experience been with this initiative in terms of helping UI claimants 
find jobs faster, thereby reducing the duration of unemployment and 
saving UI trust fund resources? Have sufficient resources been 
available to provide all of the follow-up services required to make 
this an effective initiative?
    Answer. The Department conducted an evaluation of Reemployment and 
Eligibility Assessment (REA) programs in 2006 and 2007. The 
evaluation's final report was published in March 2008. Nine States were 
part of the evaluation which included an in-depth analysis of the REA 
initiative in two of these States, North Dakota and Minnesota. The 
findings of this study indicated strong positive effects on 
Unemployment Insurance (UI) claimants' return to work, as well as 
significant cost savings for the States. The analysis suggests that 
REAs are an effective strategy for reducing overpayments and expediting 
return to work.
    In addition to the results from this evaluation, there is anecdotal 
evidence from several other States suggesting that REAs have 
demonstrated impact. For example, Maine and New York have independently 
conveyed the following information:
  --During the period from April 2005 through March 2006, New York 
        showed a savings of $1.9 million from reduced benefit durations 
        of claimants participating in REAs versus a comparison group. 
        The savings were $3 for each $1 invested in REAs.
  --During the period from June 15, 2005, through June 15, 2006, Maine 
        calculated savings at more than $2 million, or $3.33 for each 
        $1 invested.
    As a result, the Department is now pursuing further analysis of the 
REA initiative, as the aforementioned savings mean fewer dollars 
expended from the States' UI trust funds, which translates into lower 
taxes on employers. The planned analysis will benefit from obtaining 
impact and cost data from three to five States. This in-depth study 
will yield reliable statistical estimates of UI trust fund savings, 
duration reductions, and re-employment impacts, as determined for UI 
recipients who participate in the REA initiative.
    Because of the demonstrated success of the REA initiative, some 
participating States requested additional funds to expand their REA 
programs statewide. Additionally, 11 States not currently participating 
with REA submitted strong proposals to implement an REA initiative in 
2008. However, funds were not appropriated to expand the REA 
initiative.
    We are not aware of resource constraints for re-employment services 
resulting from REA activities. An interim evaluation report indicated 
that the participating States saw the REA initiative as an opportunity 
to expose more claimants to available re-employment services.
     state unemployment insurance and employment service operations
    Question. The 2009 budget justification indicates that ETA will use 
the 2008 appropriation for the disability program navigator initiative 
to support States whose grant ended on June 30, 2008 as recommended by 
the committee. How many of those States and new States have expressed 
interest in such funds? ETA also is working with States to identify 
alternative sources of funding. What resources have been identified to 
support the DPN initiative and make it sustainable without a separate 
funding stream?
    Answer. Currently, 31 Disability Program Navigator (DPN) grants 
will expire on June 30, 2008. All 31 States have indicated an interest 
in receiving funds to continue their DPN grant work.
    The Department has issued the annual program planning guidance 
instructing the State DPN grantees on how to revise and submit key 
program documents necessary to receive program funding in the next 
year, and we are now reviewing their submissions. We will award the 
remaining Program Year (PY) 2007 funds by June 30, 2008, and awarding 
new PY 2008 funds shortly after July 1, 2008. We are also extending the 
period of performance for all 31 States for an additional year, until 
July 1, 2009. By August 2008, a new Solicitation for Grants (SGA), with 
$2.5 million in PY 2008 funds, will be disseminated to fund cooperative 
agreements for States and territories that do not currently have a DPN 
grant. Those States and territories are: American Samoa, Guam, Virgin 
Islands, Arkansas, Kentucky, Nevada, North Dakota, and Wyoming. When 
the Department issued an SGA for DPN funding over a year ago, several 
of these States were not interested in applying, and we do not know how 
many of these eight States and territories will now apply for DPN 
funding.
    We have been encouraging the States with DPN cooperative agreements 
to develop sustainability strategies and plans. Such plans include 
seeking funds from Medicaid Infrastructure Grants, Vocational 
Rehabilitation agencies, the Workforce Investment Act 15 percent State 
set-aside, the Department of Transportation's related programs, other 
public or private organizations, or as an Employment Network (EN) under 
the Social Security Administration's newly revised and issued Ticket to 
Work Program regulations. The new Ticket to Work regulations make it 
much easier for the One-Stop Career Centers and State/Local Workforce 
Investment Boards to become ENs, thereby simplifying their ability to 
get reimbursed for eligible customers they are already serving.
                  employment service grants to states
    Question. According to the Government Accountability Office's (GAO) 
2007 Study of One Stop Centers, WIA funds and Employment Services 
Grants to States are the primary funding sources for the one-stop 
infrastructure. GAO reports that over the last 4 years, 19 States have 
reported a decrease in the number one stop centers, often citing a 
decrease in funds as one of the primary reasons.
    Some States reported an increase in demand for services. Given the 
proposed consolidation of programs and the reduction in funding that 
you propose, how will the Department ensure that unemployed people 
receive the services they need?
    Answer. The services needed by unemployed people will continue to 
be provided under the fiscal year 2009 budget request, which 
complements the administration's proposal for job training reform. This 
reform proposal would consolidate the Employment Service and the 
Workforce Investment Act Adult, Dislocated Worker, and Youth funding 
streams into a single funding stream to be used for Career Advancement 
Accounts and employment services. This consolidated funding stream will 
provide services in a more cost-effective way by eliminating 
duplication, replacing the current siloed system of separate training 
programs, reducing administrative and overhead costs, and, most 
importantly, significantly increasing the number of individuals who 
receive job training. Under the current system, approximately 200,000 
individuals receive training through the public workforce investment 
system each year. However, the proposed reforms would increase the 
number of workers trained to over 600,000.
    Additionally, an estimated 10,878,000 participants would receive 
employment services. The need for labor exchange services, such as 
resume posting and job search assistance, have largely been privatized 
and job seekers now have free access to Internet job boards that allow 
them to search for jobs and often post their resumes.
               assistance with making training decisions
    Question. The Department proposes to significantly restructure the 
way unemployed people receive the services they need to once again 
become productively employed. Part of the new strategy would be to 
consolidate ES and WIA and to shift more funds into training vouchers 
for the unemployed and much less funding into up front services such as 
counseling and assessment. Yet GAO has found that such case management 
services are integral to ensure that unemployed people get the right 
services and the most appropriate training that will lead to a job. How 
will the budget proposal help the unemployed make good training 
decisions and effectively use the vouchers you propose?
    Answer. Some individuals will undoubtedly need the assistance of 
career counselors in making training decisions, and States and local 
areas can provide this type of assistance with the portion of funds 
that can be used for employment services. This includes counseling, 
both basic and intensive, and assessment. However, many, if not most 
individuals, will be able to make training choices through a basic up-
front assessment (as contrasted with ongoing and costly case 
management) and good consumer information on training providers. The 
Department of Labor also funds the development of workforce 
information, including information on high-growth occupations, which 
may be useful in making these decisions; under the administration's WIA 
reform proposal this funding will be provided to the States as part of 
the consolidated grant.
    Under the Career Advancement Account (CAA) proposal, States would 
be required to ensure the credibility and accountability of training 
providers. States would also ensure that CAA recipients have sufficient 
consumer information on the quality and outcomes of the education and 
training provided by the institutions where the accounts can be used. 
Furthermore, it is in the State's interest to ensure that high quality 
training is provided in order to meet performance outcomes.
    Findings from the Individual Training Account (ITA) Experiment have 
informed the development of our Workforce Investment Act 
reauthorization and CAA proposal. The outcomes of this demonstration 
suggest that (1) additional counseling and career guidance do not 
significantly affect the employment and training outcomes of 
participants; (2) more people access training with ITAs when given 
individual choice and flexibility; and (3) individuals are capable, on 
their own, of choosing an appropriate training path that leads to 
sustainable employment. Furthermore, approximately 5 million low income 
individuals receive Pell Grants each year through a rather flexible 
process. The use of CAAs should provide similar flexibility.
                 federal support of employment services
    Question. The Department acknowledges in their fiscal year 2009 
budget justification a majority of States (35 States) have integrated 
WP Act services into their one-stop career centers, and only a minority 
of States are running separate and duplicative systems of employment 
services. Because of this alleged duplication of services in a small 
minority of States, the Department concluded all Employment Services 
funds should be eliminated. In the majority of States where services 
are already integrated, how will States continue to undertake 
employment service activities without Federal support? What actions has 
DOL taken to support better integration in the minority States that 
have not achieved it?
    Answer. Employment services will continue to receive Federal 
support, but through the Workforce Investment Act (WIA) One-Stop 
delivery system. The fiscal year 2009 budget request complements the 
administration's proposal for job training reform, which seeks to 
provide services in a more cost-effective way. This reform proposal 
would consolidate the Employment Service and WIA Adult, Dislocated 
Worker, and Youth funding streams into a single funding stream to be 
used for Career Advancement Accounts and employment services. In 
addition to eliminating the duplication between the Employment Service 
and WIA One-Stop delivery system that still exists in a number of 
States, it would replace the current siloed system of separate training 
programs, reduce administrative and overhead costs, and, most 
importantly, significantly increase the number of individuals who 
receive job training.
    In addition, under our budget request, an estimated 10,878,000 
participants would receive employment services. While this represents a 
smaller number of individuals receiving labor exchange services, it 
needs to be recognized that the recruitment process has changed and 
because much more is available to individual workers. The need for 
labor exchange services, such as resume posting and job search 
assistance, have largely been privatized and job seekers now have free 
access to Internet job boards that allow them to search for jobs and 
often post their resumes.
    In order to strengthen program integration within the One-Stop 
Career Centers in States that have not achieved it, the Department 
offers technical assistance through tools such as Workforce\3\One, the 
Department's interactive communications and learning platform, which is 
designed to build the capacity of the workforce investment system, and 
Workforce Innovations, the Department's annual workforce system and 
partners conference.
    The Department also uses the WIA/Wagner-Peyser Act State Plan 
process as a vehicle for States and workforce investment boards to set 
forth policy expectations for program integration. As part of a State 
plan modification required to be submitted by each State in 2007, 
States were specifically required to (1) describe policies in place to 
change or modify barriers to integration; (2) describe more efficient 
uses of administrative resources, such as eliminating duplicative 
facility and operational costs; (3) promote models or strategies for 
local use that support integration; (4) describe how services provided 
through One-Stop partners will be coordinated; and (5) describe how 
States will coordinate Wagner-Peyser Act funds to avoid duplication. 
The Department regularly monitors State WIA and Employment Service 
programs, including implementation of the integration strategies 
outlined in their State Plans, and offers technical assistance to 
States that require it.
                 office of foreign labor certification
    Question. The Department's budget lacks any measures of program 
integrity with respect to program performance under the foreign labor 
certification program. This is a major management challenge identified 
by the DOL inspector General due to the existence of fraud and 
vulnerabilities in this program. What actions are being implemented in 
2008 and are proposed in the 2009 to address this challenge? How will 
resources proposed in the 2009 budget request be used specifically to 
both improve the timeliness and increase the integrity of the 
certification process? What performance measures related to program 
integrity is the Department considering for this program?
    Answer. These critical activities are an integral part of our 
ongoing application processing, and the Department will undertake a 
number of measures in fiscal year 2008 and fiscal year 2009 to 
strengthen the integrity of its employment-based immigration programs.
    The following are actions that are being implemented in fiscal year 
2008 or are planned for fiscal year 2009 based on resources contained 
in the fiscal year 2009 budget request:
  --Establishment of a new Fraud Detection and Prevention Division 
        within OFLC.
  --Implementation of the most recent regulation amending the permanent 
        labor certification program, ``Labor Certification for the 
        Permanent Employment of Aliens in the United States: Reducing 
        the Incentives and Opportunities for Fraud and Abuse and 
        Enhancing Program Integrity,'' which includes the authority to 
        debar employers, attorneys, and or agents in certain specific 
        circumstances.
  --Linkage of the web-based technologies currently used in the 
        Permanent Labor Certification Program (PERM) program to the H-
        1B database. This technology will add greater efficiency in 
        confirming the status of employers filing applications and 
        support both the timeliness and integrity of the PERM program. 
        This action will begin in January 2009 as a pilot under a re-
        engineered Labor Condition Application form (ETA Form 9035).
  --The PERM program application (ETA Form 9089) is expiring and has 
        been significantly re-engineered based upon program experience 
        over the past 3 years. This re-engineering will include changes 
        to the database ``behind'' the actual application and its 
        accompanying audit flags and triggers. The new system is set to 
        be operational in January 2009.
    Many of these integrity activities have the potential to lengthen 
the timeliness of case processing. However, the Department plans to 
monitor and review appropriate performance indicators both before and 
after the additional integrity functions are implemented.
    Additionally, the Department has begun collecting new internal 
measures that will be used to track fraud and integrity efforts. These 
measures include the number of:
  --Referrals or follow-ups by the Office of the Inspector General, the 
        Department of Homeland Security, or others;
  --Grand Jury testimonies or other witness testimonies;
  --Targeted audits;
  --Cases assigned to supervised recruitment;
  --Program debarments initiated;
  --Cease and desist orders issued; and
  --User accounts disabled as a result of inappropriate usage.
                   oig audit on consultation program
    Question. The budget proposes to increase funding for OSHA's 
voluntary protection programs by $5 million over the 2008 amount. 
However, DOL's Inspector General found in a 2007 Audit Report that 
consultation program officials did not ensure the existence of interim 
protection for serious hazards before granting employers' requests for 
additional time to correct them; OSHA considered serious hazards as 
``corrected in a timely manner'' if employers completed corrective 
actions within 14 days of the latest correction due date agreed to by 
the consultant, rather than the original date corrective action is 
expected; and employers were not referred for enforcement action 
because they feared it would discourage employers from participating in 
this voluntary program.
    What specific actions have been taken by DOL to address the 
findings and recommendations of the IG, including the recommendation 
related to the performance measure for ``timely'' correction of serious 
hazards with which OSHA disagrees? What has the impact been of these 
actions in terms of timely correction of serious hazards relative to 
the original due date; and referral of employers for enforcement for 
not correcting serious hazards?
    Answer. The proposed increase of $5.1 million in the Compliance 
Assistance budget activity for fiscal year 2009 represents inflationary 
increases and the restoration of funding and staffing eliminated by the 
across-the-board budget reductions in the fiscal year 2008 Consolidated 
Appropriation. This same approach was taken in all OSHA budget 
activities and does not represent programmatic increases for any 
specific program area.
    In response to the audit by the Office of the Inspector General 
(OIG) on the consultation program, OSHA accepted all four of the 
recommendations contained in the report to tighten and ensure 
compliance with existing program requirements by State consultants. 
OSHA's Assistant Secretary highlighted the OIG's recommendations and 
reinforced the importance of adhering to the corresponding corrective 
actions being taken by the agency in a memorandum sent to OSHA Regional 
Administrators and Consultation Project Managers in October 2007.
    With respect to the recommendations made by the OIG, OSHA added a 
provision in the Consultation Cooperative Agreements that required 
documentation of good faith efforts and all available interim 
protection measures being taken by employers whenever an extension was 
made for the correction of serious hazards. OSHA also added a provision 
to the Agreements in response to another OIG recommendation to require 
notification of the proper OSHA enforcement authority if an employer 
fails to take the action necessary to correct a serious hazard within 
the established time frame. In accordance with a third OIG 
recommendation, OSHA established a specific performance measure related 
to the initial correction due date of serious hazards. Finally, in 
response to the remaining recommendation for OSHA to provide guidance 
to States on acceptable types of interim protections, the October 2007 
memorandum from OSHA's Assistant Secretary contained information on the 
availability of resources and guidance for States in the selection of 
acceptable interim protection. The OIG accepted all of OSHA's actions 
as being responsive to its recommendations.
                     attracting and retaining staff
    Question. Many Federal agencies are facing human capital changes 
associated with the retirement of the baby boom generation. Please 
describe OSHA's plan for attracting and retaining individuals with the 
skills and abilities OSHA needs to carry out its mission. What level of 
resources is proposed in fiscal year 2009 to carry out OSHA's plan?
    Answer. OSHA has used training dollars and Departmental and 
Government-wide programs to assist in succession planning and 
leadership development. The agency has also successfully utilized the 
Department of Labor's Senior Executive Service candidates' program, 
Management Development and the Masters in Business Administration 
Fellows' program to invest in its human capital.
    In addition, OSHA will continue to explore three levels of 
leadership development. Technical/Professional (GS-11/12 employees), 
Supervisory/Management (GS-13/14 employees), and Executive Development 
(GS-14/15 employees). The agency will also use programs for the hiring 
of summer interns to expose students and others to the mission of the 
agency.
    The OSHA Training Institute (OTI) provides training and education 
in occupational safety and health for Federal and State compliance 
officers, and State consultants, by offering a series of basic, 
intermediate and advanced courses. To meet the continuing need for 
highly trained CSHOs, OSHA has developed a new training program for 
newly hired and experienced compliance personnel. The curriculum is 
designed to ensure that more comprehensive training is provided to 
compliance personnel so they are better equipped to apply technical 
information and skills in their work.
                  osha standards and guidance activity
    Question. For each of the past 15 years, please provide the number 
of notices of proposed rulemaking, final rules, guidance/informational 
materials and SBREFA reviews conducted or issued by OSHA.
    Answer. The three charts below provide the requested information:

            OSHA FINAL AND PROPOSED RULES BY YEAR, 1993-2007
------------------------------------------------------------------------
              Year                Proposed rules \1\    Final rules \1\
------------------------------------------------------------------------
1993............................  Occupational        Air Contaminants
                                   Exposure to 2-      (remand)
                                   Methoxyethanol, 2- Lead Exposure in
                                   Ethoxyethanol and   Construction--Int
                                   their Acetates      erim Rule
                                   (Glycol Ethers).   Permit-Required
                                  Retention of         Confined Spaces
                                   Markings and
                                   Placards (DOT)
1994............................  Permit Required     Electrical Power
                                   Confined Spaces     Generation,
                                   (general            Transmission, and
                                   industry).          Distribution;
                                  Respiratory          Electrical
                                   Protection          Protective
                                  Longshoring and      Equipment
                                   Marine Terminals   Reporting of
                                  Abatement            Fatality or
                                   Verification        Multiple
                                  Indoor Air Quality   Hospitalization
                                                       Incidents
                                                      Personal
                                                       Protective
                                                       Equipment for
                                                       General Industry
                                                      Logging Operations
                                                      Occupational
                                                       Exposure to
                                                       Asbestos
                                                      Safety Standards
                                                       for Fall
                                                       Protection in the
                                                       Construction
                                                       Industry
                                                      Confined and
                                                       Enclosed Spaces
                                                       and Other
                                                       Dangerous
                                                       Atmospheres in
                                                       Shipyard
                                                       Employment
                                                      Retention of DOT
                                                       Markings,
                                                       Placards, and
                                                       Labels
1995............................  Powered Industrial  Occupational
                                   Truck Operator      Exposure to Lead
                                   Training (general  Basic Program
                                   industry).          Elements for
                                                       Federal Employee
                                                       Occupational
                                                       Safety and Health
                                                       Programs; Record
                                                       keeping
                                                       Requirements
                                                      Basic Program
                                                       Elements for
                                                       Federal Employee
                                                       Occupational
                                                       Safety and Health
                                                       Programs
1996............................  Exit Routes (Means  Personal
                                   of Egress).         Protective
                                  Miscellaneous        Equipment for
                                   Changes to          Shipyard
                                   General Industry    Employment (PPE)
                                   and Construction   Safety Standards
                                   Standards;          for Scaffolds
                                   Proposed            Used in the
                                   Paperwork           Construction
                                   Collection,         Industry
                                   Comment Request    Occupational
                                   for Coke Oven       Exposure to 1,3-
                                   Emissions and       Butadiene
                                   Inorganic Arsenic.
                                  Occupational
                                   Injury and
                                   Illness Recording
                                   and Reporting
                                   Requirements.
                                  Powered Industrial
                                   Truck Operator
                                   Training
                                   (construction).
1997............................  Occupational        Occupational
                                   Exposure to         Exposure to
                                   Tuberculosis.       Methylene
                                                       Chloride
                                                      Reporting
                                                       Occupational
                                                       Injury and
                                                       Illness Data to
                                                       OSHA Abatement
                                                       Verification
                                                      Longshoring and
                                                       Marine Terminals
1998............................  Methylene Chloride  29 CFR Parts 1910
                                  Dipping And          and 1926
                                   Coating             Standards
                                   Operations (Dip     Improvement
                                   Tanks)              (Miscellaneous
                                  Safety Standards     Changes) for
                                   for Steel           General Industry
                                   Erection            and Construction
                                                       Standards;
                                                       Paperwork
                                                       Collection for
                                                       Coke Oven
                                                       Emission and
                                                       Inorganic Arsenic
                                                      Methylene Chloride
                                                      Powered Industrial
                                                       Truck Operator
                                                       Training
                                                      Permit-Required
                                                       Confined Spaces
                                                      Procedures for the
                                                       Handling of
                                                       Discrimination
                                                       Complaints Under
                                                       Federal Employee
                                                       Protection
                                                       Statutes
                                                      Occupational
                                                       Exposure to
                                                       Asbestos
                                                      Respiratory
                                                       Protection
1999............................  Ergonomics Program  Dipping and
                                  Nationally           Coating
                                   Recognized          Operations
                                   Testing
                                   Laboratories;
                                   Fees; Reduction
                                   of Public Comment
                                   Period on
                                   Recognition
                                   Notices.
                                  Employer Payment
                                   For Personal
                                   Protective
                                   Equipment.
2000............................  None..............  Nationally
                                                       Recognized
                                                       Testing
                                                       Laboratories--Fee
                                                       s
                                                      Occupational
                                                       Exposure to
                                                       Cotton Dust
2001............................  None..............  Safety Standards
                                                       for Steel
                                                       Erection
                                                      Occupational
                                                       Exposure to
                                                       Bloodborne
                                                       Pathogens;
                                                       Needlestick &
                                                       Other Sharps
                                                       Injuries
                                                      Occupational
                                                       Injury and
                                                       Illness Recording
                                                       and Reporting
2002............................  Fire Protection in  Occupational
                                   Shipyard            Injury and
                                   Employment.         Illness Recording
                                  Standards            and Reporting
                                   Improvement         Requirements
                                   Project--Phase II   (hearing loss)
                                                      Exit Routes,
                                                       Emergency Action
                                                       Plans, and. Fire
                                                       Prevention Plans
                                                      Safety Standards
                                                       for Signs,
                                                       Signals, and
                                                       Barricades
2003............................  Longshoring and     Procedures for the
                                   Marine Terminals;   Handling of
                                   Vertical Tandem     Discrimination
                                   Lifts.              Complaints Under
                                  Assigned             Section 519 of
                                   Protection          the Wendell H.
                                   Factors             Ford Aviation
                                  Controlled           Investment and
                                   Negative Pressure   Reform Act for
                                   REDON Fit Testing   the 21st Century
                                   Protocol.
                                  Commercial Diving
                                   Operations
2004............................  Occupational        Commercial Diving
                                   Exposure to         Operations
                                   Hexavalent         Fire Protection in
                                   Chromium.           Shipyard
                                  Steel Erection;      Employment
                                   Slip Resistance    Controlled
                                   of Skeletal         Negative Pressure
                                   Structure Steel.    REDON Fit Testing
                                  Electrical           Protocol Fire
                                   Standard (subpart   Protection in
                                   5)                  Shipyard
                                                       Employment
                                                      Basic Program
                                                       Elements for
                                                       Federal Employee
                                                       Occupational
                                                       Safety and Health
                                                       Programs and
                                                       Related Matters;
                                                       Subpart I for
                                                       Record keeping
                                                       and Reporting
                                                       Requirements
                                                      Updating OSHA
                                                       Standards Based
                                                       on National
                                                       Consensus
                                                       Standards;
                                                       General,
                                                       Incorporation by
                                                       Reference;
                                                       Hazardous
                                                       Materials,
                                                       Flammable and
                                                       Combustible
                                                       Liquids; General
                                                       and Environmental
                                                       Controls,
                                                       Temporary Labor
                                                       Camps; Hand and
                                                       Portable Powered
                                                       Tools and Other
                                                       Hand Held
                                                       Equipment,
                                                       Guarding of
                                                       Portable Powered
                                                       Tools; Welding,
                                                       Cutting, and
                                                       Brazing, Arc
                                                       Welding and
                                                       Cutting; Special
                                                       Industry,
                                                       Sawmills
                                                      Procedures for the
                                                       Handling of
                                                       Discrimination
                                                       Complaints Under
                                                       Section 806 of
                                                       the Corporate and
                                                       Criminal Fraud
                                                       Accountability
                                                       Act of 2002,
                                                       Title VIII of the
                                                       Sarbanes-Oxley
                                                       Act of 2002
2005............................  Electric Power      Standards
                                   Generation,         Improvement
                                   Transmission, and   Project--Phase II
                                   Distribution;      Procedures for the
                                   Electrical          Handling of
                                   Protective          Discrimination
                                   Equipment           Complaints Under
                                   (Subpart V).        Section 6 of the
                                                       Pipeline Safety
                                                       Improvement Act
                                                       of 2002
                                                      Roll-Over
                                                       Protective
                                                       Structures
2006............................  None..............  Occupational
                                                       Exposure to
                                                       Hexavalent
                                                       Chromium
                                                      Updating OSHA
                                                       Standards Based
                                                       on National
                                                       Consensus
                                                       Standards in
                                                       OSHA's Standard
                                                       for Fire
                                                       Protection
                                                      Assigned
                                                       Protection
                                                       Factors
                                                      Occupational
                                                       Exposure to
                                                       Hexavalent
                                                       Chromium
                                                       (amendment to
                                                       implement
                                                       settlement
                                                       agreement)
2007............................  Abbreviated         Procedures for the
                                   Bitrex             Handling of
                                   Qualitative Fit-    Retaliation
                                   Testing Protocol.   Complaints Under
                                  General Working      the Employee
                                   Conditions in       Protection
                                   Shipyard            Provisions of Six
                                   Employment.         Federal
                                  Confined Spaces in   Environmental
                                   Construction        Statutes and
                                  Updating OSHA        Section 211 of
                                   Standards Based     the Energy
                                   on National         Reorganization
                                   Consensus           Act of 1974, as
                                   Standards;          Amended
                                   Personal           Electrical
                                   Protective          Standard (subpart
                                   Equipment.          S)
                                  Explosives          Employer Payment
                                                       for Personal
                                                       Protective
                                                       Equipment
                                                      Updating OSHA
                                                       Standards Based
                                                       on National
                                                       Consensus
                                                       Standards
------------------------------------------------------------------------
\1\ Proposed and final rules include traditional health and safety
  standards, rules concerning Federal agency standards, anti-
  discrimination, and the process by which OSHA recognizes Nationally
  Recognized Testing Laboratories (NRTLs).

    Proposed and final rules do not include rules that are purely 
administrative, grants, technical amendments, corrections notices, 
withdrawals, changes to State plan and consultation regulations, and 
procedural notices such as extensions of comment periods, hearing 
notices, and extensions of compliance dates. They also do not include 
alternate standards for Federal agencies, variance application notices, 
and the recognition of specific NRTLs.
    Direct final rules are published with a concurrent proposed rule. 
For this table, both notices are counted as one final rule.

    SUMMARY OF THE OCCUPATIONAL SAFETY AND HEALTH ADMINISTRATION (OSHA) SMALL BUSINESS ADVOCACY REVIEW PANELS
                   MANDATED BY THE SMALL BUSINESS REGULATORY ENFORCEMENT FAIRNESS ACT OF 1996
----------------------------------------------------------------------------------------------------------------
                                                                  Date         Date      Published    Final rule
                         Rule title                             convened    completed     NPRM \1\    published
----------------------------------------------------------------------------------------------------------------
Tuberculosis................................................     09/10/96     11/12/96     10/17/97  ...........
Safety & health program rule................................     10/20/98     12/19/98  ...........  ...........
Ergonomics program standard.................................     03/02/99     04/30/99     11/23/99     11/14/00
Confined spaces in construction.............................     09/26/03     11/24/03     11/28/07  ...........
Electric power generation, transmission, and distribution...     04/01/03     06/30/03     06/15/05  ...........
Occupational exposure to Crystalline Silica.................     10/20/03     12/19/03  ...........  ...........
Occupational exposure to Hexavalent Chromium................     01/30/04     04/20/04     10/04/04     02/28/06
Cranes and derricks in construction.........................     08/18/06     10/17/06  ...........  ...........
Occupational exposure to Beryllium..........................     09/17/07     01/15/08  ...........  ...........
----------------------------------------------------------------------------------------------------------------
\1\ Notice of Proposed Rulemaking (NPRM) published in the Federal Register.

    A number of guidance products were issued by OSHA in the 1990s 
associated with rulemaking efforts and include such items as booklets 
and brochures that summarize employer responsibilities as well as 
Hazard Information Bulletins (now called Safety and Health Information 
Bulletins or SHIBs). OSHA has made an effort to compile a comprehensive 
listing of its work products responsive to this question but it is 
difficult to ensure a completely accurate catalogue of these products 
since no itemized database was ever maintained prior to 2005. Over the 
past 15 years, the issuance of electronic guidance has become a much 
more common and effective way to disseminate information than 
publishing guidance in print. Virtually all current OSHA compliance 
assistance products are posted on OSHA's public Web site at http://
www.osha.gov/pls/publications/publication.html. OSHA began a compliance 
assistance database in 2005 to track non-policy guidance from its 
national office (this excludes such items as enforcement compliance 
directives, which are often used by employers as guidance for how to 
interpret standards). The following table includes guidance that has 
been issued by OSHA's national office since 2005.

------------------------------------------------------------------------
               Product name                             Type
------------------------------------------------------------------------
29 CFR Part 1910. Subpart T, Commercial     Directive (with outreach
 Diving Operations Directive.                component)
Abrasive Blasting in Shipyards............  Guidance Document
Aerial Lifts..............................  Fact Sheet
Aerial Lifts Card.........................  Card
All About OSHA............................  Booklet
All Terrain Vehicles......................  Safety and Health
                                             Information Bulletin (SHIB)
Application of HAZWOPER to Worksite         Guidance Document
 Response and Cleanup Activities.
Asbesto...................................  Fact Sheet
Asbestos-Automotive Brake and Clutch        Safety and Health
 Repair Work.                                Information Bulletin (SHIB)
Avian Flu Quick Card: Animal Handlers.....  Card
Avian Flu Quick Card: Food Handlers.......  Card
Avian Flu Quick Card: General Precautions.  Card
Avian Flu Quick Card: Health Care Workers.  Card
Avian Flu Quick Card: Laboratory Workers..  Card
Avian Flu Quick Card: Poultry Workers.....  Card
Avian Flu fact sheet......................  Fact Sheet
BLSR Hazards Associated with E & P Waste    Safety and Health
 Liquids.                                    Information Bulletin (SHIB)
Basic Steel Products......................  Safety and Health Topics
                                             Page
Best Practices for the Safe Use of          Guidance Document
 Glutaraldehyde in Health Care.
Business Case for Safety..................  Safety and Health Topics
                                             Page
Carbon Monoxide Card......................  Card
Chain Saws................................  Fact Sheet
Chain Saws Card...........................  Card
Chippers Card.............................  Card
Cleaning Industry.........................  Safety and Health Topics
                                             Page
Cleanup Hazards...........................  Fact Sheet
Combustible Dust..........................  Safety and Health Topics
                                             Page
Combustible Dust Explosions...............  Fact Sheet
Combustible Dust in Industry: Preventing    Safety and Health
 and Mitigating the Effects of Fire and      Information Bulletin (SHIB)
 Explosions.
Concrete and Concrete Products:             Safety and Health Topics
 Manufacturing and Construction.             Page
Confined Spaces Card......................  Card
Confined Spaces Poster....................  Poster
Confined Spaces, Atmospheric Testing Card.  Card
Construction eTool, Spanish translation...  eTool
Container Gantry Crane Radio Communication  Fact Sheet
 on Marine Terminals.
Crane Safety Card.........................  Card
Critter fact sheet: Black Widows..........  Fact Sheet
Critter fact sheet: Brown Recluse Spiders.  Fact Sheet
Critter fact sheet: Cottonmouth (Water      Fact Sheet
 Moccasin).
Critter fact sheet: Fire Ants.............  Fact Sheet
Decontamination, General..................  Fact Sheet
Decontamination, General (Card)...........  Card
Demolition Safety Tips....................  Fact Sheet
Demolition Safety Tips Card...............  Card
Downed Electrical Wires...................  Fact Sheet
Drop-in Article: Lay press on landscaping   Other
 safety for summer jobs among teens.
Drop-in Article: Protect Your Working Teen  Other
 from Machinery Hazards.
Drop-in Article: Protect Your Working Teen  Other
 from Pesticides.
Drop-in Article: Protect Your Working Teen  Other
 from Strains and Sprains.
Drop-in Article: Protect Your Working Teen  Other
 from Summer Sun and Health Illnesses.
Electricity, Working Safely With..........  Fact Sheet
Electricity, Working Safely With (Card)...  Card
Entanglement Hazards of Augur Drilling....  Safety and Health
                                             Information Bulletin (SHIB)
Ergonomic Guidelines for Shipyards........  Guidance Document
Ergonomic Solutions for Electrical          eTool
 Contractors: Installation and Repair
 Module.
Ergonomic Solutions for Electrical          eTool
 Contractors: Prefabrication Module.
Ergonomics Guidelines for Shipyards.......  Guidance Document
Ergonomics for the Printing Industry:       eTool
 Flexography Module.
Ergonomics for the Printing Industry:       eTool
 Lithography Module.
Ergonomics for the Printing Industry:       eTool
 Screen Printing Module.
Fire Department S&H Topics Page...........  Safety and Health Topics
                                             Page
Fire Service Features of Buildings and      Booklet
 Fire Protection Systems.
First Aid Best Practices..................  Guidance Document
Flavorings-Related Lung Disease...........  Safety and Health Topics
                                             Page
Flood Cleanup.............................  Fact Sheet
Four Leading Construction Hazards.........  Card
Four Leading Construction Hazards Card....  Card
Frequently Asked Questions for OSHA's       FAQs
 Injury and Illness Recordkeeping Rule for
 Federal Agencies.
Fungi Hazards and Flood Cleanup...........  Fact Sheet
Globally Harmonized System of               Guidance Document
 Classification and Labeling of Chemicals
 (GHS) Guidance Document.
Guardrail System for Tunnel Form Stripping  Safety and Health
 Platform.                                   Information Bulletin (SHIB)
Guidance for Hazard Determination.........  Guidance Document
Guidance on Preparing Workplaces for a      Guidance Document
 Potential Pandemic Influenza.
Guidance on Safe Sling Use................  Guidance Document
Hand Hygiene and Gloves...................  Fact Sheet
Hand Hygiene and Gloves Card..............  Card
Handling Human Remains....................  Fact Sheet
Hazard Communication Guidance for Diacetyl  Guidance Document
 and Certain Food Flavorings Containing
 Diacetyl.
Hazards Associated With Transporting        Safety and Health
 Granite and Marble Slabs.                   Information Bulletin (SHIB)
Hazards of Manually Lifting Balloon Framed  Safety and Health
 Walls.                                      Information Bulletin (SHIB)
Hazards of Manually Lifting Balloon Framed  Safety and Health
 Walls (Spanish transla-  tion).             Information Bulletin (SHIB)
Hazards of Unintended Movement of Dump      Safety and Health
 Truck Body Beds.                            Information Bulletin (SHIB)
Hazards of Wood Chippers..................  Safety and Health
                                             Information Bulletin (SHIB)
Hazards with Hand-Feeding Bar               Safety and Health
 Straightening Machines.                     Information Bulletin (SHIB)
Health Effects of Hexavalent Chromium.....  Fact Sheet
Hearing Conservation Issues for the         Safety and Health
 Hearing Impaired.                           Information Bulletin (SHIB)
Hearing Loss in Construction Toolbox        Guidance Document
 Training.
Heat Stress...............................  Fact Sheet
Hexavalent Chromium FAQs..................  FAQs
Hexavalent Chromium Fact Sheet(s).........  Fact Sheet
Hexavalent Chromium Small Entity            Guidance Document
 Compliance Guide.
Hexavalent Chromium fact sheet............  Fact Sheet
Hospitals and Community Emergency           Booklet
 Response--What You Need  to Know.
Hydrogen Sulfide..........................  Fact Sheet
Hydrogen Sulfide Card.....................  Card
ICS Survival Sheet........................  Other
Inspection Guidelines for the Chromium      Directive (with outreach
 (VI) Standards.                             component)
Inspection Procedures for 29 CFR 19 10.120  Directive (with outreach
 and 1926.65(q): Emergency Response to       component)
 Hazardous Substance Releases.
Latex SHIB................................  Safety and Health
                                             Information Bulletin (SHIB)
Lead Hazards..............................  Fact Sheet
Lead in Construction......................  Fact Sheet
Lead in Construction Card.................  Card
Longshoring and Marine Terminal...........  Directive (with outreach
                                             component)
Machine Guarding eTool: Thermoforming       eTool
 Module.
Marine Terminal Fall Protection for         Fact Sheet
 Personnel Platforms.
Mass Care Shelter Workers Checklist.......  Guidance Document
Mold......................................  Fact Sheet
Mold Card.................................  Card
Motor Vehicle Safety Guidance for           Brochure
 Employers to Reduce Motor Vehicle Crashes.
OSHA Guidance Update for Protecting         Guidance Document
 Workers From Avian Flu (Influ-  enza).
OSHA Poster...............................  Poster
Occupational Exposure to Ethylene Oxide...  Guidance Document
Oil and Gas Well Drilling, Servicing and    Safety and Health Topics
 Storage: Storage Tank Module.               Page
Overhead Launching Gantry Crane...........  Safety and Health
                                             Information Bulletin (SHIB)
Pandemic Influenza Preparedness and         Guidance Document
 Response Guidance for Healthcare Workers
 and Healthcare Employers.
Personal Protective Equipment:              Card
 Construction.
Pest Control Pyrotechnics.................  Card
Portable Generators.......................  Fact Sheet
Portable Generators Card..................  Card
Portable Generators: Grounding............  Fact Sheet
Portable Ladder Safety....................  Card
Portable Ladder Safety Card...............  Card
Potential Flammability Hazard Associated    Safety and Health
 With Bulk Transportation of Oilfield        Information Bulletin (SHIB)
 Exploration and Production Waste Liquid.
Preparing and Protecting Security           Guidance Document
 Personnel in Emergencies.
Preventing Falls..........................  Fact Sheet
Preventing Falls Card.....................  Card
Preventing Mold-Related Problems in the     Guidance Document
 Indoor Workplace: A Guide for Building
 Owners, Managers, and Occupants.
Preventing the Uncontrolled Release of      Safety and Health
 Anhydrous Ammonia at Loading Station.       Information Bulletin (SHIB)
Psychological First Aid Materials and       Other Web Products
 Information.
Quick Start: Construction Module..........  Other Web Products
Quick Start: Health Care Module...........  Other Web Products
Recordkeeping Handbook....................  Guidance Document
Rescue of Animals (Dogs) by Disaster        Card
 Relief Personnel.
Respiratory Disease Among Employees in      Safety and Health
 Microwave Popcorn Processing Plants.        Information Bulletin (SHIB)
Respiratory Protection Card...............  Card
Respiratory Protection Guidance for         Safety and Health
 Employers and Workers.                      Information Bulletin (SHIB)
Rodents, Snakes, and Insects Card.........  Card
Safe Driving Quick Card...................  Card
Safeguarding Equipment and Protecting       Booklet
 Workers from Amputations.
Safety Hazards of Overloaded Cable Trays..  Fact Sheet
Safety Pays Advisor.......................  eTool
Safety and Health Cheddist for Community    Guidance Document
 Service Organizations Engaged in Disaster
 Recovery Demolition and Construction
 Activities.
Scaffold Quick Card (#2): Supported         Card
 Scaffold Inspection Tips.
Scaffolding (Supported) Card..............  Card
Search and Rescue.........................  Fact Sheet
Seasonal Influenza Vaccinations--Important  Fact Sheet
 Protection for Healthcare Workers.
Shipyard..................................  Directive (with outreach
                                             component)
Shipyard Employment: Fire Protection        eTool
 Module.
Shipyard eTool: Barge Cleaning module.....  eTool
Shipyard eTool: Best Practices for Marine   eTool
 Hanging Staging Module.
Shipyard eTool: Ship Breaking module......  eTool
Shipyard eTool: Ship Building module......  eTool
Silicosis Card............................  Card
Teen Worker Bookmark (OSHA/WHD))..........  Other
Tips for Improving Workplace Safety and     Fact Sheet
 Health.
Traffic Safety in Marine Terminals........  Guidance Document
Tree Care Industry........................  Safety and Health Topics
                                             Page
Tree Trimming.............................  Fact Sheet
Tree Trimming Card........................  Card
Trenching and Excavation Safety...........  Fact Sheet
Use of Blunt Suture Needles to Decrease     Safety and Health
 Percutaneous Injuries to Surgical           Information Bulletin (SHIB)
 Personnel.
Use of Blunt Tip Suture Needles to          Safety and Health
 Decrease Percutaneous Injuries to           Information Bulletin (SHIB)
 Surgical Personnel.
West Nile Virus...........................  Fact Sheet
West Nile Virus Card......................  Card
Whistleblower Protection for Employees in   Fact Sheet
 the Aviation Industry.
Whistleblower Protection for Employees in   Fact Sheet
 the Transportation Sector.
Whistleblower Protection for Employees of   Fact Sheet
 Public Transportation Agen-  cies.
Whistleblower Protection for Railroad       Fact Sheet
 Employees.
Whistleblower Protection for Trucking       Fact Sheet
 Employees.
Whistleblower Protections and the           Fact Sheet
 Environment.
Work Zone Safety..........................  Fact Sheet
Work Zone Safety Card.....................  Card
Worker Protection Matrix for Hurricane      eTool
 Response and Recovery Workers.
Working Outdoors in Warm Climates.........  Fact Sheet
Young Worker Fact Sheet (Update)..........  Fact Sheet
------------------------------------------------------------------------

                      enhanced enforcement program
    Question. For each of the past 5 years, please provide the number 
of enhanced enforcement program cases and the associated number of 
major enforcement outcomes.
    Answer. If an inspection is classified as an Enhanced Enforcement 
Program (EEP) case, it may receive additional enforcement efforts such 
as: an enhanced follow-up inspection to verify that both the cited 
conditions and other, similar, hazards have been corrected; in cases 
that can be settled, more comprehensive abatement requirements in the 
settlement agreements; and potential Federal court contempt enforcement 
of the citations or settlement provisions pursuant to Section 11(b) of 
the Occupational Safety and Health Act. In addition, other workplaces 
of the employer may be inspected through the following mechanisms:
    SST-Related Inspections in General Industry.--When other 
establishments of the same corporate employer (other than construction 
employers) are included on OSHA's current Site-Specific Targeting (SST) 
primary or secondary inspection lists, they will be moved to the 
current SST inspection cycle.
    Related Inspections.--Additional establishments of the same 
employer in both general-industry and construction may be inspected if 
there is evidence of showing that the safety and health problems 
identified in the initial EEP inspection are part of a broader company-
wide problem.
    The following chart shows data for OSHA's original Enhanced 
Enforcement Program, which was initiated October 1, 2003.

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                         General                    Enhanced     11(b)
                                                                   EEP 1      Follow-up   SST-related   industry-   Construction-  settlement    court
                          Fiscal year                           inspections  inspections                 related        related                 actions
                                                                                          inspections  inspections   inspections   agreements    to SOL
--------------------------------------------------------------------------------------------------------------------------------------------------------
2004..........................................................         314           54            1            2            10            60          5
2005..........................................................         589          108           19            9             7            88          2
2006..........................................................         473          128            8           12            12            49          2
2007..........................................................         717          174           18            3             6            84          1
2008 \1\......................................................         277           46            8            4             1            33          1
                                                               -----------------------------------------------------------------------------------------
      Totals..................................................       2,370          510           54           30            36           314         11
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ From 10-1-07 thru 5-22-08.

    On January 1, 2008, OSHA issued its revised Enhanced Enforcement 
Program. The revision changed the EEP criteria to place greater 
emphasis on those employers that have a history of violations with OSHA 
(including history with State Plans).
    Because there are significant differences between the original EEP 
(EEP 1) program as implemented in October 2003, and the revised EEP 
(EEP 2) program initiated in January 2008, the data from the two 
programs are not directly comparable and are reported separately.
    The following chart shows data for OSHA's revised Enhanced 
Enforcement Program, which was initiated January 1, 2008:

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                   EEP 2                                 General                                 11(b)
                                                                inspections   Follow-up   SST-related   industry-   Construction-   Enhanced     court
                          Fiscal year                            (number of  inspections  inspections    related       related     settlement   actions
                                                                fatalities)                            inspections   inspections   agreements    to SOL
--------------------------------------------------------------------------------------------------------------------------------------------------------
2008 \1\......................................................      \1\ 13   ...........  ...........  ...........  .............  ..........  .........
                                                               -----------------------------------------------------------------------------------------
      Total...................................................      \1\ 13   ...........  ...........  ...........  .............  ..........  .........
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ From 1-1-08 thru 5-22-08.

                         whistleblower activity
    Question. What is OSHA's experience to date in terms of workload 
numbers and time involved in carrying out new whistleblower/anti-
discrimination protections provided for in recent legislation, such as 
the 9/11 Commission bill? What does the budget assume for these 
workloads in fiscal year 2009?
    Answer. To date, cases filed under the Federal Rail Safety Act 
(FRSA) and the National Transit Security Systems Act (NTSSA), the 
whistleblower provisions of which were assigned to OSHA in the 
Implementing Recommendations of the 9/11 Commission Act of 2007, 
constitute less than 2 percent of OSHA's caseload. Based on past 
experience, the cases can be expected to increase as public awareness 
of the laws increase. The new statutes require a great deal of 
deliberation, as the agency works to address novel jurisdictional and 
coverage issues, develops implementing regulations, establishes working 
relationships with the agencies that enforce the substantive provisions 
of those laws, and develops and plans to deliver comprehensive training 
to investigators and supervisors.
    OSHA's fiscal year 2009 budget includes a total workload estimate 
of 2,055 whistleblower-case investigations and a discussion of the 
challenges of administering these new whistleblower statutes, but 
individual workload estimates are not established for each statute 
administered by the agency.
                        osha information system
    Question. Please provide more detail on the major steps, timeline, 
and costs for fiscal year 2008 and 2009 associated with the OSHA 
Information System. What are the outcomes expected to be achieved under 
this new information system?
    Answer. When fully implemented, OSHA's Information System (OIS) 
will replace the agency's current data system, the Integrated 
Management Information System (IMIS). The current project timetable for 
the OIS schedules full deployment by the end of fiscal year 2010. 
During fiscal year 2008 and 2009, work will be continued in three major 
areas: system design, a pilot to test approximately 20 percent of the 
total function for the new system, and completion of system 
development. OSHA estimates that OIS will cost $24 million to fully 
implement by September 30, 2010.
    When OIS is fully implemented, the agency will have an enhanced 
ability to more quickly identify local trends unique to States or 
counties, and to predict emerging trends such as new hazardous 
chemicals affecting workers. Unlike the current system, the analytical 
tools employed by OIS will have the capacity to recognize and detect 
events and occurrences that are unique to specific industry sectors and 
geographical areas, allow improved targeting and utilization of 
resources for both enforcement and compliance assistance activities, 
and more accurately set and monitor progress towards reaching 
performance targets.
                     susan harwood training grants
    Question. The budget once again proposes to eliminate funding for 
the Susan Harwood Training grants and Institutional Competency Building 
grants programs. What proportion of the grantees under these programs 
met their performance goals, based on a review of the most recent grant 
periods for which data are available?
    Answer. The most recent period for which Susan Harwood Training 
grant data are available for grantees that completed their programs is 
fiscal year 2007. This activity reflects grants awarded in fiscal year 
2006. The data indicate that 82 percent of Susan Harwood Training 
grantees met or exceeded their performance goals. Current Institutional 
Competency Building grantees are operating several years beyond the 
initial period designed for their development and 100 percent of them 
met or exceeded their performance goals originally established for 
them.
                          recordkeeping audits
    Question. During the budget hearing, Secretary Chao stated that 
OSHA completes inspections of employer recordkeeping of workplace 
injuries. Please describe specifically the steps involved in these 
recordkeeping audits. How many have been done for each of the last 5 
years and what specifically did these audits find? Do these audits 
include a specific and effective attempt to identify injury cases 
missing from the employer logs? What follow-up actions were taken in 
response to findings of inaccurate logs?
    Answer. OSHA collects injury and illness data from a universe of 
approximately 130,000 employers in high-rate industries for the purpose 
of identifying individual high-rate establishments for potential OSHA 
interventions. The program for conducting recordkeeping audits involves 
(1) onsite visits to a statistically valid sample of establishments 
that submitted data to OSHA; (2) a sample of employees within the 
establishment selected for inspection; (3) a comprehensive review of 
documentation concerning any injuries or illnesses for each employee 
file selected; and (4) a comparison of recordable cases discovered from 
the employee files compared with the establishment's original OSHA 300 
log to determine if any cases discovered were (or were not) properly 
recorded on the log. The audit program also entails (1) an interview of 
the recordkeeper; (2) comparison of the log summary data found onsite 
and the data the employer submitted to OSHA for the agency's Data 
Initiative; and (3) employee interviews.
    The following table reflects the number of audits completed over 
the past 5 years and their findings:

----------------------------------------------------------------------------------------------------------------
                                                                                                    Percent of
                                                                                                  establishments
                                                                                                    classified
                                                                                                   with accurate
                                                                                                   recording for
                                                                  Reference year     Number of         total
                              Year                                     data           audits        recordable
                                                                                                   cases (at-or-
                                                                                                   above the 95
                                                                                                      percent
                                                                                                   threshold of
                                                                                                     accuracy)
----------------------------------------------------------------------------------------------------------------
2003............................................................            2001             246           95.53
2004............................................................            2002             252           94.84
2005............................................................            2003             251           92.43
2006............................................................            2004             256           95.70
2007............................................................            2005             245         ( \1\ )
----------------------------------------------------------------------------------------------------------------
\1\ Analysis pending.

    Accuracy data pertain to the number of establishments recording 
correctly and does not attempt to estimate the actual number of 
instances where cases may have been under or over reported. The audit 
protocol was specifically designed to detect unrecorded cases as well 
as mis-recorded and over-recorded cases. This is done through a 
comprehensive onsite review of multiple record sources including 
medical records, workers compensation records, first-aid logs, and 
employee interviews. The sampling methodology was independently 
developed by the National Opinion Research Center at the University of 
Chicago to allow estimates of recordkeeping accuracy. Since these 
audits are conducted as part of an OSHA inspection, violations 
discovered are cited and require abatement by the employer.
                      cranes and derricks standard
    Question. Nearly 4 years after labor and management reached 
consensus on a safety standard for cranes and derricks, a proposed rule 
has yet to be issued. In the meantime, workers continue to be hurt and 
killed. On March 6 workers and one member of the public was killed in a 
crane collapse in New York City. Several days later two more workers 
lost their lives in a crane collapse in Miami, Florida. What is OSHA's 
timeline for completing action on this issue? Why has there been such a 
delay in moving forward based on the consensus reached 4 years ago?
    Answer. The cranes and derricks proposed rule will comprehensively 
address the hazards associated with the use of cranes and derricks in 
construction. As a consequence, this complex rule has required 
extensive time to conduct the required analyses and reviews. Pursuant 
to requirements enacted by Congress, OSHA is required to conduct a 
regulatory flexibility analysis, small business review, and paperwork 
burden analysis of the proposed rule. In addition, OSHA is required to 
explain the basis and purpose of the rule. OSHA anticipates issuing a 
notice of proposed rulemaking for this standard in Fall 2008.
               employee benefits security administration
    Question. As you may know, I have long been involved in maximizing 
retirement security for Americans. I am deeply concerned by the growing 
shift from secure defined benefit pensions to 401(k) plans. That is why 
I appreciate the Department's focus on fees associated with these 
plans, and as you know I have also introduced legislation on this 
critical issue. Studies show a small percentage increase in fees can 
have a dramatic impact on overall retirement security. I have a couple 
of questions for you on this front.
    Clearly, there are a number of parties that need to be made aware 
of plan fees. Of most interest to the press and public is the 
information that participants receive, since most plans are 
participant-directed and they pay most of the fees. However, the plan 
sponsor actually bears fiduciary responsibility in selecting plans that 
best serve the participants' interests and as they select plan options 
with reasonable fees, the participant ends up being in the happy 
position of choosing from several favorable options. And finally, in 
order to keep an eye on these plans, the Government needs information 
on fees.
    So far the Department has issued regulations on the information 
that the Government and plan sponsors receive--when do you plan to 
issue regulations on the information that participants get?
    Answer. The Department has developed proposed regulations 
concerning the disclosure of plan fee and expense information to plan 
participants and beneficiaries which are now in the final stages of 
review. We anticipate publication of our proposal in the Federal 
Register in early summer.
                 disclosure to plan sponsor regulations
    Question. With regard to the proposed regulation on disclosure to 
plan sponsors, I have sent a comment letter detailing all of my 
concerns with the proposed rule. I have also heard from plan sponsors 
and providers who have commented to DOL about this rule.
    Can you discuss how these comments are being integrated and what 
the timeline currently is anticipated in issuing a final rule?
    Answer. In December 2007, the Department published a proposed 
regulation and related prohibited transaction class exemption 
concerning the disclosure of service provider compensation and 
conflicts of interest information to plan sponsors. To date, the 
Department has received over 100 public comments on this regulatory 
initiative. Further, the Department conducted 2 days of administrative 
hearings on March 31 and April 1 of this year to further develop the 
public record and to provide Department representatives an opportunity 
to obtain additional information concerning the many issues raised by 
public commenters.
    The Department currently is reviewing these comments, as well as 
testimony presented at the public hearings, and analyzing the proposed 
regulation and class exemption in light of the legal, technical, and 
practical issues that have been raised. We have been and continue to 
pursue the goal of transparency for plan sponsors who are engaging 
service providers and selecting investment products for their plans, 
and we intend to finalize this regulatory initiative by November 2008.
                          administrative fees
    Question. I want to clear up specifically a debate that seems to be 
raging about bundled services. I keep hearing that it doesn't matter if 
plan sponsors understand all of the various kinds of fees that 
participants are being charged as long as the overall level is 
competitive. However, that doesn't take into account things like 
whether some costs are reasonable over time. For example, the cost per 
participant to administer a plan for 100 people is going to be 
significantly higher than the per participant costs for a plan covering 
five times as many people.
    So how is a plan sponsor to gauge the reasonableness of 
administrative fees as their plan grows if they only know the overall 
fee level that includes asset-based fees and investment fees? Don't you 
think that insuring reasonable administrative costs is inherent to 
fiduciary responsibility?
    Answer. ERISA prohibits the payment of fees to service providers 
unless the plan pays no more than reasonable compensation. Plan 
fiduciaries have an obligation to make sure that the plan is getting 
its money's worth whenever it makes an investment or enters into a 
contract with a service provider. To do so, the fiduciary needs to 
understand how much the plan is going to pay and what it is going to 
get in return. In order to make a judgment about whether fees are 
reasonable, the fiduciary needs to understand precisely what services 
are being rendered, the quality of those services, and whether the fees 
are structured in such a way that the interests of the service provider 
run counter to the interest of the plan.
    When administrative and investment fees are ``bundled'' together, 
for instance when they both are assessed through asset-based fees, a 
fiduciary needs to have the information necessary to make these 
assessments. Whether or not the fiduciary needs to look at the pricing 
of a particular component, for example administrative expenses, is 
likely to depend on the facts and circumstances. For example, in many 
instances, it may be relatively easy for the fiduciary to assess the 
benefits of purchasing each service separately or in a bundle simply by 
looking at the competitor's prices for the individual services. In such 
cases, if the contract does not give the service provider any improper 
incentives, the aggregate price may be all that matters to the plan. 
The fact that fees are bundled does not necessarily mean that the 
services and fees are hidden or that the plan is paying more for 
bundled services than if services were selected individually.
                 pension benefits guaranty corporation
    Question. I am very interested in movement by the PBGC as mentioned 
in the fiscal year 2009 budget request to modify investment policy more 
aggressively to reduce the long-term shortfall in obligations. I ask 
that you keep Congress fully apprized of such strategies as you move 
forward. I see that there could be some benefit in this approach, as 
reserves can be shored up without further increasing the strain on 
employer contributions, which in turn strains their ability to provide 
guaranteed benefit plans to their workers. However, this must be 
balanced with the investment policy that will not increase risk unduly. 
On a related note, I am hearing rumors of activity by the PBGC to 
examine whether to allow third-party financial institutions to purchase 
assets in frozen pension plans. I find this concept deeply troubling. 
ERISA of course requires that plan fiduciaries manage pensions solely 
in the interest of the participant. I fail to understand how adding 
another profit motive to the equation is accomplishing that 
requirement. Furthermore, I believe that an employer has more interest 
in protecting participant assets than a third party financial 
institution.
    Can you please comment on the PBGC's activity with regard to 
examining such plan asset sales?
    Answer. The three ERISA agencies have been approached by several 
financial institutions interested in assuming sponsorship of frozen 
pension plans from employers. The various proposals would transfer 
sponsorship and all aspects of plan administration and plan asset 
investment from the employer to a newly created subsidiary of the 
financial institution, which would become the new plan sponsor. Because 
the proposals involve ongoing plans that will not terminate, primary 
regulatory responsibility for these proposals rests with the Internal 
Revenue Service and Department of Labor. The IRS is actively examining 
whether such transactions are consistent with the requirements of the 
Internal Revenue Code. PBGC has asked the financial institutions to 
clarify the possible risks and benefits to plan participants and the 
pension insurance program.
                         wage and hour division
    Question. Please provide the information requested in last year's 
2008 Senate committee report related to the misclassification of 
workers and enforcement efforts in low-wage industries.
    Answer. ESA is working to finalize the requested report, and 
expects to transmit the full report to the Congress in the near future.
    Question. Staffing for the wage and hour division has fallen by 20 
percent from 2001 to 2008. What has been the impact of this reduction 
on the mission of the wage and hour division?
    Answer. The Wage and Hour Division's (WHD) mission is to promote 
and to achieve compliance with labor standards to protect and to 
enhance the welfare of the Nation's workforce. The President's fiscal 
year 2007 budget requested an additional increase of $6 million to hire 
39 FTE for WHD. The fiscal year 2008 budget requested an additional 
increase of $5 million to hire 36 FTE for WHD. The fiscal year 2009 
budget request includes funding to hire an additional 75 Wage and Hour 
enforcement staff to target resources on industries and workplaces that 
employ low-wage, immigrant workers.
    As has long been its mission, WHD is committed to protecting 
workers, particularly in low-wage industries. To make the best use of 
resources, WHD employs complementary strategies--enforcement, 
compliance assistance, and partnerships--that strengthen the agency's 
ability to protect the employment rights of workers in low-wage 
industries and to promote compliance by covered employers.
    We believe the ultimate impact of the resources we are given is 
shown in the enforcement results that WHD has achieved, rather than in 
the number of FTEs. In fiscal year 2007, WHD recovered more than $220 
million in back wages, the largest amount ever, for over 341,600 
employees, the second largest number since 1993. Since fiscal year 
2001, WHD has recouped more than $1.25 billion for nearly 2 million 
workers.
    Question. For each of the past 10 years, what share of wage and 
hour resources has been dedicated to self-directed investigations 
versus employee complaint-initiated actions?
    Answer. WHD has the following data for the past 10 years relating 
the percent of concluded cases that are self-directed and the percent 
of concluded cases that are initiated as a result of a complaint.

------------------------------------------------------------------------
                                           Self-directed    Complaint-
                                            cases as a    based cases as
               Fiscal year                  percent of     a percent of
                                             concluded       concluded
                                               cases           cases
------------------------------------------------------------------------
1998....................................            29.1            70.9
1999....................................            27.9            72.1
2000....................................            27.5            72.5
2001....................................            30.7            69.3
2002....................................            25.7            74.3
2003....................................            26.7            73.3
2004....................................            23.4            76.6
2005....................................            22.6            77.4
2006....................................            22.7            77.3
2007....................................            23.3            76.7
------------------------------------------------------------------------

    Question. What has the impact been on wage and hour's ability to 
respond effectively to employee wage and hour complaints?
    Answer. In fiscal year 2007, WHD investigators concluded complaint 
cases in 97 days on average. This is less than the 108 average numbers 
of days that it took to conclude complaint cases in fiscal year 2003. 
WHD has also improved the effectiveness of its complaint intake 
strategies and this has increased the percent of WHD complaint 
investigations that find violations of WHD laws. In fiscal year 2003, 
72 percent of WHD complaint investigations, excluding conciliations, 
found violations. By the end of fiscal year 2007, 79 percent of 
complaint investigations found violations.
budget justification of spending for special personal services payments 
                    and other personnel compensation
    Question. The Employment Standards Administration (ESA) budget 
justification (page ESA-19 for 2009 and page ESA-17 for 2008) shows a 
significant increase in the 2008 estimate of spending for special 
personal services payments and other personnel comp. The 2008 spending 
on such activities increases from $3.6 million under the president's 
2008 request (which ESA did not receive) to $6.6 million, an increase 
of more than 80 percent. What is the explanation for such a dramatic 
increase in this category of spending? Specifically, how does this 
proposed spending support the goals of ESA?
    Answer. After further review, we realize that our initial response 
to an informal question from the committee was incomplete. The 
appearance of a significant increase in the fiscal year 2008 estimate 
of spending for ``special personal services payment and other personnel 
comp'' is the result of the Employment Standards Administration's 
(ESA's) inconsistent use of some of the detailed budget object classes 
for personnel compensation. This issue, which became known when the 
Department implemented its new budget system that displayed a more 
detailed object class breakout, has been corrected.
    Although the fiscal year 2008 funding for object class 11.5 was 
included in the requested funding level for 11.0 (Total Personnel 
Compensation, which includes funding for regular salaries, as well as 
awards, overtime, and other personnel costs), it was not displayed in 
detailed object class 11.5 as it should have been. It was, 
unfortunately, displayed in other object classes within 11.0. With the 
implementation of the Department's new budget system, ESA is now 
providing a more accurate object class breakout.
    Moreover, in fiscal year 2008, ESA requested a total amount of 
$267.879 million for total personnel compensation (11.0), but was 
appropriated only $253.264 million--$14.615 million less than 
requested. The actual amount enacted for fiscal year 2008 for total 
personnel compensation was reflected correctly in the fiscal year 2009 
submission.
                  office of labor-management standards
    Question. According to the Department's evaluation of the Labor 
Management Reporting and Disclosure program, OLMS technology creates a 
problem for timely filing of required reports, as do difficulties with 
understanding LM form instructions and recordkeeping. What steps is 
OLMS taking in 2008 and planning in 2009 to address these findings? 
What level of resources will support these actions?
    Answer. In fiscal year 2007, DOL contracted with Eastern Research 
Group (ERG) for an analysis and evaluation of the OLMS reporting and 
disclosure program. In its October 31, 2007 report, ERG stated that, in 
general, ``OLMS has well established, organized, and documented 
policies and procedures in place to assist union officers in complying 
with LMRDA reporting requirements, to encourage compliance, and to 
rectify compliance problems with individual unions.'' The report also 
noted that issues with electronic filing and difficulties with 
understanding LM form instructions represent obstacles to union 
compliance with LMRDA reporting.
    To obtain further information on electronic filing difficulties, 
DOL commissioned ERG to perform a cost benefit analysis regarding 
potential improvements to the OLMS Electronic Labor Organization 
Reporting System (e.LORS). The e.LORS system provides labor 
organizations with the capability to electronically submit their 
reports, enables OLMS personnel to secure and analyze reported data, 
and provides a means for public disclosure of LM reports filed by labor 
organizations through an Online Public Disclosure Room.
    In its March 14, 2008 report, ERG noted four concerns with the 
current e.LORS system and recommended that OLMS replace the Adobe Forms 
and Adobe Server components of e.LORS with a Web-based alternative that 
would alleviate all of the business and technical gaps. ERG also 
suggested that an alternative ``pin and password'' process could 
replace the existing electronic signature requirement, and that the 
existing date query system could be replaced with a more versatile web-
based application.
    OLMS has been reviewing ERG's recommendations and expects to 
develop a plan to implement selected ERG recommendations. Congressional 
assistance will be important to implementing this plan, as fiscal year 
2009 budget considerations will affect the extent to which ERG 
recommendations can be implemented. Meeting the President's budget 
level is critical to improving e.LORS.
    OLMS is also focusing on compliance assistance to help union 
officers better understand the LM Form instructions. At mid-year fiscal 
year 2008, OLMS field offices had completed 50 compliance assistance 
sessions to over 1,300 attendees. These sessions assist attendees on 
how to understand the LM forms and instructions.
    OLMS' existing metric of ``percent of union reports meeting 
standards of acceptability'' was created in 2003 prior to the advent of 
substantial numbers of unions filing reports electronically. At that 
time only 73 percent of paper reports met the criteria of 
``acceptability,'' meaning that the form was facially compliant with 
the LMRDA (i.e., that required information fields were filled out) but 
not measuring accuracy or otherwise evaluating the filing. Thus, a 
report that meets the minimum level of ``acceptability'' may 
nevertheless contain serious deficiencies. Consistent cooperation with 
unions and extensive compliance assistance along with free software 
developed by OLMS and provided to unions, which assists in ensuring 
acceptability by pointing out facial inaccuracies or missing 
information, has allowed OLMS to increase the ``acceptability'' measure 
to 95 percent. As noted in the 2007 Performance and Accountability 
Report, OLMS plans to replace the acceptability measure with a new 
performance measure--increased electronic filing--which would drive 
continuing improvements in LMRDA reporting compliance, provide more 
timely disclosure of reports and improve agency efficiency in managing 
reports and public disclosure.
    A new baseline for electronic filing is being developed this year 
and future reports will use that baseline to measure OLMS performance. 
Acceptability remains a component of the new metric because as more 
unions file electronically, the percentage of reports meeting standards 
of acceptability also will rise.
    Question. How does the OLMS track who uses the Union Reports.gov 
website and how is the information used to support the purposes of the 
LMRDA? Please provide the number or share of hits by different types of 
visitors, such as union members, employers, academics, etc.
    Answer. OLMS does not collect information on who uses the union 
reports disclosure site and, therefore, has no way of determining the 
number or share of hits by different types of visitors. In calendar 
year 2006, OLMS recorded 79,319 visits to its Online Public Disclosure 
Room (www.unionreports.gov) home page, and in calendar year 2007 there 
were 228,154 visits.
    The following chart provides more specific information with regard 
to 2007.

----------------------------------------------------------------------------------------------------------------
                                                                                     Officer/
                      Month                         Union/trust     Payer/payee      employee         Yearly
                                                      Search          Search          Search
----------------------------------------------------------------------------------------------------------------
Jan.............................................          41,071           1,917           4,548           1,274
Feb.............................................          36,814           1,608           4,290           1,184
Mar.............................................          34,353           1,521           3,987           1,168
Apr.............................................          27,745           1,065           2,777             839
May.............................................          44,454           1,986           5,202           1,674
Jun.............................................          43,207           2,062           4,646           1,790
Jul.............................................          43,227           2,233           4,579           1,842
Aug.............................................          36,378           1,598           4,330           1,456
Sep.............................................          35,228           1,376           3,419           1,311
Oct.............................................          31,766           1,358           3,597           1,262
Nov.............................................          19,406             770           2,053             761
Dec.............................................          16,351             724           1,654             591
                                                 ---------------------------------------------------------------
      Yearly total..............................         410,000          18,218          45,082          15,152
----------------------------------------------------------------------------------------------------------------

    The first column shows the number of union financial disclosure 
reports retrieved or searched from the disclosure site. The second 
column shows the number of queries seeking to retrieve data on payments 
from a union to a particular individual or company, or vice versa. The 
third column shows the number of queries concerning transactions 
involving union officers or union employees. The fourth column shows 
the number of times the contents of the database were downloaded.
    The number of searches exceeds the number of visits to the 
disclosure home page because a single visit may involve multiple 
searches and individuals may access the disclosure site through a 
bookmarked page or by other means that circumvent the disclosure home 
page.
    One of the primary purposes of the LMRDA is to publicly disclose 
the financial conditions and operations of labor organizations. See 29 
U.S.C.  435 (Reports Made Public Information). ``By such disclosure, 
and by relying on voluntary action by members of labor organizations, 
abuses can be eradicated effectively.'' Senate committee report, S. 
Rep. No. 187 (1959), at 15. Publicly disclosed information empowers 
union members to become educated about their labor organization, to 
express knowledgeable opinions at membership meetings, and to cast 
informed votes at union officer elections.
                        family and medical leave
    Question. Family and Medical Leave Enforcement: I frequently hear 
from constituents the hardships they are having because their FMLA 
claims are denied, many of them incorrectly, but in some cases, in ways 
that would become legal under this new regulation. I have heard the 
following complaints:
  --The employer requires diagnosis of health condition on FMLA form.
  --The employer contacts the worker's medical provider directly and 
        demands more medical information than required under 
        regulations.
  --Multiple employers are refusing to approve completed FMLA paperwork 
        or they frequently ask employees to return to health care 
        provider for more information at great inconvenience to workers 
        who are already spending a great deal of time coping with a 
        chronic health condition.
  --Employers fail to inform employees of rights to FMLA when they ask 
        for medical leave.
  --The employer issues attendance points for absences that should have 
        been covered under FMLA.
  --The employer asks for recertification more often than allowed under 
        regulations.
  --The employer attempts to limit the amount or frequency of 
        intermittent leave for a serious health condition.
  --The employer uses FMLA absences to downgrade an employee's 
        performance rating or evaluation.
    I would like to know if the Department has considered the 
complaints they have received from the field about employers engaging 
in the very same activities that the regulations would permit.
    Answer. On February 11, 2008, the Department of Labor published 
proposed revisions to certain regulations implementing the Family and 
Medical Leave Act of 1993 (FMLA). The public comment period closed on 
April 11, 2008, and the Department is carefully reviewing all of the 
4,500 comments that it received from workers, employers, health care 
providers, and other stakeholders.
                        american time use survey
    Question. The American Time Use Survey provides critical 
information on Americans' work and commuting schedules, the time they 
spend taking care of children and sick adults, the time teenagers spend 
doing homework and all of the other activities that make up Americans' 
days. The survey costs only $4.3 million per year. Over 1,500 
researchers (including 4 Nobel Prize winners) signed a statement 
requesting that the Congress restore funding for the American Time Use 
Survey.
    Why does the Department's budget propose eliminating this critical 
survey?
    Answer. The administration made the decision to eliminate the ATUS 
in order to partially offset the rising costs of the Current Population 
Survey (CPS), a Principal Federal Economic Indicator. Eliminating the 
ATUS--one of BLS's newest and lowest priority surveys--allows BLS to 
focus its resources on higher priority programs that protect the 
accuracy and reliability of the monthly data on the Nation's labor 
force. Also, it is worth noting that not all industrialized countries 
that conduct time use surveys do so on an annual basis. On the other 
hand, CPS data--most notably the monthly unemployment rate--are among 
the Nation's most critical and widely used economic indicators in 
setting economic and social policies, and the preservation of the 
survey's sample size is most critical.
                    documenting missing injury cases
    Question. According to the Bureau of Labor Statistics website, BLS 
is taking a number of steps to learn more about research results 
documenting missing injury cases in individual firms, as determined by 
comparisons between BLS and State workers' compensation data, and to 
address any deficiencies in it survey operations.
    Please describe the efforts planned or underway in fiscal year 2008 
and planned for fiscal year 2009 to address the documents 
underreporting?
    Answer. The annual DOL reports of occupational injury and illness 
estimates come from the BLS annual Survey of Occupational Injuries and 
Illnesses (SOII). The survey captures data from Occupational Safety and 
Health Administration (OSHA) logs of workplace injuries and illnesses 
maintained by employers. Recent outside research has indicated that 
both SOII and workers' compensation programs missed cases. Beginning in 
fiscal year 2008 and continuing into fiscal year 2009, the BLS is 
examining and extending the results of this research to better 
understand the research methodology and the nature of the comparisons 
to determine if any changes in BLS survey operations are needed. In 
addition, the BLS conducted its own ``follow-back'' study in fiscal 
year 2007, with final results tabulated in fiscal year 2008. The 
results indicate that the survey correctly captured the data that 
employers recorded on their OSHA logs.
    In fiscal year 2008, the BLS began interviewing a small number of 
SOII respondents to learn about the decisions they make about reporting 
cases to workers' compensation programs and on the OSHA log. The 
purpose is to understand situations where workers' compensation cases 
might not be recorded on OSHA logs and vice versa. These interviews are 
being conducted by a BLS cognitive survey methodologist. At the request 
level, the BLS plans to expand the number of these interviews conducted 
in fiscal year 2009. Finally, the BLS has documented much of its 
analysis of the undercount issue to date, and its plans for future 
research, and will publish a research note in an upcoming issue of the 
Monthly Labor Review.
    The BLS has updated its ``Frequently Asked Question'' (FAQ) on this 
topic at http://www.bls.gov/iif/peoplebox.htm#faqaa.
    Question. How much is being spent or planned to be spent in fiscal 
year 2008?
    Answer. The BLS plans to spend approximately $240,000 on these 
activities in fiscal year 2008.
    Question. How much is requested in the BLS 2009 budget for these 
activities?
    Answer. At the 2009 request level, the BLS expects to spend 
approximately $300,000 for the activities described above relating to 
potential underreporting.
    Question. The BLS website also indicates that BLS is developing its 
own ``follow-back'' study to ensure the survey correctly captures the 
data that employees have recorded in the OSHA logs and that further 
research is still being planned as well.
    Please describe the follow-back study as well as future research 
plans?
    Answer. In 2007, the BLS conducted a quality assurance recontact 
survey that indicated that BLS survey processes were not responsible 
for an undercount. A sample of 3,600 establishments who participated in 
the 2006 survey were recontacted and asked to submit their OSHA logs, 
used in filling out the SOII survey form, to the BLS. The BLS then 
compared the OSHA logs to data for the SOII. There was no systematic 
evidence that the data in the SOII undercounted cases recorded on OSHA 
logs. This study did not attempt to ascertain whether the OSHA logs 
were correct or complete; the BLS is not responsible for ensuring the 
accuracy of OSHA logs from which the survey data is derived.
    Question. What resources are being allocated to the study or 
research on this issue in fiscal year 2008?
    Answer. In fiscal year 2008, BLS completed the final tabulations 
and the final report on the fiscal year 2007 recontact survey, with 
minimal staff time used. Under $90,000 was spent to conduct the study 
in fiscal year 2007.
    Question. How much is being requested in 2009 for these areas?
    Answer. The BLS has no current plans to conduct another recontact 
survey related to the SOII undercount issue. Therefore, the BLS request 
includes no funding related to the SOII recontact survey.
                 office of disability employment policy
    Question. The Department's performance goal for the Office of 
Disability Employment Policy is to ``build knowledge and advance 
disability employment policy that affects and promotes systems 
change.'' The performance targets developed by DOL for this goal 
include:
  --The number of policy related documents issued by ODEP, which falls 
        from 34 in fiscal year 2008 to 8 under the DOL budget request 
        for fiscal year 2009; and
  --The number of effective practices developed or validated by ODEP 
        drops from 24 in fiscal year 2008 to 15 under the DOL budget 
        request for fiscal year 2009.
    Does DOL believe that ODEP's mission has been completed and there 
is less of a need for developing effective practices or issuing policy-
related documents?
    Answer. ODEP's mission, ``to provide national leadership by 
developing and influencing disability-related policy and practice 
affecting the employment of people with disabilities'' continues to be 
an important component of the Department's overall mission. From fiscal 
year 2004, when it began tracking the number of effective practices it 
developed, through fiscal year 2007, ODEP's investments resulted in the 
development and dissemination of 79 effective practices. Since fiscal 
year 2006, when it began counting the number of policy documents 
produced as a measure of its performance, ODEP's efforts have produced 
54 policy documents. In fiscal year 2009, ODEP will focus its efforts 
on developing and implementing disability employment policy to increase 
the recruitment, retention and promotion of people with disabilities, 
and eliminate duplicative grant making activities. The requested 
funding level will allow ODEP to develop national policy related to and 
affecting employment of people with disabilities; foster the 
implementation of effective policies and practices within State and 
local workforce systems and with employers; conduct research and 
analysis that identifies and validates effective disability-employment 
strategies; and provide technical assistance on implementing effective 
disability employment policies and practices throughout the workforce 
development system, its partners and employers. The Department believes 
that ODEP's mission continues to support the agency's efforts to 
develop and influence the implementation of policy that reduces 
barriers to employment.
    Question. Please explain the goals, operations and outcomes 
achieved under the ODEP Alliance? How much has been allocated to this 
Alliance over the past 3 years and the 2009 request?
    Answer. The purpose of the Alliance initiative is to increase 
voluntary collaboration between ODEP and other public entities, 
including employers, organizations, and institutions. The operations of 
the Alliance initiative include formalizing the collaborative agreement 
with the Alliance entity, conducting outreach of the Alliance 
initiative, and managing specific Alliances. The goals of the Alliance 
initiative are to promote training and education, disseminate best 
practices, promote outreach and communication, and advance dialogue 
that promotes the employment of people with disabilities. Alliances are 
currently in place with the Society for Human Resources Management 
(SHRM) and CVS/Caremark.
    Since the Alliance initiative began in 2007, the following results 
have been achieved:
  --February 27, 2007: Presentation describing the ODEP/SHRM Alliance 
        to Salisbury (Maryland) Chamber of Commerce members. The 
        Salisbury Chamber is host to the Eastern Shore Business 
        Leadership Network and is a 2003 New Freedom Initiative (NFI) 
        Awardee.
  --October 5, 2007: At the 2007 Virginia State SHRM Conference, 
        Driving Competitive Advantage, in Arlington, Virginia, ODEP 
        presented a paper that describes resources being developed to 
        assist employers in hiring, employing and advancing people with 
        disabilities.
  --ODEP, together with Job Accommodation Network (JAN) and Employer 
        Assistance & Recruiting Network (EARN) staff, welcomed 
        conference attendees to ODEP exhibits at SHRM Conferences and 
        shared information on ODEP policy initiatives, disability 
        employment practices, and JAN and EARN services. Various ODEP 
        policy advisors attended conference sessions and networked with 
        SHRM members:
    --April 23, 2007, Staffing Management Conference and Exposition 
            (750 attendees), New Orleans, Louisiana;
    --June 24, 2007, Annual Conference and Exposition (22,000 
            attendees), Las Vegas, Nevada;
    --October 3, 2007, Virginia SHRM Conference (700 attendees), 
            Arlington, Virginia;
    --October 18, 2007, Diversity Conference (500 attendees), 
            Philadelphia, Pennsylvania; and
    --April 14, 2009, Staffing Management Conference and Exposition 
            (1,200 attendees), Nashville, Tennessee.
    As part of a comprehensive outreach effort, since 2007, ODEP has 
allocated $100,000 toward its Alliance initiative, and the fiscal year 
2009 budget provides $50,000.
                    legal service/solicitor's office
    Question. The 2009 budget indicates that the request level for 
legal services will allow the office to handle 36 percent fewer 
regulatory projects. Please identify by DOL agency the number of 
projects completed in fiscal year 2007, planned/completed in 2008 and 
planned in 2009.
    Answer. Because regulatory initiatives vary widely in complexity 
and the time and resources necessary to complete them, and reflect 
policy decisions made outside the Office of the Solicitor (SOL) rather 
than merely workload capacity in SOL, workload projections are based on 
an average amount of time spent on regulatory projects rather than the 
number of actual regulations. Assuming each ``regulatory project'' 
required the same expenditure of resources, SOL estimates that at the 
funding level requested in fiscal year 2009, it would be possible to 
work on approximately 36 percent fewer such projects than fiscal year 
2006. The 36 percent decrease was derived by comparing the actual hours 
spent by SOL attorneys on all regulatory matters in fiscal year 2006 
and fiscal year 2007 with the hours that are projected to be available 
for such work with the resources requested in fiscal year 2009. It 
should also be noted that some SOL regulatory work includes reviewing 
non-DOL proposed regulations for their potential impact on DOL-
administered laws and regulations. Because these estimates reflect 
average times spent on average regulatory projects, rather than actual 
projects, DOL's Semi-Annual Regulatory Agenda (available at http://
www.dol.gov/asp/regs/unifiedagenda/spring_2008_agenda.pdf and at 
Regulations.gov) should be consulted for an accurate prediction of the 
regulatory projects that DOL will complete in the next 12 months.
                          office of job corps
    Question. During the hearing, Secretary Chao stated that the 2009 
budget request maintains a level of service currently offered by the 
Job Corps. I have heard from a number of my constituents that the 
Denison Center in Iowa has had to reduce teaching staff, which means 
greater class sizes; defer replacement of high school textbooks and 
aging computers; and a reduction of a daycare provider for their solo 
parent program.
    How is it possible to maintain services at the President's budget 
level, when I have heard that the last couple years of funding have 
resulted in program service reductions? What has been the impact of 
relatively flat funding over the past 2 years on the level of service 
offered by the Job Corps program?
    Answer. Current budgetary constraints require us to make difficult 
choices with the resources available. The Job Corps program will 
continue its efforts to find cost efficiencies to offset increases in 
health, energy and transportation so that we can maximize the number of 
students served. The 2009 budget request for Job Corps will enable us 
to maintain the same level of service to its students and keep high 
levels of performance with respect to job placement, diploma 
attainment, and numeracy and literacy gains.
    Question. Additionally, Secretary Chao stated that the Department 
is ``very focused to keep Job Corps a strong program'' that serves 
young people and further stated that a reason for the cut was the 
unused beds within Job Corps.
    If the Department is focused on keeping Job Corps a strong program 
why wouldn't the Department enhance its investment in recruitment of 
students?
    Answer. Job Corps continues to maintain and develop our recruitment 
and outreach efforts. Job Corps consistently spent $6 million for each 
PY from 1999 through 2005 on its recruitment campaign; Job Corps spent 
$5 million in PY 2006 and $6 million in PY 2007. The recruitment budget 
for PY 2008 will not be less than PY 2007 funding levels.
    In October 2006, all Job Corps recruitment efforts were 
consolidated under the National Office. Previously, the National Office 
and each of the six regions had separate outreach support contracts. 
While the separate regional outreach efforts allowed for regional and 
center-specific outreach and recruitment approaches, having materials 
produced by different contractors had the unintended effect of diluting 
the Job Corps brand and duplicating efforts.
    Under this centralized plan, the National Office oversees the 
creation of Outreach & Admissions (OA) and CTS materials such as 
brochures and posters for distribution to Regional Offices and OA and 
CTS project directors. This plan resulted in better utilization of 
resources by providing economies of scale and allowing the program to 
have consistent name brand recognition.
    Question. Why hasn't the Department responded to Congress' 
directive to develop and implement a national plan to increase 
enrollment?
    Answer. Job Corps has responded to Congress' directive to develop 
and implement a plan to increase enrollment. Highlights of that report 
are as follows:
    In October 2006, Job Corps' Consolidated Outreach and Recruitment 
Plan was launched, which combined the outreach efforts of the National 
Office and its six Regional Offices into a single contract. This allows 
Job Corps to take advantage of economies of scale and ensures that a 
single message is communicated to our target audience. With this 
consolidated plan, OJC rolled out new recruitment materials and 
television outreach segments as of May 1, 2007. All OA contractors, 
Regional Offices, and the Job Corps National Call Center are being 
provided with these national materials.
    In May 2007, Job Corps launched the Youth Ambassador program, a 
program that serves as a student speakers' bureau to introduce Job 
Corps to potential workforce and recruitment partners. The ambassadors' 
goals are to: share their Job Corps experiences and success stories to 
select groups/organizations; help recruit new students; educate target 
audiences about the benefit of Job Corps; and serve as mentors. Each 
Job Corps region has two student ambassadors: one primary and one 
alternate. The first ambassador public speaking training conference was 
conducted January 7-10, 2008.
    Job Corps is also in the process of developing a national 
recruitment Web site that provides a single portal for prospective 
students, their parents and other adult influencers; an online 
application process to further streamline the enrollment process will 
also be added to the new site. This site will be a public site which 
will be linked to the primary Job Corps Public website as well as Job 
Corps Center websites. Users will be able to navigate between the 
various sites at their discretion.
    In addition to the national outreach and recruitment strategies OJC 
coordinates regional activities as well. Each Regional OJC administers 
and oversees several Outreach and Admissions (OA) contracts that are 
responsible for both recruiting and enrolling students in Job Corps 
centers. Each Region develops a Geographic Assignment Plan (GAP) using 
a national GAP planning template to ensure consistency across all 
regions, which assigns specific arrival goals to each OA contractor by 
specific Job Corps centers. Regional Offices monitor the success of the 
OA contractor in reaching these goals and review regional-level data to 
make adjustments to the GAP as necessary.
    It is important to note that the number of students enrolled in the 
program is not solely a function of recruitment and admissions. In 
addition to student arrivals, the number of student separations and 
students' average length of stay also factor into the program's On 
Board Strength (OBS). A vital component of increasing Job Corps' on 
board strength (OBS) is student commitment, or the willingness and 
readiness of a student to remain in the program through graduation. To 
improve performance in this area, Job Corps has implemented the 
Speakers, Tutors, Achievement, Retention, and Success program (STARS), 
offering structured tutoring and mentoring to provide those students at 
risk of leaving early the encouragement and support necessary to remain 
longer in the program, thereby increasing the number of program 
graduates. Furthermore, OJC implemented Career Success Standards (CSS), 
which incorporates employability and social skills development into all 
aspects of the program, leading to a more personalized relationship 
between staff and students, improving center culture, and students' 
willingness to remain in Job Corps.
    To further focus on improving student commitment, retention and to 
reduce the number of students who leave the program due to drugs or 
violence, Job Corps implemented a small drug test pilot program in the 
Philadelphia region. Applicants are tested for drug use prior to 
admission to further ensure that the program is enrolling students who 
are committed to their education and ready for the rigor and demands of 
the program. This pilot will allow Job Corps to determine the effect of 
pre-enrollment drug screening on retention, early program separation 
due to drugs and or violence and student outcomes.
    The preliminary results of Philadelphia drug screening pilot and 
the program's early separation analysis provides support that students 
who enter the program drug-free are more likely to remain in the 
program beyond 60 days.
    Thus, Job Corps is addressing challenges with recruitment and 
retention throughout the program in order to implement a more holistic 
solution.
    Question. Please describe the specific steps the department has 
taken to strengthen the interaction between outreach/admission 
contractors and center operators, and to ensure that outreach/admission 
contractors are effectively carrying out their responsibilities?
    Answer. Job Corps has historically taken definitive steps to 
strengthen the interaction between outreach/admissions contractors (OA) 
and center operators and to ensure that OA contractors are effectively 
carrying out their responsibilities.
    Job Corps' performance management system, entitled the Outcome 
Measurement System (OMS), is one of the major factors encouraging 
collaboration between all Job Corps operators and ensuring that each 
are effectively carrying out their respective responsibilities.
    Job Corps' performance management system is comprised of four 
outcome measurement systems:
  --Outreach and Admissions (OA) Report Card
  --Center Report Card
  --Career Transition Services (CTS)
  --Career Technical Training Report Card
    Each outcome measurement system assesses performance in specific 
areas of responsibility with respect to serving students throughout the 
Career Development Services System (CDSS). Combined, these outcome 
measurement systems provide a comprehensive picture of performance 
throughout all phases of students' Job Corps experience. Thus, it is 
critical that the systems be closely aligned to both encourage 
collaboration in delivering quality services to students and provide an 
accurate reflection of efforts towards meeting clearly defined program 
goals.
    Each component of the program's (Outreach Admissions [OA], Center 
and Career Transition Service [CTS]) report cards contains elements 
that are impacted by the performance of the other program components. 
The interdependence is such that one component of the program can not 
perform well overall if other components are performing poorly.
    Additionally, a recent, yet significant, step to hold OA providers 
accountable and strengthen the interaction between OA contractors and 
center operators was the implementation of performance based contracts 
(PBSC) for Outreach and Admissions. Previously only center and career 
transition operators' contracts were performance based. Effective 
February 7, 2008, all new OA contract awards have the appropriate 
performance based contract language added to the contracts.
            veteran's employment and training administration
    Question. Approximately 200,000 service members and 90,000 Reserve 
and National Guard Members are discharged from active duty annually.
    Specifically, how is the 2008 appropriation used to ensure their 
employment rights are being protected and transition and training 
programs are effective and available?
    Answer. Regarding the protection of employment rights, the fiscal 
year 2008 appropriation will be used to train and maintain a corps of 
over 100 trained investigators in our Regional and State offices 
throughout the country, six Senior Investigators (one in each Region) 
and a team of compliance and investigations specialists at the National 
Office. The fiscal year 2008 appropriation will support our aggressive 
outreach program to ensure employees and employers understand their 
respective rights and obligations under the statute. VETS national and 
regional staff will continue briefing deploying and returning military 
units, State Chambers of Commerce, State Bar associations and 
professional associations, and conduct information sessions through a 
variety of electronic media. We are hopeful that our outreach program 
will result in fewer USERRA complaints and violations. However, when we 
receive a USERRA complaint, we thoroughly and promptly investigate to 
ensure compliance with the law. Under the Transition Assistance Program 
(TAP) the appropriation supports the delivery of TAP employment 
workshops and provides VETS with the flexibility to provide targeted 
funding in response to exigent circumstances, such as an increased 
demand for TAP Employment Workshops. The number of TAP Employment 
Workshop participants is expected to continue to increase during fiscal 
year 2008 and fiscal year 2009 as TAP Employment Workshops are being 
extended overseas to serve Guard and Reserve units and individuals; and 
as DOD works to meet its goal of an 85 percent participation rate in 
TAP Employment Workshops. As demand for TAP Employment Workshops 
increases, VETS will coordinate with DOD to provide additional 
workshops while working to maintain optimal class sizes. The additional 
TAP Employment Workshops would be delivered through a combination of 
Disabled Veterans' Outreach Program (DVOP)/Local Veterans' Employment 
Representative (LVER) staff and/or contracted facilitator support.
    Question. Does the fiscal year 2009 request provide sufficient 
funds to address VETS' responsibilities?
    Answer. Yes, the fiscal year 2009 request provides sufficient funds 
to address VETS' responsibilities.
                                 ______
                                 
             Question Submitted by Senator Daniel K. Inouye
                state of hawaii national emergency grant
    Question. On March 20, 2008, Aloha Airlines shut down its passenger 
operations. This is the largest mass lay-off in Hawaii's history. It 
has put approximately 1,900 employees out of work. Hawaii has recently 
filed a National Emergency grant to assist with the job retraining and 
placement of these workers. Madame Secretary, this application is 
pending your review, and I would greatly appreciate your swift and 
favorable review. Time is of the essence so many of these former 
employees can look to new career opportunities as they struggle to get 
their lives back on track. Your review of this is much appreciated. Can 
you inform us of where you are in this process?
    Answer. The Department is in the final stages, working with the 
State of Hawaii, of developing its decision to award a National 
Emergency Grant (NEG). The State's request identified approximately 710 
workers needing services, including 146 pilots who would need training 
on aircraft other than those they flew for Aloha Airlines.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
               providing additional workers with services
    Question. In light of the Department's fiscal year 2009 proposed 
budget cuts to programs under the Workforce Investment Act and the 
elimination of Employment Services, how do you propose to accommodate 
the additional workers who are likely to need employment and training 
services during these turbulent economic times?
    Answer. The fiscal year 2009 budget request complements the 
administration's proposal for job training reform, which seeks to 
provide services in a more cost-effective way. This reform proposal 
would consolidate the Employment Service and the Workforce Investment 
Act (WIA) Adult, Dislocated Worker, and Youth funding streams into a 
single funding stream to be used for Career Advancement Accounts and 
employment services. In addition to eliminating the duplication between 
the Employment Service and WIA One-Stop delivery system that still 
exists in a number of States, it would replace the current siloed 
system of separate training programs, reduce administrative and 
overhead costs, and, most importantly, significantly increase the 
number of individuals who receive job training. Approximately 200,000 
individuals receive training through the public workforce investment 
system each year. However, these reforms would increase the number of 
workers trained to over 600,000.
    Overall, the fiscal year 2009 budget request makes a substantial 
investment in job training. Government-wide, the budget invests more 
than $13 billion in training and employment programs. Including Pell 
Grants for students pursuing training at technical or community 
colleges brings this total to $23 billion.
             assistance to low-income, out-of-school youth
    Question. This is the final budget that you will present for the 
Department of Labor as Secretary of the Department. It comes at a time 
when the United States has the highest proportion of students who drop 
out of secondary schools in the world--our teens ages 16 to 24 have the 
lowest annual average employment rates since World War II--and the 
employment rates for young adults ages 20 to 24 with no 4-year college 
degrees were substantially below those of 2007--especially for young 
men.
    What have you done over the past 7 years as Labor Secretary that 
addresses the needs of the millions of young people who are low-income, 
out-of-school, and out of work in a significant and meaningful way--
beyond Job Corps, which was a service for disadvantaged young people 
before you became Secretary and will continue to be so when your term 
ends?
    Answer. In 2004, the Department adopted and announced its new 
strategic vision to more effectively serve those youth most in need of 
services: out-of-school youth and at-risk youth. Recognizing the 
necessity of involving other Federal agencies that serve other groups 
of neediest youth in this collaborative effort, the Department's 
outreach and recruitment strategy led to the creation of a national 
cross-agency group, which evolved into the Shared Youth Vision Federal 
Partnership. The Federal Partnership now includes nine Federal 
agencies. This group serves as a catalyst at the national, State, and 
local levels to promote the Shared Youth Vision by strengthening the 
coordination, communication, and collaboration among youth-serving 
agencies to support the neediest youth in acquiring the talents, 
skills, and knowledge necessary for their healthy transition to 
successful adult roles and responsibilities.
    The Federal Partnership has been actively involved in sponsoring 
numerous activities to promote the Shared Youth Vision to State and 
local agencies serving youth. These activities have included: (1) a 
series of Shared Youth Vision technical assistance forums nationwide 
for State teams; (2) the selection of 16 Shared Youth Vision Pilot 
Project State teams to develop and implement strategic approaches that 
leverage their State-level coordination at the local service delivery 
level; (3) the development and implementation of a comprehensive 
technical assistance plan for infusing the collaborative vision in all 
States throughout the country; and (4) funding a Shared Youth Vision 
Implementation Study.
    Beginning 3 years ago, the Department's Youth Vision began to 
address the problems created by the large number of youth leaving high 
school without a diploma. The increased national focus on the impact of 
high drop-out rates on regional economic development, as well as the 
lessons learned through DOL-sponsored Alternative Education Listening 
Sessions, has driven the development of a multiple education pathways 
strategy that will increase the quality and quantity of alternative 
education opportunities and post-secondary opportunities for formerly 
out-of-school youth. The Department has demonstrated its leadership 
through the support of seven cities (Brockton, Massachussetts; Des 
Moines, Iowa; Fall River, Massachussetts; Gary, Indiana; Metairie, 
Louisiana; Mobile, Alabama; and Pittsburgh, Pennsylvania) in their 
efforts to develop a blueprint to create high quality, innovative 
multiple education pathway systems through our Multiple Education 
Pathway Blueprint (MEPB) initiative (funded at $3.4 million). MEPB 
addresses talent development and the very real need to address the high 
costs of increasing numbers of drop-outs and their negative impact on 
regional and State economic development.
    The Department is continuing to develop bridges between One-Stop 
Career Centers and offender-focused youth programs in local communities 
to improve services to young offenders. The co-enrollment of youth 
offenders in Workforce Investment Act-sponsored programs, Temporary 
Assistance for Needy Families, and Average Daily Attendance funds offer 
other examples of utilizing funds more effectively and leveraging 
resources. Some of the benefits of these arrangements include cost 
sharing and improved communication among participating programs.
    The Department of Labor also is providing leadership in serving 
out-of-school youth through our investments in YouthBuild and Youth 
Offender initiatives and focusing efforts on reconnecting the neediest 
youth to high-quality alternative learning environments that lead to a 
diploma and to post-secondary training.
                       underreporting of injuries
    Question. I continue to hear the administration's claims that 
worker injuries and illnesses on job are on the decline; yet, I also 
continue to hear about the problem of underreporting workplace 
injuries.
    Last year, in my first oversight hearing on OSHA in my Employment 
and Workplace Safety Subcommittee, Dr. David Michaels told us that the 
``true incidence . . . is far higher than reported by the Bureau of 
Labor Statistics since these data do not include approximately two-
thirds of occupational injuries and illnesses.'' (testimony for Dr. 
Michaels can be found at http://www.help.senate.gov/Hearings/
2007_04_26/2007_04_26.html).
    The problem goes beyond inadequate data collection. Experts cite 
various reasons for underreporting, including OSHA's failure to issue 
new regulations, employer disincentives to report these incidents, and 
workers' fear of retaliation.
    I believe that underreporting is a real problem and that is why I 
initiated a GAO investigation into OSHA efforts to ensure that 
employers are reporting injuries and illnesses accurately.
    What steps is the Department taking to proactively address the 
problem of underreporting workplace injuries and illnesses, 
particularly as it relates to areas under the jurisdiction of OSHA and 
BLS?
    Answer. The Department's annual injury and illness statistics are 
derived from the BLS Survey of Occupational Injuries and Illnesses 
(SOII). The survey captures data from Occupational Safety and Health 
Administration (OSHA) logs of workplace injuries and illnesses 
maintained by employers. While recent studies by outside researchers 
have reported that both SOII and workers' compensation programs 
undercount cases, these studies do not necessarily provide a definitive 
answer on the presence or size of any potential undercount, and thus do 
not provide an adequate basis for revising current BLS survey 
operations. The BLS is examining and extending the results of this kind 
of matching research to better understand the methodology and the 
nature of the comparisons.
    In fiscal year 2008, the BLS began interviewing a small number of 
SOII respondents to learn about the decisions employers make that might 
lead to workers' compensation cases not being recorded on OSHA logs or 
workers' compensation claims not being filed for cases recorded on the 
logs. BLS plans to expand the number of interviews conducted in fiscal 
year 2009.
    Finally, the BLS has documented much of its analysis to date of the 
purported undercount and its plans for future research, and will 
publish a research note in an upcoming issue of the Monthly Labor 
Review.
    OSHA is responsible for ensuring that employers accurately record 
work-related injuries and illnesses on their logs. OSHA collects data 
from employers in industries with high rates of injuries and illnesses 
to identify individual high-rate establishments for potential OSHA 
interventions. Each year OSHA conducts approximately 250 recordkeeping 
audits of employers in high-rate industries to estimate the accuracy of 
the logs. These audits include a comprehensive review of documentation 
concerning actual injuries and illnesses, and a comparison of these 
cases to those recorded on the employer's log to determine if the log 
is accurate. These audits indicate that over 90 percent of the 
establishments accurately recorded injuries and illnesses.
    Question. What steps has the Department taken in the past?
    Answer. In fiscal year 2007, the BLS began efforts to expand the 
scope of the SOII to include State and local government workers in all 
States. With the expansion of the survey, the BLS will include these 
public sector workers in its National estimates, including those in 
such high hazard occupations as police, fire-fighters and public health 
workers. In fiscal year 2007, the BLS also conducted a quality 
assurance survey that indicated that BLS survey processes were not 
responsible for an undercount. A sample of 3,600 establishments that 
participated in the 2006 survey were contacted and asked to submit 
their OSHA logs to the BLS. The BLS then compared the OSHA logs to data 
for the SOII. Though this study did not attempt to ascertain whether 
the OSHA logs were correct or complete, there was no systematic 
evidence that the data in the SOII undercounted cases recorded on OSHA 
logs. OSHA has conducted yearly audits of the OSHA logs as described 
above.
                          osha state programs
    Question. State OSHA programs now cover more than half of all 
States or territories (26), yet Federal funding for these programs has 
not kept up. My home State of Washington is one such State that 
continues to do more with less but is constantly getting the short end 
of the stick from Federal OSHA. Funding increases over the last 7 years 
have been negligible or non-existent, although in fiscal year 2006 
alone States issued 43,000 more violations and assessed millions of 
dollars more in penalties than Federal OSHA. Too many State programs 
have been forced to cut their operations budget, lay off inspectors or 
ask their overworked employees to forgo cost of living increases.
    Why doesn't OSHA adequately fund the 26 State-run safety and health 
programs required under the law? Please provide me with detailed data 
concerning of the number of inspections performed, violations cited, 
and penalties collected in both Federal and State run programs, and a 
cost-benefit analysis of the resources allocated on both levels.
    Answer. Section 23(g) of the Occupational Safety and Health Act 
provides for funding of State programs at a level which ``may not 
exceed'' 50 percent. Annual appropriations language also provides for 
funding ``up to 50 percent of the costs required to be incurred.'' Of 
the 26 approved State Plans, 22 cover both the private and public 
(State and local government) sectors and four operate plans limited in 
scope to the public sector. Although no State Plan is required to 
contribute more than a 50 percent match of the available Federal funds, 
many States have chosen to contribute additional funding above their 
Federal match funding. Washington is one of those States.
    The fiscal year 2008 Consolidated Appropriations Act provided $1.6 
million less than the President requested to fund these State Plan 
grants. This reduction exacerbated the difference between the Federal 
funds that were available and the amount that States were contributing 
to their safety and health programs. However, that gap has existed 
throughout the history of the program. This reflects, in part, the 
differences among the various States in the scope of their programs as 
well as the sources and availability of State funding compared to that 
made available from the Federal side.
    Attached is a chart showing inspection, citation and penalty data 
for Federal OSHA and State Plans. OSHA has not conducted a cost-benefit 
analysis due to the wide disparity among the various State Plans as 
well as between the State and Federal programs. The differences among 
the various approved State plans would make a cost-benefit analysis 
very difficult to construct. Further, the results of such a study would 
be of limited value given the difficulty in assessing and interpreting 
the different State and Federal approaches with any reasonable or 
meaningful degree of validity. It is clear, however, that Federal 
penalties far exceed those remitted in the States while the number of 
State inspections and violations issued are greater than those shown in 
the Federal data.

                         FISCAL YEAR 2003-FISCAL YEAR 2007 FEDERAL OSHA ENFORCEMENT DATA
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year
        Federal data only        -------------------------------------------------------------------------------
                                       2003            2004            2005            2006            2007
----------------------------------------------------------------------------------------------------------------
Total inspections conducted.....          39,931          38,286          38,828          38,604          39,400
Total violations issued.........          82,422          85,586          84,266          82 909          88,170
Total penalties remitted........     $59,557,998     $59,765,326     $80,533,951     $61,146,763     $56,708,502
----------------------------------------------------------------------------------------------------------------


                    FISCAL YEAR 2003-FISCAL YEAR 2007 18(b) STATE PLAN OSHA ENFORCEMENT DATA
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year
   18(b) state plan data only    -------------------------------------------------------------------------------
                                       2003            2004            2005            2006            2007
----------------------------------------------------------------------------------------------------------------
Total inspections conducted.....          60,868          58,990          57,481          58,567          51,545
Total violations issued.........         138,293         132,263         126,097         125,753         124,429
Total penalties remitted........     $36,833,975     $36,243,306     $33,291,121     $31,171,361     $25,342,236
----------------------------------------------------------------------------------------------------------------

                        family and medical leave
    Question. Working families continue to face more and more 
challenges when it comes to balancing the needs of work and home. 
Fifteen years ago, Congress recognized a need to protect a worker's 
right to job-protected leave and did so by enacting the Family and 
Medical Leave Act of 1993. Since then, we know that more than 60 
million people have benefited from this law, enabling them to care for 
their families or their own medical needs without the fear of losing 
their jobs.
    Despite this fact, earlier this year, the Department proposed 
sweeping changes to the act in an administrative rule change. I joined 
a number of my colleagues from both Chambers in expressing our concern 
that collectively, these rule changes unnecessarily restrict a worker's 
access to their job protected leave and they upset the delicate balance 
between employers and employees carefully established in the original 
act. I believe that we should be proactively looking to expand FMLA to 
help working families better balance the needs of home and work, not 
restricting it even further.
    I am most concerned that the Department proposed these changes 
without current, sound, and objective data to justify them. In fact, 
the last comprehensive survey completed by the Department was 8 years 
ago.
    What prompted the Department to propose these sweeping changes 
without first conducting a comprehensive survey as many of us 
recommended in our response to last year's Request for Information?
    Answer. The proposed changes are based on a careful examination of 
the Department's experience of nearly 15 years administering the law, 
several U.S. Supreme Court and lower court rulings on the FMLA, 
enactment of the new military caregiver leave provisions (Public Law 
110-181), and the more than 15,000 public comments the Department 
received from workers, employers, health care providers, and other 
stakeholders in response to a Request for Information that was 
published on December 1, 2006.
    Question. Will you commit to conducting such a survey before 
implementing final rule changes? If not, why?
    Answer. In response to the RFI, the Department received a 
significant amount of data on FMLA leave usage. The RFI was a useful 
information collection method that yielded a wide variety of objective 
survey data and research, as well as a considerable amount of company-
specific data and information from employers, both large and small, in 
a wide variety of industries.
    As explained in the RFI Report, despite the criticisms and 
limitations of the 2000 Westat Report, the Department believes that it 
provides a great deal of useful information and data on FMLA leave-
takers. Moreover, the Department has significantly supplemented and 
updated its knowledge of the impacts of FMLA leave, particularly 
intermittent FMLA leave based upon the information received in response 
to the RFI.
    The targeted updates in the proposed rule are well-supported by the 
available data, the Department's enforcement experience, case law 
developments, and the more than 15,000 public comments the Department 
received from workers, employers, health care providers, and other 
stakeholders in response to a Request for Information that was 
published on December 1, 2006.
    Question. During your tenure as Secretary, what proactive steps 
have you taken to expand job protected leave for workers?
    Answer. The Wage and Hour Division employs complementary 
strategies--enforcement, compliance assistance, and partnerships--to 
promote compliance with the FMLA by covered employers.
                        office of apprenticeship
    Question. In December 2007, the Department of Labor issued a Notice 
of Proposed Rulemaking to update the regulations for the National 
Apprenticeship Act of 1937. I heard from a number of organizations in 
my home State that these proposed changes would reduce the 
effectiveness and weaken the high standards that the Washington State's 
Apprenticeship Council has maintained since its establishment in 1939. 
Washington's apprenticeship programs have developed safety and training 
standards that are a model for other States. In March of this year I 
joined many of my congressional colleagues from Washington State in 
sending a letter to your agency, detailing our concerns about your 
proposal and the negative effect it will have on our State's 
apprenticeship programs. What prompted the department to propose these 
changes?
    Answer. The main impetus for updating the regulations was to 
develop a more flexible, adaptive and responsive national 
apprenticeship system that could continue to be strong and relevant in 
the 21st century. The existing regulations were originally published in 
1977 and have not been revised in 30 years. These regulations have not 
kept pace with the changing work environment, technology, or the rise 
of the global economy. Many of the changes defined and clarified in the 
Notice of Proposed Rulemaking were, in fact, already put into effect 
administratively because the existing rule was silent on the subjects. 
Additionally, many of the changes are intended to provide the kind of 
flexibility needed to serve the demands of industries that have not 
traditionally used, but could benefit from, the registered 
apprenticeship model. Finally, the proposed regulations ensure that 
registered apprenticeship keeps pace with technological changes, 
particularly in the delivery of related technical instruction.
    The Advisory Committee on Apprenticeship, which consists of equal 
representation from employers, labor, and the public sector, 
contributed to the development of the proposed regulatory framework 
that will align registered apprenticeship with the realities of the 
21st century economy and changes in the workplace. Throughout the 
development of the proposed revisions, the Department has focused on 
maintaining the integrity of the key components of registered 
apprenticeship that have made it such a successful and useful model for 
addressing the needs of industries and employers that have sponsored 
registered apprenticeship programs for many decades. These key 
components are on-the-job learning, related instruction, incremental 
wage increases, and mentoring.
    Question. Who if any stakeholders expressed concern about the 
current regulations?
    Answer. Over the past several years, the Department received 
numerous concerns from employers, employer associations, and labor 
organizations about the existing regulations. Many of these concerns 
are reflected in our purposes for updating the regulations, including 
the need for improved accountability, opportunities to incorporate 
technological advances, and more flexible options for program sponsors 
and apprentices. Additionally, concerns arose from the need to develop 
consistency for the registration of programs across the national 
apprenticeship system. Finally, many stakeholders, including labor 
unions, as well as oversight entities, including the Office of 
Management Budget and the Government Accountability Office, have 
asserted that the Department should strengthen accountability for 
quality and successful outcomes across all registered apprenticeship 
programs.
    Question. What exactly does the agency hope to accomplish with 
these proposed changes?
    Answer. With the proposed changes, registered apprenticeship will 
have the regulatory framework to: (1) continue to expand into new 
industries and occupations that are critical to maintaining a globally 
competitive workforce, (2) strengthen outcomes through an emphasis on 
program quality and accountability for all program sponsors, and (3) 
accommodate for technological advances in delivery of related technical 
instruction.
    Any and all proposed changes to the regulatory framework remain 
rooted in the fundamental tenants of the National Apprenticeship Act, 
which authorizes the Secretary of Labor to ``formulate and promote the 
furtherance of labor standards necessary to safeguard the welfare of 
apprentices.'' These changes also maintain the integrity of the 
original regulatory framework developed for industries that created and 
sustained the American apprenticeship system, particularly those in the 
construction and manufacturing industries.
             reauthorization of trade adjustment assistance
    Question. The Department of Labor's Trade Adjustment Assistance 
program provided critical assistance to hundreds of thousands of 
workers who have lost their jobs due to increased imports and offshore 
shifts in production for more than 40 years. The program's 
authorization expired at the end of 2007, but assistance continues to 
be provided until Congress funding runs out at the end of fiscal year 
2008. TAA could cease to exist in just 4 months.
    What specific steps does the administration intend to take in order 
to reauthorize TAA by 10/1/08?
    Answer. The administration strongly supports Trade Adjustment 
Assistance (TAA) reauthorization that includes needed reforms to help 
workers adversely impacted by trade access the training and re-
employment services they need to return to work quickly. The 
administration will continue to work with Congress to make TAA a more 
flexible and beneficial program for workers.
    Question. I am working closely with Senator Max Baucus to not only 
reauthorize the program, but to also improve access to training and 
make assistance more accessible and flexible.
    Please provide your comments on the various proposals included in 
Senator Baucus' legislation?
    Answer. The administration has not taken positions on specific 
proposals in S. 1848.
    Question. One of the glaring holes in the program is that all 
trade-impacted service workers are not currently eligible for 
assistance. How does the administration propose to fix this problem? 
What other proposals might the administration put forward to ensure 
that TAA provides adequate assistance to all eligible workers?
    Answer. The administration believes there are several flaws in the 
Trade Adjustment Assistance (TAA) program as it is currently designed. 
These flaws include: (1) TAA is an ``all or nothing'' program, where 
participants lose access to benefits by choosing to return to work; (2) 
Training options are limited and the process of applying for training 
is lengthy and bureaucratic; (3) Services cannot be provided until 
after the worker is laid off, even when the layoff is announced well in 
advance; and (4) There is no requirement that ``wrap-around'' services, 
such as career counseling, assessment and job placement assistance, are 
to be provided.
    The administration believes any reauthorization of the TAA program 
should reflect the following priorities: (1) Workers must have 
increased choice to combine employment with training and ``earn while 
they learn;'' (2) Training options should be flexible and easy to 
access; (3) Services should be available prior to layoff, in order to 
reduce the length of time workers are unemployed; and (4) Integration 
with the public workforce investment system should be improved to 
ensure workers have access to the full range of services available 
through the One-Stop Career Centers.
        employment services to unemployment insurance claimants
    Question. The public Employment Service serves Unemployment 
Insurance claimants. Employers pay for the administration of Employment 
Service in part because they assume that workers receiving UI will seek 
new jobs. From August 2006 through September 2007, about 4.5 million 
individuals received services under both the unemployment insurance and 
employment service.
    What are your plans for serving these UI claimants when there is no 
Employment Service under your 2009 budget proposal?
    Answer. Under the fiscal year 2009 budget proposal, Unemployment 
Insurance (UI) claimants would receive employment services through the 
Workforce Investment Act (WIA) One-Stop Career Center system. We 
propose to consolidate the Employment Service and WIA Adult, Dislocated 
Worker, and Youth funding streams into a single funding stream to be 
used for Career Advancement Accounts and employment services. It is 
estimated that 600,000 individuals would receive training and an 
additional 10.4 million individuals, including UI claimants, would 
receive other employment services under this approach.
                                 ______
                                 
              Questions Submitted by Senator Arlen Specter
                               mentoring
    Question. Secretary Chao, the statistics on youth violence are 
staggering. Philadelphia has the fifth highest homicide rate of all 
major U.S. cities, and juveniles account for 38.5 percent of all 
arrests in Philadelphia County. To help address this issue, in fiscal 
year 2007, I included $25 million within your Department for grants to 
school districts to discourage youth in high-crime urban areas from 
involvement in gangs. In fiscal year 2008, $50 million was included for 
persistently dangerous schools. Madame Secretary, I believe mentoring 
is one of the answers to this Nation's youth violence problem. What 
more can be done by your Department to address the crime and violence 
problems facing many of our Nation's youth?
    Answer. The Department of Labor will continue to work closely with 
the Department of Justice and its Office of Juvenile Justice and 
Delinquency Prevention (OJJDP) in the coordination of resources and 
activities that address the crime and violence young people face. 
Specifically, the Department anticipates working closely with OJJDP on 
its current Solicitation for Grant Applications, which focuses on gang 
prevention and coordination assistance.
    The Department will also continue its efforts to fully integrate 
mentoring strategies in existing and new projects. This includes the 
Department's current focus on school districts and the discouragement 
of youth involvement in gangs. The Department is presently making a 
concerted effort to ensure that existing apprenticeship, alternative 
education, and expansion projects incorporate mentoring as a key 
component in program design and service delivery.
    Planned grant solicitations, such as those that focus on 
persistently dangerous schools, will have a required mentoring 
component for which extensive technical assistance will be provided. 
The Department also anticipates an opportunity to prepare and 
distribute to the public workforce investment system a ``Mentoring'' 
Training and Employment Notice that will highlight the importance and 
positive impact of mentoring that, together with other proven models of 
success, will foster desired employment outcomes. Lastly, the 
Department will continue its support and active involvement in the 
Federal Mentoring Council and its focus on foster youth, continue the 
involvement of Federal staff in direct mentoring activities, and 
include mentoring as an expressly allowable activity within the 
Department's grant solicitations.
             elimination of employment service state grants
    Question. The budget proposes to eliminate the $703.4 million 
employment service State grant program. Your rationale for this 
decision is that it is duplicative of Workforce Investment Grants 
(WIA). The number of people served by the Employment Service is 13 
million annually. WIA grants service 900,000. How do you plan to serve 
the 12 million people who would be receiving services under the 
Employment Service grants?
    Answer. The fiscal year 2009 budget proposes to consolidate the 
Employment Service and the Workforce Investment Act (WIA) Adult, 
Dislocated Worker, and Youth funding streams into a single funding 
stream to be used for Career Advancement Accounts and employment 
services. It is estimated that 600,000 individuals would receive 
training and an additional 10.4 million individuals would receive other 
employment services under this approach.
    Our workforce system reform proposals will allow us to 
significantly increase the number of people trained. Therefore, many 
participants who would have been previously constrained to employment 
services due to the limited availability of training will be able to 
continue their professional development and acquire the skills and 
abilities sought by employers. Additionally, the labor exchange 
services traditionally provided by the employment service, such as 
resume posting and job search assistance, have largely been privatized 
and job seekers now have free access to Internet job boards that allow 
them to search for jobs and often post their resumes. While we believe 
there is an important role for the workforce system to play in 
providing employment services, these services should be provided 
exclusively through the One-Stop Career Centers.
            employment and training services in pennsylvania
    Question. Pennsylvania State officials claim that the Employment 
Service and the Workforce Investment Act programs are not duplicative 
and that eliminating these funds will cut staff and resources that make 
up at least half of the one-stop system in Pennsylvania. Officials also 
claim that almost no training will occur, that critical career 
counseling will be unavailable, and efforts to help veterans with 
specialized veterans counselors in the Employment Service will be hurt. 
What is your response to these claims Madame Secretary?
    Answer. The fiscal year 2009 budget proposes to consolidate the 
Employment Service and the Workforce Investment Act (WIA) Adult, 
Dislocated Worker, and Youth funding streams into a single funding 
stream to be used for Career Advancement Accounts and employment 
services. In addition to eliminating the duplication between the 
Employment Service and WIA One-Stop delivery system that still exists 
in a number of States, it would replace the current siloed system of 
separate training programs, reduce administrative and overhead costs, 
and, most importantly, significantly increase the number of individuals 
who receive job training.
    We disagree with the statement by Pennsylvania officials that 
almost no training would occur. Our proposed reforms to the public 
workforce investment system will ensure that 600,000 individuals 
receive training nationally at the requested funding level for fiscal 
year 2009, three times the current number. An additional 10.4 million 
individuals will receive other employment services, such as career 
counseling. Current law provisions relating to services to veterans 
will continue to apply, except that those services will be provided 
through the VETS-funded and WIA-funded services offered in the One-Stop 
Career Centers.
                          office of job corps
    Question. The budget proposes to cut the Job Corps program by $45.8 
million. The cut would result in 4,097 fewer student training slots 
than in 2008, a reduction of 9.2 percent. Do you plan to close any of 
the existing 123 Job Corps centers or to operate them below capacity?
    Answer. Job Corps does not intend to close any of the existing 123 
centers. At the President's fiscal year 2009 budget level Job Corps 
will be able to support 40,394 student slots.
    Question. If Congress were to provide funding to fully utilize the 
capacity of Job Corps centers, how would you improve recruitment aimed 
at a segment of the 1 million youth who drop out of high school each 
year?
    Answer. Job Corps will continue its outreach and recruitment 
efforts through our national campaign, consolidated outreach and 
recruitment plan and continued collaboration with high school 
counselors and local school districts. Job Corps is also placing 
greater emphasis on expanding the use of technology to promote the 
program such as the implementation of a National Job Corps recruitment 
website including an online application, as well as the using You Tube 
and other Web based portals for program promotion campaigns.
    Question. Each year 1.2 million youth drop out of high school. We 
need to do all we can to find new programs and expand existing program, 
such as Job Corps to address this problem. Your budget would result in 
a substantial reduction in Job Corps capacity. Our Nation's dropout 
statistics disprove your assertion before the House that there is 
insufficient demand or need for the program. Why do you continue to 
propose reducing Job Corps' capacity?
    Answer. Maintaining enrollment levels is always a top priority for 
the Office of Job Corps. The Department is not reducing capacity, 
rather we are no longer allocating funding for training slots which do 
not have participants. In doing so, we maintain the funding for student 
activities in those training slots that do have participants and more 
closely align with the consistent level of on-board strength in the 
program.

                                     JOB CORPS OBS DATA PY 2003-2007 YTD \1\
----------------------------------------------------------------------------------------------------------------
                                                           Program year
                                 ----------------------------------------------------------------   Current OBS
                                       2003            2004            2005            2006
----------------------------------------------------------------------------------------------------------------
Average on board strength.......          43,178          42,441          40,760          40,512          40,569
----------------------------------------------------------------------------------------------------------------
\1\ Program Year (July 1-June 30).

    Question. Historically, the Department of Labor has always been 
able to implement national plans that boosts Job Corps enrollment. Two 
years ago we requested that you submit a national plan to the 
subcommittee. To date, no such plan has been received. When can we 
expect to receive this plan?
    Answer. Job Corps submitted the plan to Congress on May 20, 2008. 
This reflects the consistent message that Job Corps has provided to 
Congress over the past 2 years through numerous means to include formal 
hearings and questions from the committees. This message communicates a 
comprehensive enrollment plan which includes a consolidated outreach 
and recruitment strategy implemented in 2006, the Speakers, Tutors 
Achievement and Success (STARS) program and Career Success Standards in 
2007 as well the Youth Ambassador Program and a pre-enrollment drug 
test pilot. This comprehensive plan is designed to not only boost 
enrollment but improve student commitment and retention.
                             osha penalties
    Question. A recent report by the Senate Health, Education, Labor 
and Pensions Committee showed that the median final OSHA penalty in 
cases where workers are killed is only $3,675. Many companies treat 
such low penalties as just the cost of doing business. Would you agree 
that corporate accountability is enhanced when OSHA imposes meaningful 
penalties for serious safety and health violations?
    Answer. OSHA agrees that employer accountability is enhanced when 
meaningful penalties are imposed for serious safety and health 
violations. However, OSHA does not agree with the HELP Committee's 
conclusion that the median penalty is the most appropriate measurement 
of penalties. Using the same data provided to the HELP Committee, and 
using only closed fatality investigations, which by definition are 
those investigations where citations have been issued and final payment 
made, the average penalty per fatality investigation is actually 
$6,035. More importantly, it should be noted that 62 percent of OSHA 
fatality investigations between 2004 and 2007 were conducted at 
companies with fewer than 25 employees, where penalties must 
statutorily be adjusted based on the employer's size. In fiscal year 
2007, OSHA's significant enforcement actions included more than 100 
inspections that each resulted in a total proposed monetary penalty of 
over $100,000.
    When proposing penalties for violations, the Occupational Safety 
and Health (OSH) Act requires the agency to take into consideration: 
(1) the gravity of the alleged violation, (2) the size of the 
employer's business, (3) the good faith of the employer, and (4) the 
employer's history of previous violations. Proposed penalties are 
calculated for each violation, with the initial statutory penalties 
adjusted based on these statutory factors. The act does not provide for 
enhanced civil penalty amounts for an employee fatality, except to the 
extent the statutory factors address the factors contributing to the 
accident. Moreover, even where violations are found in fatality 
investigations, those violations may not have contributed to the 
fatality.
                         criminal prosecutions
    Question. There is essentially no criminal enforcement of our 
Nation's safety and health laws. In the past 5 years, there have been 
only 10 prosecutions under the Occupational Safety and Health Act and 
only 68 cases in the entire 38-year history of the OSHA. What role do 
you think criminal prosecutions should play in enforcing the law? Do 
you think 10 prosecutions in 5 years or 68 cases in almost 40 years is 
enough to have a deterrent effect on employers who don't take their 
workers' safety and health seriously?
    Answer. OSHA believes that criminal prosecutions are a vital 
enforcement tool and provide a powerful deterrent effect for employers 
who do not take their workers' safety and health seriously and show 
indifference to compliance with workplace safety and health 
regulations.
    Since the passage of the OSH Act in 1970, OSHA has referred 210 
cases to the Department of Justice for consideration of criminal 
prosecution. This administration has referred 65 OSHA cases to the 
Department of Justice since 2001--31 percent of all criminal referrals 
made by OSHA and more than any other administration. The Department of 
Justice's decisions on whether to prosecute these cases reflect its own 
further evaluations of the evidence and other appropriate issues.
    The primary criminal provision in the Occupational Safety and 
Health Act is section 17(e), which makes it a misdemeanor for an 
employer to willfully violate a standard that causes the death of any 
employee. It is the Department of Labor's policy to evaluate all 
willful OSHA violations that contribute to workplace fatalities for 
potential referral to the Department of Justice for prosecution. The 
Department's Office of the Solicitor has issued specific instructions 
to its attorneys to evaluate all such cases for criminal referral.
                 mine safety and health administration
    Question. Report by the U.S. Department of Labor, Office of 
Inspector General, Office of Audit: On March 31, 2008, the OIG issued 
their report regarding MSHA's roof control plan approval process for 
the Crandall Canyon Mine, which concluded that ``MSHA was negligent in 
carrying out its responsibility to protect the safety of miners.'' 
Specifically:
  --MSHA could not show that it made the right decision in approving 
        the [roof control] plan or that the process was free from undue 
        influence by the mine operator.
  --MSHA did not have a rigorous, transparent review and approval 
        process for roof control plans consisting of explicit criteria 
        and plan evaluation factors, appropriate documentation, and 
        active oversight and supervision by Headquarters and District 9 
        management.
  --MSHA did not ensure that inspections assessed compliance with, and 
        the effectiveness of, approved plans in continuing to protect 
        miners.
  --Finally, requirements related to surface rescue operations and non-
        rescue activities need to be clarified.
    Answer. That while the report ``points to several shortcomings in 
MSHA's documentation . . . and identified missed opportunities to 
proactively enhance safety protections,'' it ``does not provide 
evidence that MSHA negligently breached its duty to protect miners''.
    Question. Madame Secretary, the report found serious deficiencies 
in the review and approval of the Crandall mine plan--can you assure me 
that MSHA is taking all steps necessary to make sure that no other 
unsafe mining plans have been approved by this deficient process? 
Please provide the subcommittee a list of the safeguards that you have 
implemented regarding the approval of mine plans.
    Answer. In response to improving the roof control plan approval 
process, MSHA has conducted specialized training and has taken specific 
actions, as described below.
  --An evaluation was made of all underground coal mines in the United 
        States to identify mines that may have a ``bump'' or ``burst'' 
        potential. This initiative began in late August 2007 and was 
        completed in December 2007. Seventeen mines were identified. 
        Each one of these mines has been visited by MSHA's Technical 
        Support roof control experts and reports have been submitted to 
        Coal Mine Safety and Health (CMS&H). MSHA will revise the roof 
        control plans accordingly, as well as requesting for Technical 
        Support to review select plans at mines with bump potential.
  --MSHA roof control supervisors and specialists received additional 
        training on various computer modeling software that can be used 
        to evaluate complex and non-typical roof control plan 
        proposals.
  --A Program Information Bulletin (PIB) was recently issued by MSHA 
        providing guidance on the proper use of the National Institute 
        for Occupational Safety and Health's (NIOSH) Analysis of 
        Retreat Mining Pillar Stability (ARMPS) program. The PIB alerts 
        the mining community about the availability of an updated 
        version of the program.
  --A list of Best Practices addressing ``Ground Control for Deep Cover 
        Coal Mines'' was developed. The Best Practices, which covered 
        topics such as geology, pillar design, multiple seam mining, 
        and retreat mining, were posted on MSHA's website, 
        www.msha.gov.
  --MSHA and the Bureau of Land Management developed a Memorandum of 
        Understanding to facilitate communication and information 
        sharing about geological conditions or mining practices that 
        impact the health and safety of miners.
  --MSHA and NIOSH technical experts in roof control are working 
        together to develop safer retreat mining guidelines. (see 
        addendum below on MSHA/NIOSH Cooperation on Retreat Mining)
  --A Procedure Instructional Letter has been issued that provides 
        uniform guidance to CMS&H Districts on which roof control plans 
        are to be sent to MSHA's Technical Support for further review.
    In addition, MSHA developed the following procedures, which were 
sent to the District Managers on June 6, 2008, with a memorandum from 
the Administrator for CMS&H describing each procedure and its intended 
use:
    New procedures:
  --Roof Control Plan Approval Process.--Incorporates the specific 
        steps involved in the plan approval review process, and 
        identifies the responsible parties for each step. Responsible 
        parties include the roof control specialist and supervisor, 
        mine inspector and supervisor, Assistant District Manager for 
        technical programs, Assistant District Manager for enforcement, 
        and the District Manager. Each of the MSHA personnel reviewing 
        the plan must initial approval/concurrence, and any identified 
        deficiencies must be addressed.
  --Roof Control Plan Review Form Checklist.--Ensures that review items 
        are included in the plan, such as: detailed accident and injury 
        data, violation history, requirements of Title 30 CFR sections 
        75.204, 75.215, 75.221, and 75.222, software applications 
        related to development, and/or retreat stability factors.
  --General Safety Precautions Checklist.--Addresses Automated 
        Temporary Roof Support systems, removal of loose material, 
        installation of timbers, adverse roof conditions, temporary 
        supports, continuous mining machine breakdown in unsupported 
        area, remote control operation, and distance for first coal 
        mined out of crosscuts. A ``breakdown in an unsupported area'' 
        occurs when a continuous miner begins mining, advances into the 
        coal seam and breaks down. There is no roof support in this 
        area thus is considered an unsupported area. Mining machines 
        are now equipped with a remote control feature that allows the 
        miner to remotely operate the machine from a safe distance. 
        This document will supplement the Roof Control Plan where 
        applicable.
  --Retreat Mining Precautions Checklist.--Addresses intersection 
        supplemental support, marking pillar cut locations, certified 
        person on working section, equipment operator positioning, 
        training, drilled test holes, and pillar extraction sequence. A 
        certified person is someone who has received additional 
        training and received a certification by the State in which 
        they are working. The concept in this case would be that a 
        certified person would be better trained to determine the 
        adequacy of the roof and make a determination if supplemental 
        support would be needed. This document will supplement the Roof 
        Control Plan where applicable.
  --Mobile Roof Support Checklist.--Addresses safety items directly 
        related to the use of Mobile Roof Support (MRS) units during 
        retreat mining. Some of the items addressed are training, 
        operator positioning, manual and remote operation, procedural 
        limits for lowering and setting MRS, pressure gauges and 
        lights, and breakaway cable hangers. This document will 
        supplement the Roof Control Plan where applicable.
  --Deep Cut Safety Precaution Checklist.--Specific to extended cuts of 
        up to 40 feet in depth. Some of the precautions include place 
        changing, operator positioning, time allotment for unsupported 
        cut, reflective markers on second full row of roof bolts, and 
        conspicuous marking on the continuous miner to indicate depth 
        of cut. This document will supplement the Roof Control Plan 
        where applicable.
  --A memorandum has been sent to the District Managers from the 
        Administrator for CMS&H stating that all complex and non-
        typical roof control plans proposed by mine operators shall 
        contain an assessment of the basis on which the operator has 
        determined the plan is appropriate and suitable to the mining 
        conditions. Data and engineering evaluations shall be included 
        with the assessment. MSHA shall not approve the proposed plan 
        until the operator has provided the data and evaluation 
        supporting the proposal and a confirming evaluation(s) have 
        been completed. On June 3, 2008, a letter was sent from the 
        Administrator to all underground coal mine operators of MSHA's 
        intentions pertaining to complex and non-typical roof control 
        plans.
           addendum--msha/niosh cooperation on retreat mining
    NIOSH and MSHA Technical Support are working together to improve 
safety for miners working in retreat mining operations. In response to 
language in its fiscal year 2008 budget allocation, NIOSH is 
conducting, in collaboration with the University of Utah and West 
Virginia University, a major study of the recovery of coal pillars 
through retreat room and pillar mining practices in underground coal 
mines. The study is focusing on mines operating at depths greater than 
1,500 feet, but it will address issues that are important to all 
retreat mining operations. This report will be delivered by December 
31, 2009, and will include:
  --A detailed description of the retreat mining segment of the 
        industry, including the geologic conditions encountered and the 
        mining practices employed;
  --Suggested guidelines for maintaining global stability during 
        retreat mining through proper design of production and barrier 
        pillars. The appropriate use of ARMPS, additional computer-
        modeling software known as LAMODEL, and other pillar design 
        tools will be covered in detail, as well as specific designs to 
        minimize the risk of bumps;
  --Suggested best practices and procedures to ensure local stability 
        during retreat mining, including cut sequence, roof support, 
        and the application of seismic monitoring, and;
  --Remaining research needed to develop improved technologies to 
        protect miners during deep cover retreat mining.
    MSHA and NIOSH have established a Working Group, consisting of 
ground control experts from both agencies, to review progress on the 
NIOSH project and facilitate transfer of information on retreat mining. 
Personnel from MSHA in Technical Support's Pittsburgh Safety and Health 
Technology Center's Roof Control Division (RCD) will participate in the 
MSHA/NIOSH Working Group on retreat mining. RCD personnel will review 
progress on the NIOSH project and facilitate transfer of information on 
retreat mining. Based on the findings of the NIOSH project, the Working 
Group will develop recommendations for establishing methods, 
requirements, and parameters for technical analyses of retreat mining 
plans.
    Although a project of this scope requires 2 years for completion, 
RCD's involvement will assure that significant interim results and 
conclusions of immediate benefit to miner safety are made available to 
MSHA enforcement personnel and the mining industry as quickly as 
possible.
    Also, RCD, in collaboration with NIOSH, previously developed a 
pillar recovery risk factor checklist which was published in a December 
2005 technical paper. The checklist can be used by MSHA Districts and 
the mining industry to identify potential problems for specific retreat 
mining plans. The risk factors listed on the checklist include: 
production pillar design, barrier pillar design, final pillar stump 
design, mobile roof supports, supplemental roof support, geologic 
hazards, equipment operator locations, intersection spans, multiple 
seam interaction, depth of cover, age of mine workings, and type of 
coal haulage system.
                                 ______
                                 
             Questions Submitted by Senator Larry E. Craig
             labor-management reporting and disclosure act
    Question. Until last year the Office of Labor-Management Standards 
(OLMS) has received steady increases in funding from this committee. I 
am supportive of the mission of OLMS to ensure that union funds are 
being handled in a responsible way. What results can you cite that 
would support your fiscal year 2009 request to increase funding for 
OLMS?
    Answer. OLMS has responsibility for enforcement of the Labor-
Management Reporting and Disclosure Act (LMRDA) of 1959. After years of 
inadequate funding to carry out this mission effectively, we have 
requested resources to re-establish an effective program to ensure 
union financial integrity and compliance with the LMRDA.
    OLMS' union audit program verifies compliance with the law, 
investigates potential violations and allows OLMS to provide compliance 
assistance to help unions meet statutory requirements. The audit 
program had substantially waned since the mid-1980s because of the 
steady erosion of resources. For example, in 2000, OLMS was able to 
perform only 204 audits for out of well over 20,000 unions, which was 
the equivalent of a union being audited once every 133 years. With 
gradual funding increases for the audit program until fiscal year 2008, 
the number of audits rose from 238 in 2001 to 775 in 2007--an increase 
of 226 percent.
    The additional resources also have supported investigations into 
criminal activity. During fiscal year 2007, OLMS secured 100 
indictments and 118 convictions against union officials and related 
parties for crimes, such as fraud and embezzlement. Since 2001, OLMS 
investigations have yielded a total of 842 indictments with 802 
convictions and returned more than $88,000,000 in restitution to rank-
and-file union members. In cases of organized crime and labor 
racketeering, OLMS has referred cases to the Office of Inspector 
General (OIG) and has worked cooperatively with the OIG on a number of 
successful investigations, some of which are described in the Inspector 
General's semi-annual report.
    It is clear that providing OLMS with appropriate resources yields 
results for rank-and-file union members. The program results from 
fiscal year 1998 to fiscal year 2007 are set forth below.

----------------------------------------------------------------------------------------------------------------
                                                                         Fiscal year
                                           ---------------------------------------------------------------------
                                             1998   1999   2000   2001   2002   2003   2004   2005   2006   2007
----------------------------------------------------------------------------------------------------------------
Actual FTE usage..........................    289    287    274    290    260    262    290    314    327    331
Compliance audits.........................    302    289    204    238    277    255    532    612    736    775
Criminal cases processed..................    367    386    464    371    410    317    303    332    340    406
Indictments...............................    143    119    204     99    166    131    110    115    121    100
Convictions...............................    130    131    191    102     89    152    111     97    133    118
Compliance audits.........................    302    289    204    238    277    255    532    612    737    775
International compliance audits...........  .....  .....      4      1      2  .....      1      7      5      7
----------------------------------------------------------------------------------------------------------------

    A recent example of OLMS's work can be seen in a case starting in 
2006 when a compliance audit by the OLMS Detroit District Office of 
Steelworkers Local 1358 revealed that, during the period from November 
1999 through July 2006, the Secretary-Treasurer had embezzled a total 
of $274,262.38 from Local 1358 by cashing checks to himself. He forged 
the signature of another officer to further his scheme, created false 
union records, and destroyed union records to conceal his embezzlement. 
In addition, he caused the union to file false LM reports by omitting 
the embezzled amounts when he prepared the reports. On July 11, 2007, 
he pled guilty to one count of embezzling union funds. He made 
restitution of $128,438.46 prior to the discovery of the embezzlement, 
resulting in a net loss to the local of $145,823.92. On November 14, 
2007, he was sentenced to 24 months in prison and 2 years of supervised 
release. He was ordered to pay restitution of $145,823.92 and a special 
assessment of $100. He was also ordered to participate in the Bureau of 
Prisons Inmate Financial Responsibility Program.
    Another example of OLMS's compliance audit program concerns the 
2007 audit of the Federated Independent Texas Union Local 900 in Fort 
Worth. Based on issues raised during this audit, OLMS opened a criminal 
investigation into a potential embezzlement. Subpoenaed bank records 
revealed that 63 union checks, endorsed by the then-treasurer, had been 
deposited into her personal bank accounts. The treasurer also made 
withdrawals of union funds amounting to $35,850 for personal use. The 
treasurer pled guilty before trial to one count of embezzlement of 
union funds totaling $164,268.
    Since 2001, the Department has also worked to improve the 
enforcement of the LMRDA by updating the 40-year-old financial 
disclosure forms required by the law. With the first significant update 
of the annual union financial disclosure report used by the Nation's 
largest unions (Form LM-2) in over 40 years, the Department increased 
the usefulness of the Form LM-2 and empowered rank-and-file union 
members to easily access clear and concise information on how their 
dues money is spent and on the financial condition of their unions. 
Although the reforms were challenged in court, they were upheld in a 
significant U.S. District Court decision and affirmed in large part by 
the U.S. Court of Appeals for the D.C. Circuit.
    OLMS has also updated Form LM-30, the report filed by union 
officers and employees to disclose possible conflicts of interest 
between their personal financial interests and their duty to the union 
and its members, and has stepped up compliance with Form LM-10 Employer 
Report filing requirements.
    In order to provide rank and file union members with better 
accountability and transparency, OLMS has established a public 
disclosure Web site at www.unionreports.gov. This Web site contains 
union annual financial disclosure reports and reports required to be 
filed by employers, labor relations consultants, and union officers and 
employees, as well as copies of collective bargaining agreements.
    The OLMS 2007 Annual Report can be found at the following website: 
www.dol.gov/esa/olms/regs/compliance/highlights_07.pdf.
              senior community service employment program
    Question. Your fiscal year 2009 request for the Senior Community 
Service Employment Program (SCSEP) is the same as the amount 
appropriated in fiscal year 2008. In your testimony you cited the 
ineffective rating that this program received by the Program Assessment 
Rating Tool (PART). What steps are being taken to improve the 
efficiency of SCSEP?
    Answer. Although the 2003 PART evaluation gave the Senior Community 
Service Employment Program (SCSEP) an ineffective rating, the 
Department has actively addressed deficiencies identified by that 
evaluation through several administrative actions and the 2006 
reauthorization of the Older Americans Act. The deficiencies included 
inadequate competition in the grants process, lack of data on program 
performance and impact, and duplication of other Federal programs. 
Program improvements since the 2003 evaluation include:
  --Development of a comprehensive on-line data collection and 
        performance management system (known as SPARQ).
  --Completion of three competitions, including one for national 
        grantees (which account for 78 percent of all SCSEP participant 
        positions); one for grants to create employment opportunities 
        with private businesses; and one for pilot and demonstration 
        grants.
  --Provision of extensive technical assistance and training for all 
        grantees on programmatic, fiscal, and performance issues.
  --Improved grantee planning instructions on collaboration and 
        coordination with other entities to minimize duplication and to 
        allow SCSEP to serve those with the more significant barriers 
        to employment.

                          SUBCOMMITTEE RECESS

    Senator Harkin. Well, thank you, Madam Secretary. You are 
very generous with your time. I appreciate it very much.
    The subcommittee will stand in recess.
    [Whereupon, at 11:38 a.m., Wednesday, May 7, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


  DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2009

                              ----------                              


                        WEDNESDAY, JULY 16, 2008

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:47 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Tom Harkin (chairman) presiding.
    Present: Senators Harkin, Murray, Durbin, Reed, Specter, 
and Cochran.

                DEPARTMENT OF HEALTH AND HUMAN SERVICES

                     National Institutes of Health

STATEMENT OF HON. ELIAS A. ZERHOUNI, M.D., DIRECTOR, 
            NATIONAL INSTITUTES OF HEALTH
ACCOMPANIED BY:
        FRANCIS S. COLLINS, M.D., Ph.D., DIRECTOR, NATIONAL HUMAN 
            GENOME RESEARCH INSTITUTE
        ANTHONY S. FAUCI, M.D., DIRECTOR, NATIONAL INSTITUTE OF ALLERGY 
            AND INFECTIOUS DISEASES
        ELIZABETH G. NABEL, M.D., DIRECTOR, NATIONAL HEART, LUNG, AND 
            BLOOD INSTITUTE
        JOHN E. NIEDERHUBER, M.D., DIRECTOR, NATIONAL CANCER INSTITUTE

                OPENING STATEMENT OF SENATOR TOM HARKIN

    Senator Harkin. Good morning. The Labor, Health and Human 
Services Appropriations Subcommittee will come to order.
    Welcome to our hearing on the fiscal year 2009 budget for 
the National Institutes of Health. Last year you'll recall that 
this subcommittee held six hearings. I promise we'll do it in 
2009, because I want to get back to that system of having all 
of the Directors back again, just--this year was just--a lot of 
things happening this year.
    Senator Cochran. You think you're going to be chairman 
again?
    Senator Harkin. Well, let me put it this way--even if I'm 
not chairman, I'll bet the--the way we pass this gavel back and 
forth, it won't make any difference. He'd let me have them 
anyway, even if I wasn't chairman.
    Anyway, we'll move on, here.
    Before I begin, I do want to take a moment to thank Dr. 
Collins, for his extraordinary service as a Director of the 
National Human Genome Research Institute. Dr. Collins has been 
teaching me about genomics since 1993 when he first came to 
NIH, and I'd like to think that, at times during those 15 
years, I almost understood what he was talking about.
    In fact, that's one of the things I admire the most about 
you, Dr. Collins. As brilliant as you are, you never talk down 
to your audience, you can converse as easily with the layman as 
with the Nobel Prize winner. In all the years that I've known 
you, I've ended entered a conversation with you without feeling 
smarter and more hopeful about the future.
    So, I think that that kind of a quality helps explain, 
again, why you were so successful in leading the Human Genome 
Project. An effort that, I believe, will go down in history as 
one of mankind's greatest achievements.
    This has also served you well during your 13-year crusade 
to pass the Genetic Information Nondiscrimination Act, which 
finally became law in May. They call it GINA, for short, we 
think it should have been called ``Francis'', for short.
    So, this will be Dr. Collins' final appearance before this 
subcommittee as the Director of the Genome Institute, but I 
strongly suspect that we'll see you here again in some other 
capacity, once you decide where and how you're going to apply 
your talents next.
    Until then, Dr. Collins, on behalf of this subcommittee, 
and I think I can speak for every person on this subcommittee, 
thank you for all you've done, at NIH and throughout your 
career, to help improve people's lives. You will be greatly 
missed.
    As for the matter at hand this morning, the NIH budget, we 
got some good news 2 weeks ago, when the President signed into 
law the supplemental that included $150 million for NIH. That's 
enough to award an additional 246 new research project grants, 
bringing the total for fiscal year 2008 to more than 10,000.
    Even with that increase, however, fiscal year 2008 marks 
the fifth year in a row that NIH funding failed to keep up with 
the cost of inflation. In fact, since the end of the doubling 
period, in fiscal year 2003, NIH funding has dropped by about 
10 percent in real terms. The average investigator now has a 
less than 1-in-5 chance of receiving an NIH grant. As Dr. 
Zerhouni has frequently lamented, the average age at which a 
researcher gets his or her first--R01 grant, is now 42.
    It should be no surprise, then, that many young people are 
deciding against a career in biomedical research, putting this 
Nation at risk of losing a generation of talented 
investigators.
    Regrettably, the President responded by freezing NIH 
funding in his fiscal year 2009 budget. Under his plan, the 
success rate for research project grants would fall to 18 
percent, the lowest level on record. But, rest assured, 
Congress will not accept this approach.
    Last month, the Senate Appropriations Committee marked up 
the fiscal year 2009 bill. It includes an increase of $875 
million over last year for NIH, on top of the $150 million in 
the recent supplemental.
    Today, Senator Specter and I will introduce another 
supplemental appropriations bill that would add $5.2 billion 
for NIH. This would be enough to restore the purchasing power 
of NIH that was lost to inflation since the end of the doubling 
period, plus provide $1.2 billion specifically for the National 
Cancer Institute, in line with the NCI's professional judgment 
bypass budget.
    To elaborate, perhaps, on this or anything else, I now turn 
to my distinguished ranking member and great friend, Senator 
Arlen Specter.

               OPENING STATEMENT OF SENATOR ARLEN SPECTER

    Senator Specter. Well, thank you very much, Mr. Chairman, 
and thank you for convening this important hearing.
    At the outset, Dr. Collins, I join the chairman in thanking 
you for extraordinary service. I thank all of you. I thank NIH, 
other medical professionals for the excellent care that I'm 
getting. As you can tell from my Telly Savalas look, I've had a 
recurrence of Hodgkin's. Had the last of 12 chemotherapy 
treatments on Monday. I'm constantly asked how I'm doing, and 
my slogan is tough, but tolerable. Good to have distractions so 
that I don't think about myself, and around here there are a 
lot of distractions.
    Senator Harkin. Why are you looking at me?
    Senator Specter. Senator Harkin and I--well, if I look at 
Senator Harkin, it's an attraction, it's not a distraction. Not 
as decisive as an attraction as looking at Senator Bettilou 
Taylor but also an attraction.
    Senator Harkin and I will be on the floor later today, as 
he's noted, with a supplemental appropriations bill for $5.2 
billion. Regrettably, the prospects are that it's confederate 
money, and we have to do something about it, it's just a 
scandalous situation to have seen the NIH budget cut in recent 
years, with across-the-board cuts, which we can't control, at 
all, out of the subcommittee.
    With the cost of living adjustments not maintained--again, 
which we can't control, because we've gone through the fat, the 
muscle and the bone, and there just isn't anything left in the 
subcommittee budget, when you have to compete with Headstart 
and worker safety and job training--the three departments which 
this subcommittee has. But we were determined, if I have a way, 
to do better.
    As you know, we have asked for projections as to what it 
would cost to cure cancer. Now, I hear everybody talk about 
cure, which is in quotation marks, but really make a major 
assault--a major assault.
    In 1970, President Nixon declared a war on cancer and had 
that war been pursued with the intensity of other wars, I 
wouldn't have gotten Hodgkin's and--we all have good friends 
who have died from breast cancer or prostate cancer, ovarian 
cancer--just rampant. We can do better. A lot better.
    Of course, you can't just move for the National Cancer 
Institute, there has to be parity with other NIH funding.
    We're taking a look at a collateral line, which may have 
some overlap on a funding stream, or may not. That is the issue 
of advanced directives. For some time now, Senator Harkin and 
I, in our subcommittee, have included in the request to 
Medicare to put in information on advanced directives. It 
hasn't worked out too well, and obviously, nobody should tell 
anybody else what ought to be done on that situation.
    I talked to the Secretary of Health and Human Services, 
Mike Leavitt, about it, and projecting the savings that might 
be obtained from advanced directives, the thought is there 
might be an incentive with a discount on part B payments. One 
of my colleagues, Senator Johnny Isakson, has an idea to make 
an advanced directive mandatory before coming into Medicare--
maybe that's too strong, but which way you go, it doesn't 
matter, if you take an advanced directive for life support, or 
not.
    We're trying to get a projection as to what we're doing--we 
just had a bloody political battle on Medicare, as you all 
know. Regrettably, we got it behind us, not with a lot of blood 
on the ground on the Senate chamber and from here to the White 
House, with condemnatory statements coming from the President 
yesterday about nine people who shifted their votes.
    I was asked about it, and what did I think about the 
President's veto, and the President's statement. I said, 
``Well, I respect the statement, I hope he would respect the 
Senators.'' We all have our constitutional role to play.
    But these are big, big issues which this committee is in 
the center of, and we've got the greatest experts around.
    As I told the chairman a few moments ago, I'm ranking on 
Judiciary, and there was a hearing that's going to start in 2 
minutes, and I have to be there for the opening part of it, but 
I will return very, very shortly for this important hearing.
    Thank you, Mr. Chairman.
    Senator Harkin. Thank you.
    Senator Durbin.

                 STATEMENT OF SENATOR RICHARD J. DURBIN

    Senator Durbin. I'm anxious to hear the testimony, but I 
wanted to be here today, first to thank Senator Harkin and 
Senator Specter--it really is hard to imagine that any of us 
could go home to our States and explain to the people of this 
country that we can not afford medical research.
    Yet, the fact is that after a dramatic increase in NIH 
funding, during the period when a Congressman from my State, 
John Porter, was chair of the appropriate House subcommittee, 
we have seen this whole area of medical research fall under 
this administration--not keeping up with medical inflation--let 
alone, inflation--in most instances. I think that that is 
shameful. I don't believe it's defensible, morally or 
politically.
    I want to thank Senator Specter and Senator Harkin for 
continuing their battle to fund this important agency.
    The major reason I'm here, and the questions I'll go to 
comes down to something that virtually every Senator faces, 
almost every day. When somebody comes in our office and says, 
``My son is dying, why aren't you spending more in research to 
find a cure for his disease? Why is the NIH spending so little 
for the research to spare him, and so many others who can 
die?''
    We sit here--I sit here--wondering--is that person right? 
Are we doing the right thing for medical research? Are we 
putting the money in the right places? I don't know the answer 
to that question, having been around Capitol Hill for a long 
time. I'm going to ask them that later.
    Thank you, Mr. Chairman.
    Senator Harkin. Senator Reed.

                     STATEMENT OF SENATOR JACK REED

    Senator Reed. Mr. Chairman, I too am here to thank and 
commend you and Senator Specter for your extraordinary 
leadership over many years. You've never let go of this issue, 
and you're responsible, collectively, for some of the vast 
improvements in NIH over many years.
    Let me also echo the concerns that Senator Durbin 
expressed, and one other, which is that it's not just about the 
relatively new therapeutic techniques. It's also maintaining a 
new generation of researchers and scientists. As this funding 
decreases we're seeing more and more of these very talented, 
young academic researchers go elsewhere.
    I had a chance to visit a Brown University researcher, Dr. 
Teresa Serio. She related to me that she was one of 30 Ph.D. 
students at Yale University--she's the only one now still in 
academic research, because the grants weren't there to support 
the applications to go forward, to get tenure, to do all the 
things you have to do. So, this is about the infrastructure of 
our research endeavor, and how it's also critical.
    Thank you.
    Senator Harkin. Thank you very much, Senator Reed.
    Senator Reed. I have a statement for the record, too, Mr. 
Chairman.
    Senator Harkin. Okay, it will be made part of the record.
    [The statement follows:]
                Prepared Statement of Senator Jack Reed
    Research to prevent debilitating diseases has the potential both to 
ease patient suffering and lessen the burden on our health care system. 
For this reason, I was proud to support the historic doubling of 
funding for the NIH from 1998 to 2003. Unfortunately, since then our 
Nation's commitment to this critical research has wavered.
    Recently, a group of concerned universities and research 
institutions--including Brown University in my State--released a report 
that documents how flat funding for the NIH puts a generation of 
science at risk. Since 2003, the purchasing power of the NIH has eroded 
by 13 percent. As a result, only 24 percent of research projects are 
funded, and the average age of first-time grant recipients is 43. The 
report finds that there is a real risk that we will lose aspiring 
scientists to other industries or overseas.
    Of course, flat funding puts at risk not only the development of 
scientists, but also their science--cures and treatments for chronic 
diseases that exact a costly human and economic toll. Rhode Island 
ranks 44th in the prevalence of chronic diseases such as cancer, 
diabetes, and heart disease. In 2003, the cost of treating these 
conditions was $1.2 billion and the economic cost in lost work and 
productivity was $4.5 billion. Obviously, an investment in research on 
these conditions would improve both the health of Rhode Islanders and 
the health of the Rhode Island economy.
    To show the real-life impact of stagnant funding, I want to tell 
you about Dr. Tricia Serio, a researcher at Brown University. Dr. Serio 
is ready to research ways to reverse the spread of proteins that damage 
the brain in several devastating diseases, including Alzheimer's, 
Huntington's, and Parkinson's. For years, the NIH said that her ideas 
were very innovative, but too risky. The NIH did not award her a grant 
until 4 years after she joined Brown.
    Dr. Serio has directly observed the effect of flat funding on her 
generation of scientists. She says that when she was at Yale, there 
were 30 Ph.D.s in her program; but she believes that she is the only 
one who is still pursuing a career in academic science.
    The NIH should not be forced to make the difficult decision to turn 
down research that is innovative, but risky. We did not send a man to 
the moon by being overly cautious. Nor will we discover a cure for 
cancer unless we make a significant investment.
    Mr. Chairman and Ranking Member, I am pleased that your bill 
increases funding by 3.5 percent to keep pace with biomedical inflation 
for the first time in 6 years. This is an increase of over $1 billion 
over last year and the President's request, which was extraordinarily 
shortsighted.
    I hope that we will pass this bill soon and that the President will 
reconsider his priorities. He should consider the stories of 
researchers like Dr. Serio, who are on the cusp of scientific 
breakthroughs, but desperately need our support.
    Thank you.

    Senator Harkin. Senator Murray.
    Senator Murray. I would just submit my statement for the 
record, I apologize for being a few minutes late. I really look 
forward to the testimony and opportunity to hear from all of 
you. I agree with everything I've heard this morning, that the 
investment's critical, the research is critical and just, to 
all of you, a lot of Americans, and people around the world's 
hope lands right in your lap as they are hoping that something 
that you discover or something that one of the scientists does 
changes their lives.
    So, we really appreciate the tremendous work you do, and 
are very proud of the support of this community, Mr. Chairman, 
I want to thank you personally for your attention to this.
    [The statement follows:]
               Prepared Statement of Senator Patty Murray
    Thank you, Senator Harkin and Senator Specter, for holding this 
hearing.
    I appreciate your long-time support for the National Institutes of 
Health. And I'm proud of this committee's leadership supporting 
research and other important health care issues.
    For more than a century, NIH has played a vital role in improving 
the health of our Nation.
    By conducting and supporting research on everything from breast 
cancer to autism, NIH is helping to improve our understanding of what 
causes diseases--so we can predict when they will occur and develop the 
tools to better fight them.
    Its work gives tremendous hope to the many Americans who suffer 
from a number of devastating diseases. And I believe that every dollar 
invested can save money later in reduced health care costs and economic 
productivity.
    That is why I have been extremely discouraged by President Bush's 
proposed funding levels for NIH.
    If President Bush's budget becomes reality, fiscal year 2009 will 
be the sixth year in a row that funding for the NIH was frozen at $29.3 
billion.
    That fails to keep up with biomedical inflation, and it would cause 
the projected success rate for research grant applications to fall to 
the lowest level since 1970.
    Fortunately, this year, we are taking steps to turn the tide.
    The Senate's Labor-HHS Appropriations bill increases NIH's budget 
by 3.5 percent, enough to keep up with inflation.
    While I wish we could do more, this is a step in the right 
direction.
    It has been almost 6 years since we increased NIH funding. In 
fiscal year 2003, when we doubled the budget, we enabled NIH to advance 
into new areas of science and to support far more promising research 
than ever before.
    Our continued investment will ensure that there are enough trained 
professionals ready to turn today's research advances into tomorrow's 
treatments, diagnostics, vaccines, and cures.
    And I look forward to working with my colleagues to continue 
support its progress.

    Senator Harkin. Thank you very much, Senator Murray.
    Again, Dr. Zerhouni, thank you very much, and thank all of 
you for being here today. Like I said, just because of 
schedules, this year I was unable to do what we did last year, 
and so I thought it was at least important to have you here to 
go over the budget and to respond to some of our inquiries, 
perhaps on what's happening at NIH, with the panel that you 
have in front of you, which represents the--perhaps the largest 
of the institutes at NIH.
    So, Dr. Zerhouni, again, welcome. Thank you for your great 
leadership, and please proceed as you so desire.

              SUMMARY STATEMENT OF HON. ELIAS A. ZERHOUNI

    Dr. Zerhouni. Thank you, Mr. Chairman, and members of the 
subcommittee. My colleagues and I are really pleased to be 
here, and we have submitted written testimony for the record, 
but what I'd like to do in my oral presentation is to really 
give you perspective about what has been the return investment 
which was testified to, over the years at NIH, in terms of 
benefits to the public.
    But today, what I'd like to stress is, in parallel to the 
difficulties we have to sustain momentum, there is an 
incredible opportunity that is facing us, that has come from 
the work of my colleagues, in particular, from the completion 
of the human genome.
    I would like to spend a few minutes with you, to describe 
for you what is it that NIH faces in terms of scientific 
challenge--you have the core issues that, from the scientific 
standpoint we see, that members of the subcommittee should 
focus on, and help us address.
    So, what I'd like to do, first and foremost is give you, if 
you'll allow me, a little lesson on the complexity of biology 
and where we're going.
    First and foremost, over the past 10 years, we have 
discovered methods, ways, approaches, ideas, technologies, and 
methodologies, that tell us that we can do four things we 
couldn't do before.
    One, we can be a lot more predictive about exactly how a 
disease develops, in whom it develops, and what are the markers 
that tell us that someone is susceptible to a disease process--
that's predictive.
    The second, we can be much more personalized about how we 
treat an individual, because we do realize today that none of 
us are exactly made like anyone else--we're individuals, and 
individual variability means that we have to tailor therapies 
to the individual.
    The third, for the first time in history, we can foresee an 
era where we can be preemptive, where we can act years before 
the disease strikes a patient, and basically keep the patient 
healthy, rather than wait for the disease to affect the 
patient, and for the doctor to intervene.
    So, we're moving from what we call a late intervention, 
reactive paradigm, to an early intervention, proactive 
paradigm, which will require the fourth P, which is 
participation.
    Now, participation is essential--Senator Specter is a 
fire--he really participates in his own care, and this is key 
to the success he's had in battling cancer.
    We see this as the future of medicine. Without 
understanding that, and I understand the future paradigm is 
very difficult to understand, but the strategies at NIH have 
been to advance our knowledge and to benefit the American 
public. See Figure 1.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               Figure 1.

    So, let me just go forward here, and tell you the concept 
that is essentially emerging in front of us, and that is, the 
concept of complexity of disease processes.
    It is our understanding today that there's no disease that 
can--that comes from any one particular molecule in the body 
being diseased. In fact, most of us are a combination of a 
network of molecules, as described on the side, that interact 
constantly.

                  NORMAL GENE FUNCTION--HEALTHY STATE

    For example, here I have described five proteins--A, B, C, 
D, and E--all of these proteins are related to each other in 
the complex network. Over the past 50 years, since the 
discovery of the structure of DNA, what we have done is to try 
to understand how these proteins are interacting with each 
other. See Figure 2.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               Figure 2.


    As we discover the genetic code, and we discover that, in 
fact, every protein in our body is really made through--by 
instructions that are embedded in our genetic code through a 
process of transcription and translation--then they understand 
that fundamentally to understand the healthy state, and the 
disease state, we need to understand the components.
    So, for example, in this case, A, B, C, D, and E are 
proteins that are encoded by DNA. So that, if you look at each 
one of them, you know that they are made upon instructions by 
DNA, and each one of them is made in a certain amount, a 
certain shape, and each one of them interacts with the other.

                 DISRUPTED GENE FUNCTION--DISEASE STATE

    So, what happens when a disease process occurs? One of the 
theories that we have worked on, over the past 25 years is 
that, perhaps, instead of having a concept of disease that is 
related to one protein creating one disease, perhaps what is 
more important is to understand how they all interact.
    But when we observe a disease process, we need to know 
which part of the code is abnormal? Where we do that, where we 
find, for example, what we have discovered over the past 5 
years, in great part due to the work of Dr. Francis Collins, is 
that when there is a bad instruction in our genetic code. For 
example, as I showed here with that little mark, what happens? 
Well, that instruction translates itself into a protein that, 
instead of being shaped normally, as a round circle, is now 
abnormal.
    So, what happens downstream in all of these molecules that 
keep us healthy, one of them will be abnormal, as you will see, 
that molecule now is completely misshapen. But that C molecule 
does not act by itself--it acts by interacting with A, and by 
repressing, for example, the amount of A, so the amount of A 
will increase. So on, we can see decreases in others. This is 
the disease state. See Figure 3.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               Figure 3.

    So, the question we have faced over the past 15 years is, 
how can we discover all these code abnormalities, the things 
that we carry with us, that make us susceptible to disease, and 
how do we understand the environment interacting with it, in 
the context of a much more complex biology than we even thought 
in 1971. In 1971, we thought we would find silver bullets for 
cancer. Now we know that cancer is not one disease, not one 
pathway, not one interaction, but many. We need to understand 
them to be able to cure them.

                  GENOME-WIDE ASSOCIATION DISCOVERIES

    So, let me tell you, then, what happened in my tenure here 
as Director of the NIH since 2002--and in a slide provided to 
me by Dr. Francis Collins in 2005--how much we knew about these 
abnormalities in the genetic code that may have an impact on a 
particular molecule, or a disease process. See Figure 4. This 
is, basically, the discovery panel that I have in my office, 
trying to get the reports from everyone about what I was 
discovering in disease processes, according to that template 
that I showed you. That template is essential to comprehend, 
and it is essential to understand that, this is where the 
battle is, today, and this is where the resources need to be 
put in, and we do not have the resources to pursue all of these 
hints, if you will.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               Figure 4.

    In 2005, what you see here are all of the chromosomes of 
the human body--all of these marks here are chromosomes. All of 
these chromosomes, essentially, are the genetic code. So, when 
you make a discovery, somebody puts a little flag on the 
chromosome and says, ``Gee, we made a discovery, here.'' 
Patients who have this disease, had this abnormality right 
there.
    In 2005, we found that in age-related macular degeneration, 
which is a major cause of blindness in our seniors, for years 
we thought it was a degenerative disease. Then, all of a 
sudden, someone discovered that the gene that was abnormal was 
an inflammatory gene, that led to the inflammation.
    So, all of a sudden, now, we have new treatments, because 
we have a completely new understanding of that complex network 
that I described.
    Look at what happens in 2005, and this is 2006: three more 
discoveries. See Figure 5. I was really elated, I thought this 
was great. Finally, we're breaking the code, we're going to be 
able to find some leads--then look what happens. First quarter 
of 2007, I had more discoveries reported to me than in the 
entire years of 2005 and 2006--that's the first quarter of 
2007. See Figure 6. Second quarter of 2007, I had even more 
discoveries than all of the cumulative discoveries that were 
made in my 5 years as NIH Director, just in the second quarter 
of 2007. See Figure 7.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               Figure 5.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               Figure 6.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               Figure 7.

    In the third quarter of 2007, fourth quarter 2007, first 
quarter of 2008, and the second quarter of 2008. See Figures 8, 
9, 10, and 11. This is nothing short of an explosion of 
knowledge. This is not something that we can drop, this is not 
something that we can just leave on the floor and say, ``Our 
job is done.'' These are clues that tell us about dozens of 
diseases.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               Figure 8.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               Figure 9.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               Figure 10.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               Figure 11.

    For example, Type 2 diabetes--10 years ago, we knew about 
nothing, we knew zero genes that were important in diabetes. 
Many people had worked on it, couldn't find them. Five years 
ago, we have two genes, today 16 genes. I'm told in the next 
few days or weeks, a new paper is going to come up, identifying 
14 essential genes that underlie that network that I described, 
that is abnormal in diabetes.
    If you look at autism, last week--only last week, we 
received a report, a landmark report--identifying six new 
genes, and telling us something about this disease we didn't 
even know 3 years ago. So, the explosion is enormous, but does 
that mean our work is done?
    Actually, let me show you what we, as scientists, believe 
are great opportunities. I showed you genetic abnormalities in 
what we call our inherited genome, things that we're born with. 
But cancer is a different process. The genome of cancer can 
become abnormal during our lifetime.

          OPPORTUNITIES IN CANCER RESEARCH: NEW GENOMIC CLUES

    So, the National Cancer Institute and the National Human 
Genome Research Institute engaged in a program, a pilot project 
called the Cancer Genome Atlas, and guess what? Two weeks ago, 
they reported the first finding in one of the most deadly 
cancers, brain cancer, glioblastoma, and we reported three new 
genes, we had absolutely no idea that they were critical to the 
development of glioblastoma. See Figure 12.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               Figure 12.

    This is happening in front of our eyes. Members of the 
subcommittee, I cannot tell you that the feeling I have is that 
we're witnessing, right in front of us, a revolution in 
knowledge. The question is, are we going to be able to take 
advantage of it? To take advantage of it is a rigorous process, 
that requires NIH to be extremely proactive, dynamic, flexible, 
and adaptive. But how?

                THE NEXT STEPS IN UNRAVELING THE MYSTERY

    Let me just show you with this slide what the process is. 
See Figure 13. Once you have a clue, like the many clues that I 
described, the first thing that you have to do is invest 
immediately in analyzing more populations and more genes, so 
that that clue becomes a real lead, so that you confirm it--not 
just one lab reporting a finding, you need two, three labs 
reporting that finding, so we can follow that lead. Just like a 
detective, you go after that lead. That's step one.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               Figure 13.

    Once you have that lead, you need to understand, where does 
it fit in that complex network that I described--how does the 
biology work? Once you have understood the biology, now we have 
a real target to go after. So, you go from clue to lead to 
target, and then you have to make the investment to translate 
that into either diagnostics, a prevention strategy, or a 
therapeutic strategy, and we have done that in many diseases--
now we have a way to do it systematically in almost every 
common disease that we know.
    So, this is really the challenge, are we going to drop 
these clues? Drop these leads? Are we going to have the new 
next generation of scientists that are going to dedicate their 
lives in exploring what has come up through the 10 years of 
very hard work that all of us at NIH have done?
    The game is to transform medicine. We cannot practice 
medicine in 20 years the way we do today. It will have to 
change, otherwise, we will not sustain, the cost of healthcare 
that is facing us. It can only be done through renewed 
discovery, through renewed investments and trust that, in fact, 
only knowledge, only discovery will provide the solutions.

                          PREPARED STATEMENTS

    So, with that, I'd like to thank you, and again, repeat my 
admiration for Chairman Harkin, and ranking member Specter, and 
all members of the subcommittee, you've shown a deep 
understanding of the challenges in front of us, and we 
appreciate it very much.
    We're ready to answer your questions.
    [The statements follow:]
              Prepared Statement of Dr. Elias A. Zerhouni
    Good afternoon, Mr. Chairman, and distinguished members of the 
subcommittee. It is a privilege for me to appear before you today to 
present the National Institutes of Health (NIH) budget request and to 
discuss the priorities of NIH for fiscal year 2009 and beyond.
    Before I begin, please allow me this opportunity to express my 
appreciation to you and your staffs for your continued support of the 
National Institutes of Health.
    As you are aware, research is the basis of virtually every 
improvement in health and medicine. The impact of scientific research, 
however, extends far beyond disease. Throughout history, advances in 
science and technology strengthened our economy, raised our standard of 
living, enhanced our global leadership, and lengthened and improved our 
lives.
    To sustain these achievements, the flow of new scientific knowledge 
must be both continuous and substantive. Despite monumental progress, 
science remains a difficult frontier to explore. In this century, our 
society faces even greater challenges to the human condition that will 
require innovative and unprecedented scientific and technological 
advances across all fields of science, but most particularly in the 
life sciences. NIH's investment of $29.5 billion in fiscal year 2009 
will be used to support such advances.
    NIH plays a significant role in the extension of life, and the 
prevention and treatment of many diseases, transforming modern 
research, and medicine in countless ways. For example, not long ago, 
acute, short-term, and lethal conditions such as heart attacks, stroke, 
acute infections, and cancers were the dominant causes of early 
mortality. Today, life expectancy has markedly increased due to 
progress made in reducing death from such acute conditions. However, 
these advances indirectly led to a major rise in the burden of chronic 
long-term conditions. It is estimated 75 percent of today's healthcare 
expenditures relate to chronic diseases. The emergence and consequences 
of chronic conditions--like obesity, diabetes, or Alzheimer's disease--
are examples of the challenges we face. Healthcare costs are rising 
exponentially. We must continue our focus on not only how we best 
deliver healthcare, but more importantly, what healthcare we deliver.
                  a new strategic vision for medicine
    Given this dramatic shift from acute to chronic disease, the 
strategies for preventing and treating diseases are beginning to shift. 
Today, we intervene late when the patient exhibits symptoms of disease. 
Our research is changing this approach, so that we may intervene much 
earlier in the natural cycle of diseases, years before they strike 
their victims. We must now develop a much more pre-emptive approach 
that manages disease over its entire life cycle, from identifying an 
individual's susceptibility to a disease, to prevention, early 
diagnosis, reduction of complications, and smarter therapies.
    This shift from a late curative paradigm to an early pre-emptive 
one is becoming increasingly possible, thanks to the avalanche of 
recent discoveries funded by NIH. For example, in 2002, when I became 
NIH Director, we knew of one important gene abnormality in type 2 
diabetes. In the last year alone, researchers uncovered seven new genes 
or genetic regions that provide new clues to how this disease may 
develop. Remarkably, I now receive about one report a week of a 
significant discovery in the field of genomics. Recent discoveries 
apply to a broad spectrum of chronic diseases, ranging from mental 
disorders to autism. We now can see a clear path to what we call ``the 
4 P's of Medicine'': medicine that will be more Predictive, 
Personalized, Pre-emptive, and Participatory.
    To reach these key long-term goals, NIH is strategically investing 
in research to further our understanding of the fundamental causes of 
diseases at their earliest molecular stages. However, individuals 
respond differently to environmental conditions, according to their 
genetic endowment and their own behavior. In the future, research will 
allow us to predict how, when, and in whom a disease will develop. We 
can envision a time when we will be able to precisely target treatment 
on a personalized basis to those who need it, thereby avoiding 
treatment to those who do not. Ultimately, this individualized approach 
will allow us to pre-empt disease before it occurs, utilizing the 
participation of individuals, communities, and healthcare providers in 
a proactive fashion, as early as possible, and throughout the natural 
cycle of a disease process.
    This prospective management approach to disease is vital to the 
transformation of medicine of tomorrow. Today's discoveries are paving 
the way to make this future a reality. NIH continues its research 
efforts to search for cures to alleviate the suffering of the millions 
already affected by disease--and is greatly expanding the scope of 
research to discover entirely novel ways to stop disease in its tracks 
before it cripples us. This entails investing in completely new areas 
of investigation, while sustaining the level of our current efforts and 
supporting talented scientists using novel methodologies to explore new 
ideas and concepts that were impossible to envision only a few years 
ago.
          today's scientific advances are tomorrow's medicine
    Consider how more predictive and personalized treatments could 
improve the safety and effectiveness of medications. The same 
medication can help one patient and be ineffective, or toxic to 
another. With the emergence of a field of research called 
pharmacogenomics, we will increasingly know which patients will likely 
benefit from treatment and which will not benefit, or worse, be harmed. 
Good examples of the present usefulness of pharmacogenetics are for 
cancer chemotherapy and use of the anticoagulant Coumadin.
    Research on viruses is improving the lives of Americans and people 
around the world. NIH supported the early research that led to the 
discovery and development of antiretroviral therapies for HIV/AIDS. 
Today, antiretroviral therapies are benefiting millions of Americans as 
the most effective means of treating HIV infections. These therapies 
are also helping millions of people in Africa and the Caribbean through 
the President's Emergency Plan for AIDS Relief.
    Current HIV/AIDS therapies focus on the virus itself. Researchers 
are trying to understand how the virus enters the human cell and 
hijacks the cellular machinery, so it can replicate and spread. In a 
recent experiment, researchers made significant progress toward 
reaching this goal. Their new approach is based on a process called RNA 
interference discovered in 1998 and recognized with a Nobel Prize in 
2006. Using RNA interference, the researchers suppressed the activity 
of every single gene in a type of human cell. They discovered more than 
276 human proteins that seem essential to the replication of the HIV 
virus in human cells. This experiment, unthinkable a few years ago, can 
now be exploited to develop new ways of disabling this deadly virus.
    Fundamental research can unexpectedly lead to revolutionary 
breakthroughs. Scientists at the National Cancer Institute, for 
example, developed a virus-like particle technology that formed the 
basis for new commercial vaccines that target specific cancers. In June 
2006, the U.S. Food and Drug Administration approved the vaccine 
Gardasil, which is highly effective in preventing infections from the 
four types of human papilloma virus (HPV) that cause the majority of 
cervical cancers in women. Worldwide use of this vaccine could save the 
lives of 200,000 women each year. This is the first example of a truly 
pre-emptive strategy in cancer.
    More often than not, it is the sustained combination of multiple 
approaches--from the most basic science to epidemiological and 
behavioral research--that makes advances in science effective. One 
important public health success story is the reduction in tobacco use 
and related diseases. In the last decade, overall cancer death rates 
dropped for the first time in a century, driven largely by the dramatic 
reduction in male smoking from 47 percent in the 1960s to less than 23 
percent today. This reduction, along with more effective early 
screening tools like mammography and colonoscopy, is changing the 
landscape of cancer mortality. These successes reflect the outcome of 
significant research investments made by many NIH Institutes and 
Centers (ICs) and our sister agencies over the last 50 years.
    Our ability to predict and pre-empt disease also hinges on the 
development of new diagnostics based on recent discoveries in genomics, 
proteomics, systems biology, and imaging. Among the diagnostic 
capabilities currently being explored are:
    Point of Care Diagnostic Testing.--NIH supports research that has 
and will develop technologies that offer instant diagnosis in the 
emergency room or physician's office, or at home, including rapid 
analysis of blood for assays such as chemistry, electrolytes and blood 
gases; biosensors that instantly detect signs of heart disease or 
infections; and biochips that detect disease processes at the molecular 
level.
    Salivary Diagnostics.--Scientists identified genes and proteins 
expressed in salivary glands that we believe will replace some forms of 
urine or blood analysis in the detection of cancer, heart disease, 
diabetes, and other conditions.
    Optical Imaging.--NIH-supported researchers are developing imaging 
techniques that seek to reduce the need for invasive diagnostic 
procedures. These new tools include fiber optic probes to detect 
malignant tissues, with the potential of avoiding invasive biopsies 
with a more accurate method of analysis; optical coherence tomography 
to identify heart disease; and multiphoton microscopy to study living 
cells and tissues.
    Brain-Wiring Diagrams.--NIH-supported researchers developed a way 
to reveal connections made by a single nerve cell in living tissue. We 
hope one day to construct a wiring diagram of the billions of nerve 
cells that constitute the brain's visual centers that might allow us to 
diagnose and treat vision loss with far more success--an advance that 
has implications for many other brain diseases as well.
    Autism Genes.--Research into autism discovered clues that rare 
genetic changes represent a risk for autism. With this preliminary 
result, we are on at least one path to understanding methods of 
predicting autism risk in infants.
                     the challenges that lie ahead
    We are optimistic about recent discoveries. However, there are 
challenges that lay ahead of us. We still need to focus much of our 
efforts on fundamental research, because new threats and diseases 
constantly emerge. For example, soldiers suffering from blast injuries 
highlight the importance of additional knowledge on traumatic brain 
injuries. Infectious diseases remain among the leading causes of death 
worldwide. More than 30 newly recognized infectious diseases and 
syndromes emerged in the last three decades alone, including HIV/AIDS 
and SARS. Infectious diseases that once seemed to be fading, such as 
tuberculosis and malaria, have resurged. New drug-resistant forms of 
once-easily treated microbial infections are emerging at a rapid pace. 
New strains of influenza occur each year. There is concern that a new 
influenza virus may emerge with the capacity for sustained human-to-
human transmission, possibly triggering a pandemic similar to what 
occurred in 1918, 1957, and 1968.
    The tragic events of September 11, 2001, and the deliberate release 
of anthrax in the Nation's capital, drove home the realization that 
certain deadly pathogens, such as smallpox or anthrax, could be used 
deliberately as agents of bioterrorism against the civilian 
population--similar to radiological, nuclear, and chemical threats. 
Research in these arenas is critical to meeting these threats, and $1.7 
billion is included in fiscal year 2009 budget for such NIH-supported 
research.
    Efforts to prevent, detect, and treat disease require better 
understanding of the dynamic complexity of the many biological systems 
of the human body and their interactions with our environment at 
several scales--from atoms, molecules, cells organs, to body, and mind. 
As the questions become more complex, and even as knowledge grows, 
research itself becomes more multi-faceted. We recognize that to 
effectively push science/new knowledge forward, researchers and 
scientists must begin to work more collaboratively to develop unifying 
principles that link apparently disparate diseases through common 
biological pathways and therapeutic approaches.
    Today, and in the future, NIH research must reflect this new 
reality. Advanced technologies, including sophisticated computational 
tools, and burgeoning databases, need to be more widely shared with 
easy public access. The scale and intricacy of today's biomedical 
research problems increasingly demand that scientists move beyond the 
borders of their own disciplines and apply new organizational and 
interdisciplinary models for science. One of NIH's most pressing 
challenges is to help generate and maintain the trained and creative 
biomedical workforce necessary to tackle the converging and daunting 
research questions of this century.
    Many of our public health problems have a behavioral component. To 
put evidence-based interventions into place, all of society must 
participate. To confront obesity, NIH researchers must continue to 
address a multitude of intersecting factors, from inherent biological 
traits that differ among individuals, to environmental and 
socioeconomic factors and behavioral factors that may have molecular 
and environmental influences. NIH developed innovative intervention 
programs such as the WE CAN (Ways to Enhance Children's Activity and 
Nutrition), now in several hundred communities. WE CAN is designed to 
help children maintain a healthy weight by promoting improved food 
choices, increased physical activity, and reduced screen time.
    NIH's primary mission is to develop new knowledge in biology and 
behavior and to apply this knowledge for the benefit of all. NIH is 
taking a more proactive role in helping to translate these discoveries 
into practice. For example, we have engaged in the most profound reform 
of translational and clinical research in the United States in over 50 
years. The NIH Common Fund (CF), a new clinical and translational 
science program, now supports 33 academic centers of excellence charged 
with the dual task of translating research from the laboratory to 
patients and discovering the most effective ways of implementing what 
we know best at the community level. Success in these endeavors depends 
heavily on our ability to train a new generation of clinician-
scientists steeped in modern methodologies and concepts of basic and 
translational research. This new generation of researchers must be able 
to work seamlessly with basic and applied scientists in an 
interdisciplinary environment.
    Through our ICs, NIH conducts many comparative effectiveness trials 
that provide evidence for more effective strategies of care. Many 
similar NIH-supported comparative effectiveness trials are uncovering 
evidence that shows, for example, that older generic drugs can often be 
as effective as newer medications in the treatment of high blood 
pressure (ALLHAT trial), or certain mental health disorders (CATIE 
trial). In order to disseminate these results, ALLHAT investigator-
educators made 1,696 presentations to 18,905 clinicians in 42 States 
and Washington, DC.
    Given the structure of our healthcare system, it is often difficult 
for providers to implement the evidence from these large NIH trials. 
This challenge is real and requires that all relevant parties work 
collaboratively toward a more systemic approach that goes beyond simply 
conducting more research of this type. All healthcare components must 
come together to develop clear follow-through mechanisms to implement 
the evidence generated by these large trials.
                    our nation must spur innovation
    With the NIH Reform Act of 2006 (Public Law 109-482), Congress 
provided a foundation for the centerpiece of the NIH Common Fund (CF) 
for Medical Research that provides ``incubator space'' to spur 
innovation. The CF supplies a centralized source of funding for trans-
NIH initiatives to meet the research and training needs of the 21st 
century and stimulate innovation. Research initiatives supported by the 
CF must not only be trans-NIH and fill a gap in our knowledge base but 
also be potentially transformative. The CF invests in systems biology, 
interdisciplinary research, biocomputing, and clinical research, all of 
which are fundamental to moving biomedical research forward 
expeditiously. The budget request includes $534 million for such 
activities.
    The Human Microbiome project is one such initiative. It promises to 
reveal how bacteria and other microorganisms that are found naturally 
in the human body (the ``microbiome'') influence a range of biological 
processes, including development, immunity, and nutrition. This effort 
will not only improve our understanding of how an individual's 
microbiome relates to disease, but will also support the development of 
new technologies and computational approaches--all cross-cutting 
outputs that can be applied to investigations of other biosystems.
    Another new initiative at the biomedical research frontier is the 
NIH Epigenomics Program. It will scan the human genome to study 
heritable features that do not involve changes to the underlying DNA 
sequence, but significantly affect gene expression and inform us about 
how DNA is regulated. This analysis of epigenetic changes should reveal 
new cellular pathways and mechanisms that influence disease 
progression. Also, the CF continues to support other important 
initiatives, such as the Pioneer Award program for $36 million in 
fiscal year 2009 which nurtures high -risk ideas that, if successful, 
can have unusually high scientific impact.
    Nurturing a new generation of innovators is critical to our future 
research endeavors. NIH makes strategic investments at every point in 
the pipeline to improve the flow of talent drawn from every part and 
population of America. We produce teaching supplements to help 
educators in grades 2 through 12 convey difficult concepts through 
engaging activities, improving health literacy, and hopefully sparking 
children's interests in careers in research. NIH offers undergraduate 
students research experiences, especially geared toward tapping the 
vast potential of young people from historically underrepresented 
groups in the sciences.
    NIH grants fund graduate students and post-doctoral fellows, who go 
on to fill most every niche in the American biomedical research 
enterprise--from academic research to private industry, and from 
venture capitalists to policy makers. But most importantly, young 
people need to see, at all stages of the pipeline, that biomedical 
research is an attractive career. They need to see that there is a 
stable research enterprise, providing them opportunities to explore 
their best ideas for improving human health. The budget request 
includes $123 million for individual fellowship awards under the Ruth 
L. Kirschstein program.
    NIH-supported scientists continue to discover the fundamental 
underpinnings of human biology in all of its complexity through 
investigator-initiated research, the mainstay of creativity in science. 
Thus, one of the top budget priorities is to sustain the number of 
competing Research Project Grants (RPGs). The budget funds essentially 
the same level of competing RPGs in 2009 as estimated in 2008--about 
9,760 RPGs at $3.5 billion. Overall, NIH will support nearly 38,260 
RPGs at $15.5 billion. This was accomplished, in part, by holding down 
inflationary increases for existing and new grants.
    One example of our efforts to sustain the research enterprise is 
the Director's Bridge Awards, which funded 244 scientists in 2007. It 
preserves the U.S. investment in investigators, laboratories, and the 
research projects that support our mission. We expect to continue this 
successful approach in 2009.
    Our priorities continue to focus on maintaining a competitive and 
viable scientific support system, especially for new and early-career 
scientists. Our long-term demographic projections show the aging of the 
Nation's scientific workforce. Unless we take an immediate and 
substantial proactive stance in protecting early-career scientists, 
this situation will have a negative and long-lasting impact on our 
competitiveness and innovation as a Nation. In 2007, we set a goal for 
the number of new career investigators based on the historic 5-year 
average of more than 1,500--it was surpassed. This represented a 
substantial increase in new career investigators over the number in 
2006 of 1,353. We plan to continue this commitment in 2008 and 2009.
    In 2007 and 2008 we also targeted earlier career stages, such as 
the Pathway to Independence Awards, supported by all NIH ICs. These 
awards provide 5 years of support for over 170 postdoctoral trainees a 
year to encourage risk-taking and independence. NIH plans to fund over 
350 postdoctoral scientists by the end of 2008 and continue the program 
in 2009. The budget request includes $56 million for the New Innovator 
Awards, which support newly independent scientists with novel ideas and 
potentially large scientific impact. Scientists must be within the 
first 10 years of receiving their doctoral degree to qualify. NIH 
funded 30 awards in 2007 and plans to maintain this promising program.
                peer review and transformative research
    Peer review is such a fundamental and critical part of the research 
process that it requires our constant vigilance. With the increasing 
breadth and complexity of science, along with the increased number of 
research grant applications, NIH recognized the need to take a 
comprehensive look at its review process, and make the necessary 
changes to strengthen it for applicants and reviewers alike. Although 
our peer review system is outstanding--and emulated throughout the 
world--we wanted to make it even better
    In June 2007, NIH launched a comprehensive effort to identify 
information about the review process that could be used to enhance the 
agency's review system. Extensive input was sought and received from a 
wide range of stakeholders across the country and at NIH, which led to 
a comprehensive report released in February 2008 detailing the 
challenges facing our current system, and proposals for improvement. In 
June of this year, NIH announced the initiatives it plans to implement 
that should improve review efficiency and effectiveness. These can be 
grouped into four core priorities: (1) engage the best reviewers; (2) 
improve the quality and transparency of reviews with a greater focus on 
scientific impact while streamlining the application; (3) provide for 
fair reviews across career stages and scientific fields with a greater 
focus on early stage investigators and transformative research; and (4) 
develop a permanent process for continuous review of peer review.
    An important component of the new plan is an increased commitment 
to investigator-initiated high-risk, high-impact research to prevent a 
slowdown of transformative research, despite difficult budgetary times. 
I firmly support the need for NIH to invest in such research, even more 
so in times of restricted budgets. Examples are already under way such 
as the NIH Director's Pioneer award, the New Innovator Award, and the 
recently piloted EUREKA award program.
    To further stimulate this critical arena of research, NIH intends 
to continue to grow the Transformative Research portfolio. A key 
element in this portfolio will be the newly established investigator-
initiated ``transformative'' R01 program, funded within the NIH 
Roadmap. Potential impact and innovation will be the primary criteria 
for success in a review process that is designed to encourage risk-
taking to achieve revolutionary results. At the same time, NIH plans to 
continue the commitment for NIH Pioneer and New Innovator Roadmap 
awards and expand the current EUREKA awards to more ICs in the coming 
year. Taken together, these programs will represent a substantial 
investment in investigator-initiated transformative research.
                                summary
    At NIH, building toward the future involves innovations in multiple 
areas. We are in the midst of an explosion of new discoveries and novel 
opportunities for progress across all areas of science--from the most 
basic discoveries, such as the sequencing of the human genome, to the 
development of fields--like nanotechnology--that did not exist a few 
years ago. These advances have dramatically expanded the scope and 
capacity of the Nation's research enterprise, a goal and outcome of the 
doubling of the NIH budget.
    This remarkable growth in research capacity was accomplished, in 
part, by leveraging NIH and private sector resources to nurture more 
investigators, develop new technologies, and build infrastructure. The 
Small Business Innovation Research (SBIR) and Small Business Technology 
Transfer (STTR) programs, help entrepreneurs, as they translate science 
to market products to improve health and help maintain American 
economic leadership. A total of 4,350 new technologies were brought to 
market by 189 universities, hospitals, and private research 
institutions from 1998 through 2006. From 1980 to 2006, a total of 
5,724 new companies were formed around technologies developed by 
research institutions, many directly funded by NIH.
    The United States is now the pre-eminent force in biomedical 
research. Our Nation continues to lead the highly competitive 
biotechnology and pharmaceutical sectors. Yet, we are also the focus of 
increasing competition from growing research in Europe and Asia. NIH 
programs produce steady streams of novel discoveries and innovative 
researchers that flow into our industries, making them more 
competitive. We must continually sustain the momentum of U.S. 
biomedical research, or risk losing it. Complacency is unacceptable!
    We stand today at a crossroads in our efforts to improve health. 
Healthcare costs are rising. As a society, we must commit to moving 
forward and capitalize on the momentum created by advances in science 
and technology. We need to sustain this momentum. Progress in the life 
sciences in this century will be a major determinant of our Nation's 
health, its competitiveness, and its standing in the world. This is 
truly a race against time--a race that we cannot afford to lose.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               Figure 1.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               Figure 2.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               Figure 3.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               Figure 4.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               Figure 5.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               Figure 6.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               Figure 7.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               Figure 8.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               Figure 9.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               Figure 10.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               Figure 11.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               Figure 12.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               Figure 13.

              Prepared Statement of Dr. Elizabeth G. Nabel
    Mr. Chairman and members of the committee: I am pleased to present 
the President's budget request for the National Heart, Lung, and Blood 
Institute (NHLBI) of the National Institutes of Health (NIH). The 
fiscal year 2009 budget of $2,924,942,000 includes an increase of 
$2,830,000 over the fiscal year 2008 appropriated level of 
$2,922,112,000. The NHLBI provides leadership for a visionary and 
highly productive research program in heart, lung, and blood diseases. 
In December 2007, the Institute announced a new strategic plan to guide 
its next decade of research, training, and education to reduce the 
burden of the diseases under its purview. This statement describes the 
main elements of the plan and then focuses specifically on the 
Institute's many efforts to forge a scientific basis for a more 
personalized approach to medicine in the future and to translate 
research into practice.
                        the nhlbi strategic plan
    Thanks to the dedicated involvement of the communities it serves, 
the NHLBI recently completed development of a scientific working plan 
to guide its activities and initiatives in the near future. The plan 
outlines goals that broadly reflect complementary and interactive 
avenues of scientific discovery--basic, clinical, and translational 
research. This crosscutting, versus disease-specific, approach 
highlights areas where the NHLBI is well positioned to make major 
contributions through investigator-initiated research and through 
programs that enable and supplement investigator-initiated activities. 
Shaping the Future of Research: A Strategic Plan for the National 
Heart, Lung, and Blood Institute is available on the NHLBI Web site at 
http://apps.nhlbi.nih.gov/strategicplan/, and printed copies have been 
distributed widely.
    In the area of basic research, the plan focuses on delineating 
normal and pathological biological mechanisms and exploiting the 
emerging understanding of them to identify biomarkers of disease. Such 
biomarkers--broadly defined as measurable indicators of genotype, 
normal or pathological processes, or responses to therapeutic 
intervention--will facilitate identification of disease subtypes and 
point the way toward new molecular targets for diagnosis, treatment, 
and prevention.
    The plan's clinical and translational research goals emphasize 
transmission of knowledge between basic and clinical research so that 
findings in one arena rapidly inform and stimulate research in others. 
More precise methods of diagnosing disease and predicting 
susceptibility and prognosis are expected to arise from application of 
new approaches from basic science laboratories. A critical challenge 
will be to develop individualized preventive and therapeutic regimens 
based on genetic makeup in combination with developmental and 
environmental exposures. Insights are already emerging, but robust and 
efficient means of validating both patient-focused and population-based 
treatments will be needed to establish an evidence base to guide 
medical practice.
    The plan acknowledges the need to enhance understanding of the 
processes involved in translating research into practice and to use 
that understanding to enable improvements in public health and 
stimulate further scientific discovery. It places particular emphasis 
on conducting research on primary prevention and identifying 
interventions that work in real-world health-care practice. As well, 
continued development and evaluation of new approaches to communicate 
research advances to the public is an important priority for ensuring 
full and informed participation of individuals in their health care.
              setting the stage for personalized medicine
    Considerable progress has been made in reducing the burden of 
illness, particularly in the area of cardiovascular diseases, through 
development of therapeutic and preventive strategies that are broadly 
applicable to the general population at risk. Now we have advanced to a 
point where it may soon be possible to develop vastly more 
sophisticated approaches tailored to individuals. The dream is to be 
able to prevent disease entirely and, short of that, to be able to 
offer each patient a precisely targeted drug or other intervention, at 
a carefully titrated dose, for exactly the proper duration, without 
risking dangerous or troublesome side effects. One path to realization 
of this dream lies in developing a more complete and detailed 
understanding of the genetic basis of individual health and disease.
    Technological advances that make it possible to identify millions 
of DNA sequence variations rapidly and inexpensively, and to correlate 
them with individual characteristics and health indicators 
(phenotypes), have fueled an explosion of interest in this area. The 
NHLBI is investing substantial resources to move the science along, 
capitalizing on vast amounts of data gathered over many years from 
cohort studies such as the landmark Framingham Heart Study. In 2007, 
the Institute conducted genotyping using about 550,000 SNPs (single-
nucleotide polymorphisms, which are tiny variations in the DNA code) in 
over 9,300 people from three generations of Framingham study 
participants. The genetic data are being linked to an array of 
phenotypic information, including major risk factors such as blood 
pressure, serum cholesterol, fasting glucose, and cigarette use; 
biomarkers such as fibrinogen and c-reactive protein; 
electrocardiography measures; imaging measures that reveal nascent 
pathology; and data on clinical cardiovascular disease outcomes. The 
resulting research resource, known as the Framingham SHARe (SNP Health 
Association Resource), is being developed and maintained by the NIH 
National Center for Biotechnology Information in its Database of 
Genotype and Phenotype (dbGaP). This rich source of data will be made 
available--with appropriate privacy safeguards--to qualified 
investigators at no cost.
    The Framingham SHARe is only the first of many NHLBI efforts to 
enable what are known as genome-wide association studies (GWAS)--
projects that involve scanning markers across complete sets of DNA from 
many individuals to find genetic variations associated with diseases or 
conditions of interest. The Institute is moving rapidly to increase the 
diversity of its genotype-phenotype data resources. Thus, we have 
created the MESA SHARe, based on cohorts from the Multi-Ethnic Study of 
Atherosclerosis, a long-running multicenter study that includes 
Americans of African, Chinese, Hispanic, and European ancestry. The 
SHARe-Asthma Resource project or SHARP is conducting a genome-wide 
analysis in adults and children who have participated in NHLBI's 
clinical research networks on asthma. The Candidate-gene Association 
Resource or CARE project includes plans to genotype one million SNPs in 
African-American men and women and link the results with phenotypic 
data obtained from eight major epidemiological studies, including the 
Cooperative Study of Sickle Cell Disease and the Sleep Heart Health 
Study. The NHLBI has also undertaken genotyping of African-American 
women who participated in the Women's Health Initiative, a project of 
great interest to many NIH components and the communities they serve.
    The GWAS approach offers a powerful and unprecedented avenue to 
unravel the contribution of complex traits to common diseases, and it 
is clear that the richness of the data generated from these studies is 
far greater than could be explored by a single investigator or group of 
investigators. To ensure that the greatest possible public benefit 
accrues from our investment in GWAS, under terms and conditions 
consistent with the informed consent provided by research participants, 
the NIH has established a GWAS data-sharing policy for NIH-supported 
investigators (http://grants.nih.gov/grants/gwas/). I was pleased to 
lead my NIH colleagues in this effort and, now, I am honored to serve 
as co-chair of the NIH Senior Oversight Committee for GWAS studies. I 
believe that robust NIH leadership in all aspects of GWAS will enable a 
superior yield from this exciting approach and bring us closer to 
realizing the dream of personalized medicine.
              pharmacogenomics moves closer to the bedside
    The long-term vision of creating a broad selection of custom-made 
therapies for individualized treatment is tantalizing, but a great deal 
of work needs to be done before it can be achieved. Much closer to 
near-term application is the use of pharmacogenomics--an understanding 
of how genetics explains individual differences in response to drugs--
to guide prescribing decisions for agents currently on the market. A 
case in point is the use of the anticoagulant warfarin, a tricky drug 
to prescribe because too little or too much can produce serious 
problems and the dose requirement varies widely from one patient to 
another. Research has identified two specific genetic variations that 
appear to account for much of the inter-individual variation in 
sensitivity to warfarin, and we are now moving forward with a clinical 
trial to evaluate the clinical efficacy of a genotype-guided 
prescribing strategy for warfarin therapy and to determine whether the 
increment in efficacy and safety warrants the cost of genetic testing. 
We fully expect that genetic stratification of patients will become the 
norm for trials to evaluate new drugs, and that genetic information 
will prove invaluable for the design of novel alternatives to existing 
drugs that are likely to be ineffective or harmful in genetically 
susceptible individuals.
                     bridging research and practice
    In the upcoming years, these and other research efforts will yield 
an extraordinary amount of new information that will fundamentally 
transform medical practice and call for innovative approaches to 
translation and dissemination. We must be prepared to make the most of 
it. In line with its strategic plan, the NHLBI has developed a new 
knowledge network approach to bridge the gap between discovery and 
delivery, identify areas that should be addressed by future research, 
and develop more effective approaches for synthesizing and organizing 
scientific evidence and moving it into practice. The first network, 
addressing cardiovascular diseases, will be implemented globally and 
make innovative use of new media technologies.
    The NHLBI has also begun a new effort to develop comprehensive, 
evidence-based, integrated guidelines to assist primary care physicians 
in helping adult patients reduce their risk of cardiovascular diseases. 
The integrated approach will focus on all cardiovascular risk factors 
to reflect the complicated clinical scenarios that patients and 
physicians typically face. Expert panels are being convened to review 
available scientific evidence and update existing guidelines for the 
prevention, detection, evaluation, and treatment of high cholesterol, 
hypertension, and overweightness/obesity. An important goal of both the 
integrative guidelines and the updates is to improve implementation, 
especially among high-risk and minority communities. Ensuring that the 
public benefits from its investment in biomedical research is, and has 
always been, our highest priority.
                                 ______
                                 
             Prepared Statement of Dr. John E. Niederhuber
    Mr. Chairman and Members of the Committee: Thank you for the 
opportunity to offer testimony on behalf of the National Cancer 
Institute (NCI) and the National Cancer Program. The fiscal year 2009 
budget of $4,809,819,000 includes an increase of $4,731,000 over the 
fiscal year 2008 appropriated level of $4,805,088,000.
                       a unique national resource
    At his hometown hospital, the patient remembers, ``there were lots 
of debates and lots of questions about what I really had. They really 
didn't know.'' His condition was rare, and its identity remained 
elusive. Ultimately, one doctor made a simple promise: ``I'm going to 
find somebody in this country that knows a lot more about this.'' And 
so he did. Ten years ago, the patient headed to the National Institutes 
of Health Clinical Center in Bethesda, Maryland and a research study 
lead by Dr. Wyndham Wilson at the National Cancer Institute. The 
condition turned out to be Lymphomatoid Granulomatosis, a rare, 
progressive disorder of the lymph nodes and blood vessels that can, 
over time, involve the lungs, skin, kidneys, and central nervous 
system. ``If you look at the published literature on my disease,'' the 
patient says, ``it's a very high mortality rate. What the NCI's 
treatment regimen has done is completely turn that around. They're 
doing things that other people just aren't doing, and then sharing it 
and disseminating it throughout the world.'' The patient remained in 
remission for 9 years. Last fall, when his disease returned, the 
patient returned to Dr. Wilson's care with his optimism intact. ``These 
people at the NIH are so talented, so kind--and they're doing this just 
to help people and advance learning so that other people can benefit 
from their work around the country. They're an amazing group of 
people.''
    Our patient's cancer story is not finished. Neither is the work of 
the National Cancer Institute. The NCI is striving for a time when the 
life stories of millions of patients will no longer end with cancer. 
For several years now, scientists who devote their careers to the study 
of cancer have spoken, with increasing frequency and enthusiasm, about 
their hopes for an era of ``personalized medicine,'' when cancer will 
be treated as a chronic condition--not the killer it is today. Spurred 
by the completion of the landmark Human Genome Project, we have begun 
to realize a vision of cancer prevention, early diagnosis, and targeted 
treatment based on each patient's tumor and unique genetic make-up. In 
time, this knowledge will be linked to cancer risk and the earliest 
cellular changes that lead to development of a malignancy--years before 
tumor formation or symptom onset.
    Today, cancer researchers are using new molecular technologies, 
such as whole genome scans and actual sequencing of patients' tumors, 
searching for abnormal proteins in individual patient's body fluids 
that are the result of these genetic changes. As a result, scientists 
are studying an ever-growing group of targeted therapies, which attack 
cancer cells but leave healthy tissue untouched.
    Scientists have also learned the critical importance of the 
microenvironment of tissue surrounding the tumor, and they have 
elucidated the essential ways in which these cells--connective tissue 
cells, new blood vessel cells, and cells of the immune system--support 
the growth and metastasis of the cancer. Scientists have increasingly 
identified ways in which these non-cancer cells can also be targeted, 
to block tumor progression. Recognizing the complexity of a cancer and 
of its progression to a fatal disease, researchers have come to the 
understanding that our treatments will not be simple; complex therapies 
will help fight a complex disease. Without a doubt, science and the 
technology that supports research are making progress against cancer at 
a pace never before seen.
    America's Federal investment powers--and empowers--the engine of 
cancer research. The National Cancer Institute, as the leader of our 
National Cancer Program, funds thousands of researchers (5,713 in 2007) 
at hundreds of our great research universities and Cancer Centers from 
coast to coast--along with a cadre of Government scientists based at 
the clinical center on the campus of the National Institutes of Health 
who, like Wyndham Wilson, conduct the kind of high-risk science 
unlikely to be found elsewhere.
    Clearly, the Nation's investment is paying dividends. There are now 
almost 12 million cancer survivors in America. Today's cancer research 
shows great promise to reduce the personal and financial costs 
associated with cancer, which, according to the American Cancer 
Society, totaled $206.3 billion in the United States in 2006. However 
of great worry, cancer is a disease of aging, the result of a lifetime 
of genetic alterations, additions, and subtractions that accumulate in 
our genes and impact their function. With a rapidly aging population, 
NCI estimates that the total economic burden of cancer in the United 
States will increase to $1.82 trillion by 2017.\1\ This clearly 
underscores the urgency of increasing our investment in cancer 
research.
---------------------------------------------------------------------------
    \1\ National Cancer Institute, Estimates of the National Economic 
Burden of Cancer for 2007 and 2017, April 17, 2007.
---------------------------------------------------------------------------
    NCI's progress against cancer is evident across its vast research 
portfolio:
  --Genome-wide association studies are revealing increasing numbers of 
        genes that may contribute to cancer risk. These high-tech 
        studies compare large groups of people: one group with a 
        disease and one without, searching for abnormal genes, which, 
        once validated and further studied, will lead to strategies for 
        prevention, enhanced early cancer detection, and novel highly 
        targeted treatments.
  --The NCI Community Cancer Centers Program, now in a 3-year pilot 
        phase at 16 sites across the country, is studying how best to 
        bring state-of-the-art, multi-specialty cancer care, electronic 
        medical records, and early-phase clinical testing of new 
        therapies to patients in their own communities, because access 
        to scientific advances is an essential factor in decreasing 
        cancer mortality and healthcare costs.
  --The cancer Biomedical Informatics Grid (caBIG<SUP>TM</SUP>) is a 
        21st century information initiative connecting cancer research 
        and clinical trials--both public and academic--from coast to 
        coast. caBIG is an essential program to address the new era of 
        highly personalized medicine and the rapid translation of 
        discovery to practice.
  --Expanding deployment of Electronic Health Records linked to 
        clinical research can provide security and portability for 
        patient health and medical information.
  --Pioneering a new kind of early clinical trial, which looks at small 
        numbers of patients and uses extremely small quantities of 
        investigational medications and high-technology imaging, to see 
        if the drug reaches its molecular target. Phase 0 trials have 
        the potential to shorten drug development and reduce costs by 
        millions of dollars.
  --NCI's expanding platform of new drug development actively links 
        university scientists with the complex enterprise of novel 
        agent chemistry, validation, and the final steps of private 
        sector translation.
                      cancer as a model of disease
    Cancer has long been a model for the study of disease in the 
laboratory and a model of healthcare in the community. For example, 
knowledge about how tumors form new blood vessels (angiogenesis 
research), has contributed to our understanding of macular 
degeneration, diabetes, wound healing, and ischemic heart disease. In 
fact, the Nation's investment in cancer research has affected the 
diagnosis and treatment of most major diseases. Cancer is the only 
disease for which tissue is routinely collected for study in the 
laboratory. Having malignant, pre-malignant, and normal tissue from the 
same patient allows researchers in many fields to understand the 
biology of pathologic disease processes, at the cellular level. The 
ability to perform tissue analysis also makes cancer patients the most 
highly characterized population of patients with chronic disease. 
Physicians are now using these data to inform prevention and treatment 
schemes tailored to the individual. The NCI recognizes that 
characterizing the patient and delivering state-of-the-art care in the 
community setting is the model for future healthcare delivery. We are 
continually studying ways to optimize this approach.
                          supporting research
    The backbone of America's cancer research enterprise is the 
individual investigator working at a laboratory bench, conducting 
hypothesis-driven science. These scientists are also the academic 
faculty who train and guide the next generation of researchers. 
Understanding those dual values, NCI is working to reassign resources 
to provide a stable level of financial support for Principal 
Investigators.
    NCI is also pushing to reinvigorate its intramural program, 
comprised of the Government scientists who study types of cancer 
unlikely to be addressed by the private sector and whose research 
encompasses high-risk science that has the potential to greatly advance 
our knowledge of cancer and its processes.
    One of the greatest services NCI can offer the Nation is to help 
foster a dedicated cancer research workforce for the future. We have 
placed more emphasis on carefully reviewing and more-aggressively 
funding new applications from young scientists. We are working to bring 
more young scientists to Bethesda for day-long meetings and 
interactions with NCI staff. Moreover, because a grant from NIH is 
often a pre-requisite for obtaining and keeping academic tenure, NCI is 
developing plans to mandate a mentoring committee at each new 
investigator's home university.
                          working for patients
    When she arrived at the NIH Clinical Center, our patient couldn't 
even make a fist. Her hands, wrists, elbows, hands, and knees could 
scarcely bend. A once-vibrant woman in her late 20s, she was now 
severely anemic, wheelchair bound, and wrapped in blankets to preserve 
the body heat her skin could no longer retain. Over 2 years, as she 
suffered the disabling manifestations of cutaneous T-cell lymphoma, she 
spent more nights in the hospital than at home. She was in hospice care 
and lacked the strength to be with her two small children. She came to 
the Clinical Center virtually out of treatment options--and once there, 
an initial short list of experimental treatments had all failed. Having 
apparently run out of all hope, our patient came into the care of Dr. 
Martin E. Gutierrez, a staff clinician with the NCI's Medical Oncology 
Branch. Dr. Gutierrez, who has spent his career working on new 
therapies for T-cell lymphoma patients, tried a new drug being 
developed through NCI's Rapid Access to Intervention Development (RAID) 
program. RAID exists to speed the translation of novel anticancer 
therapies from laboratories to patients. And in this case, the new drug 
paid off dramatically. Within the first few doses, Dr. Gutierrez began 
to see improvement. Within 7 months, the patient's symptoms were gone. 
Today, more than a year after her arrival at the Clinical Center, the 
patient's tests show no evidence of disease.
    NCI will not rest until such stories are commonplace. Our Nation's 
investment in cancer research is paying dividends--in lives saved, in 
greater quality of life for cancer patients, and in cancers prevented. 
The National Cancer Institute is dedicated to a future in which cancer 
is no longer the killer we know today, but a condition most often 
prevented, or else treated effectively, with minimal side-effects. The 
future of medicine is personal. Our country's investment in that future 
is vital. Everything we do at NCI begins and ends with real people: 
those with cancer, those at risk for the disease, and those who care 
for them.
                                 ______
                                 
              Prepared Statement of Dr. Francis S. Collins
     Mr. Chairman and Members of the Committee: I am pleased to present 
the fiscal year 2009 President's budget request for the National Human 
Genome Research Institute (NHGRI). The fiscal year 2009 budget includes 
$487,878,000; an increase of $1,099,000 from the fiscal year 2008 
enacted level of $486,779,000.
    NIH's investment in the Human Genome Project (HGP) and the 
International HapMap Project have moved us closer to a future that uses 
genomic information to diagnose, treat, and prevent disease.
                       disease-gene associations
    The HapMap has introduced a new paradigm to genomic research, 
primarily in the form of genome-wide association studies (GWAS), 
enabling cost-efficient assessment of much of the common genomic 
variation within an individual. The GWAS approach is novel in that it 
surveys the genome comprehensively and without preconception as to the 
relationships between genetics and disease, whereas earlier research 
efforts were largely focused on candidate genes thought to be 
associated with specific diseases. The innovative GWAS approach allows 
for the identification of genes involved in common diseases, 
contributing to a better understanding of the development and 
progression of common diseases, and pointing to follow-up research that 
may lead to improved diagnostic, therapeutic, and preventive 
approaches.
    With unprecedented speed, researchers have applied GWAS to identify 
a stunning number--over 70 in 2007 alone--of genetic factors associated 
with the most common causes of morbidity and mortality in the United 
States, such as diabetes, cardiovascular disease, obesity, cancer, and 
multiple sclerosis. Identification of gene variants associated with 
disease raises the possibility of using genetic testing, in combination 
with family history information, to identify susceptible, pre-
symptomatic subjects for screening and preventive therapies. The pace 
of disease-gene discovery is likely to accelerate even further over the 
next 2 or 3 years due to the completion in 2007 of the second-
generation map of human genetic variation (Phase II HapMap). This 
updated and powerful tool allows researchers to identify variations 
associated with disease even more quickly and accurately.
           applying new knowledge about the genome to health
    The NHGRI has increasingly directed the power of its large-scale 
sequencing program, which fueled the completion of the Human Genome 
Project, toward the long-range objective of making human DNA sequencing 
a tool for both research and medical practice. New directions include 
obtaining genomic sequence data from many individuals with various 
physical traits and disease states--data that will prove critical for 
addressing a wide range of questions important for advancing 
biomedicine. To move these advances more rapidly into clinical care, in 
2007 the NHGRI established the Genomic Health Care Branch within its 
Office of Policy, Communication, and Education. The new branch's 
mission is to help facilitate the translation of genomic research into 
advances in clinical medicine, especially in the primary care setting.
                        the cancer genome atlas
    The Cancer Genome Atlas (TCGA) is a joint NCI-NHGRI effort to 
accelerate understanding of the molecular basis of cancer through 
application of genome analysis technologies. TCGA began in 2005 with a 
3-year, $100 million pilot project to determine the feasibility of a 
full-scale effort to explore the universe of genomic changes involved 
in all human cancers.
                          the human microbiome
    There are more bacteria in the human gut than cells in the entire 
human body. Furthermore, microbes in the gut, skin, oropharynx, and 
vagina have a profound effect on many human physiological processes, 
such as digestion and drug metabolism, and play a vital role in disease 
susceptibility and even obesity. The Human Microbiome Project, 
conducted under the auspices of the NIH Roadmap Project and co-led by 
the NIAID, NIDCR, and NIDDK, represents an exciting new research area 
for the NHGRI.
          technology advances, on the way to the $1,000 genome
    In August 2007, the NHGRI awarded grants to advance the development 
of innovative sequencing technologies intended to reduce even further 
the cost of DNA sequencing and expand the use of genomics in biomedical 
research and health care. With NHGRI support, excellent progress has 
been made toward both the near-term goal to lower the cost of 
sequencing a mammalian-sized genome to $100,000, and the longer-term 
goal of $1,000 or less. Further grant awards in this area will be 
announced in late summer 2008.
               chemical genomics and molecular libraries
    The chemical genomics initiative, part of the NIH Roadmap, offers 
public sector researchers access to high-throughput screens to test 
small organic molecules for potential uses as research tools. This 
initiative will even help expedite the development of innovative drugs 
for rare diseases, by demonstrating how early stage compounds interact 
with novel molecular targets. This program provides direct translation 
of genomic medicine by identifying small molecule drug-like compounds 
that can be used as starting points for new treatments, or as new 
applications of that agent. A dramatic example is the recent 
identification of a compound that shows great promise for the treatment 
of schistosomiasis, a parasite disease affecting more than 200 million 
people in Africa, Asia, and the Middle East.
                         knockout mouse project
    The technology to ``knock out,'' or inactivate, genes in mouse 
embryonic stem cells has led to many insights into human biological 
processes and human disease. However, information about knockout mice 
has only been published and made available to the research community 
for about 20 percent of the estimated 20,000 mouse genes. Recognizing 
the wealth of information that mouse knockouts can provide, the NHGRI 
launched a trans-NIH, coordinated, 5-year cooperative research plan 
that, in cooperation with European and Canadian programs, will produce 
knockout mice for every mouse gene and make these mice available as a 
resource to the entire community.
                              1000 genomes
    The 1000 Genomes Project is an international research project that 
will sequence the genomes of at least a thousand people from around the 
world to create the most detailed and medically useful picture to date 
of human genetic variation. The 1000 Genomes Project seeks to produce a 
publicly available catalog of variants that are present at 1 percent or 
greater frequency in the human population across most of the genome.
                                clinseq
    The purpose of ClinSeq, an intramural NHGRI research initiative, is 
to pilot large-scale medical sequencing (LSMS) in a clinical research 
setting and to investigate some of the technical and medical issues 
that accompany the implementation of LSMS in clinical settings. 
Currently, ClinSeq is recruiting 1,000 participants across the spectrum 
of risk for coronary heart disease (CHD). Relationships between 
patients' genetic makeups and observed phenotypes will be explored to 
better understand how variations in genes relate to cardiac health 
status.
                               multiplex
    The NHGRI and the NCI have teamed up with Group Health Cooperative 
in Seattle and Henry Ford Health System in Detroit to launch the 
Multiplex Initiative, a prospective study that is enrolling young, 
healthy adults to learn how they react to the offer of genetic testing 
for a panel of 15 genes linked to 8 common conditions. The study will 
follow individuals who decide to have the testing to see how they 
interpret and use the results in making future health care decisions. 
This study should provide insights that will be important to advancing 
the realization of personalized medicine.
                    encode (scale up and modencode)
    We are continuing to expand the ENCyclopedia Of DNA Elements 
(ENCODE) project, a research consortium that, in its pilot phase, 
yielded provocative new insights into the organization and function of 
the human genome. The NHGRI is moving forward with a full-scale 
initiative which should provide a more comprehensive picture of the 
biological roots of human health and disease. We are also engaged in a 
new effort, called the model organism ENCODE (modENCODE), to apply many 
of the ENCODE methods and technologies to the genomes of the roundworm 
and fruit fly model organisms, to inform our efforts to understand how 
the human genome functions.
          minority outreach activities and health disparities
    The NHGRI remains at the forefront of ensuring that minority 
scientists and students are equipped to meet the challenges of genome 
research in the 21st century. With support from the NIH Director and 
several Institutes and Centers, the NIH has created the NIH Intramural 
Center for Genomics and Health Disparities (NICGHD) within the NHGRI 
Division of Intramural Research, with a mission of advancing research 
into the role of culture, lifestyle, genetics, and genomics in health 
disparities.
                         genetic discrimination
    The NHGRI has long been concerned about the impact of potential 
genetic discrimination on research and clinical practice, as a wealth 
of research has demonstrated that many Americans are concerned about 
the possible misuse of their genetic information by health insurers or 
employers. This concern has been a constant during my tenure as 
director of NHGRI, so it gives me great satisfaction that after a 13-
year legislative effort, the Genetic Information Nondiscrimination Act 
(GINA) has finally become law. When GINA takes effect in 2009, it will 
provide all Americans with solid protection against discrimination 
based on their genetic information in health insurance or employment 
circumstances. We hope that these protections will address the concerns 
that have thus far threatened the public's willingness to utilize 
genetic testing.
                         medicine in the future
    Broad investment in innovative, large-scale, and adaptable models 
of research such as GWAS may accelerate the timeline for the 
development of advances in clinical options and thereby contribute to a 
decrease in the public health burden of many common diseases. With 
protections against discriminatory uses of genetic information in 
place, we anticipate that individual genome sequencing will become both 
commonplace and affordable, and that primary care physicians will 
routinely consult their patients' genome analyses for prediction of 
risk, diagnosis, and drug and dosage selections. If the public and the 
medical community are appropriately educated about both the 
significance and the limitations of genomic information, it may be 
possible to lessen the burden of disease through better screening and 
prevention programs, to minimize or avoid toxicities from drugs, and to 
select the right drug for the right patient, at the right time.
    Finally, as many of you know, next month I will step down as 
Director of the National Human Genome Research Institute, a position 
that has been my joy and privilege to hold for the past 15 years. Many 
historic opportunities lie ahead as genomics increasingly becomes a 
leading force in medicine, and I leave my position supremely confident 
that NHGRI and NIH will continue to achieve notable success in 
advancing the health of the American people. In closing, I would be 
remiss if I did not take this final opportunity to thank Senator Harkin 
and Senator Specter for their superb leadership on this committee and 
long-time dedication to the mission of the NIH. Your efforts, and that 
of your excellent staff, have been essential to the progress recently 
made in genomics research, and are very much appreciated.
                                 ______
                                 
               Prepared Statement of Dr. Anthony S. Fauci
    Mr. Chairman and members of the committee: I am pleased to present 
the President's budget request for the National Institute of Allergy 
and Infectious Diseases (NIAID) of the National Institutes of Health 
(NIH). The fiscal year 2009 budget of $4,568,778,000 includes an 
increase of $8,123,000 over the fiscal year 2008 appropriated level of 
$4,560,655,000.
    The mission of NIAID is to conduct and support research to 
understand, treat, and prevent infectious and immune-mediated diseases. 
The biomedical research that NIAID supports to combat diseases of 
worldwide concern, such as HIV/AIDS, tuberculosis, malaria, neglected 
tropical diseases, emerging and re-emerging infectious diseases, has 
taken on added importance in today's globalized society. As we address 
these problems in a global context, we naturally contribute to our 
country's preparedness against the threat of bioterrorism as well as 
naturally occurring disease outbreaks. In addition, we are advancing 
efforts to address other domestic health problems, such as HIV/AIDS, 
influenza, and asthma, allergy, and other immune-mediated diseases. 
Using a multidisciplinary approach that engages industrial, academic, 
governmental, and non-governmental partners, NIAID remains committed 
both to basic infectious and immune-mediated disease research and the 
application of this knowledge to the development of strategies to 
detect, prevent, and treat these diseases. This approach is emphasized 
in the recently updated NIAID strategic plan, NIAID: Planning for the 
21st Century--2008 Update.
    Looking forward, it is clear that the research activities of NIAID 
will become more important than ever, as current and as-yet 
unrecognized health threats will require new diagnostic, preventive, 
and therapeutic interventions. These new tools promise to have a great 
impact on public health over the next two decades.
             emerging infectious diseases and global health
    Threats posed by infectious microbes do not remain static, but 
change over time as new microbes emerge and familiar ones re-emerge 
with new properties, such as drug resistance, or in new settings. Since 
2006, we have witnessed numerous examples of newly emerging and 
remerging infectious diseases outbreaks, including extensively drug 
resistant tuberculosis (XDR-TB), methicillin-resistant Staphylococcus 
aureus (MRSA), H5N1 avian influenza, Chikungunya fever, and dengue. We 
must anticipate that we will see more and more of these outbreaks in 
the coming decades. As economies and societies around the world have 
become increasingly interdependent, responding to emerging infectious 
diseases, as well as to long-established global health challenges such 
as neglected tropical diseases, has taken on a new urgency.
    Tuberculosis is an example of a re-emerging threat. The World 
Health Organization (WHO) estimates that in 2006, new cases of active 
tuberculosis (TB) worldwide exceeded 9 million and 1.7 million people 
died from TB. Antiquated and insensitive techniques for accurately 
diagnosing TB, complex and lengthy drug regimens and an increase in the 
prevalence of multi-drug resistant (MDR-) and XDR-TB continue to 
present major challenges to effective TB control. In 2007, the 
Institute released the NIAID Research Agenda: Multidrug-Resistant and 
Extensively Drug-Resistant Tuberculosis, which identifies research 
needs and priorities in several critical TB-related areas. The agenda 
also highlights the importance of fostering partnerships with public 
and private organizations to fuel the pipeline of available drugs, 
diagnostics, and preventive measures for TB.
    Malaria is an established infectious disease that continues to pose 
a significant global health burden. Malaria is becoming even more 
problematic with the emergence of drug-resistant malaria parasites and 
insecticide-resistant mosquito vectors. NIAID collaborations with 
public and private partners, including the Bill & Melinda Gates 
Foundation, build on the foundation of NIAID's robust malaria basic 
research program to foster the development of promising drug and 
vaccine candidates. Over the next two decades, we hope to have a major 
impact on the global TB and malaria burden through the development of 
vaccines that protect against these infectious killers. Our aim is 
excellent control of both TB and malaria through the use of vaccines 
and other interventions with the ultimate goal of eliminating malaria 
as a global disease threat.
    TB and malaria are not the only diseases emerging in drug-resistant 
forms. The Centers for Disease Control and Prevention estimated that in 
2005, more than 90,000 individuals in the United States developed 
invasive infections with methicillin-resistant Staphylococcus aureus 
(MRSA) and nearly 19,000 of these patients died. NIAID supports an 
extensive basic research portfolio on antimicrobial resistance, 
including studies of how bacteria develop and share resistance genes 
and the identification of new therapeutic targets. The Institute is 
partnering with industry, other Federal agencies, academia, and other 
organizations such as the Infectious Diseases Society of America, to 
identify research priorities, including clinical trials, to address 
this growing problem, and recently published a detailed research agenda 
on antimicrobial resistance in The Journal of Infectious Diseases.
    Seasonal influenza, which changes slightly every year, is the 
classic example of a re-emerging infectious disease. Influenza viruses 
also can undergo more drastic genetic changes that periodically enable 
them to evade pre-existing immunity and cause a pandemic, such as the 
deadly influenza pandemic in 1918 that killed more than 50 million 
people worldwide. NIAID supports a broad portfolio of research on 
influenza, including basic and applied research on the development of 
vaccines, diagnostics, and therapeutics against both seasonal and 
pandemic influenza. This foundation of research has underpinned the 
significant progress made in the development of new influenza 
interventions. For example, in 2007, based on clinical data from NIAID-
supported research, the FDA approved the first vaccine for humans 
against the H5N1 avian influenza virus. Further, NIAID-supported 
studies performed in collaboration with various industrial partners 
have demonstrated the extraordinary potential for a variety of other 
vaccine formulations and adjuvants to not only expand the number of 
doses of vaccine but also to broaden the vaccine's reactivity against 
various strains of influenza.
    As we look to how we might respond to unknown emerging and re-
emerging infectious disease threats in the future, it is apparent that 
the most practical approach may not always be the development of 
interventions such as diagnostics, vaccines, and therapeutics against 
just one microbe. Rather, the future of diagnostics will be rapid, 
accurate tools that can be used at the bedside or in the field in 
``real time'' to detect a wide variety of pathogens. We are working to 
develop vaccine platforms that can be easily adapted to different 
microbes by shuttling the genes for different antigens in and out and 
that can provide protection against a broader group of pathogens. 
Similarly, we are developing antimicrobial therapeutics that truly are 
``broad spectrum'' in their activity, both within and between classes 
of pathogens. Such antimicrobials could prove effective against drug-
resistant bacteria, including MRSA.
                           hiv/aids research
    HIV/AIDS continues to exact a staggering toll. Although the Joint 
United Nations Programme on HIV/AIDS (UNAIDS) recently revised 
estimates to indicate a stabilization or decline in HIV infections and 
deaths in some parts of the world, the HIV/AIDS pandemic remains an 
enormous global health challenge. An estimated 33.2 million people 
worldwide are infected with HIV. In 2007, approximately 2.5 million 
people were newly infected with HIV, and 2.1 million died of AIDS.
    Despite the grim numbers, the Federal investment in HIV research 
has generated promising new results in the prevention and treatment of 
HIV/AIDS and in advancing our understanding of the virus and disease. 
An important example is the demonstration by NIAID-supported 
researchers that medically supervised adult male circumcision reduced 
by more than 50 percent the risk of heterosexual African men becoming 
infected with HIV. Our hope is that this and other advances in HIV 
prevention research will become part of a comprehensive HIV prevention 
``toolkit'' that will markedly decrease new infections over the next 
two decades.
    Perhaps the greatest success story in NIAID-funded AIDS research is 
that of therapeutics. NIAID-supported research helped make possible 
antiretroviral therapies that have transformed HIV from an almost 
uniformly fatal infection into a manageable chronic condition. Still, 
existing drugs are no longer sufficient for some HIV-infected patients 
because of the ability of the virus to develop resistance or because of 
the toxicities that can be associated with the therapies. Among the 
fruits of NIAID fundamental HIV research is the recent approval of 
three new potent and highly effective antiretroviral drugs: etravirine, 
maraviroc, and raltegravir. NIAID will continue to support the 
fundamental research that will be the foundation for future 
therapeutics that will be even more user-friendly and inexpensive, 
making universal access to therapy more feasible over the next two 
decades.
    Prevention efforts continue to be a major component of the HIV 
research program of NIAID, and the most powerful prevention tool would 
be a safe and effective HIV vaccine. The development of an HIV vaccine 
remains one of our greatest scientific priorities, but also one of our 
greatest scientific challenges. The pathway to a vaccine is being 
elucidated through the fundamental basic research that remains the 
foundation of NIAID. For example, researchers at the NIAID Vaccine 
Research Center and their collaborators determined the atomic 
structures of a neutralizing antibody and the conserved area of the HIV 
surface protein (gp120) to which the neutralizing antibody binds. This 
binding site is the same site that the virus uses to bind to cells of 
the immune system. Such studies are helping us to identify components 
of HIV that may serve as targets for future vaccine candidates and may 
bring us closer to a safe and effective HIV vaccine.
                          biodefense research
    Since the beginning of the acceleration of our biodefense research 
program in fiscal year 2003, NIAID has achieved a number of successes 
in the development of countermeasures against significant bioterrorism 
threats; these countermeasures are either in the Strategic National 
Stockpile or available for use in an emergency. Promising candidate 
countermeasures in development include ST-246, a smallpox drug 
candidate that has protected both rodents and nonhuman primates from an 
otherwise lethal exposure to live poxviruses. The FDA has granted 
orphan drug status to ST-246 and awarded the compound fast-track status 
which will expedite its regulatory review. The vaccine platforms, rapid 
diagnostics, and broad spectrum antimicrobial therapeutics that we aim 
to develop for emerging infectious diseases over the next two decades 
will also be directly applicable to our biodefense research program.
    In addition, and as important, NIAID has developed a physical and 
intellectual research infrastructure that has been critical to our 
ability to respond to new and re-emerging infectious diseases. Without 
this expanded infrastructure, the biomedical research response to the 
emergence of infectious disease threats such as H5N1 avian influenza, 
MRSA, and XDR-TB would not have been as rapid.
                  research on immune-mediated diseases
    Autoimmune diseases, allergic diseases, asthma, rejection of 
transplanted organs, and other immune-mediated disorders are 
significant causes of chronic disease and disability in the United 
States and throughout the world. NIAID-supported research in immune-
mediated diseases has led to significant advances in our understanding 
of the mechanisms underlying these diseases and in the development of 
strategies to detect, prevent, and treat them.
    Food allergies continue to be a growing concern and an emerging 
focus of public attention. NIAID remains committed to basic research to 
advance the understanding of food allergy and food allergy-associated 
anaphylaxis. To bring new investigators and novel ideas into food 
allergy research, NIAID is supporting a new initiative, Exploratory 
Investigations in Food Allergy, in collaboration with public and 
private partners. NIAID also is expanding support for clinical trials 
in food allergy, with ongoing trials to prevent the development of 
allergies to particular foods, such as peanut, and to reverse 
established allergy to milk, eggs, and peanut.
    The Institute also supports research to improve outcomes for 
transplant recipients, with establishment of immune tolerance as a 
major priority in this area. The NIAID Immune Tolerance Network is 
making steady progress toward the long-term goal of reducing the need 
for costly and potentially risky immunosuppressive drugs that are the 
current standard treatment to prevent transplant rejection. A total of 
11 kidney and liver transplant recipients are no longer on 
immunosuppressive drugs, some for as long as 4 years. We hope that 
eventually a substantial proportion of organ transplant recipients will 
not require immunosuppressive drugs.
    The establishment of immune tolerance is a goal not only for 
transplantation, but also for other immune-mediated disorders, such as 
allergies. We look forward to the use of tolerance to have a major 
impact on allergies, including food allergies, and other immune-
mediated disorders in the coming decades.
                               conclusion
    For more than six decades, NIAID has conducted and supported basic 
research on infectious and immune-mediated diseases that has 
underpinned the development of vaccines, therapeutics, and diagnostics. 
These, in turn, have improved health and saved millions of lives in the 
United States and around the world. Through partnerships with 
industrial, academic, governmental, and non-governmental partners, the 
Institute will continue to leverage these fundamental discoveries into 
the tools needed to achieve a healthy world.

    Senator Harkin. Dr. Zerhouni, thank you very much, that was 
really eloquent and elegant, and I appreciate that very much. I 
just wondered if--Senator Cochran has joined us, did you have a 
statement you'd want to make, Senator Cochran?
    Senator Cochran. Mr. Chairman, thank you very much, I do 
have a statement that I would ask be included in the 
appropriate place in the record.
    Senator Harkin. Sure, without objection.
    Senator Cochran. Thank you.
    [The statement follows:]
               Prepared Statement of Senator Thad Cochran
    Dr. Zerhouni, thank you for joining us today to discuss the fiscal 
year 2009 budget for the National Institutes of Health. We appreciate 
your efforts to improve the health of Americans through medical 
research aimed at the prevention and treatment of diseases. I am 
pleased that the Committee has provided an increase of over $1 billion 
above last year's level and I look forward to your comments on the 
agency's vision and plan for these additional resources. I would also 
like to welcome our distinguished panel of scientists. The insight you 
will share today of your experience with the NIH and its research will 
be helpful to the work of this committee.
    The research at NIH addresses the pressing health concerns in our 
country and it is important not only to complete this research, but to 
translate it into new therapies and better outcomes for patients. This 
Committee will continue to encourage you all to do this.
    I appreciate the challenges you are facing and your hard work. I am 
interested in helping the NIH succeed in these very important efforts.

                              NIH FUNDING

    Senator Harkin. For the record, accompanying Dr. Zerhouni 
today is, of course, Dr. Francis Collins whom I spoke about in 
my opening statement, the Director of the National Human Genome 
Research Institute and Dr. Anthony Fauci, Director of the 
National Institute of Allergy and Infectious Diseases, who's 
been at NIH since--is that right, since 1968, Tony? Wow.
    Dr. Elizabeth G. Nabel is the Director of the National 
Heart, Lung, and Blood Institute, appointed to that position in 
2005, I think, from Dr. Lenfant, if I'm not mistaken, who was 
there for many years.
    Dr. John Niederhuber is the Director of the National Cancer 
Institute.
    We thank you all for being here today.
    Well, Dr. Zerhouni, just picking up on that, as I said, 
that very elegant presentation, we think about where we've 
been, and we're on the cusp of some of these new things, we 
have to follow these leads. Tell us what that would mean in 
terms of budgetary implications. In other words, we've got a 
lot of things we've got to be looking at--I assume this spreads 
across every Institute, in terms of following these leads. But, 
what should we be thinking about in terms of the growth in NIH 
funding? As I said, Senator Specter and I are going to try to 
introduce a bill to try and get that money back up again, we're 
facing some pretty tough budget times right now--what should we 
be thinking about in terms of the funding for NIH next year? 
The year after, the year after, perhaps, in order to adequately 
follow these leads?
    Dr. Zerhouni. There are many ways to answer this question, 
but I'll give you some parameters I've learned are critical.
    You can not sustain an enterprise where you have to have 
people commit their lives, their careers--it takes 15 years, 
sometimes, to just make an impact when you're following the 
lead, this is not automatic. So, these individuals need to have 
some certainty that the budgets will be there to sustain them 
in their effort, so predictability in the budget is very 
important.

                              SUCCESS RATE

    The second is that, you have to have a reasonable success 
rate. When you tell a young individual, ``You will come in, you 
will come in at age 30, 32, having spent 20 years of your life 
training yourself, and then you're going to make $40,000 for 
the next 10 years, and maybe at the end, if you're very, very 
good, you might get a grant from the NIH with a 17 percent 
success rate. How does that sound to you?''
    Without a 30 percent success rate, on average, we've notice 
that, fundamentally, our ability to maintain the competitive 
nature of science, and the ability to explore the avenues--not 
knowing, really, where the next breakthrough is going to come 
from. People forget that science is not an engineering task, we 
don't know all of the answers, we have to seek them. We've done 
this for 50 years. People forget that the history of true 
modern research in medicine is only 50 years old. So, we are 
early in that stage. Losing momentum is very critical.
    So, a reasonable success rate, a predictable funding, and 
funding that does not decrease in real terms--which is what we 
have had to deal with, which forces you to make priority 
choices, not knowing, really, where the breakthrough will come 
from. Because, in science, as we've noted, sometimes somebody 
is doing something completely unrelated, and all of a sudden, 
that something becomes a cure in cancer, or that thing in 
cancer becomes a cure in AIDS. We've seen that over and over 
again.
    So, what is key is to maintain your capacity over time, 
make sure that new, young investigators are encouraged to enter 
the career, and make sure that we are not dealing with a very 
erratic process. Medical research is a long-term process, it's 
not something you can manage every 12 months. You have to 
commit.
    But we have a plan, we have a strategy. This strategy is 
known the world over. If we're not following these leads, I can 
assure you, somebody will. That won't be us.

                           NEW INVESTIGATORS

    Senator Harkin. Dr. Zerhouni, you have the NIH Director's 
New Innovator Awards that you have in your office that we 
provided some money last year for that, $56 million, that goes 
to new investigators. We included $108 million for the program 
in our next bill--will that be enough to support the New 
Investigators Award System? Is this part of bringing, getting 
these new people in, and getting them started?
    Dr. Zerhouni. Right, so this is a stop-gap that we have to 
use, because what my main concern is--and my colleagues know 
that--is that if you do the projections, and if you don't fund 
enough scientists today, you won't have them 10, 15 years from 
now.
    So, what we've done--with a lot of hardship--is to shift 
money into young investigators, new investigators. This needs 
to continue.
    New Innovators was addressing two goals: one is that, once 
success rates go down, people become very conservative. They 
don't take chances, they don't take risk into new areas of 
research, they want to be sure. So, we wanted to encourage 
risk-taking, and encourage new entrants to come in--that's what 
the New Innovators Awards do.
    Our data shows that we really need to fund something around 
3,000 new scientists a year to enter NIH. Right now we're below 
that number, and ideally that would be the goal that we have to 
have--no matter what the budget does--we need to encourage 
risk-taking, new ideas, innovation, and new investigators.

                    FUTURE OF HUMAN GENOME RESEARCH

    Senator Harkin. Thank you, Dr. Zerhouni.
    I have questions for all of the panelists, I just have one 
more question and then I will yield to my colleagues that are 
here.
    Dr. Collins, obviously the presentation this morning that 
Dr. Zerhouni made is right up your alley. I guess what I'd like 
to ask you about is again, talk about the future. We've mapped 
and sequenced the genome, we've now made all these discoveries 
in terms of the clues--where we do go from here with the Human 
Genome Project or with the Human Genome Institute? Where do we 
go from here with that? Tell me about the 1000 Genomes Project, 
and what that might mean? Are you supportive of that, is that 
something that we should be looking at, and trying to support, 
the 1,000 people that they want to do that on?
    Dr. Collins. Thank you, Senator. It is my last appearance, 
officially, as a Government employee in front of this 
committee, and I would like to express my sincere thanks to 
you, and to Senator Specter, and to the whole subcommittee for 
their consistent support and interest in what NIH is doing.
    I certainly remember when I first came here 15 years ago, 
there was a lot of skepticism about whether the Human Genome 
Project had any chance of succeeding, and it was your support, 
and that of others Members of the Congress, that saw us through 
some challenging times, where the technology had to be 
invented, and people had to be recruited, and a lot of 
milestones had to be achieved, and the celebration of the 
accomplishment of those goals in April 2003 is very much a 
testimony to this Congress and to their vision for supporting 
this.
    Personally, I want to say thank you to you, for all the 
wonderful conversations we've had through the years about this.
    It is a glorious time in genome research, as Dr. Zerhouni's 
testimony indicated. I've just counted up the number of 
projects that my Institute is currently managing, going--
building on the foundation of having the human genome 
sequence--there are 19 of them. These are all focused on 
specific ways in which we can learn from that instruction book, 
how it operates, and how glitches in the instruction book, our 
genome, can lead to health or disease.
    We are learning a prodigious amount every day. I can tell 
you, however, that none of those 19 projects are going as 
rapidly as they could--we are constrained, and not by talent, 
not by ideas, not by opportunities, but very much by the 
budgetary abilities that we have to expand on these projects. 
That is, of course, for me a source of some frustration.
    The 1000 Genomes Project is one of those--this is an 
international effort, just as many of the genome projects have 
been. It's rather amazing to be able to say that the people 
were skeptical about whether we'd ever sequence one genome, 
we're now proposing to sequence 1,000 of those, derived from 
DNA samples from individuals in Europe, and Asia, and Africa, 
and to have that done in the next 2\1/2\ years.
    We're doing this in collaboration with England and China, 
and we're already deep into a pilot project which in its first 
3 months of effort generated more DNA sequence data than has 
ever been generated in the history of the planet, so we're 
really producing a vast amount of interesting information 
that's laying out this catalog of human variation at a level of 
detail not previously imagined possible.
    It's going to teach us a lot about how it is that DNA 
variation plays a role, and who's at risk for what, and that's 
just one of these 19 projects.
    There more that we could be doing, if you'll give me just a 
moment, I'd like to mention two.

                         GENES AND ENVIRONMENT

    One of the things we really need to understand more about, 
of course, is how the genetic risk factors interact with the 
environment.
    All of those banners on the diagram that Dr. Zerhouni 
showed--which are enormously exciting advances, figuring out 
risk factors for diabetes and heart disease and cancer and 
asthma--those are, of course, inherited risk factors that 
you're not going to be able to change in the people who have 
them. But it is an interaction between those genetic risks and 
environmental exposures, such as diet, and lifestyle and 
medical surveillance and whatever's in the air and the water, 
that determines whether somebody is going to get sick, or not. 
We could modify those things, if we understood exactly who's at 
risk, and we could focus on that, in an individualized way. 
That's what personalized medicine is all about.
    But, collecting that data is not trivial. A dream that I've 
had for the last 4 years, but haven't been able to get off the 
ground in the current budget climate, is to have a national 
study of health and disease, collecting information on, 
perhaps, half a million volunteers from across the country, who 
would basically agree to have their environmental exposures 
studied, as well as their medical conditions, and their DNA. If 
we put that all together, in an organized effort with access to 
qualified investigators, we would finally, really have a 
rigorous way of understanding this.
    You could call this the American Genes and Environment 
Study, or AGES, some of us have done that. We've organized a 
group of more than 60 scientists to think about how to put this 
together. I have yet to meet somebody who doesn't think this 
would be an enormously exciting project to undertake, but it's 
expensive. It's genome project-like in its budget, and at the 
present time it's been hard to get it off the ground.

                      RARE AND NEGLECTED DISEASES

    That's one. Another one, which I'm enormously excited and 
optimistic about, is to take the discoveries that we are making 
about the causes of where neglected diseases, where we are 
making great progress and really, in a very intentional way, 
translate those into treatments.
    The NIH has made major investments, particularly through 
the Roadmap that Dr. Zerhouni has so effectively championed, to 
put us in the position to do that, and we have many other 
pieces in place, to take a discovery about a rare disease, and 
lead it all the way to a clinical trial. In a circumstance 
where the private sector, understandably, is not going to be 
very interested in investing, because the market size is going 
to be quite small. We are only missing on, sort of, major piece 
here, and an initiative to fill in what's called the Valley of 
Death, between when you have a promising lead compound, and 
when you have something you could actually contemplate putting 
into a patient is something I would be enormously excited 
about.
    We couldn't have really done that 4 or 5 years ago, but we 
could now. With an infusion of just the right amount of 
support, I think this is something that we've underlined what 
we're really about at NIH, which is trying to find cures. Yes, 
we do great basic science, and we're proud of that, but our 
goal--as yours--is to take that to the clinic, and do something 
for patients.

                          BUDGETARY CHALLENGES

    So, I'm excited about all of those things, but again, being 
my final hearing, I guess I could speak about as bluntly as 
anybody at the table--I am very concerned about whether we will 
achieve those kinds of optimistic outcomes, if we can't turn 
the corner on what has been a very difficult 5 years.
    It's been my most difficult 5 years, having to turn away 
young investigators--some of whom have gone away and won't come 
back--they've given up. Having seen the way which science that 
could have gone forward, has been blunted by the inopportunity 
to jump in and provide those kinds of supports. Having seen a 
delay in the health benefits that we are all dedicated to 
achieving, being slowed down by the inability to push forward 
agendas which, scientifically, are very exciting, but we just 
can't do it with the current support.
    Frankly--as we're also worried about our economic 
circumstances, seeing how an investment by NIH which various 
studies have indicated, pays back somewhere between two and 
seven-fold--isn't happening, either out there in our country, 
which is where most of our money goes.
    Frankly also, as somebody who's worked in the international 
community, as I've had the pleasure of doing, I'm seeing our 
leadership on many of these projects eroded by the fact that 
NIH is not keeping up with what's happening in other countries, 
including England, and China, and India and that can't be a 
good thing for our country.
    So, I appreciate what you and Senator Specter are doing in 
this hearing, to highlight the importance of maintaining that 
kind of support, and perhaps, catching up from what has been a 
pretty difficult half a decade. If we could turn that corner, 
keep our investigators who are just on the edge of giving up, 
inspired that they could actually make a contribution, then I 
think we could recover a lot of what we're in danger of losing.
    Thank you for the extra minutes you gave me to answer that 
question.
    Senator Harkin. Dr. Collins, thank you very much. Again, 
for the benefit of members of the subcommittee and perhaps some 
of the public who may not know these figures, when Dr. Collins 
took over the Human Genome Project in 1993, I can remember the 
hearings at that time when I was Chair at that time, and the 
estimate was that it would take us 15 years, and over $3 
billion to map and sequence the human genome. But we did it in 
10 years, basically--there's a few little holes that were left 
over--but basically 10 years, and less than about $2.6, $2.7 
billion.
    Now, that's important, but there's one other thing that's 
very important, that I think members ought to know. That it was 
about that time, about right around 1993, 1994, when there were 
moves made to take this from the public sector and put it in 
the private sector. That the Human Genome Project would better 
be done in the private sector, rather than the public sector. 
There was quite a battle about that at that time, and I can 
remember, people said, ``Why should we be investing, why should 
we be investing public money in this when the private sector 
can do it?''
    Dr. Collins was very eloquent at that time, and very 
forceful, in telling us that, no, this belongs in the public 
sector. This basic research ought to be available to everyone, 
and if it's in the private sector, of course, there would be 
patents and holds and all kinds of things on some of the basic 
research, and that's not where it should be held.
    So, again, Dr. Collins, we owe you a great debt in being so 
forceful at that time and convincing us that this should remain 
in the public sector, because right now, because of this--a 
researcher anywhere in the world can get data from the Human 
Genome Project and further that research on.
    To me, this again is a legacy that is almost incomparable 
in some ways. I think that the fact that we kept this in the 
public sector, again, is going to serve us well, not today but 
also in the future just making sure that everyone has access to 
it, and no one has to pay a single dime to get that 
information.
    So, with that, again, Dr. Collins, thank you for your great 
service in that regard. I would yield now, to Senator Specter, 
of course, who just came back.

                          COST TO CURE CANCER

    Senator Specter. Well, thank you, Mr. Chairman.
    I've been dealing with you, Dr. Niederhuber on the cancer 
issue. President Nixon made his famous declaration in 1970 on a 
war against cancer, and I do believe that had that war been 
pursued with the same intensity as other wars, many of us 
wouldn't have contracted cancer.
    We've asked for a projection as to what it would cost to 
``cure'' cancer, and I put cure in quotation marks, because 
absolutes are understandably impossible, but were we to make a 
major frontal assault, and you come back with a figure of $335 
billion over the next 15 years.
    What are the realities as to how far we can go on attaining 
the goal of a cure? We know that there are many, many strains. 
There's been an enormous amount of research, there's been an 
enormous amount of progress. Talking to Senator Lindsay Graham 
about his mother who had Hodgkin's years ago--very, very 
different world from the really complex regimen that I had--am 
having, really--on chemotherapy. So, what is the reality? How 
close could he have come to a ``cure''?
    Dr. Niederhuber. Senator, you always ask the tough 
question.
    First of all, I'd like to say a word of congratulations to 
you for finishing your 12th cycle of chemotherapy. I suspect no 
one in the room knows, perhaps, better than I do, how difficult 
it is to go through these cycles of chemotherapy.
    So, you're to be congratulated.
    Senator Specter. Thank you.
    Dr. Niederhuber. I talked to a friend of ours at the 
University of Pennsylvania just a couple of days ago, and he 
also lauds how you've been able to do this, and do it without 
missing a minute of work. So, you're to be congratulated.
    Cancer is, as you mentioned, is many, many diseases. Maybe 
more than 1,000 diseases. As we get to understand the genetic 
differences--the genetic differences in breast cancer, the 
genetic differences in colon cancer--and how those genetic 
differences, as Dr. Zerhouni so eloquently pointed out, affect 
a network within the cell. How those cells interact--not just 
within the cancer, but how those cells interact with the so-
called normal cells in which that cancer lives. It's a very 
complex, and very dynamic process.
    I can't tell you how many years it will take to cure, or to 
make this disease much more of a chronic set of diseases that 
we can live with, that we can prevent--that's obviously our 
goal--that we can understand who's at risk from the genetic 
kinds of analysis that we can do on individuals, and can take 
measures.
    Senator Specter. Well, how far will $335 billion take us 
over 15 years?
    Dr. Niederhuber. I think it will take us a long way.
    Senator Specter. Because if you can quantify it, in some 
way, I think this subcommittee can take the lead in finding you 
the money, somehow.
    Dr. Niederhuber. What I did when I understood your asking 
that question and seeking advice from some of the communities, 
the cancer communities, the different organizations in the 
country, who also then came to me and asked for my opinion on 
this was to put together a team at NCI to think strategically 
about the various investments we're currently making, and what 
the opportunities for expanding those investments would be in 
the future.
    We've, I think, prepared--or are in the process of 
preparing--what might be considered, I believe, a realistic, 
but well-thought out, and I would say, forward-looking business 
plan for the future. I'd be happy to----
    Senator Specter. You've given us a timetable of 15 years, 
and you've given us a figure, $335 billion. I've only got 8 
seconds left, although once the light goes on, you can still 
talk.
    Senator Harkin. Take more time.
    Senator Specter. I haven't gotten to the question yet--
where are we, how close to a cure?
    Dr. Niederhuber. I know it's a very difficult question and 
I'm not sure that I can give you a figure. We've felt that if 
we could add to the NCI budget $2 billion a year, each year for 
the next 5 years, that that would go a long way toward helping 
us build capacity within our country, in terms of attracting 
young people, attracting disciplines that haven't previously 
worked on cancer, to work on cancer.
    I just attended a meeting that I sponsored, Monday and 
Tuesday, at which we brought together physicists, 
mathematicians, individuals who work on evolutionary biology--
individuals who haven't worked in the field of cancer before. 
We had a 2-day meeting to brainstorm how these individuals 
might bring a different set of eyes, if you will, and a 
different set of thinking toward the magnitude of the problem 
that we face in cancer.
    It was a very exciting meeting. I learned a lot from 
listening to those individuals, I think, that will greatly 
shape the future.
    But, I think one of the things that came out of that 
meeting, Senator, was again what Dr. Collins said--that we, as 
a country, need to significantly invest in bringing bright, 
young people into the biological sciences, especially into 
cancer, and to create a capacity for us to be able to invest 
the resources of our country in this science. If we don't build 
that infrastructure and build that capacity, then it doesn't 
make any difference how much money we have. We have to have 
bright young people, we have to have people to work on the 
problem.
    So, the first challenge, I think, for us at NCI is to 
increase our investment in attracting people to work on this 
particular problem.
    I also think that we have a very real need to invest in 
retooling or re-engineering our clinical trial infrastructure. 
If we're going to take the steps forward that Dr. Collins has 
so eloquently talked about, and do drug discovery, and highly 
personalized characterization of each patient and their cancer, 
and match that with solutions of treatment, that's going to 
require different clinical trial structure than we currently 
have.
    We worked, on July 1 and 2, with the National Institute of 
Medicine, at a 2-day symposium to talk about these issues about 
re-engineering the clinical trial structure. Again, that will 
take a significant amount of investment, financial investment, 
in order to retool that, re-engineer that, so that we can work 
effectively in the new era.
    Senator Specter. Well, I won't ask another question, 
because others are waiting to question. But, when you talk 
about attracting the scientists, working with $335 billion, you 
can attract scientists. You talk about retooling clinical 
science, clinical tests, $335 billion will allow you to retool.
    I know the questions are difficult, perhaps impossible, but 
we need to have, you know, the best professional judgment, 
because to sell that kind of money to the Congress is going to 
require something that we can put our hands around. When you 
get into the appropriations room, you have to have something 
more specific to pull out those big dollars.
    Thank you, Mr. Chairman.
    Senator Harkin. Thank you, Senator Specter.
    Senator Durbin.

                   NIH FUNDING AND SETTING PRIORITIES

    Senator Durbin. Thank you very much.
    I want to just show a chart here, if I can, which is 
probably familiar to you, it may have been produced by some of 
you, and it shows the actual appropriations on the yellow bars, 
since fiscal year 2003 through fiscal year 2009 and the 
purchasing power at NIH that came from those appropriations.
    It shows two things--first, that the amount that has been 
appropriated by Congress has not kept up with the inflation 
that you face, and so the actual amount available for medical 
research and all of your other endeavors has actually declined 
during these years.
    The second point it makes is the administration and 
Congress made conscious decisions during this period of time to 
initiate a war that costs $15 billion a month, and to give tax 
cuts to the wealthiest people in America, so there were fewer 
dollars available for domestic discretionary spending, as a 
result of those two major policy decisions.
    In that backdrop, I'd like to ask you to address one 
general question. I have a chart here--you're undoubtedly 
familiar with it, which shows the funding at each Institute at 
the National Institute of Health during this same period of 
time, and in fact, it goes back a little further in time, to 
1998.
    Until 2003, the amount of money to each one of the 
Institutes that you're in charge of was growing, and this was 
because of the commitment to double the medical research, and 
then comes that year--as evidenced on the other chart, it 
started to flatten out, and decline, and that shows the way 
that that's headed.
    My question is fairly general--I started by saying that 
it's not uncommon for Members of the Senate to be visited by 
people from our States who have members of their family who are 
suffering from a disease--a wide spectrum of diseases. Without 
fail, they all ask us for more funding for medical research for 
the disease that affects someone they love.
    They all argue that not enough money is going to that 
research, that field of research. I kind of took the position 
long ago--rightly or wrongly--I couldn't decide, I'm a liberal 
arts lawyer, what do I know about where the money ought to go? 
I said, I'm just going to give the NIH as much money as I can 
in the aggregate, and I hope they'll make the right decision.
    It turns out that was a probably incorrect, if not 
simplistic answer. We do fund the Institutes. We really, kind 
of, decide at the congressional level, how much money will go 
to each Institute. There are winners and losers in that 
process.
    So, when the family with a child--an autistic child--comes 
to see me, and says, ``You're not spending enough money on 
autism. Don't you know, Senator, that 1 out of every 150 kids 
in America has this disorder?''
    In my State, in the last 10 years, there's been a 353 
percent increase in the diagnosis of autism, and of course, the 
costs are unimaginable for these children, and their care 
throughout their entire lives.
    So, my first question--fairly simple question--but maybe 
not easy to answer. If we gave you $30 billion, and didn't have 
any strings attached, what would be the difference in this 
chart? Do we make choices--political choices--on Institutes, 
which you as researchers and doctors, step back from and say, 
``That isn't where I'd spend the money.''
    Dr. Zerhouni. This is a great question, this is a question 
I face all the time, personally. I know, over the past 5 years, 
I can tell you, there's no tears left in my lachrymal glands 
about how you make those decisions.
    That's the important question, but it's not true that all 
of the money, when it doubled, went into the same things 
without any change or any decisions. Actually, if you look at 
the topics that NIH has, over a period of 10 years, for 
example, 50 percent of the efforts that we make in any one 
area, turn over in about 8 years.

                                GENOMICS

    So, although NIH, you have a $30 billion budget, and you 
see these budgets, what's underneath these curves, is very 
different. For example, if you look at the efforts that are 
done in genomics, those didn't exist 10 years ago across all of 
the Institutes. Every single Institute here, I will tell you, 
spent 5, 10 percent of its dollars on these genomic studies, 
which were not done 10 years ago. Bio-computing--if you look at 
their basis--are available for bio-computing, for doing 
research on every disease--autism included, or any other 
diseases, these were not there 10 years ago.
    We just developed, for example, through Roadmap, a Chemical 
Genomics Center. That center, that Dr. Francis Collins 
reflected about, can perform, in 2 days, 1.5 million tests. 
This is the equivalent of what it would have taken a scientific 
group to do in 15 years.
    So, there are things that you change, the process that you 
have to really engage into is an open, transparent, portfolio 
analysis process, which we do.
    Senator Durbin. I'm running out of time. Maybe it will take 
you a moment, maybe you can't answer this. But, if we gave you 
$30 billion, with no strings attached, would this look the 
same?
    Dr. Zerhouni. No, absolutely not. It never looks the same, 
from year to year--even between 2003 and today.

                              NIH FUNDING

    Senator Durbin. My point is, are we pushing allocating, 
politically, on our end of it, research into areas that you 
think are not the best expenditure of limited tax dollars?
    Dr. Zerhouni. I would say that this is not an issue, in the 
aggregate. Frankly, Congress expresses priorities, we have an 
independent peer-review process which we absolutely cherish, 
because it is the process by which we go into scientific 
opportunity.
    So, I think what is important, however, is that without the 
dollars, you tend to have to make choices that sustain what you 
have, and do not allow you to be as risk-taking as you would, 
otherwise.

                            DISEASE FUNDING

    Senator Durbin. Mr. Chairman, can I ask one last question?
    Senator Harkin. Sure.
    Senator Durbin. Would you address this issue of autism? I 
know there have been so many theories----
    Dr. Zerhouni. Right.
    Senator Durbin. The parents that come see us share 
compelling stories about what they're dealing with, and arguing 
that we're not putting in the adequate money into research into 
this disease.
    Dr. Zerhouni. Autism is one of the most important and 
greatest concerns that I have, as well as my colleagues, in 
particular, National Institute of Mental Health, Dr. Insel.
    As you know, we have put an Inter-agency Committee on 
Autism, that is coming up with a strategic plan--that is how 
we're going to drive, essentially, the investments in autism, 
we're funding more centers; you just heard about a study that 
came out last week about the first really important discoveries 
in terms of the genetics of autism. I think it's advancing, 
it's progressing.
    Could I use twice the money? Absolutely, I could. But I 
have other competing priorities, too.
    Senator Durbin. Thanks, Mr. Chairman.
    Senator Harkin. Thank you.
    Senator Murray.

                         TRAUMATIC BRAIN INJURY

    Senator Murray. Well, thank you very much, Mr. Chairman, 
and thank you for an excellent presentation. I really 
appreciate the tremendous work that all of you do.
    You focused a lot on diseases--one of the, kind of the 
other side of the picture that I've been looking at as a member 
of the Veterans' Committee and working with returning soldiers 
on traumatic brain injuries and post-traumatic stress syndrome, 
and the growing number of men and women that are dealing with 
that, and the broader picture across America of neurological 
disease and disorders, and injuries and was surprised to learn 
that nearly 100 million Americans are affected by that, and the 
huge impact on people's health and our economy--I think it's $1 
trillion that's being spent on neurological illnesses, the 
long-term impacts of that. Can you talk to me a little bit 
about what NIH is doing in a coordinated neurotechnology 
research, and what we can expect?
    Dr. Zerhouni. In terms of traumatic brain injuries, we have 
really increased our investment--it's about $87 million a year 
now, as compared to a few million just a few years ago, 
primarily because of the issues--fundamental issues, related to 
our understanding of traumatic brain injury in the context of 
conflict, and the Iraq war, in particular.
    In terms of injuries, generally, when you look at all sorts 
of injuries, we spend about $17 million, understanding musculo-
scalpal injury, and all types of injuries. However, at this 
moment, this is not the only focus we have.
    In collaboration with the Department of Defense, we have 
mounted an initiative in trying to understand both traumatic 
injury at the fundamental level, and post-traumatic stress 
disorder.
    Now, when you really look at the impact of post-traumatic 
stress disorder and our understanding of it, you realize that 
this is going to require a response that is not just affecting 
the individual that is affected by PTSD, but the family around 
the individual, the community around the individual, and we do 
have to have a proactive response, because there are 1.7 
million service members that have served in Iraq, and about 15 
percent of those suffer from PTSD, a major public health issue, 
that will require full spectrum.
    We do the research; we're collaborating with the Armed 
Services today on a $70 million joint project to create, in 
fact, the ability to diagnose PTSD very reliably. Then, with 
the Department of Defense, we're working on a project that will 
create community centers, so that we can, in fact, detect and 
manage that on the ground.
    Senator Murray. So, we can expect to see a coordinated, 
solid look at this?
    Dr. Zerhouni. Actually, you know, it's interesting--we have 
never been more coordinated than on this issue, across 
agencies, including DOD, VA, NIH, CDC, all of us.

                       PANCREATIC CANCER RESEARCH

    Senator Murray. Fantastic. Thank you, I appreciate that.
    On another question, Senator Durbin mentioned we have 
constituents who come to us--one of the groups that I'm hearing 
a lot from is the pancreatic cancer groups, they are very 
concerned. They know that NCI developed, I think it was 39 
recommendations for pancreatic research back in 2001, and only 
5 of those are being implemented. Can someone give me an update 
on where we are with pancreatic research? There's a growing 
trend of that.
    Dr. Niederhuber. Well, we're continuing to increase our 
incentives to the research community but trying to write 
specific RFA grant applications or opportunities. We continue 
to support, through the SPORE program, our Specialized Program 
of Research Excellence, which is focused on translational 
research.
    So, I think we can continue to put resources on the table 
and ask for applications due to increased interest.
    The second, and probably more stimulatory work is our whole 
genome scanning. We are actually looking at pancreas, in large 
cohorts, and one of the organ sites to try to determine, if we 
can, what regions in the genome might predict risk for 
developing pancreatic cancer.
    Senator Murray. So, there's a lot of potential at that 
point?
    Dr. Niederhuber. So, there's a lot of potential to inform 
that. We hope, too, that the TCGA pilot project will eventually 
get expanded to other tumors--pancreas would certainly one of 
those that we'd be very, very interested in doing, as that 
pilot project is proving very successful.

            HIV/AIDS VACCINE TRIALS NETWORK LIABILITY ISSUES

    Senator Murray. Thank you very much, I appreciate that.
    Dr. Fauci, while you're in front of me, as you well know, 
Fred Hutchinson Cancer Research Center in my home State is 
working with the NIH to administer the HIV/AIDS vaccine trials 
network, and it's inherently a Government function, they are 
doing the research on it, and they're very concerned about 
being sued for damages, and the issue of liability is really 
threatening them. Can you tell me, is there any update on that?
    Dr. Fauci. We've been working very closely with the 
officials, at the Institute, at the University of Washington, 
particularly at the Fred Hutchinson Cancer Research Center (the 
Hutch), because as you know--and for those who are not aware of 
it--the data center for our vast vaccine trials network is 
centered at the Hutch, with Dr. Lawrence Corey being the 
principal investigator.
    The issue is the concern that of, in fact, there is a suit 
against an adverse event that might occur somewhere far distant 
to the Hutch, what would that mean with regard to the liability 
and the vulnerability of the Institution for being funded? So, 
we're working very closely with the officials from the Hutch, 
together with members of the Department of Health and Human 
Services to figure out if we can evoke some of the existing 
authorities to help cover.
    The idea of insurance itself--they have plenty of insurance 
there, but they're afraid that if it's a massive suit, that 
they would not be able to cover that. So, we really--
literally--on a weekly and monthly basis, are trying to work 
something. I know officials have met with me, with people from 
Dr. Zerhouni's office, and himself, as well as with people at 
the Department of Health and Human Services, Secretary Levitt's 
staff--so we're actively on that. I do hope, and feel 
optimistic that we'll come to some sort of resolution, so that 
we can continue without the anxiety of liability.
    Senator Murray. I really--this is really incredibly 
important research that they're doing, I would hate to see it 
halted or slowed down as a result of the liability issues.
    Dr. Fauci. We agree with you completely, Senator.
    Senator Murray. Okay, thank you very much. I appreciate it.
    Thank you, Mr. Chairman.
    Senator Harkin. Thank you, Senator Murray.
    Senator Cochran.

                           OBESITY CHALLENGES

    Senator Cochran. Mr. Chairman, thank you very much.
    Dr. Nabel, I'm advised that since the early 1990s, the 
obesity rate has increased by 33 percent, resulting in serious 
health consequences for over 60 million people.
    Ten years ago, there were guidelines that NIH issues, 
regarding overweight and obese challenges, and physicians have 
been relying on those guidelines for 10 years. Is it time that 
we updated the guidelines? Or does your Institute, or others, 
have specific plans to deal with the challenges that this 
problem presents?
    Dr. Nabel. Senator Cochran, that's an excellent question 
and you importantly highlight the grave importance of 
overweight and obesity in our country, particularly among young 
people, and we're very, very concerned.
    The answer is yes--we're in the process right now, the 
National Heart, Lung, and Blood Institute--is in the process 
right now, in collaboration with our partners, the American 
Heart Association, and the American College of Cardiology, to 
update our obesity guidelines. We will have those available 
soon for adults, and importantly, for children, as well. A very 
important task is to get those guidelines implemented into 
clinical practice.

                       CARDIOVASCULAR GUIDELINES

    Another task that we are--have embarked on, Senator 
Cochran--is to develop a set of integrated cardiovascular 
guidelines. In the past, we've had guidelines for blood 
pressure, for cholesterol, for obesity, and it's really time we 
begin to integrate those.
    So, we started down that road, we're using a web-based 
tool, because we know most people, now, get their information 
through the Internet--we want this to be a consumer-driven 
project, again, in partnership with the Heart Association, the 
College of Cardiology.
    We're hoping that this is a tool by which people can 
understand their composite risk for heart disease and obesity, 
given all of these individual risk factors.
    So, the answer is yes, sir, we're working very hard at it.
    Senator Cochran. I know one other area that you're familiar 
with is the Jackson Heart Study, based in Jackson, Mississippi, 
named for the city, to try to improve our screening and 
knowledge of heart disease and things that can be done--
societal changes, diet, exercise, the like--to more 
successfully deal with that problem. What is the status of that 
project, and is there a continuing need for funding for this 
review that's being undertaken?
    Dr. Nabel. Well, thank you very much, Senator. I want to 
personally thank you for the time and attention that you have 
brought to the Jackson Heart Study. You know that it's a very, 
very important project to us at the National Heart, Lung, and 
Blood Institute, and we have worked collaboratively with you, 
and your office, as well as individuals at the University of 
Mississippi, Jackson State, and other institutions in 
Mississippi to bring this to fruition.
    We have a lifetime commitment to this project. We believe 
that this project is so important, in terms of understanding 
the origins and the development and the treatment of heart 
disease in African-Americans in this country--it's critically 
important to us, as a Nation, and we will stay steadfastly 
committed to it.

                       ADDITIONAL FUNDING FOR NIH

    Senator Cochran. Dr. Zerhouni, we're really pleased that 
the committee is moving to increase the appropriations for NIH, 
and I'm not going to make any predictions before we get through 
our work, but I think there is a consensus in this committee to 
do just that. What would an additional $1 billion increase do 
in terms of practical consequences at NIH in what you're able 
to accomplish?
    Dr. Zerhouni. You said $1 billion?
    Senator Cochran. Yes.
    Dr. Zerhouni. Okay. If I had my choice, the first thing I 
would do, is I would really fund and protect the next 
generation of scientists. I would create a lock box within the 
budget, and say, we need to absolutely fund the next 
generation, and it has to be that number, and come hell or high 
water, we will fund them. So, the first thing is protect that 
future of protectors, who are going to follow these clues--if 
you don't have them, you don't have a research enterprise. 
That's number one.
    The second is to address what I think are important 
resources across the entire Nation that are absolutely needed 
to conduct clinical trials, they are like what Dr. Niederhuber 
was talking about--to do, and you want to conduct research--we 
have to have the physical resources to do that, and to allow 
laboratory tests, to allow screening, for example, of millions 
of compounds, when we have a lead, or a target.
    Dr. Collins was talking about the investment we made 
through the Roadmap through chemical genomics. With the 
robotics technology that we've implemented at NIH, we can do 
1.5 million tests in a day and a half. Well, you couldn't do 
that 5 years ago. That's what I would like to expand, so that 
more people have that availability.
    The third investment that I would make is engage the 
community of scientists in more integrative science. Work 
across disciplines, fund them so that at the end of the day, 
they can coordinate their work to address problems that, as I 
said in my opening statement, tend to be very complex, and they 
require the collaboration of physicists, mathematicians, 
biologists, doctors and nurses, endopediologists--all of these 
need to be able to work together. It's not so easy to do when 
you don't have the dollars to sustain that infrastructure.
    So, the third point--$1 billion won't be enough, actually, 
to do all this--is absolutely continue to encourage 
innovation--breakthrough innovation. Encourage people like the 
Pioneer Award, the New Innovator Awards, and we are launching a 
new program called Transformative R01s--we are doing it, but 
it's just not enough. We absolutely need to tell people, ``It 
is the best place to do research, America is the best place to 
do research, and we will actually give you the freedom to 
explore ideas that have been knocked out through, by all of us 
here today.''
    Those three things--young investigators, infrastructure to 
conduct better research with better resources at a faster pace, 
and give the leeway, the freedom for people to explore new 
avenues that we may not be exploring today.
    Senator Cochran. Thank you very much, thank you for your 
leadership, all of you.
    Dr. Collins, best wishes to you, as you move onto other 
interests and pursuits, thank you for your service.

                 PANDEMIC INFLUENZA VACCINE DEVELOPMENT

    Senator Harkin. Thank you, Dr. Zerhouni, for that last 
answer to that question, I thought that really laid it out, 
where we ought to be headed.
    Dr. Fauci, let me pick up with you, here, on pandemic flu. 
It's sort of, you know, we've had hearings with you in the past 
on this, and talked about the threats of pandemic flu. It's 
sort of, somehow faded to the background, although things that 
I read about and keep up on indicate that the threat is still 
there, as real as it ever has been.
    We've been trying to develop vaccines, and to--develop, I 
should say, develop systems for developing vaccines--that can 
respond to whatever the strain is that might be the outbreak.
    Most of it's been egg-based in the past, we know that takes 
a long time, and then we went into cell-based, but that still 
takes a few months, several months, to develop the amount of 
vaccines that we need. I keep hearing about other kinds of ways 
of developing vaccines in a more rapid manner, I'm not--I can't 
speak about them, I don't know much about them, and so my 
question is, what's happening with--in your shop--in systems 
developments so, to respond to a pandemic flu outbreak? To get 
the vaccines made as rapidly as possible?
    Dr. Fauci. Well, thank you for that question. Just because 
Mr. Chairman, as you well know better than anybody--just 
because something is not on the front pages anymore, that 
doesn't mean that it's not an important issue.
    So, there are two parts to your question that I can answer 
very briefly and succinctly. First, where do we stand with 
regard to a potential pandemic flu? That's not gotten a lot of 
press lately.
    Number two, what about the investments that we spoke about 
at several committee hearings that you had, that I discussed 
with you at an official hearing and in private, about some of 
the systems involved, and some of our previous lack of ability 
to scale up manufacturing of vaccines, and surge, if, in fact, 
we have the unfortunate event of a transition from an endemic 
virus that still currently is in chickens. H5NI is still 
killing a lot of chickens, in Southeast Asia, and occasionally 
we see a burst of a transmission in a particular region, with 
culling of the chickens, and then it dies down.
    The numbers now, we have about 385 human cases, 243 deaths 
as of yesterday, which gives you a sense of how the threat of 
the pandemic is emerging. That means it's smoldering, it has 
not gone away.
    What have we done from a scientific standpoint? There have 
been major advances that I welcome the opportunity and thank 
you for asking the question about, with regard to some of the 
things that we set into play a year, 2, or 3 years ago. There's 
been a significant amount of movement now by several companies 
to varying proportions, away from egg-based, more toward cell-
based, vaccine manufacturing which gives a considerable degree 
of flexibility, number one.
    Number three, and I think to myself as a scientist, this is 
perhaps the most exciting--as I mentioned to you previously, 
about a year or so ago, there is great potential for the use of 
adjuvants. As you know, an adjuvant is a compound that you give 
together with the main component of a vaccine, that we call the 
immunogen, and it has the capability of doing two things.
    It allows you to get an amplification of effect with a 
lesser dose; this is critical to stockpiling.
    Number four, and we didn't know this for sure, but we've 
seen it in a number of other studies, is that it broadens the 
breadth of the response, which means, critically, that if we're 
looking at a vaccine that's circulating in Southeast Asia now, 
and we make a vaccine from that virus, there's always the 
possibility, if not the likelihood, that if it evolves to now 
become very efficient in going from human to human, if we 
stockpile that particular virus vaccine, we're going to have to 
change it--perhaps significantly--to keep up with the evolving 
strain.
    What we have found out in three or four separate studies, 
conducted either by ourselves or together with pharmaceutical 
companies, or by pharmaceutical companies alone, is that the 
use of adjuvants has now dramatically increased our capability 
of scaling up.
    So, what was formerly the famous 90 micrograms times two 
that I told you about several times, we can get down, now, to 
7.5 micrograms, or 3.75 micrograms, times two.
    And then, the final part of that is that much to our--I 
wouldn't say surprise, because I would like to have predicted--
but much to our gratification, the response to a strain that's 
an Indonesian strain, when you vaccinate you get cross 
reactivity now, to some of the evolving strains. So, this 
really is very good news for the ability to scale up, and in 
fact, have a stockpile that would be more than just a stop-gap, 
but would actually, might afford this broader cross-protection.
    So, again, though it hasn't been highly publicized, I think 
the news is all gradually heading in the right direction.

               MOLECULAR ADVANCES IN VACCINE DEVELOPMENT

    Senator Harkin. Is there something besides cell-based 
developments that's going on?
    Dr. Fauci. There's the whole issue of the molecular-
biological approach, because the standard vaccinology is, you 
get the virus itself, whether you grow it in eggs, or you grow 
it in cells, it's still the virus itself, and then you purify 
it, spin it down, get the right components of it. That's 
standard, classical vaccinology.
    We're moving to what we call the 21st century vaccinology, 
which means you can, for example, take DNA, and insert into 
that the coding elements for a particular, specific protein, in 
this case with influenza, it would be the hemagglutinin, or the 
neuraminidase, or the M-Protein, and if successful, you can 
make an unlimited amount by the production using what we know 
from decades of experience with molecular biology, and 
recombinant DNA technology. We're starting to see that, right 
now, evolve and replace the standard vaccinology.
    Dr. Zerhouni reminded me of a question that you didn't ask, 
but you've asked me in the past, is where we are with the 
universal vaccine, namely are we making headway in that? Some 
of the animal studies, again, are looking promising. This is 
one of those real tough nuts to crack, but I hope that at a 
future hearing, we'll be able to come to you with some real 
hard data that we've actually made progress in getting a 
product that could actually handle the drifting strains as they 
evolve from one year to another.

                         AIDS VACCINE RESEARCH

    Senator Harkin. To go from that kind of good news, and 
hopeful outlook, I now go to the AIDS vaccine.
    Dr. Fauci. Yes.
    Senator Harkin. All of the years and the money that's been 
spent on that, and the depressing news that we received 
recently, that not only is the AIDS vaccine not working, it may 
actually increase the susceptibility to AIDS. So, where are we? 
Where are we heading?
    Dr. Fauci. Well, where we're heading is a bit more back to 
the fundamental basics of asking and answering some of the 
questions that I mentioned to you and this committee years ago, 
related to the fact that HIV is really very different. In 
vaccinology, in general, when we make a vaccine, the standard 
paradigm is to make a vaccine that mimics natural infection. 
Because when all is said and done, when you're dealing with 
smallpox, when you're dealing with influenza, when you're 
dealing with polio, the body ultimately induces successfully an 
immune response, and although people get sick, and some die, at 
the end of the day, that virus, that microbe induces a response 
that completely eradicates the particular microbe from the 
body.
    So, nature is smarter than we are, so when we want to make 
a vaccine, we want to mimic natural infection.
    Senator Harkin. Yeah, I understand.
    Dr. Fauci. The problem with HIV is that the body, to our 
great dismay, does not make an adequate immune response against 
the virus, such that there are essentially no examples of a 
person who gets infected, has an established infection, and 
then eliminate the virus from the body.
    The reason is the way the virus presents itself: the body 
doesn't recognize it in the way that it induces a protective 
response. So, the failures that you've been hearing about, were 
that we were hoping that with the balance between empiricism, 
and fundamental scientific concept questions, we would be 
fortunate enough to have a situation where it would work.
    It's becoming very, very clear now, that we need to go back 
and try and make ourselves smarter than the body, namely by 
developing whatever it is that--we call it an epitope, which is 
a component of the virus--and present it to the body in a way 
that would have it induce neutralizing antibodies that would 
ultimately protect.
    So, you heard about the disappointing Merck study, it was 
called the STEP study, we were partners in that. And right now, 
we're going to very carefully go ahead and raise the bar a bit 
higher, before we go ahead into a big clinical trial, and turn 
the knob more toward asking and answering some of those 
fundamental questions.
    We actually had a very successful summit in March of this 
past year, and we gathered all of the players, and even some 
people not involved in HIV vaccines, to plot the way over the 
next several years, and that's what we're trying to do.

                      CANCER AND THE IMMUNE SYSTEM

    Senator Harkin. Thank you very much.
    Well, thank you very much, Dr. Fauci, for bringing us up on 
that.
    I have a couple of things I wanted to bring up with Dr. 
Niederhuber on cancer research.
    I wanted to get your thoughts on a researcher, you may not 
be familiar with, but I hope you will look into this. There's a 
researcher at Wake Forest that I met a few weeks ago and then 
have had some correspondence with--he recently presented a 
paper at UCLA that I heard about, his name is Jiang Cui, C-U-I, 
Dr. Jiang Cui.
    He came to my attention because it was told to me that he'd 
been bringing mice with certain immune cells that were 
resistant to cancer. That no matter how much cancer cells were 
injected into the mice, the mice never got cancer.
    Then he was taking some of these immune cells from these 
mice and putting them into other mice, and when he did that, 
those mice didn't get cancer. Well, this kind of intrigued me, 
so I met with him, he had quite an interesting laptop display 
that he showed me on this. These immune cells--he called them 
granulocytes, which I've never even heard of before.
    Now, again, this is in mice--I understand mice are 
different than humans--but as someone once said, we're about 90 
percent rat ourselves, close to that, anyway. It doesn't matter 
to just politicians, I mean all of us.
    So it's very close. So, again, it raises the possibility 
that you can use the immune system cells to boost a cancer 
patient's resistance, an ability to fight the disease. Are you 
aware of his research at all? I asked him if he'd had an NIH 
grant, he said he did, once, some time ago, but he doesn't now. 
I just wondered if you were at all familiar with his research, 
at all, at Wake Forest. If not, that's fine. I just encourage 
you to take a look at it.
    Dr. Niederhuber. I'm a little bit familiar with it, 
Senator, he has had grants--two grants, I believe, in the 
past--an R01, and then an R55 that was converted to an R01. 
Both of those lapsed and he did not come back in for additional 
funding. Both of those were in areas that weren't quite related 
to what you're describing. He does have an IND which allows him 
to do research in this area, neither using these granulocytes 
that he harvests from patients nor in mouse models.
    I would only say that I think that, as you're very much 
aware, we have probably at the NCI, and also with our 
colleagues at the NIAID, some of the best immunologists in the 
world, that are working not only on infectious disease and 
inflammation, but also on the relationship of cancer to the 
immune system.
    I know that you are very familiar with the similar work in 
what we call cell-based therapy, of Steve Rosenberg. I think 
this is probably the most exciting work in the country, or 
maybe even in the world, right now, in terms of using cells 
from our immune system, tricking them or arming them in a way 
that they can specifically attack cancer.
    So, we've very excited about the progress that Dr. 
Rosenberg has made. I think he is out in front as one of the 
real leaders in this--what I would call--cell-based therapy. 
There are certainly other workers across the country, some 
funded, some not funded, that are doing some similar things, 
but I don't think any of them at quite the sophistication of 
Dr. Rosenberg.

              CONFLICT OF INTEREST IN EXTRAMURAL RESEARCH

    Senator Harkin. I'm obviously familiar with Dr. Rosenberg's 
history and what he's been doing, but it seems to me that 
that's the area that he's sort of been involved in for a long 
time, that is, the immune system and how that relates to our 
ability to fight off cancer cells. I thought of that when I met 
Dr. Cui, I thought of Dr. Rosenberg and all the work that he'd 
done in the past on this.
    But, I would appreciate it if you'd take a look at that and 
see if there's anything different there, that what Dr. Cui is 
doing at Wake Forest.
    [The information follows:]

           Department of Health and Human Services,
  National Institutes of Health, National Cancer Institute,
                               Bethesda, Maryland, August 11, 2008.
The Honorable Tom Harkin,
United States Senate, Washington, DC.
    Dear Senator Harkin: At the, July 16 hearing to consider 
Appropriations for the National Institutes of Health (NIH), you asked 
me to look into research done by Dr. Zheng Cui at Wake Forest 
University. Several scientists at the National Cancer Institute (NCI) 
have had the opportunity to examine Dr. Cui's work which is indeed very 
interesting. In the course of routine experimentation, Dr. Cui 
discovered a single male mouse that did not develop cancer despite 
repeated infusions with increasing numbers of cancer cells known to 
cause cancer in other mice. When he bred this mouse, he found that 40 
percent of its progeny also proved resistant to cancer suggesting that 
there was an inherited genetic element to the observed resistance. 
Further experimentation has demonstrated that the immunity displayed in 
these mice is mediated by cellular elements of the immune system, 
called, as indicated at the hearing, granulocytes. The cellular 
immunity has proven to be effective against multiple types of cancer 
and has proved transferable. Injection of previously susceptible mice 
with granulocytes from resistant mice has conferred cancer resistance 
to the recipients. If the recipients already had cancer, the tumors 
regressed. Dr. Cui has not however been able to isolate the genes in 
the resistant mice responsible for this characteristic, postulating 
that this may be due to the fact that they are mobile genetic elements, 
genes that do not have a fixed location on a chromosome.
    It is unclear what experiments were done with human granulocytes to 
determine that they too displayed the cancer resistance found in the 
mice. Perhaps an in vitro assay of the ability of these immune cells to 
kill a variety cancer cells would be informative. While in vitro 
experiments might be encouraging, there is not yet reason to believe 
that granulocyte infusion from a donor would have in vivo anti-tumor 
activity and no evidence to suggest that the infused granulocytes will 
traffic to tumor sites. An additional concern is the potential risk of 
graft versus host disease which is not a concern in the experimental 
mice, but would certainly be in humans. Dr. Cui's planned trial will 
attempt to determine the risk of this complication in which donor cells 
(lymphocytes) attack healthy cells in the recipient, leading to serious 
health problems. While the trial design only calls for the infusion of 
granulocytes, there is no guarantee that all lymphocyte contamination 
would be removed.
    This approach differs somewhat from that of Dr. Steve Rosenberg. In 
Dr. Rosenberg's case, the transferred cells are lymphocytes which have 
been proven to have anti-tumor activity in vivo. In addition, Dr. 
Rosenberg's research now involves the use of the patient's own cells in 
the treatment of cancer rather than donor cells. The patient's cells 
are genetically modified outside of the body in order to increase their 
anti-tumor activity and are then infused back into the patient.
    Dr. Cui's approach, while interesting does make certain leaps of 
faith with regard to the similarities between the mouse and the human. 
The upcoming clinical trial will determine whether these leaps were 
warranted. I appreciate your interest in cancer research and am pleased 
to have the opportunity to provide this information to you.
            Sincerely,
                                 John E. Niederhuber, M.D.,
                               Director, National Cancer Institute.

    Senator Harkin. I just have one other area that I really 
wanted to cover here, Dr. Zerhouni, conflict of interest. You 
led the way on changing the rules for NIH employees. I know you 
share my concerns about conflicts of interest among extramural 
investigators, as well. We have to maintain the public's trust 
in NIH, and eliminating conflict of interest is an important 
part of that.
    I know you supported the amendment I offered in last 
month's Appropriations Committee markup to require HHS to issue 
``an advanced notice of proposed rulemaking,'' which will start 
the formal process of revising the current HHS guidelines.
    Clearly, NIH and academic institutions will have to work 
together to end the problems that we've been reading about. 
There's obviously been some correspondence from other Senators 
in this regard and some of this has made its way into the 
press.
    The HHS Inspector General recently found several problems 
with the way NIH is currently overseeing grantee institutions. 
For example, NIH couldn't provide an accurate count of the 
number of conflict of interest reports it had received. More 
importantly, the AIG found many Institutes basically take 
grantee institutions at their word, that they're following the 
regulations, rather than doing any oversight of their own.
    Again, in your opinion, what should NIH be doing to improve 
its oversight of the extramural research that's being done, and 
any problems of conflict of interest in that extramural 
activity?
    Dr. Zerhouni. As you know, the issue of conflict of 
interest has sort of grown in importance over the past 15 
years, much more so than ever in our history, simply because of 
the intertwining of industry and academia, in terms of 
marketing and understanding the proper use of drugs.
    We also need to state that there is good value to good 
interactions that are well-managed, between industry, academia, 
and Government that create public good. Many of the discoveries 
and the products that we make, come from that interaction.
    So, the real challenge, Senator, is how do you balance, the 
good--the public good--that comes in from proper, fully 
disclosed, fully understood interactions that do not--do not--
present a risk to either individuals, human subjects, or the 
risk to the objectivity of the science?
    So, we need to work together, NIH, the institutions, 
Congress, to find exactly how this needs to be put in place. 
Given the fact that the world has changed, and given the fact 
that I think our number one priority is to make sure that the 
American public who funds this research is ensured that we have 
systems in place, common standards in place, that are 
transparent that allow us to also stratify the risk.
    I don't believe there is the same degree of risk in terms 
of conflict of interest when you're talking about very early 
discovery or genetic research that doesn't have a human 
application, as opposed to a clinical trial. As opposed to 
teaching, giving opinions that are not evidence-based, or using 
scientific prestige to promote private interests.
    That gradient, if you will, that stratification, needs to 
occur. So, what I'm hoping for is that, and something I've said 
all along, is that we need to come up with a consensus about 
common standards that all institutions need to use. If you 
really look at the Inspector General report, our own analysis, 
you'll find that institutions have not yet converged toward one 
common, coherent set that we can all implement, that's number 
one.
    Number two, I think it's important to stratify the risk. I 
think it's different when you're talking about risking the life 
of someone, or imposing treatments that are not evidence-based 
on thousands of individuals, as opposed to doing good research 
that may discover the next cure for a disease.
    I think we need to understand that better, and I think the 
advanced notice of rulemaking will establish that debate, so 
that we understand that.
    Third, I believe that there is a cultural responsibility 
that is absolutely necessary for that. The first thing that has 
to happen is sunshine. So, I think I support the concept of 
sunshine in disclosing these relationships, first and foremost.
    The second step after sunshine, is to understand how you 
manage those things to, guarantee the integrity of the process. 
You can't do that, really, in my opinion, without some third 
party that will be the arbiter of this between institutions and 
the NIH.
    So, we need to think about some independent way of really 
being proactive, if you will, a sort of quality control over 
the process. It's really hard for NIH to, essentially, check 
300,000 scientists out there, We don't have to rely on some 
degree of self-regulation, self-reporting, and I think that is 
the challenge that we all face.
    We all want the same thing, which is let's not discourage 
innovation, but not at the expense of either individuals, or 
the integrity of the scientific process.

                      AAMC AND AAU RECOMMENDATIONS

    Senator Harkin. I'm assuming, Dr. Zerhouni, you would 
support the AAMC and the AAU recommendation that investigators 
should have to report all of their financial interests? 
Regardless of the amount, regardless of whether it might appear 
to be affected by their research? That's the idea of just 
sunshine, are you supporting that?
    Dr. Zerhouni. I think so. I think we need to do that and 
actually when we looked at the issue at the NIH, one of the 
problems was lack of disclosure. I mean, you can't manage 
something you don't know about, right? I mean, how do you start 
managing something when there is no disclosure requirement? I 
think that's the number one step.
    I think we also need to be very careful not to go too far 
and damage innovation by having very strict rules that are one-
size-fits-all. I'd be willing to be very, very strict when it 
comes to risk to patients, risk to populations, and risk to the 
integrity of science. That's different than someone who has a 
patent, a discovery, a new device or a brilliant idea--I don't 
think we want to stub that, so reaching the balance is the key 
concept here, while preserving public trust.

                         FOOD ALLERGY RESEARCH

    Senator Harkin. I keep shifting back and forth, but I 
forgot to ask Dr. Fauci another question.
    In my other capacity as chairman of the Agriculture 
Committee, which has to do with a lot of food programs, and 
feeding programs, next year we have the reauthorization of the 
child nutrition bill, which provides funds for school lunch 
programs, school breakfast programs. Through all of this, I 
think maybe we've talked about this in the past, and I'm sure 
I've asking you about this at other hearings--the seemingly 
explosion of food allergies among kids.
    Dr. Fauci. Right.
    Senator Harkin. I'm hearing back from school that are 
having problems, because of all of the food allergies that kids 
have. So, what's happening out there, and what's your Institute 
doing to look at this, seemingly, explosion of food allergies?
    Dr. Fauci. Yes, that's a very, very important issue, in 
fact, you recall we had a hearing just on this particular 
subject. A lot is happening now, I think that there really is a 
full realization that this a serious problem. As you know, 6 to 
8 percent of children less than 4 years old have a food 
allergy, and 4 percent of adults have a food allergy. There are 
30,000 anaphylactic reactions a year, and about 150 to 250 
deaths.
    So, we really need to, actually--and this is what I believe 
we're on the way to being more successful than we were in the 
past--of rejuvenating the field along the lines that Dr. 
Zerhouni and Dr. Collins and everyone was talking about about 
getting people in the field who are interested, who are 
motivated to get involved, bring some of the more sophisticated 
science to try and understand what is the pathophysiological 
mechanism of why this is occurring, asking whether some of the 
old assumptions that we have about food allergies, including 
things like peanut allergy should we be exposing early or 
avoiding? Things like that.
    Senator Harkin. Which I asked you about at that hearing, 
remember? I mentioned to you----
    Dr. Fauci. Exactly, exactly.
    Senator Harkin. That, why China--they eat all those peanuts 
in China, and they don't have allergies?
    Dr. Fauci. Exactly--they boil them, we roast them.
    Senator Harkin. There's something going on.
    Dr. Fauci. In Israel, they give infants and children 
peanuts as a little snack, we don't.
    So, there are so many fundamental questions and I'm so 
pleased, we had a hearing with Senator Dodd a few months ago, 
about what's going on in food allergy, and we're very pleased 
that we have a program of a new investigators. We are trying to 
ask some fundamental concept questions, hoping to bring new 
people into the field. We have committed about $5 million over 
2 years and we're just now in the process of awarding those 
grants. To my great satisfaction, I think 11 out of 12, or 
maybe even 12 out of 12 of the investigators are actually 
people new to the field. That's very important when you think 
in terms of the things that Dr. Zerhouni said, about getting 
new, fresh, young ideas.
    So, we have--in a very limited budget, I have to say--we've 
increased our food allergy allocations from a pittance of just 
less than $2 million to close to $13 million, but we really 
need to do much more, but in an arena of fiscal constraint, 
it's very difficult to do. So, we're really trying to jumpstart 
that system. But, I'm very pleased that you, and Senator Dodd, 
have brought that up, because it is now really focusing on the 
importance of the problem.
    Dr. Zerhouni. If I may, Senator, also as part of the 
National Children's Study, there is a component of the 
Children's Study that is going to look carefully at this from 
the moment of conception, all the way to 21 years of age, 
trying to capture, in fact, the food exposures, if you will, 
that we have and the emergence of allergy, trying to understand 
a little bit better what happens in early life. Dr. Dwayne 
Alexander is not here, but I'm sure he would have mentioned 
that and I think we've updated your office on that.

                        HEART ATTACK PREVENTION

    Senator Harkin. I'm going to reassure you that we are going 
to continue to fund the Children's Study. We're not going to 
let that one drop, either. We're going to continue to fund 
that.
    I was, Dr. Nabel, I haven't asked you a question and I 
wanted to get to one thing. Since Tim Russert's death, we get a 
lot of people asking about, what are we doing to really prevent 
heart attacks? It seems like kind of random, and they happen, 
I'm just getting a lot of input into my office about that, 
they're going to their doctors, are they a risk for heart 
attack--what kind of research is being done in preventing heart 
attacks?
    Dr. Nabel. Well, that's a very important and delicate 
question. Mr. Russert's death was a great tragic loss for our 
country and many of us have mourned his death.
    We have now referred to this as the Russert Effect, you've 
probably seen stories in the newspaper, on television, of 
middle-aged men--a story in the Times a week ago, a middle-aged 
man, age 50, on a bike ride on a Saturday morning, didn't feel 
well, a little fatigued, a little short of breath, his partners 
had to leave him behind. He called his wife, ``I'm not well,'' 
he went home, laid down, and thought, ``Tim Russert.'' He drove 
himself to the hospital and he was having a heart attack.
    It is true that we know a lot about the risk factors for 
heart disease and we're doing all we can to help individuals 
identify their risks very early in life and modify those risks.
    Yet, at the end of the day, despite all of our best 
abilities to modify those risks, we know that at some time, a 
little bit of the blockage in the heart artery can break off, 
and that blockage might only be a 5 or a 10 percent blockage, 
might break off, leading to a blood clot and a heart attack.
    That doesn't stop us from doing everything we can to help 
individuals understand their risk, and to help them to do all 
they can to modify their risk. As you know, we've had a very 
active program over the past 5 years for women and heart 
disease to have women identify the risk.
    I think, quite honestly in all of our efforts to focus on 
women, we've left the men behind. Now we need to catch up, and 
help men remember that they're at great risk, as well.
    It's really a public education, it's a campaign that we 
work on arduously, every day, with our partners, the American 
Heart Association, to help people understand their risk, and to 
take action.

                         STATINS AND MORTALITY

    Senator Harkin. Is there any evidence, at all, any medical 
evidence at all that the use of statins has reduced mortality--
    Dr. Nabel. We know that the use of statins lowers your risk 
for having a heart event--by that I mean, a heart attack, or 
dying of a heart attack.
    Senator Harkin. Because I've been informed that there 
really is no medical evidence that statins has reduced either 
morbidity or mortality from heart attacks.
    Dr. Nabel. For people who have known heart disease, the 
answer is yes, statins clearly reduce the risk for having a 
second heart attack, or for dying from heart disease.
    Senator Harkin. Which raises the question, should so many 
people be taking statins, who have never had any incidents of 
heart disease at all?
    Dr. Nabel. That's exactly the question that needs to be 
asked, and that's the study that we would love to do. If we had 
incremental money in our budget.
    Senator Harkin. But we're spending billions of dollars a 
year taking statins----
    Dr. Nabel. We are.
    Senator Harkin. There's a lot of counter-evidence that they 
really--unless you've had an incident----
    Dr. Nabel. Yes.
    Senator Harkin. That it really doesn't prevent.
    Dr. Nabel. You're right, Senator. What we're really doing, 
is we're hedging our bet. Because what we don't know, is that 
for individuals who are at low, or even moderate, risk for 
heart disease, does starting taking a statin--age 20, age 30, 
age 40, age 50, or even in childhood--make a difference? We 
don't know the answer to that question.
    We know that if you're at a very high risk for heart 
disease, then you've got very high LDL cholesterol, and you've 
got two, three, four other risk factors, then yes, in that 
group, taking a statin does help.
    But, the majority of people really taking statins in our 
country today are people who are hedging their bets. A little 
bit of an increase in blood pressure, a little bit of an 
increase in cholesterol, figure lowering your statin may be 
helpful. It's common judgment, it may be helpful, but we don't 
know the answer.
    The study that we would like to do, is a longitudinal study 
of primary prevention. Does taking a statin when you start, 
say, in your 30s or 40s, when you might have one or two risk 
factors for heart disease, does that lower your risk, or 
prevent you from getting a heart attack in your 50s, 60s or 
70s, or dying from heart disease? We would love to do that 
study, if we had the money.
    Senator Harkin. Why don't you do that study?
    Dr. Nabel. We would love to, it's an expensive study.
    Senator Harkin. Well, tell me how much.
    Dr. Nabel. We're estimating that----
    Senator Harkin. I mean, if not today, I mean, at least----
    Dr. Nabel. Yes, it's in the estimate of hundreds of 
millions of dollars. Because you would need to enroll people 
very early in life, you would need to follow them carefully 
over decades--we could certainly do that study. We've done an 
equivalent in the Framingham Heart Study, we're doing it in the 
Jackson Heart Study.
    But, at this point, to dedicate that size of sum of money 
from our budget, which is limited, it's just tough to do.

                         CARDIOVASCULAR DISEASE

    Dr. Zerhouni. If I may, from the overall standpoint, not 
looking specifically at this--if you look at the total 
mortality and morbidity for cardiovascular disease and stroke, 
it has dropped by 60, 70 percent. The real question is how do 
you and what do you attribute that drop to? Is it cessation of 
smoking? Is it taking aspirin? Is it taking, having good diets? 
There's controlling blood pressure, taking statins.
    So, when you look at the policy aspect of this, how do you 
really start demonstrating whether or not something works or 
doesn't work? Well, you have to take the high-risk group. In 
this case, in statins, it's clear that if you take patients who 
have had a heart attack, therefore, absolute proof-positive 
that they have an underlying cardiovascular disease, the 
evidence is clear that statins do help reduce the number of 
second events, and so on.
    The same thing is true when you're looking at the issue of 
secondary prevention, versus primary prevention, which is the 
topic that Dr. Nabel talks about. As a country, we're going to 
have to make that decision, why? Because there are many things 
we do, for example, in diabetes. Diabetes, we have oral drugs 
that reduce glycemia. We have, also, studies that NIDDK has 
done that show that if you use them as a pre-diabetic patient, 
when you're not diabetic, you will reduce the risk of the 
disease emerging.
    What is the key to all of this? The key, Senator, is can we 
predict in the millions of people who take statins, those who 
have a real risk, as opposed to those who do not have a real 
risk? That's where the predictive nature of the genomic 
research and the personalized medicine research that Dr. 
Francis Collins has been talking about comes in. As long as we 
don't have that knowledge, you know we will have to do very 
long trials where we follow people over many years, which are 
very costly.

                 BIOLOGY OF AGING AND THE AGING PROCESS

    Senator Harkin. Speaking of long years, Dr. Zerhouni, I 
want to talk about the biology of aging. Diseases like 
Alzheimer's, you mentioned diabetes, heart failure, stroke--
operate in different ways, but the one thing that they all have 
in common, they tend to strike older people.
    Traditionally, our research in these diseases has 
approached them separately, one at a time, we look at these 
diseases, and we investigate them. Now, we're learning more 
about the basic biology of aging, that suggests there may be 
ways to postpone all of these diseases, by slowing down the 
human aging process.
    If we could add 5 to 7 years of healthy, vital life to 
millions of people, it would have an enormous impact on 
healthcare spending. Plus, the fact that we know that most of 
the spending on medical care in this country goes in the last 
couple of years of life.
    Someone once said to me, a long time ago, that one of the 
primary goals of biomedical research was to enable to die 
young, as late in life as possible. I've always remembered 
that. So, what are you doing, what are you looking at in terms 
of this whole biology of aging and the aging process, as it 
might impact all of these different--heart diseases, strokes, 
diabetes, and everything else?
    Dr. Zerhouni. Right.
    Senator Harkin. I imagine that must spill over into Dr. 
Collins' area, too, big-time.
    Dr. Zerhouni. I will start and then he'll tell you what the 
future is like.
    Clearly, when you look at the aging process, and you 
started by saying, there are multiple conditions that affect 
people at the same time.
    Senator Harkin. Yes.
    Dr. Zerhouni. So, there are really two questions, there 
are--do we age the same way? Does our population age in the 
same way, or do we have clusters? People age one way and then 
others age another way?
    So, the first thing is, is there a heterogeneity in aging, 
do we all age in the same fashion? We know, today, that the 
aging process over the past 30, 40 years--people are living 
longer and healthier, so the disability rates for seniors have 
dropped. So, we know that there are things you can do that seem 
to improve your aging process.
    Second, we also know, as Dr. Nabel was just mentioning, and 
she's saying something very important--we've done one disease 
at a time, now we need to integrate the factors, and it's very 
clear that if you look at the aging process, some of us age 
faster, and seem to present a collated set of diseases--
diabetes, high blood pressure, the metabolic sort of--low 
exercise levels, obesity, Alzheimer's disease that relates, 
now, as we know, to diabetes in some ways, and cardiovascular 
disease. You look at the genetic spectrum of these diseases, 
one subgroup seems to be affected more than other subgroups, 
and we are honing down on those discoveries.
    So, that's one aspect of the aging process. Are we 
accelerating unhealthy aging in certain members of our 
population, what is the evidence that that's the case, and what 
can we do about it? So, that's one way to approach the problem, 
Senator.
    The second problem is we also have evidence that you can, 
in fact, slow down the aging process. So, we have found a 
molecule--there's a famous molecule now, retro, which comes 
from red wine, which seems to be, in fact, having this effect.
    The other remarkable finding is that if you have caloric 
restrictions--if you just reduce the number of calories in an 
experiment in animals, you can lengthen life expectancy by 30, 
40 percent.
    Our researchers at the NIA are doing another experiment 
where they're saying, what if you have one day of fasting and 
another day where you don't fast? So, intermittent fasting? 
They see the same results, even without loss of weight.
    So, there's fundamental research on one end that shows that 
there are mechanisms that complex network of molecules that 
say, there is a way of good, graceful, healthy aging. There's 
also this body of research that shows that, in fact, chronic 
diseases seem to start in a combinatorial way where you seem to 
have everything at once and then you have to take 12 drugs to 
live your life and those are not the exact same processes.
    Well, now I'll turn it over to Francis, who's done a lot of 
work with NIA about how do we, then, see the future in these 
two directions?

                           GENETICS OF AGING

    Dr. Collins. So, despite all of the exciting research 
that's going on, I think you're right, Senator, that the goal 
ought to be to try to give each of us the chance to die young, 
but at a very old age.
    The death rate will probably continue to be one per person, 
at least that's my prediction in the current climate.
    But I'd like to see that death rate extended out, to a full 
four score and ten or more for all of us.
    So, how are we going to get there? Obviously a great area 
of interest is what is the program that's basically built into 
our system that is supposed to be responsible for the fact that 
we don't live forever? In evolutionary terms, there needs to be 
such a program, otherwise, nothing could ever really progress, 
so lifespan has to be limited so future generations can have 
the resources, and let the older generations fade away.
    But, obviously, we've learned a lot about the way in which 
different individuals seem to age at different rates, simply by 
observing them--what's going on there?
    There are studies now underway looking specifically at 
individuals who have reached the age of 100 or more, to ask the 
question, do they have some genetic susceptibility to very long 
lives? This is not a susceptibility to disease, this is the 
opposite side of that, the flip side of the coin.
    In fact, there are, in the last couple of months, 
discoveries of exactly those kinds of genetic factors--based on 
the same strategy that Dr. Zerhouni talked about in his opening 
statement, that led to all of those banners on the chromosomes 
for various diseases--there are also genes that are good for 
you, apparently, and that are capable of giving you this kind 
of opportunity to live a long and healthy life.
    If we understood how those worked a little bit better, then 
perhaps by modifying diet, lifestyle, we would contribute those 
same opportunities to people who don't have the inheritance--
the genetic endowment--that they wish they did.
    Another area that's of great interest, is studying nature's 
surprise experiments of individuals who have a very rapid aging 
process. Dr. Nabel and I, in our own research laboratories, are 
working on a disease called progeria, which is the most 
dramatic form of premature aging. These kids appear normal at 
birth, but by about a year of age, they stop growing, and then 
their hair falls out and their skin gets old and leathery, and 
they die, generally, at age 12 or 13, of a heart attack or a 
stroke. So, they're aging at about seven times the normal rate.
    My laboratory identified the genetic glitch in progeria 5 
years ago, and it turns out to be in a gene that codes for a 
protein that had some fair amount of cell biology work already 
done on it. In just 5 years, we have gone from a complete 
enigma of what this rare disease was all about, to a clinical 
trial of a drug which appears to work quite well in an animal 
model. This trial being conducted in Boston, and now already a 
year along, with about 30 kids with this rare disease being 
treated.
    That is breathtakingly quick, and it, again, is a 
testimonial to the richness of the research environment that's 
being created by NIH investments.
    Is that disease anything like normal aging? Well, obviously 
it's dramatically accelerated, but we have now very strong 
evidence that that same pathway is just a little bit tweaked as 
we get older, and maybe part of the time clock that we're all 
living with, hearing that ticking in the background, coming 
from this same pathway.
    Therefore, studying the rare disease may teach us something 
about the common, universal feature of aging, which is a very 
exciting series of observations we can expect to make in the 
next few years.
    Senator Harkin. Well, that's very provocative.
    Dr. Collins. Indeed.
    Senator Harkin. In a good way.
    Dr. Collins. Yes.

                    PROMISE OF PERSONALIZED MEDICINE

    Senator Harkin. Is there anything anybody else wanted to 
bring up here, that wasn't probed, or asked or anything? Any of 
you want to make any other--Dr. Collins?
    Dr. Collins. If I could, again, because it's my last 
chance, I think it has been mentioned by Dr. Zerhouni and 
others about personalized medicine, and I just wanted to say a 
word about that, in terms of the promise that this provides for 
where we may be able to go, in terms of clinical care.
    We are learning, as you saw in the course of the last 
couple of hours, a remarkable amount about hereditary risk 
factors for disease. We've known they were there, we largely 
guessed at them by family history, everybody has a family 
history of something, and generally that gives us a clue about 
our own risks, and it's been the best clue we've had.

                         HERDITARY RISK FACTORS

    But, we're unraveling--especially in the last 2 years--the 
molecular basis of those hereditary factors, at a prodigious 
pace. It's no accident that Science magazine called this the 
breakthrough of the year in 2007, in all of science was this 
understanding of human heredity and how it plays a role in 
common disease.
    That really does position us, relatively soon, to be able 
to offer to anybody who wants the information, a chance to find 
out, in a much more precise way, what their risk factors are--
while they're still healthy--and then to design a plan of 
prevention that is the one-size-fits-all approach, not anymore 
it's focused on what that person most needs to pay attention 
to. That's pre-emptive, that's personalized, it's all of the 
things that Dr. Zerhouni is talking about in terms of where we 
need to go. It focuses on prevention, and spending our 
healthcare dollars keeping people well, instead of waiting 
until they're in the ICU for something that we might have been 
able to prevent.

                            PHARMACOGENOMICS

    On top of that, we're learning a prodigious amount about 
the way in which drug responses also vary from person to 
person, allowing us--in the not too distant future--to do a 
more evidence-based assessment of which drug should that person 
get, and at what dose.
    Senator Specter, who courageously is going through this 
experience with Hodgkin's disease--if we had just a bit more 
information, and we desperately need to get that--to pick 
exactly the right kind of combination of chemotherapies for his 
particular situation, as opposed to a larger group of people, 
we could have an even better shot at reducing the likelihood of 
side effects, and improving the outcome, and we need to really 
push on that. But we're getting there at a pretty fast rate.

                          THERAPEUTIC TARGETS

    Then, the therapeutics that we have to offer which, in many 
ways, we have been sticking with drugs that work pretty well, 
for decades, but we've really needed this breakthrough in an 
idea about new targets--that's what the genome has given us. 
For most of the pharmaceutical industry's history, they've been 
limited, pretty much, to working with 500 or 600 targets--the 
things that we knew something about. The human genome breaks 
that wide open, and all of these discoveries about genes for 
common disease are pointing us much more precisely toward 
targets that are not secondary in the problem, they're the 
primary place that you would want to go to apply your 
therapeutics.
    We can see that happening for common diseases, and the drug 
industry is jumping on that appropriately, and for rare 
diseases, NIH has the chance to step in, and for neglected 
diseases of the developing world, as well, as we've recently 
seen done for some of those diseases like schistosomiasis.
    So, I think, when we put that all together, we have a 
pretty exciting shift in the paradigm from waiting until 
illness strikes and hoping you have something to do for it, to 
focusing on prevention in an individualized way--which I think 
will motivate people a lot more to actually act on the 
prevention opportunities, because it's about them--it's not 
some sort of generic prescription--and the opportunity to 
change our therapeutic agenda in a direction that's much more 
rational and evidence based.
    But we can't get there without the support of this 
wonderful Congress, and this subcommittee that you've so ably 
led. I think we all come here today in hopes that the difficult 
times of the last few years may be about to turn a corner, and 
that we can bring back into the fold, investigators who are on 
the edge of departing, and not returning. That's our hope. We 
don't want to see all of this done in Singapore. It would be 
great if a lot of it got done right here in the United States 
of America.
    Senator Harkin. Your remarks remind me, number one, that's 
why it is so important to pass the Genetic Information 
Nondiscrimination Act.
    Dr. Collins. Absolutely.

                       INDIVIDUAL GENOME MAPPING

    Senator Harkin. Second, are we going to be able to afford--
where do we get the price of mapping each of our own genes, 
like Dr. Watson did, and others, I mean, now what is it--
$100,000 or something, and they wanted to get it down to just a 
few hundred dollars per person, is that really going to happen?
    Dr. Collins. Oh, absolutely. We are on that pathway at a 
remarkable rate. In the last 2 years, two very new strategies 
for doing DNA sequencing have found there way, really, into the 
mainstream of this research arena, and one can now sequence a 
genome--which originally cost us, as you reported, somewhere in 
the neighborhood of $300 million for that first one. It can now 
be done for about $100,000, and the trajectory we're on, I 
would predict, will get us to the $1,000 genome in the next 6 
or 7 years.
    Already, now, one can--if you don't want the whole 
sequence, if you want to focus on, say, 1 million places in 
your genome where we know there are variations that might play 
a role in disease--you can do that, now, for about $1,000, in 
fact, there are companies out there that are marketing that 
directly to the public, which is an exciting thing, although 
some of us are a little worried about whether we're jumping the 
gun, here, in terms of knowing exactly what people should do 
with that information, but it's coming very fast.
    The technology, the cost, are not going to be rate-
limiting, what's going to be rate-limiting is to do the 
research to know what to do with that information so that 
people, once they have it, can be given good recommendations 
about how to reduce that risk and stay healthy, and that's a 
huge agenda for NIH right now, but those are--as you've heard--
expensive, longer-term clinical studies--we should be doing 
them now, and not putting that off.
    Senator Harkin. I'm hopeful that sometime in the near 
future that we're going to find some--a dedicated source of 
revenue for NIH. I've got some thoughts on that, in fact, 
Senator Mark Hatfield and I had proposed that back in 1994.
    Dr. Collins. I just remembered that, Senator.
    Senator Harkin. 1994 we proposed that, of course everything 
came crashing down, but maybe we'll revive that again, to get a 
dedicated source of revenue.
    Well, it was very simple. It was everyone's health 
insurance policy would take a certain--and it was only just a 
few pennies, it wasn't very much--that would go for basic 
medial research to enhance prevention.
    Well, I have never given up on that.
    But, Dr. Zerhouni?

                    DR. ZERHOUNI'S FAREWELL REMARKS

    Dr. Zerhouni. I'd like to just say two things--one is, 
1,000 years from now, when people look back at 2007-2008, one 
of the things they'll remember is the impact of the human 
genome on the history of mankind. When $1,000 genome, or $100 
genome--whatever it is--people will remember that as a defining 
event of the first decade of the 21st century.
    The second is that, as they look back and they wonder about 
where were the Seven Wonders of the World then? As we do today 
with the pyramids and Taj Mahal, and I would say that they will 
remember that of the seven most wonderful institutions of that 
time, NIH was part of it.
    As part that, I have a great privilege to have been, to be 
the Director of NIH, and to have been working with great 
colleagues.
    So, I'd like to add my voice to both the appreciation we 
have for you, and for the members of the subcommittee and for 
your continuous understanding and support, and I'd like to take 
this opportunity to also add my voice and those of my 
colleagues at NIH to really wish Dr. Collins the greatest 
possible future. He's been an enormous asset to our country, 
and to NIH, and I don't know if protocol allows, but I think we 
owe him a round of applause.
    Senator Harkin. Well, I join with you, Dr. Zerhouni.
    Dr. Collins, you know the high esteem that I personally 
have for you, and I know that all of the members of the 
subcommittee--I know I can speak for my great friend Arlen 
Specter, too--we have the highest esteem for you. We thank you 
for all of your dedication to health, to research, and to the 
goals of research, which is to help us live healthier lives.
    So, we wish you the best in whatever endeavors you're going 
to pursue and don't get too far away, we're going to need to 
call on you every once in a while, you know, to tell me things 
which I might understand 5 percent of, okay?
    Dr. Collins. Call me anytime.
    Senator Harkin. I appreciate that.
    Well, thank you all, very much.
    Dr. Zerhouni, thank you for your great leadership, Dr. 
Fauci, Dr. Nabel, Dr. Niederhuber, all of you. Through you, to 
all of the other Institutes. Like I said, only because of time, 
and I had a farm bill that I had to get through this year that 
just kept going on and on and on and on, and other things, and 
we just weren't able to have the kind of hearings that I like 
to have with NIH.
    But, I can assure you that--even if I'm not chairman next 
year Senator Specter will allow me to do that next year. We're 
going to have more at-length hearings with all of the 
Institutes next year.
    But, again, thank you all very much for being here, thank 
you all for your great leadership in so many areas. We 
appreciate it.

                     ADDITIONAL COMMITTEE QUESTIONS

    There will be additional questions that will be submitted 
for your response in the record.
    [The following questions were not asked at the hearing, but 
was submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted by Senator Tom Harkin
                               k30 awards
    Question. Dr. Zerhouni, thank you for your continued leadership in 
supporting the transformation of clinical research and clinical 
research training through the establishment of the Clinical and 
Translational Science Awards (CTSA) initiative. As the NIH transitions 
to the CTSA program, there is the potential for an institution which 
has not yet been awarded a CTSA grant to also have its K30 Clinical 
Research Curriculum Award phased out. Because not every K30 award 
recipient institution will receive a CTSA grant, it seems to make sense 
to continue the K30 mechanism for those institutions which have not 
received a CTSA grant. Does the NIH and the NCRR have a plan for the 
continuation of K30 awards to those institutions not receiving a CTSA 
grant?
    Answer. The K30 program supports curriculum development and has 
proven to be an extremely effective career development activity. The 
program was initiated in fiscal year 1999 following recommendations 
from an NIH panel on clinical research and expanded to 43 awards in 
fiscal year 2000. The program was re-competed in fiscal year 2005, when 
the average grant cost was increased from $200,000 to $300,000, and 51 
K30 grants were awarded. The last year of funding for these grants is 
fiscal year 2009. Curriculum development is a core feature of the CTSA 
program, so 31 of the K30 awards have already merged into the currently 
funded CTSA sites. For the remaining 20 institutions with K30 awards, 
most are well positioned to succeed with CTSA applications.
                             vaccine safety
    Question. Dr. Fauci, given the increased rates of refusal for 
immunization, the hesitancy of parents who do allow their children to 
be immunized, and the increased, but fortunately small, outbreaks of 
vaccine preventable diseases such as measles, please tell us: What 
resources of the NIH have been allocated to address increasing public 
concerns about the safety of the U.S. childhood immunization program?
    Answer. The NIH has three broad goals in vaccine research: (1) to 
identify new vaccine candidates to prevent diseases for which no 
vaccines currently exist; (2) to improve the safety and efficacy of 
existing vaccines; and (3) to design novel generic vaccine approaches, 
such as new vectors and adjuvants. To carry out these goals, the NIH 
supports basic and applied research at 18 Institutes in fields such as 
immunology, microbiology and disease pathology. Scientific knowledge 
gained through this basic research provides the foundation to develop 
new or improved vaccines, treatments, or diagnostics.
    NIH does not categorize vaccine safety research funding separately 
from vaccine research and development funding. Rather, NIH considers 
vaccine safety to be an integral component of all vaccine research and 
development. NIH spent just over $1.3 billion on vaccine related 
research in fiscal year 2007 and estimates $1.3 billion for spending in 
subsequent years. Federal regulations require that vaccines undergo 
extensive testing before they can be licensed and distributed. At the 
NIH, the evaluation of vaccine safety is an essential part of every 
vaccine clinical trial that we sponsor. Study participants are closely 
monitored for any adverse effects of the vaccinations they receive. In 
addition to research on new vaccines, the NIH devotes substantial 
resources to developing improved vaccines that are more effective and 
have fewer side effects than currently licensed vaccines. The NIH also 
pursues research to address specific vaccine safety research hypotheses 
as they arise. For example, several years ago the NIH supported several 
studies to find out more about the effects of thimerosal (ethyl 
mercury) exposure and how it compares with published data on methyl 
mercury exposure.
    Question. Please provide information on resource levels for the 
past 3 years and for 2009 as proposed, and separate out those funds for 
smallpox and bioterrorism-related vaccines?
    Answer. The NIH has provided the total funding levels for 
bioterrorism vaccines for fiscal years 2006-2009 in the table below. 
The NIH does not have funding available for small pox vaccines; 
however, the NIAID conducts Category A Pathogen Vaccine research which 
includes the microbes that cause smallpox, anthrax, plague and others. 
The funding levels for Category A Pathogen Vaccine research for fiscal 
years 2006-2009 for NIAID only are provided in the table below.

                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                          Fiscal year
                   Disease                   -------------------------------------------------------------------
                                                    2006             2007         2008 (est.)      2009 (est.)
----------------------------------------------------------------------------------------------------------------
Bioterrorism Vaccines, NIH..................            481.1            417.2            408.7            415.9
NIAID Category A Pathogen Vaccine Research..            258              200              196              200
----------------------------------------------------------------------------------------------------------------

    Question. Also, is there an entity within NIH that looks across 
Institutes to assure that research is directed at the safety of 
vaccines? If so, who is responsible for determining priorities in this 
effort?
    Answer. NIH considers vaccine safety to be an integral component of 
all vaccine research and development, there is no specific entity 
within NIH that looks across Institutes to assure that research is 
directed at the safety of vaccines. There are coordinating groups that 
collaborate on a regular basis to discuss vaccine safety and other 
related issues in the context of specific diseases or disorders. For 
example, the NIH Autism Coordinating Committee considers potential 
underlying mechanisms or triggers for autism-spectrum disorders (ASD), 
including vaccines. Recently, several NIH institutes developed a 
Program Announcement (PA) which was released August 2008 to broadly 
address important scientific questions relating to vaccine safety.
    Once in use, vaccines are monitored for safety and efficacy by the 
Food and Drug Administration (FDA) and Centers for Disease Control and 
Prevention (CDC). The Federal Government has numerous checks and 
balances in place to monitor the safety and efficacy of vaccines and to 
ensure that recommendations about immunization practices and procedures 
reflect the best available science. It is also important to note the 
key role of the National Vaccine Program Office (NVPO) within the 
Department of Health and Human Services, which has responsibility for 
coordinating and ensuring collaboration among the many Federal agencies 
involved in vaccine and immunization activities, including NIH, CDC, 
FDA, and the Department of Defense, among others. Vaccine safety is and 
will remain a top priority for the NIH.
                                 ______
                                 
            Questions Submitted by Senator Daniel K. Inouye
                            weicker building
    Question. Dr. Zerhouni, at my request the Congress named the NIH 
building 36 after the former Senator Lowell P. Weicker. Driving by NIH 
almost daily, I am reminded that the Lowell P. Weicker building was 
torn down. I am aware that the building was demolished to facilitate 
the Master Plan for the Bethesda campus. As the Master Plan is 
developed, is there a plan to name another NIH building after Senator 
Weicker?
    Answer. Building 36, which bore Senator Weicker's name, has been 
demolished to make way for a new research building. NIH is currently 
reviewing the status of existing facilities on our campus, including 
the naming of buildings. In light of your interest, I will keep you 
informed as we proceed with our review.
                          behavioral research
    Question. Dr. Zerhouni, last fiscal year, the committee included 
report language on the subject of basic behavioral research that 
stated: ``It is therefore requested that the Director submit a report 
to the committee by December 1, 2007, indicating the scientific 
leadership structure for this field within the appropriate grant-making 
Institute.'' NIH responded in April 2008 with a report titled 
``Scientific Leadership Structure for Basic Behavioral Research'' which 
reported that 12 of the Institutes fund basic behavioral research 
totaling approximately $1 billion annually. While many in the field 
dispute the accuracy of these numbers, the NIH report seems to further 
strengthen the rationale of the committee's repeated recommendations to 
NIH that scientific leadership be provided for this important area of 
research at a grant-making Institute.
    While the NIH report of April 2008 provided the committee with a 
description of the status quo, it failed to address the central 
question of the need for scientific leadership in the field at the 
appropriate grant-making Institute. At minimum and as a first step, 
would NIH agree to create a senior advisory position within NIGMS, 
which would be filled by a person with appropriate scientific 
credentials and who would provide leadership and coordination for this 
important field?
    Answer. The NIH created the Office of Behavioral and Social 
Sciences Research (OBSSR) within the NIH Office of the Director to 
provide senior advisory leadership and coordination of NIH efforts in 
these fields. Having a senior advisory position in the Office of the 
Director allows NIH to fully utilize and coordinate resources across 
all the Institutes rather than limiting it to one IC. NIGMS is actively 
supporting basic behavioral research and training. For example, NIGMS 
has recently hired an individual with a Ph.D. in sociology to help 
oversee behavioral research and training within NIGMS and coordinate 
this research with the OBSSR. NIGMS has developed a new predoctoral 
training program directed toward the interface between basic behavioral 
and biomedical research and has funded a number of new training grants 
in this area. Furthermore, NIGMS has taken the lead in supporting 
social science research on the impact of interventions in developing 
research careers; specifically, NIGMS has spearheaded two initiatives--
one directed to understanding interventions that help underrepresented 
group participate in research careers and the second (just released) 
regarding women. See http://grants1.nih.gov/grants/guide/rfa-files/RFA-
GM-09-011.html, http://www.nigms.nih.gov/Minority/Interventions.htm and 
http://www.nih.gov/news/health/jul2008/od-14.htm). Several NIGMS staff 
members are involved in these programs including the recently hired 
individual with a Ph.D. in sociology.
    Question. The Institute's statutory mandate includes basic 
behavioral research and training, and the committee has repeatedly 
stated its belief that NIGMS has a scientific mandate in this area 
because of the clear relevance of fundamental behavioral factors to a 
variety of diseases and health conditions. Will the NIH work with the 
committee to address the need for scientific leadership of this field 
at NIGMS?
    Answer. NIH will work with the committee as these basic behavioral 
research and training activities continue to develop within NIGMS and 
across NIH. NIGMS is playing an increasingly important leadership role 
in supporting basic behavioral research. For example, they have 
initiated a new predoctoral training program directed toward the basic 
behavioral-biomedical research interface and are taking the lead in 
stimulating and supporting research to include key aspects of human 
behavior in computer models of how infectious diseases spread through 
populations. They have also taken the lead in supporting social science 
research directed toward understanding the efficacy of interventions in 
promoting research careers. They are also continuing their support of 
behavioral genetics in model organisms.
                    translation of research findings
    Question. Dr. Nabel, you emphasize the importance of the 
translation of research findings to the clinic and the community. What 
is NHLBI doing to help communities and physicians adopt interventions 
that have been shown to be effective, such as the Diabetes Prevention 
Program, which demonstrated the effectiveness of moderate diet and 
exercise interventions on preventing development of diabetes?
    Answer. The NHLBI translates and disseminates research findings to 
health professionals, patients, and the public in a number of ways. To 
ensure that clinicians and patients can avail themselves of the latest 
scientific knowledge in making health-care decisions, we convene expert 
panels, which include representatives from other relevant departments 
and HHS agencies including the CDC, to develop evidence-based clinical 
guidelines. Updated guidelines for asthma management and control and 
new guidelines for the diagnosis, evaluation, and management of von 
Willebrand disease, an inherited bleeding disorder, were released in 
fiscal year 2007, and the Institute is currently developing the first-
ever integrated cardiovascular risk-reduction guidelines for adults and 
children as well as updating its specific guidelines on adult 
hypertension, high blood cholesterol, and overweight/obesity.
    We also communicate research findings through community education 
programs. For example, We Can!<SUP>TM</SUP> promotes maintenance of a 
healthy weight in children through partnerships and media outreach 
operating in more than 500 community sites in 46 States, the District 
of Columbia, and 7 foreign countries. The sites include hospitals, 
schools, clinics, faith-based organizations, parks and recreation 
departments, extension services, YMCAs, and State health departments. 
The Institute also mounts public awareness campaigns such as The Heart 
Truth for women and heart disease, the leading cause of death among 
American women, and Learn More, Breathe Better for chronic obstructive 
pulmonary disease, the fourth most common cause of death in the United 
States.
    The NHLBI supports effectiveness studies to test interventions 
designed for easy and effective adoption in real-world settings. For 
instance, in 2006 we funded three clinical trials of strategies to 
reduce cardiovascular disease risk in obese patients who also have 
hypertension or metabolic syndrome. Although the primary emphasis is on 
developing and evaluating weight-loss programs that are effective in 
routine clinical practice, an important secondary focus is on improving 
application of evidence-based guidelines to reduce other CVD risk 
factors.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
                         neurological diseases
    Question. Dr. Zerhouni, neurological diseases, disorders, and 
injuries affect as many as 100 million Americans--1 out of 3. In 
addition to the pain that they cause, not just to those suffering but 
to their families as well, the annual economic burden of neurological 
illness is over $1 trillion. I will look forward to working with you 
and your staff to ensure that NIH has the resources it needs to fully 
explore these important avenues of research. Would you agree that 
comprehensive, coordinated neurotechnology research should be a top 
priority for NIH?
    Answer. Finding treatments and cures for neurological diseases, 
disorders, and injuries are high priority for NIH. The NIH budget 
strongly supports neuroscience research, and programs already underway 
at NIH ensure a comprehensive, coordinated approach to developing tools 
and technologies to combat problems that affect the nervous system.
    The neuroprosthesis program, which began more than 35 years ago at 
NINDS, led to the development of cochlear implants, the first practical 
neuroprosthetic devices, which the FDA first approved in the 1980s and 
is now used by more than 100,000 people worldwide. Among its many other 
contributions, this program also made significant contributions to the 
development of deep brain stimulation (DBS), which the FDA approved for 
essential tremor and Parkinson's disease in the 1990s, and is 
continuing to improve DBS technology and expand its application to 
other diseases. More recently, advanced neuroprosthetics, including 
those directly controlled by signals from the brain, are emerging from 
this research. The NIH neuroprosthesis program, like other NIH 
neurotechnology programs, coordinates research across several NIH 
Institutes, including the newest, the National Institute of Biomedical 
Imaging and Bioengineering.
    The Neuroscience Blueprint, begun in 2004, is a cooperative 
framework among the 16 NIH Institutes, Centers and Offices that support 
neuroscience research. By pooling resources and expertise, the 
Blueprint develops tools, training opportunities, and resources to 
assist neuroscientists in both basic and clinical research. For 
example, the Blueprint currently supports the development of 
genetically manipulated mouse models and their use to map gene 
expression in the brain and to better understand brain development and 
functioning; neuroimaging studies of normal brain development and 
neuroinformatics tools to improve brain imaging techniques; and 
resources and repositories for genetic material as well as neural cell 
and tissue samples.
    Another trans-NIH mechanism, the NIH Common Fund, also supports the 
development of tools and technologies to benefit all biomedical 
research, including neuroscience. For example, NIH Roadmap initiatives 
on bioinformatics and computational biology, on interdisciplinary 
research, and on ``molecular libraries'' each support extensive 
research related to neurological problems.
    Finally, I would also like to emphasize that NIH coordinates 
neurotechnology-related activities with other Federal agencies. The 
development of neural prosthetics and better treatments for traumatic 
brain injury are two examples that are particularly important now, 
because of the injuries to people serving our country in Iraq and 
Afghanistan. In both these examples, we coordinate extensively not just 
within NIH but also with the Department of Defense, the Department of 
Veterans Affairs and other agencies through formal and informal 
contacts, interagency conferences, review panels, planning meetings, 
and support of extramural investigators for related projects.
                           pancreatic cancer
    Question. Dr. John Niederhuber, given the fact that pancreatic 
cancer deaths are increasing, what concrete steps will you take to make 
this field of study a higher priority?
    Answer. NCI continues to fund research to understand the molecular 
pathways and genomic changes associated with many cancers. Similar 
genetic changes are seen in several tumor types. For example, Ras is a 
protein that under normal conditions regulates cell growth. When 
mutated it can cause uncontrollable cell growth or cancer to occur. Ras 
is associated with prostate, breast, colon, and pancreatic cancer among 
others. Further understanding Ras will help identify targets for new 
drugs and therapies for pancreatic cancer.
    In addition, NCI will continue to invest specifically in pancreatic 
cancer research. For example, NCI's major new initiatives--including 
the NCI Alliance for Nanotechnology in Cancer and the Cancer Biomedical 
Informatics Grid (caBIG)--hold a great deal of promise for improving 
and extending the lives of pancreatic cancer patients.
    These efforts have resulted in a strong infrastructure and cutting-
edge scientific research program to study all aspects of pancreatic 
cancer including prevention, early diagnosis, and therapy. It is 
expected that NCI's support of pancreatic cancer research and resulting 
science advances will continue to increase.
    Question. We've seen how important early detection tests have been 
in reducing mortality for other cancers. How far away are we from 
finding an early detection test for pancreatic cancer?
    Answer. While it is very difficult to estimate how far we are from 
a new diagnostic test, the peer-reviewed NCI-supported projects listed 
below are part of multiple NCI activities that are relevant to reaching 
that goal.
  --Commonly used imaging methods, such as endoscopic ultrasound, 
        abdominal CT scan, or MRI, are inadequate for the detection of 
        early stage pancreatic cancer. This has led to NCI's investment 
        in a portfolio that includes multiple relevant early biomarker 
        detection research projects. Sixteen early detection biomarkers 
        for pancreatic cancer are in pre-validation studies with others 
        rapidly being added to the validation pipeline.
  --CA 19-9 is presently the most widely used serum marker for 
        pancreatic cancer, but as a screening test in an asymptomatic 
        population, its positive predictive value is below 1 percent. 
        Early Detection Research Network (EDRN) investigators are 
        actively exploring both genomic and proteomic markers to 
        improve the ability to detect early stage pancreatic cancers.
  --Scientists at the University of Texas M.D. Anderson Cancer Center 
        are also taking a targeted approach to identify biomarkers for 
        early detection of pancreatic cancer by focusing on abnormal 
        genetic pathways. They have identified a number of genes that 
        are consistently differentially expressed in pancreatic cancer 
        and are examining these genes as candidate biomarkers.
    Question. How much funding would you need to find a pancreatic 
cancer early detection test?
    Answer. NCI will continue to make progress in the understanding 
pancreatic cancer and finding ways to diagnosis the disease early. The 
development of advanced technologies, new research projects, and a 
cadre of expert scientists working on the problem are critical to this 
effort. As noted above, NCI is supporting a number of early detection 
research initiatives and promising results have been realized. While it 
is impossible to say how much funding is needed to develop an early 
detection test for pancreatic cancer, investment in cancer research has 
never been more critical or more needed.
    Question. How is the NCI prioritizing this effort given that 
pancreatic cancer is one of the deadliest forms of cancer and is 
currently the fourth leading cancer killer?
    Answer. NCI recognizes the importance of pancreatic cancer research 
efforts. For example, a pancreas state-of-the-science meeting was held 
at NCI in December of 2007 to bring together investigators and other 
stakeholders to develop a research agenda for adenocarcinoma of the 
pancreas over the next 3-5 years. Based on input from the meeting, the 
Gastrointestinal Scientific Steering Committee of the NCI Clinical 
Trials Working Group (CTWG), working with cooperative groups and other 
groups that are active in pancreatic cancer clinical research, are 
developing strategic priorities for future clinical trials. Their 
recommendations will be disseminated to the relevant oncology, imaging 
and translational research communities.
    In addition, the Pancreatic Cancer Research Map (http://
www.cancermap.org/pancreatic/index.jsp) was recently developed as a 
tool for tracking pancreatic cancer research, clinical trials, and 
investigators. The map is a collaborative project between NCI, the 
Pancreatic Cancer Action Network (PanCAN), and the Lustgarten 
Foundation for Pancreatic Cancer Research. The map is designed to 
facilitate and expedite collaborations among researchers in the 
pancreatic cancer research community by helping them find related 
projects in pancreatic cancer research and network with other 
researchers, and also to identify funding opportunities specific to 
pancreatic cancer research.
    As mentioned above, NCI is also supporting major new initiatives--
including the NCI Alliance for Nanotechnology in Cancer, PanScan, and 
the Cancer Biomedical Informatics Grid (caBIG)--which have great 
potential for advancing pancreatic research.
                                 ______
                                 
              Questions Submitted by Senator Arlen Specter
                              nih funding
    Question. Dr. Zerhouni, on May 23, 2008, I wrote to you asking 
``how much would it cost to cure cancer or at least make a major 
frontal attack on the many strains of cancer?'' You responded with an 
estimate of $5.2 billion ($1.2 billion for NCI and $4 billion for the 
rest of NIH). Could you please elaborate on the need for this funding 
with respect to finding cures for cancer and other diseases?
    Answer. Despite the extraordinary progress made across all fields 
of biomedical sciences funded by the NIH in the past 50 years, we still 
do not know much of the basic biology that is needed to cure the more 
than 200 types and subtypes of cancers our patients battle daily. Much 
more work is needed to speed progress.
    As the NIH Director, I have witnessed a great acceleration in the 
pace of discoveries, many derived from the completion of the Human 
Genome Project in 2003. These discoveries provide unprecedented 
research opportunities across all disease areas. The National Cancer 
Institute (NCI) and the National Human Genome Research Institute 
(NHGRI) are currently collaborating in a Cancer Genome initiative. In 
July 2008, a pilot study by NCI and NHGRI produced new clues of genetic 
factors that play an important role in one of the most aggressive forms 
of brain cancer. Similarly, a landmark study identified new genes, and 
therefore, new leads in understanding autism, a disease of growing and 
grave concern to all of us. These are examples of the almost weekly 
reports I received of the discovery of novel factors in many diseases, 
as opposed to a few reports per year at the beginning of my tenure in 
2002.
    Given the nature of scientific discovery, any estimates about exact 
costs and timing of breakthroughs in any disease are uncertain. 
Moreover, we have seen progress in one disease often comes from 
unrelated areas of investigation, thus, we must support a wide range of 
approaches across all fields of science.
    Question. Why do you feel that the success rate for grant proposals 
should be 30 percent instead of the 18 percent currently projected?
    Answer. The success rate of 30 percent for grant proposals would 
contribute to scientific progress. We estimate the success rate of 
research applications could be 18 percent in fiscal year 2009. Young 
investigators too often become discouraged and opt for other careers, 
depleting the ranks of the next general of scientists and depriving the 
Nation of important new talent and ideas that could exploit the 
unprecedented opportunities NIH research has made possible and help 
keep our Nation competitive in this strategic area.
    Question. For all witnesses: Senator Harkin and I have introduced 
legislation providing an additional $5.2 billion to the NIH. What 
activities would you emphasize with additional funds?
    Answer. Efforts to prevent, detect, and treat disease require 
better understanding of the dynamic complexity of the many biological 
systems of the human body and their interactions with our environment 
at several scales--from atoms, molecules, cells and organs, to body and 
mind. As the questions become more complex, and even as knowledge 
grows, research itself becomes more multi-faceted. With additional 
resources above the $29.5 billion requested in the President's budget 
for NIH as proposed in your legislation, much work could be done to 
speed progress.
    These funds would allow NIH to leverage scientific opportunities in 
areas like:
  --Research Pipeline.--Additional funds will provide NIH with the 
        ability to increase its focus on the troubling trends in 
        training and research career support, which will affect the 
        pipeline of researchers for many years in the future. Examples 
        include: Training programs for pediatric diabetes researchers; 
        increased career development awards; increased trainees; 
        opportunities to train new clinical researchers; more support 
        for Malaria research training programs; increased training in 
        informatics; and expanded women's health training programs.
  --Repositories.--Additional funds would allow NIH the ability to 
        expand critical data and tissue repositories. Examples include: 
        expand tissue repositories for breast and prostate cancer; 
        expanded Human Genetics Repository; expanded support for in-
        depth analysis of data collected from whole genome association 
        studies; support for research related to the Genome-wide 
        Association Studies (GWAS) findings; and increased 
        applications/utilization of GWAS data.
  --Clinical Trials.--Additional funds would provide NIH the ability to 
        expand in the area of clinical trials research. Examples 
        include: expand the special program of translational research 
        in Acute Stroke centers; launch a study to treat children with 
        critical asthma; fund more studies in certain minority 
        populations, including Asian Americans and Native Americans; 
        support an initiative in Noise-Induced Hearing Loss; increased 
        support for the Bipolar Trials Network; and increased support 
        for Phase III trials in medications development.
  --Technologies.--Additional funds would provide NIH the ability to 
        pursue next-generation technologies that will facilitate 
        research progress. Examples include: work to increase non-
        invasive functional monitoring to improve clinical studies in 
        kidney diseases; increase investment in projects related to the 
        Brain-Computer Interface; ensure steady program in research to 
        develop the $1,000 genome; and increase NIH's ability to pursue 
        opportunities in advanced imaging and delivery technologies.
    In addition to the examples provided above, NIH could support 
nearly 1-in-3 of every application received, for a success rate of 30 
percent.
    Question. Have the flat funding levels provided to the NIH over the 
past 5 years seriously harmed the United States research enterprise?
    Answer. Within resources available, currently $29.5 billion in 
fiscal year 2008, NIH has supported the highest priority research. 
Recent budgets have reduced overall purchasing power for the biomedical 
research community and have required NIH to make tough decisions on how 
resources are allocated. The success rate for applicants receiving 
awards has declined from 30 percent in fiscal 2003 to 21 percent in 
fiscal year 2007 and an estimated 18 percent in fiscal year 2009, 
though the rapid rise in the number of applications submitted has also 
been a major factor.
    Some of the ways in which NIH has managed current resources across 
the Institutes and Centers include: reducing/delaying support for 
clinical trials; scaling back certain research training programs; data 
and tissue repositories have not been expanded as initially planned or 
have been deferred; and slowing or deferring the planning for 
developing specific computer interface, non-invasive monitoring, and 
advanced imaging and delivery technologies.
    The fiscal year 2009 request will, however, continue to move 
science forward. We will continue to invest in the best science and 
work with the community to use the resources provided to develop and 
translate scientific advances into therapies, cures, and diagnostics.
    Question. Is our international scientific pre-eminence in jeopardy 
due to these flat budgets?
    Answer. The United States is now the pre-eminent force in 
biomedical research. Our Nation continues to lead the highly 
competitive biotechnology and pharmaceutical sectors. Yet, we are also 
the focus of increasing competition from growing research in Europe and 
Asia. We must continually sustain the momentum of U.S. biomedical 
research. The table below reflects the increased rate of global 
competition.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               stem cells
    Question. Dr. Zerhouni, you have publicly stated that it is time 
for scientists to have access to more embryonic stem cell lines. Under 
your leadership, NIH funding for stem cell research has slowly but 
steadily grown and the work of the NIH stem cell unit to characterize 
the available stem cell lines has been excellent. When the ban on 
funding for additional lines is rescinded, how would you suggest the 
NIH work to realize the full potential of embryonic stem cells as 
quickly and efficiently as possible?
    Answer. NIH keeps abreast of the current policies that guide 
Federal funding of human embryonic stem cell (hESC) research. We will 
modify these policies and the eligibility criteria for Federal funding, 
including the rapid development of Guidelines, as necessary, taking 
into consideration all the information currently available. In 
addition, NIH continues to rapidly assess research needs and 
opportunities in stem cell biology and develop initiatives that meet 
those needs to capitalize on these opportunities, consistent with 
existing policies.
    Question. Dr. Nabel, a recent report in the journal Nature 
described how a laboratory was able to turn human embryonic stem cells 
into heart progenitor cells and sort them from the non-heart cells. 
Please explain why this advance is important and how stem cells may one 
day be used to treat heart disease or test prospective heart drugs.
    Answer. The investigators reporting in the journal Nature 
successfully used human embryonic stem cells to produce cardiovascular 
progenitor cells that, in turn, were able to differentiate into the 
three cell types needed to form the human heart--cardiomyocytes (to 
make the heart muscle), smooth muscle cells, and endothelial cells (to 
make blood vessels). This is an important step toward development of 
new strategies to regenerate damaged hearts.
    Heart progenitor cells have great potential for the repair of heart 
muscle injured by myocardial infarction or other cardiac diseases. 
Researchers hope that injection of the cells into patients early after 
a heart attack, either through the coronary arteries or directly into 
the muscle, could help to restore heart function and prevent the 
development of heart failure. In patients with chronic heart disease 
who have already developed heart failure, the cardiac progenitor cells 
may be able to restore the heart's ability to pump effectively.
                                 lp(a)
    Question. Dr. Nabel, is there anything new that you can tell me 
about the status of research toward a medication that lowers LPa?
    Answer. There is little evidence that lowering Lipoprotein (a) 
(Lp(a)) with specific drugs reduces cardiovascular risk. In fact, based 
on the current scientific evidence, Lp(a) measurement is not 
recommended as a screening tool for cardiovascular disease (CVD) risk 
in the general population, but only for individuals with a personal or 
family history of early-onset heart disease. At present, if an 
individual is found to have elevated levels of Lp(a), the recommended 
treatment strategy, which is supported by clinical trial evidence, is 
to aggressively lower the individual's LDL cholesterol with statins to 
decrease overall CVD risk.
    The Institute will continue to review the scientific evidence 
related to emerging CVD risk factors such as Lp(a). We are currently in 
the process of updating the Adult Treatment Panel (ATP) guidelines of 
the National Cholesterol Education Program, an evidence-based set of 
guidelines on cholesterol management published in 2001. As part of that 
effort, the expert panel developing ATP IV will evaluate the evidence 
that Lp(a) confers risk for CVD and will consider the evidence 
regarding whether Lp(a) lowering is warranted.
                            hiv/aids vaccine
    Question. Dr. Fauci, you recently called for a re-evaluation of our 
efforts toward finding an HIV/AIDS vaccine. Why have we had so many 
false starts toward HIV/AIDS vaccines and how should we approach the 
problem in the future?
    Answer. There is rarely a clear pathway to developing a vaccine, 
and it is not unusual for investigational vaccines to fail. It took 
decades to develop currently licensed vaccines to combat typhoid, 
pertussis, polio, and measles. Science is iterative, and from each 
product that fails in clinical trials, we learn something that informs 
the next clinical trial.
    HIV vaccine development has been challenging for a number of 
reasons, including the fact that the virus mutates rapidly, hides from 
the immune system, and targets and destroys the immune system cells 
that are successful in fighting and clearing most other viruses from 
the body. With HIV we will have to do better than nature if we are to 
develop a vaccine, unlike the situation with other viral diseases such 
as measles and influenza, where we have succeeded in inducing 
protective responses with vaccines by mimicking the response to natural 
infection. And because of safety concerns, vaccine approaches commonly 
used to fight other infectious diseases, such as the live attenuated 
(weakened) or killed viruses used in other vaccines, are not tenable in 
HIV vaccine development.
    The failure of the Merck HIV vaccine candidate used in the STEP 
clinical trial prompted NIAID to re-evaluate our HIV vaccine research 
efforts. We initiated numerous consultative meetings with scientific 
experts and various stakeholders on how best to reinvigorate and 
advance HIV vaccine research in the wake of the STEP trial, culminating 
in an HIV vaccine summit on March 25, 2008. Those discussions revealed 
widespread consensus that the development of a safe and effective HIV 
vaccine will require significant advances in our understanding of the 
virus and an increased emphasis on basic vaccine discovery research to 
learn more about immune responses and better identify potential vaccine 
candidates while simultaneously advancing the most promising vaccine 
candidates into human clinical trials when appropriate.
    NIAID has already taken a number of steps designed to achieve a 
more appropriate balance between vaccine discovery and clinical 
development. In May 2008, we supported a new program to study the 
response of B-cells to HIV infection--a departure from previous 
efforts, which had focused on T-cell response. NIAID also began two new 
major initiatives designed to support investigator-initiated grants for 
discovery research on HIV vaccines and tactics to interrupt HIV 
transmission. We are also expanding non-human primate research to 
support HIV vaccine discovery, and improved animal models are being 
developed for use in the pre-clinical evaluation of vaccine candidates 
and to identify correlates of immunity. Lastly, NIAID created a Vaccine 
Discovery Branch in the Vaccine Research Program within the Division of 
AIDS to help build bridges between basic researchers and HIV vaccine 
designers, identify gaps in knowledge needed to develop an HIV vaccine, 
and promote research to fill those gaps.
                           genetics research
    Question. Dr. Collins, the Human Genome Project was completed in 
2003. What is left to do in the area of genetics research?
    Answer. After leading the Human Genome Project to the successful 
completion of its extraordinary goal of sequencing the entire human 
genome in 2003, NHGRI expanded its mission to encompass a broad range 
of studies aimed at understanding the structure and function of the 
human genome and its role in health and disease. To that end, NHGRI 
supports the development of resources and technology that will 
accelerate genomic research and its application to human health, thus 
enabling truly pre-emptive, predictive, personalized, and participatory 
health care.
    Question. What practical medical benefits have been achieved and 
what will soon be available?
    Answer. The Human Genome Project has led to important discoveries 
related to genetic predisposition to some of the most common causes of 
morbidity and mortality in the United States today. These discoveries 
can lead to improved diagnostic, therapeutic, and pre-emptive 
approaches. Examples are listed below.
  --Type 2 Diabetes.--Nearly 20 new genetic markers have been 
        discovered to be associated with type 2 diabetes. For example, 
        homozygosity--that is, having two identical forms of a gene--or 
        TCF7L2 gene mutations has been shown to convey a 140 percent 
        increased risk of type 2 diabetes.
  --Heart Disease.--Multiple new markers associated with coronary heart 
        disease have been discovered. For example, homozygosity for a 
        variant on chromosome 9p21--as occurs in approximately 25 
        percent of people of European ancestry--increases risk for 
        coronary artery disease by an estimated 60 percent.
  --Breast Cancer.--A number of genetic markers are now known to affect 
        risk for developing breast cancer. Recently-discovered 
        variations in the FGFR2 and CASP8 genes are associated with a 
        13-26 percent increase in risk of developing breast cancer.
  --Prostate Cancer.--Variations in several genes on chromosome 8 have 
        been shown to be associated with 30-50 percent increase in the 
        risk of prostate cancer.
  --Age-Related Macular Degeneration (AMD).--Five genes have been found 
        to account for over 70 percent of the incidence of age-related 
        macular degeneration, which is the leading cause of severe 
        vision loss in older Americans. Each of these genes is 
        associated with a 30-160 percent increased risk of AMD.
    The Human Genome Project has led to improved diagnostic testing, 
with diagnostics now available for more than 1,300 genetic disorders, 
and also to improved prognostic testing, such as microarray-based 
assays like MammaPrint and Oncotype DX that predict breast cancer 
recurrence and guide treatment options.
    The HGP has also led to the rapid development of pharmacogenomics, 
giving physicians the ability to prescribe a wide range of medications 
more safely. For example, a recent study has shown that HLA-B*5701 
testing effectively predicts potentially severe adverse reactions to 
the HIV medicine abacavir.
    Susceptibility to disease is only part of the picture. The HGP has 
also enabled development of many new drugs targeted at diseases such as 
age-related macular degeneration, myocardial infarction, and melanoma. 
In addition, the NIH Roadmap project on Molecular Libraries enables 
direct translation from gene discovery to treatment by finding new uses 
for pre-existing drugs and identifying small molecule, drug-like 
compounds that can serve as starting points for new treatments. For 
example, this approach was recently used by the NIH Chemical Genomics 
Center (NCGC) to identify a potential new treatment against the 
parasitic disease, schistosomiasis, which affects upwards of 200 
million people in the developing world, causing an estimated 280,000 
deaths annually.
                                 cancer
    Question. Dr. Niederhuber, what is your projection on when cancer--
or many cancers--will be treatable or curable? Also, in a response to a 
question from me, the cancer community has indicated that $335 billion 
over the next 15 years is necessary to make real progress toward cancer 
cures. What do you think is necessary in terms of time, funding, and 
research breakthroughs to make a real difference in curing cancer?
    Answer. Cancer, as you know, is not just one disease. It is perhaps 
as many as 1,000 different diseases, and as such it is a very complex 
and dynamic process. Unfortunately, I can't give you a timeframe for 
how long it will take to cure cancer or make it much more than a 
chronic set of diseases that we can prevent or live with. However, 
we're learning and understanding more and more every day, and we are 
gaining vital new knowledge that will get us closer to our goal.
    As the leader of the National Cancer Program, NCI is, today, 
building on its history of research success and wisely spending every 
dollar it receives, in a continual effort to foster the best research 
and to connect the public, private, and academic sectors for effective 
translation of these discoveries. If NCI were to receive the increase 
of $1.2 billion identified in the fiscal year 2009 by-pass budget, then 
NCI could better lead these collaborations and connectivity--to shorten 
the path from an innovative discovery in the laboratory to making an 
effective difference with a patient in the clinic. Listed below are 
some potential investments:
  --Increase the number of new investigators;
  --Expand research training opportunities;
  --Rebuild scientific infrastructure;
  --Expand caBIG;
  --Raise RPG success rate and average cost per grant;
  --Expand Cancer Centers program;
  --Invest in intramural program;
  --Expand The Cancer Genome Atlas;
  --Increase Drug Development;
  --Re-engineer Clinical Trials;
  --Fund early phase pharmacodynamic studies;
  --Create a U.S. oncology tissue bank;
  --Establish certified centralized tumor characterization labs;
  --Enhance technological efforts around nanoparticles and proteins;
  --Enhance technology development in clinical proteomics;
  --Invest in systems biology;
  --Increase biomedical computing capabilities; and
  --Develop imaging tools.
    To effectively operationalize this plan would require that we build 
scientific capacity. We must maximize our efforts to recruit and 
sustain the very best and brightest to work on cancer. As in the past, 
an investment in understanding the complex systems involved in cancer 
initiation and growth will continue to impact our understanding and 
treatment of all diseases--acute and chronic.

                         CONCLUSION OF HEARINGS

    Senator Harkin. So, thank you all very much, that concludes 
our hearings.
    [Whereupon, at 11:56 a.m., Wednesday, July 16, the hearings 
were concluded, and the subcommittee was recessed, to 
reconvenue subject to the call of the Chair.]


  DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2009

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--The subcommittee was unable to hold 
hearings on nondepartmental witnesses. The statements and 
letters of those submitting written testimony are as follows:]
           Prepared Statement of Abbey Curran, Miss Iowa USA
    Mr. Chairman and members of the committee: I am proud and honored 
to be here today, representing the hundreds of thousands of Americans 
who deal each day with the special needs and challenges of cerebral 
palsy. I am testifying on behalf of ``Reaching For The Stars. A 
Foundation of Hope for Children with Cerebral Palsy'' (CP)--a national 
nonprofit pediatric cerebral palsy foundation I have become proud to be 
affiliated with over the last several months in the pursuit of 
advocating for national cerebral palsy research funding.
    I am humbled to address you today as this Committee has been 
witness to so much of our country's history. I am only a small part of 
that history, but, like all of you, I am here to make a difference. 
Today, I would like to ask you to support $10 million in funding for 
national Cerebral Palsy surveillance and epidemiological research by 
the Centers for Disease Control and Prevention (CDC).
    I am a daughter, a child, a friend, a successful student, but most 
importantly, a woman who has sought to overcome the struggles that 
cerebral palsy has presented to me in my own life, and as a woman who 
has worked hard to achieve her dreams, no matter what obstacles may 
have occurred because of my cerebral palsy. I am only one person, but I 
have been given a great responsibility and opportunity through my CP to 
speak up for the important research that can change the lives and the 
future of the hundreds of thousands of children with cerebral palsy 
right now--those who will be diagnosed with CP right now as we speak 
and the increasing number of those children who will be diagnosed 
tomorrow based on recent CDC reports pointing to an increasing CP 
prevalence rate.
    I am the current reigning Miss Iowa USA 2008. To some, this 
achievement may be no more special than any other achievement, but to 
me, this title affirms the fact that cerebral palsy does not define me. 
I am Abbey Curran, Miss Iowa USA, a successful and happy person, not 
Abbey Curran, disabled woman.
    When I was born, my parents were unaware of the fact that I had CP 
until I was two- years old since diagnostic tests nor medical 
specialists in CP were not widely available. I was not born prematurely 
or with any other complications at birth that would have led my parents 
to suspect CP right away. Why do I have cerebral palsy? No one knows. 
Unfortunately that is still the case today since the cause of CP is 
unknown in over 80 percent of the cases.
    I believe that anyone with CP can achieve their dreams, which is 
why I feel so strongly about the need for national CP research and why 
I am supporting ``Reaching For The Stars'' in their advocacy efforts 
for CDC funding. As I have continued to learn more about cerebral palsy 
and talk to more and more medical professionals, I realize that with 
more research, the cause, new treatments and a cure for CP might be 
discovered and that is extremely exciting for the future of all 
Americans with CP.
    My friends and family are always there to lend an arm to lean on 
when I need assistance, and today, Mr. Chairman and members of the 
committee, I would like to ask you to be the ``arm'' that we, the 
people affected with CP can depend on. With only $10 million of funding 
for national CP research and surveillance through the CDC you could 
permanently change the lives and destiny of children with CP and their 
families forever for the better.
    I strive to be not only a model citizen for the great state of 
Iowa, but also as a model example for those people living with cerebral 
palsy--especially children growing up with the disorder to help them 
know their dreams really can come true.
    For my entire life, I have lived by the motto that I have to seize 
the day, take every chance and every opportunity that I can because you 
never know until you try. Accomplishment begins with these two simple 
words: I'll try. Our life choices, not chance alone, determine our 
destiny. Some people, like me, are more fortunate to have mild CP and 
to be able to live normally for the most part, but there are thousands 
of others whose CP affects them even more significantly--to the extent 
that they are unable to care for themselves--exacting a staggering toll 
on our medical and healthcare system. For the most part, these are 
bright, capable human beings trapped in bodies that don't work like 
yours. The decisions this committee makes will affect the course of my 
life, the over 800,000 Americans living with CP and the lives of our 
children and our children's children.
    By funding the necessary national CP surveillance and 
epidemiological research by the CDC, you can give hope to children with 
cerebral palsy and their families. I ask you to please allocate $10 
million to the CDC for CP research on behalf of the hundreds of 
thousands of Americans who struggle each day with cerebral palsy. You 
have the power to make a difference in our lives.
    Thank you.
                                 ______
                                 
    Prepared Statement of the American Academy of Family Physicians
    As one of the largest national medical organizations, the American 
Academy of Family Physicians (AAFP), representing family physicians, 
residents, and medical students, urges the House Appropriations 
Subcommittee on Labor, Health and Human Services, and Education to 
increase funding for programs to support better health care for more 
people in this country. As the subcommittee prepares the fiscal year 
2009 spending bill, we strongly recommend that you restore funding for 
health professions training programs; continue support for rural health 
programs and increase our investment in the Agency for Healthcare 
Research and Quality.
              health resources and services administration
    The Health Resources and Services Administration (HRSA) is charged 
with improving access to health care services for people who are 
uninsured, isolated or medically vulnerable. One of the most critical 
aspects of this mission is ensuring a health care workforce which is 
sufficient to meet the needs of patients and communities.
                        hrsa--health professions
    For 40 years, the training programs authorized by Title VII of the 
Public Health Services Act evolved to meet our Nation's health care 
workforce needs. It is increasingly clear that our Nation has a 
worsening shortage of primary care physicians. Earlier this year, in 
testimony before the Senate HELP Committee, the Government 
Accountability Office cited the ``growing recognition that greater use 
of primary care services and less reliance on specialty services can 
lead to better health outcomes at lower cost.'' \1\
---------------------------------------------------------------------------
    \1\ Steinwald, A. Primary Care Professionals: Recent Supply Trends 
Projections, and Valuation of Services. Testimony Before the Committee 
on Health Education, Labor, and Pensions, U.S. Senate, Government 
Accountability Office GAO-08-472T February 2008.
---------------------------------------------------------------------------
    To improve how health care is delivered, we must modernize 
workforce and education policies to ensure an adequate number of 
primary care physicians trained to serve in a patient centered medical 
home. The patient centered medical home will give patients access to 
preventive care and coordination of the care needed to manage chronic 
diseases as well as appropriate care for acute illness. The patient 
centered medical home provides improved efficiency and better health 
because it serves as a principal source of access and care. As a 
result, duplication of tests and procedures and unnecessary emergency 
department visits and hospitalizations can be avoided.
    Section 747 of Title VII, the Primary Care Medicine and Dentistry 
Cluster, is aimed at increasing the number of primary care physicians 
(family physicians, general internists and pediatricians). Section 747 
offers competitive grants for family medicine training programs in 
medical schools and in residency programs. Section 747 is vital to 
stimulate medical education, residency programs, as well as academic 
and faculty development in primary care to prepare physicians to 
support the patient centered medical home medical practice model.
    The value of Title VII grants extends far beyond the medical 
schools that receive them. The United States lags behind other 
countries in its focus on primary care. However, the evidence shows 
that countries with primary care-based health systems have population 
health outcomes that are better than those of the United States at 
lower costs.\2\ Health Professions Grants are one important tool to 
help refocus the Nation's health system on primary care.
---------------------------------------------------------------------------
    \2\ Starfield B, et al. The effects of specialist supply on 
populations' health: assessing the evidence. Health Affairs. 15 March 
2005.
---------------------------------------------------------------------------
    The Health Professions programs have been targeted for elimination 
in the President's budget despite of the fact that they exceeded 
program goals in the following categories:
  --In 2007, 57 percent of graduates and program completers of Titles 
        VII and VIII supported programs were underrepresented 
        minorities and/or from disadvantaged backgrounds. This exceeded 
        the target by 17 percent.
  --The proportion of trainees in Titles VII and VIII supported 
        programs training in medically underserved communities was 43 
        percent in 2007 which exceeded the target of 41 percent.
  --The percentage of health professionals supported by the program 
        entering practice in underserved areas was 35 percent in 2007. 
        This exceeded the target by 14 percent.\3\
---------------------------------------------------------------------------
    \3\ Department of Health and Human Services. Fiscal year 2009 
Health Resources and Services Administration Justification of Estimates 
for Appropriations Committee.
---------------------------------------------------------------------------
    The across-the-board cut reduced fiscal year 2008 section 747 
funding below the House-passed level to under $48 million or $853,000 
less than the fiscal year 2007 level of $48.9 million. It falls far 
short of the $92 million provided for Primary Care Medicine and 
Dentistry Training in fiscal year 2003. The Nation needs significant 
additional support from section 747 because it is the only national 
federally-funded program that provides resources for important 
innovations necessary to increase the number of physicians who will 
lead the primary care teams providing care in patient centered medical 
homes.
    AAFP recommends an increase in the fiscal year 2009 appropriation 
bill for the Health Professions Training Programs authorized under 
Title VII of the Public Health Services Act. We respectfully suggest 
that the Committee provide at least $300 million for Title VII, 
including $92 million for the section 747, the Primary Care Medicine 
and Dentistry Cluster, which will restore this vital program to its 
fiscal year 2003 level.
                  hrsa--national health service corps
    The National Health Service Corps (NHSC) offers scholarship and 
loan repayment awards to primary care physicians, nurse practitioners, 
dentists, mental and behavioral health professionals, physician 
assistants, certified nurse-midwives, and dental hygienists serving in 
underserved communities. The President has proposed a 2.4 percent 
decrease in NHSC to $121 million for fiscal year 2009. The President's 
budget also proposes to decrease the NHSC field allocation, which 
provides funding for recruitment and retention administrative 
functions, by $14 million (35 percent) to $26 million. The AAFP 
supports the work of the NHSC toward the goal of full funding for the 
training of the health workforce and zero disparities in health care.
    AAFP opposes the proposed cut in NHSC funding and respectfully 
requests that the Committee provide $150 million for NHSC in fiscal 
year 2009.
                           hrsa--rural health
    Americans in rural areas face more barriers to care than those in 
urban and suburban areas. Rural residents also struggle with the higher 
rates of illness associated with lower socioeconomic status.
    Family physicians provide the majority of care for America's 
underserved and rural populations.\4\ Despite efforts to meet 
scarcities in rural areas, the shortage of primary care physicians 
continues. Studies, whether they be based on the demand to hire 
physicians by hospitals and physician groups or based on the number of 
individuals per physician in a rural area, all indicate a need for 
additional physicians in rural areas.
---------------------------------------------------------------------------
    \4\ Hing E, Burt CW. Characteristics of office-based physicians and 
their practices: United States, 2003-04. Series 13, No. 164. 
Hyattsville, MD: National Center for Health Statistics. 2007.
---------------------------------------------------------------------------
    HRSA's Office of Rural Health administers a number of programs to 
improve health care services to the quarter of our population residing 
in rural communities. Rural Health Policy Development and Outreach 
Grants fund innovative programs to provide health care in rural areas. 
State rural health offices, funded through the National Health Services 
Corps budget, help States implement these programs so that rural 
residents benefit as much as urban patients. The President's budget 
proposes to cut the Rural Health Programs by 86 percent.
    AAFP encourages the Subcommittee to oppose the President's request 
to terminate these important programs and provide for their continued 
funding the fiscal year 2009 appropriation bill. We respectfully 
suggest that the Committee provide at least $175 million for HRSA Rural 
Health.
               agency for healthcare research and quality
    The mission of the Agency for Healthcare Research and Quality 
(AHRQ)--to improve the quality, safety, efficiency, and effectiveness 
of health care for all Americans--closely mirrors AAFP's own mission. 
AHRQ is a small agency with a huge responsibility for research to 
support clinical decision-making, reduce costs, advance patient safety, 
decrease medical errors and improve health care quality and access.
                ahrq--comparative effectivenss research
    One of the hallmarks of the patient centered medical home is 
evidence-based medicine. Comparative effectiveness research, which 
compares the impact of different options for treating a given medical 
condition, is vital to quality care. Studies comparing various 
treatments (e.g. competing drugs) or differing approaches (e.g. surgery 
and drug therapy) can inform clinical decisions by analyzing not only 
costs but the relative medical benefits and risks for particular 
patient populations.
    Comparative effectiveness research holds out the promise of 
reducing health care costs while improving medical outcomes. AHRQ's 
Effective Health Care Program is critical if we are to realize that 
promise. Although the President's budget request proposed to hold this 
important program at $30 million, the same as fiscal year 2008, we hope 
that the Congress will increase our investment in comparative 
effectiveness research.
                  ahrq--health information technology
    AHRQ plays a key role in the adoption of the health information 
technology (HIT) which is a vital component of the patient centered 
medical home. HIT is important to improving patient safety by reducing 
medical errors and avoiding costly duplication of services. It also is 
a vital to managing a patient's care when numerous providers are 
required. AAFP recognizes that HIT, used effectively, has the potential 
to help physicians make continuing improvements in the quality of care. 
However, simply implementing current HIT tools will not bring about 
these results. HIT adoption must go hand in hand with the 
implementation of the patient centered medical home model.
    It also is vital that AHRQ have the necessary resources to promote 
standards for portability and interoperability which ensure that health 
data is appropriately available and privacy protected. AAFP has called 
for HIT implementation which recognizes that over 80 percent of health 
care is delivered in doctors' offices.
    Adoption of good information systems can lay the groundwork for 
decision support and high quality health care. However, the communities 
which would benefit the most from HIT face barriers to adoption. 
Physicians treating vulnerable populations should be our highest 
priority. Any payments to physicians to purchase HIT systems should go 
to those serving in underserved areas in small or medium-sized 
practices where the capital to purchase EHRs is hardest to secure. 
These payments should not go through third-parties such as hospitals, 
integrated health systems, or health plans, but directly to clinics and 
practices based on financial need.
    AAFP recommends an increase in the fiscal year 2009 appropriation 
bill for the Agency for Healthcare Research and Quality (AHRQ). We 
respectfully suggest that the Committee provide at least $360 million 
for AHRQ, an increase of $26 million above the fiscal year 2008 level.
                                 ______
                                 
Prepared Statement of the American Academy of Otolaryngology--Head and 
                              Neck Surgery
    Chairman Harkin, ranking member specter, and members of the 
subcommittee, on behalf of the American Academy of Otolaryngology--Head 
and Neck Surgery (AAO-HNS), I first want to thank you for your past 
support of medical research and the critical efforts of the National 
Institutes of Health (NIH), particularly the National Institute on 
Deafness and Other Communications Disorders. The AAO-HNS represents 
more than 13,000 physicians and allied health professionals who 
specialize in the disorders of the ears, nose, throat, and related 
structures of the head and neck. Our members are deeply committed to 
providing the best care possible for our patients. For that reason, we 
strongly support the NIH, which is the leading source of new 
discoveries that improve the health of the American people.
    The AAO-HNS is concerned, however, that the President's fiscal year 
2009 budget request for NIH represents zero growth. For the past six 
years, the NIH budget has failed to keep pace with inflation, severely 
weakening NIH's ability to expand the frontier of medicine. The AAO-HNS 
joins other organizations in the medical and research community in 
urging you to support an increase of NIH's budget by $1.9 billion in 
fiscal year 2009. This 6.6 percent increase would bring significant 
change by halting the erosion of the Nation's medical research efforts, 
as well as help develop cutting edge medicines, techniques, and 
treatments to ensure the good health of millions of Americans.
    The AAO-HNS is also concerned that the President's budget did not 
include a funding request for the Early Hearing Detection and 
Intervention (EHDI) program. This program, initiated by Congress and 
administered within the U.S. Department of Health and Human Services, 
has dramatically increased the number of infants being tested for 
hearing loss. In 1998, prior to implementation of the program, 22 
percent of babies were reported as having received a hearing screen. 
Now, roughly 95 percent of all newborns are screened, and each year 
there are thousands of infants with hearing loss and their families who 
benefit from early identification.
    It is now time to focus upon the next goal of the program: to 
improve the outcomes of infants found to have hearing loss, by helping 
them enroll in early intervention programs. Currently, just over half 
of those infants diagnosed with hearing loss are enrolled in such 
programs by 6 months of age. Thus, continued federal funding is 
necessary to help ensure that all states and U.S. territories are given 
the opportunity to successfully implement comprehensive EHDI programs 
that will help improve the overall quality of life for deaf and hard-
of-hearing children. The AAO-HNS strongly urges the committee to 
provide, at a minimum, an inflationary increase for this program above 
the appropriated level in fiscal year 2008.
    On behalf of my fellow otolaryngologist-head and neck surgeons 
throughout America, I thank you for your attention to these important 
issues and your continued efforts to improve healthcare.
                                 ______
                                 
   Prepared Statement of the American Association for Cancer Research
                           executive summary
    The American Association for Cancer Research (AACR) would like to 
thank members for their support of National Institutes of Health (NIH) 
and National Cancer Institute (NCI) research on the biology, treatment 
and prevention of the more than 200 diseases called cancer. The AACR, 
with more than 26,000 members worldwide, represents and supports 
scientists by publishing respected, peer-reviewed scientific journals, 
hosting international scientific conferences, and awarding millions of 
dollars in research grants. Together, we have made great strides in the 
war on cancer, but much remains to be done. One in four deaths in 
America this year will be caused by cancer. Cancer-related deaths will 
increase dramatically as the baby boom generation ages, and we must be 
prepared to prevent, treat, and manage the impending wave of new 
cancers.
    Cancer is no longer a death sentence thanks to decades of research 
and development made possible by strong commitments from Congress and 
the American people, but now that commitment is wavering. After 
expanding capacity during the NIH budget doubling, researchers at 
hospitals and universities across the country now face shrinking 
budgets. Promising young researchers, unable to secure grants, turn to 
other careers. This disruption of the research pipeline will slow the 
development of new treatments and set back America's biomedical 
leadership for decades to come.
    We are at the vanguard of a revolution in healthcare, where 
personalized treatment will improve health, reduce harmful side 
effects, and lower costs. We have the opportunity to build upon our 
previous investments and accelerate the research process. Now is the 
time to face the nation's growing healthcare needs, reaffirm our role 
as world leaders in science, and renew our commitment to the research 
and development that brings hope to millions of suffering Americans. 
The AACR urges the U.S. Senate to support the following appropriations 
funding levels for cancer research in fiscal year 2009:
  --$32.1 billion for the National Institutes of Health, a 10.24 
        percent increase over fiscal year 2008.
  --At least $5.3 billion for the National Cancer Institute (the NCI 
        Professional Judgment budget required to maintain current 
        services), a 9.5 percent increase over fiscal year 2008.
    The American Association for Cancer Research (AACR) recognizes and 
expresses its thanks to the United States Congress for its longstanding 
support and commitment to funding cancer research. The completion of 
the five-year doubling of the budget of the National Institutes of 
Health (NIH) in 2003 was a stunning accomplishment that is already 
showing impressive returns and benefits to patients with cancer. 
Recently, however, budgets for cancer research have declined; this 
commitment appears to be wavering. Budget doubling enabled a 
significant expansion of infrastructure and scientific opportunities. 
Budget cuts prevent us from capitalizing on them.
    Unquestionably, the Nation's investment in cancer research is 
having a remarkable impact. Cancer death rates have been declining for 
over a decade, and the total number of annual cancer deaths declined in 
2003 and 2004. This progress occurred in spite of an aging population 
and the fact that more than three-quarters of all cancers are diagnosed 
in individuals aged 55 and older. Yet this good news will not continue 
without sustained and substantial Federal funding for critical cancer 
research priorities. Indeed, cancer deaths are again on the rise as the 
population ages. The American Association for Cancer Research joins the 
95 Senators who voted in favor of the Specter/Harkin budget amendment 
in urging the United States Senate to support the following 
appropriations funding levels for cancer research in fiscal year 2009:
  --$32.1 billion for the National Institutes of Health, a 10.24 
        percent increase over fiscal year 2008.
  --At least $5.3 billion for the National Cancer Institute (the NCI 
        Professional Judgment budget required to maintain current 
        services), a 9.5 percent increase over fiscal year 2008.
             aacr: fostering a century of research progress
    The American Association for Cancer Research has been moving cancer 
research forward since its founding 101 years ago in 1907. The AACR and 
its more than 26,000 members worldwide strive tirelessly to carry out 
its important mission to prevent and cure cancer through research, 
education, and communication. It does so by:
  --fostering research in cancer and related biomedical science;
  --accelerating the dissemination of new research findings among 
        scientists and others dedicated to the conquest of cancer;
  --promoting science education and training; and
  --advancing the understanding of cancer etiology, prevention, 
        diagnosis, and treatment throughout the world.
                 facing an impending cancer ``tsunami''
    Over the past century, enormous progress has been made toward the 
conquest of the nation's second most lethal disease (after heart 
disease). Thanks to discoveries and developments in prevention, early 
detection, and more effective treatments, many of the more than 200 
diseases called cancer have been cured or converted into manageable 
chronic conditions while preserving quality of life. The 5-year 
survival rate for all cancers has improved over the past 30 years to 
more than 65 percent. The completion of the doubling of the NIH budget 
in 2003 is bearing fruit as many new and promising discoveries are 
unearthed and their potential realized. However, there is much left to 
be done, especially for the most lethal and rarer forms of the disease.
    We recognize that the underlying causes of the disease and its 
incidence have not been significantly altered. The fact remains that 
men have a 1 in 2 lifetime risk of developing cancer, while women have 
a 1 in 3 lifetime risk. The leading cancer sites in men are the 
prostate, lung and bronchus, and colon and rectum. For women, the 
leading cancer sites are breast, lung and bronchus, and colon and 
rectum. And cancer still accounts for 1 in 4 deaths, with more than 
565,650 people expected to die from their cancer in 2006. Age is a 
major risk factor--this Nation faces a virtual ``cancer tsunami'' as 
the baby boomer generation reaches age 65 in 2011. A renewed commitment 
to progress in cancer research through leadership and resources will be 
essential to dodge this cancer crisis.
                  federal investment for local benefit
    Nearly 80 percent of the NCI budget is awarded to scientists who 
work at local hospitals and universities throughout the country. More 
than 5,400 research grants are funded at more than 150 cancer centers 
and specialized research facilities located in 49 states. Over half the 
states receive more than $15 million in grants and contracts to 
institutions located within their borders. Many AACR member scientists 
are engaged in this rewarding work. But too many of them have had their 
long-term research jeopardized by grant reductions caused by the flat 
and declining overall funding for the NCI since 2003. The AACR 
recommends, at a minimum, a 9.5 percent increase in funding for the 
National Cancer Institute to maintain its current services, supports a 
10.24 percent increase to enable the National Cancer Institute to 
expand its work on focused research questions.
           understanding the causes and mechanisms of cancer
    Basic research into the causes and mechanisms of cancer is at the 
heart of what the NCI and many of AACR's member scientists do. Basic 
research is the engine that drives scientific progress. The outcomes 
from this fundamental basic research--including laboratory and animal 
research in addition to population studies and the deployment of state-
of-the-art technologies--will inform and drive the cancer research 
enterprise in ways and directions that will lead to unparalleled 
progress in the search for cures.
               accelerating progress in cancer prevention
    Preventing cancer is far more cost-effective and desirable than 
treating it. The NCI uses multidisciplinary teams and a systems biology 
approach to identify early events and how to modify them. More than 
half of all cancers are related to modifiable behavioral factors, 
including tobacco use, diet, physical inactivity, sun exposure, and 
failure to get cancer screenings. The NCI supports research to 
understand how people perceive risk, make health-related decisions, and 
maintain healthy behavior. Prevention is the keystone to success in the 
battle against cancer.
             developing effective and efficient treatments
    The future of cancer care is all about developing individualized 
therapies tailored to the specific characteristics of a patient's 
cancer. Noteworthy recent advances in this area have included the 
development of oral versions of medicines that were formerly only 
available by injection, thus improving patients' quality of life; and 
the discovery of intraperitoneal (IP) chemotherapy--delivering drugs 
directly to the abdominal cavity--that can add more than a year to 
survival for some women with ovarian cancer.
                  overcoming cancer health disparities
    Some minority and underserved population groups suffer 
disproportionately from cancer. Solving this issue will contribute 
significantly to reducing the cancer burden. Successful achievements in 
this important area include the development and dissemination of the 
patient navigator program that assists patients and caregivers to 
access and chart a course through the healthcare system, and the NCI 
Cancer Information Services Partnership Program that provides 
information and education about cancer in lay language to the medically 
underserved through community organizations.
             aacr's initiatives augment support for the nci
    The NCI is not working alone or in isolation in any of these key 
areas. NCI research scientists reach out to other organizations to 
further their work. The AACR is engaged in scores of initiatives that 
strengthen, support, and facilitate the work of the NCI, including:
  --sponsoring the largest meeting of cancer researchers in the world, 
        with more than 17,000 scientists and 6,000 abstracts featuring 
        the latest scientific advances;
  --publishing more than 3,400 original research articles each year in 
        six prestigious peer-reviewed scientific journals, including 
        Cancer Research;
  --sponsoring the annual International Conference on Frontiers of 
        Cancer Prevention Research, the largest such prevention meeting 
        of its kind in the world;
  --raising and distributing more than $5 million in awards and 
        research grants.
 training and career development for the next generation of researchers
    Of critical importance to the viability of the long-term cancer 
research enterprise is supporting, fostering, and mentoring the next 
generation of investigators. The NCI devotes approximately four percent 
of its budget to multiple strategies to training and career 
development, including sponsored traineeships, a Medical Scientist 
Training Program, special set-aside grant programs and bridge grants 
for early career cancer investigators. Increased funding for these 
foundational opportunities is essential to retain the scientific 
workforce that is needed to continue the fight against cancer.
                     increase research funding now
    Remarkable progress is being made in cancer research, but much more 
remains to be done. Cancer costs the nation more than $219 billion in 
direct medical costs and lost productivity due to illness and premature 
death. Respected University of Chicago economists Kevin Murphy and 
Robert Topel have estimated that even a modest one percent reduction in 
mortality from cancer would be worth nearly $500 billion in social 
value. Investments in cancer research have huge potential returns. 
Thanks to successful past investments, promising research opportunities 
abound and must not be lost. To maintain our research momentum, the 
American Association for Cancer Research (AACR) urges the United States 
Senate to support the following appropriations funding levels for 
cancer research in fiscal year 2009:
  --$32.1 billion for the National Institutes of Health, a 10.24 
        percent increase over fiscal year 2008.
  --At least $5.3 billion for the National Cancer Institute (the NCI 
        Professional Judgment budget required to maintain current 
        services), a 9.5 percent increase over fiscal year 2008.
                                 ______
                                 
Prepared Statement of the American Association for Geriatric Psychiatry
    The American Association for Geriatric Psychiatry (AAGP) 
appreciates this opportunity to present its recommendations on issues 
related to fiscal year 2009 appropriations for mental health research 
and services. AAGP is a professional membership organization dedicated 
to promoting the mental health and well being of older Americans and 
improving the care of those with late-life mental disorders. AAGP's 
membership consists of approximately 2,000 geriatric psychiatrists as 
well as other health professionals who focus on the mental health 
problems faced by senior citizens.
    AAGP appreciates the work this subcommittee has done in recent 
years in support of funding for research and services in the area of 
mental health and aging through the National Institutes of Health (NIH) 
and the Substance Abuse and Mental Health Services Administration 
(SAMHSA). Although we generally agree with others in the mental health 
community about the importance of sustained and adequate Federal 
funding for mental health research and treatment, AAGP brings a unique 
perspective to these issues because of the elderly patient population 
served by our members.
       demographic projections and the mental disorders of aging
    With the baby boom generation nearing retirement, the number of 
older Americans with mental disorders is certain to increase in the 
future. By the year 2010, there will be approximately 40 million people 
in the United States over the age of 65. Over 20 percent of those 
people will experience mental health problems.
    Current and projected economic costs of mental disorders alone are 
staggering. It is estimated that total costs associated with the care 
of patients with Alzheimer's disease is over $100 billion per year in 
the United States. Psychiatric symptoms (including depression, 
agitation, and psychotic symptoms) affect 30 to 40 percent of people 
with Alzheimer's and are associated with increased hospitalization, 
nursing home placement, and family burden. These psychiatric symptoms, 
associated with Alzheimer's disease, can increase the cost of treating 
these patients by more than 20 percent.
    Depression is another example of a common problem among older 
persons. Of the approximately 32 million Americans who have attained 
age 65, about 5 million suffer from depression, resulting in increased 
disability, general health care utilization, and increased risk of 
suicide. Depression is associated with poorer health outcomes and 
higher health care costs. Co-morbid depression with other medical 
conditions affects a greater use and cost of medications as well as 
increased use of health services (e.g., medical outpatient visits, 
emergency visits, and hospitalizations). For example, individuals with 
depression are admitted to the emergency room for hypertension, 
arthritis, and ulcers at nearly twice the rate of those without 
depression. Those individuals with depression are more likely to be 
hospitalized for hypertension, arthritis, and ulcers than those without 
depression. Those with depression experience almost twice the number of 
medical visits for hypertension, arthritis and ulcers than those 
without depression. Finally, the cost of prescriptions and number of 
prescriptions for hypertension, arthritis, and ulcers were more than 
twice than those without depression.
    Older adults have the highest rate of suicide compared to any other 
age group. Comprising only 13 percent of the U.S. population, 
individuals age 65 and older account for 19 percent of all suicides. 
The suicide rate for those 85 and older is twice the national average. 
More than half of older persons who commit suicide visited their 
primary care physician in the prior month--a truly stunning statistic.
     the challenge of meeting the mental health needs of the aging 
population--proposal for iom study on mental health workforce needs of 
                            older americans
    On April 14, 2008, the Institute of Medicine (IOM) of the National 
Academy of Sciences released a study of the readiness of the nation's 
healthcare workforce to meet the needs of its aging population. In 
discussions with AAGP prior to the release of the study, IOM 
recommended that, because the scope of this study would not provide for 
in-depth consideration of the mental health workforce needed to meet 
future needs of the elderly, a complementary study be undertaken to 
consider specifically this vital area of concern. This complementary 
study would focus on the mental health professional workforce that will 
be needed to meet the demands of the aging population in this country. 
IOM has advised AAGP that $1 million would be needed to undertake this 
complementary mental health study.
    In discussions with AAGP, the senior staff of IOM suggested the 
following language for inclusion in the LaborHHS Appropriations bill:
    The Committee provides $1,000,000 for a study by the Institute of 
Medicine of the National Academy of Sciences to determine the multi-
disciplinary mental health workforce needed to serve older adults. The 
initiation of this study should be not later than 60 days after the 
date of enactment of this Act, whereby the Secretary of Health and 
Human Services shall enter into a contract with the Institute of 
Medicine to conduct a thorough analysis of the forces that shape the 
mental health care workforce for older adults, including education, 
training, modes of practice, and reimbursement.
    AAGP strongly urges inclusion of this proposal for funding for an 
IOM study on mental health workforce needs of older Americans in the 
fiscal year 2009 Labor HHS Appropriations bill.
                  national institute of mental health
    In his fiscal year 2009 budget, the President again proposed 
decreased funding for the National Institutes of Health (NIH). This 
decline in funding would have a devastating impact on the ability of 
NIH to sustain the ongoing, multi-year research grants that have been 
initiated in recent years.
    AAGP would like to call to the subcommittee's attention the fact 
that, even in the years in which funding was increased for NIH and 
NIMH, these increases did not always translate into comparable 
increases in funding that specifically address problems of older 
adults. Data supplied to AAGP by NIMH indicates that while extramural 
research grants by NIMH increased 59 percent during the five-year 
period from fiscal year 1995 through fiscal year 2000 (from 
$485,140,000 in fiscal year 1995 to $771,765,000 in fiscal year 2000), 
NIMH grants for aging research increased at less than half that rate: 
only 27.2 percent during the same period (from $46,989,000 to 
$59,771,000).
    Despite the fact that over the past 7 years Congress, through 
Committee report language, has specifically urged NIMH to increase 
research grant funding devoted to older adults, this has not occurred. 
In fact, this Committee's report accompanying the appropriations bill 
for fiscal year 2008, stated:
    Older Adults.--The Committee urges the NIMH to place a stronger 
emphasis on research on adults over age 65 to reflect the growth in 
numbers of this population. The Committee requests that the Institute 
provide data in the fiscal year 2009 congressional budget 
justifications on the amount of NIMH funding directed toward geriatric 
mental health research over the past 5 years.
    The critical disparity between Federally funded research on mental 
health and aging and the projected mental health needs of older adults 
is continuing. If the mental health research budget for older adults is 
not substantially increased immediately, progress to reduce mental 
illness among the growing elderly population will be severely 
compromised. While many different types of mental and behavioral 
disorders occur in late life, they are not an inevitable part of the 
aging process, and continued and expanded research holds the promise of 
improving the mental health and quality of life for older Americans.
                   center for mental health services
    It is also critical that there be adequate funding for the mental 
health initiatives under the jurisdiction of the Center for Mental 
Health Services (CMHS) within SAMHSA. While research is of critical 
importance to a better future, the patients of today must also receive 
appropriate treatment for their mental health problems. SAMHSA provides 
funding to State and local mental health departments, which in turn 
provide community-based mental health services to Americans of all 
ages, without regard to the ability to pay. AAGP was pleased that the 
final budgets for the last five years have included $5 million for 
evidence-based mental health outreach and treatment to the elderly. 
AAGP worked with members of this subcommittee and its House counterpart 
on this initiative, which is a very important program for addressing 
the mental health needs of the nation's senior citizens. However, AAGP 
is extremely alarmed to see that this program was eliminated in 
President Bush's fiscal year 2009 budget proposal. Restoring and 
increasing this mental health outreach and treatment program must be a 
top priority, as it is the only Federally funded services program 
dedicated specifically to the mental health care of older adults.
    The greatest challenge for the future of mental health care for 
older Americans is to bridge the gap between scientific knowledge and 
clinical practice in the community, and to translate research into 
patient care. Adequate funding for this geriatric mental health 
services initiative is essential to disseminate and implement evidence-
based practices in routine clinical settings across the States. 
Consequently, we would urge that the $5 million for mental health 
outreach and treatment for the elderly included in the CMHS budget for 
fiscal year 2008 be increased to $20 million for fiscal year 2009. Of 
that $20 million appropriation, AAGP believes that $10 million should 
be allocated to a National Evidence-Based Practices Program, which will 
disseminate and implement evidence-based mental health practices for 
older persons in usual care settings in the community. This program 
will provide the foundation for a longer-term national effort that will 
have a direct effect on the well-being and mental health of older 
Americans.
              health resources and services administration
    Despite growing evidence of the need for more geriatric specialists 
to care for the nation's elderly population, a critical shortage 
persists. AAGP appreciates the work of this Subcommittee in providing 
for the restoration of funding for the geriatric health professions 
programs under Title VII of the Public Health Service Act, which was 
eliminated for fiscal year 2006. The restoration of this program has 
prevented a devastating impact on physician workforce development over 
the next decade, with would have dangerous consequences for the growing 
population of older adults who will need access to appropriate 
specialized care. The Administration has again proposed eliminating 
most Title VII programs, including geriatrics. We urge the Subcommittee 
to fund them at the final fiscal year 2008 level. The geriatric health 
professions program supports three important initiatives. The Geriatric 
Faculty Fellowship trains faculty in geriatric medicine, dentistry, and 
psychiatry. The Geriatric Academic Career Award program encourages 
newly trained geriatric specialists to move into academic medicine. The 
Geriatric Education Center (GEC) program provides grants to support 
collaborative arrangements that provide training in the diagnosis, 
treatment, and prevention of disease.
                               conclusion
    Based on AAGP's assessment of the current need and future 
challenges of late life mental disorders, we submit the following 
fiscal year 2009 funding recommendations:
    1. An Institute of Medicine study on the future mental health 
workforce needs for older adults should be funded at $1 million, in 
accordance with the recommendation of the IOM.
    2. The current rate of funding for aging grants at NIMH and CMHS is 
inadequate and should be increased to at least three times their 
current funding levels. In addition, the substantial projected increase 
in mental disorders in our aging population should be reflected in the 
budget process in terms of dollar amount of grants and absolute number 
of new grants.
    3. To help the country's elderly access necessary mental health 
care, previous years' funding of $5 million for evidence-based mental 
health outreach and treatment for the elderly within CMHS must be 
increased to $20 million.
    4. Funding for the geriatric health professions program under Title 
VII of the Public Health Service Act should be continued at no less 
than fiscal year 2008 levels.
    AAGP looks forward to working with the members of this subcommittee 
and others in Congress to establish geriatric mental health research 
and services as a priority at appropriate agencies within the 
Department of Health and Human Services.
                                 ______
                                 
    Prepared Statement of the American Association of Immunologists
    The American Association of Immunologists (``AAI''), a not-for-
profit professional society representing more than 6,500 of the world's 
leading experts on the immune system, respectfully submits this 
testimony regarding fiscal year 2009 appropriations for the National 
Institutes of Health (``NIH''). The vast majority of AAI's members--
research scientists and physicians who work in academia, government, 
and industry--depend on NIH funding to advance their own work and the 
broader field of immunology.\1\ With approximately 83 percent of NIH's 
$29.2 billion budget awarded to scientists throughout the United States 
and around the world, NIH funding advances both immunological/
biomedical research and the regional and national economies.\2\
---------------------------------------------------------------------------
    \1\ The majority of AAI members receive grants from the National 
Institute of Allergy and Infectious Diseases (NIAID), the National 
Cancer Institute (NCI), and/or the National Institute on Aging (NIA).
    \2\ NIH funding supports more than 300,000 scientists/staff at more 
than 3,000 universities/medical schools/research institutions in every 
state and internationally. Fiscal year 2009 Director's Budget Request 
Statement: fiscal year 2009 Budget Request, Witness appearing before 
the House Subcommittee on Labor-HHS-Education Appropriations, Elias A. 
Zerhouni, M.D., Director, National Institutes of Health (3/5/08).
---------------------------------------------------------------------------
                            why immunology?
    HIV/AIDS, Cancer, Influenza, Malaria, Diabetes, Rheumatoid 
arthritis, Smallpox, Organ Transplants, and Asthma.
    Treatments and cures for these, and for many more infectious and 
chronic diseases, depend on our understanding of the immune system. And 
yet, the study of immunology is relatively new. Although scientists 
developed the first vaccine (against smallpox) in 1798, most of our 
basic understanding of the immune system has developed in the past 30-
40 years, and new discoveries are being made every day.
    What advances have been made! Vaccines protect us from childhood 
diseases that historically caused millions of childhood deaths and 
contributed to lower life expectancy.\3\ Advances in understanding the 
immune system enable us to better control environmental threats. 
Progress in our urgent quest to understand the immune response to 
natural infectious organisms that can be used as agents of bioterrorism 
(including plague, smallpox, and anthrax) or that threaten to cause the 
next pandemic (including avian influenza) may soon protect us against 
these dangerous pathogens. For all of these pressing needs and more, we 
need basic research on the immune system if we are to discover ways to 
prevent, treat, and cure disease.\4\
---------------------------------------------------------------------------
    \3\ Scientists have reported that vaccines for 7 of 12 routinely 
recommended childhood diseases prevent 33,000 deaths annually and 14 
million cases of disease [a], resulting in a savings of $10 billion in 
direct health costs and a savings of $33 billion in disability and lost 
productivity costs.'' Roush et al. ``Historical Comparisons of 
Morbidity and Mortality for Vaccine-Preventable Diseases in the United 
States.'' The Journal of the American Medical Association, Vol. 298, 
No. 18, pp. 2155-2163 (2007).
    \4\ The immune system works by recognizing and attacking ``foreign 
invaders'' (e.g., bacteria and viruses) inside the body and by 
controlling the growth of tumor cells. A healthy immune system can 
protect its human or animal host from illness or disease either 
entirely or partially (resulting in a less serious illness). It is also 
responsible for the rejection responses observed following 
transplantation of organs or bone marrow. The immune system can 
malfunction, allowing the body to attack itself instead of an invader 
(resulting in an ``autoimmune'' disease, such as Type 1 diabetes, 
multiple sclerosis, or rheumatoid arthritis).
---------------------------------------------------------------------------
    Recent scientific discoveries: Blockbusters and hope Vaccines are 
arguably the most successful immunotherapeutics that mankind has 
produced. Effective in preventing and all but eliminating a wide range 
of childhood and adult infectious diseases, their usefulness in cancer 
and chronic infectious disease has not been fully realized. That may 
all change due to the discovery of Toll-like Receptors (TLR), which 
recognize products (like DNA, lipids, lipoproteins, and flagella) 
present in pathogens (such as bacteria, viruses, and parasites) and 
mount an intense immune response; this could lead to the creation of a 
whole new generation of vaccines.
    A highly effective vaccine against cervical cancer caused by Human 
Papillomavirus (HPV), which infects over 8 percent of women aged 15-50, 
was recently approved by the Food and Drug Administration. The new 
vaccine (``Gardasil'') is efficacious in preventing primary infection 
and therefore in reducing the incidence of cervical cancer. More 
recently, a TLR immune adjuvant called MPL is being used as an adjuvant 
in a newer HPV vaccine; results from early clinical trials indicate 
that the adjuvant induces a more robust immune response in older adults 
and a faster response in young adults than does Gardasil.
    In 2007, B lymphocyte-depleting therapies were shown to be a 
revolutionary advance in the treatment of autoimmune diseases. In 
Rheumatoid Arthritis (RA), the anti-CD20 monoclonal antibody, 
rituximab, was shown to induce clinical remissions in previously 
unresponsive patients, to improve signs and symptoms, and to prevent 
structural damage. Rituximab therapy is now being used with impressive 
success in the treatment of many other autoimmune diseases, such as 
systemic lupus erythematosus (lupus) and relapsing remitting multiple 
sclerosis (MS) (controlling inflammation and further brain damage 
within one month).
    Other potentially important therapeutic avenues needing further 
support include the development of additional therapeutic monoclonal 
antibodies, increasingly recognized as the most promising mode of 
treatment for a myriad of human diseases, and the use of pre-transplant 
conditioning and administration of bone marrow to eliminate the need 
for immunosuppression following organ transplantation.
                     nih budget continues to erode
    AAI greatly appreciates this subcommittee's leadership in the 
successful effort to double the NIH budget. With this funding, 
biomedical scientists grew the research enterprise and trained new 
young investigators, preparing them to become tomorrow's teachers and 
leaders. Although the NIH budget has grown since the doubling ended in 
fiscal year 2003 (from $27.067 billion to $29.2 billion in fiscal year 
2008), sub-inflationary budget increases since fiscal year 2003 have 
resulted in a loss of purchasing power of more than 13 percent. Last 
year, AAI warned that such a loss in purchasing power was already 
beginning to have a devastating effect; this year, AAI can testify to 
the inordinate stress and life-altering consequences this has had on 
many researchers whose work continues to be excellent but whose grants 
simply cannot be funded when key NIH Institutes have already dropped 
their RO1 paylines to as low as 10-14 percent, significantly below the 
approximately 22 percent during the doubling period. In addition, 
success rates [the percentage of reviewed Research Project Grant (RPG) 
applications receiving funding computed on a fiscal year basis] have 
dropped to 21 percent in fiscal year 2007, the lowest since 1970, and 
to 19 percent in fiscal year 2008. With funding so low, many senior 
investigators with outstanding, innovative ideas--many of whom support 
(through their NIH grants) entire laboratories filled with younger 
faculty and post-doctoral fellows--are not being funded on their first 
renewal grant submission, forcing them to spend valuable time revising 
and resubmitting their applications.
    The President's fiscal year 2009 budget will exacerbate the above-
described situation by:
    1. providing no inflationary increase (for the 4th year) for 
direct, recurring costs in non-competing RPGs;
    2. providing inadequate increases (1 percent) to already inadequate 
stipends for pre- and post-doctoral fellows, whose work is critical to 
established investigators and who will be the principal scientists of 
tomorrow;
    3. increasing the adverse repercussions on Americans' health and 
the national economy: in addition to their terrible human toll, disease 
and disability cost society trillions of dollars annually in medical 
care, lost wages and benefits, and lost productivity; \5\ and
---------------------------------------------------------------------------
    \5\ National health expenditures cost $3.28 trillion in 2006 and 
are projected to be $4.1 trillion in 2016. See http://www.cms.hhs.gov/
NationalHealthExpendData/downloads/proj2006.pdf http://www.cms.hhs.gov/
NationalHealthExpendData/downloads/highlights.pdf
---------------------------------------------------------------------------
    4. jeopardizing the future of the biomedical research enterprise: 
our brightest young people will be deterred from pursuing biomedical 
research careers if their chances of receiving an NIH grant, or of 
sustaining a career as an NIH-funded scientist, do not improve. If we 
do not act soon, the United States will lose more of its scientists, as 
well as its preeminence in medical research and science, to nations 
(including India, Singapore, and China) that are already investing 
heavily in this essential economic sector.
   aai recommends a 6.5 percent budget increase for fiscal year 2009
    AAI urges the subcommittee to increase the NIH budget by 6.5 
percent ($1.9 billion) in fiscal year 2009, to $31.1 billion. This 
increase, which is only 3 percent above the projected rate of 
biomedical research inflation, would begin to restore both the loss in 
purchasing power that has occurred since the NIH budget doubling ended 
in fiscal year 2003 \6\ and the confidence of young scientists that a 
career in biomedical research is possible.
---------------------------------------------------------------------------
    \6\ According to the U.S. Department of Commerce's Biomedical 
Research and Development Price Index (``BRDPI''), the projected rate of 
biomedical research inflation for fiscal year 2009 is 3.5 percent. NIH 
funding increases since fiscal year 2003 have all been below the BRDPI. 
NIH memo dated February 4, 2008: ``Biomedical Research and Development 
Price Index: Fiscal Year 2007 Update and Projections for Fiscal year 
2008-2013'' http://officeofbudget.od.nih.gov/UI/2008/
BRDPI_Proj_2008_final.pdf
---------------------------------------------------------------------------
              other key issues: influenza and bioterrorism
    Seasonal influenza leads to more than 200,000 hospitalizations and 
about 36,000 deaths nationwide in an average year. Moreover, an 
influenza pandemic as serious as the one that occurred in 1918 could 
result in the illness of almost 90 million Americans and the death of 
more than 2 million, at a projected cost of $683 billion.\7\ AAI 
strongly believes that the best preparation for a pandemic is to focus 
on basic research to combat seasonal flu, including building capacity, 
pursuing new production methods (cell based), and seeking optimized flu 
vaccines and delivery methods. For bioterrorism, the focus should also 
be on basic research, including identifying new and potentially 
modified pathogens, understanding the immune response, and developing 
tools (including new and more potent vaccines) to protect against 
pathogens.
---------------------------------------------------------------------------
    \7\ A report issued by Trust for America's Health (``Pandemic Flu 
and the Potential for U.S. Economic Recession'') predicts that a severe 
pandemic flu outbreak could result in the second worst recession in the 
United States since World War II, resulting in a drop in the U.S. Gross 
Domestic Product of over 5.5 percent.
---------------------------------------------------------------------------
               other key issues: the nih ``common fund''
    The NIH Reform Act of 2006 established within NIH a ``Common Fund'' 
(``CF'') to support trans-NIH initiatives. The President's budget would 
increase the CF by $38 million, or 7.66 percent. While there is value 
to interdisciplinary research, AAI believes that CF funds should not 
grow faster than the NIH budget, and that all CF awards and grants must 
be awarded through a transparent and rigorous peer review process.
             other key issues: the nih public access policy
    AAI respectfully requests that the subcommittee require that NIH 
report on the cost of implementing the NIH Public Access Policy 
(``Policy''). To the best of AAI's knowledge, NIH has never reported 
the cost of the former voluntary Policy or the projected cost of the 
new mandatory Policy, and there is no requirement in law that NIH ever 
do so. AAI therefore requests that the subcommittee require NIH to 
publicly report by April 2009: (1) the total funds expended on 
implementing the voluntary Policy (May 2, 2005-January 11, 2008); (2) 
the cost anticipated for implementation of the mandatory Policy in 
fiscal year 2009; and (3) how much of the cost anticipated for fiscal 
year 2009 will be a one-time implementation cost, and how much will be 
an annual cost. AAI has submitted proposed language to the 
subcommittee's Chairman and Ranking Member for consideration (letter 
from AAI to Chairman Harkin and Senator Specter, March 18, 2008).
    AAI continues to believe that the Policy will duplicate, at great 
cost to NIH and to taxpayers, publication services which are already 
provided cost-effectively and well by the private sector. The private 
sector, including not-for-profit scientific societies, already 
publishes--and makes publicly available--thousands of scientific 
journals that report cutting-edge research funded by both NIH and other 
public and private entities. AAI urges that, rather than creating a new 
government bureaucracy (a particular burden in this era of severe 
budget constraints), NIH should partner with these publishers to 
develop a plan that enhances public access while also addressing 
publishers' key concerns, which include respecting copyright law and 
ensuring journals' continued ability to provide quality, independent 
peer review of NIH-funded research.
         other key issues: preserving high quality peer review
    NIH has recently conducted a ``Self-Study'' of its peer review 
system, soliciting the views of a wide range of stakeholders in an 
effort to improve what is already the world's best system. AAI 
applauds, and has participated fully in, this important effort. 
Nevertheless, AAI has some concerns that NIH has not adequately 
considered the importance of transparent evaluation and urges the 
subcommittee to ensure that NIH: (1) provides adequate time for 
stakeholder review and input on all final recommendations; and (2) 
conducts timely and transparent evaluation of all pilot projects and 
permanent changes, with ample opportunity for public comment. Even as 
NIH seeks to make needed improvements, it is essential that changes to 
our extraordinary peer review system, already the envy of the world, 
must first ``do no harm''.
         other key issues: ensuring the independence of science
    Millions of lives--as well as the prudent use of taxpayer dollars--
depend on the willingness of government officials to accept the best, 
most independent scientific advice available. AAI urges the 
subcommittee to ensure that funds expended protect the ability of 
scientists to provide independent scientific advice, whether through 
government advisory panels, through the peer review process, or by 
supporting the vitality of independent scientific journals that provide 
expert peer review of taxpayer funded research.
        other key issues: ensuring nih operations and oversight
    AAI urges the subcommittee to explore whether the President's 
proposed sub-inflationary increase of $20 million (1.49 percent) for 
Research, Management, and Services, which supports the management, 
monitoring, and oversight of all research activities (including peer 
review), is adequate to ensure NIH supervision of a portfolio of 
increasing size and complexity, as well as to ensure that NIH funds are 
properly spent.
                               conclusion
    AAI greatly appreciates this opportunity to submit testimony and 
thanks the Chairman, Ranking Member, and subcommittee for their strong 
support for biomedical research, the NIH, and the scientists who devote 
their lives to preventing, treating, and curing disease.
                                 ______
                                 
       Prepared Statement of the American Association of Museums
    Chairman Harkin, ranking member Spector, and distinguished members 
of the subcommittee, the American Association of Museums appreciates 
the opportunity to submit testimony on the fiscal year 2009 budget for 
the museum program at the Institute of Museum and Library Services 
(IMLS).
    The American Association of Museums (AAM) is the only organization 
representing the full scope of museums--art museums, history museums, 
science centers, children's museums, zoos and aquariums, public gardens 
and many specialty museums--along with professional staff and 
volunteers who work for and with museums. AAM currently represents more 
than 15,000 individual museum professionals and volunteers, 3,000 
institutions and 300 corporate members. Our membership is as diverse as 
the collections contained in the museums we represent.
    We respectfully request your approval of $46.3 million for grants 
to museums administered through the Office of Museum Services (OMS) at 
the Institute of Museum and Library Services (IMLS) and the agency's 
overall budget request of $500,000 for museum data collection.
    Museums and libraries are the most trusted sources of online 
information among adults of all ages, education levels, races and 
ethnicities. According to a recent IMLS report, museums and libraries 
rank higher in trustworthiness than all other information sources, 
including government, commercial and private websites. This report 
highlighted the vital role of museums in supplementing formal education 
and providing informal learning opportunities.
    There are more than 17,500 museums in America. As vibrant community 
assets and sources of civic pride, museums perform an essential 
function in the creation of America's social and cultural fabric.
    However, unlike schools and libraries, most museums operate as 
private, nonprofit organizations with nominal government funding. 
According to AAM's most recent financial survey, nonprofit museums 
receive approximately 24 percent of their budget from local, state and 
federal funding.
                          preserving our past
    Museums preserve and present to the public the collections that 
helped make America a great nation. The care of these objects is 
critical to their preservation for future generations. Toward that end, 
IMLS funded the Heritage Health Index, the first comprehensive survey 
ever conducted of the condition and preservation needs of our nation's 
collections, in museums, libraries, archives, historical societies and 
scientific research organizations. The survey produced two startling 
facts: These collections are visited more than 2.5 billion times a 
year, yet 630 million artifacts, encompassing works of art, 
photographs, historic objects, natural science specimens, books and 
periodicals, are currently at risk.
    One result of this survey was a multifaceted plan to manage, 
protect, and preserve these valuable objects. ``Connecting to 
Collections'' is an IMLS-supported initiative, through which grants 
fund statewide planning on preserving a state's collections.
    IMLS assists museums with efforts to examine, document, treat, 
stabilize, and restore their collections through the consultation 
services of the Conservation and Museum Assessment Programs and with 
financial assistance through the Conservation Project Support program. 
But the Conservation Project Support program's resources never meet the 
demand. In fiscal year 2008 IMLS received 172 applications and made a 
total of 65 grants (for a total of $4.9 million).
    An example of a State anticipating these needs and of the 
effectiveness of ``Connecting to Collections'' grants is the effort 
underway in Rhode Island. A $40,000 grant to the Rhode Island Office of 
Library and Information Services in 2008 enabled it to define and 
inventory the universe of statewide heritage collections, institute an 
online disaster planning program, train stakeholders in its use and 
share this knowledge with state and local emergency management 
agencies, first responders and heritage stakeholders. To date, 19 
similar statewide grants have been awarded.
    IMLS funds have enabled the Martin Art Gallery at Muhlenberg 
College in Muhlenberg, Pennsylvania, to give more serious attention to 
collections management. They are currently moving approximately 50 
percent of the Tanner Collection (works on paper) to storage in a 
climate-controlled storage area. In addition, a large 1868 painting is 
slated for conservation, and there is an increase in awareness about 
the responsibilities of holding collections in trust for the public.
                          educating the public
    As State and local public education mandates have changed, 
students' access to education in the arts, history and other subjects 
has been reduced. Museums have helped fill the void with invaluable 
learning experience for K-12 students. As school budgets have been cut, 
especially for off-site field trips, many museums have aggressively 
brought their institutions and collections directly to the students.
                          supporting research
    The United States needs a robust program of research in order to 
understand the larger impact of museums nationwide. Important areas of 
future research include:
  --measuring the educational and social influence of museums at the 
        national level while building the capacity of institutions to 
        measure how they affect their communities,
  --studying what skills are needed to be a successful 21st-century 
        museum professional, and what training is needed to nurture 
        leaders in the field,
  --supporting the ongoing collection of core data about museums, such 
        as financial benchmarks, attendance patterns and long-term 
        social impacts, and
  --examining areas of special interest to the museum field, such as 
        collections stewardship and the relationship between museums 
        and both formal and informal learning.
                        striving for excellence
    Museums must consistently strive to improve if they are to retain 
the public trust and fulfill their mission of education and public 
service. IMLS has been integral to that ongoing effort, in numerous 
ways. One of the most critical is its support of the Museum Assessment 
Program (MAP), a program that brings fresh, experienced, outside eyes 
to a museum's operations and collections management. MAP participants 
come to understand their strengths and weaknesses, learning how to 
improve overall operations and set institutional priorities. These 
museum improvements directly benefit the public they serve.
                         celebrating diversity
    While IMLS funds a wide range of programs and efforts at a broad 
range of institutions, two of the newest programs help ensure that 
museums reflect our nation's diversity. AAM supports the continuation 
of the Native American/Native Hawaiian Museum Services grants and 
Museum Grants for African American History and Culture. These 
institutions are among the newest specialized type of museums and must 
be supported to ensure that the public has access to the broadest 
interpretation and representation of the history and culture of our 
Nation.
                 training museum leaders and educators
    To further connect museums and their public to the future, IMLS has 
led the way in supporting the 21st Century Museum Professionals 
program, an initiative designed to empower future museum leaders to 
face a field that is rapidly changing. Today, the demands of a museum 
director are such that boards search for candidates who are strategic 
thinkers, excellent communicators and talented fundraisers, as well as 
having an entrepreneurial spirit and energy that will enable them to 
bridge the worlds of commerce and scholarly pursuits. According to a 
2006 AAM survey of museum finances, the average museum has a staff of 
six full-time employees and four part-time employees, including 
curators, educators, registrars, accountants and marketing and 
development professionals, with many filling more than one role. Like 
many other nonprofits, museums have also struggled to identify diverse 
pools of qualified workers.
    IMLS works to fill this void via the 21st Century Museum 
Professionals program. In its first two years of existence, the program 
has attracted 97 applicants for only 19 fundable spots. The agency's 
fiscal year 2009 request would allow IMLS to fund approximately 20 more 
applications in fiscal year 2009 than were funded in fiscal year 2007 
or will be funded in fiscal year 2008. IMLS received far more quality 
applications for this program than there are funds to grant. We urge 
the subcommittee to consider increasing future investment in the 
development of a diverse, talented and qualified workforce of museum 
professionals.
                          building communities
    Museums are iconic entities in their communities. Citizens take 
pride in their local museums. Museum-focused programs supported by IMLS 
strengthen these community ties while also serving a useful civic role, 
the benefits of which may reach well beyond local boundaries.
    A compelling example comes from St. Paul, where the Minnesota 
Historical Society used a 2002 IMLS grant of $125,389 to initiate a 
program designed to further integrate the Twin Cities' sizeable Somali 
population into their new host culture. This program trained 15 Somali 
women in the use of digital technology, resulting in a compelling film, 
Two Homes, One Dream: The Somalis in Minnesota. For the film the women 
did historical research; conducted oral history interviews with peers, 
elders, educators and community leaders; and filmed events across the 
Twin Cities. Some four years after its completion, Two Homes, One Dream 
is still requested and featured in public screenings throughout the 
region, as its themes of cultural identity and the immigrant experience 
continue to resonate with a diverse group of Minnesotans.
                               conclusion
    We realize how difficult it is to prioritize how resources are 
allocated among all the worthy programs that are within this 
subcommittee's jurisdiction. Our appeal is that, in making these 
important choices, you consider the vital contribution museums make in 
communities nationwide. Investing in museums is investing in our 
traditions, our culture, our heritage and in the American spirit of 
creativity and independence. By way of evidence, we offer this story of 
two Philadelphians for whom museums have been both an inspiration and a 
lifeline (first reported in February 2008 in the Philadelphia 
Inquirer):
    Bill McLaughlin and Dick Hughes are World War II veterans. Both are 
in their 80s. They attend the same church in Philadelphia, but were not 
really close friends. When Bill's wife was losing her battle with 
Alzheimer's, Dick thought it was his ``Christian duty'' to pull Bill 
out of his despondency. They spent an afternoon at the Academy of 
Natural Sciences in Philadelphia. They enjoyed it, for the intellectual 
stimulation and for the way it diverted their attention from other 
pressing matters. The following week, they visited the battleship New 
Jersey. And they continued to visit Philadelphia-area museums and 
historic sites for three years and a total of 203 museums. The result 
was a handy guide they recently published, entitled Travels with Dick 
and Bill, sales of which benefit their church. But more importantly, 
these travels cultivated their love for museums, an appreciation of 
their hometown and an enduring friendship that will undoubtedly last 
the rest of their lives.
    This is a poignant example of how museums bring us together, and of 
how these public institutions served two men who had served their 
country so nobly. With the continued support and leadership of an 
increased investment of federal funding in museums, and by working with 
our partners in the private sector, museums can continue to strive for 
the highest standards in fulfilling their mission of educating the 
public and preserving our heritage--and perhaps even more importantly, 
in continuing to touch American lives like those of Bill McLaughlin and 
Dick Hughes.
                                 ______
                                 
  Prepared Statement of the American Association of Nurse Anesthetists

                                 FISCAL YEAR 2009 APPROPRIATIONS REQUEST SUMMARY
----------------------------------------------------------------------------------------------------------------
                                                                                          AANA fiscal year 2009
                                       Fiscal year 2008 actual  Fiscal year 2009 budget          request
----------------------------------------------------------------------------------------------------------------
HHS/HRSA/BHPr Title VIII Advanced      Awaiting grant           Grant allocations not    $4,000,000 for nurse
 Education Nursing, Nurse Anesthetist   allocations--in fiscal   specified.               anesthesia education.
 Education Reserve.                     year 2007 awards
                                        amounted to approx.
                                        $3,500,000
                                      --------------------------------------------------------------------------
      Total for Advanced Education     $61,800,000 for          $0 for Advanced          $67,000,000 for
       Nursing, from Title VIII         Advanced Education       Education Nursing.       advanced education
                                        Nursing                                           nursing.
                                      --------------------------------------------------------------------------
      Title VIII HRSA BHPr Nursing     $156,046,000             $109,853,000             $200,000,000
       Education Programs.
----------------------------------------------------------------------------------------------------------------

    The AANA is the professional association for more than 37,000 
Certified Registered Nurse Anesthetists (CRNAs) and student nurse 
anesthetists, representing over 90 percent of the nurse anesthetists in 
the United States. Today, CRNAs are directly involved in delivering 30 
million anesthetics given to patients each year in the United States. 
CRNA services include administering the anesthetic, monitoring the 
patient's vital signs, staying with the patient throughout the surgery 
as well as providing acute and chronic pain management services. CRNAs 
provide anesthesia for a wide variety of surgical cases and are the 
sole anesthesia providers in almost 100 percent of rural hospitals, 
affording these medical facilities obstetrical, surgical, and trauma 
stabilization, and pain management capabilities. CRNAs work in every 
setting in which anesthesia is delivered, including hospital surgical 
suites and obstetrical delivery rooms, ambulatory surgical centers 
(ASCs), pain management units and the offices of dentists, podiatrists 
and plastic surgeons.
    Nurse anesthetists are experienced and highly trained anesthesia 
professionals whose record of patient safety in the field of anesthesia 
was bolstered by the Institute of Medicine report in 2000, which found 
that anesthesia is 50 times safer than 20 years previous. (Kohn L, 
Corrigan J, Donaldson M, ed. To Err is Human. Institute of Medicine, 
National Academy Press, Washington DC, 2000.) Nurse anesthetists 
continue to set for themselves the most rigorous continuing education 
and re-certification requirements in the field of anesthesia. Relative 
anesthesia patient safety outcomes are comparable among nurse 
anesthetists and anesthesiologists, with Pine having recently 
concluded, ``the type of anesthesia provider does not affect inpatient 
surgical mortality.'' (Pine, Michael MD et al. ``Surgical mortality and 
type of anesthesia provider.'' Journal of American Association of Nurse 
Anesthetists. Vol. 71, No. 2, p. 109-116. April 2003.)
    Even more recently, a study published in Nursing Research indicates 
that obstetrical anesthesia, whether provided by Certified Registered 
Nurse Anesthetists (CRNAs) or anesthesiologists, is extremely safe, and 
there is no difference in safety between hospitals that use only CRNAs 
compared with those that use only anesthesiologists. (Simonson, Daniel 
C et al. ``Anesthesia Staffing and Anesthetic Complications During 
Cesarean Delivery: A Retrospective Analysis.'' Nursing Research, Vol. 
56, No. 1, pp. 9-17. January/February 2007). In addition, a recent AANA 
workforce study's data showed that CRNAs and anesthesiologists are 
substitutes in the production of surgeries, and it is important to note 
that through continual improvements in research, education, and 
practice, nurse anesthetists are vigilant in their efforts to ensure 
patient safety.
    CRNAs provide the lion's share of anesthesia care required by our 
U.S. Armed Forces through active duty and the reserves. In May 2003 at 
the beginning of ``Operation Iraqi Freedom,'' 364 CRNAs were deployed 
to the Middle East to ensure military medical readiness capabilities. 
For decades, CRNAs have staffed ships, remote U.S. military bases, and 
forward surgical teams without physician anesthesiologist support.
      importance of title viii nurse anesthesia education funding
    The nurse anesthesia profession's chief request of the Subcommittee 
is for $4 million to be reserved for nurse anesthesia education and $67 
million for advanced education nursing from the Title VIII program. We 
feel that this funding request is well justified, as we are seeing a 
vacancy rate of nurse anesthetists in the United States impacting 
people's healthcare. The Title VIII program, which has been strongly 
supported by members of this Subcommittee in the past, is an effective 
means to help address the nurse anesthesia workforce demand. This 
demand for CRNAs is something that the nurse anesthesia profession 
addresses every day with success and also with the critical assistance 
of Federal funding through HHS' Title VIII appropriation.
    The AANA is very concerned that the President's fiscal year 2009 
budget proposal eliminates funding for Advanced Education Nursing 
Programs, which seek to increase the number of providers in rural and 
underserved America and are the master's and doctoral prepared 
providers who are eligible to serve as faculty. Therefore, cuts to this 
program in Title VIII present a two-fold loss--reducing the number of 
providers who are trained as clinicians to fill the nursing shortage 
and reducing the number of eligible faculty to alleviate the faculty 
shortage.
    Increasing funding for advanced education nursing from $61.8 
million to $67 million is necessary to meet the continuing demand for 
nursing faculty and other advanced education nursing services 
throughout the United States. Only a limited number of new programs and 
traineeships can be funded each year at the current funding levels. The 
program provides for competitive grants that help enhance advanced 
nursing education and practice and traineeships for individuals in 
advanced nursing education programs. This funding is critical meeting 
the nursing workforce needs of Americans who require healthcare. In 
2007, the AANA conducted a nurse anesthesia workforce study that found 
a 12.6 percent vacancy rate in hospitals for CRNAs, and a 12.5 percent 
faculty vacancy rate. The supply of clinical providers has increased in 
recent years, stimulated by increases in the number of CRNAs trained. 
Between 2003-2007, the number of nurse anesthesia educational program 
graduates nearly doubled. However, the nurse anesthetist vacancy rate 
remained steady at around 12 percent, which is likely due to increased 
demand for anesthesia services as the population ages, growth in the 
number of clinical sites requiring anesthesia services, and CRNA 
retirements.
    The problem is not that our 108 accredited programs of nurse 
anesthesia are failing to attract qualified applicants. It is that they 
have to turn them away by the hundreds. The capacity of nurse 
anesthesia educational programs to educate qualified applicants is 
limited by the number of faculty, the number and characteristics of 
clinical practice educational sites, and other factors. A qualified 
applicant to a CRNA program is a bachelor's educated registered nurse 
who has spent at least one year serving in an acute care healthcare 
practice environment. Nurse anesthesia educational programs are located 
all across the country including the following States:

------------------------------------------------------------------------
                                                           Number of
                                                        Accredited Nurse
                        State                              Anesthesia
                                                            Programs
------------------------------------------------------------------------
AL...................................................                  2
IA...................................................                  1
IL...................................................                  5
LA...................................................                  2
NJ...................................................                  2
PA...................................................                 12
RI...................................................                  2
TX...................................................                  5
WA...................................................                  1
WI...................................................                  1
------------------------------------------------------------------------

    Recognizing the important role nurse anesthetists play in providing 
quality healthcare, the AANA has been working with the 108 accredited 
nurse anesthesia educational programs to increase the number of 
qualified graduates. In addition, the AANA has worked with nursing and 
allied health deans to develop new CRNA programs.
    The Council on Certification of Nurse Anesthetists (CCNA) reports 
that in 1999, our schools produced 948 new graduates. In 2005, that 
number had increased to 1,790, an 89 percent increase in just five 
years. This growth is expected to continue. The CCNA projects CRNA 
programs to produce over 2,000 graduates in 2008. To truly meet the 
nurse anesthesia workforce challenge, the capacity and number of CRNA 
schools must continue to expand. With the help of competitively awarded 
grants supported by Title VIII funding, the nurse anesthesia profession 
is making significant progress, expanding both the number of clinical 
practice sites and the number of graduates.
    The AANA is pleased to report that this progress is extremely cost-
effective from the standpoint of Federal funding. Anesthesia can be 
provided by nurse anesthetists, physician anesthesiologists, or by 
CRNAs and anesthesiologists working together. As mentioned earlier, the 
study by Pine et al confirms, ``the type of anesthesia provider does 
not affect inpatient surgical mortality.'' Yet, for what it costs to 
educate one anesthesiologist, several CRNAs may be educated to provide 
the same service with the same optimum level of safety. Nurse 
anesthesia education represents a significant educational cost-benefit 
for supporting CRNA educational programs with Federal dollars vs. 
supporting other models of anesthesia education.
    To further demonstrate the effectiveness of the Title VIII 
investment in nurse anesthesia education, the AANA surveyed its CRNA 
program directors in 2003 to gauge the impact of the Title VIII 
funding. Of the eleven schools that had reported receiving competitive 
Title VIII Nurse Education and Practice Grants funding from 1998 to 
2003, the programs indicated an average increase of at least 15 CRNAs 
graduated per year. They also reported on average more than doubling 
their number of graduates, who provide care to patients during and 
following their education. Moreover, they reported producing additional 
CRNAs that went to serve in rural or medically underserved areas. Under 
both of these circumstances, an increased number of student nurse 
anesthetists and CRNAs are providing healthcare to the people of 
medically underserved America.
    We believe it is important for the Subcommittee to allocate $4 
million for nurse anesthesia education for several reasons. First, as 
this testimony has documented, the funding is cost-effective and very 
needed. Second, the Title VIII authorization previously providing such 
a reserve expired in September 2002. Third, this particular funding is 
important because nurse anesthesia for rural and medically underserved 
America is not affected by increases in the budget for the National 
Health Service Corps and community health centers, since those 
initiatives are for delivering primary and not surgical healthcare. 
Lastly, this funding meets an overall objective to increase access to 
quality healthcare in medically underserved America.
       title viii funding for strengthening the nursing workforce
    The AANA joins a growing coalition of nursing organizations, 
including the Americans for Nursing Shortage Relief (ANSR) Alliance and 
representatives of the nursing community, and others in support of the 
Subcommittee providing a total of $200 million in fiscal year 2009 for 
nursing shortage relief through Title VIII. This amount is 
approximately $44 million over the fiscal year 2008 level and $90 
million above the President's fiscal year 2009 budget.
    Every district in America is familiar with the importance of 
nursing. The AANA appreciates the support for nurse education funding 
in fiscal year 2008 and past fiscal years from this Subcommittee and 
from the Congress. The need for increasing nurse educational funding to 
strengthen our healthcare is clear. According to the Office of the 
Actuary at the Centers for Medicare & Medicaid Services, America spent 
about $2.1 trillion on healthcare in 2006, which is the most recent 
year for which the agency had records. About $401 billion of that was 
from Medicare outlays. Medicaid spending was $309 billion. It is 
estimated that Medicare directs over $8.7 billion of its outlays to 
Graduate Medical Education (GME), of which more than $2.3 billion goes 
to Direct GME. Approximately 99 percent of that educational funding 
helps to educate physicians and allied health professionals, and about 
1 percent is allocated to help educate nurses.
    In the interest of patients past and present, particularly those in 
rural and medically underserved parts of this country, we ask Congress 
to reject cuts from Federal investments in CRNA and nursing educational 
funding programs and to provide these programs the sustained increases 
required to help ensure Americans get the healthcare that they need and 
deserve. Quality anesthesia care provided by CRNAs saves lives, 
promotes quality of life, and makes fiscal sense. This federal support 
for nurse education will improve patient access to quality services and 
strengthen the Nation's healthcare delivery system. Thank you.
                                 ______
                                 
          Prepared Statement of the American Chemical Society
    The American Chemical Society (ACS) appreciates the opportunity to 
submit public testimony to the Labor, Health and Human Services, 
Education, and Related Agencies Subcommittee on the fiscal year 2009 
budget for the U.S. Department of Education (DoEd).
    The ACS is a nonprofit scientific and educational organization, 
chartered by Congress in 1937, with more than 160,000 chemical 
scientists and engineers as members. The world's largest scientific 
society, ACS advances the chemical enterprise, increases public 
understanding of chemistry and science, and brings its expertise to 
bear on state and national matters.
    A hardworking and entrepreneurial American workforce, coupled with 
aggressive federal and private investment in scientific and 
technological research, sent a man to the moon, harnessed the atom, 
sequenced the human genome, and built a dynamic, robust, and growing 
economy that is the envy of the world. As the 21st Century blossoms, we 
must revitalize our commitment to strengthen the pillars of American 
innovation and competitiveness--education, basic research, and a 
business environment to drive innovation.
    Last year, Congress showed strong bipartisan support for increased 
investment to strengthen the U.S. science, technology, engineering, and 
mathematics (STEM) education pipeline and basic research in the 
physical sciences by enacting the America COMPETES Act. This 
groundbreaking legislation authorizes a dramatic expansion of federal 
investments in many aspects of STEM education from teacher training and 
recruitment, to educational research, to support for students studying 
in science and technology fields. As other nations around the globe are 
quickly advancing scientifically and technologically, it is imperative 
that the Congress--and especially your Subcommittee--appropriate the 
funding necessary to fully implement the America COMPETES Act.
                  american competitiveness initiative
    The ACS supports the $175 million proposed for fiscal year 2009 by 
the Administration's American Competitiveness Initiative for math and 
science education programs at the Department of Education.
    We support the proposed funding level of $70 million for the 
Advanced Placement/International Baccalaureate as well as $95 million 
for the new Math Now program. Both of these new initiatives were 
authorized by the America COMPETES Act and are broadly supported by the 
scientific, education, and business communities.
    Our Society continues to strongly support the Administration's 
Adjunct Teacher Corps initiative, proposed at $10 million in fiscal 
year 2009, which would encourage up to 30,000 experienced professionals 
with subject-matter knowledge to enter the classroom to teach part- or 
full-time in areas of high need, including science and math. We 
recommend that sufficient funding be provided to ensure adequate 
teacher development and certification for these professionals.
                             k-12 education
    We profoundly disagree with Administration's decision to flat fund 
the DoEd Math and Science Partnership program and strongly support a 
budget increase in fiscal year 2009 toward the fully authorized level 
of $450 million. One of the most critical issues facing STEM education 
today is the supply of qualified K-12 science and mathematics teachers. 
The Math and Science Partnerships program, authorized in the No Child 
Left Behind Act at an increasing annual level to reach a sustainable 
level of $450 million by fiscal year 2007, is the sole source of 
dedicated K-12 math and science funding at the Department of Education. 
It supports valuable long-term, content-based, continuing education for 
math and science teachers--the type of training that research shows is 
most effective in improving student achievement.
                   vocational and technical education
    We are highly disappointed by the administration's decision to 
eliminate the Perkins Career and Technical Education program, which was 
reauthorized by Congress with overwhelming support in 2006. We urge 
that Congress appropriate full funding for this broadly supported 
program to aid students in acquiring rigorous academic and technical 
skills to prepare them for careers in science and technology that will 
help maintain U.S. competitiveness in the global economy.
                            higher education
    We support the administration's proposal to expand the Graduate 
Assistance in Areas of National Need (GAANN) program by 10 percent in 
fiscal year 2009 to $32.5 million. The budget request for GAANN, which 
provides graduate students in science and other high-need fields with 
enhanced fellowship assistance, would support 747 fellowships in 2009, 
including 529 new fellows. ACS supports expansion of this program to at 
least 1,200 fellowships. Our Society also believes that the Minority 
Science and Engineering Improvement program is an effective mechanism 
to increase the participation of underrepresented minorities in 
scientific and technological careers.
    In closing, we thank you for the opportunity to express our views 
on the funding priorities of your Subcommittee. We strongly urge you to 
make the sustained and robust investments in STEM education that will 
be critical to the success of U.S. global competitiveness and continued 
economic growth.
                                 ______
                                 
    Prepared Statement of the American College of Obstetricians and 
                             Gynecologists
    The American College of Obstetricians and Gynecologists (ACOG), 
representing 52,000 physicians and partners in women's health care, is 
pleased to offer this statement to the Senate Committee on 
Appropriations, Subcommittee on Labor, Health and Human Services, and 
Education. We thank Chairman Harkin, ranking member Specter, and the 
entire subcommittee for their leadership to continually address women's 
health research at the National Institutes of Health (NIH).
    The Nation has made important strides to improve women's health 
over the past several years, and ACOG is grateful to this Committee for 
its commitment to ensure that vital research continues to eliminate 
disease and to ensure valuable new treatment discoveries are 
implemented. This dedicated commitment to elevate, promote and 
implement medical research faces an uncertain future at a time when 
scientists are on the cusp of new cures.
    We urge the Committee to support a 6.6 percent increase for the 
National Institutes of Health (NIH), and all of its institutes, in 
fiscal year 2009.
                   women's health research at the nih
    NIH institutes work collaboratively to conduct women's health 
research. The Eunice Kennedy Shiver National Institute of Child Health 
and Human Development (NICHD) conducts the majority of women's health 
research, and has made critical accomplishments in preterm birth, 
contraceptive research, and infertility. The National Cancer Institute 
(NCI) has made monumental discoveries on gynecologic cancers, and the 
National Institute of Diabetes and Digestive and Kidney Diseases 
(NIDDK) works with the NICHD to discover treatments for urinary 
incontinence. The Office of Research on Women's Health (ORWH) in the 
NIH Office of the Director coordinates women's health research projects 
and manages mentoring programs for new investigators.
                      mentoring new investigators
    Despite the NIH's critical advancements, reduced funding levels 
have made it difficult for research to continue, largely due to the 
lack of new investigators. The NIH advanced women's health research 
during the Congressional doubling between fiscal year 1998 and fiscal 
year 2003, but funding increases have been so low since fiscal year 
2003, the NIH budget is almost same as it was before the doubling.
    The Building Interdisciplinary Research Careers in Women's Health 
(BIRCWH), operated by the ORWH, and the Women's Reproductive Health 
Research (WRHR) Career Development Program at the NICHD, attract new 
researchers, but low pay lines make it difficult for the NIH to 
maintain them. We urge the Committee to significantly increase funding 
for women's health research at the NIH to maintain a high level of 
research innovation and excellence, in turn reducing the incidence of 
maternal morbidity and mortality and discovering cures for other 
chronic conditions.
   office of the director-office of research on women's health (orwh)
Coordinating and Promoting Women's Health Research throughout NIH
    Established in September 1990, the Office of Research on Women's 
Health (ORWH) is a focal point for women's health research at the NIH.
    The ORWH manages the BIRCWH program, which mentors new 
investigators at several institutions including the University of 
Wisconsin, Madison, in Madison, Wisconsin; Tulane University, in New 
Orleans, Louisiana; Northwestern University and the University of 
Illinois, Chicago, in Evanston and Chicago, Illinois, respectively; and 
Pennsylvania State University and Magee Women's Hospital of the 
University of Pittsburgh Medical Center in University Park, and 
Pittsburgh, Pennsylvania, respectively.
    BIRCWH programs are expanding women's health research through 
career development, increasing diversity in the field of women's 
health, promoting interdisciplinary research training and developing 
independent researchers with backgrounds in high priority women's 
health research areas.
    The ORWH recently launched the NIH Women's Health Fellowships in 
Intramural Women's Health Research. This intramural program is funded 
through the Foundation of the NIH, which was established by Congress to 
maximize the resources at the NIH and support medical research through 
public-private partnerships. The fellowships are supported by donations 
from Battelle and AstraZeneca.
    An ob-gyn resident at Loyola University, Chicago, Illinois, is one 
of the first recipients of the fellowship. She is studying the 
difference in severity and prevalence of fibroids in African American 
and white women. The Women's Health Fellowship helps new investigators 
enhance their research skills, and mentor women to senior positions in 
science.
    ACOG urges Congress to increase funding for the ORWH to help 
prepare the next generation of women's health researchers.
  eunice kennedy shriver national institute of child health and human 
                          development (nichd)
Expanding Maternal Health Research
    The Maternal Fetal Medicine Units (MFMU) Network investigates 
clinical questions in maternal fetal medicine and obstetrics, with a 
focus on preterm birth, and has advanced women's health research by 
making several monumental discoveries including using progesterone 
treatments to reduce preterm birth.
    The MFMU is working at 14 sites across the United States 
(University of Alabama, University of Texas-Houston, University of 
Texas-Southwestern, Wake Forest University, University of North 
Carolina, Brown University-Women and Infant's Hospital, Columbia 
University, Drexel University, University of Pittsburgh-Magee Women's 
Hospital, University of Utah, Northwestern University, Wayne State 
University, Case Western University, and Ohio State University), to 
reduce the risks of pre term birth, cerebral palsy, and preeclampsia 
(high blood pressure).
    In 2006 Congress passed the PREEMIE Act of 2006, Public Law 109-
450, increasing research funding on prematurity. In June 2008, the 
NICHD will hold the Surgeon's Conference on Preventing Preterm Birth, 
as authorized in Public Law 109-450.
    ACOG urges Congress to increase funding for the NICHD, which will 
fund the research authorized in the PREEMIE Act, and increase funds for 
the MFMU.
                    national cancer institute (nci)
Developing Gynecologic Cancer Research, Prevention and Education
    The NCI is funding vital women's health research throughout the 
United States.
  --Effects of Cervical Procedure on Pregnancy.--At the Washington 
        University School of Medicine, St. Louis, MO, researchers are 
        studying the impact of the Loop Electrosurgical Excision 
        Procedure (LEEP), which is a common treatment for abnormal 
        cells on the cervix, on subsequent pregnancy. This study may 
        determine whether LEEP increases the risk of preterm birth and 
        other adverse pregnancy outcomes.
  --Stress and Ovarian Cancer.--At the University of Texas, MD Anderson 
        Cancer Center, Houston, TX, researchers are examining the 
        effects of chronic stress on growth and progression of ovarian 
        cancer along with underlying mechanisms. Based on these 
        results, researchers hope to gain a better understanding of the 
        adverse effects of chronic stress and discover new strategies 
        for blocking its harmful effects on cancer patients.
  --Pediatric Cancer Survivor Fertility.--There are currently over 
        250,000 childhood cancer survivors in the United States, and 
        while cancer therapies improve long-term survival, such 
        treatments may impair fertility potential and cause premature 
        ovarian failure. Research at the University of Pennsylvania, 
        Philadelphia, PA, will provide preliminary data for the 
        establishment of a long-term study of pediatric cancer 
        survivors and their pregnancy rates, pregnancy outcomes and the 
        occurrence of premature menopause.
Expanding Ovarian Cancer Research
    Despite the women's health research advancements at the NCI, much 
more needs to be done. According to the NCI, there will be 22,430 new 
cases of ovarian cancer and 15,280 deaths from ovarian cancer in the 
United States in 2007. With more ovarian cancer biomarker research, we 
may reduce ovarian cancer.
    ACOG urges Congress to pass the Ovarian Cancer Biomarker Act, S. 
2569/H.R. 3689, which would increase funding for research and clinical 
centers at the NCI for risk stratification, early detection and 
screening of ovarian cancer.
Increasing Gynecologic Cancer Education
    Public and provider education on gynecologic cancers is critical to 
early detection. When women and their doctors understand the symptoms 
and risk factors of gynecologic cancers they can find appropriate 
medical help quickly, increasing the potential for earlier detection.
    ACOG urges Congress to fully fund Johanna's Law, Public Law 109-
475, at $10 million in fiscal year 2009, which would increase provider 
and public education on gynecologic cancers, saving thousands of 
women's lives.
   national institute of diabetes and digestive and kidney diseases 
                                (niddk)
Exploring Treatments for Urinary Incontinence
    The Urinary Incontinence Treatment Network (UITN) at the NIDDK and 
the NICHD, researches urinary incontinence treatments. The UITN 
clinical trials compare the outcomes of commonly used surgical 
procedures, drug therapies, and behavioral treatments for incontinence.
    The Trial of Mid-Urethral Slings (TOMUS) researches the outcomes of 
surgical procedures to treat stress urinary incontinence. Although 
these surgical procedures are approved by the Food and Drug 
Administration (FDA), researchers are investigating which are more 
effective.
    The Stress Incontinence Surgical Treatment Efficacy Trial (SISTEr) 
studies the long-term outcomes of commonly performed stress urinary 
incontinence treatment surgeries. The Burch procedure and the sling 
produce have estimated cure rates of 60 percent-90 percent, and 
researchers are determining which produces the best long-term outcome.
    The Behavior Enhances Drug Reduction of Incontinence (BE-DRI) 
studies whether adding behavioral treatment to drug therapy makes it 
possible to discontinue drug treatment, and still maintain a reduced 
number of incontinence accidents.
    ACOG urges Congress to increase funding for critical women's health 
research at the NIDDK.
    Again, we would like to thank the Committee for its continued 
support of programs to improve women's health, and urge Congress to 
increase funding for the NIH and its institutes 6.6 percent above 
fiscal year 2008 levels in fiscal year 2009.
                                 ______
                                 
        Prepared Statement of the American Diabetes Association
                          introductory remarks
    Thank you Chairman Harkin, ranking member Specter and members of 
the committee for your work to provide the first increase since fiscal 
year 2005 for education and prevention programs at the Centers for 
Disease Control and Prevention (CDC) and diabetes research at the 
National Institutes of Health (NIH). As the nation's leading nonprofit 
health organization providing diabetes research, information and 
advocacy, we appreciate the opportunity to submit testimony on the 
importance of federal funding for vital diabetes programs and the 
devastating effect diabetes is having on our nation.
                         background information
    There are currently 20.8 million Americans who have diabetes, 7 
percent of the population. Of the 20.8 million, 6.2 million are unaware 
that they have diabetes. Additionally there are 54 million more 
Americans with pre-diabetes \1\ meaning their blood glucose levels are 
higher than normal and are at increased risk of progressing to diabetes 
unless they take steps to reduce their risk. Together, this means that 
25 percent of the U.S. population either has, or is at risk for 
developing, this serious disease. Federal funding for diabetes 
prevention and research efforts are critical to facing this epidemic.
---------------------------------------------------------------------------
    \1\ www.cdc.gov/diabetes/pubs/pdf/ndfs_2005.pdf
---------------------------------------------------------------------------
    Diabetes is Serious.--It is a chronic condition that impairs the 
body's ability to use food for energy. The hormone insulin, which is 
made in the pancreas, helps the body change food into energy. In people 
with diabetes, the pancreas either does not create any insulin, which 
is type 1 diabetes, or the body doesn't create enough insulin and/or 
cells are resistant to insulin, which is type 2 diabetes. If left 
untreated, diabetes results in too much glucose in the blood stream. 
Type 1 individuals account for 5 to 10 percent of all diagnosed cases; 
type 2 diabetes accounts for 90 to 95 percent of diabetes cases. 
Diabetes is the leading cause of kidney disease, adult-onset blindness 
and lower limb amputations as well as a significant cause of heart 
disease and stroke.\2\ Every 21 seconds someone is diagnosed with 
diabetes. More than 4,000 people will be diagnosed in 24 hours. During 
this same time frame there will be 230 amputations, 120 people will 
enter end-stage kidney disease programs, and 55 people will go blind 
all due to diabetes.\3\ 
---------------------------------------------------------------------------
    \2\ www.cdc.gov/diabetes/pubs/pdf/ndfs_2005.pdf
    \3\ Frank Vinicor, Associate Director for Public Health Practice at 
the Centers for Disease Control, qtd. in N.R. Kleinfield, ``Diabetes 
and Its Awful Toll Quietly Emerges as a Crisis,'' The New York Times, 9 
January 2006.
---------------------------------------------------------------------------
    Diabetes is Costly.--The total annual economic cost of diabetes in 
2007 was estimated to be $174 billion. Medical expenditures totaled 
$116 billion and were comprised of $27 billion for diabetes care, $58 
billion for chronic diabetes-related complications, and $31 billion for 
excess general medical costs. Indirect costs resulting from increased 
absenteeism, reduced productivity, disease-related unemployment 
disability, and loss of productive capacity due to early mortality 
totaled $58 billion. This is an increase of $42 billion since 2002. A 
32 percent increase, meaning that the dollar amount has grown over $8 
billion each year. In fact, approximately one out of every five health 
care dollars is spent caring for someone with diagnosed diabetes, while 
one in ten health care dollars is attributed to diabetes.\4\ 
Additionally, approximately one-third of Medicare expenses are 
associated with treating diabetes and its complications.\5\
---------------------------------------------------------------------------
    \4\ http://care.diabetesjournals.org/misc/econcosts.pdf
    \5\ http://www.nih.gov/about/researchresultsforthepublic/
Type2Diabetes.pdf
---------------------------------------------------------------------------
    Diabetes is Deadly.--It is the fifth leading cause of death by 
disease, compromising of an estimated 224,092 deaths each year. 
Diabetes is likely to be underreported as a cause of death. Studies 
have found that less than half of individuals with diabetes had it 
listed on their death certificate. The risk for death among people with 
diabetes is about twice that of people without diabetes of similar 
age.\6\ Having diabetes lowers the average life expectancy by up to 15 
years.\7\ Unfortunately, while the death rate due to diabetes has 
increased by about 45 percent since 1987 while death rates from cancer, 
heart disease, and stroke have declined.\8\
---------------------------------------------------------------------------
    \6\ www.cdc.gov/diabetes/pubs/pdf/ndfs_2005.pdf
    \7\ Portuese E and Orchard T: Mortality in Insulin-Dependent 
Diabetes. In Diabetes in America (pp. 221-232). Bethesda, MD: National 
Diabetes Data Group, NIH, 1995.
    \8\ JAMA 294: 1255, 2005.
---------------------------------------------------------------------------
          the american diabetes association's funding requests
    Diabetes is one of the greatest U.S. public health crises of the 
21st century. To stem the tide of this epidemic, it is essential that 
diabetes prevention and outreach efforts expand and scientists and 
researchers be enabled to continue their work towards finding a cure. 
Therefore, we are requesting:
  --$83.5 million for CDC's Division of Diabetes Translation (DDT).--
        This would be a $20.8 million increase, one dollar for each 
        American suffering from diabetes. This program received an 
        $880,000 increase in fiscal year 2008. This year the 
        Administration has requested a reduction of $257,000 to this 
        essential prevention and education program.
  --$1.818 billion for the National Institute for Diabetes, Digestive 
        and Kidney Diseases (NIDDK) at the NIH.--This would add $112.6 
        million to NIDDK and represent a 6.6 percent increase over 
        fiscal year 2008 funding. The additional funding would provide 
        a 3 percent increase over biomedical inflation which continues 
        to eat into the purchasing power of research funding. The 
        Administration has requested an increase of $2 million for 
        fiscal year 2009.
     diabetes interventions at the centers for disease control and 
                               prevention
    The CDC's Division of Diabetes Translation is critical to our 
national efforts to prevent and manage diabetes because DDT literally 
translates research, like that done at NIH, into real solutions and 
practices. Appropriated funds to DDT are focused on: defining the 
diabetes burden through the use of public health surveillance; 
translating research findings into clinical and public health practice; 
developing and maintaining state-based diabetes and prevention 
programs; and supporting the National Diabetes Education Program. Our 
request of $20.8 million will allow these critical programs at DDT to 
expand and more adequately meet the growing demands of the diabetes 
epidemic to prevent or delay this destructive disease.
    The research findings that are translated into practice identify 
and detail the public health implications of results from clinical 
trials and scientific studies. These findings are applied in health 
care systems and within local communities. Areas of translational 
research include: access to quality care for diabetes, especially 
within managed care organizations; cost-effectiveness of diabetes 
prevention and control activities; effectiveness of health practices to 
address risk factors for diabetes; and demonstration of primary 
prevention of type 2 diabetes.
    DDT provides support for 59 state and territorial-based Diabetes 
Prevention and Control Programs (DPCPs). These programs work to 
increase outreach and education, and to reduce the complications 
associated with diabetes. Due to funding constraints, DDT currently 
funds 28 states at a higher level of support called basic 
implementation. At this level, states are able to devise and execute 
community-based programs on a broader scale. The remaining 22 states, 8 
territories, and the District of Columbia are funded at the lower, 
capacity building level. This level of funding establishes a presence 
in a state, but does not allow them to develop much in the way of 
intervention. The level of funding proposed by the President's budget 
would not allow for adequate increases in the amount individual states 
are provided.
    The DDT conducts additional activities which work to eliminate the 
preventable burden of diabetes and to educate communities. The Diabetes 
Primary Prevention Initiative, which was created from an initial NIH 
clinical trial, is an effort to plan and create pilots focusing on 
health implementation of diabetes primary prevention programs. This 
program is currently funded in five States as demonstration projects 
and is expected to end this year. Additional funds would be needed to 
translate primary prevention in all 50 States.
    In a joint cooperative CDC is working with NIH, and over 200 
partners, to jointly sponsor the National Diabetes Education Program 
(NDEP), which seeks to improve the treatment and outcomes of people 
with diabetes, promote early detection, and prevent the onset of 
diabetes. In fiscal year 2008 the NDEP focused on minority populations 
who bear a disproportionate burden of diabetes.
        diabetes research at the national institutes for health
    The National Institute for Diabetes, Digestive and Kidney Diseases 
is one of the 27 institutes housed at the NIH. Through its valuable 
work, NIDDK is poised to make major discoveries that could prevent or 
reverse the autoimmune destruction of insulin-producing cells. While 
there is no cure for diabetes, researchers at NIH are working on a 
variety of projects that represent hope for the millions of individuals 
with type 1 and type 2 diabetes. The list of advances in treatment and 
prevention is thankfully long, but it is important to understand what 
has been, and what can be achieved for Americans with diabetes with 
additional funding.
    A generation ago, 20 percent of individuals diagnosed with type 1 
diabetes died within 20 years of diagnosis and over 30 percent died 
within 25 years. Thanks to research at NIDDK, patients now use a 
variety of insulin formulations, such as rapid or long acting insulin, 
insulin pumps, or inhaled insulin to control their blood glucose. Even 
components of an artificial pancreas are being tested in clinical 
studies.\9\
---------------------------------------------------------------------------
    \9\ http://www.nih.gov/about/researchresultsforthepublic/
Type1Diabetes.pdf
---------------------------------------------------------------------------
    Researchers have already learned a great deal about the biology of 
diabetes, and they now understand much more about the loss of islet 
cell function. These discoveries have led directly to islet cell 
transplants, which have given some individuals more than a year of 
freedom from insulin administration. Scientists are now working on ways 
to keep the islet cells functioning longer by suppressing the body's 
natural immune response to the transplanted cells.\10\
---------------------------------------------------------------------------
    \10\ http://www.nih.gov/about/researchresultsforthepublic/
Type1Diabetes.pdf
---------------------------------------------------------------------------
    Recognizing the growing problem of obesity and its increasing 
prevalence among youth, the NIDDK is focusing on paths to prevention. 
The clinical trial, the Diabetes Prevention Program (DPP) focused on 
discovering whether diet and exercise or an oral diabetes drug could 
prevent or delay the onset of type 2 diabetes in people with impaired 
glucose tolerance. The trial found that with modest lifestyle 
interventions individuals can reduce their risk of developing type 2 
diabetes by 58 percent, the oral diabetes medication also reduced risk, 
although less dramatically.\11\
---------------------------------------------------------------------------
    \11\ http://diabetes.niddk.nih.gov/dm/pubs/preventionprogram/
---------------------------------------------------------------------------
    Additionally, scientists have found that timely laser surgery and 
appropriate follow-up can reduce the risk of blindness for a person 
with diabetic retinopathy by 90 percent. This is significant as 
diabetes is the leading cause of new cases of blindness among adults 
aged 20-74 years. Another major clinical trial, the Diabetes Control 
and Complications Trial, showed that intensive glucose control 
dramatically delays or prevents the eye, nerve, kidney, and heart 
complications of type 1 diabetes.\12\
---------------------------------------------------------------------------
    \12\ http://www.nih.gov/about/researchresultsforthepublic/
Type2Diabetes.pdf
---------------------------------------------------------------------------
                               conclusion
    As you are considering the fiscal year 2009 appropriation, we ask 
you to keep in mind that diabetes is a burgeoning epidemic with a 
rising morbidity rate that will create a financial and socioeconomic 
burden of even greater proportion in the very near future. If left 
unchecked it will overwhelm our healthcare system as well as tragically 
affect millions of American families. The CDC translational programs 
and NIH research go hand in hand in the effort to combat the diabetes 
epidemic. Our Nation can more rapidly move toward curing, preventing, 
and managing this disease by increasing funding for diabetes education, 
programs and research.
    The American Diabetes Association strongly urges the Subcommittee 
and the Senate to provide a $20.8 million increase for the CDC's 
Division of Diabetes Translation. With 58 percent of type 2 diabetes 
being preventable this is a smart investment in the well being of our 
nation. Additionally, we urge the Subcommittee to increase NIH funding 
by 6.6 percent allowing for a continued and expanded commitment to 
diabetes research.
    We must have a proactive approach to this disease, rather than 
merely reacting to its consequences. Your continued leadership on this 
growing epidemic is essential to accomplishing this goal. Again, thank 
you for your proven commitment to the diabetes community and for the 
opportunity to submit this testimony. The American Diabetes Association 
is prepared to answer any questions you might have on these important 
issues.
                                 ______
                                 
          Prepared Statement of the American Heart Association
    Although heart disease and stroke remain our Nation's No. 1 and No. 
3 killers respectively, death rates are on the decline. Thanks in large 
measure to advancements in medical research, treatment and prevention 
programs, death rates from coronary heart disease have plummeted by 
almost 26 percent since 1999 and stroke mortality has fallen by 24 
percent. If this positive trend holds, a total of 240,000 lives will be 
spared in 2008 alone.
    But while the battle against heart disease and stroke has been 
successfully joined, the war is far from won. Heart disease, stroke and 
other forms of cardiovascular disease (CVD) still claim more than 
860,000 lives in the United States each year and the costs associated 
with this disease are projected to exceed $448 billion in 2008. 
Moreover, any gains we have achieved could be eroded by a rise in often 
preventable and certainly treatable risk factors, such as high blood 
pressure, cholesterol, diabetes, obesity and a lack of physical 
exercise. Continued progress in the fight against CVD is not 
guaranteed. We must work at it every day through increased research, 
better access to treatment and reinvigorated prevention efforts.
    Sadly, the President's fiscal year 2009 budget turns a blind eye to 
these challenges. Funding for NIH fails to keep pace with medical 
research inflation for the sixth year in a row, curtailing work on 
promising breakthroughs. Increased emphasis on preventing CVD is 
critical too, but programs that teach Americans how to build healthier 
lives free of heart disease and stroke are cut or eliminated. Access to 
quality care and treatment is also jeopardized, by cuts in programs 
that develop evidence-based information to improve health care 
outcomes, comparative effectiveness research, and advances in health 
information technology.
     funding recommendations--investing in the health of our nation
    When adjusted for medical research inflation, the NIH budget is 
roughly 11 percent lower in fiscal year 2008 than in fiscal year 2003, 
and funding for CVD research is 15 percent lower for that same time 
period. Prevention also suffers. Funding for the Centers for Disease 
Control and Prevention's Heart Disease and Stroke Prevention Program 
and the WISEWOMAN screening and evaluation program are cut. Less than a 
third of all States receive Federal resources to carry out these 
critical prevention initiatives.
    Where you live could determine if you survive a sudden cardiac 
arrest. The Rural and Community Access to Emergency Devices Program 
provides grants to rural areas and communities to buy automated 
external defibrillators (AEDs), place these life-saving devices in 
schools, churches, fire stations and other sites, and train lay 
rescuers and first responders in their use. This successful program is 
terminated in the President's budget.
    With CVD risk factors on the rise, it is clearly not the time to 
retreat and slash investments that prevent and treat America's leading 
and most costly killer. If we fail to take deliberate and focused 
action now, we will pay much more in the future in lost lives and 
higher health care costs. Our recommendations address this crisis in a 
comprehensive but fiscally responsible way.
Funding Gap for the National Institutes of Health (NIH)
    NIH-supported research has revolutionized patient care and holds 
the key to finding new ways to prevent, treat and cure CVD, resulting 
in longer, healthier lives and lower health care costs. NIH research 
also generates economic growth and preserves our Nation's position as 
the world leader in pharmaceuticals and biotechnology. However, the 
President's fiscal year 2009 budget request for NIH is flat. When 
adjusted for medical research inflation, the gap between the funding 
levels achieved with the doubling of NIH's budget between 1999 and 2003 
and the current request now approaches a 14 percent decline in support 
for the NIH.
    The American Heart Association Recommends.--AHA joins the research 
and patient advocacy communities in advocating for a fiscal year 2009 
appropriation of $31.1 billion for NIH, representing a 3 percent 
increase over the 3.5 percent in medical research inflation for a total 
funding increase of 6.5 percent. This 3 percent increase over medical 
research inflation in consistent with the average NIH appropriation 
over the past 30 years (excluding the ``doubling'' period). Such a 
sustained and stable funding stream will allow NIH to take advantage of 
burgeoning scientific opportunities and protect past congressional 
investments in research that have saved millions of lives.
Increase Funding for NIH Heart and Stroke Research: A Proven and Wise 
        Investment
    The decline in the death rates from CVD can be directly linked to 
NIH heart and stroke research--with more life-saving treatments and 
prevention tactics on the horizon. For example, recent NIH research has 
determined that post-menopausal hormone therapy is not useful in the 
prevention of heart disease and stroke, has defined the genetic basis 
of dangerous responses to essential blood-thinners, and funded the 
early work of the 2007 Nobel Prize winners in Physiology or Medicine 
for their development of the technology of gene targeting.
    Beyond lives saved, NIH research also produces tangible cost 
savings. For example, the original NIH tPA drug trial resulted in a 10-
year net $6.47 billion reduction in stroke health care costs. And the 
Stroke Prevention in Atrial Fibrillation Trial 1 produced a 10-year net 
saving of $1.27 billion. But despite such solid returns on investments 
and other successes, NIH heart and stroke research remains 
disproportionately under-funded. In fact, only 7 percent of its budget 
goes to heart disease research, and a mere 1 percent is devoted to 
stroke. That must change.
Cardiovascular Disease Research: National Heart, Lung, and Blood 
        Institute (NHLBI)
    Under the President's budget proposal, funding for CVD research 
does not keep pace with medical research inflation and cannot 
adequately support current activities or allow investments in promising 
research opportunities. The loss of purchasing power over the past few 
years has reduced the ability of the NHLBI to fund meritorious 
investigator-initiated research and has necessitated cutbacks in 
Institute programs. Continued cutbacks will limit the pace at which the 
new NHLBI strategic plan can be implemented. Areas in which research 
could lag include the ability to translate basic research on human 
behavior into real world ways to reduce obesity and promote 
cardiovascular health; studies examining genetic susceptibility in the 
Framingham population, followed for three generations, and further 
research into the best methods for saving lives of those suffering from 
cardiac arrest.
Stroke Research: National Institute of Neurological Disorders and 
        Stroke (NINDS)
    An estimated 780,000 Americans will suffer a stroke this year, and 
more than 143,000 will die. Many of the 5.8 million stroke survivors 
face physical and mental disabilities, emotional distress and huge 
costs--a projected $66 billion in medical expenses and lost 
productivity in 2008.
    The NINDS-sponsored Stroke Progress Review Group has issued a long-
term, stroke research strategic plan. A variety of research initiatives 
have since been undertaken, but more funding is needed to fully 
implement the plan. Indeed, the fiscal year 2009 request for NINDS 
stroke research falls about 50 percent short of the plan's target and 
additional resources are needed for programs such as:
  --Stroke Translational Research.--Translational studies are essential 
        to providing cutting-edge stroke treatment, patient care and 
        prevention. However, due to budget shortfalls, NINDS has been 
        forced to scale back by 30 percent its Specialized Programs of 
        Translational Research in Acute Stroke from a planned 10 
        centers to only 7.
  --Genetic Repository.--NINDS could better understand genetic risk 
        factors associated with stroke by helping more researchers 
        contribute data and findings to an NIH-funded genetic 
        repository and to study available samples.
  --Neurological Emergencies Treatment Trials Network.--NINDS has 
        established a clinical research network of emergency medicine 
        physicians, neurologists and neurosurgeons to develop more and 
        improved treatments for acute neurological emergencies, such as 
        strokes. However, the number of trials will be limited by 
        available funding.
    The American Heart Association Recommends.--AHA supports an fiscal 
year 2009 appropriation of $2.260 billion for NIH heart research; 
$3.112 billion for the NHLBI; $362 million for NIH stroke research; and 
$1.644 billion for the NINDS. This represents a 6.5 percent increase 
over fiscal year 2008--commensurate with the Association's overall 
recommended funding increase for NIH.
Increase Funding for the Centers for Disease Control and Prevention 
        (CDC)
    With so many risk factors on the rise, prevention is the best way 
to protect the health of Americans and ease the economic burden of 
heart disease and stroke. However, many effective prevention strategies 
and programs are not being implemented for lack of funds.
    For example, CDC's Division for Heart Disease and Stroke Prevention 
funds only 13 States to implement programs to reduce risk factors for 
heart disease and stroke, improve emergency response and quality care, 
and end treatment disparities. An additional 20 States receive funds 
for planning such prevention programs; however, there are no funds for 
actual implementation.
    This Division also administers the WISEWOMAN program that screens 
uninsured, under-insured and low-income women ages 40 to 64 in 14 
States for heart disease and stroke risk. They receive counseling, 
education, referral and follow-up as needed. Since January 2000, more 
than 70,000 women have been screened and more than 170,000 lifestyle 
interventions have been conducted. The program should be expanded to 
cover the other 36 States, but the President's budget contains no such 
funding.
    The American Heart Association Recommends.--AHA joins with the CDC 
Coalition in support of an appropriation of $7.4 billion for CDC, 
including increases for the Heart Disease and Stroke Prevention and 
WISEWOMAN programs. Within that total, we recommend $70 million for the 
Heart Disease and Stroke Prevention Program, allowing CDC to: (1) add 
nine unfunded States to develop State-tailored plans; (2) increase 
funding for up to 18 States with current Heart Disease and Stroke 
Prevention Programs; (3) continue to support the remaining funded 
States; (4) maintain the Paul Coverdell National Acute Stroke Registry; 
(5) increase the capacity for national, State and local heart disease 
and stroke surveillance; and (6) provide additional assistance for 
prevention research and program evaluation. AHA also advocates $25 
million to expand WISEWOMAN to additional States and joins with the 
Friends of the NCHS in recommending $125 million for NCHS to restore 
funding lost and to continue the collection of important public health 
data.
Restore Funding for Rural and Community Access to Emergency Devices 
        (AED) Program
    About 94 percent of cardiac arrest victims die outside of a 
hospital. Receiving immediate CPR and the use of an AED can more than 
double your chance of survival over CPR alone. Communities with 
comprehensive AED programs have achieved survival rates of 40 percent 
or higher. The Rural and Community AED Program provides grants to 
States to buy and place AEDs and train lay rescuers and first 
responders to use them. During its first year, 6,400 AEDs were 
purchased, and placed and 38,800 individuals were trained. Despite this 
success, the President yet again terminates the program in his proposed 
fiscal year 2009 budget.
    The American Heart Association Recommends.--For fiscal year 2009, 
AHA advocates restoring the Rural and Community AED Program to its 
fiscal year 2005 level of $8.927 million.
Increase Funding for the Agency for Healthcare Research and Quality 
        (AHRQ)
    AHRQ helps develop evidence-based information to improve health 
care decision-making. Through its Effective Health Care Program, AHRQ 
supports research focused on outcomes, comparative clinical 
effectiveness and the appropriateness of pharmaceuticals, devices and 
health care services for conditions such as heart disease, stroke and 
high blood pressure.
    On another front, AHRQ's health information technology (HIT) plan 
will help bring health care into the 21st century. Through more than 
$130 million in grants since 2004, AHRQ and its partners have begun 
work that can help identify: challenges to HIT adoption and use; 
solutions and best practices; and tools that aid hospitals and 
clinicians successfully integrate HIT. This must continue.
    The American Heart Association Recommends.--AHA joins with Friends 
of AHRQ in advocating a $360 million appropriation for the Agency. By 
restoring AHRQ to fiscal year 2005 levels, we can improve health care, 
reduce medical errors and expand access to outcomes information.
                               conclusion
    Although heart disease, stroke and other forms of cardiovascular 
disease are largely preventable, they continue to exact a deadly and 
costly toll on our nation. However, adequate funding of research, 
treatment and prevention programs will save lives and reduce rising 
health care costs. The American Heart Association urges Congress to 
consider these recommendations during its deliberations on the fiscal 
year 2009 budget. We believe that they are a wise investment for our 
nation and the health and well-being of this and future generations of 
Americans.
                                 ______
                                 
 Prepared Statement of the American Indian Higher Education Consortium
    Summary of Requests.--Summarized below are the fiscal year 2009 
(fiscal year 2009) recommendations for the Nation's 36 Tribal Colleges 
and Universities (TCUs), covering three areas within the Department of 
Education and one in the Department of Health and Human Services, 
Administration for Children and Families' Head Start Program.
                    department of education programs
A. Higher Education Act Programs
    Strengthening Developing Institutions.--Section 316 of Title III-A, 
specifically supports TCUs through two separate competitive grant 
programs: (a) basic development grants and (b) facilities/construction 
grants designed to address the critical facilities needs at TCUs. The 
TCUs urge the subcommittee to reject the President's fiscal year 2009 
budget recommendation to eliminate discretionary funding for this vital 
program and instead appropriate $32.0 million and include report 
language restating that funds not needed to support continuation grants 
or new planning or implementation grants shall be used for facilities, 
renovation, and construction grants.
    Pell Grants.--TCUs urge the subcommittee to fund the Pell Grants 
Program at the highest possible level.
B. Perkins Career and Technical Education Programs
    The TCUs urge the subcommittee to reject the funding cut proposed 
in the President's budget and appropriate $8.5 million for Sec. 117 of 
the Carl D. Perkins Career and Technical Education Improvement Act, 
which funds our two Tribally Controlled Postsecondary Vocational 
Institutions: United Tribes Technical College and Navajo Technical 
College. Additionally, TCUs strongly support the Native American Career 
and Technical Education Program (NACTEP) authorized under Sec. 116 of 
the Act.
C. Relevant Title IX Elementary and Secondary Education Act (ESEA) 
        Programs
    Adult and Basic Education.--Although Federal funding for tribal 
adult education was eliminated in fiscal year 1996, TCUs continue to 
offer much needed adult education, GED, remediation and literacy 
services for American Indians, yet their efforts cannot meet the 
demand. The TCUs request that the subcommittee direct $5.0 million of 
the Adult Education State Grants appropriated funds to make awards to 
TCUs to support their ongoing and essential adult and basic education 
programs.
    American Indian Teacher and Administrator Corps.--The American 
Indian Teacher Corps and the American Indian Administrator Corps offer 
professional development grants designed to increase the number of 
American Indian teachers and administrators serving their reservation 
communities. The TCUs request that the subcommittee support these 
programs at $10.0 and $5.0 million, respectively.
             department of health & human services program
D. Tribal Colleges and Universities Head Start Partnership Program 
        (DHHS-ACF)
    Tribal Colleges and Universities are ideal partners to help achieve 
the goals of Head Start in Indian Country. The TCUs are working to meet 
the mandate that Head Start teachers earn degrees in Early Childhood 
Development or a related discipline. The TCUs request that $5.0 million 
be designated for the TCU-Head Start partnership program, to ensure the 
continuation of current programs and the resources needed to support 
additional TCU-Head Start partnership programs.
 detailed justifications for fiscal year 2009 appropriations requests 
                  for tribal colleges and universities
Higher Education Act
    The Higher Education Act Amendments of 1998 created a separate 
section (316) within Title III-A specifically for the Nation's Tribal 
Colleges and Universities. Programs under Titles III and V of the act 
support institutions that enroll large proportions of financially 
disadvantaged students and that have low per-student expenditures. 
Although TCUs, which are truly developing institutions, are providing 
access to quality higher education opportunities to some of the most 
rural and impoverished areas of the country, the President's fiscal 
year 2009 budget proposes eliminating all discretionary funding for the 
TCU Title III grants program. TCUs recognize and are grateful for the 
positive step that Congress took by including in the fiscal year 2008 
Reconciliation Act much needed supplemental funding for Title III and 
Title V programs, including the TCU program. The fiscal year 2009 
budget recommendation effectively negates this progress by eliminating 
discretionary funding needed to fund multi-year development grants. We 
believe it was the intent of Congress to supplement the Title III 
program funds, NOT to supplant discretionary funding for the very 
institutions that disproportionally educate low-income chronically 
underserved populations. A clear goal of the Higher Education Act Title 
III programs is ``to improve the academic quality, institutional 
management and fiscal stability of eligible institutions, in order to 
increase their self-sufficiency and strengthen their capacity to make a 
substantial contribution to the higher education resources of the 
Nation.'' The TCU Title III program is specifically designed to address 
the critical, unmet needs of their American Indian students and 
communities, in order to effectively prepare them for the workforce of 
the 21st Century. The TCUs urge the subcommittee to reject the 
President's budget recommendation to eliminate discretionary funding 
and appropriate $32.0 million in fiscal year 2009 for Title III-A 
section 316, an increase of $8.8 million over fiscal year 2008 and 
$32.0 million over the President's request. These funds will afford 
these developing institutions the resources necessary to continue their 
ongoing grant programs and address the needs of their historically 
underserved students and communities. Additionally, we request that 
report language be restated clarifying that funds not necessary to 
support continuation grants or new planning or implementation grants 
shall be used for facilities, renovation, and construction grants to 
ensure TCUs will be able to operate in adequate and safe facilities.
    The importance of Pell grants to TCU students cannot be overstated. 
U.S. Department of Education figures show that the majority of TCU 
students receive Pell grants, primarily because student income levels 
are so low and our students have far less access to other sources of 
financial aid than students at State-funded and other mainstream 
institutions. Within the tribal college system, Pell grants are doing 
exactly what they were intended to do--they are serving the needs of 
the lowest income students by helping them gain access to quality 
higher education, an essential step toward becoming active, productive 
members of the workforce. The TCUs urge the subcommittee to fund this 
critical grants program at the highest possible level.
B. Carl D. Perkins Career & Technical Education Act
    Tribally-Controlled Postsecondary Vocational Institutions: Section 
117 of the Perkins Act provides basic operating funds for two of our 
member institutions: United Tribes Technical College in Bismarck, North 
Dakota, and Navajo Technical College in Crownpoint, New Mexico. The 
TCUs urge the subcommittee to reject the President's budget proposal to 
eliminate funding for this program and to appropriate $8.5 million.
    Native American Career and Technical Education Program.--The Native 
American Career and Technical Education Program (NACTEP) under Sec. 116 
of the Act reserves 1.25 percent of appropriated funding to support 
Indian vocational programs. The TCUs strongly urge the subcommittee to 
continue to support NACTEP, which is vital to the survival of 
vocational education programs being offered at Tribal Colleges and 
Universities.
C. Greater Support of Indian Education Programs
    American Indian Adult and Basic Education (Office of Vocational and 
Adult Education).--This program supports adult basic education programs 
for American Indians offered by TCUs, State and local education 
agencies, Indian tribes, institutions, and agencies. Despite a lack of 
funding, TCUs must find a way to continue to provide basic adult 
education classes for those American Indians that the present K-12 
Indian education system has failed. Before many individuals can even 
begin the course work needed to learn a productive skill, they first 
must earn a GED or, in some cases, even learn to read. The number of 
students in need of remedial education before embarking on their degree 
programs is considerable at TCUs. There is a broad need for basic adult 
educational programs and TCUs need adequate funding to support these 
essential activities. TCUs respectfully request that the subcommittee 
direct $5.0 million of the Adult Education State Grants appropriated 
funds to make awards to TCUs to help meet the ever increasing demand 
for basic adult education and remediation program services.
    American Indian Teacher/Administrator Corps (Special Programs for 
Indian Children).--American Indians are severely under represented in 
the teaching and school administrator ranks nationally. These 
competitive programs are designed to produce new American Indian 
teachers and school administrators for schools serving American Indian 
students. These grants support recruitment, training, and in-service 
professional development programs for Indians to become effective 
teachers and school administrators and in doing so become excellent 
role models for Indian children. We believe that the TCUs are the ideal 
catalysts for these two initiatives because of their current work in 
this area and the existing articulation agreements they hold with 4-
year degree awarding institutions. The TCUs request that the 
subcommittee support these two programs at $10.0 million and $5.0 
million, respectively, to increase the number of qualified American 
Indian teachers and school administrators in Indian Country.
 department of health and human services/administration for children & 
                          families/head start
    Tribal Colleges and Universities (TCU) Head Start Partnership 
Program.--The TCU-Head Start Partnership has made a lasting investment 
in our Indian communities by creating and enhancing associate degree 
programs in Early Childhood Development and related fields. Graduates 
of these programs help meet the degree mandate for all Head Start 
program teachers. More importantly, this program has afforded American 
Indian children Head Start programs of the highest quality. A clear 
impediment to the ongoing success of this partnership program is the 
erratic availability of discretionary funds made available for the TCU-
Head Start Partnership. In fiscal year 1999, the first year of the 
program, some colleges were awarded 3-year grants, others 5-year 
grants. In fiscal year 2002, no new grants were awarded. In fiscal year 
2003, funding for eight new TCU grants was made available, but in 
fiscal year 2004, only two new awards could be made because of the lack 
of adequate funds. The President's fiscal year 2009 budget includes a 
total request of $7,026,571,000 for Head Start Programs. The TCUs 
request that the subcommittee direct the Head Start Bureau to designate 
a minimum of $5.0 million, of the over $7.0 billion recommended in the 
budget, for the TCU-Head Start Partnership program, to ensure that this 
critical program can continue and expand so that all TCUs have the 
opportunity to participate in the TCU-Head Start partnership program.
                               conclusion
    Tribal Colleges and Universities are providing access to higher 
education opportunities to many thousands of American Indians and 
essential community services and programs to many more. The modest 
Federal investment in TCUs has already paid great dividends in terms of 
employment, education, and economic development, and continuation of 
this investment makes sound moral and fiscal sense. TCUs need your help 
if they are to sustain and grow their programs and achieve their 
missions to serve their students and communities.
    Thank you again for this opportunity to present our funding 
recommendations. We respectfully ask the Members of the subcommittee 
for their continued support of the Nation's Tribal Colleges and 
Universities and full consideration of our fiscal year 2009 
appropriations needs and recommendations.
                                 ______
                                 
          Prepared Statement of the American Liver Foundation
    Mr. Chairman and members of the subcommittee, thank you for giving 
the American Liver Foundation the opportunity to testify as the 
subcommittee begins to consider funding priorities for fiscal year 
2009. My name is Dr. James L. Boyer and I am the Chairman of the Board 
of Directors of the American Liver Foundation (ALF), a national 
voluntary health organization dedicated to the prevention, treatment 
and cure of hepatitis and other liver diseases through research, 
education and advocacy. I am also the Ensign Professor of Medicine and 
Director of the Liver Center at Yale University School of Medicine.
    ALF has 25 Chapters nationwide and provides information to 300,000 
patients and families. Over 70,000 physicians, including primary care 
practitioners and liver specialists and scientists also receive 
information from ALF. The ALF Board of Directors is composed of 
scientists, clinicians, patients and others who are directly affected 
by liver diseases. Every year ALF handles over 100,000 requests for 
information, helping patients and their families understand their 
illnesses, informing them about available services, and showing them 
that there are knowledgeable and concerned individuals to assist them 
in every possible way.
    Mr. Chairman, ALF joins the Ad Hoc Group for Medical Research 
Funding, a coalition of some 300 patient and voluntary health groups, 
medical and scientific societies, academic research organizations and 
industry, in recommending $31.1 billion (6.5 percent increase) for the 
National Institutes of Health in fiscal year 2009. The fiscal year 2009 
Administration budget request for NIH is flat compared to fiscal year 
2008 funding levels, which due to the effects of biomedical inflation, 
translates to a cut. If the President's budget were implemented, this 
funding level would mean NIH's ability to conduct and support life-
saving research will be cut by more than 11 percent in inflation-
adjusted dollars since fiscal year 2003.
    While the ALF recognizes the demands on our Nation's resources, we 
believe the ever-increasing health threats and expanding scientific 
opportunities continue to justify higher funding levels than proposed 
by the Administration. To ensure that NIH's momentum is not further 
eroded, and to ensure the fight against diseases and disabilities that 
affect millions of Americans can continue, ALF supports a minimum 
increase of 6.5 percent for the NIH in fiscal year 2009 and a minimum 
increase of a 6.5 percent for the National Institute for Diabetes and 
Digestive and Kidney Diseases and for liver disease research across all 
NIH Institutes.
    In addition to the NIH, there are a number of programs within the 
jurisdiction of the subcommittee that are important to ALF including 
the Centers for Disease Control's Division of Viral Hepatitis and 
HRSA's Division of Transplantation. Mr. Chairman, our specific 
recommendations for these and other areas of interest are summarized in 
a table at the end of this statement.
             recognizing the leadership of the subcommittee
    Mr. Chairman, ALF appreciates your leadership and the leadership of 
this subcommittee in supporting NIH in a time of fiscal austerity. Your 
leadership in supporting CDC and HRSA's Division of Transplantation are 
also greatly recognized and appreciated. These programs are important 
to our shared goals of improving the public health response to the 
threats of hepatitis and liver disease and to increasing the rate of 
organ donation. We applaud the Committee's leadership in making 
progress in these important areas and to allocating increased funding 
to these programs during periods of fiscal austerity.
                 recognizing the leadership of the nih
    Mr. Chairman, I would also like to take this opportunity to commend 
the leadership of NIH, and especially the leadership of the National 
Institute of Diabetes and Digestive and Kidney Diseases (NIDDK) for 
their strong support of liver disease research. In the summer of 2002, 
a member of the House Labor-HHS Subcommittee, Congressman Dan Miller, 
introduced a piece of legislation titled the Liver Disease Research 
Enhancement Act. The legislation, reintroduced in the 110th Congress by 
Congressmen Stephen Lynch and Peter King, was introduced after several 
months of deliberation and consultation with the leadership of NIH, 
with the intention of creating a center within NIDDK focused solely on 
liver and liver-related diseases. This bill will streamline the study 
and funding of liver disease research by creating a Liver Disease 
Research Advisory Board that will include preeminent scientists at the 
NIH, and from across the country to develop a Liver Disease Research 
Action Plan to guide future NIH funding decisions and help the liver 
research community prioritize research efforts. In addition the bill 
provides new authorities necessary to help insure that the scientific 
opportunities identified by the Liver Disease Research Action Plan are 
adequately funded.
    After the bill was first introduced, the NIH independently 
implemented many of the provisions of this legislation, including the 
establishment of a Liver Disease Branch and the creation of a Liver 
Disease Research Action Plan, which the NIH continues to update each 
year. The Research Action Plan is an important blueprint for the future 
of liver disease research; however, ALF is concerned that without the 
authorities included in the legislation, implementation of the plan 
will proceed slowly. We recommend the Liver Research Enhancement Act to 
the subcommittee as necessary steps needed to improve the rate of 
scientific discovery thus leading to cures and better treatment for 
liver disease.
    We would also like to commend the leadership of the NIDDK on their 
decision to host a consensus conference focused on best treatment 
practices for individuals with hepatitis B. The growing number of 
treatment options is encouraging and suggests a strong rationale for 
conducting a consensus conference to provide state of the art treatment 
guidelines for the practicing physician community.
             funding the liver disease research action plan
    Mr. Chairman, in December 2004, the NIDDK released the Liver 
Disease Research Action Plan outlining major research goals for the 
various aspects of liver disease. Working with the leading scientific 
experts in the field, the plan is organized into 16 chapters and 
identifies numerous areas of research important to virtually every 
aspect of liver disease, including: improving the success rate of 
therapy of hepatitis C; developing noninvasive ways to measure liver 
fibrosis; developing sensitive and specific means of screening 
individuals at high risk for early hepatocellular carcinoma; developing 
standardized and objective diagnostic criteria for major liver diseases 
and their grading and staging; and decreasing the mortality rate from 
liver disease. Each year, the plan is reviewed and updated. The ALF 
urges the Committee to provide adequate funding and policy guidance to 
NIH to urge continued implementation of the plan.
                   cdc's division of viral hepatitis
    ALF joins with the CDC Coalition, a nonpartisan coalition of more 
than 100 groups, in supporting $7.4 billion for the Centers for Disease 
Control and Prevention in fiscal year 2009. The CDC programs are 
crucial to the health of millions of Americans, they are key to 
maintaining a strong public health infrastructure, and are essential in 
protecting us from threats to our health. At a time when the CDC is 
facing unprecedented challenges and responsibilities ranging from 
chronic disease prevention, eliminating health disparities, 
bioterrorism preparedness, to combating the obesity epidemic the 
administration's budget has cut the CDC's budget by $412 million. We 
urge the committee to restore this cut and fund the CDC at $7.4 
billion. Within that amount, we further request that the Committee 
provide a $5 million increase for the Division of Viral Hepatitis.
    The Division of Viral Hepatitis (DVH) is included in the National 
Center for HIV/AIDS, Viral Hepatitis, STD, and TB Prevention at the 
CDC, and is responsible for the prevention and control of viral 
hepatitis, a disease which impacts over 6 million Americans and often 
leads to liver cancer and liver failure. The DVH provides the 
scientific and programmatic foundation for the prevention, control and 
elimination of hepatitis virus infections in the United States and also 
assists the international public health community in these activities. 
DVH works with State and local health departments to provide the 
guidance and technical expertise needed to integrate hepatitis 
prevention services such as hepatitis A and B vaccine, hepatitis B and 
C counseling, and testing and referral to existing public health 
programs serving individuals at high risk.
    Mr. Chairman, ALF requests that an increase of $5 million, be 
included to address the public health crisis of Hepatitis A, B & C and 
the large growing HIV co-infection rates.
              increasing the supply of organs for donation
    As the subcommittee knows, even with advances in the use of living 
liver donors, the increase in the demand for livers needed for 
transplantation will continue to exceed the number available. The need 
to increase the rate of organ donation is critical. Each day 
approximately 78 people receive an organ transplant, but another 18 
people die because organ demand far outweighs the supply and the gap 
continues to widen. For example, in 2007, while 5,940 liver transplants 
were performed, there were over 17,122 individuals on the list waiting 
for liver transplantations and about 1,421 people died due to the lack 
of a donor liver. Despite this demonstrated need, the Division of 
Transplantation has received cuts or level funding over the past four 
fiscal years.
    Recognizing the importance of this issue, Congress passed, and the 
President signed, the Organ Donation and Recovery Improvement Act of 
2004 (Public Law 108-216) authorizing an increase of $25 million for 
organ donation activities in the first year, and such sums as necessary 
in following years, and yet, no additional funding has been provided to 
implement this legislation. To address these needs, ALF recommends that 
the Division of Transplantation receive a $2 million increase in fiscal 
year 2009.
                         summary and conclusion
    Mr. Chairman, again we wish to thank the subcommittee for its past 
leadership. Significant progress has been made in developing better 
treatments and cures for the diseases that affects mankind due to your 
leadership and the leadership of your colleagues on this subcommittee. 
Significant progress has also similarly been made in the fight against 
liver disease. For fiscal year 2009 we recommend a 6.5 percent, 
increase for NIH above the level of the fiscal year 2008 funding 
levels, with the level of liver disease research also increased by at 
least 6.5 percent. We also urge a $5 million increase for CDC to 
strengthen the public health response to hepatitis and liver disease 
and a $2 million increase to HRSA's Division of Transplantation 
necessary to increase the rate of organ donation. Mr. Chairman, if this 
country is to maintain its leadership role in health maintenance, 
disease prevention, and the curing of diseases, adequate funding for 
NIH, CDC and HRSA is paramount. The ALF appreciates the opportunity to 
provide testimony to you on behalf of our constituents and yours.
            alf recommendations for fiscal year 2009 funding
NIH and the Liver Disease Research Action Plan
  --6.5 percent increase for NIH overall and 6.5 percent for the 
        National Institute of Diabetes and Digestive and Kidney 
        Diseases;
  --+$25 million to implement the Liver Research Action Plan
CDC: National Hepatitis C Prevention Strategy, Public Health 
        Information, HAV & HBV Vaccinations
  --+$5 million to support expansion of CDC's National Hepatitis C 
        Prevention program;
  --+$1 million to increase the public health information regarding 
        liver diseases.
HRSA: Expanding the supply or organs
  --+$2 million to start funding the Organ Donation and Recovery Act 
        provisions.
                                 ______
                                 
          Prepared Statement of the American Lung Association

                    SUMMARY.--FUNDING RECOMMENDATIONS
                        [In millions of dollars]
------------------------------------------------------------------------
                                                             Amount
------------------------------------------------------------------------
National Institutes of Health........................             31,129
    National Heart, Lung, and Blood Institute........              3,114
    National Cancer Institute........................              5,117
    National Institute of Allergy and Infectious                   4,675
     Disease.........................................
    National Institute of Environmental Health                       683
     Sciences........................................
    National Institute of Nursing Research...........                146
    Fogarty International Center.....................                 70
Centers for Disease Control and Prevention...........             10,700
    Chronic Disease Prevention & Health Promotion:                     6
     COPD Activities.................................
    National Institute for Occupational Safety and                   285
     Health..........................................
    Office on Smoking and Health.....................                145
    Environmental Health: Asthma Activities..........                 70
    Tuberculosis Control Programs....................                300
Influenza Pandemic...................................              1,169
------------------------------------------------------------------------

    The American Lung Association is pleased to present our 
recommendations to the Labor Health and Human Services and Education 
Appropriations Subcommittee. These programs will improve and extend the 
lives of millions of Americans who suffer from lung disease.
    The American Lung Association is one of the oldest voluntary health 
organizations in the United States, with a National Office and local 
associations around the country. Founded in 1904 to fight tuberculosis, 
the American Lung Association today fights lung disease in all its 
forms.
                        the toll of lung disease
    Each year, close to 400,000 Americans die of lung disease. Lung 
disease is America's number three killer, responsible for one in every 
six deaths. More than 35 million Americans suffer from a chronic lung 
disease. Each year lung disease costs the economy an estimated $157.8 
billion. Lung diseases include: asthma, chronic obstructive pulmonary 
disease, lung cancer, tuberculosis, pneumonia, influenza, sleep 
disordered breathing, pediatric lung disorders, occupational lung 
disease and sarcoidosis.
                 chronic obstructive pulmonary disease
    Chronic Obstructive Pulmonary Disease, or COPD, is a growing health 
problem. Yet, it remains relatively unknown to most Americans. COPD 
refers to a group of largely preventable diseases, including emphysema 
and chronic bronchitis that generally gradually limit the flow of air 
in the body. COPD is the fourth leading cause of death in the United 
States and worldwide. In 2007, the annual cost to the nation for COPD 
was $42.6 billion. This includes $26.7 billion in direct health care 
expenditures, $8.0 billion in indirect morbidity costs and $7.9 billion 
in indirect mortality costs. Medicare expenses for COPD beneficiaries 
were nearly 2.5 times that of the expenditures for all other patients.
    It has been estimated that 12.6 million patients have been 
diagnosed with some form of COPD and as many as 24 million adults may 
suffer from its consequences. In 2004, 118,171 people in the U.S. died 
of COPD. Women have exceeded men in the number of deaths attributable 
to COPD since 2000. Over the past 30 years, the death rate due to COPD 
has doubled while the death rates for heart disease, cancer and stroke 
have decreased by over 50 percent.
    Today, COPD is treatable but not curable. Fortunately, promising 
research is on the horizon for COPD patients. Research on the genetic 
susceptibility underlying COPD is making progress. Research is also 
showing promise for reversing the damage to lung tissue caused by COPD. 
Despite these promising research leads, the American Lung Association 
believes that research resources committed to COPD are not commensurate 
with the impact COPD has on the United States and the World.
    The American Lung Association strongly supports the establishment 
of a national COPD program within CDC's National Center for Chronic 
Disease Prevention and Health Promotion with a funding level of $6 
million for fiscal year 2009 to expand surveillance activities and 
create a comprehensive national action plan for combating COPD. This 
must occur if the nation is to begin to address this critical public 
health problem.
    The American Lung Association strongly recommends that the NIH and 
other Federal research programs commit additional resources to COPD 
research programs. We support increasing the National Heart, Lung and 
Blood Institute budget to $3,114 billion.
                              tobacco use
    Tobacco use is the leading preventable cause of death in the United 
States, killing more than 438,000 people every year. Smoking is 
responsible for one in five U.S. deaths. The direct health care and 
lost productivity costs of tobacco-caused disease and disability are 
also staggering, an estimated $167 billion each year.
    The CDC's Office on Smoking and Health provides significant 
technical assistance to States to develop comprehensive and effective 
tobacco prevention programs, in addition to providing a small, yet 
essential, amount of Federal assistance directly to State tobacco 
control and prevention programs. Funds for tobacco prevention at CDC 
also are used to maintain comprehensive information on smoking and 
health and to support ongoing research on tobacco-related issues.
    We believe Congress should fund the type of youth tobacco 
prevention programs that science tells us are essential to counter the 
impact of tobacco company marketing to our kids. The American Lung 
Association strongly supports a minimum level of $145 million in fiscal 
year 2009 funding for the Office on Smoking and Health.
                                 asthma
    Asthma is a chronic lung disease in which the bronchial tubes 
become swollen and narrowed, preventing air from getting into or out of 
the lung. An estimated 34.1 million Americans have ever been diagnosed 
with asthma by a health professional. Approximately 22.9 million 
Americans currently have asthma, of which 12.4 million had an asthma 
attack in 2006. Asthma prevalence rates are almost 24 percent higher 
among African Americans than whites. Studies also suggest that Puerto 
Ricans have higher asthma prevalence rates and age-adjusted death rates 
than all other Hispanic subgroups.
    Asthma is expensive. Asthma incurs an estimated annual economic 
cost of $14.7 billion to our nation. Asthma is the third leading cause 
of hospitalization among children under the age of 15. It is also the 
number one cause of school absences attributed to chronic conditions. 
The Federal response to asthma has three components: research, programs 
and planning. We are making progress on all three fronts but more must 
be done:
Asthma Research
    Researchers are developing better ways to treat and manage chronic 
asthma. The NHLBI has shown that using corticosteroids to treat 
children with mild to moderate asthma is safe and effective. Genetic 
research is also providing insights into asthma. Researchers in the 
NHLBI-supported Asthma Clinical Research Network have discovered that a 
genetic variation determines how well asthma patients will respond to 
the most common asthma medication, inhaled beta-agonists. This 
discovery will help physicians better target the drugs they proscribe.
Asthma Programs
    Last year, Congress provided approximately $31.3 million for the 
CDC to conduct asthma programs. The American Lung Association 
recommends that CDC be provided $70 million in fiscal year 2009 to 
expand its asthma programs. This funding includes State asthma planning 
grants, which leverage small amounts of funding into more comprehensive 
State programs.
Asthma Surveillance
    In addition to public education programs, the CDC has been piloting 
programs to determine how to establish a nationwide health-tracking 
system. Congress needs to increase funding to create a nationwide 
health-tracking system, based on the localized pilots that are underway 
now.
                              lung cancer
    An estimated 351,344 Americans are living with lung cancer. During 
2007, an estimated 213,380 new cases of lung cancer will be diagnosed. 
Also, 160,390 Americans will die from lung cancer. Survival rates for 
lung cancer tend to be much lower than those of most other cancers. Men 
have higher rates of lung cancer than women. However, over the past 30 
years, the lung cancer age-adjusted incidence rate has decreased 9 
percent in males compared to an increase of 143 percent in females. 
Further, African Americans are more likely to develop and die from lung 
cancer than persons of any other racial group.
    Given the magnitude of lung cancer and the enormity of the death 
toll, the American Lung Association strongly recommends that the NIH 
and other Federal research programs commit additional resources to lung 
cancer research programs. We support increasing the National Cancer 
Institute budget to $5.117 billion.
                               influenza
    Influenza is a highly contagious viral infection and one of the 
most severe illnesses of the winter season. It is responsible for an 
average of 200,000 hospitalizations and 36,000 deaths each year. 
Further, the emerging threat of a pandemic influenza is looming. Public 
health experts warn that over half a million Americans could die and 
over 2.3 million could be hospitalized if a moderately severe strain of 
a pandemic flu virus hits the United States. To prepare for a potential 
pandemic, the American Lung Association supports funding the Federal 
Pandemic Influenza Plan at the recommended level of $1.169 billion.
                              tuberculosis
    Tuberculosis primarily affects the lungs but can also affect other 
parts of the body. There are an estimated 10 million to 15 million 
Americans who carry latent TB infection. Each has the potential to 
develop active TB in the future. About 10 percent of these individuals 
will develop active TB disease at some point in their lives. In 2007, 
there were 13,293 cases of active TB reported in the United States 
While declining overall TB rates are good news, the emergence and 
spread of multi-drug resistant TB pose a significant threat to the 
public health of our nation. Continued support is needed if the United 
States is going to continue progress toward the elimination of TB. We 
request that Congress increase funding for tuberculosis programs to 
$300 million for fiscal year 2009.
    The NIH also has a prominent role to play in the elimination of TB. 
Currently there is no highly effective vaccine to prevent TB 
transmission. However, the recent sequencing of the TB genome and other 
research advances has put the goal of an effective TB vaccine within 
reach. In addition, the American Lung Association encourages the 
subcommittee to fully fund the TB vaccine blueprint development effort 
at the NIAID.
Fogarty International Center TB Training Programs
    The Fogarty International Center at NIH provides training grants to 
U.S. universities to teach AIDS treatment and research techniques to 
international physicians and researchers. Because of the link between 
AIDS and TB infection, FIC has created supplemental TB training grants 
for these institutions to train international health care professionals 
in the area of TB treatment and research. The American Lung Association 
recommends Congress provide $70 million for FIC to expand the TB 
training grant program from a supplemental grant to an open competition 
grant.
                          environmental health
    The National Institute of Environmental Health Sciences funds vital 
research on the impact of environmental influence on disease. The 
American Lung Association supports increasing the appropriation from 
this subcommittee to $680 million.
          researching and preventing occupational lung disease
    The American Lung Association recommends that the subcommittee 
provide $285 million for the National Institute for Occupational Safety 
and Health (NIOSH) at the CDC.
                               conclusion
    In conclusion, Mr. Chairman, lung disease is a continuing, growing 
problem in the United States. It is America's number three killer, 
responsible for one in seven deaths. The lung disease death rate 
continues to climb. Mr. Chairman, the level of support this committee 
approves for lung disease programs should reflect the urgency 
illustrated by these numbers.
                                 ______
                                 
 Prepared Statement of the American National Red Cross and the United 
                           Nations Foundation
    Chairman Harkin, Senator Specter, and members of the subcommittee, 
the American Red Cross and the United Nations Foundation appreciate the 
opportunity to submit testimony in support of measles control 
activities of the U.S. Centers for Disease Control and Prevention 
(CDC). The American Red Cross and the United Nations Foundation 
recognize the leadership that Congress has shown in funding CDC for 
these essential activities.
    In 2001, CDC--along with the American Red Cross, the United Nations 
Foundation, the World Health Organization, and UNICEF--became one of 
the spearheading partners of the Measles Initiative, a partnership 
committed to reducing measles deaths globally. The current U.N. goal is 
to reduce measles deaths by 90 percent by 2010 compared to 2000 
estimates. The Measles Initiative is committed to reaching this goal by 
proving technical and financial support to governments and communities 
worldwide.
    The Measles Initiative has achieved ``spectacular'' \1\ results by 
supporting the vaccination of more than 500 million children. Largely 
due to the Measles Initiative, global measles mortality dropped 68 
percent, from an estimated 757,000 deaths in 2000 to 242,000 in 2006. 
During this same period, measles deaths in Africa fell by 91 percent, 
from 396,000 to 36,000.
---------------------------------------------------------------------------
    \1\ The Lancet, Volume 8, page 13 (January 2008).
---------------------------------------------------------------------------
    Working closely with host governments, the Measles Initiative has 
been the main international supporter of mass measles immunization 
campaigns since 2001. The Initiative mobilized more than $635 million 
and provided technical support in more than 50 developing countries on 
vaccination campaigns, surveillance and improving routine immunization 
services. During the period 2001-2006, the donor investment of 429 
million USD resulted in the prevention of 2.3 million deaths, i.e. 184 
USD per death averted, making measles mortality reduction one of the 
most cost-effective public health interventions.
    Nearly all the measles vaccination campaigns have been able to 
reach more than 90 percent of their target populations. Countries 
recognize the opportunities that measles vaccination campaigns provide 
in accessing mothers and young children, and ``integrating'' the 
campaigns with other life-saving health interventions has become the 
norm. In addition to measles vaccine, Vitamin A (crucial for preventing 
blindness in under nourished children), de-worming medicine, and 
insecticide-treated bed nets (ITNs) for malaria prevention are 
distributed during vaccination campaigns. The scale of these 
distributions is immense. For example, more than 31 million ITNs were 
distributed in vaccination campaigns in the last few years. The 
delivery of multiple child health interventions during a single 
campaign is far less expensive than delivering the interventions 
separately, and this strategy increases the potential positive impact 
on children's health from a single campaign.
    Countries are well positioned to achieve the 2010 goal and to take 
a bold step towards achievement of the 2015 Millennium Development Goal 
#4 of reducing under-five child mortality. The Measles Initiative is 
now supporting the full implementation of measles mortality reduction 
activities in South Asia, where the measles burden remains high. In 
addition, The Initiative is continuing efforts in Africa to sustain and 
improve on the current success. Achieving these goals will require the 
continued and expanded support of CDC for the purchase of vaccine and 
the provision of technical expertise.
    By controlling measles cases in other countries, U.S. children are 
also being protected from the disease. A major resurgence of measles 
occurred in the United States between 1989 and 1991, with more than 
55,000 cases reported. This resurgence was particularly severe, 
accounting for more than 11,000 hospitalizations and 123 deaths. Since 
then, measles control measures in the United States have been 
strengthened and endemic transmission of measles cases have been 
eliminated here since 2000. However, importations of measles cases into 
this country continue to occur each year.
         the role of cdc in global measles mortality reduction
    Since fiscal year 2001, Congress has provided approximately $42 
million annually in funding to CDC for global measles control 
activities. These funds were used toward the purchase of more than 400 
million doses of measles vaccine for use in large-scale measles 
vaccination campaigns in more than 50 countries in Africa and Asia,, 
and for the provision of technical support to Ministries of Health in 
those countries. Specifically, this technical support includes:
  --Planning, monitoring, and evaluating large-scale measles 
        vaccination campaigns;
  --Conducting epidemiological investigations and laboratory 
        surveillance of measles outbreaks; and
  --Conducting operations research to guide cost-effective and high 
        quality measles control programs.
    In addition, CDC epidemiologists and public health specialists have 
worked closely with WHO, UNICEF, the United Nations Foundation, and the 
American Red Cross to strengthen measles control programs at global and 
regional levels.
    While it is not possible to precisely quantify the impact of CDC's 
financial and technical support to the Measles Initiative, there is no 
doubt that CDC's support--made possible by the funding appropriated by 
Congress--was essential in helping achieve the sharp reduction in 
measles deaths in just 6 years.
    The American Red Cross and the United Nations Foundation would like 
to acknowledge the leadership and work provided by CDC and recognize 
that CDC brings much more to the table than just financial resources. 
The Measles Initiative is fortunate in having a partner that provides 
critical personnel and technical support for vaccination campaigns and 
in response to disease outbreaks. CDC personnel have routinely 
demonstrated their ability to work well with other organizations and 
provide solutions to complex problems that help critical work get done 
faster and more efficiently.
    In fiscal year 2008, Congress has appropriated approximately $41.8 
million to fund CDC for global measles control activities. The American 
Red Cross and the United Nations Foundation thank Congress for the 
financial support that has been provided to CDC in the past and this 
year. We respectfully request a total of $51.8 million for fiscal year 
2009 funding for CDC's measles control activities so that the gains 
made to date can continue and the 2010 goal of a 90 percent reduction 
in measles deaths can be achieved.
    The additional funds we are seeking for CDC are critical for:
  --Sustaining the great progress in measles mortality reduction in 
        Africa by strengthening measles surveillance and strengthening 
        the delivery of measles vaccine through routine immunization 
        services to protect new birth cohorts;
  --Conducting large-scale measles vaccination campaigns in South Asia, 
        especially in India, thus protecting millions of children;
  --Conducting nationwide measles vaccination campaigns in countries, 
        such as the Philippines, lacking access to traditional and new 
        funding sources.
    Your commitment has brought us unprecedented victories in reducing 
measles mortality around the world. Measles can cause severe 
complications and death. It's important to note that measles control 
globally also protects children in the United States from the disease. 
The Americas as a region eliminated endemic measles in 2002, but each 
year countries in the region have outbreaks of imported measles cases. 
These outbreaks cause needless suffering and accrue public health costs 
which in the United States are upwards of $150,000 to respond to each 
case. Therefore, your continued support for this initiative helps 
prevent children from suffering from this preventable disease both 
abroad and in the United States.
    Thank you for the opportunity to submit testimony.
                                 ______
                                 
    Prepared Statement of the Americans for Nursing Shortage Relief
    The undersigned organizations of the ANSR Alliance greatly 
appreciate the opportunity to submit written testimony regarding fiscal 
year 2009 appropriations for Title VIII--Nursing Workforce Development 
Programs. The ANSR Alliance is comprised of 51 national nursing 
organizations that united in 2001 to identify and promote creative 
strategies for addressing the nursing and nurse faculty shortages, 
including passage of the Nurse Reinvestment Act of 2002.
    The ANSR Alliance stands ready to work with lawmakers to advance 
programs and policy that will sustain and strengthen our Nation's 
nursing workforce. To ensure that our Nation has a sufficient and 
adequately prepared nursing workforce to provide quality care to all 
well into the 21st century, ANSR urges Congress to:
  --Appropriate at least $200 million in funding for Nursing Workforce 
        Development Programs under Title VIII of the Public Health 
        Service Act at the Health Resources and Services Administration 
        (HRSA) in fiscal year 2009.
  --Restore the Advanced Education Nursing program (Sec. 811) and fund 
        it at a level on par with the proposed fiscal year 2009 
        increase for the other Title VIII programs.
                            nursing shortage
    Nursing is one of the largest health care professions with an 
estimated 2.9 million licensed RNs in the United States.\1\ Nurses work 
in a variety of settings, including public health, long-term care, and 
hospitals. Advanced practice nurses (nurse practitioners, nurse 
midwives, clinical nurse specialists, and certified registered nurse 
anesthetists) practice in numerous settings, including primary care, 
hospitals, and surgical care facilities. Approximately three out of 
five jobs are in hospitals.\2\ A Federal report published in 2004 
estimates that by 2020 the national nurse shortage will increase to 
more than 1 million full-time nurse positions. According to these 
projections, which are based on the current rate of nurses entering the 
profession, only 64 percent of projected demand will be met.\3\ A 2007 
study that uses different assumptions published in Health Affairs has 
adjusted the demand projection to 340,000 nurses by 2020.\4\ In either 
scenario, the shortage presents an extremely serious challenge to 
health care access and quality patient care. Even considering only the 
smaller projection of vacancies, this shortage still results in a 
frightening gap in nursing service, essentially three times the 2001 
nursing shortage.
---------------------------------------------------------------------------
    \1\ Steiger, D.M., Bausch, S., Johnson, B., Peterson, A. (2006) The 
Registered Nurse Population: Findings from the March 2004 National 
Sample Survey of Registered Nurses. Health Resources and Services 
Administration, U.S. Department of Health and Human Services.
    \2\ Bureau of Labor Statistics, U.S. Department of Labor. 
Occupational Outlook Handbook, 2006-2007 Edition, Registered Nurses.
    \3\ Health Resources and Services Administration. (2004) What is 
Behind HRSA's Projected Supply, Demand, and Shortage of Registered 
Nurses?
    \4\ Auerbach, D.I., Buerhaus, P.I., & Staiger, D.O. (2207). Better 
late than never: Workforce supply implications of later entry into 
nursing. Health Affairs. 26(10: 178-185).
---------------------------------------------------------------------------
                    desperate need for nurse faculty
    Nursing vacancies exist throughout the entire health care system, 
including long-term care, home care, and public health. Even the 
Department of Veterans Affairs, the largest sole employer of RNs in the 
United States, has a nursing vacancy rate of 10 percent. In 2005, the 
American Hospital Association reported that hospitals needed 118,000 
more RNs to fill immediate vacancies, and that this 8.5 percent vacancy 
rate is hampering the hospitals' ability to provide emergency care.\5\ 
Government estimates indicate that this situation only promises to 
worsen due to an insufficient supply of individuals matriculating in 
nursing schools, an aging existing workforce, and the inadequate 
availability of nursing faculty to educate and train the next 
generation of nurses. At the exact same time that the nursing shortage 
is expected to worsen, the baby boom generation is aging and the number 
of individuals with serious, life-threatening, and chronic conditions 
requiring nursing care will increase. Consequently, more must be done 
today by the government to help ensure an adequate nursing workforce 
for the patients of today and tomorrow.
---------------------------------------------------------------------------
    \5\ American Hospital Association. (2005). Prepared to care: The 
24/7 Role of American's full-service Hospitals.
---------------------------------------------------------------------------
    A particular focus on securing and retaining adequate numbers of 
faculty is essential to ensure that all individuals interested in--and 
qualified for--nursing school can matriculate in the year they are 
accepted. In the 2005-2006 academic year, research reported by the 
National League for Nursing found that schools of nursing rejected more 
than 88,000 qualified applications because of shortages of faculty, 
classroom space, and clinical placement for students.\6\ Aside from 
having a limited number of faculty, nursing programs struggle to 
provide space for clinical laboratories and to secure a sufficient 
number of clinical training sites at health care facilities.
---------------------------------------------------------------------------
    \6\ National League for Nursing. (2008). Nursing Data Review 
Academic Year 2005-2006, Executive summary.
---------------------------------------------------------------------------
    The current and deepening nurse faculty shortfall is a critical 
reason that the Advanced Education Nursing line item in the Title VIII 
programs must be fully funded. This program supported 13,877 graduate 
nursing students in fiscal year 2006. The students that are supported 
by this funding are the pool of future faculty for the nursing 
profession. Whether supporting students in clinical education or as 
faculty in schools of nursing, it is essential that advanced education 
nursing funding be restored.
        nursing supply impacts america's emergency preparedness
    The National Center for Health Workforce Analysis at HRSA's Bureau 
of Health Professions reports that the nursing shortage makes it 
challenging for the health care sector to meet current service needs. 
Nursing shortfalls exacerbating capacity insufficiencies throughout the 
health care system have ripple effects, for example, seen in the 
problems encountered by most communities' day-to-day emergency care 
services. Facing a pandemic flu or other natural or man-made disaster 
of significant proportions makes the nursing shortage an even greater 
national concern, as well as an essential part of national preparedness 
and response planning.
    Nurses play a critical role as front-line, first-responders. When 
word of the devastation caused by Hurricanes Katrina and Rita reached 
nurses across the country, they immediately volunteered in American Red 
Cross shelters, medical clinics, and hospitals throughout that 
widespread region. Nurses and advanced practice registered nurses 
(e.g., nurse midwives, nurse practitioners, clinical nurse specialists, 
and certified registered nurse anesthetists) are particularly critical 
national resources in an emergency, able to provide clinical nursing 
care as well as primary care. During Katrina and Rita, nurse midwives 
delivered babies in airplane hangars, and nurses trained in geriatric 
care assisted in caring for those traumatized by their evacuation from 
the comforts of their homes, assisted living facilities, or nursing 
homes. Nurse practitioners diligently staffed temporary and permanent 
health care clinics to provide needed primary care to hurricane 
victims. Many nurses contributed not just through their clinical 
expertise, but also by offering psychological support as they listened 
to survivors recount their stories of pain and tragedy.
    These stories seem particularly relevant in demonstrating the 
essential assistance nurses provide during tragedies, and reinforce the 
need to ensure an adequate supply of all types of nurses. Unless steps 
are taken now, the Nation's ability to respond to disasters will be 
further hindered by the growing nursing shortage. An investment in the 
nursing workforce is a reasonable and cost-effective investment toward 
rebuilding the public health infrastructure and increasing our Nation's 
health care readiness and emergency response capabilities.
                            funding reality
    Enacted in 2002, the Nurse Reinvestment Act (Public Law 107-205) 
addressed new and expanded initiatives, including loan forgiveness, 
scholarships, career ladder opportunities, and public service 
announcements to advance nursing as a career. Despite the enactment of 
this critical measure, HRSA fails to have the resources necessary to 
meet the current and growing demands for our Nation's nursing 
workforce. The President's proposed budget for fiscal year 2009 reduces 
overall funding of Title VIII by $46.1 million, a 30 percent decrease 
compared to fiscal year 2008. This cut is achieved by zeroing out 
funding for ``Advanced Education Nursing.'' This funding cut, if 
implemented, will further diminish training and potentially jeopardizes 
the delivery of health care. Funding of all of the Title VIII programs 
make a difference. For example:
  --fiscal year 2006 Nursing Education Loan Repayment Program: Of the 
        4,222 applicants, 615 awards were made. This translates to 14.6 
        percent of applicants receiving awards.
  --fiscal year 2007 Nursing Education Loan Repayment Program: Whereas 
        last fiscal year, only 12 percent of the 4,845 nursing student 
        applications reviewed were awarded loans in this program (i.e., 
        586 applicant awards).
    The ANSR Alliance requests that the Subcommittee provide a minimum 
of $200 million in fiscal year 2009 to fund the Title VIII--Nursing 
Workforce Development Programs. We also urge the restoration of the 
Advanced Education Nursing program (Sec. 811) funded at a level on par 
with the proposed fiscal year 2009 increase for the other Title VIII 
programs.
    This funding can be used to restore the Advanced Education Nursing 
program and fund a higher rate of Nurse Education Loan Repayment and 
Nursing Scholarship applications, as well as implement other essential 
endeavors to sustain and boost our Nation's nursing workforce. We thank 
you for considering our request.

                                                     SUMMARY
----------------------------------------------------------------------------------------------------------------
                                                                               President's       ANSR Alliance
                   Programmatic area                     Final fiscal year    budget fiscal     fiscal year 2009
                                                                2008            year 2009           request
----------------------------------------------------------------------------------------------------------------
Title VIII--Nursing Workforce Development Programs at         $156,046,000       $109,853,000       $200,000,000
 HRSA..................................................
----------------------------------------------------------------------------------------------------------------

    Academy of Medical-Surgical Nurses, American Academy of Ambulatory 
Care Nursing, American Academy of Nurse Practitioners, American 
Association of Critical-Care Nurses, American Association of Nurse 
Anesthetists, American Association of Nurse Assessment Coordinators, 
American Association of Nurse Executives, American Association of 
Occupational Health Nurses, Inc., American College of Nurse 
Practitioners, American Society of PeriAnesthesia Nurses, American 
Society of Plastic Surgical Nurses, Association of periOperative 
Registered Nurses, Association of Rehabilitation Nurses, Association of 
Women's Health, Obstetric and Neonatal Nurses, Emergency Nurses 
Association, Infusion Nurses Society, International Society of Nurses 
in Genetics, National Association of Clinical Nurse Specialists, 
National Association of Neonatal Nurses, National Association of Nurse 
Massage Therapists, National Association of Nurse Practitioners in 
Women's Health, National Association of Orthopaedic Nurses, National 
Association of Pediatric Nurse Practitioners, National Association of 
Registered Nurse First Assistants, National Black Nurses Association, 
National Conference of Gerontological Nurse Practitioners, National 
Council of State Boards of Nursing, National Gerontological Nursing 
Association, National League for Nursing, National Nursing Centers 
Consortium, National Organization for Associate Degree Nursing, 
National Student Nurses' Association, Oncology Nursing Society, RN 
First Assistants Policy & Advocacy Coalition, Society of Trauma Nurses, 
Society of Urologic Nurses and Associates, and Wound, Ostomy and 
Continence Nurses Society.
                                 ______
                                 
  Prepared Statement of the American Occupational Therapy Association
    Mr. Chairman and members of the subcommittee, thank you for giving 
the American Occupational Therapy Association (AOTA) the opportunity to 
testify as the subcommittee begins to consider funding priorities for 
fiscal year 2009. My name is Fred Somers and I am the executive 
director of the American Occupational Therapy Association, a nationally 
recognized professional association of more than 35,000 occupational 
therapists, occupational therapy assistants, and students of 
occupational therapy. AOTA has affiliate programs in all 50 States.
                       about occupational therapy
    Occupational therapy addresses the activity limitations of people 
experiencing health problems such as stroke, spinal cord injuries, 
cancer, congenital conditions, developmental disabilities, and mental 
illness. With interventions to develop and restore skills that are 
essential for independent functioning, health, well-being, and 
participation in society therapy interventions are available for people 
of all ages and occur in a wide range of settings including schools, 
hospitals, skilled nursing facilities, home health, outpatient 
rehabilitation clinics, psychiatric facilities, and community health 
programs. Occupational therapy programs promote healthy lifestyles for 
individuals who are at risk for health conditions and prevent secondary 
problems associated with chronic conditions or disabilities. The 
outcome of occupational therapy promotes independence in individuals 
who may otherwise require institutionalization or other long-term care 
and enables people with disabilities to be productive and contributing 
members of society. Lower health care costs and improved quality of 
life for individuals, families, and caregivers are also evident 
byproducts of occupational therapy services.
             recognizing the leadership of the subcommittee
    AOTA's testimony is in support of four major programs under the 
subcommittee's jurisdiction: the Center for Disease Control and 
Prevention, especially the Center on Injury Control and Prevention's 
National Falls Prevention Program; the National Institutes of Health; 
the Health Resources and Services Administration's Health Professions 
Programs; and the administration on Aging. Mr. Chairman, our specific 
recommendations for these and other areas of interest are summarized in 
a table at the end of this statement.
    Mr. Chairman, AOTA appreciates your leadership and the leadership 
of this subcommittee in supporting NIH in a time of fiscal austerity. 
Your leadership in supporting all of the programs mentioned in our 
statement are also greatly recognized and appreciated. These programs 
are important to our shared goals of improving the health and well 
being of the Nation. We applaud the subcommittee's leadership in 
addressing the needs of all of the programs under the jurisdiction of 
this subcommittee during this time of fiscal constraints.
               centers for disease control and prevention
    AOTA joins with the CDC Coalition, a nonpartisan coalition of more 
than 100 groups, in supporting $7.4 billion for the Centers for Disease 
Control and Prevention in fiscal year 2009. The CDC programs are 
crucial to the health of millions of Americans, they are key to 
maintaining a strong public health infrastructure, and are essential in 
protecting us from threats to our health. At a time when the CDC is 
faces with unprecedented challenges and responsibilities ranging from 
chronic disease prevention, eliminating health disparities, 
bioterrorism preparedness, to combating the obesity epidemic the 
administration's budget has cut the CDC's budget by $412 million. We 
urge the committee to restore this cut and fund the CDC at $7.4 
billion. Within that amount, we further request that the committee 
provide a $20.7 million increase for the Falls Prevention Program in 
the Center for Injury Prevention and Control.
    Mr. Chairman, AOTA applauds the CDC's Center for Injury Prevention 
and Control's initiative of preventing falls among older adults. Falls 
are a leading cause of mortality among adults age 65 and older; one of 
every three older Americans falls each year, and about 30 percent of 
those who fall require medical treatment. In 2005, in the United 
States, more than 16,000 older adults died from falls, approximately 
1.8 million were treated in hospital emergency departments for 
unintentional fall-related injuries, and more than 430,000 of those 
were subsequently hospitalized. Falls and fall-related injuries 
represent an enormous burden to individuals, society, and to our health 
care system. CDC reports that the mortality rate from falls among older 
Americans has increased 39 percent between 1999 and 2005. Furthermore, 
a recent analysis by CDC determined that in 2000, among adults aged 65 
and older, direct medical costs totaled $19.2 billion for nonfatal 
fall-related injuries.
    Occupational therapy evaluates and treats many older adults who are 
at risks for falls. Both prevention and rehabilitation programs are 
available as part of occupational therapy services Occupational therapy 
addresses the physical and sensory impairments of aging, eliminates 
environmental barriers by promoting ``universal design'' and recommends 
safety practices in people's homes. But occupational therapy can also 
deal with the fear of falling, which contributes to isolation and 
seriously limits many older adults' participation in full community 
life.
    CDC's ability to reduce the rate of falls among older Americans is 
substantially leveraged and increased by collaboration with States and 
organizations, such as Area Aging Agencies, and other partners with 
special access and expertise. AOTA, for example, with 35,000 national 
members and affiliates in all 50 States, we believe, is an ideal 
partner for effective program collaboration. In order to enhance CDC's 
outreach and collaboration with appropriate organizations, AOTA 
recommends a $20.7 million be appropriated to the CDC for elder falls 
prevention.
                   the national institutes of health
    Mr. Chairman, for the National Institutes of Health in fiscal year 
2009, we recommend an increase of $1.9 billion over the fiscal year 
2008 funding level. AOTA joins the Ad Hoc Group for Medical Research 
Funding, a coalition of some 300 patient and voluntary health groups, 
medical and scientific societies, academic research organizations and 
industry in making this recommendation. The administration's fiscal 
year 2009 request would provide $29.2 billion for NIH, representing the 
sixth consecutive year that the NIH budget has failed to keep pace with 
biomedical inflation. In the 5 years through 2008, a series of nominal 
increases and cuts has amounted to flat funding for NIH, and NIH has 
lost approximately 11 percent in purchasing power due to inflation. If 
the President's fiscal year 2009 request becomes law, NIH will have 
lost one-seventh of its purchasing power due to inflation. Furthermore, 
we urge the subcommittee to provide a 6.5 percent base adjustment for 
medical rehabilitation research across all Institutes and Centers.
    The National Center for Medical Rehabilitation Research (NCMRR), 
within NICHD, provides important leadership within the NIH for the 15 
NIH Institutes and Centers which fund medical rehabilitation research. 
For fiscal year 2009 the NIH projects that it will spend $344 million 
for medical rehabilitation research, which is the same as the fiscal 
year 2007 actual NIH expenditure for this category of programs. AOTA 
recommends that these programs be increased to allow for a heightened 
focus on institutional and career development awards aimed at 
increasing the applicant success rate of the several under-represented 
health professions that contribute significantly to the field, such as 
occupational therapists.
    The National Institute for Neurological Disorders and Stroke 
(NINDS) is providing important leadership in efforts to develop a 
consensus rehabilitation treatment protocol for stoke victims that will 
help insure the fullest possible recovery. AOTA strongly supports NINDS 
leadership to convene a Scientific Workshop to indentify the scientific 
questions that must be answered before such a consensus rehabilitation 
treatment protocol can be developed and we would urge the committee to 
support this effort as well.
    The Institute of Medicine report, Enabling America: Assessing the 
Role of Rehabilitation Science and Engineering, highlighted the 
national need for research advances to improve the effectiveness of 
rehabilitation services and the practices for promoting the health of 
people with disabilities. The incidence and prevalence of people with 
disabilities continue to mount in parallel with dramatic increases in 
medicine's ability to prevent deaths due to injury, disease, and 
conditions associated with aging. An estimated 49 million Americans, 
about 1 out of every 7, have disabling conditions so severe that they 
are unable to carry out the major activities of their age group, such 
as attending school, working, or providing self-care. Occupational 
therapy, as part of a medical rehabilitation team, provides the means 
for reducing the effects and societal costs of disability.
                    hrsa health professions program
    The AOTA urges the restoration of the funding reductions proposed 
by the Administration to HRSA's Health Professions programs. Many of 
these programs, such as the Area Health Education Centers Program, the 
Health Careers Opportunity Program, and the Centers of Excellence 
Program are all particularly effective in addressing faculty shortages, 
institutional barriers and other programs needed to support the cost of 
educating under-represented minority health practitioners and 
addressing the needs of underserved areas. These programs are 
particularly advantageous to Historically Black Colleges and 
Universities, where Departments of Occupational Therapy, for example, 
are at constant risk of closure. Adequate support from HRSA's health 
professions program is important for all institutions of higher 
education to meet our workforce needs.
                        administration on aging
    Mr. Chairman, the administration on Aging (AoA) has developed a 
commendable vision and program structure that focuses on the importance 
of community based organizations to help adults as they age maintain 
their independence and well being in the community. AoA is to be 
commended for its development of a national network of Aging and 
Disability Resource Centers (ADRC). The ADRC initiative supports State 
efforts to develop ``one stop shop'' programs that help seniors make 
informed decisions about service and support options. AOTA is 
disappointed, however, in the very limited and diminishing 
discretionary program needed to fund and promote new and innovative 
options to help seniors remain independent. For example, AOTA is aware 
of the exciting and large array of pre-market assistive device 
technologies that need further research, development and testing before 
they can be appropriately promoted and used by our seniors. AOTA 
recommends increased funding for AoA in fiscal year 2009.
                        department of education
    As the national association representing occupational therapy, a 
profession dedicated to maximizing independence and function for people 
throughout the lifespan, AOTA supports NIDRR's Long Range Plan's 
emphasis on rapidly transitioning research knowledge into policy and 
best practices that will improve the quality of life for people with 
disabilities. We urge Congress to fully fund these activities. Two 
issues of particular interest for AOTA in this area are the Disability 
Rehabilitation Research Projects (DRRP) related to rehabilitation of 
children with traumatic brain injury and reducing obesity and obesity-
related secondary conditions in adolescents and adults with 
disabilities.
    AOTA also recognizes the translational research being conducted by 
the Institute of Educational Science, particularly the National Center 
for Special Education Research (NCSER) which published a request for 
proposals on the topic of special education related services. AOTA 
believes Congress should increase support for NCSER in order to promote 
research that delivers more evidence-based interventions into 
classrooms.
                         summary and conclusion
    Mr. Chairman, we appreciate the opportunity to testify on the many 
important programs funded by this subcommittee. A summary of our 
specific funding recommendations follows:
CDC: +$20.7 Million for the Center for Injury Prevention and Control
  --Increased funding needed for CDC's Falls Prevention Program and 
        Older Drivers Initiative.
NIH and Medical Rehabilitation Research
  --6.5 percent increase for NIH overall and a 6.5 percent increase for 
        Medical Rehabilitation Research;
HRSA: +$50.74 million to Restore Administration Cuts
  --Area Health Education Centers Program, the Health Careers 
        Opportunity Program and the Centers of Excellence Programs
AoA: +$5 million for programs to fund innovative options to help 
        seniors remain independent.
                                 ______
                                 
   Prepared Statement of the American Psychological Association (APA)
    The APA, in Washington, DC, is pleased to submit these 
recommendations. APA is the largest scientific and professional 
organization representing psychology in the United States and is the 
world's largest association of psychologists. APA's membership includes 
more than 148,000 researchers, educators, clinicians, consultants and 
students. Through its divisions in 54 subfields of psychology and 
affiliations with 60 State, territorial, and Canadian provincial 
associations, APA works to advance psychology as a science, as a 
profession and as a means of promoting human welfare.
    Many of the programs in this appropriations bill directly impact 
the health and quality of life of populations that are now underserved 
by the health care and education systems. Ethnic and linguistic 
minorities and rural and urban families in poverty are especially 
vulnerable to the current economic downturn and would benefit from 
targeted research and services. In addition, special populations 
including children and the elderly have specific health needs. Below 
are APA's recommendations for funding for needed research and services 
to improve health and education for all, but particularly for these 
underserved populations.
    National Institutes of Health.--APA supports the recommendation of 
the Coalition for Health Funding of a 6.5 percent increase for NIH in 
fiscal year 2009. APA is concerned about falling success rates, falling 
grant application rates, and the increasing age of first-time grant 
recipients that have been exacerbated by sub-inflationary funding 
increases over the past 5 years.
    Research on behavior and health is an integral part of the NIH 
research portfolio, and must remain so to reduce the complications of 
the chronic conditions that are such large contributors to health care 
costs. Behavioral research on diabetes is a case in point. Diabetes can 
lead to devastating complications such as heart disease, stroke, 
blindness, and premature death. Diabetes is growing at an epidemic 
rate, with more than 20 million Americans currently affected, and 54 
million with pre-diabetes. For many years, scientists believed that 
medication was the only tool to prevent and treat diabetes. Medication 
can prevent some complications, but does not eliminate all the adverse 
consequences. A landmark study called the Diabetes Prevention Program 
\1\ demonstrated that lifestyle interventions--modest weight loss and 
regular physical activity--can reduce the risk of developing Type 2 
diabetes in high-risk adults by 58 percent, compared to 31 percent 
reduction with medication alone. These findings led to ``Small Steps, 
Big Rewards'', the first national diabetes prevention campaign.
---------------------------------------------------------------------------
    \1\ Knowler WC, Barrett-Connor E, Fowler SE, et al.; Diabetes 
Prevention Program Research Group. Reduction in the incidence of type 2 
diabetes with lifestyle intervention or metformin. N Engl J Med. 2002 
Feb 7;346(6):393-403.
---------------------------------------------------------------------------
    NIH funding of research on substance abuse is key to realizing the 
national goal of eliminating health disparities. The consequences of 
drug abuse disproportionately impact minorities, especially African 
American populations. The National Institute of Drug Abuse (NIDA) 
encourages research in this population, particularly in geographic 
areas where HIV/AIDS rates are high and or growing among African 
Americans, including in criminal justice settings. NIDA's promising 
research among the Native American community has the potential to make 
an impact on methamphetamine abuse in those rural populations.
    Increase the power of research on HIV-AIDS: Speed translation of 
research to the affected communities.--NIH-supported behavioral 
research aimed at reducing the likelihood of HIV infection should 
include the necessary structural, environmental, and socio-economic 
variables to ensure that the end product can be evaluated as 
appropriate for racial and ethnic minority populations.
    Congress needs better data in order to track which NIH programs 
train minority scientists most effectively, and which disciplines are 
best attracting minority trainees. APA recommends that Congress (a) 
urge the National Center for Minority Health and Health Disparities 
(NCMHD) to collaborate with all Institutes and Centers to produce an 
integrated and coordinated NIH-wide science trainee data tracking 
system, and (b) suggest that NCMHD engage trainees actively in the data 
tracking process to document trainee outcomes such as funding awards 
for trainees or fellows, including those programs that are targeted to 
underrepresented minorities. APA also recommends that Congress urge the 
Center to continue its efforts to build a foundation of talented 
researchers who will create the knowledge base needed to address the 
many complex issues underlying health disparities in communities of 
color, and to collaborate with other I/Cs on existing efforts to 
enhance recruitment and retention of underrepresented minority 
scientists.
    Health Resources and Services Administration: improve access to 
care for the underserved.--The Graduate Psychology Education (GPE) 
Program is the nation's only Federal program dedicated solely to the 
education and training of psychologists. The activity is authorized by 
the Public Health Service Act [Public Law 105-392 section 755 
(b)(1)(J)] and funded under the ``Allied Health and Other Disciplines'' 
account in the Labor-HHS Appropriations Bill. Established 6 years ago, 
GPE provides grants to accredited psychology doctoral, internship and 
postdoctoral training programs. An exemplary ``two-for-one'' Federal 
program, GPE supports the interdisciplinary training of psychology 
graduate students while they provide supervised mental and behavioral 
health services to underserved populations, such as older adults, 
children, the chronically ill, and victims of abuse and trauma, 
including returning military personnel and their families, especially 
in rural and urban communities. GPE currently supports 18 grants across 
the country at academic institutions and training sites. Prior to 
recent budget cuts, one major program component had been devoted to 
geropsychology--the area of practice focusing on needs of the elderly. 
Providing $7 million in fiscal year 2009 will restore funding to allow 
HRSA to run a national competition to produce approximately 30 general 
GPE training grants and 10 new geropsychology grants.
    National Health Service Corps (NHSC): address health professions 
shortages, particularly in mental and behavioral health.--There are 
currently 2,724 mental health professional shortage areas (HPSAs) 
across the country accounting for an estimated underserved population 
of over 56 million. Psychologists, as health professionals eligible to 
participate in the NHSC Loan Repayment Program, are a critical 
component in meeting the mental and behavioral health needs of these 
underserved populations. While the NHSC supports a field strength of 
over 4,000 practitioners, HRSA estimates that an additional 30,000 
practitioners are needed to achieve the target HPSA practitioner/
population ratios. However, in the past 5 years funding for the NHSC 
has been cut by $47 million, over 27 percent of a budget that was 
already insufficient in fiscal year 2003. Consequently, the NHSC has 
reduced annual scholarship and loan repayment awards by over 25 percent 
during that period (from 1,351 awards in fiscal year 2003 to 1,012 in 
fiscal year 2007). At its current funding level, the NHSC is unable to 
award qualified loan repayment applicants, and 13 practitioners in 
underserved areas are turned away for every 1 accepted. To address the 
deficiencies and to ensure an increase in psychologists serving in the 
NHSC, we strongly urge a steady and sustainable increase starting with 
a $200 million appropriation for the NHSC in fiscal year 2009.
    Substance Abuse and Mental Health Services Administration 
(SAMHSA):protect students at risk of suicide.--The APA urges the 
Committee to increase funds for the Campus Suicide Prevention program. 
This program, administered by SAMHSA and authorized as part of the 
Garrett Lee Smith Memorial Act, has made 56 grants to 2- and 4-year 
colleges and universities throughout the nation. Still, with nearly 
4,000 institutions of post-secondary study in the United States, $5 
million cannot meet the needs that exist.
    Those needs are significant. The most recent National College 
Health Assessment noted, ``the rate of students reporting ever being 
diagnosed with depression has increased 56 percent in the last six 
years, from 10 percent in spring 2000 to 16 percent in spring 2005.'' A 
2007 Survey of College Counseling Center Directors found that the 
greatest concerns facing centers was finding referrals for students 
requiring long term help (62 percent), followed administrative 
considerations of handling of students with more serious psychological 
problems (61 percent), and the growing demand for services without an 
increase in resources (59 percent). Finally, and of great significance, 
suicide is the 2nd leading cause of death among college students. When 
students receive help for their psychological problems, counseling can 
have a positive impact on personal well-being, academic success, and 
retention. A survey conducted by the University of Idaho Student 
Counseling Center (2000) found that 77 percent of students who 
responded reported that they were more likely to stay in school because 
of counseling and that their school performance would have declined 
without counseling.
    Center for Mental Health Services: Expand the Minority Fellowship 
Program (MFP).--There is an urgent need to address health disparities 
as the demographics of our nation are changing dramatically. While 
minorities are projected to comprise 40 percent of the U.S. population 
by 2025, only 23 percent of recent doctorates in psychology, social 
work, and nursing were awarded to minorities. The MFP's mission is to 
address this need by increasing the number of minority mental health 
professionals and by training mental health professionals to become 
culturally competent. APA recommends the Committee include $6 million 
for the MFP.
    Emergency Mental Health and Traumatic Stress Services Branch: 
increase attention to child trauma.--Traumatic events can have a 
significant impact on the physical, mental, emotional, and behavioral 
health of children and families. SAMHSA has made tremendous efforts in 
this area through the outstanding National Child Traumatic Stress 
Network (NCTSN) program and its coordinating center, the UCLA-Duke 
University National Center for Child Traumatic Stress. APA recommends 
increased funding for NCTSN programs supporting the recovery of 
children, families and communities impacted by a wide range of trauma. 
APA also encourages SAMHSA to strengthen the expertise of this critical 
program through programmatic support of experienced child trauma 
professionals, and to increase attention to the needs of children and 
families affected by trauma.
    Center for Substance Abuse Prevention (CSAP): train providers to 
identify substance use and mental disorders of persons with HIV.--
According to recent reports, almost half of persons with HIV/AIDS 
screened positive for illicit drug use or a mental disorder, including 
depression and anxiety disorder. APA encourages SAMHSA and CDC to 
collaborate with HRSA to train health care providers to screen HIV/AIDS 
patients for mental health and substance use problems.
    CDC's National Center for Health Statistics (NCHS): improve 
surveillance of eating disorders.--Eating disorders are a significant 
public health problem for individuals across the lifespan. They may 
have serious, chronic effects on one's quality of life and often co-
occur with significant physical and mental health problems. However, 
the impact of these disorders has not yet been appropriately 
investigated. Therefore, APA urges the Committee to encourage the CDC 
to increase support for surveillance and research efforts regarding the 
incidence, morbidity, and mortality rates of eating disorders, 
including anorexia nervosa, bulimia nervosa, binge eating disorder, and 
eating disorders not otherwise specified across age, ethnicity and 
gender subgroups.
    Administration on Aging (AoA)'s National Family Caregiver Support 
Program (NFCSP): fund critical program for family caregivers.--Family 
caregivers play an essential role in providing a significant proportion 
of our nation's health and long-term care for those who are chronically 
ill and aging. Research suggests that respite provides family 
caregivers with the relief necessary to help maintain their own health, 
bolster family stability, keep marriages intact, and avoid or delay 
more costly nursing home or foster care placements. APA urges Congress 
to fund the Lifespan Respite Care Act at its authorized level of $53.3 
million.
    Administration for Children and Families (ACF): increase attention 
to prevention of maltreatment of Children with Disabilities.--APA is 
committed to preventing child maltreatment and ameliorating its adverse 
health effects. In particular, children with disabilities are a 
distinct high-risk group for abuse and neglect. An estimated 300,000 
children with disabilities are maltreated each year, which is 
approximately two to three times more than children without 
disabilities. APA recommends targeted support for appropriate research, 
and the implementation of evidence-based prevention and early 
intervention efforts for children with disabilities.
    The Department of Education's Office of Safe and Drug-Free Schools 
(OSDFS): expand use of threat assessments.--Research shows that threat 
assessment techniques are more effective in preventing school violence 
and shootings than zero tolerance measures and similar disciplinary 
strategies. Threat assessment is a process of evaluating the threat, 
and the circumstances surrounding the threat, to uncover any facts or 
evidence that indicate the threat is likely to be carried out. APA 
recommends the adoption of standardized, research-based threat 
assessment techniques, including the creation of interdisciplinary 
school-based threat assessment teams that address threats on a case-by-
case basis.
    Enhance Culturally and Linguistically Appropriate Education.--APA 
urges the strengthening of programs that meet the unique cultural, 
linguistic and educational needs of ethnic minority and American 
Indian/Alaska Native students from pre-school to graduate-level 
education. Ethnically diverse children and American Indian/Alaska 
Native children are performing at far lower levels than other students. 
APA recommends support for educational systems that reflect the unique 
needs of these populations.
                                 ______
                                 
        Prepared Statement of the American Physiological Society
    The American Physiological Society (APS) thanks the subcommittee 
for its sustained support for the National Institutes of Health (NIH). 
The doubling of the agency's budget that took place between 1998 and 
2003 allowed the NIH to explore new and innovative ways to address 
challenges in biomedical research. The increased funding has allowed 
researchers to investigate scientific opportunities on an unprecedented 
scale, creating significant momentum and excitement in the research 
community. To maximize and build upon that momentum, the NIH must be 
able to continue to provide support for scientists and researchers 
around the country. For the last 5 years, the NIH budget has failed to 
keep pace with inflation, resulting in a loss of purchasing power of 
more than 10 percent. The Administration's fiscal year 2009 budget 
proposal would fund the NIH at $29.3 billion, the same as in fiscal 
year 2008. The APS urges you to make every effort to provide the NIH 
with $31.1 billion in fiscal year 2009 so we can take advantage of 
scientific opportunities and strengthen the Nation's scientific 
workforce to face future challenges.
    The APS is a professional society dedicated to fostering research 
and education as well as the dissemination of scientific knowledge 
concerning how the organs and systems of the body work. The Society was 
founded in 1887 and now has more than 10,000 member physiologists. Our 
members conduct NIH-supported research at colleges, universities, 
medical schools, and other public and private research institutions 
across the United States. The APS offers these comments on the budget 
recognizing both the enormous financial challenges facing our Nation 
and the enormous opportunities before us to make progress against 
disease.
                   research challenges and solutions
    Looking ahead, the scientific and medical communities see many 
challenges on the horizon including an aging population, the growing 
incidence of obesity, diabetes and heart disease, and new and emerging 
infectious diseases. The NIH has taken a forward-thinking approach to 
these challenges, and developed a vision for the future of health care 
that focuses on predicting who will develop diseases with the goal of 
developing personalized prevention and treatment strategies that will 
pre-empt disease onset before symptoms appear.\1\ The goal of this 
approach is to minimize health care expenses by keeping Americans 
healthier longer, instead of the current model of health care, which is 
based on intervention once symptoms occur. In order to make this vision 
a reality, extensive research is needed to increase our understanding 
of the basic mechanisms of disease and pursue the most effective 
intervention strategies.
---------------------------------------------------------------------------
    \1\ http://www.nih.gov/strategicvision.htm (accessed March 19, 
2008).
---------------------------------------------------------------------------
    An example of this proactive approach is beginning to take shape in 
Alzheimer's disease research. Alzheimer's is a devastating neurological 
disease that afflicts a growing number of older Americans. Researchers 
have used both basic and clinical research to begin to determine who is 
at risk for developing the disease, identify the underlying genetic 
variants, and understand the molecular pathology in the brains of those 
who are affected. This work has led to several new targets for drug 
development that will be explored in the coming years, hopefully 
leading to the development of new ways to prevent and treat Alzheimer's 
disease.
    Another recent breakthrough that holds the promise of saving many 
lives through disease prevention is the development of a vaccine that 
protects against cervical cancer. Scientists have known for some time 
that human papilloma virus (HPV) infection can in some cases lead to 
the development of cervical cancer in women. While effective screening 
methods for early detection are available, the disease remains a 
significant cause of death in the United States and around the world, 
where health care systems are not able to provide routine screening for 
precancerous cells. The recently released cervical cancer vaccine is 
designed to prevent infection by several of the viruses that cause most 
of the cancers and by vaccinating young women it is hoped that the 
incidence of cervical cancer will decline.
                        the scientific workforce
    In addition to supporting research, the NIH must also address 
workforce issues to be sure that our nation's researchers are ready to 
meet the challenges they will face in the future. Recent data from the 
NIH shows that the average age of NIH supported principal investigators 
(PI) is now 50.8 years, up from an average of 39.1 years in 1980.\2\ In 
addition, the average age of the new NIH PI has increased to 42.4 
years. As the scientific workforce ages and researchers retire, there 
is concern that there will not be an adequate number of young 
scientists who are trained to replace them. NIH has undertaken several 
programs to encourage and fund early-career investigators, but falling 
success rates may discourage trainees from pursuing careers in academic 
science. The fiscal year 2009 budget request would result in an overall 
success rate for grant applications of just 18 percent, the lowest 
figure in decades. As funding falters, the best and brightest minds 
will turn away from careers in medical science. If NIH cannot fund new 
ideas, this will not only hamper efforts to find cures, it will also 
discourage up and coming researchers who could become the next 
generation of basic and clinical scientists.
---------------------------------------------------------------------------
    \2\ http://grants.nih.gov/grants/new_investigators/
resources.htm#data (accessed March 21, 2008).
---------------------------------------------------------------------------
                            recommendations
    The APS joins the Federation of American Societies for Experimental 
Biology (FASEB) and the Ad Hoc Group for Medical Research Funding in 
urging that NIH be provided with $31.1 billion in fiscal year 2009 to 
permit the agency to maintain its current wide-ranging and important 
research efforts. Because the majority of the NIH budget is distributed 
to scientists who carry out their research in all 50 States, the 
investment that Congress makes in biomedical research creates jobs and 
contributes to economic vitality in communities throughout the country. 
The continued health and prosperity of our Nation's people depends on a 
robust and consistent investment in basic, translational and clinical 
research.
                                 ______
                                 
      Prepared Statement of the American Society for Microbiology
    The American Society for Microbiology (ASM) wishes to submit the 
following statement in support of increased funding for the Centers for 
Disease Control and Prevention (CDC). The ASM strongly believes that 
the CDC must receive sustained and sufficient funding to support its 
mission as the Nation's principal public health agency. The 
administration's proposed fiscal year 2009 budget for CDC falls 7.5 
percent below the fiscal year 2008 level and clearly is inadequate to 
support CDC's science based programs which are so critical to 
preserving public health.
    The recently released World Health Organization's (WHO) report of 
higher than expected incidences of extensively drug-resistant 
tuberculosis (XDR-TB), illustrates the consequences of underestimating 
the global threat from infectious diseases. In the United States, 
recent recalls of contaminated ground beef, peanut butter and produce, 
along with other events like the spread of drug-resistant staph 
infections in medical facilities and communities, also warn us against 
under funding of CDC programs in infectious disease surveillance and 
prevention.
    The ASM believes that the administration's fiscal year 2009 
proposed budget for CDC would undermine essential CDC capabilities. We 
recommend instead that Congress appropriate $7.4 billion for the fiscal 
year 2009 CDC budget. With annual U.S. healthcare costs projected by 
Federal economists to exceed $4 trillion by 2017, it seems prudent to 
invest now in preventing diseases, present and future. We need to make 
increased investments in the CDC to slow or stop disease outbreaks 
through education, prevention, preparedness and research.
  cdc infectious disease programs safeguard united states and global 
                             public health
    The administration's proposed funding cuts for the fiscal year 2009 
CDC budget will weaken the agency's key infectious disease programs. 
The $1.87 billion allocated for infectious diseases is a decrease of 
$30 million, or 5.1 percent below the fiscal year 2008 level. CDC's 
diverse programs include research and surveillance activities that must 
be sustained, long term, not suddenly created in response to some 
unexpected disease outbreak. CDC initiatives that focus on preparing 
against emerging infectious diseases or slowing the spread of 
antimicrobial resistant (AR) pathogens are wisely investing Federal 
resources in cost effective prevention. All these programs rely on 
adequate Congressional appropriations that recognize infectious disease 
control as central to the CDC's overall mission of protecting the 
public. Unfortunately, the proposed individual program levels for 
fiscal year 2009 would constrict these CDC activities, which is 
shortsighted given the ever changing nature of pathogens and patient 
populations.
    Antimicrobial Resistance.--Across the CDC, any program related to 
infectious disease must now consider potential pathogens that have 
evolved sufficiently to resist traditional drug therapies. Last year's 
media reports of highly virulent staph infections among sports teams 
and international travelers infected with XDR-TB were snapshots of the 
reality that AR infections are steadily increasing in incidence and 
severity. A CDC study released in October determined that in the United 
States during 2005, methicillin-resistant Staphylococcus aureus (MRSA) 
caused more than 94,000 life threatening infections and nearly 19,000 
deaths, the first national baseline of MRSA's impact on public health. 
Earlier CDC studies had determined that more than 70 percent of 
bacterial hospital-acquired infections are resistant to at least one of 
the antimicrobial drugs most commonly used to treat them. In 2007, the 
CDC made new treatment recommendations for gonorrhea after finding that 
rising numbers of cases are resistant to commonly used and previously 
highly effective antimicrobials. Surveillance data had shown that 
between 2001 and 2006, fluoroquinolone-resistant cases rose from less 
than 1 percent of reported infections to over 13 percent. Gonorrhea, 
the Nation's second most commonly reported infectious disease, causes 
an estimated 700,000 new infections annually. Additionally, 
oseltamivir-resistant H1N1 was recognized in Europe and the United 
States this year. Continued emergence of this strain could be a 
potential threat in the context of pandemic flu preparedness and the 
stockpiling of Tamiflu.
    Another year of shrinking support for the CDC will undercut the 
nationwide strategy begun in 1999 with creation of the interagency 
Antimicrobial Resistance Task Force, co-chaired by the CDC. In 2001, 
the Task Force launched its Public Health Action Plan to Combat 
Antimicrobial Resistance, outlining an ambitious agenda to improve 
surveillance, prevention and control, and research and product 
development. Last fall, ASM commented on the Strategies to Address 
Antimicrobial Resistance Act (STAAR Act; H.R. 3697, S. 2313), which 
encourages greater Federal efforts against AR infections, and 
recommended that the CDC be appointed the lead agency for the Task 
Force and the Action Plan. The agency's infectious disease programs 
integrate proven CDC expertise that ranges from case reporting networks 
to research on faster diagnostic tests for field use. Monitoring 
outbreaks like those caused by MRSA, pathogenic E. coli, or XDR-TB, is 
optimized through CDC surveillance systems that include the National 
Healthcare Safety Network. However, as more and more hospitals are 
required via State mandates to report nosocomial infections including 
MRSA, they will have to register with the National Healthcare Safety 
Network database, causing a strain on this network. Additional 
resources will be necessary to for the database to support this growth.
    ASM recommends that Congress appropriate additional resources for 
CDC antimicrobial resistance programs of $65 million in fiscal year 
2009. The administration's fiscal year 2009 CDC budget would instead 
cut allocations for AR activities to $16.5 million, 2.5 percent below 
last year. This is an unfortunate backward approach to a public health 
problem that is growing nationally and internationally.
    Emerging Infectious Diseases.--Funding for emerging infectious 
diseases (EID) would be cut under the proposed fiscal year 2009 budget 
which decreases funding to ``All Other Infectious Diseases'' by $26.6 
million, or 20 percent under last year's appropriation. ASM recommends 
that at a minimum, funding for this group of diseases should be 
restored to the fiscal year 2007 or fiscal year 2008 level of $130-132 
million, with an adjustment for inflation. Failure to do so could 
impinge on the CDC's capacity to quickly respond to EID outbreaks in 
the United States and abroad. Rapid responses rely upon a well funded 
infrastructure of special pathogens expertise and laboratories, 
training programs for State and local laboratory personnel, and 
domestic or global case reporting computer networks. Weak fiscal 
support of EID-related programs could slow what has been to date, very 
rapid CDC reaction, typified by the SARS, West Nile virus and foodborne 
outbreaks that mobilized CDC resources in recent years.
    Unpredictable emerging and re-emerging infectious diseases are a 
constant in public health and must not be ignored. The viruses causing 
HIV infection and Ebola fever were once unknown pathogens eventually 
linked by scientists to newly emergent diseases. Long familiar diseases 
like dengue fever and cholera are today spreading to new geographic 
regions or reappearing in areas once thought freed of the diseases. CDC 
assisted studies reported in 2007 included discovery of a new, 
potentially deadly bacterial species isolated from a U.S. traveler to 
Peru and related to trench fever. Researchers using a new molecular 
typing test developed by CDC reported that a viral strain typically 
tied to common colds and stomach flu, adenovirus 21, is becoming more 
virulent and more common in the United States, with half of the 
patients requiring hospitalization. The agency prepares for the 
unexpected through its time tested blend of ongoing surveillance, 
education and training programs, prevention protocols, and basic 
research on best methods. CDC uses these science based tools in an 
impressive range of activities that could be curtailed by the 
administration's inopportune budget cuts for fiscal year 2009.
    If Congress does not reverse the downturn in CDC funding, another 
specific budget category to be reduced is the National Center for 
Zoonotic, Vector-Borne and Enteric Diseases (NCZVED), which addresses a 
broad range of relatively rare emerging pathogens and diseases like 
SARS, hantavirus, Ebola, and ``mad cow'' disease. The program also 
includes activities on far more prevalent disease like Lyme disease and 
foodborne diseases such as salmonellosis and E. coli 0157, as well as 
the growing threat of drug-resistant malaria, the reemergence of yellow 
fever in South America, and the increasing threat of dengue and dengue 
hemorrhagic fever throughout much of Asia and the Americas. The CDC 
2009 request includes $60.6 million for NCZVED, a decrease of $7.2 
million below fiscal year 2008, despite the continual call for CDC 
expertise in special pathogens and food safety. For example, CDC 
recently confirmed test results from the national lab in Uganda that 
identified a new virus subtype causing an outbreak of Ebola fever. CDC 
also responded last year to outbreaks of Marburg hemorrhagic fever in 
Uganda and Rift Valley fever in Kenya, where it led efforts to 
establish a Rift Valley fever veterinary diagnostic laboratory. The 
agency also updated traveler advisories based on rising reports of 
mosquito-borne dengue fever in Latin America and the Caribbean. Disease 
patterns in this category can be altered by diverse elements like 
farming practices, human or vector migration, and climate patterns. 
Public health responses undoubtedly benefit from CDC's skillful 
collaboration among scientific disciplines and across national borders.
    Additionally, Federal investment in the WNV program over the years 
has created a strong infrastructure assisting States in the prevention, 
detection and response to WNV and other vector-borne diseases. Since 
fiscal year 2007, however, program funding has dwindled causing concern 
that the infrastructure will not be able to support the core capacity 
of activities, including lab capacity and national, State and local 
expertise in all vector-borne diseases. Appropriate support for this 
program in fiscal year 2009 and beyond is critical as WNV becomes more 
endemic in this country.
    Finally, as foodborne disease outbreaks continue to rise, CDC needs 
additional resources to support databases such as PulseNet and FoodNet. 
Last year's investigation of over 700 cases of Salmonella infection in 
48 States which were linked to contaminated peanut butter, is an 
example of CDC's real time surveillance and control efforts. Large 
multiple State investigations, however, are a strain on CDC's limited 
databases. Additional resources will help to improve and enhance these 
data collection networks.
    HIV/AIDS, Viral Hepatitis, STDs and TB Prevention.--The CDC budget 
category covering HIV/AIDS, hepatitis, sexually transmitted diseases 
(STDs), and tuberculosis characterizes the breadth of CDC 
responsibilities in protecting public health. Unfortunately, funding on 
these programs would stagnate under the fiscal year 2009 budget, losing 
$2 million, or 0.2 percent of its fiscal year 2008 level. The recent 
report of hepatitis C infections traced by public health officials to 
outpatient procedures at a Las Vegas clinic is a timely reminder that 
the various types of viral hepatitis, which kill more than 5,000 
Americans annually, are not a minor health problem. New infections with 
sexually transmitted pathogens are rising in the United States. In 
2006, more than 1 million cases of chlamydia broke the unenviable U.S. 
record for annual reports of a sexually transmitted disease, but 
officials believe that actual case numbers are closer to 2.8 million. 
CDC surveillance networks also reveal that cases of syphilis and 
gonorrhea are increasing, complicated by drug resistant forms.
    At the end of 2007, there were about 33.2 million persons worldwide 
living with HIV infection, including over 1 million in the United 
States. Co-infection with TB is becoming more prevalent (an estimated 
one third of persons living with HIV), and TB is the cause of death in 
up to half of AIDS cases. The concurrent spread of drug resistant forms 
of tuberculosis, especially in areas hard hit by HIV/AIDS, deeply 
worries public health experts. CDC should work towards assuring 
necessary laboratory support for tuberculosis diagnosis and sensitivity 
testing in areas where antiretroviral therapy and anti-tuberculosis 
therapy are being distributed in HIV endemic areas that are co-endemic 
with TB. Without such laboratory support, we are at risk of 
contributing to the MDR and XDR-TB epidemic through the use of 
ineffective drugs. Any advances made in diagnosis and controlling 
tuberculosis and HIV/AIDS must be preserved with sufficient Federal 
funding. The administration's proposed CDC fiscal year 2009 budget does 
correctly recognize the opportunity offered by estimates that up to 25 
percent of U.S. cases are unaware of their infection, providing 
increased funds to expand domestic HIV testing and early diagnosis in 
high risk United States locations and populations.
          asm asks congress to reverse erosion of cdc funding
    ASM recommends that Congress approve $7.4 billion for CDC funding 
in fiscal year 2009. This request to significantly increase the CDC 
budget acknowledges the major contributions made by the agency to 
disease prevention in the United States and elsewhere. Whether focusing 
on influenza, bioterrorism, quarantine stations, or other priorities, 
ongoing CDC programs bring together agency and other scientists, along 
with health care officials and governments, to find science based 
solutions to complex situations. The CDC surveillance networks and 
field research teams can detect and help contain disease outbreaks 
anywhere in the world. The strength of CDC's many infectious disease 
programs lies in steady sources of talented personnel and sufficient 
funding. Eroding Federal support with flat or declining appropriations 
is not the best advised approach to preserving the Nation's public 
health.
                                 ______
                                 
      Prepared Statement of the American Society for Microbiology
    The American Society for Microbiology (ASM) appreciates the 
opportunity to submit a written statement on the fiscal year 2009 
budget proposal for the National Institutes of Health (NIH). The ASM is 
seriously troubled by the continuing shrinkage of appropriations for 
the National Institutes of Health (NIH), with inflation-adjusted 
funding flat or declining since fiscal year 2003. The President's 
proposed fiscal year 2009 budget for NIH continues a disturbing trend 
that risks losing our scientific edge in biomedical research. With 
annual health spending in the United States likely to exceed $4 
trillion by 2017, innovative medical research is critical to 
improvements in both public health and the national economy. Increasing 
biomedical research is key to finding new cures, treatments and 
preventions for infectious and chronic diseases that threaten our 
future.
    For 5 years the NIH budget has lost ground to biomedical research 
inflation, estimated at 3.5-3.7 percent. Since fiscal year 2004 this 
situation has cost NIH and biomedical research approximately 11 percent 
in purchasing power. At the same time, annual funding has fallen far 
short of that needed to adequately support and build on opportunities 
in basic and clinical research. The fiscal year 2008 NIH budget of $29 
billion, minus the set-aside for the Global Fund for HIV/AIDS, Malaria 
and TB, is a meager 0.5 percent increase over fiscal year 2007. The 
administration's proposed $29 billion budget for fiscal year 2009 
regrettably flatlines NIH funding for the sixth year in a row. This 
budget request will clearly weaken fiscal support for NIH, which 
expends more than 80 percent of its budget on research at about 3,100 
institutions and is the largest single funding source for research at 
U.S. universities and colleges.
    Because of flat budgets and expanding research opportunities, the 
success rates for NIH research grant applications continue to fall. The 
total number of grant recipients also will decline under the fiscal 
year 2009 request. This is a sobering predictor of slower technical 
innovation and fewer medical advances. At the National Institute of 
Allergy and Infectious Diseases (NIAID), the number of research grant 
requests rose from 1,993 in 1997 to 4,900 in 2007, while success rates 
slipped from about 43 percent to 23 percent. The Institute's fiscal 
year 2008 funding level was 2.3 percent below fiscal year 2007. The 
fiscal year 2009 NIAID request is only 0.2 percent above fiscal year 
2008 levels, before $300 million is transferred to the Global Fund. 
This downward trend will continue to undercut research that is the 
foundation of future biomedical successes and the fight against 
infectious diseases.
       asm recommends the nih budget be increased by $1.9 billion
    The NIH Reform Act of 2006 authorized a funding level of $32.8 
billion for the NIH's fiscal year 2008 budget, which illustrates how 
far the NIH budget, currently at $29 billion in fiscal year 2008, has 
fallen behind congressionally authorized levels of growth. Continuing 
fiscal shortfalls will weaken efforts of NIH to develop new therapies, 
vaccines, and diagnostics for a myriad of infectious and chronic 
diseases. To help reverse the ongoing erosion of biomedical research, 
the ASM recommends that the fiscal year 2009 NIH budget be increased by 
$1.9 billion, an increase of 6.6 percent. This increase will help 
restore purchasing power that has been eroded by 5 years of flat 
funding and would provide some measure of growth for biomedical 
research.
taking advantage of research opportunities to improve public health and 
                      address infectious diseases
    Federal investment in basic and applied research has had enormous 
payoff in medical advances against chronic and infectious diseases. The 
following are just several examples of the changeable nature of both 
pathogens and their human hosts, evidence that strong biomedical 
research programs must be sustained:
  --Seasonal influenza kills about 36,000 Americans each year and is an 
        ever present concern. Even more worrisome is the potential for 
        pandemic influenza if current bird flu viruses mutate into 
        forms easily spread from human to human. Since the avian 
        influenza virus H5N1 resurfaced in 2003, it has spread to more 
        than 60 countries and infected more than 350 people, with over 
        60 percent mortality. NIAID scientists are collaborating with 
        others worldwide to prevent a possible pandemic. Last year, for 
        example, NIAID researchers identified genetic changes on the 
        H5N1 surface that could permit easier entry into human cells, 
        thereby suggesting potential approaches to improved 
        surveillance and vaccines.
  --Antimicrobial resistance is a significant challenge to biomedical 
        researchers trying to understand the mechanisms involved and to 
        develop countermeasures. Recent surveillance studies report yet 
        another newly emerging antimicrobial resistant pathogen, a 
        multiple-drug resistant variant of the already problematic 
        methicillin-resistant Staphylococcus aureus (MRSA). In 2005, 
        MRSA was responsible for an estimated 94,000 life-threatening 
        infections in the United States and more than 18,000 deaths. 
        The newly described variant of MRSA is resistant to even more 
        drugs and causes more-virulent skin infections. NIAID-supported 
        research is providing key information on resistant staph 
        infections, like the just published studies identifying 
        specific proteins secreted by MRSA that determine disease 
        severity in humans. NIAID-funded scientists also have used 
        comparative genome sequencing to reveal the origins of epidemic 
        community-associated MRSA, a growing problem in this country.
  --Infectious diseases, whether naturally occurring or deliberately 
        spread, are among the greatest security challenges to the 
        United States. Research to develop effective medical 
        countermeasures to detect prevent and treat infectious diseases 
        is a key responsibility of the NIAID. The NIAID has updated its 
        Strategic Plan for Biodefense to address a broad spectrum 
        strategy to prevent and respond to traditional and new types of 
        threats that will require the capability to rapidly identify 
        unknown and poorly defined agents, quickly evaluate the 
        efficacy of available interventions and develop and deploy 
        novel treatments. In recent years, the NIAID has expanded its 
        basic and applied research portfolio and established a 
        comprehensive infrastructure with extensive resources that 
        support all levels of research. Examples of this infrastructure 
        include the following:
    --Regional Centers of Excellence (RCEs) for Biodefense and Emerging 
            Infectious Diseases, ten centers, located nationwide, 
            provide resouces and communication systems that can be 
            rapidly mobilized and coordinated with regional and local 
            systems in response to an urgent public health event.
    --Cooperative Centers for Translational Research on Human 
            Immunology and Biodefense further knowledge of human immune 
            responses against infectious pathogens and elucidate 
            molecular mechanisms responsible for both short-term 
            immunity and long-term immune memory. The ultimate goal of 
            these eight centers is to translate research on immunity to 
            infection into clinical applications to protect against 
            bioterrorist threats.
    --National Biocontainment Laboratories (NBLs) and Regional 
            Biocontainment Laboratories (RBLs), 2 NBLs and 13 RBLs are 
            available or under construction for research requiring high 
            levels of containment and are prepared to assist national, 
            State and local public health efforts in the event of a 
            bioterrorism or infectious disease emergency.
    --Expanded Vaccine and Treatment Evaluation Units, multiple sites 
            allow for more extensive clinical trials capacity and 
            expertise.
    --The Biodefense and Emerging Infections Research Resources 
            Repository offers reagents and information essential for 
            studying emerging infectious diseases and biological 
            threats.
    --Genomics and proteomics centers include the Microbial Sequencing 
            Centers, the Pathogen Functional Genomics Resource Center, 
            the Bioinformatics Resource Centers, and the Biodefense 
            Proteomics Research Centers.
    --The In Vitro and Animals Models for Emerging Infectious Diseases 
            and Biodefense resource provides screening of potential 
            therapeutics and the development of in vitro animal 
            efficacy models for evaluating drugs and vaccines.
    --The NIAID has supported a number of biodefense workshops and 
            multiple training opportunities ranging from basic 
            introductory courses to 2-year fellowships to provide 
            professional training in biosafety and biocontainment. 
            These programs are available through the National Biosafety 
            and Biocontainment Training Program, the RCEs, and NIAID 
            Institutional Training Grants.
  --The NIH routinely reevaluates its research priorities and adjusts 
        programs to address changing disease threats, national 
        priorities, or appropriated resources. An example is the 
        agency-wide Roadmap for Medical Research, a strategy to 
        leverage waning resources through interdisciplinary teams, 
        state-of-the-art technologies, and harmonization of clinical 
        research efforts. The NIH's singular ability to impact 
        biomedical research broadly is epitomized by the recent launch 
        of a new Roadmap initiative: the multi-center Human Microbiome 
        Project to map the genomes of all microorganisms present in or 
        on the human body, to better understand host-microbe 
        interactions in both sickness and health. With next-generation 
        DNA technologies, researchers will eventually sequence 1,000 
        microbial genomes, results to be deposited in public databases 
        for use in designing new treatments and better methods to 
        prevent disease.
    Constant changes here and abroad, in populations, disease pathogens 
and vectors, climates, economies, cultures, and governments, all have 
potential to influence the global burden of human disease. Emerging 
threats like West Nile fever or Nipah virus coexist with global 
successes like polio or smallpox immunization campaigns. Persistent 
challenges like HIV/AIDS and foodborne illnesses continue to confound 
public health officials. It is imperative that the NIH maintain its 
science based agility to respond appropriately to both the anticipated 
and the unexpected health threat.
biomedical research is the foundation of research competitiveness in a 
                             global economy
    Past investments in biomedical research have returned exceptional 
benefits to the American people, but there are troubling indicators 
that our scientific edge is slipping. Globalization is now increasing 
worldwide competition in scientific discovery, technological 
innovation, and scientific talent. The United States has declined to 
near parity with the EU-15 in recent years in biology publications. 
U.S. Federal support for academic R&D is falling for the first time in 
a quarter century. It is critical to note that the Federal Government 
supports the majority of basic research conducted by academic 
institutions. Basic research funded by the NIH fuels technological 
innovations and fosters the vitality of the U.S. scientific enterprise. 
It helps create new industries and jobs, improves the quality of life 
of people and provides technology that contributes to national 
security.
    The ASM strongly recommends that Congress end the past 5 years of 
fiscal neglect for NIH. It is absolutely essential that the United 
States increase support for biomedical research, which is an essential 
foundation for future U.S. scientific competitiveness, knowledge based 
industries, and highly skilled jobs in this country. Biomedical 
innovation is key to economic competiveness and technological 
breakthroughs that improve our lives.
    asm urges congress to increase fiscal year 2009 funding for nih
    The United States cannot afford to neglect greater investment in 
biomedical research. The continuing complacency that has led to the 
leveling off and erosion of support for biomedical research can 
diminish our defenses against both expected and unpredictable diseases. 
Also at risk are the nation's high quality scientific workforce, the 
tradition of technological innovation, and competitiveness in global 
markets, all nurtured by NIH supported research, laboratories and 
institutions. To assure continued public health benefits from 
biomedical research, the ASM strongly recommends that Congress increase 
the NIH budget by $1.9 billion for fiscal year 2009.
                                 1_____
                                 
        Prepared Statement of the American Society for Nutrition
    The American Society for Nutrition (ASN) appreciates this 
opportunity to submit testimony regarding fiscal year 2009 
appropriations for the National Institutes of Health (NIH) and the 
National Center for Health Statistics (NCHS). ASN is the professional 
scientific society dedicated to bringing together the world's top 
researchers, clinical nutritionists and industry to advance our 
knowledge and application of nutrition to promote human and animal 
health. Our focus ranges from the most critical details of research to 
very broad societal applications. ASN respectfully requests $31.2 
billion for NIH, and we urge you to adopt the President's request of 
$125 million for NCHS in fiscal year 2009.
    Basic and applied research on nutrition, nutrient composition, the 
relationship between nutrition and chronic disease and nutrition 
monitoring are critical to the health of all Americans and the U.S. 
economy. Awareness of the growing epidemic of obesity and the 
contribution of chronic illness to burgeoning health care costs has 
highlighted the need for improved information on dietary components, 
dietary intake, strategies for dietary change and nutritional 
therapies. Preventable chronic diseases related to diet and physical 
activity cost the economy over $117 billion annually, and this cost is 
predicted to rise to $1.7 trillion in the next 10 years. It is for this 
reason that we urge you to consider these recommended funding levels 
for two agencies under the Department of Health and Human Services that 
have profound effects on nutrition research, nutrition monitoring, and 
the health of all Americans--the National Institutes of Health and the 
National Center for Health Statistics.
                     national institutes of health
    The National Institutes of Health (NIH) is the nation's premier 
sponsor of biomedical research and is the agency responsible for 
conducting and supporting 90 percent (nearly $1 billion) of federally-
funded basic and clinical nutrition research. Nutrition research, which 
makes up about four percent of the NIH budget, is truly a trans-NIH 
endeavor, being conducted and funded across multiple Institutes and 
Centers. Some of the most promising nutrition-related research 
discoveries have been made possible by NIH support.
    In order to fulfill the extraordinary promise of biomedical 
research, including nutrition research, ASN recommends an fiscal year 
2009 funding level of $31.2 billion for the agency, which is a $1.9 
billion increase over fiscal year 2008.
    Over the past 50 years, NIH and its grantees have played a major 
role in the explosion of knowledge that has transformed our 
understanding of human health, and how to prevent and treat human 
disease. Because of the unprecedented number of breakthroughs and 
discoveries made possible by NIH funding, scientists are helping 
Americans to live longer, healthier and more productive lives. Many of 
these discoveries are nutrition-related and have impacted the way 
clinicians prevent and treat heart disease, cancer, diabetes and age-
related macular degeneration.
    During the next 25 years, the number of Americans with chronic 
disease is expected to reach 46 million, and the number of Americans 
over age 65 is expected to be the largest in our nation's history. 
Sustained support for basic and clinical research is required if we are 
to confront successfully the health care challenges associated with an 
older, and potentially sicker, population.
    Unfortunately, over the last 5 years the NIH budget has failed to 
keep up with inflation and subsequently, the percentage of dollars 
funding nutrition-focused projects has declined. Flat budgets have 
reduced the purchasing power of the agency by 13 percent, and the 
success rate for research proposals to NIH likely will be reduced by 
half from that of 6 years ago. New opportunities for ground-breaking 
research are going unfunded, and there is a chance that the number of 
new therapies under development will begin to decrease. It is 
imperative that we renew our commitment to biomedical research and to 
fulfill the hope of the American people by making the NIH a national 
priority. Otherwise, we risk losing our nation's dominance in 
biomedical research.
               cdc national center for health statistics
    The National Center for Health Statistics (NCHS), housed within the 
Centers for Disease Control and Prevention (CDC), is the nation's 
principal health statistics agency. The NCHS provides critical data on 
all aspects of our health care system, and it is responsible for 
monitoring the nation's health and nutrition status. Nutrition and 
health data, largely collected through the National Health and 
Nutrition Examination Survey (NHANES), is essential for tracking the 
health and well being of the American population, and it is especially 
important for observing health trends in our nation's children. Knowing 
both what Americans eat and how their diets directly affect their 
health provides valuable information to guide policies on food safety, 
food labeling, food assistance, military rations and dietary guidance.
    Over the past few years, flat and decreased funding levels have 
threatened the collection of this important information, most notably 
vital statistics and the NHANES. To address this problem, ASN 
recommends an fiscal year 2009 funding level of $125 million for the 
agency, which is an $11 million increase over fiscal year 2008. This 
recommendation is consistent with the funding level recommended by 
President Bush in his fiscal year 2009 budget proposal.
    Current funding levels for NCHS are precarious. Before the modest 
increase Congress provided last year, NCHS had lost $13 million in 
purchasing power since fiscal year 2005 due to years of flat funding, 
coupled with inflation and the increased costs of technology and 
information security. These shortfalls forced the elimination of data 
collection and quality control efforts, threatened the collection of 
vital statistics, stymied the adoption of electronic systems and 
limited the agency's ability to modernize surveys to reflect changes in 
demography, geography, and health delivery.
    Moreover, nearly 30 percent of the funding for NHANES comes from 
other Federal agencies such as the NIH and the Environmental Protection 
Agency. When these agencies face flat budgets or cuts, they withdraw 
much-needed support for NHANES, placing this national treasure in even 
greater jeopardy.
    The obesity epidemic is a case in point that demonstrates the value 
of the work done by NCHS. It is because of NHANES that our nation 
became aware of this growing public health problem, and as obesity 
rates have increased to 31 percent of American adults (which we know 
because of continued monitoring), so too have rates of heart disease, 
diabetes and certain cancers. It is only through continued support of 
this program that the public health community will be able to stem the 
tide against obesity. Continuous collection of this data will allow us 
to determine not only if we have made progress against this public 
health threat, but also if public health dollars have been targeted 
appropriately. A recent report from the Institute of Medicine 
recognized the importance of NHANES and called for the enhancement of 
current surveillance systems to monitor relevant outcomes and trends 
with respect to childhood obesity.\1\ 
---------------------------------------------------------------------------
    \1\ Institute of Medicine. Progress in Preventing Childhood Obesity 
Washington, DC: National Academies Press, 2006.
---------------------------------------------------------------------------
    In addition to our fiscal year 2009 request, we urge the Committee 
to consider a path to boost funding for the NCHS to $175 million by 
2013. Reaching this level over 5 years, through annual increases of $11 
million, would allow the agency to reach what its supporters call 
``blue sky.'' Such an increase would ensure uninterrupted collection of 
vital statistics and sustain over-sampling of vulnerable populations.
    ASN thanks your committee for its support of the NIH and NCHS in 
previous years. If we can provide any additional information, please 
contact Mary Lee Watts, ASN Director of Public Affairs, at (301) 634-
7112 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="95f8e2f4e1e1e6d5fbe0e1e7fce1fcfafbbbfae7f2bb">[email&#160;protected]</a>
                                 ______
                                 
  Prepared Statement of the American Society of Tropical Medicine and 
                                Hygiene
                                overview
    The American Society of Tropical Medicine and Hygiene (ASTMH) 
appreciates the opportunity to submit written testimony to the House 
Labor, Health and Human, Services, and Education Appropriations 
Subcommittee. With nearly 3,500 members, ASTMH is the world's largest 
professional membership organization dedicated to the prevention and 
control of tropical diseases. We represent, educate, and support 
tropical medicine scientists, physicians, clinicians, researchers, 
epidemiologists, and other health professionals in this field.
    We respectfully request that the subcommittee provide the following 
allocations in the fiscal year 2009 Labor, Health and Human, Services, 
and Education Appropriations bill to support a comprehensive effort to 
enhance malaria control programming globally:
  --$18 million to the Centers for Disease and Control and Prevention 
        (CDC) for malaria research, control, and program evaluation 
        efforts with a $6 million set-aside for program monitoring and 
        evaluation;
  --$31.1 billion to National Institutes of Health (NIH);
  --$4.3 billion to the National Institute of Allergy and Infectious 
        Diseases (NIAID); and
  --$71 million to the Fogarty International Center (FIC).
    We very much appreciate the subcommittee's consideration of our 
views, and we stand ready to work with subcommittee members and staff 
on these and other important global health matters.
                                 astmh
    ASTMH plays an integral and unique role in the advancement of the 
field of tropical medicine. Its mission is to promote global health by 
preventing and controlling tropical diseases through research and 
education. As such, the Society is the principal membership 
organization representing, educating, and supporting tropical medicine 
scientists, physicians, researchers, and other health professionals 
dedicated to the prevention and control of tropical diseases. Our 
members reside in 46 States and the District of Columbia and work in a 
myriad of public, private, and non-profit environments, including 
academia, the U.S. military, public institutions, Federal agencies, 
private practice, and industry.
    The Society's long and distinguished history goes back to the early 
20th century. The current organization was formed in 1951 with the 
amalgamation of the National Malaria Society and the American Society 
of Tropical Medicine. Over the years, the Society has counted many 
distinguished scientists among its members, including Nobel laureates. 
ASTMH and its members continue to have a major impact on the tropical 
diseases and parasitology research carried out around the world.
    ASTMH aims to advance policies and programs that prevent and 
control those tropical diseases which particularly impact the global 
poor. ASTMH supports and encourages Congress to expand funding for--and 
commitments to--national and international malaria control initiatives. 
As part of this effort, ASTMH recently conducted an analysis of 
federally funded tropical medicine and disease programs and developed 
fiscal year 2009 funding requests based on this assessment.
                tropical medicine and tropical diseases
    The term ``tropical medicine'' refers to the wide-ranging clinical 
work, research, and educational efforts of clinicians, scientists, and 
public health officials with a focus on the diagnosis, mitigation, 
prevention, and treatment of diseases prevalent in the areas of the 
world with a tropical climate. Most tropical diseases are located in 
either sub-Saharan Africa, parts of Asia (including the Indian 
subcontinent), or Central and South America. Many of the world's 
developing nations are located in these areas; thus tropical medicine 
tends to focus on diseases that impact the world's most impoverished 
individuals.
    The field of tropical medicine encompasses clinical work treating 
tropical diseases, work in public health and public policy to prevent 
and control tropical diseases, basic and applied research related to 
tropical diseases, and education of health professionals and the public 
regarding tropical diseases.
    Tropical diseases are illnesses that are caused by pathogens that 
are prevalent in areas of the world with a tropical climate. These 
diseases are caused by viruses, bacteria, and parasites which are 
spread through various mechanisms, including airborne routes, sexual 
contact, contaminated water and food, or an intermediary or 
``vector''--frequently an insect (e.g. a mosquito)--that transmits a 
disease between humans in the process of feeding.
                                malaria
    Malaria is a global emergency affecting mostly poor women and 
children; it is an acute and sometimes fatal disease caused by the 
single-celled Plasmodium parasite that is transmitted to humans by the 
female Anopheles mosquito.
    Malaria is highly treatable and preventable. The tragedy is that 
despite this, malaria is one of the leading causes of death and disease 
worldwide. According to the CDC, as many as 2.7 million individuals die 
from malaria each year, with 75 percent of those deaths occurring in 
African children. In 2002, malaria was the fourth leading cause of 
death in children in developing countries, causing 10.7 percent of all 
such deaths. Malaria-related illness and mortality extract a 
significant human toll as well as cost Africa's economy $12 billion per 
year perpetuating a cycle of poverty and illness. Nearly 40 percent of 
the world's population lives in an area that is at high risk for the 
transmission of malaria.
    Fortunately, malaria can be both prevented and treated using four 
types of relatively low-cost interventions: (1) the indoor residual 
spraying of insecticide on the walls of homes; (2) long-lasting 
insecticide-treated nets; (3) Artemisinin-based combination therapies; 
and (4) intermittent preventive therapy for pregnant women. However, 
limited resources preclude the provision of these interventions and 
treatments to all individuals and communities in need.
        requested malaria-related activities and funding levels
CDC Malaria Efforts
    ASTMH calls upon Congress to fund a comprehensive approach to 
malaria control, including adequately funding the important 
contributions of the CDC. The CDC originally grew out of the WWII 
``Malaria Control in War Areas'' program, and since its founding the 
Atlanta-based agency has maintained a strong role in efforts to 
research and mitigate malaria. Although malaria has been eliminated as 
an endemic threat in the United States for over 50 years, CDC continues 
to be on the cutting edge of global efforts to reduce the toll of this 
deadly disease.
    CDC efforts on malaria falls into three broad areas--prevention, 
treatment, and vaccines--and CDC performs a wide range of basic 
research within these categories. This includes investigations of the 
biology of host-parasite relationships; immune response to malaria; 
host genetic factors associated with malaria; parasite genetic 
diversity and drug resistance; HIV and malaria interaction; the 
efficacy of insecticide-treated nets in preventing illness and deaths; 
malaria and pregnancy; public health strategies for improving access to 
antimalarial treatment and delaying the appearance of antimalarial drug 
resistance; improved transmission reduction strategies; vaccine 
development and evaluation; and many other topics.
    Although endemic malaria has been eradicated in the United States 
it remains one of the leading causes of death and disease around the 
world, and a significant proportion of CDC's malaria-focused work 
involves working in and with foreign countries to prevent the spread of 
malaria, and to assist in the treatment of those who have contracted 
the disease. CDC funding in fiscal year 2008 for global malarial 
activities is $8.7 million, which includes CDC's contribution to the 
$1.2 billion President's Malaria Initiative.
    CDC participates in several global efforts, including: The 
President's Malaria Initiative (PMI), the Amazon Malaria Initiative 
(AMI), the West Africa Network Against Malaria During Pregnancy, 
Preventing and Controlling Malaria During Pregnancy in Sub-Saharan, and 
the International Red Cross and the Expanded Program for Immunizations.
    CDC collaborations support treatment and prevention policy change 
based on scientific findings; formulation of international 
recommendations through membership on World Health Organization (WHO) 
technical committees; and work with Ministries of Health and other 
local partners in malaria-endemic countries and regions to develop, 
implement, and evaluate malaria programs. In addition, CDC has provided 
direct staff support to the WHO; UNICEF; the Global Fund to Fight AIDS, 
Tuberculosis, and Malaria; and the World Bank--all stakeholders in the 
Roll Back Malaria (RBM) Partnership.
                          nih malaria programs
    As the Nation's and world's premier biomedical research agency, the 
NIH and its Institutes and Centers play an essential role in the 
development of new anti-malarial drugs, better diagnostics, and an 
effective malaria vaccine. NIH estimates that its fiscal year 2007 
spending on malaria research will total $101 million while malaria 
vaccine efforts will receive $45 million. ASTMH urges that NIH malaria 
research portfolio and budget be increased by at least 6.6 percent in 
fiscal year 2009. To support a comprehensive effort to control malaria, 
ASTMH respectfully requests the following funding:
  --$31.1 billion to NIH
  --$4.3 billion NIAID
  --$71 million to the Fogarty International Center for training that 
        supports U.S. efforts targeting malaria and other neglected 
        tropical diseases.
    National Institute of Allergy and Infectious Diseases (NIAID).--
Malaria continues to be among the most daunting global public health 
challenges we face. A long-term investment is needed to achieve the 
drugs, diagnostics and research capacity needed to control malaria. 
NIAID, the lead institute for malaria research, plays an important role 
in developing the drugs and vaccines needed to fight malaria. ASTMH 
urges the committee to increase NIAID funding so that present malaria 
research efforts be maintained and new areas explored such as: 
increasing fundamental understanding of the complex interactions among 
the malaria parasites, the mosquito vectors responsible for their 
transmission and the human host; developing new diagnostics, drugs, 
vaccines, and vector management approaches; and enhancing both national 
and international research and research training infrastructure to meet 
malaria research needs.
    Fogarty International Center (FIC).--While biomedical research has 
provided major advances in the treatment and prevention of malaria, 
these benefits are often slow to reach the people who need them the 
most. While highly-effective anti-malarial drugs exist and when 
patients receive these drugs promptly their lives can be saved. The FIC 
plays a critical role in strengthening science and public health 
research institutions in low-income countries, specifically in malaria, 
TB, and neglected tropical diseases. By promoting applied health 
research in developing countries, the FIC can speed the implementation 
of new health interventions for malaria, TB, and neglected tropical 
diseases.
    The FIC works to strengthen research capacity in countries where 
populations are particularly vulnerable to threats posed by malaria and 
neglected tropical diseases. FIC's efforts strengthen the research 
workforce in-country--including collaborations with U.S.-supported 
global health programs--and help to ensure that programs are 
continuously improved and adapted to local conditions, and that the 
impact of U.S. investments is maximized, are critical to fighting 
malaria and other tropical diseases.
    The FIC addresses global health challenges and supports the NIH 
mission through myriad activities, including: collaborative research 
and capacity building projects relevant to low- and middle-income 
nations; institutional training grants designed to enhance research 
capacity in the developing world, with an emphasis on institutional 
partnerships and networking; the Forum for International Health, 
through which NIH staff share ideas and information on relevant 
programs and develop input from an international perspective on cross-
cutting NIH initiatives; the Multilateral Initiative on Malaria, which 
fosters international collaboration and co-operation in scientific 
research against malaria; and the Disease Control Priorities Project, 
which is a partnership supported by the FIC, The Gates Foundation, the 
WHO, and the World Bank to develop recommendations on effective health 
care interventions for resource-poor settings.
    ASTMH urges the subcommittee to allocate additional resources to 
the FIC in fiscal year 2009 to increase these efforts, particularly as 
they address the control and treatment of malaria.
                               conclusion
    Thank you for your attention to these important global health 
matters. We know that you face many challenges in choosing funding 
priorities and we hope that you will provide the requested fiscal year 
2009 resources to those agencies programs identified above. ASTMH 
appreciates the opportunity to share its views, and we thank you for 
your consideration of our requests.
                                 ______
                                 
          Prepared Statement of the American Thoracic Society

           SUMMARY.--FISCAL YEAR 2009 FUNDING RECOMMENDATIONS
                        [In millions of dollars]
------------------------------------------------------------------------
                                                             Amount
------------------------------------------------------------------------
National Institutes of Health........................             30,537
    National Heart, Lung & Blood Institute...........              3,112
    National Institute of Allergy & Infectious                     4,675
     Disease.........................................
    National Institute of Environmental Health                       683
     Sciences........................................
    Fogarty International Center.....................                 70
    National Institute of Nursing Research...........                146
Centers for Disease Control and Prevention...........             10,700
    National Institute for Occupational Safety &                     253
     Health..........................................
    Environmental Health: Asthma Activities..........                 70
    Div. of Tuberculosis Elimination.................                300
    Chronic Disease Prev. & Health Promotion: COPD...                  6
------------------------------------------------------------------------

    The American Thoracic Society (ATS) is pleased to submit our 
recommendations for programs in the Labor Health and Human Services and 
Education Appropriations Subcommittee purview. The American Thoracic 
Society, founded in 1905, is an independently incorporated, 
international education and scientific society that focuses on 
respiratory and critical care medicine. With approximately 18,000 
members who help prevent and fight respiratory disease around the 
globe, through research, education, patient care and advocacy, the 
Society's long-range goal is to decrease morbidity and mortality from 
respiratory disorders and life-threatening acute illnesses.
                        lung disease in america
    Lung disease is a serious health problem in the United States. One 
in seven deaths is caused by lung disease, making it America's number 
three cause of death. In 2005, lung diseases cost the U.S. economy an 
estimated $157.8 billion in direct and indirect costs. Lung diseases 
include chronic obstructive pulmonary disease, lung cancer, 
tuberculosis, influenza, sleep disordered breathing, pediatric lung 
disorders, occupational lung disease, sarcoidosis, asthma and severe 
acute respiratory syndrome (SARS).
    The ATS is concerned that the President's fiscal year 2009 budget 
proposes to freeze NIH spending at the fiscal year 2008 level and would 
impose a significant funding cut for the Centers for Disease Control 
and Prevention (CDC). We ask that this subcommittee recommend a 6.5 
percent increase for NIH so that the institute can respond to 
biomedical research opportunities and public health needs. In order to 
stem the devastating effects of lung disease, research funding must 
continue to grow to sustain the medical breakthroughs made in recent 
years. We also ask that the CDC budget be adjusted to reflect increased 
needs in chronic disease prevention, infectious disease control, 
including strengthened TB control to prevent the spread of drug-
resistant TB, and occupational safety and health research and training. 
There are three lung diseases that illustrate the need for further 
investment in research and public health programs: Chronic Obstructive 
Pulmonary Disease, pediatric lung disease, asthma and tuberculosis.
                                  copd
    Chronic Obstructive Pulmonary Disease (COPD) is the fourth leading 
cause of death in the United States and the third leading cause of 
death worldwide. It is estimated that 11.2 million patients have COPD 
while an additional 12 million Americans are unaware that they have 
this life threatening disease. According to the National Heart, Lung 
and Blood Institute (NHLBI), COPD cost the U.S. economy an estimated 
$37 billion per year. We recommend the subcommittee encourage NHLBI to 
devote additional resources to finding improved treatments and a cure 
for COPD.
    Today, COPD is treatable but not curable. Fortunately, promising 
research is on the horizon for COPD patients. Despite these leads, the 
ATS feels that research resources committed to COPD are not 
commensurate with the impact the disease has on the United States and 
that more needs to be done to make Americans aware of COPD, its causes 
and symptoms. The ATS commends the NHLBI for its leadership on 
educating the public about COPD through the National COPD Education and 
Prevention Program. As this initiative continues, we encourage the 
NHLBI to maintain its partnership with the patient and physician 
community.
    While additional resources are needed at NIH to conduct COPD 
research, CDC has a role to play as well. To address the increasing 
public health burden of COPD, the ATS encourages the CDC to create a 
COPD program the Center for Chronic Disease Prevention and Health 
Promotion with a recommended funding level of $6 million for fiscal 
year 2009. We are hopeful that the program will include development of 
a national COPD response plan, expansion of data collection efforts and 
creation of other public health interventions for COPD. The ATS also 
encourages the CDC to add COPD-based questions to future CDC health 
surveys, including the National Health and Nutrition Evaluation Survey 
(NHANES), the National Health Information Survey (NHIS) and the 
Behavioral Risk Factor Surveillance Survey (BRFSS). By collecting 
information on the prevalence of COPD, researchers and public health 
professionals will be better able to understand and control the 
disease.
                         pediatric lung disease
    The ATS is pleased to report that infant death rates for various 
lung diseases have declined for the past 10 years. However, of the 
seven leading causes of infant mortality, four are lung diseases or 
have a lung disease component. In 2003, lung diseases accounted for 18 
percent of all deaths under 1 year of age. The ATS encourages the NHLBI 
to continue with its research efforts to study lung development and 
pediatric lung diseases.
    The pediatric origins of chronic lung disease extend back to early 
childhood factors. For example, many children with respiratory illness 
are growing into adults with COPD. In addition, it is estimated that 
close to 20.5 million people suffer from asthma, including an estimated 
6.8 million children. While some children appear to outgrow their 
asthma when they reach adulthood, 75 percent will require life-long 
treatment and monitoring of their condition. Asthma is the third 
leading cause of hospitalization among children under the age of 15 and 
is the leading cause of chronic illness among children.
                                 asthma
    The ATS believes that the NIH and the CDC must play a leadership 
role in assisting individuals with asthma. National statistical 
estimates show that asthma is a growing problem in the United States. 
Approximately 22.2 million Americans currently have asthma, of which 
12.2 million had an asthma attack in 2005. African Americans have the 
highest asthma prevalence of any racial/ethnic group. The age-adjusted 
death rate for asthma in the African-American population is three times 
the rate in whites.
                          asthma surveillance
    There is a need for more data on regional and local asthma 
prevalence. In order to develop a targeted public health strategy to 
respond intelligently to asthma, we need locality-specific data. CDC 
should take the lead in collecting and analyzing this data and Congress 
should provide increased funding to build this these tracking systems.
    In fiscal year 2008, Congress provided approximately $30.7 million 
for CDC's National Asthma Control Program. The goals of this program 
are to reduce the number of deaths, hospitalizations, emergency 
department visits, school or work days missed, and limitations on 
activity due to asthma. We recommend that CDC be provided with $70 
million in fiscal year 2009 to expand the program and establish grants 
to community organizations for screening, treatment, education and 
prevention of childhood asthma.
                                 sleep
    Sleep is an essential element of life, but we are only now 
beginning to understand its impact on human health. Several research 
studies demonstrate that sleep illnesses and sleep disordered breathing 
affect an estimated 50-70 million Americans. The public health impact 
of sleep illnesses and sleep disordered breathing is still being 
determined, but is known to include traffic accidents, lost work and 
school productivity, cardiovascular disease, obesity, mental health 
disorders, and other sleep-related comorbidities. We cannot 
appropriately address these problems if we do not consider how chronic 
sleep loss contributes to them. Despite the increased need for study in 
this area, research on sleep and sleep-related disorders has been 
underfunded. The ATS recommends funding level of $2 million in fiscal 
year 2009 to support activities related to sleep and sleep disorders at 
the CDC, including for the National Sleep Awareness Roundtable (NSART), 
surveillance activities, and public educational activities. The ATS 
also recommends an increase of funding for research on sleep disorders 
at the Nation Center for Sleep Disordered Research (NCSDR) at the 
NHLBI.
                              tuberculosis
    Tuberculosis (TB) is a global public health crisis that remains a 
concern for the U.S. Globally, one-third of the world's population is 
infected with the TB germ, 9.2 million active cases develop each year 
and 1.7 million people die of tuberculosis annually. The rapid spread 
of drug resistant TB and the emergence of extensively drug-resistant 
(XDR) TB has created a global health emergency. According to a February 
2008 World Health Organization (WHO) report on drug resistant TB, about 
5 percent of all new TB cases are drug resistant. The highest rates of 
drug resistance can be found in former Soviet bloc countries such as 
Azerbaijan and Ukraine and areas where HIV/AIDS is endemic, such as 
South Africa. Because it is resistant to most of the drugs used to 
treat TB, XDR-TB is virtually untreatable and has an extremely high 
fatality rate. Because of the ease with which TB can spread, drug 
resistant TB will continue to pose a serious risk to the United States 
as long as it exists anywhere else in the world.
    According to the CDC, although the overall rate of new TB cases is 
declining in the United States, the annual rate of decrease in TB cases 
has slowed significantly, from about 7.3 percent (1993 to 1999) to 3.8 
percent currently (2000-2007). This rate represents one of the smallest 
declines since 1992, when over $1 billion was spent in New York City 
alone to regain control of TB. The ATS is concerned that TB rates in 
African Americans remain high and that TB rates in foreign-born 
Americans are growing.
    While we urge immediate action in response to the drug resistant TB 
global health crisis, we also recognize the best way to prevent the 
future development of other resistant strains of tuberculosis is 
through supporting effective tuberculosis control programs in the 
United States and throughout the globe. We ask the subcommittee to take 
the first steps to eliminating TB in the United States and prevent 
further outbreaks of drug resistant forms of TB. The ATS, in 
collaboration with Stop TB USA, recommends a funding level of $300 
million in fiscal year 2009 for CDC's Division of TB Elimination.
    The NIH has a prominent role to play in the elimination of 
tuberculosis through the development of new tools to fight the disease, 
however the ATS is concerned that the NIH has cut funding for TB 
research from $158 million in 2005 to $150 million in 2006-2008. We 
encourage the NIH to expand efforts to develop new tools to reduce the 
rising global TB burden, including faster diagnostics that effectively 
identify TB in all populations, new drugs to shorten the treatment 
regimen for TB and combat drug resistance, and an effective vaccine.
Fogarty International Center TB Training Programs
    The Fogarty International Center (FIC) at NIH provides training 
grants to U.S. universities to teach AIDS treatment and research 
techniques to international physicians and researchers. Because of the 
link between AIDS and TB infection, FIC has created supplemental TB 
training grants for these institutions to train international health 
care professionals in the area of TB treatment and research. These 
training grants should be expanded and offered to all institutions. The 
ATS recommends Congress provide $70 million for FIC, which would allow 
the expansion the TB training grant program from a supplemental grant 
to an open competition grant.
          researching and preventing occupational lung disease
    The National Institute of Occupational Safety and Health (NIOSH) is 
the sole Federal agency responsible for conducting research and making 
recommendations for the prevention of work-related diseases and injury. 
The ATS recommends that Congress provide $253 million in fiscal year 
2009 for NIOSH to expand or establish the following activities: the 
National Occupational Research Agenda (NORA); tracking systems for 
identifying and responding to hazardous exposures and risks in the 
workplace; emergency preparedness and response activities; and training 
medical professionals in the diagnosis and treatment of occupational 
illness and injury.
                               conclusion
    Lung disease is a growing problem in the United States. It is this 
country's third leading cause of death. The lung disease death rate 
continues to climb. Overall, lung disease and breathing problems 
constitute the number one killer of babies under the age of 1 year. 
Worldwide, tuberculosis is one of the leading infectious disease 
killers. The level of support this subcommittee approves for lung 
disease programs should reflect the urgency illustrated by these 
numbers. The ATS appreciates the opportunity to submit this statement 
to the subcommittee. Please contact Nuala S. Moore, Sr. Legislative 
Representative, at 202.296.9770, or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="86c8ebe9e9f4e3c6f2eee9f4e7e5efe5a8e9f4e1">[email&#160;protected]</a>, with any 
questions concerning this statement.
                                 ______
                                 
             Prepared Statement of the Arthritis Foundation
    The Arthritis Foundation greatly appreciates the opportunity to 
submit testimony in support of the continued federal commitment to 
arthritis research at the National Institutes of Health and arthritis 
public health initiatives at the Centers for Disease Control and 
Prevention, which are aimed at improving the lives of 46 million adults 
and 294,000 children living with arthritis in the United States.
    The medical and societal impact of arthritis in the United States 
is staggering. Arthritis costs the economy $128 billion, which was 
equivalent to 1.2 percent of the U.S. gross domestic product in 2003. 
These costs include $81 billion in direct costs for expenses like 
physician visits and surgical interventions, and $47 billion in 
indirect costs for missed work days. Arthritis is the most common cause 
of disability in the United States, and nearly one-third of adults with 
arthritis experience work limitations.
    The Arthritis Foundation strongly believes that in order to prevent 
or delay arthritis from impacting people and to mitigate the effects of 
arthritis that an investment both from the private and public sector 
must be made today. Research shows that the pain and disability of 
arthritis can be decreased through early diagnosis and appropriate 
management, including evidence based self-management activities such as 
weight control and physical activity. The Arthritis Foundation's Self-
Help Program, a group education program has been proven to reduce 
arthritis pain by 20 percent and physician visits by 40 percent. These 
interventions are recognized by the Centers for Disease Control and 
Prevention to reduce health care expenditures. The Arthritis Foundation 
offers and partners with other organizations to offer the Self-Help 
Program, and an Aquatic Program, and an Exercise Program as part of our 
Life Improvement Series. Each of these programs is proven to reduce 
pain and physician visits, decrease stiffness and increase function.
    The public sector investment at the Federal Government level 
entails the Centers for Disease Control and Prevention's arthritis 
program. In early 1998, the Arthritis Foundation joined forces with the 
CDC to develop the National Arthritis Action Plan--an innovative public 
health strategy. Among the goals are improving the scientific 
information base on arthritis, increasing awareness that arthritis is a 
national health problem, and encouraging more individuals with 
arthritis to seek early intervention and treatment to reduce pain and 
disability. Due to the subcommittee's support and leadership, the CDC 
was provided with $10 million in fiscal year 1999 to begin to make this 
vision a reality. Ten years later, the CDC's arthritis program has not 
kept pace and in fact, has seen a decline in funding from just a few 
years ago. In fiscal year 2008, the arthritis program was funded at $13 
million.
    Approximately half of the CDC's arthritis program funding is 
distributed through a competitive grant process, to 36 State health 
departments. Over the past 5 years, these 36 State health departments 
in partnership with other State organizations have successfully used 
CDC funding to increase public awareness of the burden of arthritis and 
increase the availability of interventions that have been proven to 
improve the quality of life and health care of people with arthritis. 
In 2007, a CDC convened expert panel recommended that individual State 
health departments receive larger financial grants in order to maximize 
the impact of the State program. The CDC is currently reviewing grant 
submissions from the States and will announce later this summer which 
10-18 States will receive CDC funding this year. From the previous 
number of 36 States funded, this will result in between 18-26 States 
losing CDC support for their arthritis program. While more efficient 
and effective programs are desired in all States, the loss of programs 
in a significant number of States comes at a time when the prevalence 
of arthritis continues to climb. The CDC estimates 67 million or 25 
percent of the adult population will have arthritis by 2030. More than 
57 percent of adults with heart disease and more than 52 percent of 
adults with diabetes also have arthritis. Arthritis limits the ability 
of people to effectively manage other chronic diseases. It is not the 
time to withdraw support, but rather a significant investment must be 
made now to sustain and improve the reach of these interventions.
    The Arthritis Foundation strongly recommends Congress appropriate 
$23 million in fiscal year 2009 for CDC's arthritis program, which is 
equivalent to 50 cents per person with arthritis. This is a $10 million 
increase from fiscal year 2008, which will ensure that qualified, 
participating States can continue the vital work of lessening the 
burden of arthritis on Americans and the American work force.
    As the Arthritis Foundation celebrates our 60th anniversary of 
working to prevent, control, and cure arthritis, we have reached 
several critical milestones, which have included new treatment options 
and the aforementioned proven strategies in preventing the onset and 
progression of the disease. However, as we take stock of these 
accomplishments, it is important to remember the challenges still faced 
in helping to improve the quality of life for Americans living with 
arthritis, and ultimately finding a cure.
    Research funded by the National Institutes of Health and the 
Arthritis Foundation has produced a revolutionary class of biological 
therapies that alleviate painful inflammation and prevent disability. 
While these advances have changed the lives of Americans living with 
arthritis significantly, there is still no cure for the disease and its 
prevalence and impact continues to grow.
    The Arthritis Foundation firmly believes research holds the key to 
tomorrow's advances and provides hope for a future free from arthritis 
pain. From its inception in 1948, a core mission of the Arthritis 
Foundation is to raise funds each year to support peer-reviewed 
research. Last year in 2007, the Arthritis Foundation invested $13 
million in research through 179 grants, including 69 new and 110 
continuing grants to researchers in over 100 academic institutions.
    As the largest non-profit contributor to arthritis research, the 
Arthritis Foundation fills a vital role in the big picture of arthritis 
research. Our research program complements government and industry-
based arthritis research by focusing on training new investigators and 
pursuing innovative strategies for preventing, controlling and curing 
arthritis. To date, the Arthritis Foundation has funded more than 2,200 
researchers with more than $380 million in grants. By supporting 
researchers in the early stages of their careers, the Arthritis 
Foundation makes important initial discoveries possible that lead to 
ultimate breakthrough results. However, even with this commitment every 
year grants that rate ``stellar'' in our peer review process go 
unfunded. These are potential cures without the funding to be realized.
    An increased public investment in biomedical research holds the 
real promise of improving the lives of millions of Americans with 
arthritis. This investment will reduce the burden of arthritis on the 
U.S. economy with less missed work days, disability payments, and 
expensive surgical interventions. To illustrate this point, less than 
50 percent of working age adults with rheumatoid arthritis are still 
employed 10 years after disease onset. Nearly two-thirds of people 
diagnosed with arthritis are under the age of 65--750,000 
hospitalizations and 36 million outpatient visits annually are due to 
arthritis.
    Promising research in the broad field of arthritis includes the 
following examples: Osteoarthritis currently impacts 23 million 
Americans and is the leading cause of hip and knee replacement. The 
Osteoarthritis Initiative at NIH is a comprehensive effort to use 
multiple imaging modalities, biomarkers, and genetic data to 
characterize osteoarthritis incidence and progression. Importantly, it 
represents a successful partnership between industry and the National 
Institute of Arthritis and Musculoskeletal and Skin Diseases, which 
will lead to the identification of novel biomarkers of diagnostic and 
prognostic significance and to the development of new therapies.
    Last year a former Arthritis Foundation grant recipient, Peter K. 
Gregersen, M.D., of the Feinstein Institute for Medical Research in 
Manhasset, New York, who has spent years of his professional life 
analyzing the human genome, and a huge international team of 
investigators, which included scientists from NIAMS, announced two 
genes that impart an increased risk of developing rheumatoid arthritis.
    Researchers supported in part by the Arthritis Foundation uncovered 
a pathway that regulates joint destruction associated with inflammatory 
arthritis. Researchers David M. Lee, M.D., Ph.D., and Michael Brenner, 
M.D., of Brigham and Women's Hospital, Harvard Medical School in 
Boston, along with an international team of scientists, found that 
blocking the action of a protein called cadherin-11 prevents the joint 
destruction that characterizes inflammatory arthritis in laboratory 
mice. They are hopeful that their success in mice will lead to a new 
treatment option for people with rheumatoid arthritis and other 
inflammatory joint diseases.
    Although cartilage is a relatively simple tissue, scientists still 
face challenges in engineering and growing replacement material that 
behaves like natural tissue. Arthritis Foundation-funded researcher 
Farshid Guilak, Ph.D., of Duke University Medical Center, and 
colleagues at Duke and at the Massachusetts Institute of Technology 
have taken an important step toward surmounting these obstacles. The 
team created a new framework structure upon which cartilage tissue can 
be grown by developing a microscopic technology that weaves fibers in 
three directions. This three-dimensional scaffold is porous so the 
fabric can be seeded with cells that have been suspended in a gel. The 
cell-infused fabric can then be transplanted into a damaged joint. The 
plan is that the gel and fabric will eventually degrade and be absorbed 
by the body, leaving only healthy, strong cartilage. If everything 
progresses according to plan, a new form of engineered cartilage will 
be available to treat joints damaged by osteoarthritis or other 
cartilage injuries.
    The mission of the National Institute of Arthritis and 
Musculoskeletal and Skin Diseases is to support research into the 
causes, treatment, and prevention of arthritis and musculoskeletal and 
skin diseases, the training of basic and clinical scientists to carry 
out this research, and the dissemination of information on research 
progress in these diseases. Research opportunities at NIAMS are being 
curtailed due to the stagnating and in some cases declining numbers of 
new grants being awarded for specific diseases. The training of new 
investigators has unnecessarily slowed down and contributed to a crisis 
in the research community where new investigators have begun to leave 
biomedical research careers in pursuit of other more successful 
endeavors.
    Sustaining the field of pediatric rheumatology is essential to the 
care of 294,000 children under the age of 17 living with a form of 
juvenile arthritis. Children who are diagnosed with juvenile arthritis 
will live with this chronic and potentially disabling disease for their 
entire life. Therefore, it is imperative that children are diagnosed 
quickly and treated with the most effective treatment protocols known 
for their particular disease. The establishment of a national data 
collection system to ensure that the safety and effectiveness of these 
treatments is essential and that they are applied in the most 
beneficial manner, especially for children.
    A 2007 Health Resources and Services Administration report to 
Congress found that there are fewer than 200 practicing pediatric 
rheumatologists in the United States, and 10 States have no specialists 
at all who are qualified to diagnose and treat children with arthritis. 
With this critical 75 percent shortage, it is even more important for 
the existing pediatric rheumatologists to be supported and to share 
their expert knowledge across the country through a national network of 
cooperating clinical centers for the care and study of children with 
arthritis. The Arthritis Foundation has given substantial financial 
support to the development of the Childhood Arthritis and Rheumatology 
Research Alliance (CARRA). However, in addition, NIAMS has a unique 
opportunity to leverage its public research funds through CARRA's 
capabilities, and the Arthritis Foundation urges Congress to express 
support for a national network of cooperating clinical centers for the 
care and study of children with arthritis.
    The Arthritis Foundation is dedicated to finding a cure for 
arthritis. However, the investment in NIH research is absolutely 
crucial to realize this dream. With continued and increased investment 
in research, the Arthritis Foundation believes a cure is on the 
horizon. The Arthritis Foundation urges Congress to expand funding and 
provide a $1.9 billion increase in fiscal year 2009 for NIH to continue 
to fuel innovation and discoveries that could put an end to the pain of 
arthritis.
    The Arthritis Foundation has labored under many myths surrounding 
arthritis.
  --Arthritis is an inevitable part of the aging process.
  --It cannot be prevented.
  --There are no effective treatment options apart from taking a few 
        aspirin.
  --Exercise is harmful for individuals with arthritis.
  --Children do not get arthritis.
    Today, the Arthritis Foundation is prepared with the necessary 
tools, expertise, and energy to shatter these myths and capitalize on 
the fruits of our collective research to help improve the lives of 
Americans living with arthritis. On behalf of the 46 million adults and 
nearly 300,000 children with arthritis, I urge the members of the 
subcommittee and Congress to help us win the war against arthritis by 
increasing critical funding for the National Institutes of Health and 
the Centers for Disease Control and Prevention.
                                 ______
                                 
  Prepared Statement of the Association of American Cancer Institutes
    The Association of American Cancer Institutes (AACI), representing 
91 of the Nation's premier academic and free-standing cancer centers, 
appreciates the opportunity to submit this statement for consideration 
as the Labor, Health and Human Services Appropriations Subcommittee 
plans the fiscal year 2009 appropriations for the National Institutes 
of Health (NIH) and the National Cancer Institute (NCI).
    Sustaining progress against cancer requires a Federal commitment to 
funding research through the NIH and NCI at a level that at least keeps 
pace with medical inflation. Years of flat funding for the NIH and NCI 
have eroded these institutions' ability to maintain their robust 
research programs. For fiscal year 2009, the AACI joins its colleagues 
in the biomedical research community in supporting the highest possible 
appropriation NIH. We encourage Senators to honor the commitment to 
biomedical research they made in voting for the Specter-Harkin 
amendment to the Budget Resolution that would bring the total increase 
for NIH to $3 billion over fiscal year 2008 levels. Further, AACI 
respects the professional judgment of the NCI in requesting an 
appropriation of $5.26 billion (an increase of $455 over fiscal year 
2008 levels).
                       the growing cancer burden
    In 2008, there will be approximately 1.44 million new cases of 
cancer in the United States and approximately 565,650 deaths due to the 
disease.\1\ The human toll of cancer is staggering, as is its financial 
toll; the NCI reports that in 2006, $206.3 billion was spent on 
healthcare costs for cancer alone. Additionally, NCI acknowledges that 
the burdens of cancer--physical, emotional, and financial--are 
``unfairly shouldered by the poor, the elderly, and minority 
populations.'' \2\ The number of cancer diagnoses will only continue to 
climb as our population ages, with an estimated 18.2 million cancer 
survivors (those undergoing treatment, as well as those who have 
completed treatment) alive in 2020.\3\ By comparison, an estimated 11.9 
million survivors were living in the United States in 2007.\2\
---------------------------------------------------------------------------
    \1\ Cancer Facts and Figures 2008. American Cancer Society; 2008.
    \2\ The Nation's Investment in Cancer Research: An Annual Plan and 
Budget Proposal for Fiscal Year 2009. National Cancer Institute, 2008.
    \3\ Future Supply and Demand for Oncologists. Journal of Oncology 
Practice 2007; 3(2): 79-86.
---------------------------------------------------------------------------
               cancer research: benefiting all americans
    Cancer research, conducted in academic laboratories across the 
country saves money by reducing healthcare costs associated with the 
disease, enhances the United States' global competitiveness, and has a 
positive economic impact on localities that house a major research 
center. While these aspects of cancer research are important, what 
cannot be overstated is the impact cancer research has had on 
individuals' lives--lives that have been lengthened and even saved by 
virtue of discoveries made in cancer research laboratories across the 
United States.
    Though over a half-million Americans will die this year from the 
many diseases defined as cancer, progress is being made. Because of 
continued progress made by the Nation's researchers, cancer death rates 
have continued to decline; between 1991 and 2004, the death rates for 
cancer in men and women declined 18.4 percent and 10.5 percent, 
respectively.\4\
---------------------------------------------------------------------------
    \4\ Cancer Statistics, 2008. CA: Cancer Journal for Clinicians 
2008; 58(2): 71-96.
---------------------------------------------------------------------------
    Biomedical research has provided Americans with better cancer 
treatments, as well as enhanced cancer screening and prevention 
efforts. Some of the most exciting breakthroughs in current cancer 
research are those in the field of personalized medicine. In 
personalized medicine for cancer, not only is the disease itself 
considered when determining treatments, but so is the individual's 
unique genetic code. This combination allows physicians to better 
identify those at risk for cancer, detect the disease, and treat the 
cancer in a targeted fashion that minimizes side effects and refines 
treatment in a way to provide the maximum benefit to the patient.
    In the laboratory setting, multi-disciplinary teams of scientists 
are working together to understand the significance of the human genome 
in cancer. For instance, the Cancer Genetic Markers of Susceptibility 
initiative is comparing the DNA of men and women with breast or 
prostate cancer with that of men and women without the diseases to 
better understand the diseases. The Cancer Genome Atlas is in 
development as a comprehensive catalog of genetic changes that occur in 
cancer. Another initiative, the Childhood Cancer Therapeutically 
Applicable Research to Generate Effective Treatments Initiative, is 
identifying targets that can lead to better treatments for young people 
with cancer.
    These projects--along with the work being performed by dedicated 
physicians and researchers across the United States every day--have the 
potential to radically change the way cancer, as a collection of 
diseases, affects the people who live with it every day. Every 
discovery contributes to a future without cancer as we know it today.
                    a generation of science at risk
    The Nation's investment in cancer research is in jeopardy. Since 
2004, the budget of the NCI has--through actual cuts and the effects of 
biomedical inflation--lost 12 percent of its spending power.\2\ The 
current success rate for R01 applications--the R01 is the cornerstone 
grant of medical research--submitted to NIH is 25 percent; only one in 
four applications submitted to NIH are funded. These funds are often 
approved only after the researcher has resubmitted the application 
several times. In 1999, the success rate for a first R01 submission was 
29 percent; in 2007, that rate was 12 percent. The low approval rate 
and lengthy delays in receiving funds have combined to raise the 
average age of receiving a first R01 grant from age 39 in 1990 to age 
43 in 2007.\5\
---------------------------------------------------------------------------
    \5\ A Broken Pipeline? Flat Funding of the NIH Puts a Generation of 
Science at Risk. A Follow-up Statement by a Group of Concerned 
Universities and Research Institutions, 2008.
---------------------------------------------------------------------------
    Because of this, young researchers--the next generation of 
scientists whose novel ideas will build upon those of their seasoned 
mentors--may be lost. As NIH itself states, ``New investigators are the 
innovators of the future--they bring fresh ideas and technologies to 
existing biomedical research problems, and they pioneer new areas of 
investigation. Entry of new investigators into the ranks of 
independent, NIH-funded researchers is essential to the health of this 
country's biomedical research enterprise.'' \6\
---------------------------------------------------------------------------
    \6\ NIH Office of Extramural Research Website: http://
grants.nih.gov/grants/new_investiga- 
tors/. Retrieved 3/28/08.
---------------------------------------------------------------------------
    Research projects that are funded are often more conservative in 
scope than those of a few years ago. Scientists who perform the 
invaluable task of evaluating R01 proposals are electing to fund 
conventional projects that will lead to incremental progress; these 
reviewers are also less likely to fund truly ``out-of-the-box'' ideas 
that may not bear fruit--but if they were successful, these ideas could 
move the pace of research exponentially.\5\ In years past, funding has 
been available to support both of these types of projects, a mix that 
led to the rapid progress to which we have become accustomed--and that 
has contributed to lengthening and improving the lives of cancer 
patients around the world.
                      the nation's cancer centers
    The nexus of cancer research in the United States is the Nation's 
network of cancer centers that are represented by AACI. These cancer 
centers conduct the highest-quality cancer research anywhere in the 
world and provide exceptional patient care. The Nation's research 
institutions, which house AACI's member cancer centers, receive an 
estimated $3.17 billion \7\ from NCI to conduct cancer research; this 
represents 66 percent of NCI's total budget. In fact, 85 percent of 
NCI's budget supports research at nearly 650 universities, hospitals, 
cancer centers, and other institutions in all 50 States. Because these 
centers are networked nationally, opportunities for collaborations are 
many--assuring wise and non-duplicative investment of scarce Federal 
dollars.
---------------------------------------------------------------------------
    \7\ National Cancer Institute 2007 Fact Book. U.S. Department of 
Health and Human Services, U.S. National Institutes of Health, 2007.
---------------------------------------------------------------------------
    In addition to conducting basic, clinical, and population research, 
the cancer centers are largely responsible for training the cancer 
workforce that will practice in the United States in the years to come. 
Much of this training is dependent on Federal dollars, via training 
grants and other funding from NCI. Decreasing Federal support will 
significantly undermine the centers' ability to continue to train the 
next generation of cancer specialists--both researchers and providers 
of cancer care.
    By providing access to a wide array of expertise and programs 
specializing in prevention, diagnosis, and treatment of cancer, cancer 
centers play an important role in reducing the burden of cancer in 
their communities. The majority of the clinical trials of new 
interventions for cancer are carried out at the Nation's network of 
cancer centers.
    Stagnant funding prevents expansion at existing centers but also 
prevents new centers from achieving NCI designation. While most major 
metropolitan areas in the United States have easy access to an NCI-
designated cancer center, several States and many underserved areas do 
not. Without enhanced funding to establish and nurture cancer centers 
in these areas, far too many Americans face the burden of cancer 
without the benefit of the cutting-edge care available only at a 
dedicated cancer center.
            ensuring the future of cancer care and research
    Because of an aging population, an increasing number of cancer 
survivors require ongoing monitoring and care from oncologists, and new 
therapies that tend to be complex and often extend life. As a result, 
demand for oncology services is projected to increase 48 percent by 
2020. However, the supply of oncologists expected to increase by only 
20 percent and 54 percent of currently practicing oncologists will be 
of retirement age within that timeframe. Also, alarmingly, there has 
been essentially no growth over the past decade in the number of 
medical residents electing to train on a path toward oncology as a 
specialty.\8\
---------------------------------------------------------------------------
    \8\ Forecasting the Supply of and Demand for Oncologists: A Report 
to the American Society of Clinical Oncology (ASCO) from the AAMC 
Center for Workforce Studies. American Society of Clinical Oncology, 
2007.
---------------------------------------------------------------------------
    Cancer physicians--while essential--are only one part of the 
oncology workforce that is in danger of being stretched to the breaking 
point. The Health Resources and Services Administration predicted that 
by 2020, over 1 million nursing positions will go unfilled, and a 2002 
survey by the Southern Regional Board of Education projected a 12 
percent shortage of nurse educators by last year.\9\
---------------------------------------------------------------------------
    \9\ ONS: Ready to Collaborate with Other Policymakers to Ensure 
Future of Quality Cancer Care Oncology Times, August 25, 2007; (29): 8-
9.
---------------------------------------------------------------------------
    Without immediate action, these predicted shortages will prove 
disastrous for the State of cancer care in the United States. The 
discrepancy between supply and demand for oncologists will amount to a 
shortage of 9.4 to 15.1 million visits, or a shortage of 2,550 to 4,080 
oncologists.\8\ The Department of Health and Human Services projects 
that today's 10-percent vacancy rate in registered nursing positions 
will grow to 36 percent, representing more than 1 million unfilled jobs 
by 2020.\10\
---------------------------------------------------------------------------
    \10\ Oncology Nursing Society Website: http://www.ons.org/lac/pdf/
correspondence/110/082807.pdf. Retrieved 3/28/08.
---------------------------------------------------------------------------
    Greater Federal support for training oncology physicians, nurses, 
and other professionals who treat cancer must be enacted to prevent a 
disaster within our healthcare system when demand for oncology services 
far outstrips the system's ability to provide adequate care for all.
             americans support federal funding for research
    The research community has long understood the obstacles that are 
facing cancer research. Though the nuances of R01 grants and oncology 
workforce training may not be well understood by the average American, 
the people of the United States believe in supporting the disparate 
activities that make up America's biomedical research infrastructure.
    In a 2007 Research!America poll, 91 percent of those surveyed 
believed it was somewhat or very important for policymakers to create 
more incentives to encourage individuals to pursue careers as nurses, 
while 89 percent believed the same for encouraging careers as 
physicians. Forty-seven percent of those surveyed agreed that the 
United States must increase investment in NIH to ensure our future 
health and economic security, and 54 percent favored annual 6.7-percent 
increases in funding for NIH in 2008, 2009, and 2010. An overwhelming 
majority--70 percent--agreed that the United States is losing its 
global competitive edge in science, technology, and innovation.\11\
---------------------------------------------------------------------------
    \11\ Your Congress--Your Health Survey, 2007. Charlton Research 
Company for Research!America, 2007.
---------------------------------------------------------------------------
    We encourage our Representatives in Congress to respond to the 
concerns of the American people by enhancing support for biomedical 
research that will lead to improved health for everyone in the United 
States and around the world.
                               conclusion
    These are exciting times in science and, particularly, in cancer 
research. Discoveries made today can translate to prevention methods, 
treatments and even cures in the future. Research funding through the 
NIH and NCI make these discoveries possible.
    AACI urges the members of the Senate Committee on Appropriations, 
Subcommittee on Labor, Health & Human Services, Education, and Related 
Agencies to dedicate the highest possible appropriation for the NIH in 
fiscal year 2009. We ask that the Senate honor the efforts of 95 of its 
members who voted in favor of the Specter-Harkin Amendment to the 
Budget Resolution in March. We request your support in increasing this 
critical funding that will help set the pace for cancer research for 
years to come.
                                 ______
                                 
  Prepared Statement of the Association for Clinical Research Training
            summary of recommendations for fiscal year 2009
    At least a 6.5 percent funding increase for the National Institutes 
of Health, including the National Center for Research Resources.
    $700 million for the Clinical and Translational Science Awards 
Program.
    Continuation of the K-30 Clinical Research Curriculum Awards 
Program.
    $360 million for the Agency for Healthcare Research and Quality.
    The Association for Clinical Research Training (ACRT) is committed 
to improving the Nation's health by increasing the amount and quality 
of clinical research through the expansion and improvement of clinical 
research training. This training is funded by both the National 
Institutes of Health (NIH) and the Agency for Healthcare Research and 
Quality (AHRQ).
                     national institutes of health
    As you are aware, recent years of near level-funding at the 
National Institutes of Health (NIH) have negatively impacted the 
mission of the National Center for Research Resources (NCRR). For this 
reason, ACRT applauds efforts like Senators Tom Harkin (D-IA) and Arlen 
Specter's (R-PA) adopted amendment to the fiscal year 2009 Senate 
Budget Resolutions which calls on appropriators to provide NIH with a 
10.3 percent funding increase. ACRT urges this Subcommittee to show 
strong leadership in pursuing such a substantial funding increase.
    For fiscal year 2009 ACRT is recommending a funding increase of at 
least 6.5 percent for NIH and NCRR.
    One of the programs hardest hit by the loss of resources that has 
resulted from recent years of level funding at NIH is the Clinical and 
Translational Science Awards (CTSA) program. The CTSA program aims to 
meet one of the profound challenges of 21st Century medicine, namely 
that the ever increasing complexities involved in conducting clinical 
research are making it more difficult to translate new knowledge from 
the bench to the bedside. The CTSA program transforms basic research 
into clinical practice, advances information technology, integrates 
research networks and improves workforce training. As Dr. Elias 
Zerhouni, the Director of NIH, wrote in the October 13, 2005 edition of 
the New England Journal of Medicine, ``it is the responsibility of 
those of us involved in today's biomedical research enterprise to 
translate the remarkable scientific innovations we are witnessing into 
health gains for the Nation.''
    The CTSA program is intended to assist institutions in creating a 
home for clinical and translational science that has the resources 
necessary to train and advance the next generation of investigators. 
Originally, the program was designed to begin with 12 academic health 
centers located throughout the Nation, and ultimately link 60 
institutions together to energize the discipline of clinical and 
translational science. However, budgetary constraints are presently 
affecting the scheduled implementation of this program by reducing the 
size of awards. In an effort to reach the targeted goal of 60 
institutions with a continuingly diminished resource pool, NCRR has 
begun reducing the size of awards to institutions by as much as 40 
percent in some instances. This has created a disparity between the 
size of awards given to the 12 initial institutions and those awards 
given to other institutions in subsequent rounds of grants. 
Additionally, it now appears that NCRR may not even have the necessary 
resources to ultimately provide 60 awards.
    For fiscal year 2009 ACRT is recommending a funding level of $700 
million for the CTSA program, an increase of $220 million over fiscal 
year 2008.
    It is important to note that implementation of the CTSA program is 
intended to subsume other programs, most notably the General Clinical 
Research Centers (GCRC) program. Furthermore, many of the clinical 
training mechanisms currently offered through the GCRC program are 
scheduled to sunset or be replaced by CTSA mechanisms. Once again, the 
impact of inadequate resources on the implementation of the CTSA 
program has created significant challenges to maintaining clinical 
research training mechanisms while transition occurs between the CTSA 
and GCRC programs.
    Nowhere are these challenges more apparent that within the K-30 
Clinical Research Curriculum Awards (CRCA) mechanism. K-30 awards have 
a track record as an exceedingly cost-effective approach to improving 
the quality of training in clinical research. Presently, the CRCA 
mechanism is scheduled for phase out by 2010 to reduce redundancies 
with the CTSA program. However, do to the slowed implementation of the 
CTSA program and the reductions in the size of awards, the CRCA program 
remains essential to ensuring that a cadre of well trained clinical 
researchers is maintained in order to capitalize on the many profound 
developments and discoveries in basic science and to translate them to 
clinical settings at research institutions.
    For fiscal year 2009 and beyond ACRT is recommending continuation 
of the K-30 Clinical Research Curriculum Awards mechanism for those 
institutions not given an opportunity to convert to a CTSA.
    Additionally, to further protect our Nation's clinical research 
infrastructure, ACRT strongly opposes cuts to K-12, K-23, and K-24 
Career Development Awards. These awards are crucial to generating a 
pool of highly trained clinical researchers.
    For fiscal year 2009 ACRT is recommending that K-12, K-23, and K-24 
Career Development Awards be funded at an increased level, consistent 
with biomedical research inflation.
               agency for healthcare research and quality
    AHRQ is the lead Federal agency charged with supporting research to 
improve healthcare quality, reduce costs, advance patient safety, 
decrease medical errors, eliminate disparities and broaden access to 
essential services. AHRQ supports health services research that will 
improve the quality of healthcare and improve evidence-based decision 
making. The agency also transforms innovative research into cutting-
edge practices in order to facilitate wider access to effective 
healthcare services.
    By providing funds to train clinical researchers, AHRQ ensures that 
there continues to be individuals who are able to provide the Nation 
with high quality, unbiased information about healthcare. Once 
consumers have this information, they will then be able to make 
effective, evidence based healthcare choices. A Center for Comparative 
Effectiveness Research would further leverage AHRQ's expertise in 
providing this information to consumers. Subsequently, additional 
resources would be required in order to train an expanded cohort of 
skilled clinical researchers with expertise in the field of comparative 
effectiveness.
    For fiscal year 2009 ACRT is recommending a funding level of $360 
million for AHRQ, an increase of $26 million over fiscal year 2008.
    For fiscal year 2009 ACRT supports the appropriation of such sums 
as needed to fund a robust and meaningful Comparative Effectiveness 
Research initiative at AHRQ which should include clinical research 
training in the area of healthcare quality, cost-effectiveness, patient 
safety, access, and health disparities.
    I thank you for the opportunity to present the views of ACRT.
                                 ______
                                 
    Prepared Statement of the Association of Farmworker Opportunity 
                                Programs
    Good morning Chairman Harkin and members of the subcommittee. My 
name is David Strauss and I represent the 51 nonprofit and public 
agencies that provide job training and related services to our Nation's 
migrant and seasonal farmworkers. They perform these tasks with grants 
from the United States Department of Labor pursuant to section 167 of 
the Workforce Investment Act. As you know, the administration has tried 
to eliminate this program for the last 7 years. You and the members of 
your subcommittee have led the way in maintaining it each year, and we 
thank you for your leadership.
    About 2.5 million people labor in the fields and farms of America, 
from Hawaii to Florida and Puerto Rico, from Maine to California. 
Estimates are that 85 percent of the fruits and vegetables we eat are 
hand harvested by farmworkers. The pay is extremely low: most 
farmworkers earn less than $12,000 per year. Few farmworkers receive 
the job-related benefits, such as health insurance and sick pay, which 
we all take for granted. In many States, agricultural workers are not 
even eligible for unemployment compensation. While Federal law 
guarantees them the minimum wage, they are exempt from overtime 
provisions, regardless of how many hours per week they labor in the 
fields.
    They live a tough life. Many workers travel hundreds, sometimes 
thousands of miles in search of work. They get paid only when they 
perform the work: if the weather is bad or the crop is not as plentiful 
as the farmer had hoped, they simply do not receive wages. They 
typically cannot afford decent housing. Their children have to struggle 
mightily to even complete their public school education. The dropout 
rate for farmworker youth, especially those who migrate with their 
parents, is enormous.
    For over 37 years the Federal Government has made and kept a 
commitment to these hardworking people. Special Federal programs were 
created to recognize the reality that farmworkers often cross State 
lines to work and live. Thus, we have migrant head start, migrant 
health, migrant education, and the job training effort called the 
National Farmworker Jobs Program. These all are federally funded and 
have guidelines that acknowledge that Governors should not be placed in 
a position of deciding whether or not agricultural workers qualify for 
these services under State residency or other localized requirements.
    Today, I want to explain the results of this program since you and 
your colleagues in the Senate and the House of Representatives decided 
to retain the National Farmworker Jobs Program over the White House's 
opposition.
    From Program Years 2001-2006, Department of Labor reports show that 
123,039 eligible migrant and seasonal farmworkers enrolled and exited 
the program. I might add that to be eligible, a person must have earned 
a majority of his/her income in agricultural work, must be a United 
States citizen or have proof of work authorization, and must have 
earnings no greater than the Federal poverty level. And as a measure of 
their dedication to work as their means of livelihood, a very small 
percentage receives TANF or other forms of cash assistance.
    Of the 123,039 enrolled, some received a service or item that 
allowed them to survive until their next payday. Many enrolled to get 
help to find a better job. Most of that group found that they need 
considerable training to really increase their earning power. During 
the period 2001-2006, 38,201 farmworkers got good jobs with benefits 
and some measure of job security. Most of these workers were unemployed 
and took rigorous training into new professions, such as over the road 
driving, welding, health care, or other non-agricultural work. About 8 
percent were trained into higher-level jobs in agriculture in which 
they received better pay and benefits. Almost 80 percent stayed in 
those jobs during the 6 months following placement and on average they 
earned over $10,000 more in their first year of new employment than 
they had the previous year. When you consider how low the poverty level 
is, that is an astounding increase in living standard.
    Those retention and earnings data are incredible figures for any 
job-training program, but are especially noteworthy when you consider 
the barriers that so many farm laborers face. They typically have less 
than an 8th grade education. Most report that their primary language is 
Spanish. Many migrate from State to State in search of work, making it 
difficult to participate in a training program that may last several 
months. Their extremely low incomes also make it a challenge to 
participate, even though they can receive a minimum wage stipend during 
training. It can be a daunting task to participate in English language 
classes, learn a new trade, purchase special clothing or equipment, 
while still providing basic necessities so that their families can 
survive during the training period.
    Our member agencies provide the supportive services and counseling 
that farmworkers need to learn their new skills and market themselves 
to new employers. They do all this with skill, passion and energy. 
Those come from within--many people who staff the National Farmworker 
Jobs Program were once farmworkers themselves, and they can identify 
with and understand the needs, hopes and fears of their ``customers.''
    However, no matter how dedicated and skilled these staff people may 
be, they could not do the life-changing work they perform every day 
without the grants their agencies receive from the Department of Labor. 
And these agencies must compete for these grants every 2 years. There 
is no job security for the staff that operates this program, but they 
nonetheless continue to perform their jobs with the dedication and 
perseverance necessary to properly serve the people who provide the 
food for America's tables.
    In turn, the grants could only be possible with a national program, 
for the reasons stated earlier. And you are the people who have made 
those grants a reality by refusing to accept the Bush administration's 
position that this program is not needed. The 38,201 farmworkers whose 
lives have dramatically changed because the National Farmworker Jobs 
Programs was there when they needed it are grateful to you and your 
colleagues for recognizing and supporting their fight to achieve the 
American Dream.
    And on behalf of our 51 member agencies that operate this 
successful program, I thank you as well. I ask that you continue to 
retain this program in the appropriations bill for the Department of 
Labor for Program Year 2009 and expand the funding to $107 million to 
permit more young farmworkers to break the cycle of poverty into which 
they were born.
    For further information contact: David Strauss, Executive Director
    Association of Farmworker Opportunity Programs1726 M Street N.W.
    Suite 800
    Washington, D.C. 20036
    Telephone: (202) 828-6006, ext 101
    Email: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bfcccbcddecaccccffded9d0cf91d0cdd8">[email&#160;protected]</a>
                                 ______
                                 
     Prepared Statement of the Association of Independent Research 
                               Institutes
    The Association of Independent Research Institutes (AIRI) 
respectfully submits this written statement for the fiscal year 2009 
Public Record to the Senate Appropriations Subcommittee on Labor, 
Health and Human Services, Education and Related Agencies.
    AIRI is a national organization of approximately 90 independent, 
non-profit research institutes that perform basic and clinical research 
in the biological and behavioral sciences. Our member institutes are 
private, stand-alone research centers that set their sights on the vast 
frontiers of medical science. AIRI institutes vary in size, with 
budgets ranging from a few million to hundreds of millions of dollars. 
In addition, each AIRI member institution is governed by its own 
independent Board of Directors, which allows our members to be 
structurally nimble and capable of adjusting their research programs to 
emerging areas of inquiry. While the primary function of AIRI 
institutes is research, most are strongly involved in training the next 
generation of biomedical researchers. In a testament to the quality of 
research and innovative ideas that AIRI institutes bring to the 
national biomedical enterprise, our institutions consistently exceed 
the success rates of the overall National Institutes of Health (NIH) 
grantee pool, and receive about 11 percent of NIH's peer reviewed, 
competitively awarded extramural grants. On average, AIRI member 
institutes receive a total of $1.6 billion in extramural grants from 
NIH in any given year.
    The doubling of the NIH budget over 1998_2003 allowed the 
biomedical research community to accelerate solutions to human disease 
and disability. We have blazed new trails for medical research, delving 
into the intricacies of how the human body musters its defenses and of 
how those responses can be evaluated, enhanced, and modified. In 
addition, increased funding at NIH has helped us to realize new 
scientific management strategies such as fostering interdisciplinary 
research and creating new robust teams of scientists that, before the 
doubling, did not have scientific common ground. These research teams 
navigate the fast progressing research environment where there is an 
increasing need to integrate and aggregate basic research, 
computational capabilities, and clinical evidence into new therapies 
and cures more quickly. Further, Federal investment in NIH has helped 
us to redefine health and healthcare goals based on scientific 
discoveries that were out of reach prior to the doubling. We now 
discuss disease and healthcare in terms of developing new predictive, 
preventative and pre-emptive tactics.
    Last year, AIRI endorsed the fiscal year 2008 Ad Hoc Group for 
Medical Research proposal to increase the NIH budget by 6.7 percent 
over each of the next three fiscal years, fiscal year 2008-fiscal year 
2010. At the time, we recognized that competing budget priorities put 
pressure on Congress to face difficult funding trade-offs yet we asked 
the subcommittee to adopt a long-term commitment to NIH. As you are 
aware, the final fiscal year 2008 appropriation for NIH was a 
disappointment to your subcommittee and the rest biomedical research 
community. For the fifth straight year, NIH funding failed to match 
even the pace of biomedical inflation.
    Unfortunately, the President's fiscal year 2009 budget request for 
NIH continues this flat funding trend for the agency for the sixth 
straight year. If the President's fiscal year 2009 request is enacted, 
the agency will have lost over 13.4 percent of its purchasing power 
during this time period when taking into account the anticipated 3.5 
percent biomedical inflation rate for this year. As such, AIRI joins 
its colleagues in the biomedical community in calling for a $1.9 
billion (6.6 percent) increase in NIH's total discretionary budget for 
fiscal year 2009.
    The NIH-funded research conducted at independent research 
institutes and other institutions across the Nation is important for 
curbing projected dramatic increases in U.S. healthcare costs over the 
long term. Sustained, multi-year Federal funding commitments will be 
critical to forestalling the onset of diseases such as heart disease 
and stroke, Alzheimer's disease, mental health disorders, and cancer as 
80 million baby boomers begin to retire and face the diseases of aging. 
NIH-funded research has had an enormous impact and remains a 
cornerstone in the Nation's battle against existing and emerging 
diseases. Flat funding for the agency reduces NIH's ability to meet the 
research demands of the Nation and slows the medical advances that can 
be made by the entire research community.
    In addition to funding for NIH biomedical research overall, AIRI 
hopes that the subcommittee will continue to support programs and 
policies championed by NIH Director Dr. Zerhouni that foster a 
sustainable, biomedical research workforce. The biomedical research 
community is dependent upon a knowledgeable and skilled workforce to 
address current and future critical health research challenges. The 
cultivation and preservation of this workforce is dependent upon 
several factors, including the ability to: recruit scientists and 
students globally; train researchers both in basic and clinical 
biomedical research; develop and retain researchers at critical stages 
during their early careers; support new and young investigators; and 
maintain the NIH extramural investigator salary cap at Executive Level 
I. As we work to enhance biomedical research capabilities, we should 
not impose barriers that would discourage talented people from 
committing to careers in research. The recruitment and development of 
these scientists will be a key to sustaining our national 
competitiveness.
    Additionally, AIRI urges Congress to support NIH extramural shared 
instrumentation and equipment grant programs. As the investment in 
medical research and the national biomedical research agenda have 
expanded, the need for acquisition and modernization of laboratory 
equipment and infrastructure has become critical. NIH equipment grants 
meet the specific infrastructure needs of research institutions to 
maximize productivity of their research grants. These grants aid in the 
attainment of state-of-the-art research tools that allow U.S. 
laboratories to investigate biomedical questions on the cutting edge of 
science.
    Medical research is a long-term process and, in order to meet the 
challenges of improving human health, curbing rising healthcare 
expenditures, and securing a global leadership role in the life 
sciences, we must increase our Federal commitment and investment in 
NIH. It is essential to sustain the momentum of NIH-funded research so 
that it continues to meet the goal of improving the health of all 
Americans.
    AIRI would like to thank the subcommittee for its important work to 
ensure the health of the Nation, and we appreciate this opportunity to 
present recommendations concerning the fiscal year 2009 Appropriations 
bill in the fiscal year 2009 Public Record.
                                 ______
                                 
  Prepared Statement of the Association of Maternal and Child Health 
                                Programs
    The Association of Maternal and Child Health Programs (AMCHP) is 
pleased to submit this testimony in support of fully funding the 
Maternal and Child Health (MCH) Services Block Grant at $850 million in 
fiscal year 2009. When our children are healthy, they are more likely 
to succeed. MCH programs help promote our children's success by 
identifying emerging and urgent health needs, while continuing to 
assure services like prenatal care, immunizations and access to health 
services. The MCH Block Grant provides funding to State MCH agencies, 
which directly serve almost 35 million women and children in the U.S. 
State MCH programs reach millions more through support of population-
wide programs that reach all women and children, such as newborn 
screening for genetic disorders, lead poisoning prevention, injury 
prevention, and public education.
    AMCHP supports full funding of the MCH Block Grant to enable States 
to:
  --Provide and enable access to comprehensive preconception, prenatal 
        and postnatal health care and public health services that 
        reduce infant mortality and improve the overall health of 
        mothers and children
  --Ensure access to quality health care through enabling services such 
        as transportation and translation
  --Increase the number of children receiving health assessments and 
        follow-up diagnostic and treatment services
  --Provide and ensure access to preventive and rehabilitative services 
        for children, including immunizations, screenings, nutrition 
        and dental education and mental health services
  --Implement family-centered and community-based systems of 
        coordinated health care for children and youth with special 
        health care needs
  --Partner with schools, youth service groups, and other agencies and 
        organizations to prevent behaviors that place youth at risk.
    In 2002, funding for the MCH Block Grant peaked at $731 million and 
has been level funded or reduced ever since. The fiscal year 2008 
omnibus appropriations bill cut funding to $666 million. This alarming 
reduction threatens the progress States have made in improving the 
health of mothers, children, and families. When Title V of the Social 
Security Act was passed in 1935, the Federal Government pledged its 
support of State efforts to extend and improve health and welfare 
services for mothers and children. The MCH Block Grant today remains 
the only Federal program that focuses solely on improving the health of 
all mothers and children. The reduction of Federal support for this 
vital program in recent years represents an alarming gap in the 
Federal-State partnership needed to assure the health of all women, 
children, and families in the America.
    AMCHP members report that reductions to the MCH Block Grant require 
cutbacks in needed services at the State and local level. Reductions to 
the MCH Block Grant erode the remarkable successes that have been made 
in improving the health of mothers and children over the past half 
century. For example, today the infant mortality rate is 77 percent 
lower than in 1950, immunization rates have reached historic highs, 
childhood deaths from injuries are down dramatically, and most children 
report having a usual source of health care. Despite this substantial 
progress, consider the following troubling trends in the health of our 
Nation's mothers and children:
  --Over the past decade, improvements in reducing maternal and infant 
        mortality have stalled and preterm and low birth weight births 
        have increased. Today the United States ranks 29th in infant 
        mortality rates in international comparisons.
  --Racial and ethnic disparities persist across several health status 
        indicators, and the black infant mortality rate is double the 
        rate for whites.
  --Teen pregnancy rates rose in 2007 for the first time in 14 years.
  --Childhood obesity is a national epidemic requiring urgent public 
        health intervention, with some age groups experiencing a 
        threefold obesity rate increase over the past two decades.
    Considering these and many other urgent health needs, we ask for 
your leadership in supporting full funding for the MCH Block Grant at 
$850 million in fiscal year 2009.
    The MCH Block Grant improves the health of America's women and 
children by:
  --Supporting programs that work. The MCH Block Grant earned the 
        second highest program rating by the Office of Management and 
        Budget (OMB)'s Program Assessment Rating Tool (PART). OMB found 
        that MCH Block Grant-funded programs helped to decrease the 
        infant mortality rate, prevent disabling conditions, increase 
        the number of children immunized, increase access to care for 
        uninsured children, and improve the overall health of mothers 
        and children. The program has performance measures and 
        evaluations that document the effective impact of this modest 
        investment in innovative approaches. Reduction to the MCH Block 
        Grant threatens the ability of these programs to carry on this 
        work.
  --Addressing the growing needs of women, children and families. As 
        States face economic hardships and face limits on their 
        Medicaid and SCHIP programs, more women and children seek care 
        and services through MCH-funded programs. Resources are needed 
        to reduce infant mortality, provide mental health care to those 
        in need, improve oral health care, reach more children and 
        youth with special health care needs, and reduce racial 
        disparities in health care.
  --Supporting health systems and leveraging Federal funding for other 
        health programs such as community health centers, Healthy 
        Start, WIC, Combating Autism, SCHIP and Medicaid. The MCH Block 
        Grant invests in State needs assessments, planning and policy 
        development, quality assurance and standards development, 
        training, collection of health care data and analysis, and 
        development of information systems that complement health care 
        services and promote prevention for all populations. Close 
        coordination with other health programs assures that funding is 
        maximized and services are not duplicated.
    Over the years, the achievements of MCH Block Grant-supported 
projects have been integrated into the ongoing care system for children 
and families. Landmark projects have produced guidelines for child 
health supervision from infancy through adolescence; influenced the 
nature of nutrition care during pregnancy and spread the message about 
the benefits of breastfeeding; recommended standards for prenatal care; 
identified successful strategies for the prevention of childhood 
injuries; and developed health safety standards for out-of-home child 
care facilities.
    During the Senate's debate on the fiscal year 2009 budget 
resolution, Senator Chris Dodd introduced a bi-partisan amendment co-
sponsored by Senator Orin Hatch that called for full funding of the MCH 
Block Grant. Upon introducing the amendment, Senator Dodd stated:
    The MCH program is critical to the health and well-being of 
millions of families across this country, including some of the most 
vulnerable members of our society. Years of funding cuts and level 
funding have stretched maternal and child health programs to their 
limits . . . The MCH block grant is a proven success for helping ensure 
a healthy future for our Nation's children [and] I urge my colleagues 
to support my amendment to increase MCH block grant funding to $850 
million in this year's budget resolution.
    This amendment passed the Senate by unanimous consent, and over 30 
national organizations have joined in support of full funding (see 
attached letter).
    AMCHP urges the Senate to recognize the need for additional 
resources for States and their partners to continue this vital work. We 
request your support and leadership to fully fund the Title V Maternal 
and Child Health Services Block Grant at $850 million for fiscal year 
2009. Full funding for the MCH Block Grant is an effective and 
efficient investment in our Nation's women, children, and families.
                                 ______
                                 
    Prepared Statement of the Association for Psychological Science
                       summary of recommendations
  --As a member of the Ad Hoc Group for Medical Research Funding, APS 
        recommends $31.1 billion for NIH in fiscal year 2009.
  --APS requests committee support for behavioral and social science 
        research and training as a core priority at NIH in order to: 
        better meet the Nation's health needs, many of which are 
        behavioral in nature; realize the exciting scientific 
        opportunities in behavioral and social science research, and; 
        accommodate the changing nature of science, in which new fields 
        and new frontiers of inquiry are rapidly emerging.
  --Given the critical role of basic behavioral science research and 
        training in addressing many of the Nation's most pressing 
        public health needs, we ask the committee to ensure that the 
        National Institute of Mental Health coordinates with other NIH 
        Institutes to provide support for basic behavioral science 
        research.
  --APS encourages the committee to review behavioral science 
        activities at individual institutes. Examples are provided in 
        this testimony to illustrate the exciting and important 
        behavioral and social science work being supported at NIH.
    Mr. Chairman, members of the committee: As our organization's name 
indicates, APS is dedicated to all areas of scientific psychology, in 
research, application, teaching, and the improvement of human welfare. 
Our 20,000 members are scientists and educators at the Nation's 
universities and colleges, conducting NIH-supported basic and applied, 
theoretical and clinical research. They look at such things as: the 
connections between emotion, stress, and biology and the impact of 
stress on health; they look at how children grow, learn, and develop; 
they use brain imaging to explore thinking and memory and other aspects 
of cognition; they develop ways to manage debilitating chronic 
conditions such as diabetes and arthritis as well as depression and 
other mental disorders; they look at how genes and the environment 
influence behavioral traits such as aggression and anxiety; and they 
address the behavioral aspects of smoking and drug and alcohol abuse.
    As a member of the Ad Hoc Group for Medical Research Funding, APS 
recommends $31.1 billion for NIH in fiscal year 2009, an increase of 
6.5 percent over the fiscal year 2008 appropriations level. This 
increase would halt the erosion of the Nation's public health research 
enterprise, and help restore momentum to our efforts to improve the 
health and quality of life of all Americans.
    Within the NIH budget, APS is particularly focused on behavioral 
and social science research and the central role of behavior in health. 
The remainder of this testimony concerns the status of those areas of 
research at NIH.
      health and behavior: the critical role of basic and applied 
                         psychological research
    Behavior is a central part of health. Many leading health 
conditions--such as heart disease; stroke; lung disease and certain 
cancers; obesity; AIDS; suicide; teen pregnancy; drug abuse and 
addiction; depression and other mental illnesses; neurological 
disorders; alcoholism; violence; injuries and accidents--originate in 
behavior and can be prevented or controlled through behavior.
    As just one example: stress is something we all feel in our daily 
lives, and we now have a growing body of research that illustrates the 
direct link between stress and health problems: chronic stress 
accelerates not only the size but also the strength of cancer tumors; 
mounting evidence indicates that chronic stressors weaken the immune 
system to the point where the heart is damaged, paving the way for 
cardiac disease; children who are genetically vulnerable to anxiety and 
who are raised by stressed parents are more likely to experience 
greater levels of anxiety and stress later in life; animal research has 
shown that stress interferes with working memory; and stressful 
interactions may contribute to systemic inflammation in older adults, 
which in turn extends negative emotion and pain over time.
    None of the conditions or diseases described above can be fully 
understood without an awareness of the behavioral and psychological 
factors involved in causing, treating, and preventing them. Just as 
there exists a layered understanding, from basic to applied, of how 
molecules affect brain cancer, there is a similar spectrum for 
behavioral research. For example, before you address how to change 
attitudes and behaviors around AIDS, you need to know how attitudes 
develop and change in the first place. Or, to design targeted therapies 
for bipolar disorder, you need to know how to understand how circadian 
rhythms work as disruptions in sleeping patterns have been shown to 
worsen symptoms in bipolar patients.
Prevention and Health: Changing Behavior
    Earlier this year in Labor HHS Subcommittee hearings, your 
colleagues in the House asked health experts why Americans, who know 
they need to stop smoking, eat better and exercise to be healthy, 
continue to engage in these detrimental behaviors. As the Partnership 
to Fight Chronic Disease has said, it all boils down to changing 
behavior. In this era of flat funding for NIH and a severely restricted 
discretionary budget, preventive health care that has real cost offsets 
have received a great deal of attention. The Centers for Disease 
Control and Prevention has said that ``the United States cannot 
effectively address escalating health care costs without addressing the 
problem of chronic diseases,'' and the Milken Institute estimates the 
annual economic impact of preventable chronic diseases on the U.S. 
economy to be more than $1 trillion. Fully 75 percent of our current 
healthcare spending goes towards chronic diseases, the vast majority of 
which could be better prevented or managed.
    Only a tiny fraction of health-care spending is devoted to the 
promotion of healthier behavior, even though health care experts agree 
that moderate improvements in prevention would result in enormous 
savings to the economy. The Milken Institute's major policy 
recommendations include promoting healthy lifestyles and disease 
prevention. If we can reduce obesity and smoking in this country, we'd 
save $60 billion over the next 15 years. The Partnership to Fight 
Chronic Disease agrees that behavioral factors play a critical role in 
this surging trend, and that prevention focusing on these factors 
should be the starting point of any campaign to reduce the incidence of 
these debilitating conditions.
    Let me illustrate how critical behavioral research is to 
prevention: Basic decision science research elucidates the cognitive, 
emotional, and social factors that influence judgment and choice, and 
how judgment and decision-making can be predicted and improved. This 
research plays a central role in health education by identifying the 
most effective ways to frame messages that will encourage behavior 
change. For example, fundamental cognitive research has shown that for 
certain kinds of prevention efforts, public health information is best 
conveyed in a ``gain-framed'' message (e.g., ``if you regularly apply 
sunscreen you'll help prevent skin cancer,'' versus ``if you don't 
apply sunscreen, you increase your risk for skin cancer''), whereas 
early detection strategies should be conveyed in a ``loss-framed'' way 
(e.g., ``if you don't get a mammogram, tumors can't be detected early, 
and the later the detection of cancer, the fewer the treatment 
options.''). Additional research has shown that the influence of 
message framing on health behavior is also related to the type of 
behavior being promoted: People are risk-seeking when they consider 
losses and risk-averse when they consider gains, which is directly 
applicable to decision making related to health. This finding has been 
the basis for a new generation of tailored health-related public 
service messages that advance the goal of encouraging people to protect 
their health.
    While ``prevention'' has been the buzzword in Congress and health 
advocacy circles, and there are well-intended programs aimed at 
reducing health problems, we need to ensure that health promotion 
strategies are grounded in scientific understanding of how people 
process information and make decisions.
Basic Behavioral Science Research Needs A Stable Infrastructure
    Broadly defined, behavioral research explores and explains the 
psychological, physiological, and environmental mechanisms involved in 
functions such as memory, learning, emotion, language, perception, 
personality, motivation, social attachments, and attitudes. Within 
this, basic behavioral research aims to understand the fundamental 
nature of these processes in their own right, which provides the 
foundation for applied behavioral research that connects this knowledge 
to real-world concerns such as disease, health, and life stages. Basic 
behavioral research continues to fare poorly at NIH, a circumstance 
that jeopardizes the success of the entire behavioral research 
enterprise. Let us remind you of the current situation:
    Traditionally, the National Institute of Mental Health (NIMH) has 
been the home for far more basic behavioral science than any other 
institute. Many basic behavioral and social questions were being 
supported by NIMH, even if their answers could also be applied to other 
institutes. In recent years, NIMH has begun to aggressively reduce its 
support for many areas of the most basic behavioral research, in favor 
of translational and clinical research. This means that previously 
funded areas now are not being supported.
    NIMH's abrupt decision to narrow its portfolio came without 
adequate planning and is happening at the expense of critical basic 
behavioral research. We favor a broader spectrum of support for basic 
behavioral science across NIH as appropriate and necessary for a vital 
research enterprise. But until other Institutes have the capacity to 
support more basic behavioral science research connected to their 
missions, programs of research in fundamental behavioral phenomena such 
as cognition, emotion, psychopathology, perception, and development, 
will continue to languish. The existing conditions for basic behavioral 
science research undermine the scientific community's efforts to 
address many of the Nation's most pressing public health needs. We ask 
the committee to ensure that NIMH coordinates with other NIH Institutes 
to support basic behavioral research and training at NIH.
    Despite the clear central role of behavior in health, behavioral 
research has not received the recognition or support needed to prevent, 
or reverse the effects of, behavior-based health problems in this 
Nation. APS asks that you continue to help make behavioral research 
more of a priority at NIH, both by providing maximum funding for those 
institutes where behavioral science is a core activity, by encouraging 
NIH to advance a model of health that includes behavior in its 
scientific priorities, and by encouraging stable support for basic 
behavioral science research at NIH.
                  behavioral science at key institutes
    In the remainder of this testimony, we highlight examples of 
cutting-edge behavioral science research being supported by individual 
institutes.
    National Cancer Institute (NCI).--NCI's Behavioral Research Program 
continues to make excellent progress, supporting basic behavioral 
research as well as translational research on the development and 
dissemination of interventions in areas such as tobacco use, dietary 
behavior, sun protection, and decision-making. With current focus on 
prevention in health care, NCI's ongoing program in decision-making 
exemplifies the relationship between basic and applied behavioral 
research. One study this program funds is testing health behavior 
interventions that can be broadly applied across sociodemographic 
populations. Researchers are experimenting with methods of 
communicating risk and statistics information to women at high risk for 
breast cancer. These messages draw from a foundation of basic 
behavioral and social science research into such issues as how people 
learn and remember health information, how they perceive health risks, 
and how they are persuaded to adopt healthy behaviors. APS asks 
Congress to support NCI's behavioral science research and training 
initiatives and to encourage other Institutes to use these programs as 
models.
    National Institute on Aging (NIA).--One of NIA's major initiatives 
is the ACTIVE (Advanced Cognitive Training for Independent and Vital 
Elderly) trial, which aims to halt the decline of cognitive functioning 
in older adults. Without good mental capabilities, this population will 
lose its ability to live independently, which in turn places an 
enormous burden on an already stressed healthcare system. This landmark 
study showed that brief mental exercises produced long-lasting 
improvements years later, which has profound implications for 
intervention design. These results show that basic behavioral and 
cognitive science, when it underlies sound interventions that help 
people in real time, has a very real impact. APS asks the committee to 
support NIA's behavioral science research efforts and to increase NIA's 
budget in proportion to the overall increase at NIH in order to 
continue its high quality research to improve the health and wellbeing 
of older Americans.
    National Institute on Drug Abuse (NIDA).--By supporting a 
comprehensive research portfolio that stretches across basic 
neuroscience, behavior, and genetics, NIDA is leading the Nation to a 
better understanding and treatment of drug abuse. We still know very 
little about the ways in which social influences interact with the 
unique adolescent brain to increase vulnerability to drug abuse. New 
research supported by NIDA is examining events in brain development 
that change with exposure to drugs as well as to risky behavior. 
Researchers are asking how these behavioral and neurobiological changes 
during this stage of development may be uniquely sensitive to the 
problems of drug abuse behavior. If we can better understand the 
effects structural brain changes have on functions like thinking, 
decision-making, sensation and perception we will be able to better 
develop targeted and more likely effective prevention strategies from 
the brain development perspective. APS asks this committee to support 
this and other critical behavioral science research at NIDA, and to 
increase NIDA's budget in proportion to the overall increase at NIH in 
order to reduce the health, social and economic burden resulting from 
drug abuse and addiction in this Nation.
    National Institute of Dental and Craniofacial Research (NIDCR).--
Several Institutes are increasingly recognizing the value and relevance 
of basic behavioral research to their mission. NIDCR is to be 
particularly commended for their support of behavior and oral health 
research. As we've made explicit throughout this testimony, behavior 
impacts every aspect of health, and oral health is no exception--to 
that end, NIDCR is funding basic research on theoretical models that 
get beyond simple cause-and-effect relationships in behavior. By 
identifying new ways to conceptualize behavioral and social 
contributors to oral health, researchers can better identify potential 
targets for more efficient interventions to help Americans maintains 
good oral health. APS asks Congress to support NIDCR's emerging 
behavioral science research portfolio and to encourage other Institutes 
to use this program as a model for how basic behavioral research can 
greatly facilitate achieving their research goals.
    It's not possible to highlight all of the worthy behavioral science 
research programs at NIH. In addition to those reviewed in this 
statement, many other institutes play a key role in the NIH behavioral 
science research enterprise. These include the National Institute for 
Child Health and Human Development, the National Institute of Mental 
Health, the National Institute on Alcohol Abuse and Alcoholism, the 
National Heart, Lung, and Blood Institute, and the National Institute 
of Diabetes and Digestive and Kidney Diseases. Behavioral science is a 
central part of the mission of these institutes, and their behavioral 
science programs deserve the committee's strongest possible support.
    This concludes our testimony. Again, thank you for the opportunity 
to discuss NIH appropriations for fiscal year 2009 and specifically, 
the importance of behavioral science research in addressing the 
Nation's public health concerns. I would be pleased to answer any 
questions.
                                 ______
                                 
   Prepared Statement of the Association for Research in Vision and 
                          Ophthalmology (ARVO)
                               about arvo
    ARVO, the world's largest association of physicians and scientists 
who study diseases and disorders affecting vision and the eye, has more 
than 12,300 members from the United States and 73 countries. As some 80 
percent of the 7,000 United States members have or are affiliated with 
NIH grants, ARVO submits these comments supporting increased fiscal 
year 2009 NIH and NEI funding.
  arvo requests fiscal year 2009 nih funding at $31 billion, or a 6.6 
  percent increase over fiscal year 2008, to match inflation/restore 
   purchasing power and fund young investigators/clinician scientists
    NIH is a world-leading institution and must be adequately funded so 
that its research can reduce healthcare costs, increase productivity, 
improve quality of life, and ensure our Nation's global 
competitiveness. Although ARVO commends the Congressional leadership's 
actions to significantly increase NIH funding above the 
Administration's budget request in fiscal year 2008 appropriations, the 
net 0.46 percent increase meant a net loss in NIH purchasing power. For 
5 consecutive years, NIH funding has failed to keep pace with the 
biomedical inflation rate and NIH has lost more than 10 percent of its 
purchasing power. The administration's fiscal year 2009 budget, which 
proposes to freeze the NIH budget at the fiscal year 2008 level, 
threatens to further hinder the momentum of discovery leading to 
treatments that are saving lives--as well as restoring the quality of 
life--and maintaining the Nation's competitive edge in medical 
research.
    Adequate NIH funding is also essential to a strong and vibrant 
research community, which risks losing established investigators and 
failing to attract young scientists. The NIH funding situation 
threatens to affect an entire generation of young researchers. As noted 
in the March 2008 report entitled A Broken Pipeline? Flat Funding of 
the NIH Puts a Generation of Science at Risk and in March 13, 2008, 
House LHHS Appropriations Subcommittee Citizen Witness hearing 
testimony presented by the Federation of American Societies for 
Experimental Biology (FASEB), the 60,000 postdoctoral researchers who 
represent America's scientific future and are on the path to a lifelong 
career in research are being negatively affected by the decline in 
NIH's budget. This impact includes:
  --Fewer hires, lower salaries, and increased layoffs in the research 
        community
  --Young scientists seeing their mentors struggle to maintain grant 
        funding
  --Students seeking job opportunities outside of research or in other 
        countries
  --An appreciable drop in applications in 2007 from 2006--by nearly 
        600--of R01 grant applications by previously unfunded 
        researchers (``new investigators'')
  --An increase in the average age from 34.2 to 41.7 years for 
        investigators who receive their first research project grant 
        award
    These concerns are especially acute for the eye and vision research 
community, especially for its clinician scientists, who have been so 
instrumental to the NEI's impressive track record of the translation of 
basic research into clinical applications that directly benefit patient 
care.
 arvo requests fiscal year 2009 nei funding at $711 million, or a 6.6 
percent increase over fiscal year 2008, to ensure all americans' vision 
                                 health
    The NEI was flat funded in fiscal year 2008, meaning that over the 
past five funding cycles it has lost 18 percent of its purchasing 
power, reducing the number of grants by 160, which threatens its 
impressive record of breakthroughs in basic and clinical research that 
have resulted in treatments and therapies to save and restore vision, 
as well as to prevent eye disease. Vision impairment/eye disease is a 
growing, major public health problem that disproportionately affects 
the aging and minority populations, costing the United States $68 
billion annually in direct and societal costs, let alone reduced 
independence and quality of life. Adequately funding the NEI is a cost-
effective investment in our Nation's health, as it can delay, save, and 
prevent expenditures.
    fiscal year 2009 nei funding at $711 million enables it to lead 
  collaborative research reflecting the new paradigm of 21st century 
     healthcare that is predictive, preemptive, personazlied, and 
                             participatory
    NEI research addresses the NIH's overall major health challenges as 
set forth by NIH Director Elias Zerhouni, M.D.: an aging population; 
health disparities; the shift from acute to chronic diseases; and the 
co-morbid conditions associated with chronic diseases (e.g., diabetic 
retinopathy as a result of the epidemic of diabetes). NEI research 
responds to Dr. Zerhouni's vision for NIH research that is 
collaborative and cost-effective and meets the 21st century 
``P4Medicine'' paradigm of predictive, preemptive, personalized, and 
participatory research and clinical practice. For example:
  --One-quarter of all genes identified to date through NEI's 
        collaboration with the Human Genome Project is associated with 
        eye disease, such as age-related macular degeneration (AMD), 
        retinitis pigmentosa (RP), and glaucoma. NEI-funded researchers 
        have discovered gene variants strongly associated with an 
        individual's risk of developing AMD, the leading cause of 
        blindness in older Americans. These variants, responsible for 
        about 60 percent of the cases of AMD, are associated with the 
        body's inflammatory response and may relate to other 
        inflammation-associated diseases, such as Alzheimer's and 
        Parkinson's.
  --NEI is currently conducting the second phase of its Age-Related Eye 
        Disease Study (AREDS), which follows up on initial findings 
        that high levels of dietary zinc and antioxidant vitamins 
        (Vitamins C, E and beta-carotene) are effective in reducing 
        vision loss in people at high risk for developing advanced 
        AMD--by a magnitude of 25 percent. NEI estimates that 1.3 
        million Americans would develop advanced AMD if no treatment 
        was given, and if all individuals at risk engaged in the AREDS 
        supplement regimen, more than 300,000 of them would avoid 
        advanced AMD and any associated vision loss during the next 5 
        years.
  --NEI's collaborative research into factors that promote or inhibit 
        new blood vessel growth has resulted in the first generation of 
        ophthalmic drugs approved by the Food and Drug Administration 
        (FDA) to inhibit abnormal blood vessel growth in ``wet'' AMD, 
        thereby stabilizing and restoring vision, and NEI's Diabetic 
        Retinopathy Clinical Research (DRCR) Network is further 
        evaluating these drugs for treatment of macular edema 
        associated with diabetic retinopathy (DR).
    These examples primarily reflect NEI's trans-Institute research 
within NIH. The NEI has also collaborated with other Department of 
Health and Human Services (DHHS) agencies, specifically to share the 
results of its basic and clinical research which may impact the product 
approval and reimbursement processes. For example:
  --In a March 2008 meeting, NEI collaborated with FDA's drug and 
        device Centers to consider the appropriateness of new clinical 
        endpoints in glaucoma clinical trials. Advances in visual 
        imaging technologies--many of which emerged from collaborative 
        research between the NEI and the National Institute of 
        Biomedical Imaging and Bioengineering (NIBIB)--have enabled 
        researchers to better detect structural changes in the nerve 
        fiber layer of the retina and contours of the optic nerve head. 
        These structural changes could potentially be used as a direct 
        endpoint in a clinical trial, rather than a surrogate endpoint 
        such as elevated intra-ocular pressure, when appropriately 
        correlated to functional changes in vision to assure clinical 
        significance of a new therapy. This meeting, which followed a 
        November 2006 joint NEI-FDA meeting on clinical endpoints in 
        AMD and DR clinical trials, represents the cost-effectiveness 
        of NEI funding, as its research results may ultimately shorten 
        the time and cost associated with clinical trials and 
        facilitate approval of new diagnostics/therapies.
  --In collaboration with the Centers for Medicare and Medicaid 
        Services (CMS), NEI has launched the Comparison of AMD 
        Treatments Trial (CATT), a comparative effectiveness study of 
        the two drugs used to block growth of abnormal blood vessels in 
        patients with the ``wet'' form of AMD. NEI's collaboration with 
        CMS could guide clinical practice and reduce costs to the 
        Medicare program.
the nei's diminished purchasing power jeopardizes its ability to follow 
           up on research breakthroughs from past investment
    Congress must adequately fund NEI so it can initiate promising new 
research, pursue results that have emerged from previous breakthroughs, 
and offer up its ``fair share'' of funding in its extensive 
collaborations. The number of NEI grants has declined by 160 over the 
past five years, from 1,214 in fiscal year 2004 to 1,054 in fiscal year 
2008, representing myriad ``lost opportunities''--any one of which 
could have been the key to curing eye disease or restoring vision. 
Examples of such lost opportunities include:
  --Ocular gene therapy holds great promise for retinal degenerative 
        diseases, in which nearly 200 gene defects have been 
        implicated. Investigators supported by NEI and private-funding 
        organization Foundation Fighting Blindness (FFB) have begun 
        human clinical trials of a gene therapy to treat Leber 
        Congenital Amaurosis (LCA), a rapid retinal degeneration that 
        blinds infants in the first year of life. Previous research has 
        restored vision in dogs with LCA, and the results of the human 
        clinical trials are forthcoming. Although the NEI could expand 
        this program to target more diseases, current budget realities 
        limit further research.
  --Promising protocols proposed within the Diabetic Retinopathy 
        Clinical Research Network will not be funded. The DRCR Network 
        is a large, multi-center study that engages ophthalmologists 
        and optometrists, many in community health centers, in basic 
        and clinical research. Past NEI diabetes networks developed 
        laser treatments for DR that save $1.6 billion annually in 
        Federal disability payments.
  --NEI funding for epidemiological studies is already limited, which 
        jeopardizes future research into the basis/progression of eye 
        disease in additional ethic populations, such as Asian and 
        Native Americans. Past NEI studies identified a three-fold 
        greater risk of glaucoma in African Americans and glaucoma as 
        the leading cause of irreversible vision loss in African 
        Americans and Hispanics.
  --NEI will not be able to fund proposed new Clinical Research 
        Networks for AMD and for neuro-ophthalmic disorders. The latter 
        could assist in understanding visual disorders associated with 
        Traumatic Brain Injuries (TBI), especially those currently 
        being incurred in record numbers by soldiers in Iraq and 
        Afghanistan.
    NEI research into other significant eye disease programs such as 
cataract will be threatened, along with quality of life research 
programs into low vision and chronic dry eye. This occurs at a time 
when the U.S. Census cites significant demographic trends that will 
increase the public health problem of vision impairment and eye 
disease, such as the first wave of 78 million Baby Boomers celebrating 
their 65th birthday in 2010, with about 10,000 Americans turning 65 
each day for 18 years afterward.
 eye disease is a major public health problem increasing health costs, 
         reducing productivity, and diminishing quality of life
    The 2000 U.S. Census reported that more than 119 million people in 
the United States were age 40 or older--the population most at risk for 
an age-related eye disease. The NEI estimates that more than 38 million 
Americans age 40 and older currently experience blindness, low vision 
or an age-related eye disease such as AMD, glaucoma, diabetic 
retinopathy, or cataracts. This is expected to grow to more than 50 
million Americans by year 2020. Although the current annual cost of 
vision impairment and eye disease to the United States is $68 billion, 
it does not fully quantify the impact of direct healthcare costs, lost 
productivity, reduced independence, diminished quality of life, 
increased depression, and accelerated mortality. This presents a major 
public health problem and financial challenge to the public and private 
sectors.
    In public opinion polls over the past 40 years, Americans have 
consistently identified fear of vision loss as second only to fear of 
cancer. As recently as March 2008, the NEI's Survey of Public 
Knowledge, Attitudes, and Practices Related to Eye Health and Disease 
reported that 71 percent of respondents indicated that a loss of their 
eyesight would rate as a ``10'' on a scale of 1 to 10, meaning that it 
would have the greatest impact on their day-to-day life. As a result, 
Federal funding for the NEI is a vital and cost-effective investment in 
the health, and vision health, of our Nation as the treatments and 
therapies emerging from research can preserve and restore vision.
    ARVO urges fiscal year 2009 NIH and NEI funding at $31 billion and 
$711 million, respectively.
                                 1_____
                                 
 Prepared Statement of the Association for Supervision and Curriculum 
                           Development (ASCD)
    Chairman Harkin, ranking member Specter, and honorable members of 
the subcommittee: Thank you for the opportunity to share ASCD's 
priorities for Federal funding. My name is Dr. Gene Carter, and I am 
Executive Director and CEO of the Association for Supervision and 
Curriculum Development (ASCD).
    ASCD is a nonprofit, nonpartisan organization representing 175,000 
educators. ASCD members are found in schools throughout this country. 
They are superintendents, deputy superintendents, principals, teachers, 
professors of education, and school board members. With the exception 
of teacher unions, we represent more principals, superintendents, and 
educational leaders than any singular principal association or school 
administrator association. Formed in 1943, ASCD advocates for 
educational excellence and equity. As ASCD has grown in membership, our 
mission has evolved and expanded to address all aspects of effective 
teaching and learning--including professional development, educational 
leadership, capacity building, and effective pedagogy. ASCD membership 
is driven by best practices in the classroom to provide our children 
with the skills necessary to compete in the 21st century. We want the 
best policies to develop and educate the whole child.
    ASCD believes that through effective program changes and increased 
flexibility education can thrive in this country. We also believe that 
accountability is as critical to education as textbooks. Although the 
proper accountability framework is a subject of debate, ASCD firmly 
believes in high standards and effective indicators that demonstrate 
progress towards those standards. Furthermore, ASCD is unique in that 
we have not previously submitted testimony to this committee asking for 
more resources. We have cautioned our membership against simply 
requesting more money when speaking with their Members of Congress. We 
do not believe money alone will solve the problems facing education. 
However, we do believe that a lack of money exacerbates the 
difficulties schools face when preparing our children to succeed in 
this global economy. We offer the following recommendations for your 
consideration:
           funding gaps: authorization versus appropriations
    Many in Congress believe legislative authorizations are a guardrail 
to restrain spending for Federal programs. Given the tremendous gap 
between authorized amounts and the appropriated amounts, especially in 
Title I and IDEA, the need for such a ``guardrail'' is not readily 
apparent. ASCD appreciates that several members of this subcommittee 
and the full committee decried the inadequate funding and put forth 
tremendous efforts to provide significant education increases for both 
NCLB and IDEA. Unfortunately, the gap persists, and educators across 
this country--those charged with implementing and complying with the 
requirements of NCLB and IDEA--are finding their work seriously 
impacted by the lack of Federal funds.
    Looking at three significant and important programs--Title I, Title 
II, and IDEA--there is a Federal funding difference of $19.6 billion 
between the authorized and appropriated amounts. This gap is 
exacerbated when combined with an inflation rate of 4.3 percent. In 
addition, student enrollment is expected to grow by almost 5 percent 
through 2014, the time frame included in the NCLB legislation. This gap 
requires schools to find crucial resources through State or local tax 
increases. Adding further pressure to this situation is the dismal 
fiscal outlook among the States for the next 2 years. Eighteen States 
are projecting budgetary shortfalls totaling $14 billion for fiscal 
year 2008, and 17 States are projecting shortfalls of $31 billion for 
fiscal year 2009--leading to either greater pressure on local taxpayers 
or drastic reductions in services to children.
    We believe that the Federal Government has an obligation to support 
our schools and to pay for a larger share of the requirements 
associated with compliance of Federal programs. Although we do not 
expect to see an increase of $19.6 billion, this funding gap 
illustrates a fundamental obstacle in the education of children. We 
urge the members of this committee to consider this situation when 
developing the funding legislation. We are hopeful this subcommittee 
will continue the promising support expressed by the Senate Budget 
Resolution, which contained an $8.8 billion increase over the 
President's fiscal year 2009 discretionary funding request for 
education, training, and social services programs.
                   looking ahead to fiscal year 2009
    ASCD urges you to provide the funding levels necessary to educate 
the whole child. Listed below are several programs we believe will make 
a substantial difference in helping schools, communities, educators, 
and policymakers to provide the necessary support and resources to 
ensure all children are healthy, safe, engaged, supported, and 
challenged.
                                title i
    Title I enables schools to better serve the neediest student 
populations. This program provides critical funds and learning 
resources to help compensate for the difficulties faced by 
disadvantaged children. Additional programs and learning materials help 
students, and schools continue to narrow the achievement gap. However, 
given increasing costs and growing student populations, funding for 
Title I has been inadequate. We know that schools are capable of doing 
much more, but we recognize that they are presently bound by their lack 
of resources. A significant increase in Title I funding will provide 
schools the flexibility to use the resources for assisting targeted 
student populations.
                                title ii
    The correlation between teacher and school leader quality and 
student success is well documented. ASCD believes funding for Title II 
Teacher Quality Grants should be significantly higher than in previous 
years. It is time we begin to provide incentives, including salaries 
and professional development opportunities that better reflect the 
importance of teachers and educational leaders. We applaud past efforts 
by this committee to provide increased funds for Title II. However, to 
ensure that our teachers are well prepared to meet growing demands, we 
must provide the programs and opportunities that enable more 
professional development opportunities. We also believe effective 
programs like the Teacher Incentive Fund and other grant programs--
enabling schools to offer financial and professional incentives for 
high-quality educators to serve in high-need areas--is a critically 
important role that should receive increased funding.
                          high school redesign
    Our high schools are in crisis. We lose over 1 million students 
every year. One student drops out every 30 seconds. Beginning in the 
middle grades, the signs are clear as to which students are prone to 
dropping out. Students with low attendance, increasing academic 
difficulty or a failing grade, and decreasing or minimal engagement 
with educators all signify a danger of dropping out. Academic 
difficulty is not the only reason kids drop out; many students leave 
because they are not challenged or engaged by educators.
    Yet, the answers exist. Pockets of successful schools graduate 
students and prepare them for high achievement in the real world or at 
advanced educational institutions. These solutions are not cheap. 
Effective high schools include personalized learning and mentoring to 
engage students. They have rich and relevant curricula that challenge 
students. The educators in these schools receive extensive professional 
development that is innovative and flexible. These high schools are 
also free to develop alternative scheduling options for fulfilling the 
Carnegie unit, including the length of the school day and school year. 
Yet additional resources are needed for many schools to develop and 
effectively implement these approaches.
    Although there may be some hesitancy to invest significant 
resources now, given the difficult financial situation we face, 
consider numerous studies that demonstrate the hundreds of billions in 
dollars lost in productivity, taxes, and wages of high school dropouts. 
From a societal standpoint, dropouts are also associated with 
drastically higher medical and health care costs. High school dropouts 
also have higher incarceration rates. I am happy to share the extensive 
research on this topic. This committee faces a fundamental question: Do 
we spend this money now and invest in the future? Or does the country 
pay for our lack of funding in the future? Fortunately, a dedicated 
fund for secondary school improvement sponsored by Senators Pryor and 
Kennedy was unanimously approved as part of the Senate's 2009 Budget 
Resolution, signaling broad support for this investment. We are hopeful 
that this amendment remains as part of the final 2009 Budget 
Resolution. As such, it is our hope that this subcommittee will take 
the next step by including funding for high school redesign in the 
legislation.
                           community schools
    One of the most cost-effective and innovative approaches to 
addressing not only educational needs but also the needs of local 
communities is full-service community schools. Full-service community 
schools facilitate collaboration among public schools, community-based 
organizations, and public and private partnerships, resulting in 
comprehensive educational, social, and health services provided to 
children and families. This approach does not saddle schools with the 
financial or service requirements of other agencies; instead these 
agencies use the school as the site or location to provide the relevant 
services. Full-service community schools create the school as the hub 
of the community and the centralized location to provide a multitude of 
services by relevant professionals. These schools not only address the 
health and social needs of many students, but also they provide 
extensive resources for other community members that achieve broader 
societal goals, including job training, career counseling, medical 
assistance, and linkage with social service programs. We request the 
subcommittee do its part in providing more resources to support these 
schools and the related services provided.
                     children's heath and learning
    Among the many important choices facing the subcommittee, we 
encourage you to support those programs like Head Start that provide 
early childhood access to health services and pre-kindergarten 
education. Like high schools, the studies are numerous and overwhelming 
that children's health is an important factor in high academic 
achievement. The same is true of effective pre-kindergarten programs. 
If we truly want to close the achievement gap and prepare our children 
for success in the 21st century, we must provide these critical 
services.
                               conclusion
    We recognize that the nation's economy is currently under 
tremendous strain, and we fully comprehend the need to be fiscally 
responsible in a time of growing budget deficits and economic 
downturns. However, ASCD believes important domestic priorities like 
education are not an expense, but an investment. Our children's 
education, health, and our teachers' professional development are three 
of the most proven methods of maintaining our strength and 
competitiveness in a global economy. It is apparent now more than ever 
that our funding choices today will lay the foundation for our 
country's success tomorrow. To ensure that we educate our children and 
prepare them to be tomorrow's leaders; we need to make the investment 
in our children and students today.
    Thank you again for the opportunity to share ASCD's positions. We 
look forward to working with you in the coming days to craft sound 
public policy for the good of our children and our future. Please 
contact me at 1-703-575-5494 with any questions or concerns. Thank you 
for your consideration.
                                 ______
                                 
    Prepared Statement of the Association of University Programs in 
                     Occupational Health and Safety
    Thank you for the opportunity to submit testimony to the 
subcommittee in support of funding for the National Institute for 
Occupational Safety and Health (NIOSH) and for the NIOSH-funded 
Education and Research Centers (ERCs). My name is Dr. Kent Oestenstad. 
I am the director of the Deep South Center for Occupational Health and 
Safety located at the University of Alabama at Birmingham.
    I am testifying on behalf of the Association of University Programs 
in Occupational Health and Safety (AUPOHS), an organization that 
represents 17 multi-disciplinary, university-based Education and 
Research Centers (ERCs) which are funded by NIOSH, the Federal agency 
responsible for providing education and training for the prevention of 
work-related injuries and illnesses. The ERCs are regional resources 
for all parties involved with occupational health and safety--industry, 
labor, government, academia, and the general public. ERCs play the 
following roles in helping the Nation reduce losses associated with 
work-related illnesses and injuries:
  --Prevention Research: Developing the basic knowledge and associated 
        technologies to prevent work-related illnesses and injuries.
  --Professional Training: Graduate degree programs in Occupational 
        Medicine, Occupational Health Nursing, Safety Engineering, 
        Industrial Hygiene, and other related fields to provide 
        qualified professionals in essential disciplines.
  --Research Training: Preparing doctoral-trained scientists who will 
        respond to future research challenges and who will prepare the 
        next generation of occupational health and safety 
        professionals.
  --Continuing Education: Short courses designed to enhance 
        professional skills and maintain professional certification for 
        those who are currently practicing in occupational health and 
        safety disciplines. These courses are delivered throughout the 
        regions of the 17 ERCs as well as through distance learning 
        technologies.
  --Regional Outreach: Responding to specific requests from local 
        employers and workers on issues related to occupational health 
        and safety.
     the scope of the problem of occupational injury and illnesses
    The many causes of occupational injury and illness represent a 
striking burden on America's health and well-being. Yet, despite 
significant improvements in workplace safety and health over the last 
several decades:
  --Each day, an average of 9,000 U.S. workers sustain disabling 
        injuries on the job, 16 workers die from an injury suffered at 
        work, and 137 workers die from work-related diseases.
  --In 2005, more than 4.2 million workers sustained work-related 
        injuries and illnesses in the private sector alone.
  --The Liberty Mutual 2005 Workplace Safety Index estimates that 
        employers spent $50.8 billion in 2003 on wage payments and 
        medical care for workers hurt on the job; the indirect costs 
        exceeded $200 billion.
    This is an especially tragic situation because most work-related 
fatalities, injuries and illnesses are preventable with effective, 
professionally directed, health and safety programs.
    Here are some of the important issues that NIOSH deals with:
  --When the Senate office buildings were attacked with anthrax, NIOSH 
        and ERC professionals responded.
  --NIOSH, helped by ERCs, took a lead role in protecting the safety of 
        9/11 emergency responders in New York City and Virginia.
  --We are now seeing serious health problems in the workers who were 
        at Ground Zero. NIOSH and the New York-New Jersey ERC are 
        playing the major lead in their medical follow-up.
  --NIOSH is the leading Federal agency conducting research and 
        providing guidance on the worker health implications in the 
        emerging field of nanotechnology.
    We need manpower to address the sorts of issues mentioned above and 
it is the NIOSH ERCs that produce the graduates who fill key positions 
in health and safety programs, regionally and around the Nation. And 
because ERCs provide training that is multi-disciplinary, ERC graduates 
protect workers in virtually every walk of life. Despite the recognized 
success of the ERCs in training such qualified professionals, the 
country continues to have ongoing shortages.
    Furthermore, we do not live in a static environment. The rapidly 
changing workplace continues to present new health risks to American 
workers that need to be addressed through occupational safety and 
health research. For example, between 2000 and 2015, the number of 
workers 55 years and older will increase 72 percent to over 31 million. 
Work related injury and fatality rates begin increasing at age 45, with 
rates for workers 65 years and older nearly three times as high as the 
average for all workers.
    In addition to factors that increasingly affect the vulnerability 
of our workers, we constantly face new threats to worker health. As an 
example, one of the greatest concerns regarding a potential outbreak of 
avian influenza is the drastic effect it may have on our workforce. The 
protection of health care workers in particular will become a major 
priority if we are to protect our population.
    Despite being the primary Federal agency for occupational disease 
and injury prevention in the Nation, NIOSH receives only about $1 per 
worker per year for its mission of research, professional education, 
and outreach.
                           homeland security
    The heightened awareness of terrorist threats, and the increased 
responsibilities of first responders and other homeland security 
professionals, illustrates the need for strengthened workplace health 
and safety in the ongoing war on terror. The NIOSH ERCs play a crucial 
role in preparing occupational safety and health professionals to 
identify and ameliorate vulnerabilities to terrorist attacks and other 
workplace hazards and increase readiness to respond to biological, 
chemical, or radiological attacks.
    Thanks to the subcommittee's support for occupational health and 
safety research, NIOSH developed more effective methods to test for 
anthrax contamination in congressional offices. These procedures were 
quickly adopted by the Coast Guard, the FBI, and government building 
contractors. More recently, in response to ongoing safety concerns 
regarding the tunnels under the U.S. Capitol Complex, NIOSH was asked 
to evaluate health hazards in the tunnels for workers who maintain the 
plumbing that provides steam and chilled water to Congress, the Library 
of Congress, the Supreme Court and other Federal buildings.
    In addition, occupational health and safety professionals have 
worked for several years with emergency response teams to minimize 
losses in the event of a disaster. NIOSH took a lead role in protecting 
the safety of 9/11 emergency responders in New York City and Virginia, 
with ERC-trained professionals applying their technical expertise to 
meet immediate protective needs and conducting ongoing activities to 
safeguard the health of clean-up workers. Additionally, NIOSH is now 
administering $81 million in grants to provide health screening of 
World Trade Center responders. Included in the grantees is the New 
York-New Jersey ERC.
    In the face of the growing concerns surrounding homeland security, 
ERCs have rapidly upgraded research coordination and expanded training 
opportunities, including sponsoring national and regional forums on 
response to bioterrorism and other disasters.
          the need for occupational safety and health manpower
    The NIOSH ERCs were reviewed by the DHHS Office of the Inspector 
General in 1995. The resulting report affirmed the efficacy of the ERCs 
in producing graduates who pursue careers in occupational safety and 
health. Since the ERCs are regional, they are ready to respond to 
various trends in industries throughout the country. In the southeast, 
for example, automobile manufacturing has been the major growth 
industry since 2000. Alabama now has major facilities for Mercedes, 
Honda and Hyundai that employ thousands of workers. Graduates from the 
Deep South Education and Research Center (University of Alabama at 
Birmingham and Auburn University) fill key positions in the safety, 
health and environmental programs at all of these facilities. And 
because they provide training that is multi-disciplinary, ERCs graduate 
professionals can protect workers in virtually every walk of life. 
Despite the recognized success of the ERCs in training qualified 
occupational health and safety professionals, the country continues to 
have ongoing shortages. The manpower needs are especially acute for 
doctoral-level trained professionals who can conduct research and help 
in implementing the National Occupational Research Agenda (NORA).
    In May 2000, the Institute of Medicine issued its final report on 
the education and training needs for occupational safety and health 
professionals in the United States. This report concluded that ``the 
continuing burden of largely preventable occupational diseases and 
injuries and the lack of adequate occupational safety and health 
services in most small and many larger workplaces indicate a clear need 
for more occupational safety and health professionals at all levels.'' 
Specific needs identified by the IOM report include:
  --An insufficient number of doctoral-level graduates in occupational 
        safety, thus limiting the Nation's capacity to perform 
        essential research and training in traumatic injury prevention.
  --An inability to attract physicians and nurses into formal 
        occupational safety and health academic training programs, thus 
        limiting the resources needed to deliver occupational health 
        services.
    ERCs are accomplishing the critical mission of filling these gaps 
by preparing expert researchers and practitioners in occupational 
safety and health.
                  recommendation for fiscal year 2009
    In fiscal year 2009 AUPOHS requests a $50 million increase for 
NIOSH over the fiscal year 2008 appropriated level, and within that 
increase, not less than a $5 million increase for Education and 
Research Centers (ERCs).
    A $50 million increase would enable NIOSH to keep pace with the 
changing nature of work and ensure that research and education to 
prevent work-related disease and injuries remain a high priority. Given 
that much of NIOSH's extramural research program is carried out by the 
Education and Research Centers (ERCs), sustaining the academic 
infrastructure provided by the ERCs is essential. Our recommendation 
would ensure that our Nation's universities have the capacity and 
manpower to implement these initiatives and expand training programs to 
improve the health and productivity of American workers.
    The ERCs play an essential role in preventive health research and 
the training of occupational safety and health professionals, many of 
which are in short supply. The 17 ERCs are distributed throughout the 
United States and have a critical community outreach function, as well 
as serve as local resources of occupational safety and health 
expertise. A $5 million increase will bring the total budget for the 17 
ERCs to $26.4 million and promote achievement of the NIOSH strategic 
goal to increase the technical proficiency of the occupational safety 
and health professionals who lead occupational safety and health 
practice in both the private and public sectors.
    Thank you for the opportunity to report the great need for research 
and training in occupational safety and health.
                                 ______
                                 
Prepared Statement of the Association of Women's Health, Obstetric and 
                            Neonatal Nurses
    The Association of Women's Health, Obstetric and Neonatal Nurses 
(AWHONN) appreciates this opportunity to provide testimony on the 
fiscal year 2009 appropriations for the Department of Health and Human 
Services (HHS).
    AWHONN is a specialty nursing organizations with nearly 23,000 
nurses dedicated to the mission of advancing the health and well-being 
of women and newborns. AWHONN members are registered nurses, nurse 
practitioners, and certified nurse-midwives, who are clinicians, 
executives, managers and educators serving in hospitals and health 
systems, independent practices, universities, and community clinics 
throughout the United States.
    Nurses are typically the first and most consistent point of contact 
in the health care setting. Evidence suggests that they spend more time 
with patients--up to four times on average--than any other health care 
provider. As such, nurses have a unique perspective on the health care 
system and the public health programs and agencies funded under HHS.
    We appreciate the leadership of the Subcommittee in providing 
generous funding in past years to the important public health and 
biomedical research programs within its jurisdiction. We recognize the 
challenges the Subcommittee will face in fiscal year 2009 in 
reconciling various expenditures in the face of overall budget 
deficits, but have faith that you will not sacrifice the Nation's 
health needs in making these determinations.
    AWHONN members know first hand the significant health returns our 
Nation has achieved based on the investments made in the various 
programs discussed below. We urge your continuing support of them at 
levels that serve the Nation adequately. We emphasize the term 
``adequately,'' as we and the large coalition of organizations that 
stand behind these recommendations believe the proposed funding levels 
are truly necessary just to maintain current progress in fiscal year 
2009 and do not represent ``stretch'' spending at this time of 
necessary trade-offs.
          health resources and services administration (hrsa)
AWHONN recommends $7.9 billion for HRSA in fiscal year 2009
    HRSA is responsible for a variety of programs ranging from support 
for health professions education to the care of underserved populations 
to the special needs of mothers and children. The funding for these 
programs has not kept pace with need and we cannot afford to lose 
further ground if the Nation's safety net. Our health system's 
infrastructure is to be preserved in ways that ensure quality care in 
the United States.
Title VIII--Nursing Workforce Development Programs
    AWHONN recommends $200 million for Title VIII programs in fiscal 
year 2009.--Title VIII programs help to address the Nation's continuing 
nursing and nurse faculty shortage via scholarships, grants and loan 
repayments to nursing students, recent nursing graduates and nursing 
school faculty. Title VIII also provides grants to schools of nursing 
and health centers to foster greater diversity and improved retention 
rates in the nursing workforce.
The Nursing Shortage
    Nursing is the Nation's largest health care profession with nearly 
2.5 million jobs. However, the United States is experiencing a shortage 
of nurses, which is expected to intensify as the baby-boomer population 
ages and the need for healthcare services and providers grows. Today, 
less than 9 percent of all nurses are under the age of 30. With the 
average age of nurses standing at 46.8 years old, a wave of retirements 
is expected in the near future.
    According to projections from the U.S. Bureau of Labor Statistics, 
more than 1.2 million new and replacement nurses will be needed by 
2014. Unless we act now, this shortage may jeopardize access to quality 
patient care.
The Nurse Faculty Shortage
    In addition to a shortage of nurses at the bedside, the United 
State is also facing a shortage of nursing school faculty members. From 
2002 to 2006 almost 129,000 qualified candidates were turned away from 
entry-level baccalaureate nursing programs. Almost 75 percent of 
nursing schools cited faculty shortages as a primary reason for not 
accepting all qualified applicants into nursing programs.
    The average age of nurse faculty is 55 years old. Much like nurses 
at the bedside, a wave of retirements is expected in the coming years. 
However, according to an April 2006 report, HRSA projects that nursing 
schools must increase the number of graduates by 90 percent in order to 
adequately address the nursing shortage.
    Without an adequate number of faculty members to prepare the next 
generation of nurses, the shortage is expected to intensify even 
further.
Title VIII Programs are Effective in Addressing the Shortages
    Ongoing attrition among practicing nurses and faculty nurses due to 
retirement and the growing demand for health services have left the 
Nation with a severe shortage of nurses.
    Significant near- and long-term gains can be made in addressing the 
nursing shortage if Title VIII Nursing Workforce Development Programs 
are adequately funded. AWHONN joins the larger nursing community and 52 
Senators in requesting a funding level of $200 million for fiscal year 
2009. This figure was determined based on an a serious calculation of 
what will be required to sustain current progress toward reversing the 
nursing shortages and averting a reversal of the positive momentum that 
has been achieved toward achieving needed workforce levels.
7Title V--Maternal and Child Health Block Grant (MCHB)
    AWHONN recommends $850 million for Title V in fiscal year 2009.--
MCHB programs provide prenatal health services to two million women, 
and primary and preventive health care to more than 17 million 
children, including almost one million children with special health 
needs. Title V special projects target underserved urban and rural 
areas with efforts at the community level to promote collaboration 
between public and private sector leaders, and health care providers. 
Title V programs also underwrite public education campaigns addressing 
critical issues such as immunizations, prenatal care and healthy 
weight. In addition to targeting primary care to the underserved, Title 
V programs are essential to helping people to help themselves and avert 
costly health care services.
National Health Service Corps (NHSC)
    AWHONN recommends 200 million for NHSC in fiscal year 2009.--The 
National Health Service Corps (NHSC) provides health care services to 
communities in serious need of qualified health professionals. The 
program enables clinicians, including nurses, to acquire scholarships 
or loan repayments for practicing in a designated Health Professional 
Shortage Area (HPSA) for a minimum of 2 years. Since 1972, more than 
28,000 physicians, nurses, dentists, and mental health professionals 
have provided critical primary care services to the underserved through 
NHSC.
    Currently, NHSC supports the important work of approximately 4,000 
providers nationally, with a significant backlog of eligible candidates 
to meet needs estimated to require nearly 30,000 health care 
professionals nationwide. NHSC providers are a critically important 
element in our Nation's health safety net and a means of supporting the 
education and practice of providers who are in categories of health 
professionals in undersupply across the country. The administration's 
proposed fiscal year 2009 cuts to this program would prove devastating 
to the Corps' ability to recruit and provide awards. We urge your 
leadership in averting this catastrophe at the reasonable funding level 
of 200 million that would be applied to both NHSC lines: the 
recruitment line, which provides the scholarship and loan repayments, 
and the field line which includes Ready Responders, SEARCH, and the 
Ambassador Programs.
                  national institutes of health (nih)
AWHONN recommends a $1.9 billion increase for NIH funding, totaling 
        $31.1 billion for fiscal year 2009.
    NIH is the world's leading medical research enterprise. Thanks to a 
doubling of the NIH budget in the 1990s, the U.S. has amassed a wealth 
of knowledge that continues to provide the science behind new 
discoveries and possible treatments for life's most devastating 
diseases. Research done at the NIH is leading to better patient care. 
Further, its outcomes are returning financially to the government via 
novel licensing agreements and patents; and to the overall U.S. economy 
through job creation in university labs , as well as private 
pharmaceutical and device companies.
    The proposed increase in NIH funding for fiscal year 2009 accounts 
for general inflation, as well as biomedical inflation, so that NIH can 
maintain its current purchasing power and continue to pursue 
groundbreaking research and life saving discoveries. While AWHONN 
supports the NIH in its entirety, several institutes are especially 
important to the advancement of nursing and the health and well-being 
of women and newborns.
National Institute of Nursing Research (NINR)
    AWHONN recommends $150 million for NINR in fiscal year 2009.--NINR 
supports nurse-led research that contributes to advancing high quality, 
evidence based care across the lifespan. Research at NINR has targeted, 
among other topics, health disparities, risk reduction, chronic 
illnesses and care for rural and underserved populations. NINR promotes 
a uniquely important nursing perspective, as there is no caregiver that 
interacts with patients more or is more trusted by patients than 
nursing professionals. There is no other body that funds important 
nursing research similarly in this country, and NINR research has 
contributed measurably to more efficient and effective health care as 
our Nation struggles to fill continuing staffing shortages and gaps in 
health care services.
National Institute of Child Health and Human Development (NICHD)
    AWHONN recommends $1.34 billion for NICHD in fiscal year 2009.--
NICHD is tasked with understanding human development, from pre-
conception to adulthood. The Institute has many opportunities to 
research and correct some of the Nation's leading health problems among 
our most vulnerable populations. Its legacy of contributions to the 
scientific literature and to diagnostics and treatments now in use is a 
testament to the value of past Congressional investment. There is no 
other Institute that devotes itself more to ensuring the quality of 
life and health care for women of childbearing age, and the potential 
for successful beginnings of life for their offspring.
National Institute of Mental Health (NIMH)
    AWHONN recommends $1.5 billion in for NIMH in fiscal year 2009.--
NIMH aims to reduce the burden of mental illness and behavioral 
disorders through research on mind, brain and behavior. Tasked with 
researching some of our Nation's most devastating mental and behavioral 
disorders, such as autism, bipolar disorder, and, in the instance of 
women of childbearing age, perinatal mood and anxiety disorders such as 
postpartum depression, NIMH has the potential by some estimates to 
improve the lives of one-third of all Americans who suffer some level 
of mental impairment.
National Institute of Environmental Health Sciences (NIEHS)
    AWHONN recommends $684 million for NIEHS in fiscal year 2009. 
Research conducted by NIEHS plays a critical role in our understanding 
of environmental exposures and the health of Americans. Through their 
research, various types of cancer, birth defects, infertility and other 
chronic illnesses have been shown to be attributable in many instances 
to gene disruptions caused by exposure to environmental contaminants. 
These findings have tremendous potential to lead to means of averting 
or reversing the impacts of such disease triggers.
    AWHONN thanks the committee for your consideration and greatly 
appreciates this opportunity to submit testimony on these critical 
funding areas.
                                 ______
                                 
     Prepared Statement of the Brain Injury Association of America
    Chairman Harkin and ranking member Specter: Thank you for the 
opportunity to submit this written testimony with regard to the fiscal 
year 2009 Labor-HHS-Education appropriations bill. My testimony is on 
behalf of the Brain Injury Association of America (BIAA), our national 
network of State affiliates, and hundreds of local chapters and support 
groups from across the country.
    A traumatic brain injury (TBI) is a blow or a jolt to the head that 
temporarily or permanently disrupts brain function--i.e. who we are and 
how we think, act, and feel. In the civilian population alone every 
year, more than 1.5 million people sustain brain injuries from falls, 
car crashes, assaults and contact sports. Males are more likely than 
females to sustain brain injuries. Children, teens and seniors are at 
greatest risk.
    Now we are seeing an increasing number of servicemembers returning 
from the conflicts in Iraq and Afghanistan with TBI, which has been 
termed one of the signature injuries of the War. The Army's Traumatic 
Brain Injury Task Force, released this past January, reported estimates 
that up to 20 percent of Marines and soldiers returning from 
Afghanistan and Iraq might have experienced brain injuries. This means 
that possibly upwards of 150,000 American troops have been, or will be, 
impacted by TBI as a result of ongoing combat operations. Many of these 
returning servicemembers are undiagnosed or misdiagnosed and 
subsequently they and their families will look to community and local 
resources for information to better understand TBI and to obtain vital 
support services to facilitate successful reintegration into the 
community.
    For the past 11 years Congress has provided minimal funding through 
the HRSA Federal TBI Program to assist States in developing services 
and systems to help individuals with a range of service and family 
support needs following their loved one's brain injury. Similarly, the 
grants to State Protection and Advocacy Systems to assist individuals 
with traumatic brain injuries in accessing services through education, 
legal and advocacy remedies are woefully underfunded. Rehabilitation, 
community support and long-term care systems are still developing in 
many States, while stretched to capacity in others. Additional numbers 
of individuals with TBI as the result of war-related injuries only adds 
more stress to these inadequately funded systems.
    BIAA was gravely disappointed that last year, even as Congress had 
the good judgment to add hundreds of millions dollars to the budgets of 
the Department of Defense and the Department of Veterans Affairs to 
help address the problem of TBI among returning servicemembers, funding 
for the HRSA Federal TBI Program was reduced from $8.91 million to 
$8.754 million.
    If I may, I would like to provide you with an example of the 
disconnect which results as a consequence of these appropriations 
decisions. Last year's reduction in funding for the HRSA Federal TBI 
Program means that one of our State affiliates--the Brain Injury 
Association of New York (BIANYS)--whose work has been supported through 
the HRSA Federal TBI Program, now may face reduced funding to support 
its current efforts to develop relationships with the New York State 
Division of Veterans Affairs in order to assist returning 
servicemembers with TBI and their families through the provision of 
training, education, collaboration, and outreach services.
    BIAA respectfully urges you to provide States with the resources 
they need to address both the civilian and military populations who 
look to them for much needed support in order to live and work in their 
communities.
    With broader regard to all of the programs authorized through the 
TBI Act, BIAA specifically requests:
  --$9 million for the Centers for Disease Control and Prevention TBI 
        Registries and Surveillance, Prevention and National Public 
        Education/Awareness;
  --$15 million for the Health Resources and Services Administration 
        (HRSA) Federal TBI State Grant Program; and
  --$6 million for the HRSA Federal TBI Protection & Advocacy (P&A) 
        Systems Grant Program.
    In addition, BIAA urges you to provide sufficient funding in fiscal 
year 2009 to enable the National Institute on Disability and 
Rehabilitation Research (NIDRR) within the Department of Education to 
sustain and increase its medical rehabilitation research portfolio and 
to continue its annual allocation of at least $8.3 million to fund 16 
TBI Model Systems research centers. The fiscal year 2008 Defense 
Authorization bill, which was recently signed into law, includes 
specific language directing new TBI research efforts within the 
Department of Veterans Affairs to collaborate with NIDRR TBI research 
programs, such as the TBI Model Systems of Care. The TBI Model Systems 
of Care program has established a vital national network of expertise 
and research in the field of TBI, and weakening this program would have 
deleterious effects on both military and civilian populations.
    Last year, Congress provided $900,000 in additional stopgap funding 
for the TBI Model Systems of Care program in order to maintain 16 
valuable TBI research centers around the country, and to prevent the 
nation's valuable TBI research capacity from being diminished. It is 
essential that Congress maintain this investment.
    Furthermore, BIAA urges increased support for medical 
rehabilitation research at NIDRR, which is the country's lead Federal 
agency on rehabilitation and disability research. In addition to the 
challenges of flat funding for NIDRR for at least the past five fiscal 
years, the agency has recently signaled an intent to narrow its focus 
to emphasize research of interest to its parent agency, the Office of 
Special Education and Rehabilitative Services (i.e., employment and 
vocational rehabilitation research) at the expense of research related 
to health and function, particularly medical rehabilitation research. 
NIDRR appears to be making a conscious effort to move away from a long-
term, key aspect of the NIDRR research portfolio; improving the health 
and functioning of people with disabilities. Given the multi-
dimensional character of the disability experience, NIDRR's scope needs 
to transcend the specific Federal department and agency in which it is 
currently located.
    In the recent past, NIDRR has eliminated funding for:
  --A rehabilitation research and training center (RTC) on 
        neuromuscular disease, the only Federal source for 
        rehabilitation research funding for persons with conditions 
        such as ALS, muscular dystrophy, and peripheral nerve diseases;
  --An RTC on arthritis and related musculoskeletal conditions;
  --An RTC on health and wellness of people with spinal cord injuries; 
        and
  --An RTC on community integration of individuals with traumatic brain 
        injury, one of the key aspects of functioning with a TBI over 
        the long term.
    Each of these grants were funded at $800,000 per year for a five-
year period. Each of these centers developed valuable insight and 
disseminated meaningful information that improved the lives of these 
disability groups during the course of these grants.
    To make matters worse, NIDRR recently announced that grant 
announcements for four additional RTCs would be delayed and 
reformulated to focus attention on employment and vocational 
rehabilitation. These announcements may or may not be released over the 
remainder of this fiscal year. The four RTCs that have been delayed 
address the areas of Multiple Sclerosis, stroke, aging with a 
disability, and the psychiatric aspects of disability.
    In order to preserve the valuable health and functioning research 
capacity developed by NIDRR over three decades, BIAA recommends that 
Congress increase the President's fiscal year 2009 request by $3.2 
million in new Federal dollars in order to reinstate the four RTCs that 
were eliminated over the course of the past six months, and explicitly 
direct that these funds be used for the purposes of continuing these 
RTCs through a competitive grant process.
    As for the four delayed RTCs addressing Multiple Sclerosis, stroke, 
aging with a disability, and the psychiatric aspects of disability, 
BIAA requests that Congress impress upon NIDRR in fiscal year 2008 the 
importance of preserving the traditional focus of these research 
centers and direct NIDRR to expeditiously reissue competitive grant 
announcements for these critical research centers.
    Thank you for this opportunity to testify. BIAA appreciates your 
leadership and looks forward to working with you in the months and 
years ahead to not only maintain, but enhance funding for Federal TBI 
programs.
                                 ______
                                 
    Prepared Statement of the Coalition for Health Services Research
    The Coalition for Health Services Research (Coalition) is pleased 
to offer this testimony regarding the role of health services research 
in improving our Nation's health. The Coalition's mission is to support 
research that leads to accessible, affordable, high-quality health 
care. As the advocacy arm of AcademyHealth, the Coalition represents 
the interests of 3,500 researchers, scientists, and policy experts, as 
well as 130 organizations that produce and use health services 
research.
    Health care in the United States has the potential to improve 
people's health dramatically, but often falls short and costs too much. 
Health services research is used to understand how to better finance 
the costs of care, measure and improve the quality of care, and improve 
coverage and access to affordable services. It provides patients, 
providers, payers, and policymakers with the necessary tools to make 
health care:
  --Affordable, by decreasing cost growth to sustainable levels.
  --Efficient, by decreasing waste and overpayment and monitoring cost 
        effectiveness of care.
  --Safe, by decreasing preventable medical errors, monitoring public 
        health, and improving preparedness.
  --Effective, by evaluating programs and outcomes and promoting 
        evidence-based innovations.
  --Equitable, by eliminating disparities in health and health care.
  --Accessible, by connecting people with the health care they need 
        when they need it.
  --Patient-centered, by increasing patient engagement in, and 
        satisfaction with, the care they receive.
    Indeed, health services research is changing the face of American 
health care, uncovering critical challenges facing our Nation's health 
care system. For example, the 2000 Institute of Medicine (IOM) report 
To Err is Human found that up to 98,000 Americans die each year from 
medical errors in the hospital. Health services research also uncovered 
that disparities and lack of access to care in rural and inner cities 
result in poorer health outcomes. And, it found that obesity accounts 
for more than $92 billion in medical expenditures each year and has 
worse effects on chronic conditions than smoking or problem drinking.
    But health services research does not just lift the veil on 
problems plaguing American health care; it also seeks ways to address 
them. Health services research framed the debate over health care 
reform in Massachusetts--forming the basis for that state's 2006 health 
reform legislation--and continues to frame the debate on the national 
stage today. It offers guidance on implementing and making the best use 
of health information technology, and getting the best care at the best 
value across a menu of treatment options.
    In fact, there are increasing examples that demonstrate how 
comparative effectiveness research--an emerging science in the broader 
field of health services research--provides the scientific basis needed 
to determine what treatments work best, for whom, and in what 
circumstances.
  --The Agency for Healthcare Research and Quality (AHRQ) found that 
        drugs can be as effective as surgery in management of 
        gastroesophageal reflux disease (GERD)--where stomach acid 
        enters the esophagus, causing heartburn and potential 
        esophageal damage. GERD is one of the most common health 
        conditions among older Americans and results in $10 billion 
        annually in direct health care costs. Knowing that, for the 
        majority of patients, drugs can be as effective as surgery in 
        relieving the symptoms could result in significant health care 
        savings and improved quality of life.
  --The National Institute of Mental Health (NIMH) found that, within a 
        class of antipsychotic drugs, the older, less expensive drug 
        (Perphenazine) was just as effective and caused no worse side 
        effects than the three newer, more expensive drugs in treating 
        patients with schizophrenia. One of the newer drugs (Zyprexa) 
        was slightly more effective in controlling systems than the 
        other drugs, but at the cost of serious side effects.\1\ This 
        study enables greater flexibility in care and informs patients 
        and providers about costs and quality of care.
---------------------------------------------------------------------------
    \1\ Lieberman, J.A., et. al. ``Effectiveness of Antipsychotic Drugs 
in Patients with Chronic Schizophrenia,'' New England Journal of 
Medicine, Vol. 353, No. 12, pp.1209-1223 (Sept. 22, 2005). Available on 
the Web at http://content.nejm.org/cgi.content/abstract/353/12/1209.
---------------------------------------------------------------------------
    As these examples suggest, health services research can contribute 
greatly to better health care at better value. It is a true public 
good, providing a basis for improvements in our health care system that 
will benefit the general public. Americans overwhelmingly agree. 
According to a 2005 Research!America survey, roughly 95 percent of 
Americas agree that it is important to support research that focuses on 
how well health care functions and how it can function better, and that 
health care delivery should be based on the best and most recent 
research available.\2\ After all, the investment in basic research and 
the development of new medicines and equipment is wasted if the health 
system cannot safely and effectively deliver that care.
---------------------------------------------------------------------------
    \2\ Woolley, M. and S. Propst. ``Public Attitudes and Perceptions 
about Health-Related Research.'' Journal of the American Medical 
Association, Vol. 294, No. 11, p. 1382 (Sept. 21, 2005).
---------------------------------------------------------------------------
    For the last 5 years, the Coalition has been collecting data to 
track the Federal Government's expenditures for health services 
research and health data. From information provided to us by these 
funders--including AHRQ, National Institutes of Health (NIH), and the 
Centers for Disease Control and Prevention (CDC)--funding for this 
field has remained constant since 2003 and has not kept pace with 
inflation.
    In stark contrast, spending on health care overall has risen faster 
than the rate of inflation--from $1.4 trillion in 2000 to nearly $2 
trillion in 2005.\3\ The total Federal investment in health services 
research and data by our estimates approaches $1.5 billion--
representing just 0.075 percent of the $2 trillion we spend on health 
care annually.\4\ Health services research needs Federal support--now 
more than ever--to help us spend our health care dollars more wisely.
---------------------------------------------------------------------------
    \3\ Catlin, A., et. al. ``National Health Spending in 2005: The 
Slowdown Continues,'' Health Affairs, Vol. 26, No. 1, pp. 142-153 
(Jan./Feb. 2007).
    \4\ Federal Funding for Health Services Research, Coalition for 
Health Services Research (Feb. 2008). Available on the Web at 
www.chsr.org.
---------------------------------------------------------------------------
    We recognize the support the subcommittee currently provides to 
Federal agencies that fund health services research and now ask that 
the subcommittee strengthen the capacity of the health services 
research field to address the pressing challenges America faces in 
providing access to high-quality, cost-effective care for all its 
citizens.
               agency for healthcare research and quality
    AHRQ is the lead Federal agency charged with supporting unbiased, 
scientific research to to improve health care quality, reduce costs, 
advance patient safety, decrease medical errors, and broaden access to 
essential services. Yet chronic under-funding threatens the agency's 
ability to achieve this important mission--at a time when health care 
costs are at an all time high, and Americans' basic health status lags 
behind that of others around the world.
    Before the targeted increase Congress provided last year to study 
the comparative effectiveness of health care interventions and 
Methicillin-resistant Staphylococcus aureus (MRSA), the agency's budget 
rose just 6.7 percent since fiscal year 2002. Even with last year's 
increase, the agency has lost $19 million in purchasing power since 
fiscal year 2005 due to inflation and years of flat funding. And under 
the President's budget, the agency stands to lose an additional $9 
million.
    This ``no growth'' budget has a significant impact on the field of 
health services research and its ability to respond to the needs of 
policymakers. For example, investigator-initiated research, such as 
that undertaken by Lucian Leape in discovering the prevalence of 
medical errors (which provided the basis for the IOM's To Err is 
Human), is now practically non-existent. Specifically, there has been a 
dramatic decline in the number of, and funding for, grants that support 
researcher innovation and career development; and based on the 
President's fiscal year 2009 budget, support for these awards will hit 
new lows. AHRQ needs funding for new and competing grants to rejuvenate 
the free marketplace of ideas, and for supporting the next generation 
of researchers to ensure the field's capacity to respond to the growing 
public and private sector demand for research.
    We join the Friends of AHRQ--a coalition of more than 100 health 
professional, research, consumer, and employer organizations that 
support the agency--in recommending a fiscal year 2009 funding level of 
at least $360 million, an increase of $26 million over the fiscal year 
2008 level. This investment will allow AHRQ to restore its critical 
health care safety, quality, and efficiency initiatives; strengthen the 
infrastructure of the research field; and reignite innovation and 
discovery.
               centers for disease control and prevention
    Housed within CDC, the National Center for Health Statistics (NCHS) 
is the Nation's principal health statistics agency, providing critical 
data on all aspects of our health care system. Thanks to NCHS, we know 
that too many Americans are overweight and obese, cancer deaths have 
decreased, average life expectancy has increased, and emergency rooms 
are over-crowded. We know how many people are uninsured, how many 
children are immunized, how many Americans are living with HIV/AIDS, 
and how many teens give birth.
    Before the small increase Congress provided last year, NCHS had 
lost $13 million in purchasing power since fiscal year 2005 due to 
years of flat funding and inflation. These shortfalls forced the 
elimination of data collection and quality control efforts, threatened 
the collection of vital statistics, stymied the adoption of electronic 
systems, and limited the agency's ability to modernize surveys to 
reflect changes in demography, geography, and health delivery.
    Even amid deep cuts to CDC and health programs broadly, the 
President recognized the value of NCHS and its data to the health 
infrastructure, providing the agency nearly $125 million in his fiscal 
year 2009 budget request. This level of funding is critical for 
sustaining uninterrupted collection of vital statistics from states. 
Without sustained support for these critical data systems, we are at 
risk of becoming the first industrialized Nation unable to afford to 
continuously collect birth, death, and other vital health information. 
The Coalition joins the Friends of NCHS--a coalition of more than 100 
health professional, research, consumer, industry, and employer 
organizations that support the agency--in supporting the President's 
funding request of $125 million to ensure uninterrupted collection of 
vital statistics; restore other important data collection and analysis 
initiatives; and modernize its systems to increase efficiency, 
interoperability, and security.
    While significant funding has been provided to improve the public 
health system's capacity to respond to a terrorist attack or a public 
health crisis such as pandemic flu, insufficient funding has been 
provided to support research that evaluates the effectiveness of our 
preparedness interventions and seeks to improve the delivery of public 
health services. For example, how cost effective are public health and 
prevention programs? How can the medical care and public health 
delivery systems be better linked?
    This important Public Health Research program has been flat funded 
since fiscal year 2005 at a level of $31 million, and the President's 
budget requests this same amount in fiscal year 2009. The Coalition 
requests at least $35 million for this program in fiscal year 2009 to 
restore purchasing power to fiscal year 2005 dollars.
            centers for medicare and medicaid services (cms)
    The President's budget request for the Office of Research, 
Development and Information is $31 million--consistent the fiscal year 
2008 level. This level--a decrease of $26 million since fiscal year 
2006--hinders CMS' ability to meet its statutory requirements and 
conduct new research into Medicare, Medicaid, and SCHIP, public 
programs which together provide coverage to nearly 100 million 
Americans and comprise 45 percent of America's total health 
expenditures.\5\ At a time when these programs pose an ever increasing 
threat to the Nation's fiscal sustainability, it is critical that we 
adequately fund research to evaluate the programs' efficiency and 
effectiveness, and seek ways to curtail spending growth.
---------------------------------------------------------------------------
    \5\ Catlin, A, et. al. ``National Health Spending in 2005: The 
Slowdown Continues,'' Health Affairs, Vol. 26, No. 1, pp. 142-153 
(Jan./Feb. 2007).
---------------------------------------------------------------------------
    The Coalition supports a fiscal year 2009 funding level of $45 
million in discretionary research and development funding--in addition 
to funding for programmatic earmarks--as a critical down payment to 
help CMS recover lost resources and restore research to evaluate these 
programs, analyze pay for performance and other tools to update payment 
methodologies, and to further refine service delivery methods.
                  national institutes of health (nih)
    The NIH reported that it spent $921 million on health services 
research in fiscal year 2007--roughly 3.3 percent of its entire 
budget--making it the largest Federal sponsor of health services 
research. Nevertheless, this represents a $17 million decline over the 
previous fiscal year in the portion of NIH's total budget allocated to 
health services research.
    For fiscal year 2009, the Coalition recommends a funding level of 
at least $1 billion--3.3 percent of the nearly $31 billion the broader 
health community is seeking for NIH. We recognize the support various 
institutes now provide to fund health services research, but this level 
of funding should be viewed as our minimum request. We encourage NIH to 
increase the proportion of their overall funding that goes to health 
services research from 3.3 to 5 percent to assure that discoveries from 
clinical trials are effectively translated into health services. We 
also encourage NIH to foster greater coordination of its health 
services research investment across its institutes.
    In conclusion, the accomplishments of health services research 
would not be possible without the leadership and support of this 
subcommittee. As you know, the best health care decisions are based on 
relevant data and scientific evidence. Increased funding for health 
services research and health data will yield better information and 
lead to improved quality, accessibility, and affordability. We urge the 
subcommittee to accept our fiscal year 2009 funding recommendations for 
the Federal agencies funding health services research and health data.
    If you have questions or comments about this testimony, please 
contact Emily Holubowich, Director of Government Relations at 202-292-
6743 or e-mail at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3d585054514413555251485f524a545e557d5c5e5c5958504455585c51495513524f5a13">[email&#160;protected]</a>
                                 ______
                                 
     Prepared Statement of the Coalition of Northeastern Governors
    The Coalition of Northeastern Governors thanks you for this 
opportunity to provide testimony for the record to the Senate 
Subcommittee on Labor, Health and Human Services, and Education, and 
Related Agencies regarding fiscal year 2009 appropriations for the Low 
Income Home Energy Assistance Program (LIHEAP). The Governors 
appreciate the subcommittee's continued support for the LIHEAP program 
and recognize the considerable fiscal challenges facing the 
subcommittee this year. However, the skyrocketing cost of home energy 
has made this program more crucial than ever. The Governors request 
that regular fiscal year 2009 LIHEAP block grant funding be 
appropriated at the full $5.1 billion level as authorized by the Energy 
Policy Act of 2005. The Governors also ask the Congress to appropriate 
additional contingency funds to address unforeseen energy emergency 
situations.
    Funding the LIHEAP block grant at the $5.1 billion level will help 
restore some of the purchasing power of the program, provide greater 
certainty for program planning, and enable States across the Nation to 
provide meaningful assistance to more citizens struggling to pay 
unaffordable home energy bills.
    LIHEAP is a vital safety net for many of our Nation's most 
vulnerable citizens. The program has served as a foundation of other 
assistance programs provided by utilities and the private sector, such 
as shutoff moratoria and other direct assistance. The highest level of 
LIHEAP assistance is provided to households with the lowest incomes 
that pay a high proportion of their income for home energy. These low-
income households spend an average of 14 percent of annual income on 
home energy, compared to 3.6 percent for all other households. In 2004, 
elderly households in receipt of Supplemental Security Income paid 
nearly 19 percent of their income for energy, leaving few remaining 
funds to pay for food, shelter or medication. LIHEAP provides vital 
assistance to elderly households struggling to survive on fixed 
incomes, as 41 percent of LIHEAP recipient households include at least 
one elderly member.
    Adding to the economic stress on these low-income households are 
the rapidly escalating costs of heating fuels that have eroded the 
purchasing power of the LIHEAP dollar. According to the Energy 
Information Administration (EIA), the national average cost of heating 
a home has risen from $704 during the winter of 2003-2004 to a 
projected $981 this winter--a 39 percent increase. This increase has 
far outpaced the growth in income for this population. Faced with 
simply unaffordable energy bills, these households take drastic 
measures such as keeping their homes at unhealthy or unsafe 
temperatures, using unsafe alternative heating options, or accumulating 
high levels of home energy debt and the possibility of utility service 
shut-off.
    At the same time that home energy prices are escalating, the 
average LIHEAP benefit has decreased and the number of households 
receiving assistance has declined since the peak of fiscal year 2006. 
Approximately 5.7 million households--less than 16 percent of those 
eligible--now receive LIHEAP assistance (down from 5.8 million in 
fiscal year 2006), and the average LIHEAP benefit has decreased from 
$464 to $378.
    The recent price increases are especially troubling for households 
that rely on delivered fuels such as home heating oil and propane. 
According to the Department of Energy, roughly 69 percent of the 
Nation's 5.3 million households that use home heating oil are in the 
Northeast. EIA estimates that households heating primarily with home 
heating oil will pay $1,990 this year, or 35.6 percent more than last 
year and a 66 percent increase over 3 years. Without an adequate 
benefit that can meet the minimum delivery requirement, these 
households face the prospect that a dealer will not make a delivery or 
will require a surcharge, further reducing the purchasing power of the 
LIHEAP benefit.
    Households that use natural gas are also struggling with 
dramatically increasing home energy costs. While the cost has increased 
at a slower rate than home heating oil, households using natural gas 
are expected to pay 7.2 percent more than last year, and 32 percent 
more than during the winter of 2003-2004. The rising utility bills 
result in many of these households accumulating substantial arrearages 
and facing the prospect of shutoffs as the moratoria period in some 
States ends. A recent report by the American Gas Association found that 
the percentage of past due accounts rose from 16.5 percent in 2001 to 
21 percent in 2006, and the total amount of uncollectible expenses rose 
39 percent between 2003 and 2006. LIHEAP funds can be instrumental in 
helping these households stay out of debt or get their utilities 
reconnected.
    If Federal resources remain level or decline as home energy prices 
continue to rise, States face the difficult decision of serving fewer 
households in order to maintain some of the purchasing power of the 
LIHEAP grant for the program's poorest families, or reducing the level 
of benefits to recipients. To deliver maximum program dollars to 
households in need, States in the Northeast have incorporated various 
strategies to minimize the program's administrative costs including 
using uniform application forms to determine program eligibility, 
establishing a one-stop shopping approach for the delivery of LIHEAP 
and related programs, sharing administrative costs with other programs, 
and using mail recertification. However, opportunities to further 
reduce LIHEAP administrative costs are limited, since they are already 
among the lowest of the human service programs. In spite of these State 
efforts to stretch Federal and State LIHEAP dollars, the need for the 
program is far too great. Increased, predictable and timely Federal 
funding is vital for LIHEAP to assist the Nation's vulnerable, low-
income households faced with exorbitant home energy bills.
    An increase in the regular LIHEAP appropriation to the $5.1 billion 
level for fiscal year 2009 as well as the appropriation of additional 
contingency funds will enable States across the Nation to help mitigate 
the potential life-threatening emergencies and economic hardship that 
confront the Nation's most vulnerable citizens. With these additional 
funds, States can provide assistance to more households in need, offer 
benefit levels that provide meaningful assistance, lessen the need for 
emergency crisis relief, plan and operate a more efficient program, and 
again make optimal use of leveraging and other cost-effective programs.
    We thank the subcommittee for this opportunity to share the views 
of the Coalition of Northeastern Governors, and we stand ready to 
provide you with any additional information on the importance of the 
Low Income Home Energy Assistance Program to the Northeast and the 
Nation.
                                 ______
                                 
Prepared Statement of the Commissioned Officers Association of the U.S. 
                         Public Health Service
    I write to ask the subcommittee to approve $50 million to support 
transformation of the U.S. Public Health Service's Commissioned Corps, 
including a new emergency preparedness activity within the Corps.
    Secretary Michael O. Leavitt's proposed development of Health and 
Medical Response (HAMR) teams is a new initiative resulting from 
recommendations to improve public health preparedness and response 
following the devastating hurricanes of 2005. The requested funds would 
be used to organize, train, equip, and roster medical and public health 
professionals in pre-configured and deployable teams.
    In the event of a terrorist attack or natural disaster, these HAMR 
teams would be the Secretary's first asset in addressing deployment 
needs.
    All HAMR Team members would be USPHS officers and full-time 
employees of the Office of the U.S. Surgeon General. This would 
guarantee a dedicated, immediately deployable force. HAMR team members 
would maintain a state of readiness through continuous training or 
actual deployment, including disaster response assistance to State and 
local health departments.
    All HAMR team members would receive advanced training in trauma 
life support and the emergency medical management of casualties due to 
chemical or biological agents or ionizing radiation. HAMR teams would 
address not only clinical tasks but the full range of public health 
concerns in a major crisis.
    Creation of this new emergency response capability was among 
Secretary Leavitt's top priorities for fiscal year 2008. The 
administration's budget request contained $38 million for this purpose. 
Unfortunately, however, the HAMR teams were not funded. They are once 
again among the Secretary's top priorities for fiscal year 2009.
    The HAMR team proposal grows out of recommendations contained in 
the White House report on ``lessons learned'' from the response to the 
2005 hurricanes. The performance of the 2,500 USPHS officers in that 
crisis was one of the few aspects of the Federal response to draw 
widespread praise.
    For as long as our Nation remains at risk of terrorist attack, the 
Department of Health and Human Services will remain responsible for 
detecting and preventing attacks and for responding to mass casualty 
events. Because the training of emergency medical teams is essential to 
that mission, funding to support the effort should be approved.
    On behalf of the Commissioned Officers Association (COA) and the 
7,500 active-duty and retired USPHS officers who are its members, I 
thank you for your consideration of this request.
                                 ______
                                 
          Prepared Statement of the Cooley's Anemia Foundation
    Mr. Chairman and members of the subcommittee: Thank you for the 
opportunity to present this testimony to the subcommittee today. My 
name is Frank Somma. I live in Holmdel, New Jersey and I am honored to 
serve as the National President of the Cooley's Anemia Foundation. As 
many members of this subcommittee know, Cooley's anemia, or 
thalassemia, is an incurable, fatal genetic blood disorder.
    Over the years, this subcommittee has been a consistent supporter 
of the programs that exist to improve the lives of our children--
children who suffer from thalassemia. We are very grateful for all that 
you have done to help over the years and again, we are asking that you 
continue to support the research and the programs that will help lead 
to a cure for this dreaded disease.
    I could bog you down in a detailed scientific explanation of what 
happens physiologically when the human body cannot produce red blood 
cells in adequate numbers and of adequate quality to sustain life or 
the danger and pain of bi-weekly blood transfusions I am not going to 
do that. The important thing for members of this subcommittee to 
remember about Cooley's anemia is that it is an incurable, fatal 
genetic blood disorder. Period.
    In my testimony, I am going to address the following three issues 
in what I hope is a clear and succinct manner.
  --The first is the immediate need to provide a 5 percent increase to 
        the CDC's Division of Blood Disorders to fund the thalassemia 
        blood safety surveillance network. This program works for 
        thalassemia patients, and for all Americans, by providing a 
        mechanism to take immediate actions to keep the blood supply 
        safe when a threat emerges. The President's budget recommends 
        $1.85 million; we are requesting $1.95 million.
  --The second issue is the equally critical need for this subcommittee 
        to commit our government through the NIH--and more specifically 
        through NHLBI--to the development of a vigorous, ethical, 
        progressive and focused gene therapy program that is designed 
        to cure single-gene disorders in the shortest possible time.
  --The third issue is the urgent need to increase funding for the NIH 
        by a minimum of 6.5 percent this year and to assure the 
        continuation of desperately needed research through the 
        Thalassemia Clinical Research Network, which is based at NHLBI.
                       blood safety surveillance
    Mr. Chairman, when a baby is diagnosed with Cooley's anemia, or 
thalassemia major, the standard of treatment is to begin that child on 
blood transfusions. I want to be very clear here that the treatment is 
not to give the child a blood transfusion; it is to begin a lifetime 
treatment regimen of this most invasive and dangerous intervention. 
Once diagnosed, our children receive a blood transfusion every two 
weeks for the rest of their lives.
    Because Cooley's anemia patients are transfused so regularly and so 
often, they represent an ``early warning system'' for problems in the 
blood supply. If there is an emerging infection or other problem with 
the blood supply, it is our patients that will get it first and, 
because of their fragile health, will likely suffer more critically 
from secondary complications.
    Please understand, for example, that nearly every patient over the 
age of 18 today who has thalassemia major also has HIV or hepatitis C, 
or both, as a result of their transfusions--or did have it before the 
combination of the infectious disease and their underlying genetic 
disease killed them.
    Blood safety is a major national issue. Surgical and trauma 
patients often have no choice but to be transfused. And, it is done on 
an emergency basis everyday in hospitals in your states and districts. 
Nothing is more important to the patient at the time of transfusion 
than that they can be confident that the blood being pumped into their 
veins is free from infectious agents--HIV, HCV, or something that none 
of us have yet heard and doctors have yet to identify.
    The blood safety surveillance program is currently operating very 
effectively through the Division of Blood Disorders in the National 
Center for Birth Defects and Developmental Disability (NCBDDD) with 
about $1.86 million in funding. We are pleased that the President's 
budget recommends continuing it, although at a $1.85 million level.
    We are respectfully urging that the subcommittee increase this 
funding to $1.95 million to reflect inflationary pressures in order to 
continue to protect Americans from unnecessary infections and diseases 
that may occur in the blood supply. Also, we are requesting that the 
subcommittee and its staff remain vigilant in protecting this program 
from unjustified and unjustifiable assaults as we saw after the passage 
of the fiscal year 2007 Continuing Resolution.
                              gene therapy
    Mr. Chairman, as you know, in the last year or two we have begun to 
see evidence of some very good news about gene therapy. After decades 
of overblown promises and false starts, we can now see a pathway for 
scientists to follow to help make the promise of gene therapy become 
the reality of cures. The problem to this point in the long saga that 
is gene therapy has not been one of science; it has been one of 
expectations. As a society, we all forgot that science requires trial 
and error and that experiments are just that--experiments. Sometimes 
they succeed, but often they fail. And, when they fail, we need to 
analyze what happened and identify how to correct it and then try 
again.
    Today, gene therapy is advancing at a rapid pace in the rest of the 
world. Exciting work is being undertaken in Japan and China, in the UK 
and in France. Unfortunately, it is showing less progress the United 
States of America and that is not right. We are the international 
leaders in scientific research and, in a field like this--fraught with 
financial, scientific and ethical minefields--it is essential that 
America demonstrate its continued leadership to the world. We set the 
highest ethical and moral standards on every one of these issues. We 
protect human subjects best. The future of gene therapy as a means of 
curing disease is simply too important to leave it to anyone else.
    For persons with a single cell mutation disorder like thalassemia 
or sickle cell disease or ``boy in the bubble'' disease (SCID), gene 
therapy holds tremendous promise for a cure. We are now learning so 
much about how to deliver healthy genes to unhealthy cells that we 
cannot turn back--nor can we as a nation afford to let down the 
scientists in this country who have such a depth of knowledge and 
experience. Our friends in Europe and Asia are leaping ahead of us in 
this critical area of biomedical research and gene therapy.
    We hope that this Congress--speaking through this subcommittee--
will do what we have done and dare the NIH and its grantees to ``cure 
something.'' You are investing nearly $29 billion of taxpayer money in 
this agency that houses the ``best and the brightest'' in Bethesda and 
that funds ``the best and the brightest'' throughout the nation. We as 
Americans must never stop striving to reach previously unimaginable 
heights. If that means that we have to shake up the status quo and 
create a new funding mechanism, let's do it. But let's not continue to 
follow the slow going incremental, some might say ``glacial,'' path of 
the past.
    We need to spend our tax dollars in a coordinated and focused 
manner that will maximize the chances that science will unlock the 
secrets of how to correct single gene defects. We are gaining direct 
knowledge of how to safely proceed, with an experiment currently being 
conducted--in France--that may be a breakthrough. It is time for the 
United States to step up and lead the world in this life-saving area of 
research. We are counting on our representatives in Congress to lead 
the way. As I said, this research is being done in other places around 
the world. In the United States I have detected a reticence to proceed 
because of safety concerns which made news years ago. If we are truly 
concerned with safety, doesn't it make sense to embark on gene therapy 
here where we know the IRB's will ensure that patients come first?
           nih and the thalassemia clinical research network
    Mr. Chairman, 8 years ago, working closely with members of this 
subcommittee from both sides of the aisle, the CAF convinced the NHLBI 
of the need to create a Thalassemia Clinical Research Network. The 
purpose of the Network is to create an infrastructure that would enable 
the top researchers in the field to collaborate on desperately needed 
research projects using common protocols. Today, the Network is up and 
running and is the focal point for thalassemia research, most of which 
takes place in academic medical centers, literally spread from coast to 
coast.
    However, there remains a cloud hanging over this, and all other, 
research at NIH. As the Biomedical Research and Development Price Index 
continues to escalate, the buying power of an NIH that has been flat-
funded for 5 years continues to decrease. There would be nothing wrong 
with this if we had cured thalassemia, hemophilia, cystic fibrosis, and 
all other genetic and non-genetic diseases. But that is not the case.
    There is an enormous amount of work to be done, treatments to be 
developed and cures to be found. And there is no one else to do it but 
our National Institutes of Health, with the support of our Congress and 
President.
    I urge the subcommittee to make a commitment this year in this bill 
to at the very least a 6.5 percent increase for the National Institutes 
of Health. This level of funding will help to restore some of the 
purchasing power that has been lost since the end of the 5 year 
doubling. It is time to commit to undo the damage that has been done in 
the last 5 years. I also urge the committee to assure that NIH shows no 
diminution of support the Thalassemia Clinical Research Network.
                               conclusion
    As I indicated at the outset, Mr. Chairman, the Cooley's Anemia 
Foundation has three priorities this year:
  --Funding the blood safety surveillance program at CDC at $1.95 
        million;
  --An enhanced focus on gene therapy designed to cure something; and,
  --At least a 6.5 percent increase in NIH funding and the continuation 
        of the Thalassemia Clinical Research Network.
    Mr. Chairman, every night when I watch my beautiful, smart, 
talented 23 year old daughter Alicia suffer from the complications of 
thalassemia such as osteoporosis and as I watch her endure daily 8-10 
hours of painful drug infusions to remove the excess iron in her system 
from her bi-weekly blood transfusions, I know we can do better than 
what we are doing now.
    Please excuse my passion, but this is the United States of America. 
I know we can prevent this disease from happening in newborns. I know 
we can improve the lives of those who currently have it. And, most 
importantly, I know that we can cure it once and for all.
    It is long past time to demand the very best from the very best--
our scientists, our government, and ourselves.
    Thank you for your very kind attention and for all the support this 
committee has shown to our patients and their families over the years.
                                 ______
                                 
     Prepared Statement of the Council for Opportunity in Education
    The Council for Opportunity in Education advocates on behalf of the 
Federal TRIO programs, which are intended to promote equal access to 
higher education for low-income, first-generation, and disabled 
students. For more than 40 years, the Federal TRIO programs--Talent 
Search, Upward Bound, Upward Bound Math/Science, Veterans Upward Bound, 
Student Support Services, Equal Opportunity Centers, and the Ronald E. 
McNair Postbaccalaureate Achievement Programs--have provided the 
academic tutoring, personal counseling, mentoring, and other vital 
support services that disadvantaged students need to overcome both the 
economic and social barriers they face in their pursuit of higher 
education.
    Currently, TRIO programs serve more than 840,000 students across 
the nation, including several U.S. territories. Over the last several 
years, program costs and student needs have grown. Yet, because the 
programs have not received an increase in funding since fiscal year 
2005, TRIO can serve only about 7 percent of the eligible population. 
As the United States now ranks 10th among developed nations in the 
percentage of 24 to 35 year olds who have completed college, the time 
is ripe to make a substantial investment in higher education 
opportunities for American students. By providing a $120 million 
increase in TRIO funding in fiscal year 2009, Congress can renew its 
commitment to serving its most needy and deserving students while also 
strengthening the United States' competitiveness in this global, 
knowledge-based economy. More specifically, a $120 million increase for 
TRIO in fiscal year 2009 would:
  --Improve the capacity of TRIO's pre-college access and college-based 
        retention programs to support students in math and science, a 
        vital component in the nation's ability to increase global 
        competitiveness. ($57 million)
    For example, TRIO programs would be eligible to receive funding 
from this additional money if they commit to undertake activities such 
as the following:
    1. Talent Search Programs (currently serving nearly 400,000 
students) will use the supplementary funding to strengthen pre-algebra 
and algebra preparation so that students can succeed in higher level 
mathematics;
    2. Upward Bound (more than 960 projects) will enhance mathematics 
and science curricula to encourage greater numbers to pursue STEM 
studies in college;
    3. EOCs (currently serving 206,000 individuals, mostly displaced or 
under-employed workers) will use the funding to strengthen math 
refresher tutoring services;
    4. Student Support Services Programs (currently serving about 
201,000 students) will provide supplementary funding to enhance 
tutoring and other academic support for developmental mathematics and 
calculus gateway courses;
    5. Ronald E. McNair Post-Baccalaureate Achievement Programs 
(serving nearly 4,200 undergraduates contemplating graduate degrees) 
will increase undergraduate research opportunities for students 
intending to pursue graduate education in the STEM fields.
  --Increase the number of SSS programs by 100 to serve an additional 
        20,000 disadvantaged college students. ($28 million)
    This is an SSS grant competition year and, therefore, the perfect 
moment to make a stronger federal investment in helping disadvantaged 
students earn college degrees. As last year's competitions 
demonstrated, there are many quality applications worthy of funding, 
and on their own, colleges and universities are not committing the 
resources necessary to ensure that students have the support they need 
to succeed in college.
  --Increase overall TRIO appropriations by 4 percent. ($35 million)
    Funding for TRIO programs has not increased since fiscal year 2005. 
Projects are struggling to maintain critical core services for 
students, and this increase of $35 million, equal to the current rate 
of inflation, would help projects sustain their efforts on behalf of 
low-income, first-generation students.
    We thank the subcommittee for its ongoing commitment to the TRIO 
programs and the nation's low-income students. While we understand the 
need to balance priorities, we hope you will agree that the TRIO 
Programs are critical to the success of many of our Nation's students 
and will support these programs in the Labor, Health and Human 
Services, and Education Appropriations bill.
    Thank you for the opportunity to submit these comments for the 
public record and we look forward to working with you to support TRIO 
programs and TRIO students everywhere.
                                 ______
                                 
       Prepared Statement of the Council on Social Work Education
    On behalf of the Council on Social Work Education, I am pleased to 
offer this written testimony to the Senate Appropriations Subcommittee 
on Labor, Health and Human Services, Education and Related Agencies for 
the official committee record. I will focus my testimony on issues 
pertaining to fostering a diverse social work workforce through 
training and accessibility to higher education. In particular, this 
statement will touch on the importance of funding the Substance Abuse 
and Mental Health Services Administration's (SAMHSA) Minority 
Fellowship Program at $6 million for fiscal year 2009; the need to 
protect the National Institute of Mental Health (NIMH) minority 
training program which is also in jeopardy of cancellation; and the 
importance of sustaining funding for programs within the Department of 
Education that expand accessibility in higher education.
        educating social workers to help vulnerable populations
    The Council on Social Work Education (CSWE) is a nonprofit national 
association representing more than 3,000 individual members as well as 
over 650 graduate and undergraduate programs of professional social 
work education. The Council on Higher Education Accreditation (CHEA) 
authorizes CSWE to establish national educational standards while 
evaluating individual academic programs to determine if these standards 
are met for professional accreditation. The central components of these 
accreditation requirements include critical-thinking, evidence based 
practice, communication skills, human behavior theory and supervised 
experiential learning. Social work education focuses students on 
leadership and direct practice roles helping individuals, families, 
groups, and communities by creating new opportunities that empower 
people to be productive, contributing members of their communities.
    In particular, social work education prepares students at the 
graduate and undergraduate levels for professional practice in the 
leadership and staffing of our nation's most vital social service 
programs. Social workers help vulnerable populations in society--such 
as children and adults with physical or mental disabilities, trauma 
victims, individuals under stress or facing coping challenges both 
temporary and permanent, and segments of society needing assistance to 
adjust to changing circumstances or overcome injustices--be as healthy 
and productive as possible. Social work educational programs provide 
rigorous academic experiences in both classroom and field agency or 
organizational internship settings and professional social work 
graduates are employed in a wide array of settings such as public 
schools, veterans' hospitals and general as well as other special 
service health care facilities, substance abuse prevention and 
treatment programs, child protective services, family service settings, 
and gerontological long-term care facilities. CSWE recognizes that 
fostering a diverse workforce is key to providing the best possible 
service to populations in need.
    fostering a diverse social work workforce through training and 
                             accessibility
Minority Fellowship & Training Programs, Department of Health and Human 
        Services
    In 1974, amidst concerns about the limited number of minority 
scholars able to do indigenous research to improve services to minority 
communities, the National Institute of Mental Health (NIMH) within the 
National Institutes of Health (NIH) initiated a training program with 
the goal of increasing the number of minority doctoral students 
focusing their research in mental health. A few years later the 
Substance Abuse and Mental Health Services Administration (SAMHSA) 
created its own program that strived to achieve greater numbers of 
minority doctoral students preparing for leadership roles in the mental 
health and substance abuse field. These two programs provide grants to 
professional organizations which in turn administer fellowship grants 
to pre- and post-doctoral students. CSWE is one of the administering 
organizations. Together these programs make up CSWE's Minority 
Fellowship Program (MFP).
    The MFP has been instrumental in the recruitment and training of 
underrepresented groups (African-American, Asian-American, Latinos, 
American Indians), in the field of substance abuse and mental health. 
Through effective recruitment and selection, the MFP has facilitated 
minority students' retention and success in doctoral programs in mental 
health and substance abuse. The MFP fellows receive a unified program 
of assistance to include mentoring, research training, access to 
professional networks, and on-going guidance in cooperation with their 
department advisors, which supports success in all facets. CSWE has 
supported over 500 minority fellows since the program's inception and 
two-thirds of those students have gone on to receive their doctoral 
degrees. They are employed at universities and agencies throughout the 
United States.
    The administration's fiscal year 2009 budget request proposes to 
eliminate funding for the SAMHSA program, which received $3.8 million 
in fiscal year 2008 and $4.2 million in fiscal year 2007. The Minority 
Fellowship Program directly contributes to reversing disparities in 
mental health services and the quality of those services to minority 
populations. For this reason, CSWE urges the subcommittee to restore 
this vital SAMHSA program for fiscal year 2009 and in addition provide 
much needed additional resources in the sum of $6 million so that the 
program can continue to turnout minority mental health professionals 
equipped to provide culturally competent, accessible mental health and 
substance abuse services to diverse populations.
    In addition to the SAMHSA MFP, the minority education program in 
NIH's mental health institute is also in jeopardy. The NIMH minority 
education program focuses on increasing the number of minority doctoral 
students conducting mental health research; it is the ``research'' side 
of mental health training while the SAMHSA program represents the 
``clinical'' side.
    NIMH Director Thomas Insel has expressed his intent to eliminate 
funding for this program upon the expiration of the sole remaining 
institutional training grant in 2010. As the subcommittee knows, new 
and young investigators continue to face an up-hill climb in terms of 
breaking into the NIH grant pool for the first time. NIH Director Elias 
Zerhouni has testified before your subcommittee several times about the 
need for ``new talent'' at NIH, stating as recently as last year that 
``One of NIH's highest priorities will be to preserve the ability of 
new and junior scientists with fresh ideas to enter the competitive 
world of NIH funding.''
    While we applaud NIH's efforts to diversify the NIH grant pool 
through the development of such programs as the ``Pathway to 
Independence'' program and others, at a time when NIH has pledged a 
commitment to growing ``fresh talent,'' NIMH is essentially abandoning 
a proven program that has educated and prepared hundreds of minority 
scholars for research and leadership in the mental health sciences.
    While we understand that this issue cannot be fixed via the annual 
appropriations process, we urge the subcommittee to put pressure on NIH 
to reconsider its intent to cut off funding for this crucial training 
program beginning in 2010.
Aid for Institutional Development, Department of Education
    Fostering a diverse workforce is central to ensuring that we are 
able to provide culturally competent services to minority populations. 
Social workers must be able to relate to the communities they serve. 
However, getting minority students into the workforce pipeline is often 
difficult due to the many barriers to higher education facing minority 
and lower-income populations.
    The Department of Education supports several programs whose goal is 
to expand the accessibility of higher education to lower-income and 
minority populations. These programs provide financial assistance to 
minority-serving institutions to address needs in academic quality, 
student services, educational equipment acquisition, facility 
construction, and faculty and staff development. In turn, funds for 
these programs make these institutions more accessible while at the 
same time culturally relevant.
    For fiscal year 2009, the administration has proposed to 
substantially cut funding for these very important programs. 
Specifically, cuts are proposed for programs geared toward 
strengthening Tribally Controlled Colleges and Universities; Alaska 
Native and Native Hawaiian-serving Institutions; Historically Black 
Colleges and Universities; Historically Black Graduate Institutions; 
Predominantly Black Institutions; Asian American and Native American 
Pacific Islander-serving, and Native American-serving nontribal 
institutions.
    CSWE asks the subcommittee to reject the President's proposed cuts 
for fiscal year 2009 and provide these programs with at least the 
amount enacted for fiscal year 2008. Minority-serving institutions like 
these play a vital role in educating the diverse workforce that is the 
backbone of the social work profession, and since they do not have 
access to the same resources (large endowments, high tuition) as other 
institutions, they depend heavily on this modest Federal support to 
function. While the administration's rationale for these cuts is that 
the College Cost Reduction Act of last year provides additional 
mandatory funding for these institutions, we presume that Congress 
provided those funds so that minority-serving institutions could move 
forward, not remain stagnant.
    Thank you for the opportunity to express these views on behalf of 
the Council on Social Work Education. We hope the subcommittee will 
take these points into consideration as you move forward in the fiscal 
year 2009 appropriations process. Please do not hesitate to contact me 
with any questions.
                                 ______
                                 
          Prepared Statement of the Cystic Fibrosis Foundation
    On behalf of the Cystic Fibrosis Foundation, and the 30,000 people 
with cystic fibrosis (CF), we are pleased to submit the following 
testimony regarding fiscal year 2009 appropriations for cystic 
fibrosis-related research at the National Institutes of Health (NIH) 
and other agencies.
                         about cystic fibrosis
    Cystic fibrosis is a life-threatening genetic disease for which 
there is no cure. People with CF have two copies of a defective gene, 
known as CFTR, which causes the body to produce abnormally thick, 
sticky mucus, which clogs the lungs and results in fatal lung 
infections. The thick mucus in those with CF also obstructs the 
pancreas, causing patients difficulty in absorbing nutrients from food.
    Since its founding, the Cystic Fibrosis Foundation has maintained 
its focus on promoting research and improving treatments for CF. CF has 
been significantly transformed from a childhood death sentence into a 
chronic disease, which requires a rigorous daily regimen of therapy.
    It is a promising time for CF research. More than thirty drugs are 
now in development to treat CF, some which treat the basic defect of 
the disease, while others target its symptoms. Through the research 
leadership of the Cystic Fibrosis Foundation, the life expectancy of 
individuals with CF has been boosted from less than six years in 1955 
to nearly 37 years in 2007. Today, almost 45 percent of people with CF 
are 18 or older. This improvement in the life expectancy for those with 
CF can be attributed to research advances, which this testimony will 
discuss in some detail later, and to the teams of CF caregivers who 
offer specialized care of the highest quality. Although life expectancy 
has improved dramatically, we continue to loose young lives to this 
disease. Our progress is not sufficient for those affected by CF.
    The promise for people with CF is in research. In the past five 
years, the Cystic Fibrosis Foundation has invested over $660 million in 
its medical programs of drug discovery, drug development, research, and 
care focused on life-sustaining treatments and a cure for CF. A greater 
investment is necessary, however, to accelerate the pace of discovery 
and development of CF therapies. This testimony focuses on the 
investment that will be required to discover and develop new CF 
treatments rapidly and efficiently and to encourage research for a 
cure.
        sustaining the federal investment in biomedical research
    This subcommittee and Congress are to be commended for their 
steadfast support for biomedical research, and their commitment to the 
National Institutes of Health (NIH), including the effort to double the 
NIH budget between fiscal year 1999 and fiscal year 2003. This 
impressive increase in funding resulted in a revolution in medical 
research, fueling discoveries that benefit all Americans.
    If we fail to adequately fund the NIH so that it can capitalize on 
scientific advances, we risk losing the momentum that the doubling 
generated. The flat-funding of the NIH has already led to a decrease in 
purchasing power, limiting the research that could have been conducted. 
The Cystic Fibrosis Foundation joins the Ad Hoc Group for Medical 
Research to recommend increasing the NIH budget by at least 6.5 percent 
in fiscal year 2009, or $1.9 billion over fiscal year 2008. This 
increased investment will help maintain the NIH's ability to fund 
essential biomedical research today that will provide tomorrow's care 
and cures.
           strengtheing our nation's research infrastructure
    We urge the NIH to pay special attention to advances in treatment 
methods and mechanisms for translating basic research into therapies 
that can benefit patients. The Cystic Fibrosis Foundation has been 
recognized for its own research approach that encompasses basic 
research through Phase III clinical trials, and has created the 
infrastructure required to accelerate the development of new CF 
therapies. As a result, we now have a pipeline of more than thirty 
potential therapies that are being examined to treat people with CF. 
These therapies aim to treat CF on multiple fronts, an important 
consideration for a disease that affects the body in multiple ways.
    Because CF is a disease which impacts several systems in the body, 
different institutes at NIH share responsibility for CF research. 
Having multiple responsible institutes presents roadblocks to CF 
research in that there can be imperfect communication among the 
institutes regarding research in the field. This can limit our ability 
to capitalize on all research opportunities. Moreover, 
multidisciplinary research approaches of the sort we believe are most 
promising in CF, may be disadvantaged in the NIH system of review and 
funding.
The Clinical and Translational Science Awards (CTSA)
    The Clinical and Translational Science Awards (CTSA) program was a 
key component of the NIH's Roadmap initiative. The program is designed 
to transform how clinical and translational research is conducted, 
ultimately enabling researchers to provide new treatments more 
efficiently and quickly to patients. There have been significant cuts 
to the program since its launch in 2006. Tremendous effort brought 
institutions together to rally around this program, yet current funding 
levels make it difficult for the current 24 programs (out of a planned 
60) to succeed.
    This program is largely funded and managed by the National Center 
for Research Resources (NCRR). Key to the success of the CTSAs is the 
development of cost sharing for use of infrastructure services, such as 
the General Clinical Research Centers (GCRC). In the past, all services 
within the NIH's GCRC were provided at no cost to investigators. The 
other institutes expected that they could reduce their research budgets 
by having investigators use the GCRC where clinical care such as 
inpatient stays, lab tests, nursing staff, was available at no 
additional cost. Today, individual investigators must provide funds for 
clinical care cost sharing from grants funded from other NIH 
institutes.
    As research becomes more expensive, it becomes even more critical 
to ensure support for translational research, that is, research that 
moves a potential therapy from being developed in the lab into one that 
is delivered to the public. In order to maximize the success of the 
CTSA, multiple institutes within the NIH must be able to provide 
financial resources for the program. Stronger support for the CTSA is 
needed because the program is a critical mechanism for improving the 
translational research activities necessary to develop treatments for 
common and rare diseases alike.
Supporting Clinical Research
    A significant discrepancy still persists between the funding 
awarded to clinical and basic laboratory investigators for first awards 
and the discrepancy is even greater for second awards and prolonged 
funding of clinical investigators. The NIH must maintain the ability to 
support translational research and the investigators piloting those 
projects. Without this support, the NIH stands to lose an entire 
generation of clinically trained individuals committed to clinical 
research. The ``generation gap'' that would be created by the loss of a 
cache of clinical researchers would not only affect the ability of the 
NIH to continue to conduct world-class clinical investigation, but 
would also jeopardize the standing of the United States as the world's 
premiere source for biomedical research.
          facilitating clinical research and drug development
    The Cystic Fibrosis Foundation applauds the efforts of NIH to 
encourage greater efficiency in clinical research. The Foundation has 
been a leader in creating a clinical trials network to achieve greater 
efficiency in clinical investigation. Because the CF population is so 
small, a more significant portion of people with the disease must 
partake in clinical trials than in most other diseases. This unique 
challenge prompted the Foundation to streamline our clinical trials 
processes. Research conducted by the Foundation is more efficient than 
ever before. The clinical trials network is a model for other disease 
groups.
    We have a permanent network of clinical trial sites and have 
centralized and coordinated data management and analysis functions and 
data safety monitoring. Among the results of this outstanding network--
called the Therapeutics Development Network--are the ability to achieve 
rapid accrual to trials and the capacity to conduct multiple trials 
simultaneously, even in a population of 30,000 CF patients. Since the 
TDN's inception, it has conducted over 40 trials. Of course, the 
ultimate goal of a centralized clinical trials system is the 
acceleration of the therapeutic development process.
    Although we have achieved significant efficiencies in our clinical 
trials system, we still encounter substantial slowdowns in the review 
of our multi-institutional trials by the institutional review boards 
(IRBs) at each of the institutions participating in the trials. We are 
pleased that the Department of Health and Human Services has encouraged 
the exploration of alternative models of IRBs, including central IRBs, 
by the CTSA, however we encourage Congress to urge the Department to 
demonstrate more aggressive leadership in persuading all academic 
institutions to accept review by a central IRB--without insisting on 
parallel and often duplicative review by their own IRB--at least in the 
case of multi-institutional trials in rare diseases. Such central 
oversight can help provide greater expertise to improve trial design 
and enable critical research to move forward in a timelier manner 
without undermining patient safety.
Pursuing New Therapies: The Cystic Fibrosis Therapeutics Development 
        Network
    The Cystic Fibrosis Foundation requests that the committee allocate 
$1.5 million in Federal funding in fiscal year 2009 to support a much-
needed expansion of our clinical research program, the Therapeutics 
Development Network (TDN), through the Coordinating Center at 
Children's Hospital & Regional Medical Center in Seattle, Washington. 
This will provide a significant investment in the Cystic Fibrosis 
Foundation's ongoing efforts to meet the demand for testing of all the 
promising new therapies for cystic fibrosis.
    Designating Federal funding for the Cystic Fibrosis Therapeutics 
Development Network will accelerate testing of new therapies for CF. 
The TDN plays a pivotal role in accelerating the development of new 
treatments to improve the length and quality of life for cystic 
fibrosis patients. Lessons learned from centralization of data 
management and analysis and data safety monitoring in the TDN will be 
useful in designing clinical trial networks in other diseases. Again, 
we urge the committee to provide $1.5 million to Children's Hospital & 
Regional Medical Center in Seattle, Washington for this important work.
Partnership with the National Center for Research Resources
    As mentioned previously, the Institutional CTSA program is an 
initiative of particular importance to CF. This NIH Roadmap program 
administered by the NCRR encourages novel approaches to clinical and 
translational research, enhances the utilization of informatics, and 
strengthens the training of young investigators. The Cystic Fibrosis 
Foundation has enjoyed a productive relationship with the NCRR to 
support our vision for improving clinical trials capacity through its 
early financial support of the TDN. However, the CF Foundation urges 
NCRR to reverse its decision to reject funding for disease-specific 
networks in favor of those without a disease focus. As a result of this 
policy, some of the best clinical research consortia are prohibited 
from competing for NCRR grants, including but not limited to the CF 
TDN.
                       supporting drug discovery
    While much of this testimony has focused on clinical research, new 
therapies rely on solid basic research. The CF Foundation's clinical 
research is fueled by a vigorous drug discovery effort; early stage 
translational research of promising strategies to find successful 
treatments for this disease. Several research projects at the NIH hold 
the promise of expanding our knowledge about the disease, which may 
lead to potential interventions to alter its course. We strongly 
support this important research, which fuels our efforts to find a 
cure.
Protein Misfolding & Mistrafficking
    The Cystic Fibrosis Foundation urges the NIH to devote special 
attention to research in protein misfolding and mistrafficking, an area 
which may yield significant benefits for CF and other diseases where 
misfolding is an issue. We applaud the National Heart, Lung and Blood 
Institute (NHLBI), and the National Institute of Diabetes and Digestive 
and Kidney Diseases (NIDDK) for their initiatives that target research 
on protein misfolding, and urge an aggressive commitment to facilitate 
continued exploration in this area to build upon promising discoveries. 
Additionally, we urge funding by the National Institute of General 
Medical Sciences (NIGMS) for the creation of tools and reagents and 
advances in techniques that will allow for precision monitoring of 
folding and trafficking events and for the sharing of resulting data 
that would complement the efforts of NIDDK--and NHLBI--funded 
investigations in this area.
Opportunities In Animal Models
    In particular, the Cystic Fibrosis Foundation has been encouraged 
to see a substantial NIH investment in a research program through the 
University of Iowa to study the effects of CF in a pig model. The 
recent birth of a pig engineered to have a mutation in its CFTR gene is 
the first time a large animal model of a genetic disease has been 
created. The program, funded through research awards from both the 
Cystic Fibrosis Foundation and NHLBI, bears great promise to help make 
significant developments in the search for a cure. We encourage 
additional funding in this area to create a facility that would enable 
researchers beyond just those at the University of Iowa to conduct 
their research. Such a facility is needed as many institutions do not 
have the infrastructure needed to house and care for large animals.
Small Business Innovation Research Program at NIH
    Small Business Innovation Research (SBIR) program grants through 
the NIH have helped many small biotechnology and pharmaceutical 
companies to develop vital treatments for a variety of diseases. 
Several companies developing CF treatments have used SBIR grants to 
help in their development process.
    One company, PTC Therapeutics, previously received an SBIR grant 
while developing a drug. That minor infusion of money was enough to 
allow the company to take innovative risks in developing a second drug, 
PTC-124. PTC-124 proved to be so promising for multiple diseases, 
including CF, that the company was awarded $15 million by the NIH to 
continue development. The initial support of the SBIR grant allowed for 
one innovation to follow another. By continuing to ensure that the NIH 
has adequate funding for small dollar-amount programs like SBIR, great 
things can emerge.
    The SBIR program could provide further support by designating that 
a portion of all grants awarded must be used for rare disease research. 
With such a small portion of the population likely to purchase the 
drugs, research to produce drugs to treat rare diseases is often 
considered too large a financial risk to take on. It is important to 
note, however that there are over 25 million Americans with a rare 
disease. By directing even small dollar grants specifically to help 
develop drugs for these diseases, biotechnology and pharmaceutical 
companies can receive the financial spark that makes drug development 
for rare diseases less risky.
    On behalf of the Cystic Fibrosis Foundation, we thank the committee 
for its consideration. Congress has reason to be proud of its role in 
supporting NIH as the world's leader in biomedical research. The NIH 
has spent decades on the basic research that made our discoveries 
possible and to let that information languor for lack of funding would 
be tragic indeed.
    Dr. Zerhouni has wisely focused on translational research as a 
touchstone for ensuring the relevance of the NIH to the American 
public. The CF Foundation is the perfect example of this notion, having 
devoted our own resources to developing treatments through drug 
discovery, clinical development, and clinical care. Our patient 
registry allows us to track outcomes at the patient, center, and 
national level and learn more about the course of this disease and how 
to fight it. Our efforts are paying off. This spring we received news 
that one of the drugs in our pipeline showed remarkable promise in a 
clinical trial and we are increasingly more hopeful that this discovery 
will bring us even closer to a cure. Encouraged by our successes, we 
believe the experience of the CF Foundation in clinical research can 
serve as a model for research on other orphan diseases and we stand 
ready to work with NIH and Congressional leaders.
                                 ______
                                 
     Prepared Statement of the Dystonia Medical Research Foundation
            summary of recommendations for fiscal year 2009
  --A minimum 6.5 percent funding increase for the National Institutes 
        of Health and its Institutes and Centers.
  --Urge the National Institute on Neurological Disorders and Sroke, 
        the National Institute on Deafness and Other Communication 
        Disorders, and the National Eye Institute to expand their 
        research portfolios on Dystonia.
    Dystonia is a neurological movement disorder characterized by 
powerful and painful involuntary muscle spasms that cause the body to 
twist, repetitively jerk, and sustain postural deformities. There are 
several different variations of dystonia, including; focal dystonias, 
which affect specific parts of the body, and generalized dystonia, 
which affect many parts of the body at the same time. Some forms of 
dystonia are genetic and others are caused by injury or illness. 
Dystonia does not affect a person's consciousness or intellect, but is 
chronic and progressive. In North America alone, conservative estimates 
indicate that between 300,000 and 500,000 individuals suffer with 
dystonia. Currently, there is no known cure and treatment options 
remain limited.
    While the underlying mechanisms of dystonia remain a mystery and 
the onset of symptoms can occur for a number of reasons, two therapies 
have emerged with proven health benefits to the dystonia patient 
community. Botulinum toxin injections and deep brain stimulation have 
shown varying degrees of success, depending on the individual, in 
alleviating a dystonia patient's symptoms. More research is needed to 
fully understand how to combat and cure dystonia, and in the mean time, 
maintaining patient access to life-improving therapies remains 
critical.
                     deep brain stimulations (dbs)
    Deep brain stimulation (DBS) is a surgical procedure that was 
originally developed to treat Parkinson's disease, but is now being 
applied to severe cases of dystonia. A neurostimulator, or brain 
pacemaker, is surgically implanted and delivers electrical stimulation 
to the areas of the brain that control movement. While the exact 
reasons for effectiveness are unknown, the electrical stimulation 
blocks abnormal nerve signals that cause abnormal muscle spasms and 
contractions.
    Since DBS was approved for use by dystonia patients in 2003, it has 
drastically improved the lives of many individuals. Results have ranged 
from quickly regaining the ability to walk and speak, to regaining 
complete control over ones body and returning to an independent life as 
an able-bodied person. DBS is currently used to treat severe cases of 
generalized dystonia, but its promising role in treating focal 
dystonias is being explored and requires continuous support. Surgical 
interventions are a crucial and active area of dystonia research and 
may continue to lead to the development of promising treatment options.
               botulinum toxin injections (botox/myobloc)
    The introduction of botulinum toxin as a therapeutic tool in the 
late 1980s revolutionized the treatment of dystonia by offering a new, 
localized method to significantly relieve symptoms for many people. 
Botulinum toxin, a biological product, is injected into specific 
muscles where it acts to relax the muscles and reduce excessive muscle 
contractions.
    Botulinum toxin is derived from the bacterium Clostridium 
botulinum. It is a nerve ``blocker'' that binds to the nerves that lead 
to the muscle and prevents the release of acetylcholine, a 
neurotransmitter that activates muscle contractions. If the message is 
blocked, muscle spasms are significantly reduced or eliminated.
    Injections of botulinum toxin should only be performed by a 
physician who is trained to administer this treatment. The physician 
needs to know the clinical features and study the involuntary movements 
of the person being treated. The physician doing the treatment may 
palpate (touch) the muscles carefully, trying to ascertain which 
muscles are over-contracting and which muscles may be compensating. In 
some instances, such as in the treatment of laryngeal dystonia, a team 
approach including other specialists may be required.
    For selected areas of the body, and particularly when injecting 
muscles that are difficult or impossible to palpate, guidance using an 
electromyograph (EMG) may be necessary. For instance, when injecting 
the deep muscles of the jaw, neck, or vocal cords, an EMG-guided 
injection may improve precision since these muscles cannot be readily 
palpated. An EMG measures and records muscle activity and may help the 
physician locate overactive muscles.
    Injections into the overactive muscle are done with a small needle, 
with one to three injections per muscle. Discomfort at the site of 
injections is usually temporary, and a local anesthetic is sometimes 
used to minimize any discomfort associated with the injection. Many 
dystonia patients frequently rely on botulinum toxins injections to 
maintain their improved standard of living due to the fact that the 
benefits of the treatment peak in approximately four weeks and lasts 
just 3 or 4 months. Currently, FDA approved forms of botulinum toxin 
include Botox and Myobloc.
          dystonia and the national institutes of health (nih)
    Currently, three Institutes at the National Institutes of Health 
(NIH) conduct medical research regarding dystonia. They are the 
National Institute of Neurological Disorder and Stroke (NINDS), the 
National Institute on Deafness and Other Communication Disorders 
(NIDCD), and the National Eye Institute (NEI).
    NINDS has released important Program Announcements in recent years 
to study the causes and mechanisms of dystonia. These awards covered a 
wide range of research areas, which included gene discovery, the 
genetics and genomics of dystonia, the development of animal models of 
primary and secondary dystonia, molecular and cellular studies 
inherited forms of dystonia, epidemiology studies, and brain imaging. 
DMRF often works with NINDS to support as much critical research as 
possible and advance understating of dystonia.
    NIDCD has funded many studies on brainstem systems and their role 
in spasmodic dysphonia. Spasmodic dysphonia is a form of focal 
dystonia, and involves involuntary spasms of the vocal cords causing 
interruptions of speech and affecting voice quality. Our understanding 
of spasmodic dysphonia has been greatly enhanced by research 
initiatives at NIDCD, like the brainstem systems studies.
    NEI focuses some of its resources on the study of blepharospasm. 
Blepharospasm is an abnormal, involuntary blinking of the eyelids from 
an unknown cause that is associated with abnormal function of the basal 
ganglion. The condition can progress to the point where facial spasms 
develop. Presently, NEI is conducting a study entitled, Mexiletine for 
the Treatment of Focal Dystonia and a Doxil Blepharospasm Treatment 
Trial, both of which have the potential to significantly improve 
treatment options for blepharospasm patients.
    DMRF also supports many extramural researchers studying dystonia. 
Research includes: exploring improved clinical rating scales for 
dystonia, elevations of sensory motor training, utilizing Botox as a 
possible treatment for focal hand dystonia, characterization of 
abnormalities in sensory regions of the brain, treatments for spasmodic 
dysphonia, deep brain stimulation (the direct electrical stimulation of 
specific brain targets), non-invasive transcranial brain stimulation, 
anatomy imaging of the affect of dystonia on brain activity, and 
exploring the link between laryngitis and spasmodic dysphonia.
    Recent years of near level-funding at NIH have negatively impacted 
the mission of its Institutes and Centers. For this reason, DRMF 
applauds efforts like Senators Tom Harkin (D-IA) and Arlen Specter's 
(R-PA) adopted amendment to the fiscal year 2009 Senate Budget 
Resolutions which calls on appropriators to provide NIH with a 10.3 
percent funding increase. DRMF urges this Subcommittee to show strong 
leadership in pursuing such a substantial funding increase.
    For fiscal year 2009, DMRF recommends a funding increase of at 
least 6.5 percent for NIH and its Institutes and Centers.
    For fiscal year 2009, DMRF recommends that the National Institute 
on Neurological Disorders and Stroke, the National Institute on 
Deafness and Other Communication Disorders, and the National Eye 
Institute be urged to increase their research activities regarding 
dystonia and partner with voluntary health organizations to promote 
dystonia research and awareness.
            the dystonia medical research foundation (dmrf)
    The Dystonia Medical Research Foundation was founded over 30 years 
ago and has been a membership-driven organization since 1993. Since our 
inception, the goals of DMRF have remained: to advance research for 
more effective treatments of dystonia and ultimately find a cure; to 
promote awareness and education; and support the needs and well being 
of affected individuals and their families.
    Thank you for the opportunity to present the views of the 
functional dystonia community.
                                 ______
                                 
              Prepared Statement of the Endocrine Society
    The Endocrine Society would like to submit the following testimony 
regarding fiscal year 2009 Federal appropriations for biomedical 
research, with emphasis on appropriations for the National Institutes 
of Health. The Endocrine Society is the world's largest and most active 
professional organization of endocrinologists representing over 14,000 
members worldwide. Our organization is dedicated to promoting 
excellence in research, education, and clinical practice in the field 
of endocrinology. The Society is comprised of thousands of researchers 
who depend on Federal support for their careers and their scientific 
advances.
    A half century of sustained investment by the United States Federal 
Government in biomedical research has dramatically advanced the health 
and improved the lives of the American people. The National Institutes 
of Health (NIH) specifically has had a significant impact on the United 
State's global preeminence in research and fostered the development of 
a biomedical research enterprise that is unrivaled throughout the 
world. As the world's largest supporter of biomedical research, the NIH 
competitively awards extramural grants and supports in-house research. 
However, with the continued decline in real dollars allocated to 
biomedical research each year by the Federal Government, the 
opportunities to discover life-changing cures and treatments have 
already begun to decrease.
    Unfortunately, the gains experienced by the NIH during the doubling 
period have not kept pace with inflation. In fiscal year 2008, the NIH 
received only a $300 million dollar increase and it may receive no 
increase in fiscal year 2009 unless Congress alters the President's 
budget request. These funding levels are significantly below the 3.5 
percent increase needed simply to maintain NIH's existing purchasing 
power. In order to fully understand the importance of maintaining the 
growth experienced during the doubling period, policymakers must first 
understand the impact that research programs have on patients and 
scientists.
    Biomedical research funds allocated by the Federal Government 
support both basic and translational research, ensuring that the 
discoveries made in the laboratory become realistic treatment options 
for patients suffering from debilitating and life-threatening diseases. 
In addition to improving quality and length of life, these advances in 
treatment also reduce the health care costs of our Nation. Diabetes is 
a devastating condition that affects an increasingly large number of 
Americans and requires a large proportion of the Nation's healthcare 
spending. More than 20 million Americans are affected by either type 1 
or type 2 diabetes, and 11 percent of the Nation's health care 
expenditures go to diabetes care. However, only about 3.5 percent of 
the National Institutes of Health (NIH) budget went to diabetes 
research in 2006. Congressional funding for diabetes research has been 
generous, but increasing incidence requires increased funding in order 
to stave off rising health care costs.
    No new diabetes medications would have ever been developed without 
federally supported basic and clinical research. The discovery of 
insulin and the collaborative research effort of basic and clinical 
scientists eventually led to the approval of a new class of medications 
for diabetes, essentially the first new treatments of diabetes in the 
past 80 years. Without the continued support of both basic and clinical 
research in diabetes, these medications would have never been 
developed. Now, with this broadened portfolio of treatments, it is 
possible to help most people with diabetes achieve optimal blood sugar 
control.
    However, it is clear that there are many more pathways that remain 
to be discovered. These newly discovered pathways require continued 
research to bridge the gap from the basic lab bench and translate these 
discoveries for patients to use. The primary goals of medicine are to 
prevent and treat disease and to reduce suffering. Continued Federal 
support for basic science and clinical research in diabetes will go a 
long way toward attaining those goals.
    These advances in diabetes treatment would not have been possible 
without the efforts of the scientists who have chosen to dedicate their 
lives' work to identifying the next treatment or cure. As the amount of 
real dollars allocated to Federal research funding declines, so too do 
the opportunities for researchers. As a result, scientists are often 
forced to find other careers or move to other countries to continue 
their research, depleting the pool of talent that government agencies 
and pharmaceutical companies have to draw from. Fewer scientists and 
less research would result in this country losing its place as a leader 
in medical progress. The U.S. Government must acknowledge this 
potentially bleak future and place more value and emphasis on research 
and development efforts. Without these scientists in our workforce, 
many medical breakthroughs will either never happen or will happen as a 
result of overseas research.
    The Endocrine Society remains deeply concerned about the future of 
biomedical research in the United States without sustained support from 
the Federal Government. The Society strongly supports the continued 
increase in Federal funding for biomedical research in order to provide 
the additional resources needed to enable American scientists to 
address the burgeoning scientific opportunities and new health 
challenges that continue to confront us. For fiscal year 2009, The 
Endocrine Society recommends that the NIH receive $31.1 billion in 
order to recoup the losses caused by biomedical inflation over the last 
few years, fund necessary new research programs, and build on the 
discoveries made during the doubling period.
                                 ______
                                 
              Prepared Statement of the FSH Society, Inc.
    Mr. Chairman, Honorable Senator Specter and Honorable Senator Tom 
Harkin, thank you for the opportunity to testify before your 
subcommittee.
    I am here to remind you that muscular dystrophy (MD) is still 
taking its toll. As a patient with facioscapulohumeral muscular 
dystrophy (FSHD), I have experienced the constant loss of function this 
disease leaves in its wake.
    We request this year in fiscal year 2009 immediate and necessary 
help for those of us coping with and dying from facioscapulohumeral 
muscular dystrophy, FSHD and MD, as we did in fiscal year 2008. 
Specifically we ask that the Senate and the Appropriations Subcommittee 
on Labor, HHS, Education and Related Agencies consider:
    1. Resuming the 5 year doubling of the National Institutes of 
Health (NIH) budget. Over the past year the research funding situation 
has gone from bad to worse and we have lost opportunities to fund 
excellent research.
    2. Appropriating $80 million to MD research at the NIH in fiscal 
year 2009 and steadily increasing this amount to at least $125 million 
annually over the next 5 years.
    3. Making NIH funding comprehensive for basic research in each of 
the nine types of MD as well as creating an equitable distribution for 
each MD across the Senator Paul D. Wellstone Muscular Dystrophy 
Cooperative Research Center network, program projects, basic research 
projects, clinical research, training programs and translational 
research programs. We explicitly draw your attention to the subtle 
nuance of mandating NIH to have centers and comprehensive research 
portfolio ``in all'' the muscular dystrophies, versus, NIH having 
centers and a comprehensive research portfolio ``in each of'' the 
muscular dystrophies. This seemingly insignificant one word addition 
transforms death into life for all patients and families with MD.
    Our first request calls for increasing the NIH budget and resuming 
the 5 year doubling. The wars in Iraq, Afghanistan, tax cuts and the 
turmoil in the financial markets have essentially halted any progress 
in biomedical research. We all know that America has fallen far behind 
in biomedical research funding. As a person with a disease it is hard 
to reconcile the generosity of the Congress towards the wars, and 
bailing out institutions that have put us all at financial risk, 
against the lack of action on behalf of sick and dying citizens. The 
NIH budget at $29.2 billion is a miniscule fraction of these other 
expenses. Doubling a tiny fraction is still a tiny fraction. For those 
in Congress who ask the NIH where are the cures--consider that the NIH 
budget of $29.2 billion covering countless thousands and thousands of 
diseases is a fraction of the market capitalization of a large 
pharmaceutical company covering a few disease areas. Consider also that 
the main job of NIH is basic science, not drug development, and that 
the pharmaceutical companies, the American public and people throughout 
the world benefit directly from the NIH investment in science. Please 
act now to refocus spending on American infrastructure before trust and 
confidence is lost.
    Our second request calls for NIH to build and grow its muscular 
dystrophy (MD) disease area funding to a level commensurate with 
diseases of similar burden. A wide disparity still exists in funding 
for MD. This is a matter for both Appropriations and for the NIH with 
its wide discretion on funding for diseases. More funding would help 
balance out these disparities and accelerate treatments and cures for 
diseases. We request that the Director of the NIH consider a more 
equitable amount for MD that is solidly in line with its disease peers 
at $80 to $125 million.
    Our third request asks the Appropriations Committee to request that 
the Director of the NIH increase the amount of FSHD research and 
projects in its portfolios using all available mechanisms and 
interagency committees. Given the knowledge base and current 
opportunity for breakthroughs in ameliorating, treating and perhaps 
curing FSHD it is inequitable that only two of the twelve NIH 
institutes covering muscular dystrophy have a handful of research 
grants for FSHD. Why is FSHD research virtually non-existent in the 
Senator Paul D. Wellstone MD Cooperative Research Centers (CRCs)? 
Funding should include projects from the NIH roadmap, extramural 
programs, intramural programs, Senator Paul Wellstone MD CRCs and 
similar program projects that have a major focus on FSHD.
    FSHD is the second most prevalent adult muscular dystrophy. The 
incidence of the disease is conservatively estimated to be 1 in 20,000. 
The prevalence of the disease, those living with the disease ranges 
from 15,000 to 40,000 Americans based on our increasing experiences 
with the disease and accurate diagnostic tests. For men, women, and 
children the major consequence of inheriting FSHD is a lifelong 
progressive and severe loss of all skeletal muscles. FSHD is a 
terrible, crippling and life shortening disease. It is genetically 
transmitted to children and it affects entire family constellations.
    How is facioscapulohumeral muscular dystrophy (FSHD) research at 
the NIH doing in 2008, 7 years after the MD CARE Act 2001 was passed, 
and, 13 years after our first testimony in person before the Honorable 
Senator Harkin of this honorable Committee?
    We applaud Dr. Story Landis, Director, National Institute of 
Neurological Disorders and Stroke (NINDS), and, current Chair of the 
Muscular Dystrophy Coordinating Committee (MDCC); Dr. Stephen I. Katz, 
Director, National Institute of Arthritis and Musculoskeletal Disorders 
(NIAMS) and past-Chairman of the MDCC; Dr. John Porter, Program 
Director Muscular Dystrophy, NINDS, and Executive Secretary of the 
MDCC, and; Dr. Glen Nuckolls, Program Director Muscular Dystrophy, 
NIAMS, for their extraordinary comprehension, insight, accuracy and 
speed with which the NIH Action Plan for Muscular Dystrophy was 
researched, compiled, written, and approved. The NIH is making 
significant investments to understand muscular dystrophy research needs 
and has made excellent choices in recruiting program staff with the 
ability to understand the extremely complex nature of all of the 
muscular dystrophies.
    Between fiscal year 2006 and 2007, NIH overall funding for muscular 
dystrophy increased from $39,913,000 to $47,179,000, an 18 percent 
increase. Figures from the NIH Appropriations History for Muscular 
Dystrophy show that from the inception of the MD CARE Act 2001 funding 
has doubled for muscular dystrophy.
    Between fiscal year 2006 and 2007, NIH funding for 
facioscapulohumeral muscular dystrophy (FSHD) increased from $1,732,655 
to $4,108,555. In fiscal 2007, FSHD was 8.7 percent of the total 
muscular dystrophy funding ($4.109 million/$47.179 million).

                         NATIONAL INSTITUTES OF HEALTH (NIH) APPROPRIATIONS HISTORY \1\
                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                                                                 FSHD percent of
                  Fiscal year                      NIH overall     MD research    FSHD research         MD
----------------------------------------------------------------------------------------------------------------
2000...........................................         $17,821           $12.6          $0.4                3.0
2001...........................................          20,458            21.0           0.5                2.0
2002...........................................          23,296            27.6           1.3                5.0
2003...........................................          27,067            39.1           1.5                4.0
2004...........................................          27,887            38.7           2.2                6.0
2005...........................................          28,494            39.5           2.0                5.0
2006...........................................          28,587          39.913           1.7                4.0
2007...........................................          28,899          47,179           4.109              8.7
2008...........................................      \2\ 29,230      \2\ 47,221  ..............  ...............
----------------------------------------------------------------------------------------------------------------
\1\ Source.--NIH/OD Budget Office & NIH OCPL.
\2\ Estimated.

    Facioscapulohumeral muscular dystrophy (FSHD) is the second most 
prevalent adult muscular dystrophy after myotonic muscular dystrophy 
(DM). We are very concerned about the wide disparity in funding between 
the most widely recognized pediatric Duchenne muscular dystrophy (DMD) 
and the entire group of the other eight types of MD. DMD has exclusive 
funding from the Centers for Disease Control (CDC), Department of 
Defense (DOD) and more than half (>50 percent) of NIH funding for MD. 
This is astounding considering facioscapulohumeral muscular dystrophy 
(FSHD) and myotonic dystrophy (DM) are each individually more prevalent 
than DMD and each received 5 percent and 15 percent respectively of 
total muscular dystrophy dollars as last reported by the NIH to 
Congress!
    Between 2006 and 2007, the NINDS became the lead institute for 
funding in MD. Historically, the NIAMS in its mission statement has 
been primarily responsible for and has been the lead institute for 
muscle disease research. The Center for Scientific Review (CSR) routes 
the majority of MD grant applications to NIAMS based on its mission. In 
fiscal year 2007, NIAMS was the second largest contributor, followed by 
the National Institute of Child Health and Human Development (NICHD) as 
third, and the National Heart, Lung and Blood Institute (NHLBI) as 
fourth. It should be troubling that muscular dystrophy spending has 
declined significantly in several key institutes that could bring 
tremendous impact to these devastating diseases.

        NATIONAL INSTITUTES OF HEALTH (NIH) MUSCULAR DYSTROPHY FUNDING BY INSTITUTE--FISCAL YEAR 2007 \1\
                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                                              Fiscal year
                         Participating ICs                          ------------------------------    Percent
                                                                      2006 actual    2007 actual       change
----------------------------------------------------------------------------------------------------------------
NINDS..............................................................        $12.697        $19.347          +51.6
NIAMS..............................................................         16.576         17.734           +7
NICHD..............................................................          4.818          4.591           -4.7
NHLBI..............................................................          2.270          2.458           +8.3
NIA................................................................          1.865          1.882           +0.9
NCRR...............................................................          0.770          0.679          -11.8
NCI................................................................          0.495          0.426          -13.9
NHGRI..............................................................          0.391          0.161          -58.8
NINR...............................................................          0.031  .............  .............
NEI, NIMH, FIC, OD.................................................  .............  .............  .............
----------------------------------------------------------------------------------------------------------------
\1\ Source.--NIH/OD budget office.

    NINDS.--In fiscal year 2007, NINDS spent $2,612,994 on FSHD and 
$19,247,940 on MD. 47 projects, including Wellstone CRC components for 
a total of $19,247,940 were funded. FSHD was 13.6 percent of NINDS MD 
funding. The NINDS funded, for FSHD, three research grants, one 
research fellowship, one research contract, one-quarter of a Wellstone 
MDCRC center and one-half of a Translational Research Center research 
grant for a total of six projects. NINDS funding for FSHD went up by 
$1,191,398 or 83.8 percent. Total funding for MD by NINDS increased 
over the year by $6,551,266 or 51.6 percent.
    NIAMS.--In fiscl year 2007, NIAMS spent $1,495,561 on FSHD and 
$17,734,317 on MD. This comprises 89 projects, including Wellstone 
MDCRC components for a total of $17,734,317. FSHD was 8.4 percent of 
NIAMS MD funding. The NIAMS funded, for FSHD, four research grants, one 
research contract, 2 percent of a Translational Research Center for a 
total of six projects. NIAMS funding for FSHD went up by $1,184,502 or 
381 percent. Total funding for MD by NIAMS increased over the year by 
$1,158,000 or 7 percent.
    NICHD.--In fiscal year 2007, NICHD spent $0 on FSHD and of 
$4,591,826 on all MD. 17 projects, including three Wellstone MDCRC 
centers were funded. FSHD was zero percent of NICHD MD. Total funding 
for FSHD by NICHD was $0. Total funding for MD by NICHD decreased over 
the previous year by $225,756 or 4.7 percent.
    NHLBI.--In fiscal year 2007, NHLBI spent $0 on FSHD and $2.458 
million on MD. FSHD was zero percent of NHLBI fiscal year 2007 MD 
funding. Total funding for FSHD by NHLBI remained at zero dollars. This 
should be of grave concern as respiratory insufficiency and failure is 
becoming increasingly recognized as a cause of poor quality of life 
and, even more significantly, of death in FSHD.
    The MD CARE Act 2001 mandates the Director to intensify efforts and 
research in the muscular dystrophies, including FSHD, across the entire 
NIH. It should be very concerning that only two of the institutes at 
the NIH are funding FSHD. NICHD, NHLBI, NHGRI, NCI and NCRR are all 
aware of the high impact each could have on FSHD. FSHD is certainly 
still far behind when we look at the breadth of research coverage NIH-
wide.
    Centers of Excellence.--Wellstone MD Cooperative Research Centers 
(MDCRCs, U54s) are mandated by the MD CARE Act 2001 and, to date, have 
not been established to cover each of the nine types of MD. There is an 
inequitable distribution of research in each of the muscular 
dystrophies across the Wellstone centers with almost two-thirds of the 
entire center network, four out of six centers, focusing on DMD. FSHD 
has about a five (5) percent share of the entire current Wellstone 
centers portfolio. Today, the NIH has six Wellstone centers, but they 
have almost no presence for FSHD, and nothing at all for related 
dystrophies such as Emery-Dreifuss Muscular Dystrophy (EDMD) and 
Oculopharyngeal muscular dystrophy (OPMD).
    I am here once again to remind you that FSH muscular dystrophy 
(FSHD) is taking its toll on your citizens. FSHD illustrates the 
disparity in funding across the muscular dystrophies and recalcitrance 
in growth over 20 years despite consistent pressure from appropriations 
language and Appropriations Committee questions, and an authorization 
from Congress mandating research on FSHD.
    We implore the Congress to resume the doubling of NIH funding every 
5 years. Under the current budget, research funding percentiles have 
reached the top tenth percentile and higher. With funding pay lines at 
10 percent, plus or minus a few percent, excellent research proposals 
are going unfunded. We request that the Appropriations Committee act 
now to restore the lifeline to biomedical research in the United States 
to avoid an accelerated loss of researchers and clinicians.
    We request that $80 million to $125 million annually be 
appropriated for muscular dystrophy. We all know that for a disease 
area to grow--grant applications must be received and grant 
applications must be funded. The majority of growth in any disease area 
at the NIH is obtained through unsolicited applications. In the widest 
sense, in order for NIH to increase the MD portfolio across the 
missions of applicable and participating institutes more funding is 
needed for the NIH. We request the Appropriations Committee help 
increase the number of unsolicited FSHD and MD grants awarded by 
lowering the pay lines with an increase in the overall pool of funds 
NIH works with.
    We have learned from experience that the FSH Society as a volunteer 
health agency and the patients it represents serves a vital function in 
developing research. We develop an area of research to a point where 
the NIH can then push the research to much greater heights. The FSH 
Society has invested over $2 million in the last 9 years into nearly 70 
post-doctoral and research fellowships and grants. In the last 2 years, 
our understanding of how FSHD mechanistically works has dramatically 
increased. This, in turn, allows researchers to fill the gaps between 
mechanistic knowledge to translational research to clinical trials. 
This knowledge has dramatically increased thanks to the efforts of 
patients, the FSH Society, researchers, clinicians and the NIH. 
Investments from small non-profits like the FSH Society have allowed 
the global funding and initiation of novel challenging and promising 
research in FSHD. Two of the three research projects funded by NINDS 
are past FSH Society research fellows (5-R01-NS048859-04 M. Ehrlich, 5-
R01-NS047584-05 R.G. Tupler). Three of the four research projects 
funded by NIAMS are past FSH Society research fellows (1-R01-AR-52027-
01-A2 Y.W. Chen, 1-R01-AR-56129-01-A2 R.G. Tupler, 1-R21-AR-55876-01 S. 
van der Maarel) and the fourth project came from FSH Society patient 
networking activities (1-R01-AR-55877-01 Public Law Jones).
    We request that the Director of the NIH be more proactive in 
facilitating both unsolicited and solicited grant applications on 
facioscapulohumeral muscular dystrophy, facioscapulohumeral disease, 
FSH muscular dystrophy and FSHD from new and existing investigators and 
through new and existing mechanisms, special initiatives, training 
grants and workshops--to bring knowledge of FSHD to the next level.
    Thanks to your efforts and the efforts of your Committee, Mr. 
Chairman and Mr. Harkin, the Congress, the NIH and the FSH Society are 
all working to promote progress in facioscapulohumeral muscular 
dystrophy research. We are pleased to see FSHD funding from the NIH and 
Federal research agencies gaining traction. FSHD funding is just now 
beginning to grow. Our successes are just beginning and your continued 
support is crucial.
    We ask you to fund biomedical research, fund the National 
Institutes of Health (NIH), fund muscular dystrophy (MD) research, and 
fund facioscapulohumeral muscular dystrophy (FSHD) research.
    Mr. Chairman, thank you for this opportunity to testify before your 
committee.
                                 ______
                                 
                   Prepared Statement of Families USA
    Families USA wishes to thank the subcommittee for the opportunity 
to submit this written testimony concerning federal funding for the 
National Institutes of Health (NIH) and the Centers for Disease Control 
and Prevention (CDC). This statement highlights the importance of the 
medical research that is conducted and supported by NIH and the CDC in 
addressing global health problems, especially infectious disease 
pandemics.
    Since 1982, Families USA has advocated for U.S. policies that 
increase access to affordable health care for all Americans. 
Recognizing that international health affects domestic health, and that 
research conducted by the United States can provide tremendous help to 
people around the world, Families USA launched its Global Health 
Initiative 2 years ago. The Global Health Initiative advocates for 
increased U.S. investment in research and development of medical 
interventions for infectious diseases that disproportionately affect 
low-income countries.
    The drug industry has little interest in investing in diseases that 
predominantly affect low-income countries because there is little 
potential for profit. It is in our nation's self-interest to fill the 
current funding gap and provide the needed resources so that our 
agencies and institutes can continue to conduct necessary global health 
research.
          research: a crucial tool for improving global health
    Turning the tide against complicated, deadly infectious disease 
pandemics such as HIV/AIDS, tuberculosis (TB), and malaria requires a 
comprehensive, multifaceted strategy. Research needs to be the 
cornerstone of any such strategy. Research is the only way to identify 
and develop new medical interventions to diagnose, prevent, and treat 
disease. To make progress in United States and global health, research 
is absolutely crucial.
    Research that yields new and improved medical interventions will 
also increase the effectiveness of U.S. global aid programs that are 
already in place, such as the President's Emergency Plan for AIDS 
Relief (PEPFAR), the President's Malaria Initiative (PMI), and the 
Global Fund to Fight AIDS, TB, and Malaria.
    The National Institute of Allergy and Infectious Diseases (NIAID) 
has taken a leadership role in conducting the bulk of the global health 
research and development activities that are undertaken at NIH. Robust 
funding for NIAID is essential for addressing infectious disease crises 
around the globe and in the United States.
    The Fogarty International Center (``Fogarty''), which is also part 
of NIH, plays a crucial role in addressing global health challenges by 
facilitating collaboration between United States and international 
researchers through its international training and global health 
research capacity building programs. Fogarty's programs facilitate the 
development of medical discoveries worldwide.
    The CDC's global health programs are also vitally important to 
protecting Americans and people around the world from disease. Cuts to 
the CDC's budget undermine both the United States and the global public 
health infrastructures that are crucial to rapidly responding to new 
disease outbreaks and combating existing global pandemics. Yet, some of 
the CDC's global health programs have been flat-funded for years, and 
other global health programs can no longer carry out their critical 
mission due to limited funds.
        global health research matters to our national interests
    Economic Interests.--Many universities across the United States 
receive global health research funding from NIH and the CDC. This 
influx of cash spurs local economies. Moreover, in regions around the 
globe where disease prevalence is greatest, workforces suffer from 
substantially reduced productivity, and economic growth is hindered. In 
today's globalized economy, our economic health is intertwined with the 
economies of other nations.
    Health Interests.--The SARS outbreak that happened in Canada a few 
years ago, and the 2007 incident involving an American traveling 
internationally with multi-drug resistant TB, make it all too clear 
that infectious diseases abroad pose a substantial threat to the United 
States. We desperately need new tools to combat these and other deadly 
diseases.
    National Security and Political Interests.--In areas of the world 
where the infectious disease burden is greatest, the social structure 
of entire countries has been unraveling, paving the way for political 
unrest and undermining democracy in many regions of the world. To 
reverse this trend, we must give NIH and the CDC the resources they 
need to make progress in global health.
    Diplomatic Interests.--We have a national diplomatic interest in 
funding global health research: As the wealthiest country on earth, we 
have the means to advance health and alleviate human suffering. Using 
our wealth to improve global health improves America's image and is an 
effective foreign policy tool.
    Humanitarian Interests.--As a Nation of plenty and the leader of 
the free world, it is unconscionable for us to turn a blind eye to the 
plight of the vast majority of humankind.
    The number of people impacted by infectious diseases is staggering:
  --One billion people are affected by, and many millions are left 
        permanently disabled by, neglected tropical diseases that you 
        may never have heard of--infectious diseases that are found 
        mainly in low-income tropical and subtropical regions. Examples 
        include Chagas disease and leishmaniasis.
  --There are about 350 to 500 million cases of malaria each year, and 
        malaria kills 18 percent of children under age 5 in sub-Saharan 
        Africa.
  --Currently, 33 million people around the world have HIV/AIDS.
  --Tuberculosis (TB) infects people worldwide: One-third of the planet 
        has latent TB and is at risk of developing active TB. The risk 
        of developing active TB is heightened in those with HIV/AIDS 
        and those suffering from malnutrition.
                      how much funding is needed?
NIH--Total Budget
    NIH needs a 6.7 percent increase above its fiscal year 2008 funding 
level across all institutes, centers, and offices, for a total budget 
of $31.1 billion in fiscal year 2009.
    Families USA's Global Health Initiative recommends a 6.7 percent 
increase in funding for fiscal year 2009 across all of NIH. This 
includes a 3.7 percent increase to keep pace with the projected rise in 
inflation from 2008 to 2009, plus an additional 3.0 percent to begin 
correcting for the historic underfunding of NIH (in recent years, the 
NIH budget has not kept pace with inflation).
NIH--Global Health Programs
    NIAID needs an increase of $83.1 million above its fiscal year 2008 
funding level, on top of the overall NIH increase of 6.7 percent, for a 
total budget of $5 billion in fiscal year 2009.
    We determined the necessary funding level for NIAID by examining 
worldwide research needs for HIV/AIDS vaccines and microbicides, 
malaria, TB, and neglected tropical diseases. These research needs are 
based on the assessments of numerous organizations, for example, the 
Global Network for NTD Control, AVAC, IAVI, UNAIDS, the Alliance for 
Microbicide Development, Roll Back Malaria, WHO, and the Stop TB 
Partnership.
    To fully address research needs in these areas (while maintaining 
the agency's current share of the world's public-sector spending), 
NIAID would need $582 million more than it is currently budgeted (on 
top of the overall NIH adjustment of 6.7 percent). To implement this 
increase in a fiscally responsible time frame, our calculations spread 
the $582 million increase over 7 years, yielding $83.1 million per 
year.
    The Fogarty International Center needs an increase of $2.4 million 
above its fiscal year 2008 funding level, on top of the overall NIH 
increase of 6.7 percent, for a total budget of $74 million in fiscal 
year 2009.
    To make progress in combating diseases such as HIV/AIDS, TB, and 
malaria, Fogarty would need a 25 percent increase above its 2008 
funding level. As with the recommended adjustment for NIAID, the 
adjustment for Fogarty would also be spread over 7 years. In 2009, this 
would amount to an additional $2.4 million for Fogarty (on top of the 
overall NIH adjustment of 6.7 percent), or $74.6 million in total 
funding.
The CDC's Global Health Programs
    The CDC's global health programs need a $35.5 million increase 
above their fiscal year 2008 funding levels, for a total budget of 
$337.9 million in fiscal year 2009 (this excludes funds for pandemic 
flu preparedness).
    As with NIH, CDC funding has been shortchanged for many years, 
especially funding for its global health programs. This places the 
Nation's and the World's health at risk.
    Our assessment of gaps in the CDC's current funding and our 
evaluation of its prior funding indicate that CDC's global health 
programs need $142 million more than they have right now, separate and 
apart from any funding for pandemic flu preparedness. However, we 
understand that the realities of the current fiscal environment will 
likely necessitate implementation of any funding increases over 
multiple years. Therefore, we recommend that funding for the CDC's 
global health programs be increased by a total of $142 million over 4 
years, updated annually thereafter for inflation. This amounts to 
$337.9 million in fiscal year 2009, which is a $35.5 million increase 
above fiscal year 2008 funding.
                            call for action
    People across the United States and throughout the world are 
looking to NIH and the CDC for new medical advances that will lead to a 
healthier tomorrow. Shortchanging NIH and the CDC places everyone's 
health at risk. We urge the Subcommittee to fund NIH and the CDC at the 
levels specified above.
                                 ______
                                 
                Prepared Statement of the Friends of CDC
    Chairman Harkin, ranking member Specter, and members of the 
subcommittee, thank you for the opportunity to submit testimony on 
behalf of the Friends of CDC to discuss infrastructure funding for the 
Centers for Disease Control and Prevention (CDC) in the fiscal year 
2009 budget. My name is Oz Nelson, and I am the Retired Chair and CEO 
of United Parcel Service and the Co-Chair of the Friends of CDC.
    I would like to begin my testimony by offering sincere thanks on 
behalf of the Friends of CDC for the efforts of the subcommittee in 
securing funding for CDC Buildings and Facilities in the fiscal year 
2008 Labor, Health and Human Services Appropriations bill. We are 
extremely grateful for your commitment to this important effort.
    Before I tell you more about the condition of the CDC and the need 
for continued Congressional action, I would like to tell you why I am 
involved in this effort and about the Friends of CDC. Following a 1999 
CEO tour of several of CDC's totally inadequate labs and office 
facilities, the Corporate Friends of CDC was organized for the sole 
purpose of highlighting the need for infrastructure funding for the 
Centers for Disease Control at its two Atlanta-based campuses. This 
group currently includes AT&T, United Parcel Service, GE Power Systems, 
The Home Depot, Inc., Cox Enterprises, Inc, Southern Company, 
Theragenics Corporation, and HCA. It is a voluntary, civic minded group 
deeply concerned that the facilities at the nation's premier public 
health institution could be allowed to deteriorate to the point they 
were when this endeavor began.
    Since their formation in 1999, the Friends have advocated with 
officials at CDC, HHS, OMB and Congress for full and timely funding of 
the CDC Buildings and Facilities Master Plan. During the last 8 years 
Congress has appropriated $1.4 billion towards the Master Plan, 
resulting in an historic and far-reaching construction project that has 
changed the face of CDC. But the job is not yet complete. The total 
cost of the Master Plan is $1.7 billion and to that end we are 
requesting $250 million in the fiscal year 2009 budget for improving 
CDC buildings and facilities.
    As you know, the range of CDC's assignments has grown tremendously 
over the past decade. The CDC is on the front lines of defense 
protecting the health of every American because of its ability to 
identify, classify, and recommend courses of action in dealing with a 
potential biological, radiological, or chemical attack in the United 
States or around the world. This being said, several of the CDC 
facilities still do not offer a sufficient level of security or an 
adequate support structure to CDC's scientists.
    Since CDC began executing the Master Plan, a series of threats to 
the nation's health and security have emerged, ranging from terrorist 
attacks, to the rapid spread of the West Nile Virus, to the emergence 
of SARS, Avian Flu, Marburg Virus, and monkeypox. These threats 
continue to challenge CDC's capacity and plainly illustrate the need 
for additional funding to accelerate the CDC's Master Plan and enable 
the CDC to be better prepared and capable of responding to the range of 
public emergencies which the United States is likely to face in the 
coming years.
    In addition to infectious diseases, CDC works on preventing chronic 
diseases such as cardiovascular disease, cancer, and diabetes. Other 
areas of CDC's activities include maximizing the immunization rates of 
children and adults; preventing a wide range of environmental diseases 
by preventing exposure to toxic chemicals; conducting examinations and 
surveys to produce data on the health of Americans; preventing and 
controlling injuries; protecting employees from workplace injuries and 
diseases; and the training of public health and other health care 
workers throughout the country.
    Thanks to your support, CDC is making substantial progress in 
implementing the 10-Year Master Plan for buildings and facilities for 
the Atlanta-based portion of the Centers for Disease Control and 
Prevention. In addition, progress has been made on both the Edward R. 
Roybal Campus near Emory University and the Chamblee Campus in 
construction of new labs and support buildings, upgrades to physical 
security, and upgrades to vital campus infrastructure such as 
electrical power and water.
    The remaining funds needed by CDC to complete the Master Plan would 
be devoted to the following projects. CDC has entered into the planning 
phase for the construction of Buildings 24, 107, and 108. These 
Research Support Facilities will play an important role in allowing the 
CDC to accomplish its goal of providing adequate facilities for its 
workforce. As a result of these capital improvements, the agency will 
be better equipped to achieve its overarching goal of protecting the 
nation's public health.
    Building 24, which will be located on the CDC's Roybal Campus, will 
be occupied by non-laboratory staff from the CDC's Coordinating Center 
for Infectious Diseases (CCID). With a cost of approximately $134 
million, of which $63 million has been appropriated to date, this 
facility will primarily consist of office space for 1,100 occupants. 
Additionally, this facility will replace existing non-laboratory space 
currently being utilized by CCID staff on the Roybal Campus.
    Buildings 107 and 108 will be located on the CDC's Chamblee Campus 
and be occupied by staff from the Coordinating Center for Health 
Promotion (CoCHP), which includes the National Center for Birth Defects 
and Developmental Disabilities (NCBDDD), the National Center for 
Chronic Disease Prevention and Health Promotion (NCCDPHP), and the 
Office of Genomics and Disease Prevention. With a similar design to the 
Environmental Health Facility (Building 106), these research support 
facilities will cost approximately $254 million to complete ($127 
million for each). No money has been appropriated to date for these 
buildings. When completed, the buildings will also house approximately 
2,200 occupants, all of which are currently located in leased office 
space. This is critically important in allowing the agency to 
successfully consolidate many of its staff members from leased space 
into secure, CDC-owned facilities.
    The investment in these facilities is critical to assuring that CDC 
scientists are physically and logistically equipped to protect our 
businesses and our families from the growing threats of terrorism and 
emerging diseases over the coming decades. The Friends of CDC 
respectfully request $250 million in fiscal year 2009 to insure that 
the CDC is better prepared to face its current and prospective public 
health challenges.
    Thank you for the opportunity to submit testimony on behalf of the 
Friends of CDC.
                                 ______
                                 
    Prepared Statement of Friends of the National Institute on Aging
    Chairman Harkin and members of the subcommittee, thank you for the 
opportunity to submit testimony on the important role that the National 
Institute on Aging (NIA) plays among the National Institutes of Health 
(NIH) and the urgent need for increased appropriations to advance 
research supported by the NIA.
    The Friends of the NIA is a coalition of 50 academic, patient-
centered and not-for-profit organizations that conduct, fund or 
advocate for scientific endeavors to improve the health and quality of 
life for Americans as we age. We support the continuation and expansion 
of NIA research activities and seek to raise awareness about important 
scientific progress in the area of aging research currently guided by 
the Institute. Our testimony highlights recent advances resulting from 
NIA funding, as well as negative consequences that could occur if 
Congress does not provide sufficient appropriations for NIA research 
and training activities in fiscal year 2009.
    As you know, the NIA leads national research efforts to better 
understand the nature of aging and to maintain the health and 
independence of Americans as they grow older. NIA's mission is to 
support and conduct a range of genetic, biological, clinical, social 
and economic research related to aging processes and diseases of the 
aged. One area where this mission is clearly reflected is in the 
research efforts of NIA investigators aimed at extending an 
individual's years of healthy life. Projects focused on achieving this 
goal include studies assessing the beneficial age-related effects of 
reducing caloric intake in laboratory animals, as well as the testing 
of compounds in these subjects with the potential to extend the years 
of disease-free life. Both approaches have produced promising results 
in a number of animal species, and may lead to insights into 
potentially beneficial human applications. By capitalizing on such 
successful studies and the identification of genes that influence 
longevity, investigators hope to delay the onset of disease and 
disability associated with human aging.
    Many challenges will arise as Americans reach retirement age in 
increasing numbers. Currently, there are approximately 36 million 
Americans aged 65 and older. That group is expected to double in size 
within the next 25 years, at which time at least 20 percent of the U.S. 
population will be older than 65. Of particular concern is the dramatic 
growth that is anticipated among those age 85 and over. By 2050, 19.4 
million Americans will be over the age of 85. If rapid discoveries are 
not made now to reduce the prevalence of debilitating age-related 
disorders, the health-related costs associated with caring for the 
oldest and sickest Americans will place an unmanageable burden on 
patients, their families, and our fragile health care system. However, 
with proper investment further advances in the area of longevity 
science could yield tremendous health and economic benefits by 
shortening the period during which humans suffer from costly, 
debilitating diseases.
    The single largest driver of healthcare costs in the United States 
is Alzheimer's disease. The NIA has been a leader in basic, 
translational, and clinical research focused on facilitating early 
diagnosis of Alzheimer's disease and developing more effective 
therapies and strategies for Alzheimer's prevention. NIA-supported 
research in this area remains focused on efforts to speed delivery of 
novel Alzheimer's therapies to patients. In fiscal year 2009 the NIA 
will continue its pre-clinical drug development program and pilot 
trials initiative, along with a cooperative agreement to conduct new 
clinical trials through the Alzheimer's Disease Cooperative Study. In 
addition, the NIA will advance work under the Alzheimer's Disease 
Neuroimaging Initiative (ADNI), which has provided necessary 
neuroimaging tools to view disease processes and assist researchers in 
developing and monitoring emerging treatments. NIA will also continue 
the Alzheimer's Disease Genetics Initiative (GI), which was established 
to identify the genes that contribute to the most common form of AD, 
late-onset. The need for progress in these areas becomes ever more 
important as the extraordinary costs to patients and families continue 
to grow.
    Medicare spending on beneficiaries with Alzheimer's climbs 
steadily, reaching more than $189 billion over the next decade. 
Adequate sustained resources must be provided in order for these 
programs to one day provide relief to the 5.2 million patients and 
their families currently living with Alzheimer's. If the onset of 
Alzheimer's could be delayed by 5 years, the projected population that 
is expected to suffer from the disease could be cut in half. If 
researchers are successful in achieving a modest delay in the rate of 
aging, health and economic benefits would be achieved that are greater 
than what would result from the elimination of cancer or heart disease 
alone. To achieve these powerful results, meaningful investments in 
aging research must be made now. Scientists are poised to make 
breakthroughs in the prevention and treatment of a host of age-
associated diseases and conditions, but without sufficient funding for 
aging research, Americans are unlikely to see these breakthroughs occur 
during their lifetime.
    Healthy longevity and Alzheimer's disease are just two of the NIA's 
important focus areas. Other promising research efforts supported by 
the NIA include projects to discover new Parkinson's and neurological 
disease susceptibility genes; to study the environmental risk-factors 
and genetic predisposition to obesity; and to uncover how the interplay 
between neurons and inflammatory immune cells can be harnessed to 
improve stroke outcomes. All of these conditions are prevalent among 
older adults and take a tremendous toll in health costs and lost 
quality of life.
    Other work of critical importance conducted and funded by the NIA 
is in the area of behavioral and social science research. The NIA's 
behavioral and social science research programs have been instrumental 
in providing essential data on the socioeconomic and demographic 
implications of an aging population. These data are used by 
policymakers at all levels of government, including, at the Federal 
level, the Social Security Administration, Centers for Medicare and 
Medicaid Services, and Department of State, to inform the development 
and evaluation of public policy. Much of the productivity of the BSR 
program is attributable to researchers supported via its network of 
research centers, such as the Demography of Aging Centers, Roybal 
Centers for Applied Gerontology and Resource Centers for Minority Aging 
Research. The BSR program also supports large, accessible datasets 
utilized by scientists worldwide. One of the largest datasets, the 
Health and Retirement Study (HRS), is the leading source of combined 
data on health and financial circumstances of Americans over age 50 and 
a valuable resource to follow and predict trends for an aging America. 
NIA also partners with the U.S. Census Bureau on joint demographic 
studies of the elderly population and the Federal Forum on Aging, which 
is composed of 13 Federal departments and agencies, and collects, 
provides, and analyzes aging-related data. Data from these surveys are 
particularly important for understanding the budgetary impact of 
population aging. They also help Congress in budgetary considerations 
of population aging as it deliberates potential changes to public 
programs such as Social Security, Medicare, and Medicaid. With 
consistent funding, these surveys can continue to be seminal sources of 
information on the health and socioeconomic status of older Americans.
    In the area of geriatrics and clinical gerontology, the NIA's work 
this year will be centered on reducing disease and disability among 
older people. This is critically important because the United States 
spends approximately $26 billion per year on Medicare beneficiaries who 
lose the ability to remain fully independent. As individuals age, their 
risk for suffering from many diseases and disabling conditions 
increases dramatically. NIA's Geriatrics and Clinical Gerontology (GCG) 
Program examines age-related physical changes and their relationship to 
health outcomes, the maintenance of health and the development of 
disease, and specific age-related risk factors for disease. In fiscal 
year 2009 the NIA plans to initiate studies to determine why the 
elderly develop dangerous blood clots in their veins and arteries; to 
continue research increasing understanding of the unidentifiable causes 
of anemia in the elderly; and to conduct studies in nutrition, weight 
loss and exercise to measure their role in preventing age-related 
diseases like heart disease and certain cancers.
    Since the end of the NIH's budget doubling in 2003, funding has 
been on a downward trajectory and many of the areas of research 
mentioned earlier have been impacted despite prioritization by the NIA. 
In the 5 years through 2008, a series of nominal increases and cuts has 
amounted to flat funding for NIH, and as a result it has lost 
approximately 11 percent in purchasing power due to inflation alone. 
For the NIA specifically, flat budgets are to blame for a 12.9 percent 
reduction in constant dollars for the Institute between fiscal year 
2003 and fiscal year 2009. To operate in this environment the NIA and 
other institutes have not been able to fund increasing numbers of high-
quality research grants each year. Those that are funded are subject to 
cost containment policies that decrease the funding level of new grants 
and reduce the funding level of existing grants. The NIA in particular 
must implement an 18 percent cut on average in recommended funding for 
individual competing grants.
    NIH is the primary funder of biomedical research in this country. 
Approximately 85 percent of its budget goes to support investigators at 
universities and medical centers across the United States. But 
declining budgets are impeding progress. Because of a scarcity of 
resources, the overall success rate for NIH research grant applications 
has fallen from 32 percent to 24 percent since 1999. This means that 
only one in four research proposals can be funded by the NIH and fewer 
of them are funded on the first submission. The effect of this has been 
reluctance on behalf of new investigators to submit truly ground-
breaking research proposals for consideration. While we recognize that 
there is enormous competition for Congressional appropriations each 
year, we believe that a continued slowdown in funding for the NIH will 
have a devastating impact on the rate of basic discovery and the 
development of interventions that could have the significant public 
health benefits for our aging population.
    The Friends of the NIA supports a 6.6 percent increase in funding 
to $31.1 billion for the NIH in fiscal year 2009. Such an increase 
would prevent the estimated 3.6 percent loss that the NIH will 
experience this year without an inflationary increase. This increase 
would begin to restore the NIH's ability to pursue new basic, 
translational, and clinical research opportunities. The $31.1 billion 
would also allow the National Institute on Aging specifically to 
increase support of new and existing investigator initiated research 
projects and better facilitate the acceleration of discoveries to 
prevent, treat, and potentially cure a wide range debilitating age-
related diseases and conditions among our growing population of older 
Americans.
    Mr. Chairman, the Friends of the NIA thanks you for this 
opportunity to outline the challenges and opportunities that lie ahead 
as you consider the fiscal year 2009 appropriations for the NIH and we 
would be happy to furnish additional information upon request.
                                 ______
                                 
Prepared Statement of Friends of the National Institute for Dental and 
                         Craniofacial Research
    Chairman Harkin and distinguished Members of the Committee, the 
members of the Friends of the National Institute of Dental and 
Craniofacial Research (FNIDCR), a leading coalition of individuals, 
corporations, and institutions that understands the importance of 
dental, oral, and craniofacial health to our society, are requesting 
that fiscal year 2009 funding for the National Institute of Dental and 
Craniofacial Research (NIDCR) be appropriated at our recommended level 
of $438 million, which is 1.5 percent of the total budget for the 
National Institutes of Health (NIH).
    As it stands, the president's recommended level of fiscal year 2009 
funding for NIDCR, $390,535,000, is woefully inadequate and it is $6 
million below fiscal year 2008 funding that Congress passed last year. 
Moreover, it represents only 1.33 percent of NIH's total budget. In 
fact, as NIH's budget doubled between 1998 and 2003, NIDCR's total 
budget decreased 13 percent. Since 2003, NIDCR funding has essentially 
flat-lined.\1\
---------------------------------------------------------------------------
    \1\ American Dental Education Association.
---------------------------------------------------------------------------
                   nidcr: a renown leader in research
    For 60 years, NIDCR has been the leading sponsor of research and 
research training in biomedical and behavioral sciences. Its mission is 
to ``improve oral, dental and craniofacial health through research, 
research training, and the dissemination of health information.''
    NIDCR meets its mission by:
  --Performing and supporting basic and clinical research;
  --Conducting and funding research training and career development 
        programs to ensure an adequate number of talented, well-
        prepared and diverse investigators is sustained;
  --Coordinating and assisting relevant research and research-related 
        activities among all sectors of the research community; and
  --Promoting the timely transfer of knowledge gained from research and 
        its implications to health professionals, researchers, and 
        policy-makers; and on the overall well-being of our society.
                    nidcr research benefits society
    Proper federal funding of NIDCR will transform the future of 
medical and dental practice to the benefit of our society and ease the 
burden on our nation's healthcare system. Examples of where NIDCR 
research has benefited, and will continue to benefit, society are:
    Tooth Decay.--Fluorides and sealants have cut the rate of the 
number of American adults, aged 45 and older, who are without teeth by 
more than half since 1950s.
    Oral Cancer Detection.--Twenty-two Americans die each day from oral 
cancer, and 39,000 people develop it every year. Survival rates are 
among the lowest of all the major cancers. It is difficult to detect 
and hard to predict its outcome.
    NIDCR-supported research has yielded initial success with 
developing a fully-automated, all-in-one test device that can alert 
dentists if oral cancer is in the early stages of development in a 
patient. The portable device, which probes cells brushed from the mouth 
for a common sign of oral cancer, yields results in under ten minutes. 
Currently, a painful tissue biopsy is the method used to detect oral 
cancer and the results take days; not minutes.
    Salivary Diagnostics.--The promising prospect of using saliva as a 
diagnostic fluid to identify an emerging disease is an example of the 
type of cutting-edge research being conducted and supported by NIDCR. 
Salivary Diagnostics possesses advantages over traditional blood 
testing, including the absence of needles and the ability to be 
administered on-the-spot.
    Genome-wide Association Studies.--NIDCR is supporting the first 
genome-wide association studies on cleft lip/cleft palate and dental 
carries. This is being done in collaboration between epidemiologists, 
geneticists, informatics experts, and environmental scientists. The 
studies offer significant potential for understanding the molecular and 
genetic basis of cleft lip/cleft palate and dental carries with the 
goal of improving the ability to predict and manage them.
    Moreover, NIDCR research benefits millions of Americans with:
  --Periodontal Disease
  --Chronic Dry Mouth
  --Chronic Facial and Oral Pain, and
  --Bone and Cartilage Regeneration
    All of these diseases and ailments lead to two million 
hospitalizations and 100,000 deaths annually at a cost of $100 billion 
to our nation's healthcare system.
Oral Health Disparities Centers
    Finally, through community-based disparities research funded by 
NIDCR, a difference is being made in meeting the health needs of our 
nation's low-income, underserved, and high-risk populations. Sadly, 
this need was made apparent with the tragic passing of 12-year-old 
Deamonte Driver who died from a tooth infection in 2007.
    NIDCR is committed to eventually eliminating oral health 
disparities by planning to fund Centers to Reduce Oral Health 
Disparities this summer. The Centers will continue to perform 
interventions to determine the best methods for preventing oral disease 
and applying research findings in communities with health disparities.
                             recommendation
    Simply stated, proper funding of the National Institute for Dental 
and Craniofacial Research is essential to the overall health and well-
being of our fellow Americans. Moreover, we firmly contend that medical 
discoveries and advances from NIDCR funding lead to improvements in 
dental practices and change the scope of public health policies across 
the nation. Whether it is detecting a clear link between bacteria in 
the mouth and heart disease--or discovering how saliva can be used as 
an indicator of how healthy a human being is--we all benefit when we 
make oral health research a priority.
    Therefore, based upon the merits of the research conducted by 
NIDCR, we respectfully request the Subcommittee to fund NIDCR at $438 
million, or 1.5 percent of the total NIH budget, so that it can realize 
the full potential of its worthy mission.
    Thank you for the opportunity to present our written testimony 
before the Subcommittee.
                                 ______
                                 
               Prepared Statement of Patricia S. Harrison
    On behalf of our country's public broadcasting system, I want to 
thank Chairman Tom Harkin and ranking member Arlen Specter for allowing 
me to submit this written testimony in support of the Corporation for 
Public Broadcasting's (CPB) fiscal year 2009 appropriations requests.
    Mr. Chairman and members of the subcommittee, it is no secret that 
the media landscape is changing at a rapid pace. Public broadcasting, 
or what we now like to call ``public service media,'' was established 
40 years ago as a change agent, focused on providing ``programs and 
services which inform, enlighten and enrich the public'' as an antidote 
to what former Federal Communications Commission Chairman Newton Minow 
referred to as the ``vast wasteland.'' Today, the wasteland remains in 
a much larger and ever-evolving scale, but the good news is so does our 
mission. What remains evergreen, in the midst of this rapid change, is 
public service media's authenticity and our connection to our audience, 
a connection that has been there from the beginning. That is why our 
traditional broadcast platforms continue to serve millions of people 
each week with the high quality content we are known for. At the same 
time, we have a long track record of supporting innovative efforts to 
use digital media in even more creative ways to respond to community 
needs. This new landscape can also facilitate a renewed partnership 
with the American people, reaching diverse audiences and learning from 
them.
    Public media's commitment to education is historic and continues 
today preparing children from low income families to succeed in school. 
Ninety seven percent of the nation's public television stations are 
utilizing new media applications to deliver educational services to 
their communities. Through Ready to Learn, children are being prepared 
to learn before they begin kindergarten. This year, Reading is 
Fundamental (RIF) honored Iowa Public Television and KUED-TV (Salt 
Lake) as two of 25 Programs of Excellence. Each year RIF honors 
projects for successfully partnering with outside organizations to 
advance children's literacy in their communities. The 25 were selected 
from approximately 3,500 RIF programs nationwide.
    We are preparing children to learn and measuring the results. In 
communities throughout the country, stations like Maryland Public 
Television are providing summer reading camps where children experience 
that learning can be fun. And educating does not stop at primary 
school. Vegas PBS Virtual High School launched in 1996, by request of 
the local Clark County School District (CCSD), to help lower their 9 
percent dropout rate. In the first year 238 students enrolled in the 
four ``most failed'' high school courses. As of 2007 the program 
expanded to include a catalog of 60 courses offered via VHS, DVD, on 
demand broadband and live interactive Internet offerings. In the last 3 
years, between 5,000 and 7,000 were served. In 2005, a parallel program 
offering online Advanced Placement courses was joined with the Vegas 
PBS offerings to create the CCSD Virtual High School. Last year all but 
one of the 38 comprehensive 4 year high schools in Clark County (the 
nation's 5th largest school district) had between one and 22 graduates 
who received their degree as a result of taking two or more Virtual 
High School classes. Further, our community focused stations are 
dealing with other issues that impact at a local level, whether the 
issue is healthcare or help for children with disabilities. Because of 
a KETC-TV (St. Louis) health initiative, viewers learned about the 
danger of high blood pressure and the need to get regular screening. A 
Head Start childcare provider credits this program and the outreach 
beyond the broadcast with saving her life.
    Many stations are taking a page from Ideastream, a joint venture 
between public television and radio in Cleveland, Ohio, which is 
leading the way in a coalition of concerned organizations and corporate 
partners to reverse the decline in science, technology, engineering and 
math (STEM) achievement of students in the state. Another STEM 
Collaborative--including Maryland Public Television, Alabama Public 
Television, Arkansas Public Television, and Kentucky Public 
Television--is working to build a library of digital education material 
for middle school math students that will be useful to middle school 
students in those states and across the country.
    As President and CEO of CPB, I have seen firsthand how public 
service media is filling an important need on behalf of America's 
teachers, children, families and communities. We serve as a vital 
community connector and in some states, a lifeline on issues impacting 
our families, our children's education and safety, our health and 
environment. At a time of great economic uncertainty, we are there 
helping beyond the broadcast with tangible help. In this important 
election year, stations are serving as a reliable and trusted source 
for information. Throughout 2008, for example, Wisconsin Public 
Television and Wisconsin Public Radio have joined to provide that 
state's citizens with programming related to local and national 
elections. In addition, a one-stop voter information website, 
wisconsinvote.org, launched in January 2008, is the centerpiece of 
Wisconsin public broadcasting's efforts.
    In our ongoing conversation with the American people we are asking 
them how we can serve them even better as our society continues to deal 
with new challenges. And they are responding through the first ever 
public awareness initiative, telling us how public media serves as 
their ``source'' throughout the year for news beyond a soundbite, for 
opportunities for their children and for help in times of national 
emergency.
    Station facilities are increasingly serving as community centers, 
where partnerships with other organizations are fostered to help youth 
or seniors, or address an issue impacting the community. Further, 
thousands of hours of community service programming, including millions 
of dollars of investment in education are directly employed at a local 
level to make a difference. Public media, on air and online, through 
content that matters, is a national treasure--a treasure that has a 
real and lasting impact on American families.
    Accordingly, with the support of the public broadcasting system, 
CPB has begun to invest in public broadcasting stations' essential--but 
not widely known--work in communities across America to increase 
recognition of public broadcasting as a valuable resource that informs, 
enlightens and enriches public life. In fiscal year 2008, through this 
public awareness initiative, we are working with stations to develop 
models of community engagement that will increase the public's 
understanding of the role of public broadcasting stations in their 
communities.
    However, if public media is going to continue to deliver on its 
promise to serve the American people, to treat them as citizens and not 
just as consumers, and to provide a safe place where children can 
learn, a continued and increased federal investment in this national 
treasure is essential. American public service media is a collection of 
over 1,150 locally-owned television and radio stations that deliver 
free, universally available, non-commercial, high quality programming 
and services to communities throughout the country. Each week, more 
than 80 million Americans view public television and more than 27 
million listen to public radio for programming that covers public 
affairs, science, history and the arts. Many others access our rich 
array of web sites, classroom media, activity guides for parents and 
caregivers, job training services and GED programs. From a federal 
investment currently amounting to less than $2.00 per American a year, 
public broadcasting leverages $2.3 billion in programming and services.
                       request for appropriations
    CPB requests a $483 million advance appropriation for fiscal year 
2011. This amount represents a 15 percent increase over the $420 
million advance appropriation provided for fiscal year 2010, and comes 
after several years of flat funding, which has left public broadcasters 
struggling to serve their communities' existing needs, while 
simultaneously providing additional services made possible by the 
digital revolution. CPB has received advance appropriations since the 
mid-1970's, and we believe this practice remains essential. It ensures 
the continued existence of a political firewall, protecting public 
broadcasting's autonomy in programming decisions, and it affords public 
broadcasters--who raise approximately 84 percent of their revenues from 
non-federal sources--a key measure of certainty in their business 
planning.
    CPB has been concerned about public broadcasting's uncertain 
financial picture, caused by both funding shortfalls and the demands of 
the digital transition. To better understand these challenges, CPB 
engaged Booz Allen Hamilton to conduct a financial assessment of public 
broadcasting, looking at current conditions and forecasting financial 
trends for the fiscal year 2011-2015 timeframe. The assessment 
projected current trends into the future, and more importantly 
considered the additional costs of the new services public broadcasters 
expect to deliver to their communities.
    The assessment team examined types and levels of services that 
public broadcasters will seek to provide to their communities. These 
included providing additional educational content, increased use of 
both television and radio multicasting to deliver additional content, 
increased use of emerging media platforms to reach new users and 
increased use of news/talk format by radio stations. Booz Allen found 
that, assuming a current level of service and no increase in CPB's 
appropriation, the public broadcasting system would see a deficit 
beginning in fiscal year 2011. This projection does not take into 
account the opportunity for public broadcasters to further benefit 
their communities through increased services made possible by digital 
technology. Booz Allen estimated that these plans would require 
significant increases in both CPB's appropriation and other funding 
sources. Together, these total approximately $3 billion in fiscal year 
2011. Although the Public Broadcasting Act of 1967 envisions a greater 
level of federal support of public broadcasting (up to 40 percent), in 
recent years the federal contribution through the CPB appropriation has 
amounted to about 16 percent of public broadcasting revenues. On this 
basis, we are requesting that the CPB appropriation rise to $483 
million in fiscal year 2011.
    As you know, CPB's general appropriation is allocated according to 
a statutory formula that ensures funds go directly to the people and 
organizations that create and deliver highly valued programs and 
services. The Public Broadcasting Act of 1967 directs that over 70 
percent of CPB funds go directly to public television and radio 
stations as community service grants. The Act also directs 6 percent of 
our appropriation to system support activities such as station 
interconnection operating grants, music copyright fees, Independent 
Television Services (ITVS) administration and the Minority Consortia.
    In addition to our base appropriation, CPB is requesting $40 
million in fiscal year 2009 for the continuing conversion to digital 
technology. While 95 percent of television transmitters and 75 percent 
of radio transmitters have been converted, this is only a part of the 
challenge. CPB research from Fall 2007 indicates that public television 
stations will require up to $90 million in additional funding to 
complete their primary stations' basic transition to digital and they 
will also need equipment to participate in the Department of Homeland 
Security's Digital Emergency Alert System project. In addition, rural 
television and radio stations will begin converting over 1,600 
translators, which relay the primary station signal to remote areas. 
Both television and radio stations will also need funding for equipment 
that will allow them to provide programming on multiple streams to take 
advantage of their digital capacity. Additionally, CPB seeks to further 
develop the American Archive project, which would digitize, store and 
make available a treasure trove of public broadcasting content for 
educational, cultural and entertainment uses.
    CPB also requests $27 million as the second installment of an 
anticipated three-year $73 million funding request for the replacement 
of public radio's interconnection system. CPB is statutorily obligated 
to provide for the interconnection needs of public broadcasters.
    Finally, CPB is requesting $32 million in fiscal year 2009 for 
Ready To Learn (RTL), the goal of which is to raise the reading levels 
of children ages 2-8 who live in high-poverty environments. Ready To 
Learn is a partnership between CPB, the Public Broadcasting Service 
(PBS) and the U.S. Department of Education. We are working in 
collaboration with WGBH (Boston), Sesame Workshop and Out of the Blue 
Enterprises, leading reading and media researchers and 20 local public 
broadcasting stations. In 2008, we will launch the new multi-platform 
children's series: Martha Speaks and in January 2009, The New Electric 
Company. We also anticipate delivering a new pre-K reading curriculum, 
expanding the reach of summer reading camp for kids and launching a new 
website called PBS KIDS Island, readytolearnreading.org, that will 
allow parents and caregivers a way to see what their children are 
learning by offering kids a structured path for reading game play. We 
will continue to test the effectiveness of RTL resources in 20 target 
markets that have been selected from throughout the country based on 
low National Assessment of Educational Progress reading scores, 
significant populations of children in poverty, and local stations that 
are proven leaders in delivering quality educational services to their 
community.
    Thank you again for your consideration of these requests. The 
continued federal investment in this system will ensure that Americans, 
whatever their age, ethnicity or economic status, will have access to 
quality television and radio services for themselves and their 
families. Your investment will ensure that our country's public service 
media will continue to educate, entertain, and inform, and move us to 
do more for our communities and country, inspiring us to be citizens, 
not just consumers.
                                 ______
                                 
             Prepared Statement of the Heart Rhythm Society
    The Heart Rhythm Society (HRS) thanks you and the Subcommittee on 
Labor, Health and Human Services and Education for your past and 
continued support of the National Institute of Health, and specifically 
the National Heart, Lung and Blood Institute (NHLBI).
    The Heart Rhythm Society, founded in 1979 to address the scarcity 
of information about the diagnosis and treatment of cardiac 
arrhythmias, is the international leader in science, education and 
advocacy for cardiac arrhythmia professionals and patients, and the 
primary information resource on heart rhythm disorders. The Heart 
Rhythm Society serves as an advocate for millions of American citizens 
from all 50 States, since arrhythmias are the leading cause of heart-
disease related deaths. Other, less lethal forms of arrhythmias are 
even more prevalent, account for 14 percent of all hospitalizations of 
Medicare beneficiaries.\1\ Our mission is to improve the care of 
patients by promoting research, education and optimal health care 
policies and standards. We are the preeminent professional group, 
representing more than 4,200 specialists in cardiac pacing and 
electrophysiology.
---------------------------------------------------------------------------
    \1\ Heart Rhythm Foundation, Arrhythmia Key Facts, 2004 http://
www.heartrhythmfoundation.org/facts/arrhythmia.asp.
---------------------------------------------------------------------------
    The Heart Rhythm Society recommends the subcommittee renew its 
commitment to supporting biomedical research in the United States and 
recommends for fiscal year 2009 Congress provide NIH with $31.1 
billion, a funding increase of 6.5 percent. This translates into an 
increase of $3.1 billion for the National Heart, Lung, and Blood 
Institute. This increase will enable NIH and NHLBI to sustain the level 
of research that leads to research breakthroughs and improved health 
outcomes. In particular, the Heart Rhythm Society recommends Congress 
support research into abnormal rhythms of the heart.
    HRS appreciates the actions of Congress to double the budget of the 
NIH in recent years. The doubling has directly promoted innovations 
that have improved treatments and cures for a myriad of medical 
problems facing our nation. Medical research is a long-term process and 
in order to continue to meet the evolving challenges of improving human 
health we must not let our commitment wane. Furthermore, NIH research 
fuels innovation that generates economic growth and preserves our 
nation's role as a world leader in the biomedical and biotech 
industries. Healthier citizens are the key to robust economic growth 
and greater productivity. Economists estimate that improvements in 
health from 1970 to 2000 were worth $95 trillion. During the same time 
period, the United States invested $200 billion in the NIH. If only 10 
percent of the overall health savings resulted from NIH-funded 
research, our investment in medical research has provided a 50-fold 
return to the economy.\2\
---------------------------------------------------------------------------
    \2\ Murphy, KM and Topel, RH, The Value of Health and Longevity, 
National Bureau of Economic Research Working Paper Series, Working 
Paper 11405, June 2005.
---------------------------------------------------------------------------
    Unfortunately, since the end of the doubling in 2003, funding for 
NIH has failed to keep pace with biomedical inflation. As a result 13 
percent of NIH's purchasing power has been lost. Because of this NIH 
has been unable to fully fund existing multi-year grants, thus stalling 
life-saving discoveries. If these vacillations in funding continue, 
future generations of researchers will become discouraged from pursuing 
a career in basic science and laboratories' resources could be strained 
to the point of forcing lay-offs and even closure.
                        research accomplishments
    In the field of cardiac arrhythmias, NIH-funded research has 
advanced our ability to treat atrial fibrillation and thus prevent the 
devastating complications of stroke. Atrial fibrillation is found in 
about 2.2 million Americans and increases the risk for stroke about 5-
fold. About 15-20 percent of strokes occur in people with atrial 
fibrillation. Stroke is a leading cause of serious, long-term 
disability in the United States and people who have strokes caused by 
AF have been reported as 2-3 times more likely to be bedridden compared 
to those who have strokes from other causes. Each year about 700,000 
people experience a new or recurrent stroke and in 2002 stroke 
accounted for more than 1 of every 15 deaths in the United States. 
Ablation therapy however is providing a cure for individuals whose 
rapid heart rates had previously incapacitated them, giving them a new 
lease on life.\3\
---------------------------------------------------------------------------
    \3\ American Stroke Association and American Heart Association, 
Heart Disease and Stroke Statistics--2005 Update, 2005 http://
www.americanheart.org/downloadable/heart/
1105390918119HDSStats2005Update.pdf.
---------------------------------------------------------------------------
    Important advances have also been made in identifying patients with 
heart failure and those who have suffered a heart attack and are at 
risk for sudden death. The development, through initial NIH-sponsored 
research, and implantation of sophisticated internal cardioverter 
defibrillators (ICD's) in such patients has saved the lives of hundreds 
of thousands and provides peace of mind for families everywhere, 
including that of Vice-President Cheney's. A new generation of 
pacemakers and ICDs is restoring the beat of the heart as we grow 
older, permitting us to lead more normal and productive lives, reducing 
the burden on our families, communities and the healthcare system. 
Arrhythmias and sudden death affect all age groups and are not solely 
diseases of the elderly.
    Research advances in molecular genetics have provided us the root 
basis for life-threatening abnormal rhythms of the heart associated 
with of wide range of inherited syndromes including long and short QT, 
Brugada syndromes, and hypertrophic cardiomyopathies. Inroads have been 
achieved in the identification of cardiac arrhythmias as a cause of 
Sudden Infant Death Syndrome (SIDS) and the genetic basis for a new 
clinical entity associated with sudden death of young adults was 
uncovered earlier this year. This knowledge has provided guidance to 
physicians for better detection and treatment of these sudden death 
syndromes reducing mortality and disability of infants, children and 
young adults. Individuals who survive an instance of sudden death often 
remain in vegetative states, resulting in a devastating burden on their 
families and an enormous economic burden on society. These advances 
have translated into sizeable savings to the health care system in the 
United States. Researchers are also developing a noninvasive imaging 
modality for cardiac arrhythmias. Despite the fact that more than 
325,000 Americans die every year from heart rhythm disorders, a 
noninvasive imaging approach to diagnosis and guided therapy of 
arrhythmias, the equivalent of CT or MRI, has previously not been 
available.
    The NIH-funded Public Access Defibrillation (PAD) Trial was also 
able to determine that trained community volunteers increase survival 
for victims of cardiac arrest. It had already been known that 
defibrillation, utilizing an automated external defibrillator (AED), by 
trained public safety and emergency medical services personnel is a 
highly effective live-saving treatment for cardiac arrest. A NIH-funded 
trial however was able to conclude that placing AED's in public places 
and training lay persons to use them can prevent additional deaths and 
disabilities.\4\
---------------------------------------------------------------------------
    \4\ National Heart Lung and Blood Institute, NIH, Public Access 
Defibrillation by Trained Community Volunteers Increases Survival for 
Victims of Cardiac Arrest, November 2003 http://www.nhlbi.nih.gov/new/
press/03-11-11.htm.
---------------------------------------------------------------------------
    Without NIH support, these life-saving findings may have taken a 
decade to unravel. The highly focused approach utilizing basic and 
clinical expertise, funded through Federal programs made these advances 
a reality in a much shorter time-period.
                          budget justification
    These impressive strides notwithstanding, cardiac arrhythmias 
continue to plague our society and take the lives of loved ones at all 
ages, nearly one every minute of every day, as well as straining an 
already burdened health system. Sudden Cardiac Arrest is a leading 
cause of death in the United States, claiming an estimated 325,000 
lives every year, or one life every 2 minutes.\5\ The burden of 
morbidity and mortality due to cardiac arrhythmias is predicted to grow 
dramatically as the baby boomers age. Atrial fibrillation strikes 3-5 
percent of people over the age of 65,\6\ Apresenting a skyrocketing 
economic burden to our society in the form of healthcare treatment and 
delivery. Cardiac diseases of all forms increase with advancing age, 
ultimately leading to the development of arrhythmias. Effective drug 
therapy for the management of atrial fibrillation is one of the 
greatest unmet needs in our society today and additional research is 
needed to address this problem. NIH research provides the basis for the 
medical advances that hold the key to lowering health care costs.
---------------------------------------------------------------------------
    \5\ Heart Rhythm Foundation, The Facts on Sudden Cardiac Arrest, 
2004 http://www.heartrhythmfoundation.org/its_about_time/pdf/
provider_fact_sheet.pdf.
    \6\ Heart Rhythm Society, Atrial Fibrillation & Flutter, 2005http:/
/www.hrspatients.org/patients/heart_disorders/atrial_fibrillation/
default.asp.
---------------------------------------------------------------------------
    The above progress we have witnessed in recent years will provide 
treatments for this illness, only if the resources continue to be 
available to the academic scientific and medical community. However, 
the budgets appropriated by Congress to the NIH in the past 3 years 
were far below the level of scientific inflation. These vacillations in 
funding cycles threaten the continuity of the research and the momentum 
that has been gained over the years. While HRS recognizes that Congress 
must balance other priorities, sustaining multi-year growth for the 
biomedical research enterprise is critical. A central objective of the 
doubling of the NIH budget was to accelerate solutions to human disease 
and disability. NIH is now engaging in the next generation of 
biomedical research to translate basic research and clinical evidence 
into new cures. Our ability to bring together uniquely qualified and 
devoted investigators and collaborators both at the basic science level 
and in the clinical arena is a vital key to our to this success. 
Funding models however show that a threshold exists, below which NIH 
will not be able to maintain its current scope and number of grants, 
let alone expand its programs to address new concerns and emerging 
opportunities. Furthermore, the United States is in danger of losing 
its leadership role in science and technology. The United States faces 
growing competition from other nations, such as China and India, which 
are working to invest more of their GDP's into building state-of-the 
art research institutes and universities to foster innovation and 
compete directly for the world's top students and researchers.\7\
---------------------------------------------------------------------------
    \7\ Task Force on the Future of American Innovation, The Knowledge 
Economy: Is the United States Losing it's Competitive Edge?, February 
16, 2005.
---------------------------------------------------------------------------
    It is for this reason that we are asking for your support to 
increase NIH appropriations by 6.5 percent for a fiscal year 2009. The 
Heart Rhythm Society recommends Congress specifically acknowledge the 
need for cardiac arrhythmia research to prevent sudden cardiac arrest 
and other life threatening conditions such as sudden infant death 
syndrome, definitive therapeutic approaches for atrial fibrillation and 
the prevention of stroke, and other genetic arrhythmia conditions. 
Thank you very much for your consideration of our request.
    If you have any questions or need additional information, please 
contact Nevena Minor, Manager of Legislative Affairs at the Heart 
Rhythm Society (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4f21222621203d0f273d3c20212326212a61203d28">[email&#160;protected]</a> or 202-464-3431).
    Thank you again for the opportunity to submit testimony.
                                 ______
                                 
            Prepared Statement of the Hepatitis B Foundation
    This testimony is being provided to highlight the urgent need to 
address the public health challenges of chronic hepatitis B by 
strengthening programs at the Centers for Disease Control and 
Prevention, and the National Institutes of Health.
    Mr. Chairman and members of the subcommittee, thank you for giving 
the Hepatitis B Foundation (HBF) the opportunity to testify as the 
subcommittee begins to consider funding priorities for fiscal year 
2009.
    My name is Dr. Timothy Block, and I am the volunteer President and 
Co-founder of the Hepatitis B Foundation (HBF) and its research 
institute. I am also a professor at Drexel University College of 
Medicine. My wife, Joan, and I and another couple, Paul and Janine 
Witte, from Pennsylvania started the Hepatitis B Foundation more than 
18 years ago because someone very close to us was affected.
    Today, the HBF is still the only national nonprofit organization 
solely dedicated to finding a cure and improving the lives of those 
affected by hepatitis B worldwide through research, education and 
patient advocacy. Our scientists focus on drug discovery for hepatitis 
B and liver cancer, and early detection markers for liver cancer; 
outreach staff manages a comprehensive website which receives almost 1 
million visitors each year and a national patient conference; and 
public health professionals implement research-based initiatives to 
advance our mission.
    The hepatitis B virus (HBV) is the world's major cause of liver 
cancer--and while other cancers are declining in rate, liver cancer is 
the fastest growing in incidence in the United States. The numbers of 
people chronically infected with HBV will knock your socks off: there 
are 400 million people worldwide. Without intervention, as many as 100 
million will die from an awful liver disease, most notably liver 
cancer. In the United States, up to 2 million Americans have been 
chronically infected and more than 5,000 people die each year from 
complications due to HBV. Additionally, although all ethnic groups are 
affected it disproportionately affects Asians and Africans. That is, 
nearly 1 in 10 Asian Americans are chronically infected with hepatitis 
B.
    But, the news is not all grim. There have been tremendous advances 
in research and in the control and treatment of hepatitis B over the 
past 30 years. There is a good vaccine to prevent infection; although, 
there is now a question as to how long lasting the protection is, if 
given in infancy. Unfortunately, for the 400 million people already 
infected worldwide, the vaccine is too late.
    For those already infected, there are now several medications that 
can be taken to control viral replication and prevent disease 
progression to end-stage liver disease and/or liver cancer; thereby, 
reducing mortality and the need for liver transplantation. However, 
most cases of cirrhosis or liver cancer are diagnosed in the late 
stages, and current methods to treat liver cancer are in the dark ages, 
literally, and early diagnosis of liver disease is also primitive. HBV 
screening as part of liver cancer prevention and detection is thought 
to be one of the best hopes for effective management.
    Thus, we were getting close to solutions, but lack of sustained 
support for public health measures and scientific research is 
threatening to allow the problems to come roaring back. Clearly, the 
Nation is faced with a major public health challenge that cannot be 
ignored. If we don't act with urgency, more and more people will 
suffer. Let me share just a few examples to dramatize the risks to us 
all.
    The recent crisis in a Nevada clinic, where as many as 40,000 
people were placed at risk for infection with HBV, HCV and HIV, is a 
problem that the Centers for Disease Control and Prevention (CDC) 
thinks might just be the ``tip of the iceberg''. The Nevada incident 
highlights critical deficiencies with national surveillance of chronic 
hepatitis B and C infections that are needed to rapidly identify 
problems such as the one that occurred in the Nevada clinic.
    The frightening increase in the incidence of liver cancer, while 
most other cancer rates are on the decline, represents another example 
of shortcomings in our system. In the United States, 20,000 babies are 
born to mothers infected with hepatitis B each year, and as many as 
1,200 newborns will be chronically infected with the hepatitis B virus. 
More needs to be done to prevent new infections.
    But, fortunately, there is a good and proven way to avoid these 
tragedies. The vaccine and medications were the result of successful 
innovation and public/private partnerships between industry, academia 
and the government. People concerned about this problem continue to 
turn to Congress and the CDC and the National Institutes of Health 
(NIH). The CDC and NIH have formulated plans and have the ability to, 
if not solve the problem, get it entirely under control.
    Mr. Chairman, may I now turn attention to requests regarding two 
Federal agencies that are critical in our effort to help people 
concerned with hepatitis B: the CDC and the NIH.
      the centers for disease control, division of viral hepatitis
    We believe a strong, well equipped CDC is our best hope to manage 
the public health problem of hepatitis B. The DVH has had ``flat 
funding'' for the past 5 years, despite the urgency and growth of this 
problem. DVH is included in the National Center for HIV/AIDS, Viral 
Hepatitis, STD, and TB Prevention at the CDC, and is responsible for 
the prevention and control of viral hepatitis. Currently, DVH focuses 
primarily on acute hepatitis A, B and C. While that's been very 
successful in decreasing new infections, little has been done about 
chronic hepatitis B and C, which impacts more than 6 million Americans 
and if left untreated, often leads to fatal liver failure or liver 
cancer.
    The HBF calls for a ``zero tolerance'' policy against new HBV 
infections, particularly among newborns, and against leaving infected 
pregnant women uneducated and unprotected. All pregnant women who test 
positive for hepatitis B should be referred to appropriate follow-up 
care and treatment. With a safe vaccine and six approved therapies for 
hepatitis B, no woman or child should be left behind. HBF also urges an 
expansion of cooperative agreements to test and validate evidence-based 
interventions focused on the mother-child transmission issue, and the 
prevention and management of HBV in high-risk ethnic communities.
    The HBF supports increased resources to build the capacity for the 
Division of Viral Hepatitis to improve public health interventions by 
building a robust national active surveillance of chronic HBV and HCV, 
strengthening State and local viral hepatitis prevention networks, and 
educating the community and providers to raise awareness about the 
importance of early detection and intervention of chronic hepatitis. 
Strengthening chronic hepatitis B education, testing, and referral to 
care programs will make an enormous difference in decreasing new 
infections and decreasing the mortality and morbidity associated with 
chronic viral hepatitis.
    Both Drs. Kevin Fenton and John Ward, of the CDC, have shown great 
leadership and spoken eloquently on the state of hepatitis B in the 
United States. Dr. Ward, for example, has observed that ``Hepatitis B 
is the deadliest disease that can be prevented through infant 
vaccination.'' Dr. Ward also recognizes the need for recommendations to 
ensure HBV-infected pregnant women are educated and referred to care, 
rather than treated merely as vessels of disease. More investment in 
DVH, however, is required to bolster their programs to address the 
problems of chronic viral hepatitis.
    To meet these needs, we request $50 million in fiscal year 2009 for 
the DVH. This would allow for a comprehensive, aggressive approach. 
However, an additional annual increase of at least $5 million, 
beginning in fiscal year 2009, is considered the minimum increase 
needed to sustain existing program and allow for minor reinforcements, 
in particular, to fund an Institute of Medicine Study to characterize 
and document the true burden of chronic viral hepatitis disease in the 
United States, which is urgently needed.
    Overall, the HBF joins with the CDC Coalition, a nonpartisan 
coalition of more than 100 groups, in supporting $7.4 billion for the 
Centers for Disease Control and Prevention in fiscal year 2009. The CDC 
programs are crucial to the health of all Americans and key to 
maintaining a strong public health infrastructure to protect us from 
threats to our health. At a time when the CDC is faced with 
unprecedented challenges and responsibilities ranging from chronic 
disease prevention, eliminating health disparities, bioterrorism 
preparedness, to combating the obesity epidemic the administration has 
cut the CDC's budget by $412 million. We urge the committee to restore 
this cut and fund the CDC at $7.4 billion.
                    the national insitutes of health
    We depend upon the U.S. NIH to search for new interventions to 
treat people with hepatitis B and liver cancer.
    In fiscal year 2008, NIH is expected to spend approximately $42 
million on hepatitis B funding overall. Although it is unseemly to 
compare one disease with another, since for anyone affected it is the 
disease that afflicts them that is the most important, it may be useful 
to know that the NIH currently spends $2.9B on HIV and billions on 
biodefense. Current estimates predict that HBV research funding will be 
flat or decline for fiscal year 2009.
    Please help correct this situation. There are good plans that show 
how an additional $40 million per year can make transformational 
beneficial advances for HBV research. If this is not possible in the 
current funding climate, we urge that the level of funding for HBV 
research be increased by at least 6.5 percent in fiscal year 2009.
    Mr. Chairman, I would like to take this opportunity to commend the 
leadership of NIH, and especially the leadership of the National 
Institute of Diabetes and Digestive and Kidney Diseases (NIDDK), the 
National Cancer Institute, and the National Institute of Allergy and 
Infectious Diseases for their continued interest in liver disease 
research. They have performed admirably with the limited resources they 
are provided; however, more is needed.
    The NIH published a 10 year Liver Disease Research Action Plan in 
2004, and to date, NIDDK has succeeded in several important areas such 
as funding a network of HBV Clinical Research Centers and hosting the 
first HBV Consensus Conference focused on identifying best treatment 
practices for chronic hepatitis B infections. The growing number of 
treatment options is encouraging and suggests a strong rationale for 
conducting a consensus conference to provide state-of-the-art treatment 
guidelines for the practicing physician community.
    Mr. Chairman, HBF joins the Ad Hoc Group for Medical Research 
Funding, a coalition of some 300 patient and voluntary health groups, 
medical and scientific societies, academic research organizations and 
industry, in recommending $31.2 billion (6.5 percent increase) for the 
National Institutes of Health in fiscal year 2009. The fiscal year 2009 
Administration budget request for NIH is flat compared to fiscal year 
2008 funding levels, which is due to the effects of biomedical 
inflation, and translates to a cut. In the five years through 2008, NIH 
has lost approximately 11 percent in purchasing power due to inflation. 
Therefore, if the President's fiscal year 2009 request becomes law, NIH 
will have lost one-seventh of its purchasing power due to inflation.
                         summary and conclusion
    While the HBF recognizes the demands on our nation's resources, we 
believe the ever-increasing health threats and expanding scientific 
opportunities continue to justify higher funding levels for the CDC's 
Division of Viral Hepatitis and the National Institutes of Health than 
proposed by the administration.
    Significant progress has been made in developing better treatments 
and cures for the diseases that affect humankind due to your leadership 
and the leadership of your colleagues on this subcommittee. Significant 
progress has also similarly been made in the fight against hepatitis B.
    In conclusion, we specifically request the following funding for 
fiscal year 2009 programs:
  --In fiscal year 2009, restore the CDC budget to $7.4 billion, with a 
        $50 million increase to the Division of Viral Hepatitis (or at 
        least an increase of $5 million) to strengthen the public 
        health response to chronic viral hepatitis; and
  --In fiscal year 2009, provide a 6.5 percent increase for the NIH 
        bringing the total funding level to $31.2 billion, including a 
        $40 million increase per year for hepatitis B research.
    The Hepatitis B Foundation appreciates the opportunity to provide 
testimony to you on behalf of our constituents and yours.
                                 ______
                                 
    Prepared Statement of the Hepatitis C Appropriations Partnership
    The Hepatitis C Appropriations Partnership, whose members advocate 
for increased Federal support for hepatitis C prevention, testing, 
education, research, and treatment, respectfully submits testimony for 
the record regarding Federal funding for Federal adult hepatitis 
programs in the fiscal year 2009 Labor, HHS and Education 
Appropriations legislation. HCAP appreciates the Committee's past 
support for these important public health programs.
    As you craft the fiscal year 2009 Labor, HHS and Education 
Appropriations legislation, we urge you to consider the following 
critical funding needs to appropriately address the HCV epidemic:
  --Include $50 million for the Centers for Disease Control and 
        Prevention's (CDC) Division of Viral Hepatitis (DVH);
  --Continue $20 million for hepatitis B vaccination for adults through 
        the Section 317 Vaccine Program;
  --Continue funding commitment for Community Health Centers;
  --Increase funding for the Ryan White Program to support additional 
        case management, provider education and the coverage of HCV 
        drug therapies; and
  --Increase funding for the National Institutes of Health to support 
        their Action Plan for Liver Disease Research.
    Approximately 6.25 million Americans are infected with the 
hepatitis C virus (HCV) and hepatitis B virus (HBV). Chronic viral 
hepatitis is now one of the leading killers of Americans living with 
HIV/AIDS. In addition, chronic viral hepatitis is the leading cause of 
liver cancer, now among the top 10 killers of Americans over the age of 
25 years. Overall, the death rate for HCV-related deaths in the United 
States is expected to triple by 2019.
    It is critical that Americans know whether they are hepatitis C-
infected in order to mitigate disease burden and to prevent 
transmission. These include simple steps like abstaining from alcohol 
use, exercising and maintaining a healthy diet. There are effective 
pharmaceutical treatment options available as well.
                               prevention
    HCAP requests a minimum increase of $32.4 million in fiscal year 
2009 for the Centers for Disease Control and Prevention's (CDC) 
Division of Viral Hepatitis (DVH) to enable State and local health 
departments to provide basic core public health services. Of this 
increase, we request a doubling of funding for State adult viral 
hepatitis prevention coordinators from $5 million to $10 million. DVH 
currently receives $17.6 million to address hepatitis C, of which 
States receive an average award of $90,000 to fund a coordinator. The 
coordinator position receives precious little above personnel costs, 
leaving little to no money for the provision of public health services 
such as education programs for the public and health professionals, 
hepatitis counseling, testing, and referral, or hepatitis A and B 
vaccine for adults. In addition, there are no funds for surveillance of 
chronic viral hepatitis, which would allow States to better target 
their limited resources. Due to lack of funding, CDC treats hepatitis 
outbreaks as sentinel events rather than systematically addressing 
hepatitis B and C epidemics with over 6 million Americans infected. 
Addressing one outbreak at a time is neither cost-effective nor is it 
prevention. Simply put, in the absence of an HCV vaccine the government 
can invest in prevention now or wait until public systems are 
overwhelmed by the costs of chronic liver disease, including liver 
transplantation.
    The greatest remaining challenge for hepatitis A and B prevention 
is the vaccination of high-risk adults. High-risk adults account for 
more than 75 percent of all new cases of hepatitis B infection each 
year and annually result in an estimated $658 million in medical costs 
and lost wages. In fiscal year 2007, CDC allowed States to use $20 
million of 317 Vaccine funds to vaccinate high risk adults for 
hepatitis B. States are integrating vaccination into service programs 
for persons with risk factors for infection (e.g., STD clinics, HIV 
counseling and testing sites, correctional facilities and drug 
treatment clinics). By targeting high-risk adults, including those with 
hepatitis C, for vaccination, the gap between children and adults who 
have not benefited from routine childhood immunization programs can be 
bridged. HCAP requests a continuation of $20 million in fiscal year 
2009 for hepatitis B vaccination.
                               treatment
    Access to available treatments and treatment support services are 
critical to combat co-infection morbidity. While there are no dedicated 
funding streams for medical management and treatment of hepatitis C, 
low-income patients can and do seek services at Community Health 
Centers (CHCs). HCAP supports your continued commitment to increasing 
resources for CHCs.
    Many low-income individuals co-infected with HCV and HIV can obtain 
services through the Ryan White Programs and because of that, HCAP 
urges you to provide increased Ryan White resources. Only half the 
State's AIDS Drug Assistance Programs (ADAP) are able to provide HCV 
and HIV treatments to co-infected clients. Increased resources are also 
needed to improve provider education on HCV medical management and 
treatment, to cover additional case management for patients undergoing 
treatment and to allow more States to add HCV therapies and HCV viral 
load tests to their ADAP formularies.
                                research
    Finally, research is needed to increase understanding of the 
pathogenesis of hepatitis C, improve HCV treatments that are currently 
difficult to tolerate, develop clinical strategies to slow the 
progression of liver disease among persons living with HCV, and develop 
a vaccine to prevent HCV infection. The Liver Disease Branch, located 
within the National Institute of Diabetes and Digestive and Kidney 
Diseases (NIDDK) at the National Institutes of Health (NIH), has 
developed an Action Plan for Liver Disease Research. HCAP requests full 
funding for NIH to support the recommendations and action steps 
outlined in this Action Plan for Liver Disease Research.
    A strong public health response is needed to meet the challenges of 
this infectious disease impacting over four million Americans. We 
welcome the opportunity to work with you and your staff on this 
important issue.
    As you craft the fiscal year 2009 Labor-HHS appropriations bill, we 
ask that you consider all of these critical funding needs. It is 
essential that the United States continue to demonstrate its commitment 
to fighting the ongoing domestic and global HIV/AIDS, viral hepatitis, 
and STD epidemics. The National Alliance of State and Territorial AIDS 
Directors thank the chairman, ranking member and members of the 
subcommittee, for their thoughtful consideration of our 
recommendations. Should you have any questions or comments, feel free 
to contact Laura Hanen, Coalition Director, Hepatitis C Appropriations 
Partnership, (202) 434-8091 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b1ddd9d0dfd4dff1dfc2d0c5d0d59fdec3d69f">[email&#160;protected]</a> Thank you very much.
                                 ______
                                 
      Prepared Statement of the Hepatitis Foundation International
            summary of recommendations for fiscal year 2009
    A funding level of $7.4 billion for the Centers for Disease Control 
and Prevention, an increase of $1.28 billion over fiscal year 2008.
    A funding level of $50 million for the Center for Disease Control 
and Prevention's Division of Viral Hepatitis, an increase of $32 
million over fiscal year 2008.
    A funding increase of at least 6.5 percent over fiscal year 2008 
for the National Institutes of Health.
    Urge the Centers for Disease Control and Prevention, the National 
Institutes of Health, and the Substance Abuse and Mental Health 
Services Administration to work with voluntary health organizations to 
promote liver wellness, expand health education, and improve primary 
prevention of unhealthy lifestyle behaviors.
    Currently, five types of the hepatitis virus have been identified, 
ranging from type A to type E. All of these types cause acute, or 
short-term, viral hepatitis. The Hepatitis B, C, and D viruses can also 
cause chronic hepatitis, in which the infection is prolonged, sometimes 
lifelong. While treatment options are available for many patients, 
individuals with chronic viral hepatitis B and C represent a 
significant number of the patients that require a liver transplant. 
Treatments presently have limited success and there is no vaccine 
available for hepatitis C, the most prevalent of these diseases.
                              hepatitis a
    The hepatitis A virus (HAV) is contracted through fecal/oral 
contact (i.e. fecal contamination of food, water, and diaper changing 
tables if not cleaned properly), and sexual contact. In addition, 
eating raw or partially cooked shellfish contaminated with HAV can 
spread the virus. Children with HAV usually have no symptoms; however, 
adults may become violently ill, suddenly experiencing jaundice, 
fatigue, nausea, vomiting, abdominal pain, dark urine/light stool, and 
fever. While there is no treatment for HAV, recovery tends to occur 
spontaneously over a 3 to 6 month period. About 1 in 1,000 with HAV 
suffers from a sudden and severe infection that can require a liver 
transplant. A highly effective vaccine can prevent HAV and is 
recommended for all children and individuals who have chronic liver 
disease or clotting factor disorders, in addition to those who travel 
or work in developing countries.
                              hepatitis b
    Hepatitis B (HBV) claims an estimated 5,000 lives every year in the 
United States, even though therapies exist that slow the progression of 
liver damage. Vaccines are available to prevent hepatitis B, but their 
effectiveness is limited. This disease is spread through contact with 
the blood and body fluids of an infected individual and from an HBV 
infected mother to child at birth. Unfortunately, due to both a lack in 
funding to vaccinate adults and the absence of an integrated preventive 
education strategy, transmission of hepatitis B continues nearly 
unabated. Additionally, there are significant disparities in the 
occurrence of chronic HBV-infections. For Example, Asian Americans 
represent four percent of the population; however, they account for 
more than half of the 1.3 million chronic hepatitis B cases in the 
United States. Current treatments do not cure hepatitis B, but 
appropriate treatment can help to reduce the progression to liver 
cancer and liver failure. Yet, many are not treated. Preventive 
education and universal vaccination are the best defenses against 
hepatitis B.
                              hepatitis c
    Infection rates for hepatitis C (HCV) are at epidemic proportions. 
Unfortunately, many individuals are not aware of their infection until 
many years after they are infected. This creates a dangerous situation, 
as individuals who are infected unknowingly spread the disease. The 
Centers for Disease Control and Prevention (CDC) estimates that there 
are over 4 million Americans who have been infected with hepatitis C, 
of which over 2.7 million remain chronically infected, with 8,000-
10,000 deaths each year. Additionally, the death rate is expected to 
triple by 2010 unless additional steps are taken to improve outreach 
and education on the prevention of hepatitis C and scientists identify 
more effective treatments and cures. As there is no vaccine for HCV, 
prevention, education, and treatment of those who are infected serve as 
the most effective approach in halting the spread of this disease.
                         prevention is the key
    The absence of information pertaining to the liver and hepatitis in 
education programs over the years has been a major factor in the spread 
of viral hepatitis through unknowing participation in liver damaging 
activities. Adults and children need to understand the importance of 
the liver and how viruses and drugs can damage its ability to keep them 
alive and healthy. Many who are currently infected are unaware of the 
behavioral risks which expose them to viral infections, and ultimately, 
liver damage.
    Knowledge is the key to prevention. Preventive education is 
essential to motivate individuals to protect themselves and avoid 
behaviors that can cause life-threatening diseases. Primary prevention 
that encourages individuals to adopt healthy lifestyle behaviors must 
begin in elementary schools when children are receptive to learning 
about their bodies. In addition to educating individuals at a critical 
age, schools provide access to one-fifth of the American population.
    Individuals need to be motivated to assess their own risk 
behaviors, to seek testing, to accept vaccination, to avoid spreading 
their disease to others, and to understand the importance of 
participating in their own health care and disease management. The CDC 
needs to support education programs to train teachers and healthcare 
providers in effective communication techniques, and to evaluate the 
impact preventive education has on reducing the incidence of hepatitis 
and substance abuse.
    For fiscal year 2009, HFI recommends that the Centers for Disease 
Control and Prevention (CDC), The National Institutes of Health (NIH), 
and the Substance Abuse and Mental Health Services Administration 
(SAMHSA) be urged to work with voluntary health organizations to 
promote liver wellness, education, and prevention of viral hepatitis, 
sexually transmitted diseases, and substance abuse.
    For fiscal year 2009, HFI recommends that the CDC, particularly the 
Division of Adolescent and School Health (DASH), work with voluntary 
health organizations to promote liver wellness with increased attention 
toward childhood education and prevention, particularly through 
partnerships between school districts and non-governmental 
organizations.
            centers for disease control and prevention (cdc)
    To effectively implement the CDC's National Hepatitis C Prevention 
Strategy an estimated $100 million is need for the Divisions of Viral 
Hepatitis (DVH). However, DVH has been flat funded at just under $18 
million for many years. This chronic underfunding has resulted in 
severely limited resources for State Adult Hepatitis Coordinators. The 
available Federal resources often only cover a hepatitis coordinators 
salary which leaves them begging, borrowing, and dealing to provide 
necessary services.
    Budget difficulties at the CDC are not solely limited to DVH. The 
CDC's important mission has been eroded by years of funding cuts. As 
you are aware, the fiscal year 2009 President's Budget Request seeks to 
deepen these cuts by recommending a reduction of $433 million in budget 
authority. Considering the threats of bioterrorism, pandemic influenza, 
a marked rise in the incidence of hepatitis, and the increasing 
prevalence of a number of other conditions, the CDC's budget must 
receive a substantial increase to effectively protect the public 
health.
    For fiscal year 2009, HFI recommends a funding level of $7.4 
billion for the CDC, an increase of $1.28 billion over fiscal year 
2008.
    For fiscal year 2009, HFI recommends a funding level of $50 million 
for the DVH, an increase of $32 million over fiscal year 2008.
                  national institutes of health (nih)
    Investment in the NIH has led to an explosion of knowledge that has 
advanced understanding of the biological basis of disease and developed 
strategies for disease prevention, diagnosis, treatment, and cures. 
NIH-supported scientists remain our best hope for sustaining momentum 
in pursuit of scientific opportunities and new health challenges. For 
example, research into why some HCV infected individuals resolve their 
infection spontaneously may prove to be life saving information for 
others currently infected.
    As you are aware, recent years of near level-funding at NIH have 
negatively impacted the mission of its Institutes and Centers. For this 
reason, HFI applauds efforts like Senators Tom Harkin (D-IA) and Arlen 
Specter's (R-PA) adopted amendment to the fiscal year 2009 Senate 
Budget Resolutions which calls on appropriators to provide NIH with a 
10.3 percent funding increase. HFI urges this Subcommittee to show 
strong leadership in pursuing such a substantial funding increase.
    For fiscal year 2009, HFI recommends a funding increase of at least 
6.5 percent for NIH and its Institutes and Centers.
                hepatitis foundation international (hfi)
    HFI is dedicated to the eradication of viral hepatitis, a disease 
affecting over 500 million people around the world. We seek to raise 
awareness of this enormous worldwide problem and to educate and 
motivate people to adopt healthy lifestyle behaviors to reduce the 
incidence of viral hepatitis and other blood-borne pathogens.
    Our mission has four distinct components:
  --To educate the public, patients and professionals about the 
        prevention, diagnosis and treatment of viral hepatitis.
  --To prevent viral hepatitis and promote healthful lifestyles.
  --To serve as advocates for hepatitis patients and the medical 
        community worldwide.
  --To support research into prevention, treatment, and cures for viral 
        hepatitis.
                                 ______
                                 
           Prepared Statement of the HIV Medicine Association
    The HIV Medicine Association (HIVMA) of the Infectious Diseases 
Society of America (IDSA) represents more than 3,600 physicians, 
scientists and other health care professionals who practice on the 
frontline of the HIV/AIDS pandemic. Our members provide medical care 
and treatment to people with HIV/AIDS throughout the United States and 
the world, lead HIV prevention programs, and conduct research to 
advance HIV prevention and treatment options. They are medical 
providers that specialize in HIV medicine and work in communities 
across the country. We urge you to sustain the three-pronged response 
of the United States to the AIDS pandemic by adequately supporting:
  --the research programs necessary to improve prevention and treatment 
        options spearheaded by the National Institutes of Health (NIH);
  --the surveillance and prevention programs that help to identify 
        people with HIV and reduce HIV transmission led by the Centers 
        for Disease Control and Prevention; and
  --the health care safety-net programs that are critical to providing 
        people with limited resources with access to lifesaving HIV 
        treatment through the Ryan White CARE Act programs at the 
        Health Resources and Services Administration (HRSA).
    Past Federal investments in HIV/AIDS programs have led to a 
revolution in HIV care. We developed treatments that effectively 
suppress this deadly virus and supported programs that provided 
lifesaving HIV treatment to people across the country regardless of 
their health insurance status. Many of our members have seen patients 
make remarkable recoveries that allow them to live healthier, more 
productive lives. However, we are concerned about our ability to 
sustain this success given our country's failure to prioritize support 
for domestic discretionary programs outside of defense and homeland 
security. The impact of our diminished investment in health is already 
being felt and will be far-reaching and long lasting as our 
communities' public health infrastructures weaken and our capacity to 
lead the world in discovering new therapies for controlling deadly 
diseases such as HIV erodes. If we do not act to increase our 
investments in these programs, we risk losing the next generation of 
scientists and clinicians necessary to continue the critical work of 
preventing new infections, providing effective care and treatment and 
advancing the science necessary to end the pandemic. The funding 
requests in our testimony largely reflect the consensus of the Federal 
AIDS Policy Partnership (FAPP), a coalition of HIV/AIDS organizations 
from across the country, and are estimated to be the amounts necessary 
to sustain and strengthen our investment in combating HIV disease.
       cdc's national center for hiv, std, tb prevention (nchstp)
    HIVMA strongly supports substantial increases in funding for the 
CDC's NCHSTP. Our prevention efforts are stymied by insufficient 
funding to support a comprehensive HIV strategy. Meanwhile, the number 
of people living with HIV in the United States continues to grow and 
the CDC is expected to increase its estimate of the new HIV infections 
that are occurring annually in the United States from 40,000 to 60,000. 
Resources are desperately needed to halt this trend and support a 
robust HIV prevention portfolio that includes identifying people with 
HIV earlier in infection through increased HIV screening. Tuberculosis 
is the major cause of AIDS-related mortality worldwide. It is critical 
that we shore up our ability as a Nation to address tuberculosis, 
especially drug-resistant tuberculosis here in the United States and in 
the developing world. With regard to these programs, we urge at least 
an increase of $608 million for domestic HIV prevention and 
surveillance programs and a funding level of $300 million for CDC's 
Division of Tuberculosis Elimination.
    A comprehensive prevention strategy is necessary to reduce the 
number of new HIV infections occurring each year. According to the CDC, 
at least 25 percent of people with HIV infection in the United States 
do not know it and more than 39 percent of people with HIV infection 
progress to AIDS within 1 year of diagnosis. We strongly support the 
CDC initiative to integrate HIV screening into medical care. The 
expansion of HIV testing is critical to identifying individuals with 
HIV earlier to prevent or delay disease progression and to reduce 
further transmission of the disease. We are seriously concerned about 
the lack of Federal resources available to State health departments and 
institutions for implementing these programs.
    A more robust HIV prevention budget also is needed to strengthen 
HIV surveillance systems and to target uninfected individuals who 
engage in high-risk behaviors. Both are important to dramatically 
reduce the 40,000 to 60,000 new HIV infections estimated to occur each 
year in the United States. We must increase support for science-based, 
comprehensive programs. We are seriously concerned that the resources 
committed to supporting a broad-based prevention agenda have diminished 
while funding for unproven and unscientific abstinence-only programs 
has increased. We strongly encourage Congress to halt this troubling 
trend. Additional resources are needed to address the high prevalence 
rates among vulnerable populations, e.g., men and women of color and 
men who have sex with men. It is short sighted to compromise these 
programs in order to support newer initiatives.
    Funding for HIV prevention activities at the CDC should be 
increased by at least $608 million. These resources should be utilized 
to restore the cuts in HIV prevention cooperative agreements with state 
and local health departments; to enhance core surveillance cooperative 
agreements with health departments and to expand HIV testing in 
critical health care venues by funding testing infrastructure, the 
purchase of approved testing devices, including rapid tests and 
confirmatory testing.
    Funding to support the prevention, control and elimination of 
tuberculosis must increase substantially if we are going to make 
headway against this deadly disease and to address the emerging threat 
of highly drug resistant tuberculosis. HIVMA supports at least a $159.6 
million increase in funding for the CDC's Division of Tuberculosis 
Elimination.
  hiv/aids bureau of the health resources and services administration
    HIVMA supports a total commitment of at least $2.78 billion, an 
increase of $614.5 million for the Ryan White CARE Act program. This 
recommendation includes a $134.6 million increase for the AIDS Drug 
Assistance Program (ADAP) and an increase of $100.5 million for Part C 
(Title III). The Health Resources and Services Administration (HRSA) 
oversees programs that are vital to our communities' health care safety 
nets--and to the ability of our clinician members to provide HIV care 
and treatment to many of their patients living with HIV/AIDS. CARE Act 
funding helps us to meet the serious and complex needs of people with 
HIV/AIDS who are uninsured or underinsured by supporting the delivery 
of primary medical care, prescription drugs, diagnostic tests, mental 
health services, substance abuse treatment, and dental services in our 
communities.
    We strongly support a substantial increase in CARE Act funding and 
would propose that the majority of new funding be targeted to HIV 
medical care. In particular, we support major increases for medical 
services offered under Parts A, B, C, and D and to the AIDS Drug 
Assistance Program (ADAP) to ensure that individuals with HIV/AIDS have 
access to a base line of lifesaving medical care and prescription drugs 
regardless of where they live. Funding increases are urgently needed 
for Part C programs. Many of the programs are treating more patients 
with fewer grant dollars and are struggling to meet the growing demand 
for HIV care in their communities. After several years of inadequate 
funding, we estimate that Part C programs require an increase of $83.3 
million in Federal funds. HIV clinical programs depend on funding from 
multiple parts of the CARE Act to create the comprehensive services 
that our patients need. We strongly encourage you to support funding 
increases of $213 million for Part A, $95 million for the Part B base 
and $48 million for Part D.
    More that a quarter century into the HIV epidemic, we are seeing 
the graying of our Nation's HIV clinical workforce, and we have serious 
concerns about ensuring a new generation of HIV medical providers to 
care for Americans with HIV. We increasingly hear about HIV care 
coverage gaps and clinical programs with challenges in hiring and 
retaining medical staff. We must address this issue before its effects 
are felt in increases in morbidity and mortality from HIV. We are 
delighted that legislation reauthorizing the President's Emergency 
Program for AIDS Relief authorizes resources to ensure that there is an 
adequate workforce to provide prevention, care and treatment services 
in developing countries. We must also attend to HIV medical workforce 
needs at home. We respectfully urge you to include at least $1 million 
in this year's Labor-HHS-Education appropriations bill for a study to 
evaluate the capacity of the HIV medical workforce as well as potential 
strategies to increase the numbers of young physicians, nurse 
practitioners and physician assistants entering HIV medicine.
                  national institutes of health (nih)
    HIVMA strongly supports an increase of $4.38 billion for all 
research programs at the NIH including a $450 million increase for the 
NIH Office of AIDS. This level of increase is vital to halting the 
erosion of our Nation's medical research programs and to sustain the 
pace of research that could improve the health and quality of life for 
millions of Americans. The failure to sustain the U.S. investment in 
biomedical research is taking its toll in deep cuts to clinical trials 
networks and significant reductions in the numbers of high quality, 
investigator-initiated grants that are approved. We are deeply 
concerned about the significant decrease in support for original 
research. With only one in four research applications receiving 
funding, the pipeline for critical discoveries and HIV scientists is 
dwindling and our role as a leader in biomedical research is at serious 
risk.
    In the arena of AIDS research, multiple years of inadequate funding 
levels that do not even keep pace with medical inflation threaten our 
ability to develop new therapeutics, to discover effective prevention 
technologies, and to finance vaccine development. A robust and 
comprehensive portfolio was responsible for the dramatic gains that we 
made in our HIV knowledge base, gains that resulted in reductions in 
mortality from AIDS of nearly 80 percent in the U.S. and in other 
countries where treatment is available. Additionally, our remarkable 
discoveries helped us to reduce the mother to child HIV transmission 
rate from 25 percent to nearly 1 percent in the United States and to 
very low levels in other countries where treatment is available.
    A continued robust AIDS research effort is essential to sustain and 
to accelerate our progress in offering more effective prevention 
technologies; developing new and less toxic treatments for our; and 
supporting the basic research necessary to continue our work developing 
a vaccine that may end the deadliest pandemic in human history. Our 
failure to make an adequate investment in this lifesaving research 
compromises our ability to compare and evaluate optimum treatment and 
prevention strategies in resource-poor countries, and limits our 
ability to understand the appropriate role of new classes of 
antiretrovirals that are currently in development here at home for 
treatment and prevention. The sheer magnitude of the number of people 
still living with HIV/AIDS--more than 1 million people in the United 
States; 33 million people globally--demands an increased investment in 
AIDS research if we are going to truly eradicate this devastating 
disease.
    We also strongly support the NIH's Fogarty International Center 
(FIC) and recommend an expansion of its programs and funding. The FIC 
training programs play a critical role in developing self-sustaining 
health care infrastructures in resource-limited countries. These 
important programs offer invaluable training and mentoring to 
indigenous physicians from the countries hardest hit by the HIV 
pandemic and other deadly infectious diseases, such as malaria and 
tuberculosis. Physicians trained through the FIC are able to develop 
research programs that more effectively address the health care, 
cultural and resource needs of their country's residents while also 
fostering the development of ongoing, robust research and clinical 
programs.
    Our Nation has made significant strides in responding to the HIV/
AIDS pandemic here at home and around the world, but we have lost 
ground in recent years, particularly domestically, as funding 
priorities have shifted away from public health and research programs. 
This retreat on past investments in AIDS research through NIH, 
surveillance and prevention programs through the CDC, and care and 
treatment through the Ryan White CARE Act program place the remarkable 
advancements of the past two decades in serious jeopardy. We have an 
opportunity to reverse this trend and to move forward with a budget 
that prioritizes funding for scientific discovery, public health, and 
care and treatment for those without resources or adequate insurance. 
With the support of this Congress, we have the opportunity to further 
limit the toll of this deadly infectious disease on our planet and to 
save the lives of millions who are infected or at risk of infection 
here in the United States and around the world.
                                 ______
                                 
    Prepared Statement of the Infectious Diseases Society of America
    The Infectious Diseases Society of America (IDSA) appreciates this 
opportunity to bring attention to the disastrous cuts proposed for 
leading infectious disease programs in President Bush's fiscal year 
2009 budget. Should these cuts go into effect, the Nation's and world's 
ability to control and contain an ever-increasing number of infectious 
diseases threats will be severely diminished. As many recent news 
stories have shown, existing and emerging infections continue to 
challenge Americans in U.S. hospitals and communities as well as people 
around the globe. These infections include HIV/AIDS, methicillin-
resistant Staphylococcus aureus (MRSA), Tuberculosis (TB) including 
extensively drug-resistant (XDR) TB, malaria and other resistant and 
susceptible organisms, such as Escherichia coli, Pseudomonas 
aeruginosa, Neisseria gonorrhoeae, Acinetobacter baumannii, and 
Klebsiella species.
    IDSA represents more than 8,000 infectious diseases physicians and 
scientists devoted to patient care, education, research, prevention, 
and public health. Our members care for patients of all ages with 
serious infections, including meningitis, pneumonia, TB, antibiotic-
resistant bacterial infections such as MRSA, and those with cancer or 
transplants who have life-threatening infections caused by unusual 
microorganisms, food poisoning, and HIV/AIDS, as well as emerging 
infections like severe acute respiratory syndrome (SARS).
    Especially hard-hit in this year's budget is the Centers for 
Disease Control and Prevention (CDC), the primary Federal agency 
responsible for conducting and supporting public health protection 
through health promotion, prevention, preparedness, and research. CDC 
would see a cut of nearly half a billion dollars in its total budget, 
to $5.9 billion. IDSA instead recommends increasing funding for CDC to 
$7.4 billion, roughly a 15 percent increase over current funding. This 
corresponds well with the Professional Judgment delivered last year by 
CDC Director Julie Gerberding, which said that $7.2 billion would be 
needed in fiscal year 2008 to properly fund CDC.
    Within the CDC budget, IDSA is especially concerned about the 
slashing of the Infectious Diseases program budget, which would be 
reduced by more than $34 million, to $1.9 billion. Last year, Dr. 
Gerberding told Congress the program needed an increase of nearly $315 
million in fiscal year 2008, but CDC received less than one-fifth of 
that amount. IDSA recommends an fiscal year 2009 funding level of $2.1 
billion for CDC's Infectious Diseases programs.
    Within the Infectious Disease programs' proposed budget, the 
agency's already severely strapped Antimicrobial Resistance budget 
would be further cut to $16.5 million. This vital program is necessary 
to help combat the rising crisis of drug resistance, a critical medical 
problem marked most publicly by the upsurge in MRSA infections. A CDC-
supported report published last October in the Journal of the American 
Medical Association indicated that invasive MRSA infections kill more 
than 19,000 Americans annually--more than emphysema, HIV/AIDS, or 
Parkinson's disease. In response to the acute MRSA problem and the 
growing antimicrobial resistance epidemic, IDSA recommends increasing 
fiscal year 2009 funding for resistance programs at CDC by $16 million, 
to a total of $33 million. Such funding increases will enable CDC to 
strengthen the National Healthcare Safety Network, which supports 
surveillance of drug-resistant healthcare associated infections, gather 
morbidity and mortality data related to resistance, track the 
development of dangerous resistant bugs as they develop, educate 
physicians and parents about the need to protect the long-term 
effectiveness of antibiotics, and strengthen infection control 
activities across the United States.
    In addition, a proposed $26 million cut (which represents a more 
than 20 percent reduction, to $103.6 million) to CDC's ``Other Emerging 
Infectious Diseases'' line item would hobble the agency's core 
infrastructure and ability to respond to new threats as they emerge. 
Past and existing threats have included rabies, rotavirus, food-borne 
diseases, Ebola, SARS, and others. The proposed cut would severely 
affect CDC laboratory capacity, research grants to academic partners, 
and support for State public health departments and public health 
laboratories and would reduce CDC's flexibility in setting priorities 
and taking action against new infections that emerge throughout the 
year. IDSA recommends, at a minimum, that the Other Emerging Infectious 
Diseases line item be increased to $145 million for fiscal year 2009.
    The section 317 Program at CDC has been one of our country's 
greatest public health achievements. In part through the section 317 
Program that provides funding for immunization to States and other 
jurisdictions, the United States has made significant progress toward 
eliminating vaccine-preventable diseases among children. At a time when 
new CDC-recommended vaccines are available and a greater commitment to 
immunizations for both children and adults is necessary, the proposed 
cuts to this program will undermine access to a critical intervention 
that saves lives and millions of dollars in unnecessary medical 
spending. Therefore, IDSA is recommending a funding level for the 
Section 317 Program of $802 million.
    IDSA also supports changes which will significantly strengthen the 
Section 317 Program's support for adult and adolescent immunization. 
Each year, more than 46,000 adults die of vaccine-preventable diseases 
(VPDs). Costs related to illnesses from adult VPDs are approximately 
$10 billion. Distinct funding floors for adult vaccine purchase and 
infrastructure are needed in amounts sufficient to cover immunization 
of the majority of under-insured and uninsured adults with all CDC-
recommended vaccines.
    Recent cuts have eroded national TB control programs, which is 
especially concerning as threats from XDR and multi-drug resistant TB 
grow. As news reports on incidences of TB have shown, CDC is stretched 
extremely thin in their ability to respond and control TB outbreaks. A 
total of $300 million is needed across CDC for efforts to prevent, 
control and eliminate TB.
    The budget request for HIV prevention and surveillance activities 
at CDC also is woefully inadequate. These programs are critical to 
reducing the number of new HIV cases occurring annually in the United 
States. Sufficient resources must be devoted to HIV prevention to 
support CDC's portfolio of prevention programs, including the 
initiative to identify people with HIV/AIDS earlier through routine HIV 
screening. This program will lead to lifesaving care sooner and will 
help to prevent further transmissions. IDSA supports funding of $1.3 
billion for these programs in fiscal year 2009. We also support funding 
of $2.78 billion for the Ryan White CARE Act programs within the Health 
Resources and Services Administration, including $299.3 million for 
Part C programs. Ryan White programs are vital to our health care 
safety net and are struggling to meet the need for HIV services in 
communities across the country.
    The President also proposes to flat-fund the National Institutes of 
Health (NIH) in fiscal year 2009, which represents a continued setback 
for this important agency. NIH is the single-largest funding source for 
infectious diseases research in the United States and the life-source 
for many academic research centers. The NIH-funded work conducted at 
these centers lays the ground work for advancements in treatments, 
cures, and medical technologies. However, since 2003, NIH has lost 13 
percent of its purchasing power due to the rate of biomedical research 
inflation and stagnating annual budgets. Because of the flat budget, 
three out of four research proposals submitted to NIH are not funded. 
Peer reviewers are forced to become more risk averse, leading to a 
narrowing of scientific vision and a diminishing rate of medical 
advancement. Without medical advancements, thousands of Americans will 
have to wait longer for the cures they need.
    The President's budget proposal does not come close to reaching the 
authorized funding level of $32.8 billion set for fiscal year 2008 
contained in the NIH Reform Act, which passed in 2006. Therefore, IDSA 
is recommending an increase of at least $1.9 billion in fiscal year 
2009 for NIH, to a total of $31.1 billion. This increase would return 
the budget to historical growth (equaling the rate of biomedical 
research inflation plus approximately 3 percent).
    NIH's Fogarty International Center is at the forefront of global 
health and is a leader in extending the United States Federal 
biomedical enterprise abroad. It taps innovative thinking from all 
parts of the world and fosters important scientific partnerships. 
Through Fogarty, the United States has supported research and research 
training programs conducted by both United States and foreign 
investigators across a wide range of infectious diseases and needs, 
including HIV/AIDS, malaria, and tuberculosis. The Center's efforts 
have led to improved local health outcomes--but so much more can be 
done. For this reason, IDSA strongly supports increasing Fogarty's 
funding level in fiscal year 2009 to $100 million--an increase of $33 
million. These additional resources will enable Fogarty to increase 
research training initiatives, forge new partnerships between United 
States and foreign research institutions, and conduct much-needed 
implementation research to increase the effectiveness of international 
programs.
    IDSA also proposes an increase in antimicrobial resistance research 
funding at NIH of $100 million in fiscal year 2009, bringing it to a 
total of $321 million. This funding level would allow NIH to strengthen 
clinical research and establish a clinical trials network to study 
resistant infections as well as antibacterial use and development. 
Well-designed, multi-center randomized controlled trials would create 
an excellent basis of evidence from which coherent and defensible 
recommendations could be developed.
    Additionally, in the Agriculture appropriations bill, IDSA would 
propose that antimicrobial resistance programs at the Food and Drug 
Administration receive at least a $10 million increase in new funding 
in fiscal year 2009, bringing its resistance funding to $34 million. 
This would allow FDA to establish and periodically update antibiotic 
susceptibility breakpoints based on testing and data collection, 
including through the purchase of vendor data; fund Critical Path 
initiatives for antibiotics; more aggressively review the safety of 
antibiotic use in food animals; and quicken its pace in developing 
critical guidance for industry on antibiotic clinical trial designs.
    The Department of Health and Human Services' Biomedical Advanced 
Research and Development Authority (BARDA) holds great potential to 
encourage and facilitate the development of new medical countermeasures 
and technologies. Congress authorized $1.07 billion for this mission; 
however, since BARDA's creation in December 2006, only $201 million has 
been provided. We are disappointed that Congress' and the 
administration's intent in creating BARDA have not been actualized. The 
current funding level has not allowed HHS to establish an active, 
robust advanced research and development portfolio for biomedical 
products. An analysis conducted by the Center for Biosecurity indicates 
that $817 million in fiscal year 2009 would be required to support one 
year of advanced development for just the 32 candidate medical 
countermeasures against biological threats currently in development. 
IDSA recommends that $850 million of multi-year appropriations be 
allocated to BARDA in fiscal year 2009 to fund biological therapeutics, 
diagnostics, and technologies. Such funding would help ensure the 
availability of resources throughout the advanced stages of development 
and the flexibility for BARDA to partner effectively with developers.
    IDSA commends the BARDA Influenza and Emerging Disease Program for 
taking great strides to advance our knowledge and ability to produce a 
safe and efficacious pre-pandemic vaccine. However, many challenges 
remain, including complexities of vaccine manufacturing and surge 
capacity as well as the timely production of a more closely-matched 
pandemic strain vaccine. For this critical program to continue to move 
forward, IDSA strongly encourages the Congress to fund the Influenza 
and Emerging Disease Program at $1.29 billion, to be available over 
multiple years. This increase over the budget proposal would include 
$308 million for advanced vaccine development, $234 million for vaccine 
stockpiling, and $248 million for antiviral stockpiling.
    Funding for pandemic influenza preparedness at other agencies 
within HHS has also been proposed in fiscal year 2009. We were greatly 
disappointed last year when the final omnibus appropriations bill 
included only $74 million for pandemic flu, rather than the $948 
million requested. This year's budget request would fund ongoing 
pandemic flu activities at the Federal agencies at $313 million. IDSA 
strongly supports this funding.
    Today's investment in infectious disease research, prevention, and 
treatments will pay significant dividends in the future by dramatically 
reducing health care costs and improving the quality of life for 
millions of Americans. In addition, U.S. leadership in infectious 
diseases research and prevention will translate into worldwide health 
benefits. We urge the subcommittee to continue to demonstrate 
leadership and foresight in this area by appropriating the much-needed 
resources outlined above in recognition of the lives and dollars that 
ultimately will be saved.
                                 ______
                                 
   Prepared Statement of the International Foundation for Functional 
                       Gastrointestinal Disorders
            summary of recommendations for fiscal year 2009
    A minimum 6.5 percent Funding Increase for the National Institutes 
of Health and its Institutes and Centers.
    Urge the National Institutes of Health to Expand the Research 
Portfolios on Functional Gastrointestinal Disorders, Like Irritable 
Bowel Syndrome.
    Provide Adequate Resources for the National Institutes of Health to 
Effectively Implement the Soon-to-be-Released Long-Range Research Plan 
for Digestive Diseases, Currently Being Drafted by the National 
Commission on Digestive Diseases.
    Thank you for the opportunity to present this written statement 
regarding the importance of functional gastrointestinal and motility 
disorders research.
    Since our establishment in 1991, the International Foundation for 
Functional Gastrointestinal Disorders (IFFGD) has been dedicated to 
increasing awareness of functional gastrointestinal and motility 
disorders among the public, health professionals, and researchers. On 
the federal level, we are currently assisting the National Institute of 
Diabetes and Digestive and Kidney Diseases (NIDDK) with creation of 
their Long-Range Research Plan for Digestive Diseases as a member of 
the National Commission on Digestive Diseases (NCDD). Also, IFFGD 
recently worked with the NIDDK, the National Institute of Child Health 
and Human Development (NICHD), and the Office of Medical Applications 
of Research (OMAR) on the NIH State-of-the-Science Conference on the 
Prevention of Fecal and Urinary Incontinence in Adults, which was held 
in December of last year.
    The majority of diseases and disorders we address have no cure and 
treatment options are often limited. We have yet to completely 
understand the mechanisms of the underlying conditions. Patients face a 
life of learning to manage a chronic illness that is accompanied by 
pain and an unrelenting myriad of gastrointestinal symptoms. The 
medical and indirect costs associated with these diseases are enormous; 
estimates range from $25-$30 billion annually. Economic costs spill 
over into the workplace, and are reflected in work absenteeism and lost 
productivity. Furthermore, the human toll is not only on the individual 
but also on the family. In essence, these diseases account for lost 
potential for the individual and society.
                     irritable bowel syndrome (ibs)
    IBS strikes people from all walks of life. It affects 30 to 45 
million Americans and results in significant human suffering and 
disability. This chronic disease is characterized by a group of 
symptoms, which include abdominal pain or discomfort associated with a 
change in bowel pattern, such as loose or more frequent bowel 
movements, diarrhea, and/or constipation. Although the cause of IBS is 
unknown, we do know that this disease needs a multidisciplinary 
approach in research and treatment.
    IBS can be emotionally and physically debilitating. Due to 
persistent bowel unpredictability, individuals who suffer from this 
disorder may distance themselves from social events, work, and even may 
fear leaving their home.
    A strategic plan for IBS is currently a component of the NCDD's 
Long-Range Research Plan for Digestive Diseases. For fiscal year 2009, 
IFFGD urges Congress to review the NCDD's Long-Range Research Plan for 
Digestive Diseases and provide NIDDK with the resources necessary to 
effectively implement the plan's recommendations.
                           fecal incontinence
    At least 12 million Americans suffer from fecal incontinence. 
Incontinence is neither part of the aging process nor is it something 
that affects only the elderly. Incontinence crosses all age groups from 
children to older adults, but is more common among women and in the 
elderly of both sexes. Often it is a symptom associated with various 
neurological diseases and many cancer treatments. Yet, as a society, we 
rarely hear or talk about the bowel disorders associated with spinal 
cord injuries, multiple sclerosis, diabetes, prostate cancer, colon 
cancer, uterine cancer, and a host of other diseases.
    Damage to the anal sphincter muscles; damage to the nerves of the 
anal sphincter muscles or the rectum; loss of storage capacity in the 
rectum; diarrhea; or pelvic floor dysfunction can cause fecal 
incontinence. People who have fecal incontinence may feel ashamed, 
embarrassed, or humiliated. Some don't want to leave the house out of 
fear they might have an accident in public. Most attempt to hide the 
problem for as long as possible. They withdraw from friends and family, 
and often limit work or education efforts. Incontinence in the elderly 
burdens families and is the primary reason for nursing home admissions, 
an already huge social and economic burden in our increasingly aged 
population.
    In November 2002, IFFGD sponsored a consensus conference entitled, 
Advancing the Treatment of Fecal and Urinary Incontinence Through 
Research: Trial Design, Outcome Measures, and Research Priorities. 
Among other outcomes, the conference resulted in six key research 
recommendations including more comprehensive identification of quality 
of life issues; improved diagnostic tests for affecting management 
strategies and treatment outcomes; development of new drug treatment 
compounds; development of strategies for primary prevention of fecal 
incontinence associated with childbirth; and attention to the process 
of stigmatization as it applies to the experience of individuals with 
fecal incontinence.
    In December of last year, IFFGD collaborated with NIDDK, NICHD, and 
OMAR on the NIH State-of-the-Science Conference on the Prevention of 
Fecal and Urinary Incontinence in Adults. The goal of this conference 
was to assess the state of the science and outline future priorities 
for research on both fecal and urinary incontinence; including, the 
prevalence and incidence of fecal and urinary incontinence, risk 
factors and potential prevention, pathophysiology, economic and quality 
of life impact, current tools available to measure symptom severity and 
burden, and the effectiveness of both short and long term treatment. 
For fiscal year 2009, IFFGD urges Congress to review the Conference's 
Report and provide NIH with the resources necessary to effectively 
implement the report's recommendations.
                 gastroesophageal reflux disease (gerd)
    Gastroesophageal reflux disease, or GERD, is a common disorder 
affecting both adults and children, which results from the back-flow of 
acidic stomach contents into the esophagus. GERD is often accompanied 
by persistent symptoms, such as chronic heartburn and regurgitation of 
acid. Sometimes there are no apparent symptoms, and the presence of 
GERD is revealed when complications become evident. One uncommon 
complication is Barrett's esophagus, a potentially pre-cancerous 
condition associated with esophageal cancer. Symptoms of GERD vary from 
person to person. The majority of people with GERD have mild symptoms, 
with no visible evidence of tissue damage and little risk of developing 
complications. There are several treatment options available for 
individuals suffering from GERD.
    Gastroesophageal reflux (GER) affects as many as one-third of all 
full term infants born in America each year. GER results from an 
immature upper gastrointestinal motor development. The prevalence of 
GER is increased in premature infants. Many infants require medical 
therapy in order for their symptoms to be controlled. Up to 25 percent 
of older children and adolescents will have GER or GERD due to lower 
esophageal sphincter dysfunction. In this population, the natural 
history of GER is similar to that of adult patients, in whom GER tends 
to be persistent and may require long-term treatment.
                             gastroparesis
    Gastroparesis, or delayed gastric emptying, refers to a stomach 
that empties slowly. Gastroparesis is characterized by symptoms from 
the delayed emptying of food, namely: bloating, nausea, vomiting or 
feeling full after eating only a small amount of food. Gastroparesis 
can occur as a result of several conditions, including being present in 
30 percent to 50 percent of patients with diabetes mellitus. A person 
with diabetic gastroparesis may have episodes of high and low blood 
sugar levels due to the unpredictable emptying of food from the 
stomach, leading to diabetic complications. Other causes of 
gastroparesis include Parkinson's disease and some medications, 
especially narcotic pain medications. In many patients the cause of the 
gastroparesis cannot be found and the disorder is termed idiopathic 
gastroparesis. Over the last several years, as more is being found out 
about gastroparesis, it has become clear this condition affects many 
people and the condition can cause a wide range of symptoms of 
differing severity.
                        cyclic vomiting syndrome
    Cyclic vomiting syndrome (CVS) is a disorder with recurrent 
episodes of severe nausea and vomiting interspersed with symptom free 
periods. The periods of intense, persistent nausea, vomiting, and other 
symptoms (abdominal pain, prostration, and lethargy) lasts hours to 
days. Previously thought to occur primarily in pediatric populations, 
it is increasingly understood that this crippling syndrome can occur in 
a variety of age groups including adults. Patients with these symptoms 
often go for years without correct diagnosis. The condition leads to 
significant time lost from school and from work, as well as substantial 
medical morbidity. The cause of CVS is not known. Better understanding, 
through research, of mechanisms that underlie upper gastrointestinal 
function and motility involved in sensations of nausea, vomiting and 
abdominal pain is needed to help identify at risk individuals and 
develop more effective treatment strategies.
                     support for critical research
    IFFGD urges Congress to provide the necessary funding for the 
expansion of the research activities at NIDDK and the Office of 
Research on Women's Health (ORWH) regarding functional gastrointestinal 
(GI) disorders and motility disorders. This increased funding will 
allow for the growth of new research on functional GI disorders and 
motility disorders at NIDDK and ORWH, and implementation of the 
strategic plan on IBS research.
    Recent years of near level-funding at NIH have negatively impacted 
the mission of its Institutes and Centers. For this reason, IFFGD 
applauds efforts like Senators Tom Harkin (D-IA) and Arlen Specter's 
(R-PA) adopted amendment to the fiscal year 2009 Senate Budget 
Resolutions which calls on appropriators to provide NIH with a 10.3 
percent funding increase. IFFGD urges this Subcommittee to show strong 
leadership in pursuing such a substantial funding increase.
    For fiscal year 2009, IFFGD recommends a funding increase of at 
least 6.5 percent for NIH and its Institutes and Centers.
    Thank you for the opportunity to present the views of the 
Functional GI Disorders community.
                                 ______
                                 
       Prepared Statement of the International Myeloma Foundation
    The International Myeloma Foundation (IMF) appreciates the 
opportunity to submit written comments for the record regarding fiscal 
year 2009 funding for myeloma cancer programs. The IMF, the oldest and 
largest myeloma foundation, is dedicated to improving the quality of 
life of myeloma patients while working toward prevention and a cure.
    To ensure that myeloma patients have access to the comprehensive, 
quality care they need and deserve, the IMF advocates on-going and 
significant Federal funding for myeloma research and its application. 
The IMF stands ready to work with policymakers to advance policies and 
programs that work toward prevention and a cure for myeloma and for all 
other forms of cancer.
                           myeloma background
    Myeloma is a cancer in the bone marrow affecting production of red 
cells, white cells and stem cells. It is also called ``multiple 
myeloma,'' because multiple areas of bone marrow may be involved. 
Myeloma is the second most common blood cancer after lymphomas, 
affecting an estimated 750,000 people worldwide and its prevalence 
appears to be is increasing significantly.
    No one knows the exact causes of myeloma. Doctors can seldom 
explain why one person develops this disease and another does not. 
Research has shown that people with certain risk factors such as age 
and race are more likely than others to develop myeloma. Growing older 
increases the chance of developing multiple myeloma as most people with 
myeloma are diagnosed after age 65. However, in recent years the 
diagnosis of myeloma in people 40 years of age and younger appears to 
have become more common as our ability to detect and diagnose this 
disease has improved. The risk of myeloma is highest among African 
Americans and lowest among Asian Americans.
    Scientists are studying other possible risk factors for myeloma. 
Toxic chemicals (for example, agricultural chemicals and Agent Orange 
used in Vietnam), radiation (including atomic radiation), and several 
viruses (including HIV, hepatitis, herpes virus 8, and others) are 
associated with an increased risk of myeloma and related diseases.
    According to the American Cancer Society, 19,920 Americans will be 
diagnosed with myeloma and 10,690 will lose their battle with this 
disease in 2008. Even while they live with the disease, myeloma 
patients can suffer debilitating fractures and other bone disorders, 
severe side effects of their treatment, and other problems that 
profoundly affect their quality of life, and significantly impact the 
cost of their health care. Despite these grim statistics, significant 
gains in the battle against myeloma have been made through our Nation's 
investment in cancer research and its application. Research holds the 
key to improved myeloma prevention, early detection, diagnosis, and 
treatment, but such breakthroughs are meaningless unless we can deliver 
them to all Americans in need.
            sustain and seize cancer research opportunities
    Our Nation has benefited immensely from past Federal investment in 
biomedical research at the National Institutes of Health (NIH). The IMF 
has joined with the broader health community in advocating a $30.81 
billion budget for NIH in fiscal year 2009. This will allow NIH to 
sustain and build on its research progress resulting from the recent 
doubling of its budget while avoiding the severe disruption to that 
progress that would result from a minimal increase. Myeloma research is 
producing extraordinary breakthroughs--leading to new therapies that 
translate into longer survival and improved quality of life for myeloma 
patients. Although myeloma was once considered a death sentence with 
limited options for treatment, today there are dozens of drugs in 
clinical trials for myeloma in the United States alone, and several 
recently-developed drug regimens can be used in sequence to help 
myeloma patients maintain their daily routines for years and even 
decades. To that end, the IMF calls upon Congress to allocate $5.26 
billion to the National Cancer Institute (NCI) in fiscal year 2009 to 
continue our battle against myeloma and its sequelae.
 boost our nation's investment in myeloma prevention, early detection, 
                             and awareness
    As the Nation's leading prevention agency, the Centers for Disease 
Control and Prevention (CDC) plays an important role in translating and 
delivering at the community level what is learned from research. 
Therefore, the IMF joins with our partners in the cancer community--
including One Voice Against Cancer (OVAC)--in calling on Congress to 
provide additional resources for the CDC to support and expand much-
needed and proven efforts in such areas as cancer prevention, early 
detection, and risk reduction. Specifically, the IMF advocates the 
appropriation of $445.5 million in fiscal year 2009 for CDC's cancer 
prevention and control initiatives.
    Within that allocation, the IMF specifically advocates $5.5 million 
for the Geraldine Ferraro Blood Cancer Program. Authorized under the 
Hematological Cancer Research Investment and Education Act of 2002, 
this program was created to provide public and patient education about 
blood cancers, including myeloma.
    With grants from the Geraldine Ferraro Blood Cancer Program, the 
IMF has successfully promoted awareness of myeloma, particularly in the 
African-American community and other underserved communities. IMF 
accomplishments include the production and distribution of more than 
4,500 copies of an informative video which addresses the importance of 
myeloma awareness and education in the African-American community to 
churches, community centers, inner-city hospitals, and Urban League 
offices around the country, increased African-American attendance at 
IMF Patient and Family Seminars (these seminars provide invaluable 
treatment information to newly diagnosed myeloma patients), increased 
calls by African-American myeloma patients, family members, and 
caregivers to the IMF myeloma hotline, and the establishment of 
additional support groups in inner city locations in the United States 
to assist underserved areas with myeloma education and awareness 
campaigns. Furthermore, the more than 90 IMF-affiliated patient support 
groups in the United States also made this effort their main goal 
during ``Myeloma Awareness Week'' in October 2005.
    An allocation of $5.5 million in fiscal year 2009 will allow this 
important program to continue to provide patients--including those 
populations at highest risk of developing myeloma--with educational, 
disease management and survivorship resources to enhance treatment and 
prognosis.
                               conclusion
    The IMF stands ready to work with policymakers to advance policies 
and support programs that work toward prevention and a cure for 
myeloma. Thank you for this opportunity to discuss the fiscal year 2009 
funding levels necessary to ensure that our Nation continues to make 
gains in the fight against myeloma.
                                 ______
                                 
     Prepared Statement of the Interstate Mining Compact Commission
    We are writing in support of the fiscal year 2009 budget request 
for the Mine Safety and Health Administration (MSHA), which is part of 
the U.S. Department of Labor. In particular, we urge the subcommittee 
to support a full appropriation for grants to States for safety and 
health training of our Nation's miners pursuant to section 503(a) of 
the Mine Safety and Health Act of 1977. MSHA's budget request for State 
grants is $8.941 million. This represents a slight increase over the 
amount approved by Congress last year and, as such, does not fully 
consider inflationary and programmatic increases being experienced by 
the states. We therefore urge the subcommittee to restore funding to 
the statutorily authorized level of $10 million for State grants so 
that States are able to meet the training needs of miners and to fully 
and effectively carry out state responsibilities under section 503(a) 
of the act.
    The Interstate Mining Compact Commission is a multi-state 
governmental organization that represents the natural resource, 
environmental protection and mine safety and health interests of its 24 
member States. The States are represented by their Governors who serve 
as Commissioners.
    IMCC's member States are concerned that without full funding of the 
State grants program, the federally required training for miners 
employed throughout the United States will suffer. States are 
struggling to maintain efficient and effective miner training and 
certification programs in spite of increased numbers of trainees and 
the incremental costs associated therewith. State grants have flattened 
out over the past several years and are not keeping place with 
inflationary impacts or increased demands for training. The situation 
is of particular concern given recent mine accidents and the additional 
training requirements that states have already put in place or that may 
be required under new MSHA regulations, especially those pursuant to 
the MINER Act.
    As you consider our request to increase MSHA's budget for State 
training grants, please keep in mind that the States play a 
particularly critical role in providing special assistance to small 
mine operators (those coal mine operators who employ 50 or fewer miners 
or 20 or fewer miners in the metal/nonmetal area) in meeting their 
required training needs. In this regard, we want to express our 
continued strong support for the Small Mines Initiative and are hopeful 
that the amount budgeted for this worthwhile program will provide for 
the effective operation of MSHA's Small Mines Office.
    In closing, we should also note that MSHA's grants to the States 
also allow us to provide other services to the Nation's miners and to 
mine operators in such areas as mine accident investigations and 
occupational diseases, including silicosis and ``black lung''.
    We appreciate the opportunity to submit our views on the MSHA 
budget request as part of the overall Department of Labor budget. 
Please feel free to contact us for additional information or to answer 
any questions you may have.
                                 ______
                                 
          Prepared Statement of the Jeffrey Modell Foundation
    Mr. Chairman and members of the subcommittee: Thank you for the 
opportunity to present this testimony to the Subcommittee. My name is 
Vicki Modell and, along with my husband Fred, we created the Jeffrey 
Modell Foundation (JMF) in 1987 in memory of our son, Jeffrey, who died 
at the age of 15 as a result of a life long battle against one of the 
estimated 140 primary immunodeficiency (PI) diseases.
    The Jeffrey Modell Foundation is an international organization with 
its headquarters in New York City. In the 21 years since we established 
it, the Foundation has grown into the premier advocacy and service 
organization on behalf of people afflicted with primary 
immunodeficiency diseases. As a demonstration of the extent to which 
the JMF leads in the field, please consider the following:
  --The Foundation has created Jeffrey Modell Research and Diagnostic 
        Centers at 38 academic and teaching hospitals from coast to 
        coast in the United States and throughout the world. The 
        Centers funded by the Jeffrey Modell Foundation are located in 
        Boston, Los Angeles, New York City, Philadelphia, Seattle, 
        Stanford, San Francisco, Miami, Milwaukee, Dallas, Chicago, and 
        others. The JMF Referral Network includes 350 physicians at 180 
        Centers in 53 countries spanning 6 continents.
  --The Foundation conducts a national physician education and public 
        awareness campaign, currently funded with approximately $2.9 
        million appropriated by this subcommittee to the Centers for 
        Disease Control and Prevention (CDC) and awarded by contract to 
        the JMF. To date, the Foundation has leveraged the Federal 
        money to generate in excess of $90 million in donated media 
        with hundreds of thousands of placements on television, radio, 
        print, and other public media, as well as a 30-minute program 
        produced for PBS. The campaign has also included physician 
        symposia, conducted for CME credits in locations throughout the 
        country. It has also included mailings to physicians in a 
        variety of specialist and primary care fields, including 
        pediatrics and several pediatric specialties, family practice, 
        and internal medicine, as well as school nurses, clinical and 
        registered nurses and daycare centers.
  --In addition, the Foundation has long been a provider of direct 
        patient services such as KIDS Days that give young people an 
        opportunity to meet and share experiences with others similarly 
        situated in their communities in a fun atmosphere that 
        encourages a feeling of normalcy in patients. This was 
        something that Jeffrey never experienced and one of the things 
        we wanted to address from the beginning of the Foundation. We 
        also offer a hotline that serves patients 24 hours a day.
    First and foremost, Mr. Chairman, I am here today to thank you and 
all the members of this subcommittee on both a personal and a 
professional level. Personal because whenever Fred and I come to 
Washington, whether it is to testify here before the committee or to 
meet with the members of the subcommittee individually in their 
offices, every Member of Congress and every member of your staffs are 
unfailingly polite, courteous, interested and caring. The response that 
we receive, and the warmth and understanding that we enjoy, makes this 
a labor of love for us.
    Professional because over the 16 years that we have been coming to 
Washington, we have been given the opportunity to build a partnership 
with the Congress, the Centers for Disease Control and Prevention, the 
National Institutes of Health, as well as with our own supporters in 
the private sector, including industry and other concerned donors. We 
believe that we have maximized the benefits for patients from the 
support that this subcommittee has afforded us. I would like to take a 
few minutes to discuss where we are and, more importantly, where we are 
going with your continued support.
               centers for disease control and prevention
    This subcommittee is currently funding CDC with $2.9 million for 
physician education and public awareness of immune deficiencies. I am 
delighted to report that the President's recommended budget for fiscal 
year 2009 continues the program at its fiscal year 2008 level. The 
Jeffrey Modell Foundation operates the program under a contract with 
CDC, with whom we have a very strong relationship.
    Since the campaign's inception, it has generated nearly $100 
million in donated media, including television and radio spots, 
magazine ads, billboards, airport signs and other print media. It has 
also enabled us to raise additional funding from the private sector--
both individuals and the pharmaceutical industry. To this point, every 
$1 provided by the subcommittee to this program has been leveraged into 
more than $10 for this education and awareness program. Also, visits to 
the website have increased by more than 50 percent from approximately 
600,000 per month to over 900,000 per month. Continuing to incorporate 
``new media'' into the campaign will extend its reach, particularly to 
young parents and others.
    Most importantly, Mr. Chairman, I am delighted to report to you 
that the program that this subcommittee has funded is having exactly 
the impact that all of us hoped it would when it was created. Allow me 
to give you some specifics. This data was recently published in the 
scientific journal Immunology Research. 169 physicians from 85 Jeffrey 
Modell Diagnostic and Referral Centers responded to a survey relating 
to PI. Baseline reports for the period before the Education and 
Awareness program and reports for the year following the program were 
compared. The results were striking.
  --The number of patients diagnosed at these centers went from 
        approximately 5,900 at baseline to over 31,000 in the follow 
        up, an annual increase of 132 percent.
  --Patient referrals from generalists to specialists increased by 87 
        percent.
  --The number of diagnostic tests performed went up by an astounding 
        656 percent.
  --There was a 102 percent annual increase in the number of patients 
        receiving treatment.
  --Finally, patients receiving intravenous immunoglobulin went up by 
        81 percent.
    But, it is fair of this subcommittee to ask ``so what?'' What 
difference does it make to the to the health of these patients if they 
are now in treatment? What is the real impact in a real world sense on 
the patients that are found?
    Eighty five centers responded to a survey assessing 532 patient 
records and again the data are amazing. Comparing patients' charts for 
the year before diagnosis and the year after diagnosis, the following 
conclusions are reached:
  --Acute infections are down 72 percent.
  --Physician/hospital/ER visits are down 83 percent.
  --Severe infections are down 86 percent.
  --Pneumonias are down 79 percent.
  --Days with chronic infections are down 72 percent.
  --Time on antibiotics is down 56 percent.
  --Days in the hospital are down 73 percent.
  --School/work days missed are down 74 percent.
    But, again, the subcommittee might ask, ``How does diagnosing and 
treating patients improve the public health and help reduce health care 
costs?'' That is a fair question and one we are prepared to answer.
    The economic impact of PI diagnosis was carefully assessed 
comparing the costs of treatment before diagnosis and after. In round 
numbers what we learned was that the average annual cost of health care 
for an undiagnosed patient is $103,000 per year. The same costs for the 
same patients in the year after diagnosis are $23,000. The gross annual 
savings is $80,000 per patient. The NIH estimates that at least 500,000 
cases of PI are undiagnosed in the United States, thus the economic 
impact of undiagnosed PI patients to the healthcare system of the 
United States totals over $40 billion annually.
    Mr. Chairman, this program is working. We are respectfully 
requesting that the funding level in the President's budget receive 
just a five percent cost of living increase so that we can continue to 
build on the success we have had to date.
                       newborn screening program
    As described above, early diagnosis is critical to the health of 
patients and to saving the healthcare system money. And, there are few 
better examples of early diagnosis than newborn screening. The JMF has 
worked long and hard to support the development of a newborn screening 
program for Severe Combined Immune Deficiency (SCID), the most severe 
and deadly form of PI.
    Early detection of SCID through newborn screening is vital because 
bone marrow transplants cure over 98 percent of infants who have the 
procedure before developing any serious infections. The treatment costs 
less than $10,000. However, if an infant receives a transplant after 
developing severe infections, the success rate is only between 50 and 
60 percent; the costs associated with the treatment of these infants 
can be as high as $1 million.
    After working with NIH and a private company to develop a screening 
test for SCID, we collaborated with the CDC to hold a meeting in 
Atlanta on this topic with scientists and public health officials from 
around the country. The result was a commitment from the State of 
Wisconsin to run a pilot program for SCID testing. The pilot program 
screened 10,000 babies in 2007. I am delighted to report that this 
program developed into general population screening effective January 
1, 2008. Every baby born in Wisconsin is being tested for SCID. Next 
year, Mr. Chairman, I hope to report on the success of this project.
    The Wisconsin project was funded by the State, Children's Hospital 
and the JMF. The fiscal year 2008 Omnibus Appropriations bill contains 
$1.0 million to expand this pilot program to at least two additional 
States. We hope to have results for you on this next year as well. And, 
Mr. Chairman, we are asking that the $1.0 million be restored to the 
fiscal year 2009 appropriations bill so that this life-saving and 
money-saving endeavor can go forward in more States.
                     national institutes of health
    Mr. Chairman, in addition to CDC, the Jeffrey Modell Foundation has 
a long history of working closely with the National Institutes of 
Health on the scientific research issues that surround primary 
immunodeficiencies. We have long enjoyed a strong collaborative 
relationship with several institutes and want to inform the 
subcommittee of the exciting new initiative we are undertaking.
    In our frequent meetings with the world's top researchers in this 
field, we have become increasingly concerned that the constraints on 
the NIH budget are having a negative impact on researchers' ability to 
stay in this field and to develop the next generation of PI 
researchers.
    After doing a series of meetings around the NIH, we have reached an 
agreement to enter into a collaborative research program. The JMF will 
bring its resources to the NIH and match Federal funding on a research 
initiative that will be targeted at jumpstarting the field and moving 
the science forward through the normal peer-review channels.
    Our partners in this endeavor--NIAID, NICHD, NHLBI and NIDDK--are 
working now to craft the announcement of the availability of this 
funding. We are envisioning a multi-institute, multi-disciplinary 
program that will generate up to $14 million in new research. There 
remains so much to learn, particularly when it comes to the causes and 
cures at the molecular level. For this program, all we are seeking is a 
strongly encouraging paragraph of report language that has been 
submitted by at least two of your colleagues.
    Again, this is an initiative that we are looking forward to coming 
back to you next year with good news about the success we anticipate we 
will be having by the time your committee reconvenes.
                               conclusion
    With the support the Jeffrey Modell Foundation has received from 
this subcommittee over the years, we have been able to increase the 
public's awareness of PI and most importantly improve and save lives. 
We are grateful for your past and continued support. While we 
understand that the subcommittee must make difficult decisions in this 
fiscal environment, please remember that the Foundation has 
successfully leveraged Federal dollars to expand the reach of all of 
our activities. Frankly, the collaboration between the Federal 
Government and the Jeffrey Modell Foundation has been a model for 
successful public-private collaborations. The impact of every Federal 
dollar spent on the education and awareness campaign, on newborn 
screening, and on research has been exponentially increased by our 
commitment to bring the Foundation's resources to bear. This is a real 
working partnership, because as always we ask only for a hand, never 
for hand-out.
    Mr. Chairman, again, we are delighted to have the opportunity to 
present to the subcommittee and stand ready to continue to work with 
you.
                                 ______
                                 
          Prepared Statement of the March of Dimes Foundation
    The 3 million volunteers and 1,400 staff members of the March of 
Dimes Foundation appreciate the opportunity to submit the Foundation's 
Federal funding recommendations for fiscal year 2009. The March of 
Dimes is a national voluntary health agency working to improve the 
health of mothers, infants and children by preventing birth defects, 
premature birth and infant mortality through research, community 
services, education, and advocacy. The volunteers and staff of the 
March of Dimes urge the subcommittee to provide the funding increases 
recommended below.
                  national institutes of health (nih)
    The March of Dimes joins the larger research community in 
recommending a $1.9 billion increase in funding for the NIH bringing 
total Federal support to over $31 billion. Since the doubling of NIH's 
budget was completed in 2003, the agency has lost 15 percent of its 
purchasing power due to biomedical inflation. With the threats to 
children's health, and the economic and societal costs associated with 
long-term disabilities and care, it is imperative to increase the 
overall investment in medical research.
Office of the Director
    The March of Dimes strongly supported congressional approval of 
$110.9 million for the National Children's Study (NCS) in fiscal year 
2008 Consolidated Appropriations Act, allowing for implementation of 
the next phase of the study. The Foundation urges the subcommittee to 
include within the Office of the Director $192.3 million ($81.4 million 
increase) for the NCS in fiscal year 2009. While the amount may seem 
substantial, it is dwarfed by the cost of treating the diseases and 
conditions the study is designed to address. The NCS holds the 
potential to provide data on the causes of birth defects and premature 
birth, including, but not limited to, the role that diabetes and pre-
diabetic conditions may play in birth defects, and the impact of 
infection and inflammation in stimulating pre-term delivery.
National Institute of Child Health and Human Development (NICHD)
    The March of Dimes recommends $1.34 billion for NICHD in fiscal 
year 2009. In recent years, the NICHD has made a major commitment to 
enhance our understanding of the factors that result in premature birth 
and to develop strategies to prolong pregnancy so that infants are born 
at full term. Since 1981, the preterm birth rate in the United States 
has increased 30 percent resulting in 543,000 premature births in 
2006--or 1 in 8 newborns. Any woman can have a preterm baby and in 
about a third of the cases, the causes remain unknown.
    In 2006, the Institute of Medicine (IOM) report entitled, ``Preterm 
Birth: Causes, Consequences and Prevention'' found that the annual 
economic burden associated with preterm birth in the United States was 
at least $26.2 billion, or $51,600 per infant born preterm, and that 
there are persistent disparities in preterm birth rates among different 
racial and ethnic groups.
    The NICHD supported research including work done through the 
Maternal-Fetal Medicine Units (MFMU), Neonatal Research (NR) and the 
Genomics and Proteomics Networks must continue. Specifically, over the 
past year NICHD funded clinical trials to investigate the impact of 
administering a derivative of progesterone to reduce preterm labor and 
delivery in women with a short cervix and women with multiple 
gestations. The findings from these clinical trials will further 
enhance our understanding of the causes of preterm labor and delivery.
            centers for disease control and prevention (cdc)
National Center on Birth Defects and Developmental Disabilities 
        (NCBDDD)
    NCBDDD conducts programs to protect and improve the health of 
children by preventing birth defects and developmental disabilities and 
by promoting optimal development and wellness among children with 
disabilities. Of particular interest to the March of Dimes is NCBDDD's 
birth defects program that includes surveillance, research and 
prevention activities. For fiscal year 2009, the Foundation requests an 
increase of $3 million to support the National Birth Defects Prevention 
Study and an additional $2 million for folic acid education. These 
modest increases are sorely needed to continue progress in reducing the 
incidence of birth defects.
    As the causes of nearly 70 percent of birth defects are unknown, it 
is important to continue to fund the National Birth Defects Prevention 
study--the largest case controlled study of birth defects ever 
conducted--to unveil the causes and to prevent birth defects. The nine 
centers located in Massachusetts, New York, North Carolina, Georgia, 
Texas, Arkansas, Iowa, Utah, and California participating in the study 
identify infants with major birth defects; interview mothers about 
medical history, environmental exposures and lifestyle before and 
during pregnancy; and collect DNA samples to study gene-environment 
interactions. With nearly 11 years worth of data and samples collected 
and $85 million invested, this study is a rich source of information on 
possible causes of birth defects.
    Several years of erosion in funding make it critical to provide a 
$3 million increase for the National Birth Defects Prevention Study in 
fiscal year 2009. Without this increase CDC will be unable to maintain 
operation of all nine Centers of Excellence and will lose the capacity 
to conduct important analyses of genetic samples.
    NCBDDD also funds State birth defects tracking systems, programs to 
prevent birth defects and improve access to health services for 
children with birth defects. Surveillance forms the backbone of a 
vital, functional and responsive public health network. Additional 
resources are sorely needed to help States seeking assistance. Finally, 
NCBDDD is conducting a national public and health professions education 
campaign designed to increase the number of women taking folic acid. 
CDC estimates that up to 70 percent of neural tube defects (NTDs) could 
be prevented if all women consume folic acid prior to becoming pregnant 
and although progress is being made, according to a recent CDC 
analysis, 60 percent of women of childbearing age are still not 
consuming the daily recommended amount of folic acid making it more 
important than ever that CDC be provided the resources it needs to 
expand its educational campaign.
Safe Motherhood/Infant Health
    The National Center for Chronic Disease Prevention and Health 
Promotion, Division of Reproductive Health works to promote optimal 
reproductive and infant health. The March of Dimes recommends a $5 
million increase, as authorized in the PREEMIE Act (Public Law 109-
450), for CDC to expand epidemiological studies to evaluate the social, 
biological, and medical factors associated with preterm birth, in an 
effort to identify ways to prevent preterm birth and racial 
disparities. Finding the causes and preventing preterm birth is complex 
and requires research that examines medical, social, infection related, 
genetic, environmental and behavioral factors. Currently, CDC works 
with a number of universities and organizations to support research 
into the causes of preterm birth and the reasons for disparities 
between racial and ethnic groups. It is essential that this work 
continue.
National Immunization Program
    CDC's National Immunization Program provides grants to State, 
local, and territorial public health agencies to reduce the incidence 
of disability and death resulting from vaccine preventable diseases. 
Yet nearly 1 million 2 year olds in the United States have not received 
the one or more recommended vaccines. The March of Dimes urges the 
Subcommittee to continue its longstanding policy of ensuring that 
Federal vaccine programs are well funded. For fiscal year 2009, the 
March of Dimes recommends $802.4 million. These funds are needed to 
reach more children as well as to account for vaccine price increases 
and introduction of new vaccines.
Polio Eradication
    Since its creation as an organization dedicated to research and 
services related to polio, the March of Dimes has been committed to the 
eradication of this disabling disease. For fiscal year 2009 the 
Foundation recommends a funding level of $101.254 million for CDC's 
fiscal year 2009 global polio eradication program. The U.S. Government 
must maintain its commitment to the worldwide polio eradication 
initiative that promises to save lives and reduce unnecessary health-
related costs globally.
National Center for Health Statistics
    The National Center for Health Statistics (NCHS) provides data 
essential for both public and private research and programmatic 
initiatives. The National Vital Statistics System and the National 
Survey on Family Growth, for example, are the principal sources of 
information on the utilization of prenatal care and on birth outcomes, 
including preterm delivery, low birthweight and infant mortality. The 
March of Dimes supports a funding level of $125 million, an increase of 
$11 million over fiscal year 2008, to ensure the continuation of NCHS' 
central role in monitoring the Nation's health.
          health resources and services administration (hrsa)
Newborn Screening
    Newborn screening is a vital public health activity used to 
identify and treat genetic, metabolic, hormonal and functional 
conditions that, if left untreated, can cause disability, mental 
retardation, serious illnesses or even death. Parents are often unaware 
that while nearly all babies born in the United States are screened, 
the number and quality of these tests vary from State to State. The 
March of Dimes, the American Academy of Pediatrics and the American 
College of Medical Genetics recommend that every baby born in the 
United States be screened for 29 treatable conditions. As of March 
2008, only 19 States and the District of Columbia screen for all 29 
conditions.
    Federal support for State newborn screening is provided through the 
Maternal and Child Health Block Grant, Special Projects of Regional and 
National Significance (SPRANS). The Foundation urges a $4.9 million 
SPRANS set-aside for newborn screening activities (an increase of $3 
million over fiscal year 2008). This funding is needed to support State 
efforts to improve programs, acquire innovative testing technologies 
and increase capacity to reach and educate health professionals and 
parents with accurate information on newborn screening programs and 
follow up services.
Healthy Start
    The Healthy Start Initiative is a collection of community-based 
projects focused on reducing infant mortality, low birthweight and 
racial disparities in perinatal outcomes. The March of Dimes strongly 
supports Healthy Start and recommends a funding level of $110 million 
in fiscal year 2009 to help decrease the Nation's unacceptably high 
rate of infant mortality.
Maternal and Child Health Block Grant
    Title V of the Social Security Act, the Maternal and Child Health 
(MCH) Block Grant, provides assistance for community-based programs 
(i.e.: home visiting, respite care for children with special health 
care needs and supplementary services for pregnant women and children 
enrolled in Medicaid and SCHIP), but Federal support has not kept pace 
with increased enrollment and demand for services. The March of Dimes 
therefore recommends full funding of the MCH Block Grant at the 
authorized level of $850 million.

            FISCAL YEAR 2009 FEDERAL FUNDING RECOMMENDATIONS
                        [In millions of dollars]
------------------------------------------------------------------------
                                                          March of Dimes
                                          Fiscal year      fiscal year
                Program                   2008 funding         2009
                                                          recommendation
------------------------------------------------------------------------
National Institutes of Health (Total).         29,230           31,130
National Children's Study.............            110.9            192.3
    National Institute of Child Health          1,255            1,340
     & Human Development..............
    National Human Genome Research                487              519
     Institute........................
    National Center on Minority Health            200              213
     and Disparities..................
Centers for Disease Control and                 6,375            7,400
 Prevention (CDC).....................
    Save Motherhood/Infant Health                  42.3             47.3
     (NCCDPHP)........................
        Birth Defects Research &                   13.7             16.7
         Surveillance.................
        Folic Acid Education Campaign.              2                4
    Immunization......................            523              802
        Polio Eradication.............             98              101
    National Center for Health                    114              125
     Statistics.......................
Health Resources and Services                   6,948            7,948
 Administration (Total)...............
    Maternal and Child Health Block               666              850
     Grant............................
        Newborn Screening.............              1.9              4.9
    Newborn Hearing Screening.........             12               12
    Consolidated (Community) Health             2,065            2,313
     Centers..........................
    Healthy Start.....................            100              110
Agency for Healthcare Research and                335              360
 Quality..............................
------------------------------------------------------------------------

                                 ______
                                 
     Prepared Statement of the Medical Library Association and the 
           Association for Academic Health Sciences Libraries
            summary of recommendations for fiscal year 2009
    (1) A minimum 6.5 percent funding increase for the National 
Institutes of Health and the National Library of Medicine.
    (2) Support for the National Library of Medicine's Urgent Facility 
construction needs.
    (3) Continued support for the Medical Library community's role in 
the National Library of Medicine's Outreach, Telemedicine, Disaster 
Preparedness and Health Information Technology Initiatives.
    On behalf of the Medical Library Association (MLA) and the 
Association of Academic Health Sciences Libraries (AAHSL), thank you 
for the opportunity to present testimony regarding fiscal year 2009 
appropriations for the National Library of Medicine (NLM).
    MLA is a nonprofit, educational organization with more than 4,500 
health sciences information professional members worldwide. Founded in 
1898, MLA provides lifelong educational opportunities, supports a 
knowledgebase of health information research, and works with a global 
network of partners to promote the importance of quality information 
for improved health to the health care community and the public.
    AAHSL is comprised of the directors of the libraries of 142 
accredited American and Canadian medical schools belonging to the 
Association of American Medical Colleges (AAMC). AAHSL's goals are to 
promote excellence in academic health sciences libraries and to ensure 
that the next generation of health professionals is trained in 
information-seeking skills that enhance the quality of healthcare 
delivery.
    As you are aware, recent years of near level-funding at the 
National Institutes of Health (NIH) have negatively impacted the 
mission of NLM. For this reason, MLA and AAHSL applaud efforts like 
Senators Tom Harkin (D-IA) and Arlen Specter's (R-PA) adopted amendment 
to the fiscal year 2009 Senate Budget Resolutions which calls on 
appropriators to provide NIH with a 10.3 percent funding increase. MLA 
and AAHSL are urging this Subcommittee to show strong leadership in 
pursuing such a substantial funding increase. For fiscal year 2009, MLA 
and AAHSL are recommending a funding increase of at least 6.5 percent 
for NIH and NLM. A 6.5 percent funding increase would allow NLM to 
adequately address 5 key areas that are at the core of its mission. 
They are:
            the growing demand for the nlm's basic services
    It is a tribute to NLM that demand for its services and expertise 
continues to grow. As the world's foremost digital library and 
knowledge repository in the health sciences, NLM provides critical 
infrastructure in the form of data repositories and integrated 
services, such as GenBank and PubMed which are helping to advance 
science to individualized medicine based on our unique genetic 
differences.
    As the world's largest and most comprehensive medical library, 
services based on NLM's traditional and electronic collections continue 
to steadily increase each year. These collections stand at more than 
11.4 million items-books, journals, technical reports, manuscripts, 
microfilms, photographs and images. By selecting, organizing and 
ensuring permanent access to health science information in all formats, 
NLM is ensuring the availability of this information for future 
generations, making it accessible to all Americans, irrespective of 
geography or ability to pay, and ensuring that each citizen can make 
the best, most informed decisions about their healthcare. NLM is a 
national treasure and support for its programs and services could not 
be more important at the present time. Without NLM our Nation's medical 
libraries would be unable to provide the quality information services 
that our Nation's health professionals, educators, researchers, and 
patients have all come to expect.
                         outreach and education
    NLM has taken a leadership role in promoting educational outreach 
aimed at public libraries, secondary schools, senior centers and other 
consumer-based settings. One example of NLM's leadership is the 
``Partners in Information Access'' program which is designed to improve 
the access of local public health officials to information needed to 
prevent, identify, and respond to public health threats. With nearly 
6,000 members in communities across the country, the National Network 
of Libraries of Medicine (NNLM) is well positioned to ensure that every 
public health worker has electronic health information services that 
can protect the public's health.
    Currently at the University of Iowa (UI), the Empowering Public 
Health/Patient Safety Outreach through the Community Partnerships 
program is providing train-the-trainer sessions in local settings to 
instruct public health educators and community program planners on 
developing patient safety programming for consumers.
    Perhaps most notably, with help from the Congress, NLM, NIH and the 
Friends of NLM, launched NIH MedlinePlus Magazine in September 2006. 
This quarterly publication is distributed in doctors' waiting rooms, 
and provides the public with access to high quality, easily understood 
health information. ``Go Local'' is another exciting feature of 
MedlinePlus that enables local and state agencies and others to 
participate by creating sites that link the MedlinePlus information 
seeker to local pharmacies, doctors and other health and social 
services. This service also provides a platform for enhancing public 
access to the information needed to prepare for and respond to 
disasters and emergencies. For example, UI librarians have begun a 
project to link MedlinePlus health topic pages to local health 
resources by geographic areas, including hospitals, physicians, nursing 
homes, support groups, health screening providers and many others. This 
will allow health consumers to link directly from a health topic, for 
example asthma, to local services such as clinics, pulmonary 
specialists, and support groups in the geographic area selected.
    Yet another service is NLM's clinical trials database, which lists 
more than 53,000 United States and international trials for a wide 
range of diseases. The clinical trials database is a free and 
invaluable resource to patients and families who are interested in 
participating in cutting-edge treatments for serious illnesses. Last 
September, Congress took a major step to improve the transparency of 
clinical trials for drugs and devices by passing legislation that 
greatly expands mandatory registration of clinical trials in 
ClinicalTrials.gov, requires submission of summary trial results data 
for the first time, and imposes significant penalties for non-
compliance.
    MLA and AAHSL thank Congress for efforts to improve public access 
to information regarding the results of clinical trials, but remain 
concerned that no additional funds have been appropriated to support 
this major new NLM responsibility. MLA and AAHSL applaud the success of 
NLM's outreach initiatives, particularly those initiatives that reach 
out to medical libraries and health consumers. We ask the subcommittee 
to encourage NLM to continue to coordinate its outreach activities with 
the medical library community in fiscal year 2009.
                  emergency preparedness and response
    MLA and AAHSL are pleased that NLM has established a Disaster 
Information Management Research Center to expand NLM's capacity to 
support disaster response and management initiatives, as recommended in 
the NLM Board of Regents Long Range Plan for 2006-2016, we ask the 
subcommittee to show its support for this initiative, which has a major 
objective ensuring continuous access to health information and 
effective use of libraries and librarians when disasters occur. 
Following Hurricane Katrina, NLM worked with health sciences libraries 
across the country to provide health professionals and the public with 
access to needed health and environmental information by: (1) quickly 
compiling web pages on toxic chemicals and environmental concerns, (2) 
rapidly providing funds, computers and communication services to assist 
librarians in the field who were restoring health information services 
to displaced clinicians and patients and (3) rerouting interlibrary 
loan requests from the afflicted regions through the National Network 
of Libraries of Medicine.
            health information technology and bioinformatics
    NLM has played a pivotal role in creating and nurturing the field 
of medical informatics, most notably through the creation of GenBank 
and a wide array of related scientific data and analysis tools which 
provide critical infrastructure for the Nation's researchers.
    For nearly 35 years, NLM has supported informatics research and 
training and the application of advanced computing and informatics to 
biomedical research and healthcare delivery including a variety of 
telemedicine projects. Many of today's informatics leaders are 
graduates of NLM-funded informatics research programs at universities 
across the country. Many of the country's exemplary electronic health 
record systems have benefited from NLM grant support.
    MLA and AAHSL encourage the Subcommittee to continue their support 
of NLM's medical informatics and genomic science initiatives. MLA and 
AAHSL also request support for health information technology 
initiatives at the Office for the National Coordinator for Health 
Information Technology and the Agency for Healthcare Research and 
Quality that build upon initiatives housed at NLM.
                         nlm's facilities needs
    Over the past two decades NLM has assumed many new 
responsibilities, particularly in the areas of biotechnology, health 
services research, and high performance computing and consumer health. 
As a result, NLM has had tremendous growth in its basic functions 
related to the acquisition, organization and preservation of an ever-
expanding collection of biomedical literature and expanded staff. NLM 
now houses 1,100 staff in a facility built to accommodate only 650. 
This increase in the volume of biomedical information and in the number 
of personnel has led to a serious space shortage. Digital archiving has 
added to the challenge, as materials must often be stored in multiple 
formats and as new digital resources consume increasing amounts of 
storage space. As a result, the space needed for computing facilities 
has also grown, further squeezing out staff. In order for NLM to 
continue its mission as the world's premier biomedical library, a new 
facility is urgently needed. The NLM Board of Regents has assigned the 
highest priority to supporting the acquisition of a new facility. 
Further, Senate Report 108-345 that accompanied the fiscal year 2005 
appropriations bill acknowledged that the design for the new research 
facility at NLM had been completed, and the subcommittee urged NIH to 
assign a high priority to this construction project so that the 
information-handling capabilities and the good of biomedical research 
are not jeopardized. MLA and AAHSL encourage the subcommittee to 
provide the resources necessary to construct a new facility for NLM.
    Thank you for the opportunity to present the views of the medical 
library community.
                                 ______
                                 
         Prepared Statement of the Melanoma Research Foundation
    Mr. Chairman and members of the subcommittee, I thank you for 
providing me the opportunity to submit testimony to the Senate Labor, 
Health and Human Services Appropriations Subcommittee. I am Randy 
Lomax, and I am a melanoma survivor and chairman of the board of the 
Melanoma Research Foundation.
                      melanoma research foundation
    The Melanoma Research Foundation (MRF) is committed to research, 
education and advocacy in our national battle to find more effective 
treatments and, ultimately, a cure for this disease. We are the primary 
U.S. non-profit organization serving the melanoma community and welcome 
your partnership and support of our efforts.
    Our programs and services include:
  --Research.--In 2008 we are investing $1 million to fund melanoma 
        research grants. These include 14 Career Development Awards 
        ($50,000 per year for a maximum of 2 years) and 3 Established 
        Investigator Awards ($100,000 per year for a maximum of two 
        years). We are committed to attracting the best and brightest 
        young scientists to melanoma research and to funding long-term 
        scientists on the cutting edge of finding answers. We are also 
        supporting the Society for Melanoma Research, the international 
        organization of melanoma scientists, through an annual grant 
        which supports ongoing efforts as well as their annual 
        educational convention.
  --Education.--In addition to this website, we manage the Melanoma 
        Patients Information Page (www.melanoma.org), the international 
        chat room for the melanoma community; and distribute a 
        quarterly newsletter of information, activities and resources. 
        MRF also sponsors educational symposia around the United 
        States. I encourage you to check our website to see where and 
        when these symposia will be held in 2008. In 2007 we initiated 
        a ``Melanoma 101'' teleconference with a leading melanoma 
        clinician that provided a personal opportunity to both learn 
        more about this disease, as well as asking questions of a 
        leading physician in the melanoma field. We will continue these 
        teleconferences in 2008.
  --Advocacy.--MRF is active in Washington, DC. We work to keep 
        melanoma awareness a high priority with elected officials and 
        to encourage their support of research funding. As well, we are 
        in ongoing communications with the National Cancer Institute of 
        the National Institutes of Health. To increase our presence 
        with federal officials, MRF spearheaded the creation of a 
        Melanoma Alliance of all melanoma organizations in the United 
        States and is the primary supporter of this new organization.
                     melanoma and skin cancer facts
    The statistics on melanoma and skin cancer are staggering and 
impact all Americans. The following background information on melanoma 
has been taken from the introductory section of the National Cancer 
Institutes' ``Community-Oriented Strategic Action Plan for Melanoma 
Research'':
  --Incidence of Melanoma is High and is Increasing.--The American 
        Cancer Society estimated that in 2007, there were almost 60,000 
        new cases of melanoma, the most serious form of skin cancer, 
        and more than 8,000 deaths. The NCI has documented a 619 
        percent increase in the annual incidence of melanoma and a 165 
        percent increase in the annual mortality from 1950 to 2000. 
        Melanoma continues to be the fifth leading type of new cancer 
        diagnosis in the United States. The mortality rate of melanoma 
        for persons ages 16-29 is exceeded only by breast cancer, 
        cervical cancer and non-Hodgkin's Lymphoma. Furthermore, while 
        the death rates for other common cancers such as breast, colon, 
        and prostate cancer are declining, death rates for melanoma 
        have increased over the past 25 years.
  --Melanoma Results in Lost Years in the Lives of Americans.--Melanoma 
        primarily affects individuals in the prime of their lives--the 
        mean age for diagnosis of melanoma is 50, while for many other 
        cancers it is 65 to 70. Advanced melanoma takes a greater toll 
        than other solid tumors in terms of productive life-years lost. 
        Approximately $1.5 billion is spent in the United States each 
        year on treatment of melanoma.
    Despite these alarming statistics, there is no cure for melanoma. 
There has been progress in the clinical management of melanoma, but the 
only curative treatment available is surgery to remove the primary 
tumor or lymph nodes prior to metastasis. For patients with advanced 
melanoma, their median lifespan is less than one year.
                     skin cancer prevention and cdc
    Research funding for the prevention of skin cancer has been 
disproportionately low. Skin cancer stands alone as the cancer for 
which incidence and mortality are rising unabated while the best means 
for combating the disease, prevention and early detection, continues to 
be severely underutilized. In part, this is related to the fact that 
less than 2 percent of the Centers for Disease Control and Prevention's 
cancer control budget is devoted to prevention of skin cancer. For 
fiscal year 2009, we are requesting that the CDC's skin cancer 
prevention program receive $5 million for public and professional 
education.
                     melanoma research and the nih
    The Melanoma Research Foundations joins the biomedical advocacy 
community within urging the Appropriations Committee to provide a 6.5 
percent increase in funding for the National Institutes of Health in 
its fiscal 2009 Labor, Health and Human Services, Education and Related 
Agencies Appropriations bill.
    However, we understand the challenges facing the Appropriations 
Committee, and the problems created by the President's proposed budget 
for non-defense discretionary spending, which fails to offer any 
increase for NIH over the fiscal 2008 enacted level. For that reason, 
we respectfully request the Committee's support for report language 
encouraging the National Cancer Institute to be more strategic in 
investing the limited dollars for melanoma research that it does 
receive.
    By way of background, we at MRF have been working with Congress, 
the NCI, and the extramural research community, to develop a strategic 
plan for melanoma research. The fiscal 2007 Senate Appropriations 
Committee (Senate Report No. 109-287) requested that the NCI to convene 
a panel of extramural and intramural scientists and consumers to 
identify the current shortfalls and promise of melanoma research and 
develop a 5-year strategic plan for melanoma research that recommends 
new directions and targets for future research.
    In response to that language, the NCI convened a workshop in 
February 2007, and from the recommendations of that meeting prepared a 
``Community-Oriented Strategic Action Plan for Melanoma Research,'' 
which was submitted to Congress in July of last year. This Strategic 
Plan identified three over-arching transformational melanoma research 
opportunities: reducing melanoma mortality through prevention and early 
detection; streamlining the development of personalized melanoma 
diagnosis and treatment; and improving melanoma survival. The panel 
also identified three cross-cutting, resource-building initiatives that 
are needed to support efforts to address the three transformational 
research opportunities: creating a Melanoma Investigators Consortium; 
promoting sharing of melanoma biospecimens, cell lines, animal models, 
and research data; and creating a critical mass of researchers in 
melanoma.
    The Congress renewed its interest in NCI's progress in implementing 
the recommendations of the ``Strategic Plan for Melanoma Research'' in 
the fiscal 2008 Senate Appropriations Committee Report. That report 
``strongly encourage[d] the NCI to devote sufficient funds in the areas 
of research opportunity identified by the plan and issue program 
announcements in those areas.'' The Appropriations Committee went on to 
request the Cancer Institute ``to report by July 1, 2008, on steps it 
has taken to implement the plan.''
    Mr. Chairman, the melanoma advocacy and extramural research 
community have been working with NCI and we agree that there are 
specific opportunities NCI can take advantage of to advance melanoma 
research. Those opportunities are:
  --targeted therapies in melanoma, including searching for the genes 
        that drive melanoma, inhibiting pathways that drive melanoma, 
        and developing biomarkers for classification, detection, risk 
        assessment and therapy selection;
  --host response in melanoma, including developing strategies to 
        target inhibitory immune cells and to augment the specific and 
        innate immune response; and
  --melanoma prevention, including identification of mechanisms by 
        which intense sun exposure lead to the development of melanoma, 
        developing applications of imaging technology for early 
        detection, and making progress toward facilitating a randomized 
        trial of screening for melanoma.
    We have included language for the fiscal year 2009 committee report 
that encourages the NCI to invest its melanoma research dollars on the 
strategic areas identified above.
    Thank you, Mr. Chairman, for providing me the opportunity to 
represent the community of people affected melanoma and to present 
written testimony before the Committee on the need for increased 
funding for NIH and NCI and ensuring that the dollars NCI has for 
research in melanoma are strategically used according to the plan 
developed by the research community.
                       national cancer institute
    Melanoma.--The Committee is aware of the ongoing dialogue between 
the National Cancer Institute and the advocacy and extramural research 
community on prioritizing NIH-funded melanoma research, starting with 
the 2005 Roadmap for New Opportunities in Melanoma Research and most 
recently with the 2007 Community-Oriented Strategic Action Plan for 
Melanoma Research.
    The Committee is further aware of the advocacy and research 
community's effort to further prioritize melanoma research into three 
categories: targeted therapies in melanoma (basic), host response in 
melanoma (clinical); and prevention, including exploring the 
feasibility of a randomized trial of screening for melanoma. In a 
period of limited resources, the Committee encourages the NCI to better 
target its funds to those areas of research opportunity identified 
above--basic, clinical, and prevention--and utilize all available 
mechanisms, including program announcements, to target research in 
those areas. The Committee requests the NCI to report by July 1, 2009, 
on steps it has taken to implement those strategic investments in 
melanoma research.
                                 ______
                                 
                  Prepared Statement of Mended Hearts
    I am Robert A. Scott, National Advocacy Chairman for Mended Hearts 
Inc., a heart disease support group with more than 300 chapters across 
the United States and Canada. In 2007, accredited Mended Hearts 
volunteers visited about 3,000 heart patients in more than 400 
hospitals throughout the United States.
    As a walking testimony of the benefits of NIH-supported heart 
research, I would like to share my story. In 1998, at age forty-eight, 
I suffered my first heart attack while playing volleyball. While at 
Woonsocket, Rhode Island's Landmark Medical Center, doctors diagnosed 
me as suffering a so called silent heart attack. I learned that as many 
as 4 million Americans experience this type of episode--a heart attack 
with no warning.
    After being stabilized, I was transferred to Roger Williams 
Hospital, in Providence, Rhode Island for a heart catheterization--the 
gold standard for diagnosis of heart problems. The procedure showed 
that I had a blockage in my artery that required a stent to open it. 
Also, it showed that the lower chamber of my heart was damaged, 
resulting in congestive heart failure that could be controlled with 
medicine. A stent was inserted in my artery in Rhode Island Hospital.
    In 1999, I received another heart catheterization in Miriam 
Hospital because of the damage to my heart from the silent heart 
attack. However, this time, I was told that my artery could not be 
repaired with a stent and that I needed heart bypass surgery the next 
morning. Calling me a high risk patient because of my age and my 
weakened heart, my surgeon encouraged me to find a doctor in Boston 
because my heart might not start again. However, he assured me that if 
this happens they had a device that could keep me alive for only seven 
hours. Thank goodness, he told me that in Boston they had another 
device that could keep me alive for 7 months while they located a 
replacement heart. In less then 10 hours, I went from the possibility 
of needing another stent, heart bypass surgery, and a heart transplant. 
My journey with heart disease continued.
    My next stop was to visit my local cardiologist in Woonsocket who 
estimated my survival rate at 20 percent, but he thought I would 
survive the heart bypass surgery. Thankfully, he was right and I 
survived heart bypass surgery.
    But my journey didn't end there. My congestive heart failure was 
causing my heart to beat irregularly, so an implantable defibrillator 
was inserted to control the problem in 2002. However, this device had 
to be replaced nearly 4 years later. My story continues in 2007 where I 
started experiencing daily chest pain and shortness of breath. Yet 
another heart catheterization showed that I needed an additional stent, 
but this time in Miriam Hospital. After the procedure, the doctor told 
me the original heart bypass surgery was no longer effective. Although 
I was scared, my doctors comforted me by explaining that a new medical 
innovation could save my life--a drug eluting stent. They explained 
that it could open up the original blockage from my silent heart 
attack. My doctor explained that if these state-of-the art stents had 
been available in 1998, I would not have had to have heart bypass 
surgery.
    Today, heart attack, stroke and other cardiovascular diseases 
remain our Nation's most costly and No. 1 killer and a major cause of 
disability. Thanks to medical research supported by the NIH, I am alive 
today. I am concerned that NIH continues to invest only 7 percent of 
its budget on heart research and a mere 1 percent on stroke research 
when there are so many people in our country just like I am. Enhanced 
NIH funding dedicated to heart and stroke research will bring us closer 
to a cure for these often deadly and disabling diseases.
                                 ______
                                 
     Prepared Statement of the Montgomery County Stroke Association
    I am Flora Ingenhousz, a psychotherapist in private practice in 
Silver Spring, Maryland. I have always been in excellent health and 
live an active, healthy lifestyle. Doctors always commented on my low 
blood pressure and my excellent cholesterol numbers. But I suffered a 
stroke 2 years ago. It was a shock to me and my family, friends and 
clients.
    One morning 2 years ago, when doing a load of laundry, I had no 
idea how to set the dials, despite the fact that I had used them weekly 
for the last 10 years. I stood there for what seemed an eternity before 
I figured out how to set the dials.
    Next I went to do yoga. In one of the poses, I noticed my right arm 
was hanging limp. When my husband asked me a question, my answer was 
just the opposite of what I wanted to say. I caught my error and tried 
again, but it soon became clear that something was wrong. My symptoms 
kept getting worse.
    When we walked into the ER, my right leg was weak, and I could not 
sign my name at the desk. Twelve hours later, I could not move my right 
side, and my speech was reduced to yes and no. Not a good thing for a 
psychotherapist, where language is a primary tool!
    In the ER, a CT scan showed a hemorrhagic or bleeding stroke where 
an artery burst, destroying millions of brain cells within minutes, 
affecting my speech and my ability to perform activities like dressing 
in the correct order. Also, my right arm and leg were extremely weak. 
However, I could understand everything, and I was never completely 
paralyzed. But, I was scared.
    I was in intensive care for 4 days of observation and lots of 
testing, but the tests provided no answers. Two days after my stroke, 
while still in intensive care, I started occupational, physical and 
speech therapy. It was extremely challenging to feed myself with my 
right hand, requiring all my concentration. After a meal or brushing my 
teeth, I was exhausted. Speaking was the hardest of all. My brain 
seemed devoid of words.
    After being stabilized, I was transferred to the National 
Rehabilitation Hospital. For a week, I endured speech, physical, 
occupational and recreational therapies.
    Speech therapy was the hardest, but also the most important given 
my profession. Several times, the speech therapist challenged me to the 
brink of tears.
    After a week at the Rehabilitation Hospital, I went home and to 
outpatient therapies. Speech therapy lasted the longest. After being 
discharged from speech therapy, I still had deficits in my 
organizational skills and abstract thinking.
    As I struggled with starting to see my clients again, I slid into a 
deep depression. I was not confident that I could continue to practice. 
For months, I saw no point in living. Recovery from my post-stroke 
depression was harder than the recovery of my arms and legs and even 
speech!
    Being a psycho-therapist, I know how to treat depression, so I went 
to a psychiatrist who prescribed anti-depressant medication and, I also 
found a psychotherapist.
    After months on anti-depressants and excellent psychotherapy, my 
depression began to lift. I continue on the drugs and to see my 
psychotherapist. Emotionally, the aftermath of my stroke cut deep.
    I am fortunate that 2 years post-stroke, I am back to my practice 
full-time. I lead support groups for stroke survivors and caregivers 
through the Montgomery County Stroke Association and serve on its 
Board. I now lecture on stroke, stroke prevention and stroke recovery. 
I also founded ``hope for stroke''--individual and family counseling 
for stroke survivors and caregivers. In addition, I have participated 
in a NIH study about stroke recovery.
    Once again, I am in excellent health and have resumed my active 
life style. I thank my brain for having the capacity to work around the 
dead cells. But most of all, I thank my therapists for my recovery. 
Their ability to zero in so effectively would not have been possible 
without NIH research.
    Because stroke is a leading cause of death and disability and major 
cost to society, I urge you to provide stroke research with a 
significant funding increase. I am concerned that NIH continues to 
invest only 1 percent of its budget in stroke research.
    Thank you.
                                 ______
                                 
    Prepared Statement of the National Alliance to End Homelessness
    The National Alliance to End Homelessness (the Alliance) is a 
nonpartisan, nonprofit organization which represents a united effort to 
address the root causes of homelessness and challenge society's 
acceptance of homelessness as an inevitable by-product of American 
life. These partners are local faith-based and community-based 
nonprofit organizations and public sector agencies that provide 
homeless people with housing and services such as substance abuse 
treatment, job training, and physical health and mental health care.
                    summary of appropriations goals
Moving Forward to End Homelessness
  --Communities across America are working toward ending homelessness. 
        Communities are using Federal, State, and local funds to help 
        homeless persons maintain housing. It is important that this 
        progress not be undermined. To this end, the Alliance 
        recommends the following:
    --Allocate an additional $44 million for services for homeless 
            people within SAMHSA's PRNS accounts of the Center for 
            Mental Health Services and Center for Substance Abuse 
            Treatment.
    --Increase funding to Projects for Assistance in Transition from 
            Homelessness (PATH) to $75 million.
    --Increase the Runaway and Homeless Youth Act Programs to $140 
            million.
    --Provide a $248 million increase in the Community Health Center 
            program within Health Resource Services Administration. 
            This would result in a $21.5 million increase in the Health 
            Care for the Homeless program.
    --Fund Education for Homeless Children and Youth services at its 
            full authorized level of $85 million.
    --Increase funding for the Homeless Veterans Reintegration Program 
            to $50 million.
Connecting Homeless Families, Individuals, and Youth to Mainstream 
        Services
  --People experiencing homelessness also depend on mainstream programs 
        such as the ones below to live day to day and once housed, 
        remain housed. The Alliance recommends the following to meet 
        this goal:
    --Fund the Social Services Block Grant at $2.8 billion
    --Reject cuts and fund the Community Services Block Grant at $700 
            million
    --Appropriate $60 million in education and training vouchers for 
            youth exiting foster care under the Safe and Stable 
            Families Program.
    --Fund the Community Mental Health Services Performance Partnership 
            Block Grant at $482.9, a $61.9 million increase.
    --Fund the Substance Abuse Prevention and Treatment Block Grant at 
            $1.858 billion
                               background
    Our 2007 report, Homelessness Counts, estimates that 744,313 people 
are homeless on any given night. This includes 98,452 families with 
children and 23 percent of homeless people are defined as chronically 
homeless; these are people with a disability and have been homeless 
repeatedly or continuously for 12 months. Successful interventions for 
all homeless populations couple housing with an appropriate level of 
services for the family or individual. We call on Congress to 
adequately fund programs that assist States and local entities in 
developing permanent housing and providing the necessary social 
services to end homelessness for all Americans.
                     detailed program descriptions
Goal #1.--Moving Forward to End Homelessness
            Support Services for Permanent Supportive Housing Projects
    The Alliance recommends allocating an additional $44 million for 
services in permanent supportive housing within SAMHSA's Center for 
Mental Health Services and Center for Substance Abuse Treatment. Years 
of reliable data and research demonstrate that the most successful 
intervention to solve chronic homelessness is linking housing to 
appropriate support services. Current investments by SAMHSA in homeless 
programs are highly effective and cost efficient. Last year, the 
Department of Health and Human Services updated its 2004 report 
entitled Ending Chronic Homelessness: Strategies for Action. While 
acknowledging some success since 2004, the strategic plan explained 
that personal and programmatic barriers to mainstream programs, such as 
Medicaid, TANF, Medicare and general substance abuse and mental health 
services funds, still exist and must be overcome to end homelessness.
            Projects for Transition Assistance from Homelessness (PATH)
    The Alliance recommends that Congress increase PATH funding to $75 
million and adjust the funding formula to increase allocations for 
small States and territories.
    PATH provides outreach to eligible consumers and ensures that those 
consumers are connected with mainstream services. Under the PATH 
formula grant, approximately 30 States share in the program's annual 
appropriations increases. The remaining States and territories receive 
the minimum grant of $300,000 for States and $50,000 for territories. 
These amounts have not been raised since 1991. To account for 
inflation, the minimum allocation should be raised to $600,000 for 
States and $100,000 for territories. Amending the minimum allocation 
requires a legislative change. If the authorizing committees do not 
address this issue, we hope that appropriators will explore ways to 
make the change through appropriations bill language.
            Runaway and Homeless Youth Programs
    The Alliance recommends funding the Runaway and Homeless Youth Act 
(RHYA) programs at $140 million. RHYA programs end homelessness by: 
engaging youth living on the street with Street Outreach Programs, 
quickly providing emergency shelter and family crisis counseling 
through the Basic Centers, or providing supportive housing that helps 
young people develop lifelong independent living skills through 
Transitional Living Programs. Last year, the Congressional Research 
Service issued a report complimenting the good work of RHYA programs 
but detailing the gaps in services due to limited funding. For example, 
only one-tenth of the youth who connect with a RHYA program are able to 
receive services. It is essential that Congress increase this program.
            Community Health Centers (CHC) and Health Care for the 
                    Homeless (HCH) programs
    The Alliance recommends a $248 million increase in the CHC program. 
This would result in a $21.5 million increase in the HCH program. 
Persons living on the street suffer from health problems resulting from 
or exacerbated by being homeless, such as hypothermia, frostbite, and 
heatstroke. In addition, they often have infections of the respiratory 
and gastrointestinal systems, tuberculosis, vascular diseases such as 
leg ulcers, and hypertension.\1\ Health care for the homeless programs 
are vital to prevent these conditions from becoming fatal. Congress 
allocates 8.7 percent of the Consolidated Health Centers account for 
HCH projects.
---------------------------------------------------------------------------
    \1\ Harris, Shirley N, Carol T. Mowbray and Andrea Solarz. Physical 
Health, Mental Health and Substance Abuse Problems of Shelter Users. 
Health and Social Work, Vol. 19, 1994.
---------------------------------------------------------------------------
            Education for Homeless Children and Youth
    The Alliance recommends funding Education for Homeless Children and 
Youth (EHCY) at $85 million. School is the most important potential 
source of stability for homeless children. The mission of the EHCY 
program is to ensure that these children can continue to attend school 
and thrive. The EHCY program, within the Department of Education's 
Office of Elementary and Secondary Education, removes obstacles to 
enrollment and retention by establishing liaisons between schools and 
shelters and providing funding for transportation, tutoring, school 
supplies, and the coordination of statewide efforts to remove barriers.
            Homeless Veterans Reintegration Program (HVRP)
    The Alliance recommends that Congress increase HVRP funding to $50 
million.
    HVRP, within the Department of Labor's Veterans Employment and 
Training Service (VETS), provides competitive grants to community-
based, faith-based, and public organizations to offer outreach, job 
placement, and supportive services to homeless veterans. HVRP is the 
primary employment services program accessible by homeless veterans. It 
is estimated that this program only reaches about two percent of the 
overall homeless veteran population. An appropriation at the authorized 
level of $50 million would enable HVRP grantees to reach approximately 
19,866 homeless veterans.
Goal #2.--Connecting Homeless Families, Individuals and Youth to 
        Mainstream Services
            Social Services Block Grant (SSBG)
    The Alliance recommends that Congress increase SSBG funding to $2.8 
billion. SSBG funds are essential for programs dedicated to ending 
homelessness. In particular, youth housing programs and permanent 
supportive housing providers often receive State, county, and local 
funds which originate from the SSBG. As the U.S. Department of Housing 
and Urban Development has focused its funding on housing, programs that 
provide both housing and social services have struggled to fund the 
service component of their programs. This gap is often closed using 
Federal programs such as SSBG.
            Community Services Block Grant (CSBG)
    The Alliance recommends that Congress rejects cuts and fund CSBG at 
$700 million. Funding cuts for CSBG will destabilize the progress 
communities have made toward ending homelessness by not only ending 
services directly provided by CSBG funds but limiting a community's 
ability to access HUD dollars. Community Action Agencies (CAAs), which 
are the primary local recipients of CSBG funding, are directly involved 
in housing and homelessness services. In several communities, CAAs lead 
the Continuum of Care (CoC). CoCs coordinate local homeless service 
providers and the community's McKinney-Vento Homeless Assistance Grant 
application process with the Department of Housing and Urban 
Development. In the fiscal year 2004 CSBG Information Systems report 
published by the HHS, CAAs reported administering $207.4 million in 
Section 8 vouchers, $30 million in Section 202 services \2\ and $271.1 
million in other HUD programs which includes homeless program 
funding.\3\
---------------------------------------------------------------------------
    \2\ Section 202 is dedicated to housing from elderly and disabled 
individuals and families.
    \3\ U.S. Department of Health and Human Services, Administration of 
Children and Families. The Community Services Block Grant Fiscal Year 
2004 Statistical Report. Prepared by the National Association for State 
Community Services Programs.
---------------------------------------------------------------------------
            Foster Youth Education and Training Vouchers (ETV)
    The Alliance recommends that Congress appropriate $60 million in 
ETV for youth exiting foster care under the Safe and Stable Families 
Program. The ETV program offers funds to foster youth and former foster 
youth to enable them to attend colleges, universities and vocational 
training institutions. Students may receive up to $5000 a year for 
college or vocational training education. The funds may be used for 
tuition, books, housing, or other qualified living expenses. Given the 
large number of people experiencing homelessness who have a foster care 
history, it is important to provide assistance such as ETV to stabilize 
youth and prevent homelessness.
            Community Mental Health Performance Partnership Block Grant 
                    (MHBG)
    The Alliance recommends that Congress appropriate $482.9 million 
for the MHBG. The MHBG provides flexible funding to States to provide 
mental health services. Ending homelessness requires Federal, State, 
and local partnerships. Additional mental health funds will give States 
the resources to improve their mental health system and serve all 
people with mental health disorders better, including homeless 
populations. For example, MHBG funds can be used to pay for services 
linked to housing for homeless people, thereby meeting the match 
requirements for projects funded through Shelter Plus Care or the 
Supportive Housing Program.
            Substance Abuse Prevention and Treatment Block Grant (SAPT)
    The Alliance recommends that Congress appropriate $1.858 billion 
for the SAPT Block Grant. The SAPT Block Grant is the primary source of 
Federal funding for substance abuse treatment and prevention for many 
low-income individuals, including those experiencing homelessness. 
Studies have shown that half of all people experiencing homelessness 
have a diagnosable substance use disorder. States need more resources 
to implement proven treatment strategies and work with housing 
providers to keep homeless, especially chronically homeless populations 
stably housed.
                               conclusion
    Homelessness is not inevitable. As communities implement plans to 
end homelessness, they are struggling to find funding for the services 
homeless and formerly homeless clients need to maintain housing. The 
Federal investments in mental health services, substance abuse 
treatment, employment training, youth housing, and case management 
discussed above will help communities create stable housing programs 
and change social systems which will end homelessness for millions of 
Americans.
                                 ______
                                 
Prepared Statement of the National Alliance for Eye and Vision Research 
                                (NAEVR)
                           executive summary
    NAEVR requests fiscal year 2009 NIH funding at $31 billion, or a 
6.6 percent increase over fiscal year 2008, to balance the biomedical 
inflation rate of 3.6 percent and to begin to restore NIH's purchasing 
power. Although NAEVR commends the congressional leadership's actions 
to significantly increase NIH funding above the Administration's budget 
request in fiscal year 2008 appropriations, the net 0.46 percent 
increase meant a net loss in NIH purchasing power. For 5 consecutive 
years, NIH funding has failed to keep pace with the biomedical 
inflation rate and NIH has lost more than 10 percent of its purchasing 
power. The administration's fiscal year 2009 budget, which proposes to 
freeze the NIH budget at the fiscal year 2008 level, threatens to 
further hinder the momentum of discovery leading to treatments that are 
saving lives--as well as restoring the quality of life--and maintaining 
the Nation's competitive edge in medical research. Secure and 
consistent funding for health and scientific research must be part of 
the nation's long-term strategies for sustained economic growth. NIH is 
a world-leading institution and must be adequately funded so that its 
research can reduce healthcare costs, increase productivity, improve 
quality of life, and ensure our Nation's global competitiveness.
    NAEVR requests that Congress make vision health a top priority by 
funding the NEI at $711 million in fiscal year 2009, or a 6.6 percent 
increase over fiscal year 2008. The NEI was flat funded in fiscal year 
2008, meaning that over the past five funding cycles it has lost 18 
percent of its purchasing power, reducing the number of grants by 160, 
which threatens its impressive record of breakthroughs in basic and 
clinical research that have resulted in treatments and therapies to 
save and restore vision, as well as to prevent eye disease. Vision 
impairment/eye disease is a growing, major public health problem that 
disproportionately affects the aging and minority populations, costing 
the United States $68 billion annually in direct and societal costs, 
let alone reduced independence and quality of life. Adequately funding 
the NEI is a cost-effective investment in our nation's health, as it 
can delay, save, and prevent expenditures, especially to the Medicare 
and Medicaid programs.
Fiscal year 2009 NEI funding at $711 million enables it to lead 
        collaborative research reflecting the new paradigm of 21st 
        century healthcare that is predictive, preemptive, 
        personazlied, and participatory
    NEI research addresses the NIH's overall major health challenges as 
set forth by NIH Director Elias Zerhouni, M.D.: an aging population; 
health disparities; the shift from acute to chronic diseases; and the 
co-morbid conditions associated with chronic diseases (e.g., diabetic 
retinopathy as a result of the epidemic of diabetes). NEI research 
responds to Dr. Zerhouni's vision for NIH research that is 
collaborative and cost-effective and meets the 21st century 
``P4Medicine'' paradigm of predictive, preemptive, personalized, and 
participatory research and clinical practice. For example:
  --One-quarter of all genes identified to date through NEI's 
        collaboration with the Human Genome Project is associated with 
        eye disease, such as age-related macular degeneration (AMD), 
        retinitis pigmentosa (RP), and glaucoma. NEI-funded researchers 
        have discovered gene variants strongly associated with an 
        individual's risk of developing AMD, the leading cause of 
        blindness in older Americans. These variants, responsible for 
        about 60 percent of the cases of AMD, are associated with the 
        body's inflammatory response and may relate to other 
        inflammation-associated diseases, such as Alzheimer's and 
        Parkinson's.
  --NEI is currently conducting the second phase of its Age-Related Eye 
        Disease Study (AREDS), which follows up on initial findings 
        that high levels of dietary zinc and antioxidant vitamins 
        (Vitamins C, E and beta-carotene) are effective in reducing 
        vision loss in people at high risk for developing advanced 
        AMD--by a magnitude of 25 percent. NEI estimates that 1.3 
        million Americans would develop advanced AMD if no treatment 
        was given, and if all individuals at risk engaged in the AREDS 
        supplement regimen, more than 300,000 of them would avoid 
        advanced AMD and any associated vision loss during the next 5 
        years.
  --NEI's collaborative research into factors that promote or inhibit 
        new blood vessel growth has resulted in the first generation of 
        ophthalmic drugs approved by the Food and Drug Administration 
        (FDA) to inhibit abnormal blood vessel growth in ``wet'' AMD, 
        thereby stabilizing and restoring vision, and NEI's Diabetic 
        Retinopathy Clinical Research (DRCR) Network is further 
        evaluating these drugs for treatment of macular edema 
        associated with diabetic retinopathy (DR). In March 2008, NEI-
        funded researchers announced that damage from both AMD and DR 
        was prevented and even reversed when the protein Robo4 was 
        activated in mouse models that simulate the two diseases. Robo4 
        treated and prevented the diseases by inhibiting abnormal blood 
        vessel growth and by stabilizing blood vessels to prevent 
        leakage. Since this ``Robo4 Pathway'' research used animal 
        models from drug development, the time required to test this 
        approach in humans could be shortened, expediting approvals for 
        new therapies.
    These examples primarily reflect NEI's trans-Institute research 
within NIH. The NEI has also collaborated with other Department of 
Health and Human Services (DHHS) agencies, specifically to share the 
results of its basic and clinical research which may impact the product 
approval and reimbursement processes. For example:
  --In a March 2008 meeting, NEI collaborated with FDA's drug and 
        device Centers to consider the appropriateness of new clinical 
        endpoints in glaucoma clinical trials. Advances in visual 
        imaging technologies--many of which emerged from collaborative 
        research between the NEI and the National Institute of 
        Biomedical Imaging and Bioengineering (NIBIB)--have enabled 
        researchers to better detect structural changes in the nerve 
        fiber layer of the retina and contours of the optic nerve head. 
        These structural changes could potentially be used as a direct 
        endpoint in a clinical trial, rather than a surrogate endpoint 
        such as elevated intra-ocular pressure, when appropriately 
        correlated to functional changes in vision to assure clinical 
        significance of a new therapy. This meeting, which followed a 
        November 2006 joint NEI-FDA meeting on clinical endpoints in 
        AMD and DR clinical trials, represents the cost-effectiveness 
        of NEI funding, as its research results may ultimately shorten 
        the time and cost associated with clinical trials and 
        facilitate approval of new diagnostics/therapies.
  --In collaboration with the Centers for Medicare and Medicaid 
        Services (CMS), NEI has launched the Comparison of AMD 
        Treatments Trial (CATT), a comparative effectiveness study of 
        the two drugs used to block growth of abnormal blood vessels in 
        patients with the ``wet'' form of AMD. NEI's collaboration with 
        CMS could guide clinical practice and reduce costs to the 
        Medicare program.
The NEI's diminished purchasing power jeopardizes its ability to follow 
        up on research breakthroughs from past investment
    Congress must adequately fund NEI so it can initiate promising new 
research, pursue results that have emerged from previous breakthroughs, 
and offer up its ``fair share'' of funding in its extensive 
collaborations. The number of NEI grants has declined by 160 over the 
past 5 years, from 1,214 in fiscal year 2004 to 1,054 in fiscal year 
2008, representing myriad ``lost opportunities''--any one of which 
could have been the key to curing eye disease or restoring vision. 
Examples of such lost opportunities include:
  --Ocular gene therapy holds great promise for retinal degenerative 
        diseases, in which nearly 200 gene defects have been 
        implicated. Investigators supported by NEI and private-funding 
        organization Foundation Fighting Blindness (FFB) have begun 
        human clinical trials of a gene therapy to treat Leber 
        Congenital Amaurosis (LCA), a rapid retinal degeneration that 
        blinds infants in the first year of life. Previous research has 
        restored vision in dogs with LCA, and the results of the human 
        clinical trials are forthcoming. Although the NEI could expand 
        this program to target more diseases, current budget realities 
        limit further research.
  --Promising protocols proposed within the Diabetic Retinopathy 
        Clinical Research Network will not be funded. The DRCR Network 
        is a large, multi-center study that engages ophthalmologists 
        and optometrists, many in community health centers, in basic 
        and clinical research. Past NEI diabetes networks developed 
        laser treatments for DR that save $1.6 billion annually in 
        federal disability payments.
  --NEI funding for epidemiological studies is already limited, which 
        jeopardizes future research into the basis/progression of eye 
        disease in additional ethic populations, such as Asian and 
        Native Americans. Past NEI studies identified a three-fold 
        greater risk of glaucoma in African Americans and glaucoma as 
        the leading cause of irreversible vision loss in African 
        Americans and Hispanics.
  --NEI will not be able to fund proposed new Clinical Research 
        Networks for AMD and for neuro-ophthalmic disorders. The latter 
        could assist in understanding visual disorders associated with 
        Traumatic Brain Injuries (TBI), especially those currently 
        being incurred in record numbers by soldiers in Iraq and 
        Afghanistan.
    NEI research into other significant eye disease programs such as 
cataract will be threatened, along with quality of life research 
programs into low vision and chronic dry eye. This occurs at a time 
when the U.S. Census cites significant demographic trends that will 
increase the public health problem of vision impairment and eye 
disease, such as the first wave of 78 million Baby Boomers celebrating 
their 65th birthday in 2010, with about 10,000 Americans turning 65 
each day for 18 years afterward.
Eye disease is a major public health problem increasing health costs, 
        reducing productivity, and diminishing quality of life
    The 2000 U.S. Census reported that more than 119 million people in 
the United States were age 40 or older--he population most at risk for 
an age-related eye disease. The NEI estimates that more than 38 million 
Americans age 40 and older currently experience blindness, low vision 
or an age-related eye disease such as AMD, glaucoma, diabetic 
retinopathy, or cataracts. This is expected to grow to more than 50 
million Americans by year 2020. Although the current annual cost of 
vision impairment and eye disease to the United States is $68 billion, 
it does not fully quantify the impact of direct healthcare costs, lost 
productivity, reduced independence, diminished quality of life, 
increased depression, and accelerated mortality. This presents a major 
public health problem and financial challenge to the public and private 
sectors.
    In public opinion polls over the past 40 years, Americans have 
consistently identified fear of vision loss as second only to fear of 
cancer. As recently as March 2008, the NEI's Survey of Public 
Knowledge, Attitudes, and Practices Related to Eye Health and Disease 
reported that 71 percent of respondents indicated that a loss of their 
eyesight would rate as a ``10'' on a scale of 1 to 10, meaning that it 
would have the greatest impact on their day-to-day life. As a result, 
federal funding for the NEI is a vital and cost-effective investment in 
the health, and vision health, of our nation as the treatments and 
therapies emerging from research can preserve and restore vision.
    NAEVR urges fiscal year 2009 NIH and NEI funding at $31 billion and 
$711 million, respectively.
                                 ______
                                 
     Prepared Statement of the National Alliance on Mental Illness
    Chairman Harkin, Senator Specter and members of the subcommittee, I 
am Anand Pandya, MD, President of the National Alliance on Mental 
Illness (NAMI). I am pleased today to offer NAMI's views on the 
subcommittee's upcoming fiscal year 2009 bill. With 210,000 members, 
NAMI is the Nation's largest grassroots organization representing 
persons with serious brain disorders and their families. Through our 
1,200 affiliates in all 50 States, we support education, outreach, 
advocacy and research on behalf of persons with serious brain disorders 
such as schizophrenia, manic depressive illness, major depression, 
severe anxiety disorders and major mental illnesses affecting children.
    The cost of mental illness to our Nation is enormous. It is 
estimated that the direct and indirect cost of untreated mental illness 
to our Nation exceeds $82 billion annually. However, these direct and 
indirect costs do not measure the substantial and growing burden that 
is imposed on ``default'' systems that are too often responsible for 
serving children and adults with mental illness who lack access to 
treatment. These costs fall most heavily on the criminal justice and 
corrections systems, emergency rooms, schools, families and homeless 
shelters. Moreover, these costs are not only financial, but also human 
in terms of lost productivity, lives lost to suicide, and broken 
families. Investment in mental illness research and services are--in 
NAMI's view--the highest priority for our Nation and this subcommittee.
      national institute of mental health (nimh) research funding
    The National Institute of Mental Health (NIMH) is the only Federal 
agency whose main objective is to fund biomedical research on serious 
mental illnesses. Through research, NIMH and the scientists it supports 
seek to gain an understanding of the fundamental mechanisms underlying 
illnesses that obstruct thought, emotion, and behavior and an 
understanding of what goes wrong in the brain in mental illness. NIMH 
strives, at the same time, to hasten the translation of this basic 
knowledge into clinical research that will lead to better treatments 
and ultimately be effective in our complex world with its diverse 
populations and evolving health care systems.
    For fiscal year 2009, the President is proposing $1.407 billion for 
scientific and clinical research at the National Institute of Mental 
Health (NIMH). This is only a $2 million increase above the fiscal year 
2008 level, far below the level needed to keep pace with medical 
research inflation. Since 2003, the end of the 5-year effort by this 
subcommittee to double biomedical research finding, the NIH has lost 
nearly 15 percent of its purchasing power as a result of flat budgets. 
If this trend is not reversed, the consequences for advancing mental 
illness research will be devastating. If NIMH funding continues to lag, 
we will lose the chance to define the individualized strategies and 
future medication options that this vital research heralds. A third 
generation of antipsychotic medication for schizophrenia, stronger 
antidepressant medication for depression and treatment strategies for 
bipolar disorder that improve long-term outcomes, are crucially 
important to those who suffer and will not be realized without further 
support from the Federal Government.
    Further, we will be unable to fund in the United States whole 
genome studies for serious mental illness which could transform the 
understanding of the causes and risk factors for these devastating 
illnesses and open new avenues for effective treatment. Likewise, we 
will be unable to advance schizophrenia and bipolar research progress, 
for example, understanding if early intervention with medication, 
therapy and rehabilitation will prevent disability or morbidity in 
persons with new onset schizophrenia. Finally, continued flat funding 
for NIMH will prevent us from addressing the epidemic of suicide in 
this country, including a substantial number of our young people who 
die or are disabled before their lives have truly started and the 
elderly who are cheated from their retirement years.
    For fiscal year 2009, NAMI supports the recommendations of the Ad 
Hoc Group on Medical Research and the Mental Health Liaison Group for a 
6.5 percent increase for the overall NIH budget and a similar increase 
for the NIMH. This would boost NIMH funding to $1.499 billion and allow 
the agency to regain lost purchasing power and keep pace with the 
Biomedical Research and Development Price Index.
                     redefining nimh to its mission
    NAMI applauds NIMH's efforts to re-align the Institute along 3 core 
principles: relevance, traction, and innovation.
  --Relevance refers to relevance to the mission. NIMH should continue 
        its strong support of basic science, but as the NAMHC workgroup 
        recommends in its report (http://www.nimh.nih.gov/council/
        brainBehavioralScience.cfm) some research areas are more 
        relevant than others.
  --Traction refers to the capacity for rapid progress in research 
        areas where new tools, such as 2-photon imaging, yield 
        definitive answers to long-standing questions.
  --Innovation is often endangered during periods of limited budget 
        growth. This work is highly relevant and NIMH is gaining 
        traction, but unless a priority is placed on such ``discovery'' 
        science, this unprecedented opportunity for innovation may not 
        receive the support it deserves.
    It is critical for us to move beyond the current universe of 
palliative treatments for serious mental illness. Even with optimal 
care, some children and adults living with serious mental illness will 
not be able to achieve recovery (as defined as permanent remission). As 
NIMH Director Dr. Tom Insel has noted, consumers and families need 
rapid, effective treatments that target the core pathophysiology of 
serious mental illnesses and the tools for early detection. Mental 
illness research can develop new diagnostic markers and treatments, but 
this will require defining the pathophysiology of these illnesses. NIMH 
now has the research tools necessary. Now is the time to set an 
ambitious goal of finding cures to these extremely disabling illnesses. 
However, NIMH must have the resources it needs to support this critical 
research agenda.
  funding for programs at samhsa's center for mental health services 
                                 (cmhs)
    The Center for Mental Health Services (CMHS)--part of the Substance 
Abuse and Mental Health Services Administration (SAMHSA)--is the 
principal Federal agency engaged in support for State and local public 
mental health systems. Through its programs CMHS provides flexible 
funding for the States and conducts service demonstrations to help 
States move toward adoption of evidence-based practice. Overall, the 
President is proposing a $209 reduction for the SAMHSA--dropping 
funding down to $3.025 billion for fiscal year 2009. Within CMHS, 
funding would be reduced by $144 million, largely through reductions 
and terminations of a number of demonstration and technical assistance 
programs.
    The President's request for major activities at CMHS for fiscal 
year 2009 is as follows:
  --The Mental Health Block Grant--Proposed for a current freeze at 
        $421 million,
  --The PATH Homeless Formula Grant--$60 million, a $7 million increase 
        above current levels,
  --Children's Mental Health--$114 million, a $12 million increase 
        above current levels, and
  --PAIMI Protection & Advocacy--$34 million, a $1 million reduction.
    Beyond seeking to impose level funding for these SAMHSA programs, 
the President's budget seeks $144 million in overall reductions to 
Programs of Regional and National Significance (PRNS) at CMHS, dropping 
the fiscal year 2008 appropriation from $299.3 million, down to $155.3 
million. PRNS are largely demonstration, targeted capacity expansion 
and other discretionary activities at the agency. Most of these 
reductions would come through terminating research demonstration 
programs and technical assistance programs.
    Among the activities within the PRNS account that are targeted for 
reductions are:
  --Mental Health Transformation State Incentive Grants (SIGs)--The 
        budget proposes no future SIG grants, a $26 million reduction,
  --Mental Health System Transformation--A $20.8 million program 
        proposed for elimination,
  --Garrett Lee Smith Suicide Prevention State Grants--The budget 
        proposes an $11.7 million reduction, from $29.5 million, down 
        to $17.8 million,
  --Homelessness Prevention and Service Demonstrations--Proposed for a 
        an $10.6 million cut, from $13.6 million down to $2.8 million,
  --Seclusion and Restrain Technical Assistance--$2.4 million proposed 
        for elimination,
  --Criminal Justice and Juvenile Justice Grants--A $6.68 million 
        activity for fiscal year 2008, proposed for a $2.8 million 
        reduction, and
  --Older Adults--A $4.8 million program proposed for elimination.
    NAMI urges the subcommittee to restore these cuts to the CMHS PRNS 
program for fiscal year 2009. These targeted capacity expansion and 
service demonstration initiatives are critical for the agency to 
continue its role as a leader in promoting replication of effective 
services that reach children and adults with serious mental illness.
                suicide prevention activities at samhsa
    NAMI is especially troubled by the President's proposal to cut 
funding for suicide prevention activities under the Garrett Lee Smith 
Act. Each year, over 31,000 Americans die by suicide and over 1.4 
million make a suicide attempt. Suicide deaths consistently outnumber 
homicide deaths by a margin of three to two. The statistics are 
troubling for our Nation:
  --In 2003, twice as many Americans died from suicide than from HIV/
        AIDS,
  --Suicide is the third leading cause of death for those between the 
        ages of 10 and 24 and the second leading cause of death for 
        American college students,
  --While the elderly comprise only 12 percent of the population, they 
        account for about 18 percent of our Nation's suicides,
  --Research has shown that more than 90 percent of people who die by 
        suicide have a mental illness and/or substance abuse disorder.
    Congress must continue to invest in effective suicide prevention 
strategies. NAMI urges this subcommittee to provide full funding for 
suicide prevention activities under the Garrett Lee Smith Act for 
fiscal year 2009--$40 million.
                chronic homelessness and mental illness
    Together, Congress and the President have set a goal of ending 
chronic homelessness by 2012. Ninety States and local governments have 
responded to this challenge by creating plans to end homelessness, and 
130 more States and local governments are in the process of developing 
similar plans. To address chronic homelessness, completed plans call 
for developing 80,000 new permanent supportive housing units. This will 
require creating 16,000 units of new permanent supportive housing for 
chronically homeless people in each of the next 5 years. Federal 
funding at the level of $5,000 per unit will leverage other resources 
to provide the comprehensive services needed to help chronically 
homeless people achieve housing stability and pursue recovery from 
mental illness and substance abuse problems.
    Over the course of a year, between 200,000 and 250,000 people 
experience long term or chronic homelessness. They are homeless for 
long periods of time or repeatedly, have one or more disabilities, and 
often cycle between homeless shelters, the streets, mental health 
facilities, emergency rooms, hospitals, and jails. The public cost for 
their care is extremely high, and their outcomes are very poor. The 
current funding level of SAMHSA homeless programs is $56 million. The 
President's fiscal year 2009 proposed budget recommended a $20 million 
funding cut to this total. NAMI urges an increase of $44 million for 
the Grants for the Benefit of Homeless Individuals (GBHI) and Treatment 
Systems for Homeless programs at SAMHSA, boosting funding to $100 
million for fiscal year 2009.
 the social security disability claims and appeals backlog crisis must 
                              be addressed
    Mr. Chairman, people with mental illness and other severe 
disabilities have been bearing the brunt of the backlog crisis for 
disability claims and appeals at Social Security. Behind the numbers 
are individuals with disabilities whose lives have unraveled while 
waiting for decisions--families are torn apart; homes are lost; medical 
conditions deteriorate; once stable financial security crumbles; and 
many individuals die. NAMI congratulates this subcommittee on the 
progress made for fiscal year 2008 with the appropriation for SSA's 
Limitation on Administrative Expenses (LAE), boosting it to $9.747 
billion. This amount was $148 million above the President's request and 
was the first time in years that the agency has received at least the 
President's request. While the fiscal year 2008 appropriation will 
allow the agency to hire some new staff and to reduce processing times, 
it will not be adequate to fully restore the agency's ability to carry 
out its mandated services.
    The President's request for the SSA fiscal year 2009 LAE is 
encouraging, but does not go far enough to put the agency on a clear 
path to provide its mandated services at a level expected by the 
American public. In order for SSA to meet its responsibilities, it is 
projected that the agency needs a minimum of $11.0 billion for its 
fiscal year 2009 administrative budget. This amount will allow the 
agency to not only significantly reduce the backlog, but also keep 
local offices open, provide adequate telephone services to the public, 
and maintain the integrity of its programs by performing more 
continuing disability reviews and SSI redeterminations.
                                 ______
                                 
 Prepared Statement of the National Alliance of State and Territorial 
                             AIDS Directors
    The National Alliance of State and Territorial AIDS Directors 
(NASTAD), whose members are responsible for administering state HIV/
AIDS prevention and care programs nationwide, respectfully submits 
testimony for the record regarding federal funding for federal HIV/AIDS 
and adult hepatitis programs in the fiscal year 2009 Labor, HHS and 
Education Appropriations legislation. NASTAD appreciates the 
Committee's past support for these important public health programs.
    As you craft the fiscal year 2009 Labor-HHS-Education 
Appropriations legislation, we urge you to consider the following 
critical funding needs of HIV/AIDS, STD and viral hepatitis programs:
  --$1.4 billion for the Ryan White Part B Program, including $496.2 
        million for the Part B base and $929 million for the AIDS Drug 
        Assistance Program (ADAP);
  --$1.3 billion for CDC's HIV/AIDS Prevention Program, including an 
        additional $31 million to restore cuts to the state and local 
        health department cooperative agreements since fiscal year 
        2003, an additional $35 million to shore up state and local 
        HIV/AIDS surveillance systems, and $45 million for the 
        continuation of CDC's HIV Testing Initiative targeting 
        communities of color;
  --$50 million for CDC's Viral Hepatitis Prevention Program, including 
        a doubling of resources for the Adult Viral Hepatitis 
        Prevention Coordinator Program to $10 million.
  --$20 million for hepatitis B vaccination for high-risk adults 
        through the Section 317 Vaccine Program;
  --$167 million for CDC's STD Prevention Program for prevention, 
        treatment and surveillance cooperative agreements with state 
        and local health departments; and
  --$610 million for the Minority AIDS Initiative to enhance capacity 
        in communities of color.
                  hiv/aids care and treatment programs
    NASTAD respectfully requests a minimum increase of $230 million in 
fiscal year 2009 for state Ryan White Part B grants, including an 
increase of at least $95 million for the Part B Base and at least $135 
million for AIDS Drug Assistance Programs (ADAPs). The President's 
budget cuts Part B programs $6 million for fiscal year 2009. In fiscal 
year 2008, Base programs received a cut of $5 million. These funds 
provide care and support services across the United States and are 
necessary to ensure there are not large funding shifts resulting from 
formula changes in the reauthorized law.
    While only one state currently has a waiting list to receive ADAP 
services, the present fiscal condition remains fragile and is not 
guaranteed beyond fiscal year 2007. The President's budget included an 
increase of $20.2 million, which is insufficient to meet continuing 
demand for these programs. The elimination of waiting lists is largely 
due to state funding increases, $39.4 million in fiscal year 2007 ADAP 
Supplemental grants, transfers of Part B Base funding into ADAP, and 
program savings from the Medicare Part D Prescription Drug Benefit. 
Shifts in funding as a result of reauthorization of the Ryan White 
Program and one-time additional funding to Part B in fiscal year 2007 
render the fiscal future of ADAPs uncertain. Additionally, CDC 
estimates that their newly implemented HIV testing initiative will find 
20,000 new infections over the next year. Two new therapies were 
approved in 2007 and at least one will be approved in 2008. ADAPs will 
be adding these to their formularies thus increasing costs.
             hiv/aids prevention and surveillance programs
    NASTAD respectfully requests a funding increase of $608 million for 
total funding of $1.3 billion for CDC's HIV prevention and surveillance 
programs. The President's budget cuts CDC's HIV prevention and 
surveillance programs by $1 million. CDC is on the verge or releasing 
revised estimates of HIV incidence that will show that there have been 
more new infections each year than previously thought. Funding has not 
kept pace and has in fact been cut since fiscal year 2003. State and 
local HIV prevention cooperative agreements have been cut by $26 
million between fiscal year 2003 and fiscal year 2007. Due to the 
rescission, fiscal year 2008 cooperative agreements may receive further 
cuts of $5.2 million. In fiscal year 2007, CDC awarded $35 million to 
18 states and 5 cities to support routine testing in clinical settings 
particularly targeted to settings that see a large number of African 
Americans. NASTAD requests the maintenance of these grants to continue 
the testing initiative. Additionally, core HIV/AIDS surveillance 
funding has eroded over the last decade, while the importance of this 
data has become paramount for targeting prevention efforts and 
directing Ryan White resources. $35 million is needed to shore up state 
and local HIV/AIDS surveillance systems.
    In addition, we urge you not to fund the Early Diagnosis Grant 
Program in Section 209 of the Ryan White Treatment Modernization Act of 
2006. Funds should not be directed to fund this provision as it 
redirects scarce HIV prevention resources away from the ever shrinking 
state and local prevention cooperative agreements. At a minimum, the 
impact and scope of this provision should be reduced.
    The Nation's prevention efforts must match our commitment to the 
care and treatment of infected individuals. State and local public 
health departments know what to do to prevent new infections, they just 
need the resources. First and foremost we must address the devastating 
impact on racial and ethnic minority communities. We must expand 
outreach and HIV testing efforts targeting high-risk populations 
including racial and ethnic minority communities, young gay men of 
color, substance users, women and youth. But, testing alone can never 
end the epidemic. All tools in the prevention arsenal must be 
supported. Additional resources must be directed to build capacity and 
provide technical assistance to enable community-based organizations 
and health care providers to implement evidence-based behavior change 
interventions, ensure fiscal responsibility and refer partners of HIV-
positive individuals to counseling and testing services.
                  viral hepatitis prevention programs
    NASTAD respectfully requests an increase of $36.4 million for a 
total of $50 million in fiscal year 2009 for the CDC's Division of 
Viral Hepatitis (DVH) to enable state and local health departments to 
provide basic core public health services. DVH currently receives $17.6 
million to address chronic viral hepatitis B and C impacting 6.2 
million Americans. This is $7.4 million less than its peak funding of 
$25 million in fiscal year 2001. The President's budget cuts DVH 
funding by $80,000. Of the DVH funding, $5.2 million is used to fund 
the Adult Viral Hepatitis Coordinator Program with an average award to 
states of $90,000. The coordinator position receives precious little 
above personnel costs, leaving little to no money for the provision of 
public health services including public education, hepatitis 
counseling, testing, and hepatitis A and B vaccine. In addition, there 
are no funds for surveillance of chronic viral hepatitis, which would 
allow states to better target their limited resources. Given the recent 
hepatitis public health crises in Nevada and New York, the government 
has a choice--invest in prevention now or wait until public systems are 
overwhelmed by a lack of infrastructure to address future outbreaks.
    The greatest remaining challenge for hepatitis A and B prevention 
is the vaccination of high-risk adults. High-risk adults account for 
more than 75 percent of all new cases of hepatitis B infection each 
year and annually result in an estimated $658 million in medical costs 
and lost wages. In fiscal year 2007, CDC allowed states to use $20 
million of 317 Vaccine funds to vaccinate high risk adults for 
hepatitis B. States are integrating vaccination into service programs 
for persons with risk factors for infection (e.g., STD clinics, HIV 
counseling and testing sites, correctional facilities and drug 
treatment clinics). By targeting high-risk adults, including those with 
hepatitis C, for vaccination, the gap between children and adults who 
have not benefited from routine childhood immunization programs can be 
bridged. NASTAD requests a continuation of the $20 million in Section 
317 Vaccine funds in fiscal year 2009 for hepatitis B vaccination for 
high-risk adults.
                        std prevention programs
    NASTAD supports a minimum increase of $15 million for a total of 
$167 million in fiscal year 2009 for STD prevention, treatment and 
surveillance activities undertaken by state and local health 
departments. The President's budget cut STD prevention program funding 
by $680,000. STD prevention programs at CDC have been cut or flat-
funded since fiscal year 2003 while the number of persons infected 
continues to climb. The United States has the unwanted distinction of 
having the highest rates of STDs of all industrial nations. In 2006 for 
the second consecutive year, the United States experienced record 
increases of the three leading STDs--Chlamydia (5.6 percent), Gonorrhea 
(5.5 percent), and Syphilis (13.8 percent).
                        minority aids initiative
    NASTAD also supports a $218 million increase for a total of $610 
million for the Minority AIDS Initiative (MAI) in fiscal year 2009. The 
MAI was cut in fiscal year 2008. The President's budget flat funds 
these important programs. The MAI provides targeted resources to 
address the HIV/AIDS epidemic in hard-hit communities of color. The 
data from CDC on the disproportionate impact on African Americans 
continues to be alarming. Support for the MAI along with the 
traditional funding streams that serve these populations is essential.
    As you craft the fiscal year 2009 Labor-HHS appropriations bill, we 
ask that you consider all of these critical funding needs. It is 
essential that the United States continue to demonstrate its commitment 
to fighting the ongoing domestic and global HIV/AIDS, viral hepatitis, 
and STD epidemics. The National Alliance of State and Territorial AIDS 
Directors thank the Chairman, Ranking Member and members of the 
Subcommittee, for their thoughtful consideration of our 
recommendations.
                                 ______
                                 
  Prepared Statement of the National Association of County Behavioral 
             Health and Developmental Disability Directors
    Chairman Harkin, ranking member Specter, and members of the 
subcommittee, on behalf of the National Association of County 
Behavioral Health and Developmental Disability Directors (NACBHDD), we 
thank you for your leadership on issues related to mental illness, 
addictions and developmental disabilities. We are pleased to offer the 
following recommendations and highlight concerns regarding fiscal year 
2009 funding.
    The National Association of County Behavioral Health and 
Developmental Disability Directors (NACBHDD) is an organization based 
in Washington, D.C. active on a number of fronts, including policy 
development, advocacy and information dissemination on best practices 
to its members. As an affiliate of the National Association of Counties 
(NACo), NACBHDD members are a part of the health care safety net that 
contributes to local systems of care for millions of Americans. NACBHDD 
members include county and city governments and other local authorities 
with responsibility for assuring that essential mental health, 
developmental disabilities and substance use disorder services are 
provided to vulnerable and often disabled residents.
    Recent financial changes at the Federal level regarding Medicaid 
are pressuring States and localities to cut other health and social 
services to cover the additional costs of essential services for which 
Federal reimbursement is no longer available. While Medicaid is an 
integral component to local systems of care and ensures that arrays of 
appropriate services are available to the right person at the right 
time; other Federal, State and local funds are essential to funding 
these public systems. The coordination of these dollars assists in the 
delivery of effective community based services as well as transitioning 
individuals from institutional settings. Discretionary Federal funding 
is pivotal to the Federal-State-local parternships that contribute to 
the financial foundation of vital local services. Without adequate 
funding, these activities will not be available to support some of our 
most vulnerable citizens.
    NACBHDD recommendations and concerns regarding mental health, 
addictions and developmental disabilities funding priorities follow.
      substance abuse prevention and treatment (sapt) block grant
    NACBHDD recommends $1,858.7 million for fiscal year 2009--an 
increase of $100 million over fiscal year 2008 and $80 million over the 
President's request. The SAPT Block Grant enables States and localities 
to address the unique needs of their communities. In addition, this 
block grant is crucial funding for public addictions systems and 
provides the capacity for the bulk of prevention and treatment 
services.
              center for substance abuse treatment (csat)
    NACBHDD is concerned with the proposed cut of $63 million to CSAT 
programs and recommends $420 million in fiscal year 2009. The 
President's request would eliminate programs that provide recovery 
services, State service improvements, program coordination and 
evaluation and strengthening treatment access and retention. In 
addition, programs that target pregnant and postpartum women and 
children and families with substance use disorders would no longer be 
available.
    Other CSAT programs would be significantly reduced in the 
President's proposed budget. The Opioid Treatment Programs/Regulatory 
Activities, Targeted Capacity Expansion (TCE), Services Accountability, 
Addiction Technology Transfer Centers (ATTCs), Treatment Systems for 
the Homeless that include programs important to local substance abuse 
authorities would all be affected.
              center for substance abuse prevention (csap)
    NACBHDD recommends $215 million in fiscal year 2009. This 
represents an increase of $20.9 million compared to fiscal year 2008 
and an increase of $56.9 million over the President's request. The 
proposed budget would cut CSAP by $36 million allowing a number of 
programs within this center to be significantly restricted. Of note, 
the Strategic Prevention Framework State Incentive Grant is proposed to 
be funded at $95,389,000 a cut of $9,318,000 from fiscal year 2008 
level. In addition, the Centers for the Application of Prevention 
Technologies (CAPTs) are proposed to be funded at $4,381,000, a cut of 
$7,656,000 from fiscal year 2008 level. These two programs allow for 
much needed prevention programs at the local level. Other CSAP programs 
which are slated for elimination include the Sober Truth on Preventing 
Uderage Drinking (STOP Act) and Evidence Based Practices. The 
Methamphetamine Prevention program and Program Coordination/Data 
Coordination and Consolidation Center would receive cuts in funding as 
well, hindering their effectiveness.
                center for mental health services (cmhs)
Community Mental Health Services Performance Partnership Block Grant
    NACBHDD recommends $482.9 million for the fiscal year 2009 budget, 
an increase of $61.9 million from the fiscal year 2008 budget and from 
the President's fiscal year 2009 request. The Community Mental Health 
Services Block Grant is an integral Federal funding source that 
supports community based mental health services.
Childrens Mental Health and Homelessness Programs
    While the President's fiscal year 2009 budget did request increased 
funding for the Children's Mental Health Services Program and Projects 
for Assistance in Transition from Homelessness (PATH) Program, NACBHDD 
recommends $117.3 million and $61.1 million respectively for these 
programs. Adequate funding is essential to create systems of care 
focused on community based services for children and their families. 
Additionally, PATH programs allow for local solutions to assisting 
individuals who are homeless and have a mental illness and/or substance 
use disorder.
Programs of Regional and National Significance (PRNS)
    NACBHDD recommends $343.3 million for the fiscal year 2009 budget, 
an increase of $44.0 million above the fiscal year 2008 budget. NACBHDD 
is concerned with the President's request for the drastic $144 million 
decrease in funding to this program. Programs that prevent youth 
violence, suicide, and address post traumatice stress disorder would be 
severely restricted. Jail diversion grants are also slated for reduced 
funding. These dollars are essential in assisting communities to 
provide support and organization to appropriately divert individuals 
with mental illness away from jails and prisons and ensure access to 
treatment and services in the community.
    NACBHDD is particularly concerned that programs targeted for 
seniors, community technical assistance centers, consumer and family 
network grants would be eliminated. Additionally, the President's 
fiscal year 2009 request would terminate State incentive grants. These 
grants offer flexibility in planning and coordination among Federal, 
State, and local entities to create comprehensive plans and enhance 
existing resources to deliver quality, evidence based services in 
communities.
                  national institutes of health (nih)
    NACBHDD supports the furthering of research in the fields of mental 
health, substance use disorders and developmental disabilities. Our 
following recommendations for fiscal year 2009 appropriations:
  --National Institute of Mental Health (NIMH)--$1,498.6 million
  --National Institute on Drug Abuse (NIDA)--$1,067.7 million
  --National Institute on Alcohol Abuse and Alcoholism (NIAAA)--$465.5 
        million
  --National Institute of Child Health and Human Development (NICHD)--
        $1,341 million
                       developmental disabilities
    NACBHDD supports the following recommendations for funding to 
ensure individuals with developmental disabilities receive services and 
supports in the communities in which they live. A number of departments 
and programs touch the lives of individuals with developmental 
disabilities and continued Federal financial participation is 
essential.
                          combating autism act
    NACBHDD supports the President's funding request to expand 
research, screening, intervention and education activities by the 
National Institutes of Health (NIH), Centers for Disease Control and 
Prevention (CDC) and the Health Resources and Services Administration 
(HRSA) under the Combating Autism Act. This critical funding is 
important for research into the causes of Autism, diagnosis, early 
detection, prevention, services, supports, intervention and treatment 
of autism spectrum disorder.
                     developmental disabilities act
    While the President's fiscal year 2009 budget request essentially 
level funds these prograns, increased funding for these activities will 
foster full integration and inlcusion in the community for individuals 
with developmental disabilities. In particular, NACBHDD recommends 
funding Councils on DD at $80 million, Protection and Advocacy Systems 
at $45 million and University Centers for Excellence in DD at $41 
million.
                        the department of labor
    Programs under the Workforce Investment Act are essential to ensure 
individuals with developmental disabilities have access to employment 
training and opportunities. We are concerned that most of the programs 
have been requested to receive reduced funding in the President's 
fiscal year 2009 budget request. Each program assists local 
developmental disabilities authorities to ensure the individuals they 
serve have opportunities in the workforce. NACBHDD recommends the 
following:
  --Adult Employment--$987.9 million
  --Pilots, Demonstration, Research--$246 million
  --Youth Activities--$1.1 billion
  --One Stop Career Centers--$100 million
  --Dislocated Worker Program--$1.6 billion
    Further, the following programs within the Department of Labor 
provide added support for job training and supports. NACBHDD recommends 
funding for fiscal year 2009:
  --Office of Disability Employment Policy--$47.5 million
  --Community College Initiative/Community Based Job Training--$150 
        million
  --Work Incentives Grants--$28 million
  --Older Adult Community Service Employment Program (SCSEP)--$572 
        million
  --Veterans' Employment and Training Services (VETS) Program--$233 
        million
                department of health and human services
    NACBHDD recommends $850 million for the Maternal & Child Health 
Block Grant. This program supports the health and welfare of mothers 
and children to provide access to services and care for vulnerable 
populations.
                 rehabilitative services administration
    Rehabilitative service programs are particularly important to 
assist local authorities to ensure individuals with developmental 
disabilities receive a range of services to reach vocational outcomes. 
Some programs received level funding requests while others were slated 
for elimination. Of note, the Supported Employment State Grant program 
would receive zero funding in the President's fiscal year 2009 budget. 
These important grants help develop collaborative local programs that 
offer supported employment services to individuals with developmental 
disabilities.
    NACBHDD thanks the committee for its continued support of programs 
benefiting developmental disabilites, mental health and addictions 
systems. We look forward to working with you on our Association's 
priorities.
                                 ______
                                 
   Prepared Statement of the National Association of County and City 
                            Health Officials
                                summary
    The proposed cuts in the fiscal year 2009 budget for the Centers 
for Disease Control and Prevention (CDC) submitted by the President 
continue a pattern of reduced funding for public health that gravely 
worries the Nation's local health departments. The National Association 
of County and City Health Officials (NACCHO) is particularly concerned 
about two funding streams that directly benefit local health 
departments, although the range of reductions in CDC's budget threaten 
overall work in prevention that we fully support.
    The President's budget requests $609 million in fiscal year 2009 
for State and local capacity building for public health preparedness in 
fiscal year 2009 and eliminates the Advanced Practice Center program. 
This represents a cut of 18 percent from fiscal year 2008. The 
Preventive Health and Health Services (PHHS) block grant program, the 
other major source of CDC funding to health departments, received 
funding of $97 million in fiscal year 2008 and is eliminated in the 
President's budget. Taken together, these reductions will seriously 
compromise the ability of the Nation's governmental public health 
system to fulfill its mission of protecting and promoting health.
    Local public health departments work every day on the front lines 
to combat threats to the health of their communities. They cannot 
afford substantial reductions in Federal support for their roles as 
first responders to natural disasters, acts of bioterrorism and other 
public health emergencies. Moreover, local public health departments 
receive about 40 percent of the PHHS funds. In States where local 
health departments rely exclusively on these funds to conduct 
prevention programs for which no other sources of funding are 
available, activities to reduce the burdens of preventable disease will 
cease. Prevention is critical to slowing the astronomical growth in 
chronic diseases like obesity and diabetes as well as protecting the 
public from hazards such as lead poisoning and infectious diseases like 
tuberculosis. An investment in prevention improves both length and 
quality of life.
    At a time when the Nation is engaged in urgent work to protect the 
homeland from terrorists and natural disasters, as well as to stop the 
growth in chronic disease, it is profoundly counterproductive and 
irrational to reduce support for local programs that are the first line 
of defense against the greatest threats to the health of communities. 
NACCHO urges Congress to continue funding these two CDC programs at 
levels no less than those in fiscal year 2005. Those levels are $919 
million for State and local public health emergency preparedness and 
$131 million for the Preventive Health and Health Services block grant. 
NACCHO urges Congress to continue funding for pandemic flu preparedness 
at $350 million for fiscal year 2009. In addition, NACCHO advocates for 
new funding of $10 million in fiscal year 2009 to inaugurate two new 
workforce programs within the National Health Service Corps in the 
Health Resources and Services Administration (HRSA) that would benefit 
local public health and address workforce shortages.
  progress has been made in bolstering the readiness of local health 
                 departments to respond to emergencies
    A report released by CDC on February 20, 2008, Public Health 
Preparedness: Mobilizing State by State, documents progress made by 
preparedness funding grantees. According to the report, preparedness 
funding has allowed State and local health departments to have a more 
focused and effective response to actual emergencies, not just to plan 
for a hypothetical future emergency. These real-life situations have 
provided an opportunity for local health departments to exercise their 
response plans and to learn where improvements can be made. 
Preparedness is not simply a matter of theoretical planning for a 
future catastrophe. Rather, it makes a difference in how well health 
departments can respond to public health problems daily.
    CDC's report confirmed the findings of a 2007 NACCHO survey of 
LHDs, which found that three-quarters of local health departments 
(LHDs) reported that they had improvements in preparedness but that 
more improvement is needed. Virtually all local health departments had 
developed a plan for mass vaccination, as well as an all-hazards 
preparedness plan, had implemented the National Incident Management 
System (NIMS), trained their workforce in new emergency response 
skills, conducted public education campaigns, and improved their 
communication systems. The pandemic influenza funding has enabled 
exercising of the capabilities required for a pandemic response to take 
place regularly in localities across the Nation.
 strengthening the governmental public health system to protect local 
                 communities requires sustained funding
    Since fiscal year 1999, Congress has provided funding to strengthen 
the Nation's capacity to respond to an act of bioterrorism or other 
public health emergency. After 9/11 and the anthrax attack in the fall 
of 2001, Congress increased this funding markedly and included $940 
million for building State and local capacities, of which about $870 
million was made available to States and localities. Federal funds for 
improving State and local public health preparedness have declined from 
$919 million in fiscal year 2005 to $746 million in fiscal year 2008. 
The President's budget would provide $609 million for fiscal year 2009, 
and would cut the grant year to slightly more than nine months. In 
fiscal year 2010, a $129.6 million increase in funding would be 
required to maintain level, full-year funding.
    The downward slope in Federal preparedness funding has severely 
hampered LHDs in sustaining current activities and in building an 
experienced preparedness workforce. LHDs experienced an average 20 
percent funding reduction in 2007 and further reductions are expected 
when HHS distributes fiscal year 2008 funds. Already, more than one-
quarter of LHDs have reduced their preparedness activities, delayed 
completion of plans, and/or delayed acquisition of equipment and 
supplies as a result of reduced funding. Notwithstanding the Federal 
cuts, LHDS continue to contribute their share to this national effort. 
Nearly half of all LHDs make use of city or county funds to pay 
directly for preparedness activities. All contribute additional in-kind 
resources, principally staff time diverted from other activities.
    The safety and well-being of America's communities is dependent on 
maintenance of the capacity of their health departments to respond in 
any emergency that threatens human health. Every community now has a 
public health emergency plan in place, but plans must be supported by 
public health responders who engage in continuous training and 
exercising. In its recent report, CDC listed challenges that remain 
with regard to public health emergency preparedness. Among them were 
the need for State and local health departments to sustain a system of 
all-hazards planning, training, exercising, and improving. In order to 
continue this essential cycle of continuous improvement, LHDs need 
consistent funding. The Nation cannot afford to backslide or lose its 
investment by failing to sustain Federal funding that helps health 
departments continue their progress and address new and emerging 
threats.
    The President's budget eliminates the Advanced Practice Center 
(APC) program, which provides funds to eight local health departments 
to develop innovative field-tested tools and models to help other LHDs 
meet emergency preparedness goals. The products produced by the APCs 
are disseminated to other local health departments nationwide, saving 
them the expense and trouble of designing from scratch. A cost 
effective investment of $5.4 million will allow this program to 
continue and to have a much greater impact than the numbers alone would 
suggest.
           the phhs block grant is a linchpin for prevention
    Local public health departments receive approximately 40 percent of 
the Preventive Health and Health Services block grants nationally. The 
block grant funds enable States and localities to address critical 
unmet public health needs. The coexistence of other Federal categorical 
public health funds does not mean that sufficient funds are available 
to address all public health needs. They are not. Improving chronic 
disease prevention through screening programs and programs that promote 
healthy nutrition and physical activity are prime examples of 
activities to which many jurisdictions devote PHHS funds.
    According to the National Association of Chronic Disease Directors, 
elimination of the PHHS block grant would cause a loss of $40.8 million 
for chronic disease programs and $11.2 million for infectious disease 
programs. In those States where local health departments receive a 
significant amount of PHHS funds from the State, local prevention 
efforts will diminish. As health care costs escalate, reducing the 
Nation's commitment to prevention by eliminating the PHHS block grant, 
weakening State and local public health departments, is unwise and 
uneconomic.
    workforce shortages threaten the strength of local public health
    According to NACCHO's 2005 Profile of Local Health Departments, 
public health professionals in short supply include public health 
nurses, epidemiologists, environmental health scientists, and health 
educators. Nearly half of all LHDs experienced problems hiring public 
health nurses in 2005 and 60 percent expected to have trouble 
recruiting nurses in 2008. Staff attrition and retirement are the most 
frequently cited factors causing uncertainty and concern about future 
workforce capacity.
    NACCHO advocates new funding of $10 million in fiscal year 2009 to 
begin addressing public health workforce shortages. In 2006, the 
Pandemic and All-Hazards Preparedness Act created two new programs 
within the National Health Service Corps in the Health Resources and 
Services Administration (HRSA). One program would allow expansion of 
the National Health Service Corps on a trial basis to include loan 
repayment for individuals who complete their service in a State, local, 
or tribal health department that serves health professional shortage 
areas or areas at risk of a public health emergency. The second program 
establishes grants to States to create loan repayment programs. As the 
public health role has expanded to include greater involvement in 
emergency preparedness, in addition to the more traditional public 
health activities like immunization and chronic disease prevention, it 
is essential that there be a workforce trained to carry out these 
tasks.
    The National Association of County and City Health Officials 
(NACCHO) is the organization representing the 2860 local public health 
departments in the United States.
                                 ______
                                 
 Prepared Statement of the National Association of Foster Grandparent 
                           Program Directors
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to submit this testimony in support of fiscal year 2009 
funding for the Foster Grandparent Program (FGP), the oldest and 
largest of the three programs known collectively as the National Senior 
Volunteer Corps, which are authorized by Title II of the Domestic 
Volunteer Service Act (DVSA) of 1973, as amended and administered by 
the Corporation for National and Community Service (CNS). The National 
Association of Foster Grandparent Program Directors (NAFGPD) is a 
membership-supported professional organization whose roster includes 
the majority of more than 350 directors, who administer Foster 
Grandparent Programs nationwide, as well as local sponsoring agencies 
and others who value and support the work of FGP.
    Mr. Chairman, I would like to begin by thanking you and the 
distinguished members of the subcommittee for your steadfast support of 
the Foster Grandparent Program. No matter what the circumstances, this 
subcommittee has always been there to protect the integrity and mission 
of our programs. Our volunteers and the children they serve across the 
country are the beneficiaries of your commitment to FGP, and for that 
we thank you. I also want to acknowledge your outstanding staff for 
their tireless work and very difficult job they have to ``make the 
numbers fit''--an increasingly difficult task in this budget 
environment.
                    administration's request for fgp
    Although the number of older people in America eligible to serve as 
Foster Grandparent volunteers is increasing by leaps and bounds as the 
``Baby Boomer'' cohort ages, we were extremely disappointed to learn 
that--instead of seeking an increase for FGP to enable FGP to engage 
more low-income seniors in service--the Administration has proposed 
slashing funding for FGP by $40.825 million--a more than 37 percent 
cut.
           impact of the adminstration's proposed funding cut
    FGP is the only program in existence today that actively seeks out, 
trains, enables, places and supports the elderly poor in contributing 
to their communities by changing the lives of children who desperately 
need one-on-one attention and assistance. This cut will take FGP back 
12 years, to a funding level that is only slightly more than what was 
appropriated for the program in 1995.
    If enacted, this request will have a devastating effect on FGP 
programs nationwide:
  --Funding for FGP would be slashed $40.825 million.
  --10,200 Foster Grandparent volunteers will be cut permanently, 
        slashing the total number of Foster Grandparent volunteers from 
        30,550 to 20,350.
  --Local communities will lose more than 10 million hours of volunteer 
        service every year.
  --FGP will permanently lose almost 10,200 Volunteer Service Years 
        (VSY's, or volunteer ``slots'') if this budget is implemented. 
        For each VSY that is cut from a Foster Grandparent Program, 
        that program will lose approximately $4,500 from its federal 
        grant.
  --117,000 disadvantaged children/youth will lose their foster 
        grandparent, an older adult they can count on!
  --Low-income Baby Boomers will be excluded from serving as Foster 
        Grandparents, because there will be no funds available to 
        recruit and place new volunteers as they reach the age of 60. 
        There are currently 6,000,000 low-income seniors eligible for 
        FGP; in 20 years, there will be 13,000,000.
    NAFGPD respectfully requests that the subcommittee:
    (1) Provide $115.937 million for the Foster Grandparent Program in 
fiscal year 2009, an increase of $5.000 million over the fiscal year 
2006 and fiscal year 2007 levels of funding (and the amount FGP would 
have received in fiscal year 2008 had there not been an across-the-
board cut of 1.747 percent) for the program and an $47.763 million 
increase over the Administration's fiscal year 2009 Budget Request for 
FGP. This critical funding will ensure the continued viability of the 
Foster Grandparent Program, and allow for important expansion of this 
unique program. Specifically, this proposal would fund a 3 percent cost 
of living increase for every Foster Grandparent Program as well as 
expansion grants to existing programs that would add 370 new low-income 
senior volunteers to serve 3,000 additional children;
    (2) Maintain current appropriations statutory language that 
prohibits CNCS from using funds in the bill to pay non-taxable stipends 
to volunteers whose incomes exceed 125 percent of the national poverty 
level. Congress has repeatedly over the last seven years re-affirmed 
that the non-taxable stipend must be reserved for low-income 
volunteers. We ask that you again protect the mission of the Foster 
Grandparent Program to enable low-income older people to serve their 
communities--by maintaining this important statutory language.
                            fgp: an overview
    Established in 1965, the Foster Grandparent Program was the first 
federally funded, organized program to engage older volunteers in 
significant service to others. It remains today the only volunteer 
program in existence that enables seniors living on very low incomes to 
serve as community volunteers by providing a small non-taxable stipend 
that allows volunteers to serve at little or no cost to themselves. 
From the 20 original programs based totally in institutions for 
children with severe mental and physical disabilities, FGP now 
comprises nearly 350 programs in every state and the District of 
Columbia, Puerto Rico, and the Virgin Islands. These programs are now 
primarily in community-based child caring agencies or organizations--
where most special needs children can be found today--and are 
administered locally through a non-profit organization or agency and 
Advisory Council comprised of community citizens dedicated to FGP and 
its mission. FGP represents the best in federal partnerships with local 
communities, with federal dollars flowing directly to local sponsoring 
agencies, which in turn determine how the funds are used. Through this 
partnership and the flexibility of the program, FGP is able to meet the 
immediate needs of the local communities. This was demonstrated by 
Foster Grandparent Programs in communities that were impacted by the 
influx of Hurricane Katrina evacuees. Foster Grandparents rallied to 
provide services to children in shelters, child care centers, and 
schools.
                          fgp: the volunteers
    There are currently 30,500 Foster Grandparent volunteers who give 
31 million hours annually to more than 280,000 children, including 
almost 6,000 children of prisoners through 10,200 local agencies. FGP 
is a versatile, dynamic, and uniquely multi-purpose program. The 
program gives Americans 60 years of age or older, who are living on 
incomes at or less than 125 percent of the poverty level, the 
opportunity to serve 15 to 40 hours every week and use the talents, 
skills and wisdom they have accumulated over a lifetime to give back to 
the communities which nurtured them throughout their lives. FGP 
provides intensive pre-service orientation and at least 48 hours of 
ongoing training every year to keep volunteers current and informed on 
how to work with children who have special needs.
    FGP engages older people who are not usually asked to serve, those 
usually considered as needing services rather than being able to serve: 
50 percent are between the ages of 61 and 74, 47 percent are 75+, and 
50 percent are from various ethnic groups. FGP actively seeks out these 
low-income seniors. We dare to ask them to serve, and we help them to 
develop the additional skills they may need to function effectively in 
settings unfamiliar to them, like public schools, hospitals, childcare 
centers, and juvenile detention facilities. Through their service, our 
older volunteers say they feel and stay healthier, that they feel 
needed and productive. Most importantly, they leave to the next 
generation a legacy of skills, perspective and knowledge that has been 
learned the hard way--through experience.
                           fgp: the children
    Through our volunteers, FGP also provides person-to-person service 
to children and youth under the age of 21 who have special or 
exceptional needs, many of whom face serious, often life-threatening 
challenges. With the changing dynamics in family life today, many 
children with disabilities and special needs lack a consistent, stable 
adult role model in their lives. The Foster Grandparent is very often 
the only person in a child's life who is there every day, who accepts 
the child, encourages him/her no matter how many mistakes the child 
makes, and focuses on the child's successes.
    Special needs of children served by Foster Grandparents include 
AIDS or addiction to crack or other drugs; abuse or neglect; physical, 
mental, or learning disabilities; speech, or other sensory 
disabilities; incarceration and terminal illness. Of the children 
served, 7 percent are abused or neglected, 25 percent have learning 
disabilities, and 10 percent have developmental delays. FGP focuses its 
resources in areas where they will have the most impact: early 
intervention services and literacy activities. Nationally, 90 percent 
of the children served by Foster Grandparents are under the age of 12, 
with 39 percent of these children age 5 or under. Foster Grandparents 
work intensively with these very young children to address their 
problems at as early an age as possible, before they enter school. 
Nearly one-half of FGP volunteers serve nearly 12 million hours 
annually addressing literacy and emergent-literacy problems with 
special needs children.
    Activities of the FGP volunteers with their assigned children 
include teaching parenting skills to teen parents; providing physical 
and emotional support to babies and toddlers at-risk; helping children 
with developmental delays, speech, or physical disabilities develop 
social and self-help skills; reinforcing reading and mathematic skills; 
and giving guidance and serving as mentors to incarcerated or other 
youth.
                        fgp: the volunteer sites
    The Foster Grandparent Program provides child-caring agencies and 
organizations offering services to special-needs children with a 
consistent, reliable, invaluable extra pair of hands 15 to 40 hours 
every week to assist in providing these services. Seventy-one percent 
of FGP volunteers serve in public and private schools as well as sites 
that provide early childhood pre-literacy services to very young 
children, including Head Start.
                      fgp: cost-effective service
    The Foster Grandparent Program serves local communities in a high 
quality, efficient and cost-effective manner, saving local communities 
money by helping our older volunteers stay independent and healthy and 
out of expensive in-home or institutional care. Using the Independent 
Sector's 2006 valuation for one hour of volunteer service ($18.77/
hour), the value of the service given by Foster Grandparents annually 
is over $503 million, and represents a 4-fold return on the federal 
dollars invested in FGP.
    The value local communities place on FGP and its multifaceted 
services is evidenced by the large amount of cash and in-kind donations 
contributed by communities to support FGP. For example, FGP's fiscal 
year 2007 federal allocation was matched with $36.1 million in non-
federal donations from states and local communities in which Foster 
Grandparents volunteer. This represents a non-federal match of 26 
percent--well over the 10 percent local match required by law.
                               conclusion
    The message is clear: (1) the population of low-income seniors 
available to volunteer 15 to 40 hours every week is increasing; (2) 
communities need and want more Foster Grandparent volunteers and more 
Foster Grandparent Programs. The Subcommittee's continued investment in 
FGP now will pay off in savings realized later, as more seniors stay 
healthy and independent through volunteer service, as communities save 
tax dollars, and as children with special needs are helped to become 
contributing members of society.
    Mr. Chairman, in closing I would like to again thank you for the 
Subcommittee's support and leadership for Foster Grandparent Programs 
over the years. The National Association of Foster Grandparent Program 
Directors believes that you and your colleagues in Congress appreciate 
what our low-income senior volunteers accomplish every day in 
communities across the country.
                                 ______
                                 
  Prepared Statement of the National Association of State Alcohol and 
                          Drug Abuse Directors
    Chairman Harkin, ranking member Specter, and members of the 
subcommittee, on behalf of the National Association of State Alcohol 
and Drug Abuse Directors (NASADAD), and our component organizations, 
the National Prevention Network (NPN), and the National Treatment 
Network (NTN), thank you for your leadership on issues related to 
addiction treatment, prevention, recovery services and research. We are 
pleased to offer recommendations on fiscal year 2009 funding.
    Substance Abuse Spending Represents Tiny Fraction of all Health 
Expenditures.--It is estimated that substance abuse represented 1 
percent ($21 billion) of the expenditures for all healthcare ($1,614 
billion) in 2003. With over 22.6 million Americans suffering from 
substance abuse or dependency problems in 2006, we believe an increase 
in Federal investments for addiction services and research will save 
lives, families, and money.
    Substance Abuse Prevention and Treatment (SAPT) Block Grant: 
NASADAD recommends $1,858.7 million for the SAPT Block Grant in fiscal 
year 2009--an increase of $100 million over fiscal year 2008 and $80 
million over the President's request. NASADAD supports such an increase 
in the SAPT Block Grant to enable all States the ability to expand 
capacity for much needed prevention and treatment services. The SAPT 
Block Grant, a program distributed by formula to all States and 
territories, represents the backbone of the nation's publicly funded 
addiction system.
    Important Prevention Funding: Twenty percent of the SAPT Block 
Grant is dedicated to funding much needed substance abuse prevention 
programming. The prevention set-aside has helped produce demonstrable 
results. The Monitoring the Future (MTF) Survey found a 23 percent 
decline in any illicit drug use in the past month by 8th, 10th and 12th 
graders combined between 2001 and 2006. As a result, there were 840,000 
fewer teens using drugs in 2006 compared to 2001. A strong commitment 
to the SAPT Block Grant will ensure a strong commitment to much needed 
prevention services for our youth.
    SAPT Block Grant Funded Services Achieve Results: Through the 
National Outcome Measures (NOMs) initiative, States report excellent 
results from programs funded by the SAPT Block Grant--including the 
following examples:
    Iowa's Division of Behavioral Health and Professional Licensure 
reported 42,700 admissions to treatment and provided prevention 
services to approximately 304,503 individuals in State fiscal year 
2006. For State fiscal year 2006, the Iowa's Consortium for Substance 
Abuse Research and Evaluation found the following client outcomes 
comparing admission to 6 months after discharge: 87 percent of clients 
reported no arrests; 51.8 percent of clients were employed full time; 
and approximately 60 percent of clients were abstinent from illicit 
drugs.
    Pennsylvania's Bureau of Drug and Alcohol Programs reported 92,224 
admissions to treatment and provided prevention services to 111,145 
individuals in State fiscal year 2005. In Sfiscal year 2005, the Bureau 
reported the following client outcomes comparing admission to 
discharge: 77 percent of clients addicted to alcohol were abstinent; 71 
percent of clients addicted to cocaine/crack were abstinent; 75 percent 
of clients addicted to marijuana were abstinent; and 65 percent of 
clients addicted to heroin were abstinent.
    Rhode Island's Division of Behavioral Healthcare Services reported 
8,170 admissions to treatment in 2006 and reported the following client 
outcomes: an 84.3 percent increase in the number of patients abstinent 
from alcohol; a 74.8 percent increase in the number of patients 
abstinent from other drugs; an 81.3 percent decrease in the number of 
patients arrested; and a 23 percent decrease in homelessness.
    Illinois' Division of Alcoholism & Substance Abuse reported 77,386 
admissions to treatment and provided services to 165,289 persons in 
State fiscal year (SFY) 2006. In Sfiscal year 2006, the Division 
reported the following client outcomes: 62 percent increase in the 
number of patients abstinent from alcohol; a 73 percent increase in the 
number of patients abstinent from illicit drug use; a 33 percent 
increase in the number of patients employed; and a 24 percent decrease 
in homelessness.
    NASADAD wishes to recognize Dr. Terry Cline, SAMHSA Administrator, 
for his leadership, outreach and collaboration with States to improve 
service delivery.
    Center for Substance Abuse Treatment (CSAT): NASADAD recommends 
$420 million in fiscal year 2009--an increase of $20.2 million compared 
to fiscal year 2008 and an increase of $80 million compared to the 
President's request.
    NASADAD is extremely concerned with the fiscal year 2009 proposed 
budget that would cut CSAT by $63 million compared to fiscal year 2008. 
The proposed budget for CSAT would eliminate the following activities 
that are important to State substance abuse agencies:
  --Recovery Community Services Program, a cut of $5.2 million.
  --State Service Improvement, with no funding fiscal year 2008 and 
        $907,000 in fiscal year 2007.
  --Pregnant and Postpartum Women, a cut of $11,790,000.
  --Program Coordination and Evaluation, a cut of $5,214,000. This 
        initiative supports important initiatives such as Recovery 
        Month.
  --Strengthening Treatment Access & Retention, a cut of $3.6 million.
  --Children and Families, a cut of $24,278,000.
    The proposed budget for CSAT would significantly reduce funding for 
other programs that are important to State substance abuse agencies, 
including
  --Opioid Treatment Programs/Regulatory Activities, a cut of 
        $2,886,000 compared to the fiscal year 2008 level of 
        $8,903,000).
  --Targeted Capacity Expansion [TCE], a cut of $11,191,000 compared to 
        the fiscal year 2008 level of $28,989,000.
  --Services Accountability (supports CSAT data collection activities), 
        a cut of $13,617,000 compared to the fiscal year 2008 level of 
        $23,093,000.
  --Addiction Technology Transfer Centers [ATTCs], a cut of $478,000 
        compared to the fiscal year 2008 level of $9,081,000.
  --Treatment Systems for the Homeless, a cut of $9,906,000 compared to 
        the fiscal year 2008 level of $42,5000,000.
    NASADAD wishes to acknowledge Dr. H. Westley Clark, Director of 
CSAT, for his leadership and excellent partnership with NASADAD and 
States.
    Center for Substance Abuse Prevention (CSAP): NASADAD recommends 
$215 million--an increase of $20.9 million compared to fiscal year 2008 
and an increase of $56.9 million compared to the President's proposal.
    NASADAD is very concerned with the proposal to cut funding for CSAP 
by $36 million compared to fiscal year 2008. The proposed budget for 
CSAP would negatively impact a number of activities that are important 
to State substance abuse agencies.
    For example, NASADAD is concerned with a proposal to fund the 
Strategic Prevention Framework State Incentive Grant at $95,389,000, 
representing a cut of $9,318,000 compared to the fiscal year 2008 level 
of $104,707,000. Presently, the proposed fiscal year 2009 budget does 
not identify whether SAMHSA would allocate future SPF-SIG awards at 
levels equal to previous years. NASADAD views resources for the SPF-SIG 
program as a top priority and recommends funding that would enable all 
States and jurisdictions to receive an award in an amount that is not 
less than the last cohort.
    NASADAD is also concerned with the proposal to fund the Centers for 
the Application of Prevention Technologies [CAPTs] at $4,381,000, 
representing a cut of $7,656,000 compared to the fiscal year 2008 level 
of $12,216,000. NASADAD remains concerned with any action that could 
threaten the continuation of the CAPTs in their present form and 
structure. NASADAD recommends funding at fiscal year 2008 levels for 
the CAPTs in order to enable these regional Centers to continue to 
improve the quality of each State's substance abuse prevention service 
system by translating the latest research into everyday practice.
    Other concerns with the fiscal year 2009 proposed budget center on 
the following proposals:
  --Sober Truth on Prevention Underage Drinking [STOP Act], which is 
        proposed to be eliminated, representing a cut of $5,404,000.
  --Methamphetamine Prevention, a cut of $2,386,000 compared to the 
        fiscal year 2008 level of $2,967,000.
  --Program Coordination/Data Coordination and Consolidation Center, a 
        cut of $5,186,000 compared to the fiscal year 2008 level of 
        $6,016,000.
  --Evidence Based Practices, which is proposed to remain at zero 
        funding as it was in fiscal year 2008, while the program was 
        funded at $1,443,000 in fiscal year 2007.
    NASADAD wishes to acknowledge the work of Dr. Anna Marsh, Acting 
Director of CSAP, for her work and dedication on prevention issues.
    Safe and Drug Free Schools and Communities--State Grants: NASADAD 
recommends $346.5 million, representing a $51.8 million increase over 
fiscal year 2008 and $246.5 million increase over the President's 
request. The SDFSC State Grants program is an effective initiative that 
represents a core component of each State's substance abuse prevention 
system. Certain Governors choose NASADAD members as the designee to 
manage these funds. This designation allows for a more comprehensive 
and coordinated approach to planning and implementing an effective 
State-wide system of care.
    National Institute on Drug Abuse (NIDA): NASADAD recommends 
$1,067.8 million, representing an increase of $67.1 million over fiscal 
year 2008 and an increase of $66.2 million over the President's 
request. NASADAD wishes to thank Dr. Nora Volkow, Director of NIDA, for 
her collaboration with State substance abuse agencies through its 
``Blending Initiative.'' This work improves the translation of research 
into everyday practice.
    National Institute on Alcohol Abuse and Alcoholism (NIAAA): NASADAD 
recommends $465.5 million, for an increase of $29.2 million over fiscal 
year 2008 and an increase of $28.9 million over the President's 
request.
                                 ______
                                 
  Prepared Statement of the National Association for State Community 
                           Services Programs
    Over the past several years and once again this year, the President 
has zeroed out the Community Services Block Grant (CSBG) program in his 
budget. However, recognizing the importance of the numerous self-
sufficiency services provided by the CSBG Network, Congress has 
continued to support the program in word and in action by providing the 
CSBG program with funding. The National Association for State Community 
Services Programs (NASCSP), the national association representing State 
administrators of the Department of Health and Human Services' 
Community Services Block Grant (CSBG) and State directors of the 
Department of Energy's Low-Income Weatherization Assistance Program, 
would like to thank Congress for its continued support of the Community 
Services Block Grant (CSBG) and requests an appropriation of $700 
million for the State grant portion of the CSBG. We are requesting $700 
million in CSBG funding this year in order for the CSBG Network to 
continue addressing the long-term needs of those families affected by 
Hurricanes Katrina and Rita and those families transitioning from 
welfare to work, and to assist low-income workers in remaining at work 
through supportive services such as transportation and child care. It 
is essential that the CSBG funding be increased for fiscal year 2009. 
The across the board cuts to the CSBG funding over the past several 
years have decreased the ability of the CSBG Network to provide 
essential services to low-income Americans.
                               background
    The States believe the CSBG is a unique block grant that has 
successfully transferred decision-making to the local level. Federally 
funded with oversight at the State level, the CSBG has maintained a 
local network of nearly 1,100 agencies which operate in 99 percent of 
counties in the Nation. This network serves nearly 15 million low-
income individuals, members of more than 7 million low-income families, 
CSBG eligible entities, largely local Community Action Agencies (CAAs), 
provide States with a stable and guaranteed network of designated 
entities which are mandated to change the conditions that perpetuate 
poverty for individuals, families, and communities. There is no other 
program in the United States mandated by Federal statute to respond to 
poverty. To fulfill that mandate, CAAs provide services based on the 
characteristics of poverty in their communities. For one community, 
this might mean providing job placement and retention services; for 
another, developing affordable housing. In rural areas, it might mean 
providing access to health services or developing a rural 
transportation system.
    Since its inception, the CSBG has shown how partnerships between 
States and local agencies benefit citizens in each State. We believe it 
should be viewed as a model of how the Federal Government can best 
promote self-sufficiency for low-income persons in a flexible, 
decentralized, non-bureaucratic and accountable way.
    Long before the creation of the Temporary Assistance for Needy 
Families (TANF) block grant, the CSBG set the standard for private-
public partnerships that work to revitalize local communities and 
address the needs of low-income residents. Family oriented, while 
promoting economic development and individual self-sufficiency, the 
CSBG relies on an existing and experienced community-based service 
delivery system of CAAs and other non-profit organizations to produce 
results for its clients.
                    what do local csbg agencies do?
    Since CAAs operate in rural areas as well as in urban areas, it is 
difficult to describe a typical Community Action Agency. However, one 
thing that is common to all is the goal of self-sufficiency for all of 
their clients. Reaching this goal may mean providing day care for a 
struggling single mother as she completes her General Equivalency 
Diploma (GED) certificate, moves through a community college course and 
finally is on her own supporting her family without Federal assistance. 
Many CAAs administer the Head Start Program which helps meet the 
educational needs of low-income families. It may mean assisting a 
recovering substance abuser as he seeks employment. Many of the 
Community Action Agencies' clients are persons who are experiencing a 
one-time emergency. Others have lives of chaos brought about by many 
overlapping forces--a divorce, sudden death of a wage earner, illness, 
lack of a high school education, closing of a local factory or the loss 
of family farms.
    CAAs provide access to a variety of opportunities for their 
clients. Although they are not identical, most will provide some, if 
not all, of the services listed below:
  --a variety of crisis and emergency safety net services
  --employment and training programs
  --transportation and child care for low-income workers
  --individual development accounts
  --micro business development help for low-income entrepreneurs
  --local community and economic development projects
  --housing, transitional housing, and weatherization services
  --Head Start
  --energy assistance programs
  --nutrition programs
  --family development programs
  --senior services
    CSBG is the core funding which holds together a local delivery 
system able to respond effectively and efficiently, without a lot of 
red tape, to the needs of individual low-income households as well as 
to broader community needs. In addition, CSBG funds many of these 
services directly. Without the CSBG, local agencies would not have the 
capacity to work in their communities developing local funding, private 
donations and volunteer services and running programs of far greater 
size and value than the actual CSBG dollars they receive.
    CAAs manage a host of other Federal, State, and local programs 
which makes it possible to provide a one-stop location for persons 
whose problems are usually multi-faceted. Over half (52 percent) of the 
CAAs manage the Head Start program in their community. Using their 
unique position in the community, CAAs recruit additional volunteers, 
bring in local school district personnel, tap into faith-based 
organizations for additional help, coordinate child care and bring 
needed health care services to Head Start centers. In many States they 
also manage the Low Income Home Energy Assistance Program (LIHEAP), 
raising additional funds from utilities for this vital program. CAAs 
may also administer the Weatherization Assistance Program and are able 
to mobilize funds for additional work on residences not directly 
related to energy savings that, for example, may keep a low-income 
elderly couple in their home. CAAs also coordinate their programs with 
the Community Development Block Grant program to stretch Federal 
dollars and provide a greater return for tax dollars invested. They 
also administer the Women, Infants and Children (WIC) nutrition 
program, as well as job training programs, substance abuse programs, 
transportation programs, domestic violence and homeless shelters, and 
food pantries.
    For every CSBG dollar they receive, CAAs leverage $5.47 in non-
Federal resources (State, local, and private) to coordinate efforts 
that improve the self-sufficiency of low-income persons and lead to the 
development of thriving communities.
                        who does the csbg serve?
    National data compiled by NASCSP show that the CSBG serves a broad 
spectrum of low-income persons, particularly those who are not being 
reached by other programs and are not being served by welfare programs. 
Based on the most recently reported data, from fiscal year 2005 CSBG 
serves:
  --More than 3 million families with incomes at or below the poverty 
        level; of these customer families, 31 percent are severely poor 
        as they have incomes at or below 50 percent of the poverty 
        guideline.
  --More than 1.3 million families headed by single mothers.
  --More than 1.6 million ``working poor'' families with wages or 
        unemployment benefits as income; collectively, they make up 45 
        percent of all program participants.
  --More than 404,000 TANF participant families, 23 percent of all TANF 
        families nationwide.
  --About 4 million children.
  --Almost 2.8 million people without health insurance.
  --Almost 1.8 million adults who had not completed high school.
               major characteristics of the csbg network
    Due to the unique structure of the CSBG, the CSBG Network has 
earned a reputation for its:
    Emergency Response.--CAAs are utilized by Federal and State 
emergency personnel as a frontline resource to deal with emergency 
situations such as floods, hurricanes and economic downturns. They are 
also relied on by citizens in their community to deal with individual 
family hardships, such as house fires or other emergencies.
    In fact, during and after Hurricanes Katrina and Rita, the State 
CSBG offices and local CAAs quickly mobilized to provide immediate and 
long-term assistance to over 355,000 evacuees. This immediate 
assistance included, but was not limited to, transportation, food, 
medical check-ups, housing, utility deposits, job placement, and 
clothing. State CSBG offices and CAAs across the country coordinated 
their relief efforts with other agencies providing disaster relief 
assistance such as FEMA, Red Cross, and other faith-based and 
community-based organizations.
    State CSBG offices, through their local network of CAAs, continue 
to provide the long-term assistance evacuees will need as they re-
establish themselves through self-sufficiency and family development 
programs. These programs offer comprehensive approaches to selecting 
and offering supportive services that promote, empower and nurture the 
individuals and families seeking economic self-sufficiency. At a 
minimum, these approaches include:
  --A comprehensive assessment of the issues facing the family or 
        family members and of the resources the family brings to 
        address these issues;
  --A written plan for becoming more financially independent and self-
        supporting;
  --A comprehensive mix of services that are selected to help the 
        participant implement the plan;
  --Professional staff members who are flexible and can establish 
        trusting, long-term relationships with program participants; 
        and
  --A formal methodology used to track and evaluate progress as well as 
        to adjust the plan as needed.
    Leveraging Capacity.--In fiscal year 2006, every CSBG dollar 
leveraged $18.73 from all other sources. Of those leveraged funds, 
$5.47 came from non-Federal resources (State, local, and private) to 
coordinate efforts that improve the self-sufficiency of low-income 
persons and lead to the development of thriving communities.
    Volunteer Mobilization.--CAAs mobilize volunteers in large numbers. 
In fiscal year 2006, the most recent year for which data are available, 
the CAAs elicited more than 44 million hours of volunteer efforts, the 
equivalent of almost 21,187 full-time employees. Using just the minimum 
wage, these volunteer hours are valued at nearly $227 million.
    Adaptability.--CAAs provide a flexible local presence that 
governors have mobilized to deal with emerging poverty issues.
    Moreover, the CSBG Network has also earned a reputation for its:
    Accountability.--The Federal Office of Community Services, State 
CSBG offices, and CAAs have worked closely to develop a results-
oriented management and accountability (ROMA) system. Through this 
system, individual agencies determine local priorities within six 
common national goals for CSBG and report on the outcomes that they 
achieved in their communities.
    Local Direction and Oversight.--Tri-partite boards of directors 
guide CAAs. These boards consist of one-third elected officials, one-
third representatives from the private sector, and not less than one-
third of the members are representative of the low-income persons in 
the neighborhoods served by the CAA. The boards are responsible for 
establishing policy and approving business plans of the local agencies. 
Since these boards represent a cross-section of the local community, 
they guarantee that CAAs will be responsive to the needs of their 
community.
    The statutory goal of the CSBG is to ameliorate the effects of 
poverty. The primary goal of every CAA is self-sufficiency for its 
clients. Helping families become self-sufficient is a long-term process 
that requires multiple resources. This is why the partnership of 
Federal, State, local and private enterprise has been so vital to the 
successes of the CAAs.
                        examples of csbg at work
    Since 1994, CSBG has implemented a Results-Oriented Management and 
Accountability (ROMA) system. Through ROMA, the effectiveness of 
programs is captured through the use of goals and outcomes measures. 
Below you will find the network's nationally aggregated outcomes 
achieved by individuals, families and communities as a result of their 
participation in innovative CSBG programs during fiscal year 2006:
  --104,792 participants gained employment with the help of community 
        action
  --34,115 participants obtained ``living wage'' employment with 
        benefits
  --82,981 low-income participants obtained safe and affordable housing 
        in support of employment stability
  --715,870 low-income households achieved an increase in non-
        employment financial assets, including tax credits, child 
        support payments, and utility savings, as a result of community 
        action ($288 million in aggregated savings)
  --1,301 families achieved home ownership as a result of accumulated 
        savings from IDA savings accounts
  --157,061 low-income people obtained pre-employment skills and 
        received training program certificates or diplomas, completed 
        Adult Basic Education or GED coursework and received 
        certificates or diplomas, and/or completed post-secondary 
        education and obtained a certificate or diploma
  --4,498,366 new community opportunities and resources were created 
        for low-income families as a result of community action work or 
        advocacy, including ``living wage'' jobs, affordable and 
        expanded public and private transportation, medical care, child 
        care and development, new community centers, youth programs, 
        increased business opportunity, food, and retail shopping in 
        low-income neighborhoods
    At the end of the day, the CSBG Network represents our abiding 
national commitment to care for the less fortunate and in recognition 
that we are stronger when we do so. The CSBG and CSBG Network, in 
addition to other non-profit faith-based and community-based 
organizations, are a critical complement to the public sector's efforts 
towards helping to lift low-income Americans and their communities out 
of poverty and into self-sufficiency.
    In fiscal year 2006, the CSBG Network assisted approximately 22 
percent of the persons in poverty that year and almost 15 million low-
income individuals who are members of more than 7 million low-income 
families. Renewed funding for the CSBG Network is one of the best ways 
to ensure that America has an experienced, guaranteed and trusted 
network to assist its most vulnerable families in achieving and 
maintaining self-sufficiency. As such, NASCSP requests $700 million in 
CSBG funding for fiscal year 2009.
                                 ______
                                 
  Prepared Statement of the National Association of State Head Injury 
                             Administrators
    Mr. Chairman, on behalf of the National Association of State Head 
Injury Administrators (NASHIA), I am submitting this testimony in 
support of funding the Federal Traumatic Brain Injury (TBI) Grant 
Program at $15 million for fiscal year 2009. The members of NASHIA also 
thank you for your support of the reauthorization of the TBI Act, which 
is expected to be signed into law within the next few days.
    This year marks the eleventh year that grants have been available 
to States to develop and expand service delivery systems to better 
serve those with TBI and their families. Congress originally authorized 
the Federal TBI Program under the TBI Act of 1996, and the most recent 
reauthorization bill is currently awaiting the President's signature. 
The Act authorizes funding to the Department of Health and Human 
Services, Health Resources and Services Administration (HRSA) for 
grants to States, the District of Columbia and Territories to improve 
access and increase service delivery for individuals with TBI and their 
families. The Act also authorizes funding to HRSA for Protection & 
Advocacy Services (P&A) for individuals with TBI and their families and 
to the Centers for Disease Control and Prevention (CDC) for injury 
surveillance, prevention and public education.
    The HRSA Federal TBI State Grant Program began as a very small 
program, yet it remains the only source of Federal funding that spurs 
States to develop, expand and improve service delivery for individuals 
with TBI and their families. For the past 4 years, the administration 
has zeroed out funding for the program as a result of a poor PART score 
by the Office of Management and Budget (OMB). This was unfortunate for 
persons with TBI and their families because the PART evaluation was 
flawed as it measured health outcomes for individuals and this program 
was not designed nor intended to provide direct health services.
    In order to better evaluate the program, the Institute of Medicine 
(IOM) conducted a study and issued a report on its findings in 2006. 
The report commended state activities, particularly in leveraging other 
resources, but was less complimentary of program management due to lack 
of staff (there has been only one staff person) and agency commitment. 
IOM recommended that an advisory board be established as soon as 
possible to assist HRSA in setting a national agenda, coordinating with 
sister federal agencies and to develop evaluation procedures for the 
program.
    The IOM found that the ``Federal Program has demonstrated 
beneficial change in State organizational infrastructure and increased 
the visibility of TBI--both essential conditions for improving TBI 
service systems.'' Further, the IOM noted that ``States are now at a 
critical stage and will need continued Federal support if they are to 
build an effective, durable service system for meeting the needs of 
individuals with TBI and their families.'' Federal funding, however, 
has declined.
    To address IOM's recommendations and the emerging issues, such as 
returning troops with misdiagnosed or undiagnosed TBIs, we respectfully 
request $15 million for the HRSA Federal TBI State Grant Program. This 
would allow each State to be funded in the amount of $250,000, which is 
closer to the amount initially awarded to States in 1997 for 
Implementation Grants. Over time, HRSA lowered the grant award amounts 
to $100,000 in an effort to bring more States into the program, with 
the Territories receiving $70,000. While this approach may have helped 
to bring attention to TBI in more States, fewer dollars to each State 
made it more difficult to make important systems change and to sustain 
efforts.
    As the result of the large number of returning troops from Iraq and 
Afghanistan who have TBI and related conditions, States are facing an 
increased demand for information, community resources, assistance and 
family supports. Almost half of the States legislatures, Governors and/
or department directors have initiated State agency coordination among 
TBI, mental health, State Veteran's Commissions and National Guard or 
have elected to only focus on either TBI or Post Traumatic Stress 
Disorder (PTSD) in some capacity to address these concerns. This puts 
more pressure on TBI systems that are already woefully underfunded.
    Given that the origin of these TBIs is a result of service to our 
country, this has resulted in a federal action that ultimately imposes 
an additional burden on the States. A $100,000 grant is inadequate for 
States to develop and sustain efforts previously initiated, let along 
increase service delivery each year to meet the growing number of 
individuals with TBI and their families, including returning 
servicemembers.
    NASHIA also supports $9 million for CDC data surveillance, 
prevention and public education programs, and $6 million for the HRSA 
P&A Services Grant Program to expand their client advocacy to include 
individuals with TBI. These programs augment States' abilities to 
better plan for service delivery, as the result of CDC data, and the 
P&A grants help individuals to access these often confusing and 
complicated systems.
    Families are the primary caretakers of individuals with TBI, and 
these families are aging as well. The CDC has just released its 
informational packet, ``Help Seniors Live Better, Longer: Prevent Brain 
Injury Initiative'' as the result of its finding that people ages 75 
and older have the highest rates of TBI-related hospitalizations and 
death--another emerging issue. States have limited resources to provide 
the long-term care and supports needed for those who may not have 
families any longer to protect and support them. They are faced with 
decreased State revenue, cut backs in Medicaid and other Federal 
resources.
    Despite all these challenges, States have been able to leverage and 
maximize other resources to address unmet needs. Some of these examples 
include:
                     veterans and returning troops
    The beauty of the HRSA Federal TBI Grant program is that it directs 
States to develop necessary infrastructure for service delivery, and 
promotes coordination of State programs and policies through the 
advisory boards and by the lead TBI agency. As such, those States that 
have had strong leadership and commitment for TBI services, are poised 
to help their sister State agencies and returning troops to access 
services. A few States (MA, VT and NY) have already been at the 
forefront of collaborating with other State and local agencies to 
better coordinate public education, outreach, information & referral 
and resources to returning troops with TBI or for those who may be 
misdiagnosed and undiagnosed.
                                children
    The CDC estimates that 37,000 children and youth receive brain 
injuries severe enough to require hospitalization each year. According 
to the most recent U.S. Department of Education numbers, the total 
number of students served in special education under the TBI category 
is 14,844. This discrepancy in numbers illustrates that the majority of 
students with traumatic brain injury are either misclassified or not 
identified at all as having a brain injury and will not receive needed 
services.
    As the result of these findings, States (OR, TN, AL, PA, HI, OH) 
have used their Federal grant funding to screen children for TBI in 
public educational settings to improve identification; developed 
resources for educators to help with developing Individual Education 
Programs (IEPs) and appropriate educational and behavioral strategies 
to improve learning; and/or resource teams to provide consultative 
services.
                          unserved/underserved
    Several States have used their Federal funds to provide outreach to 
Native Americans (MT, OH, ND, AZ) and other cultures, such as African 
Americans, Hispanics and Asians (MA, NJ, IL, CT, FL, MN), to access 
TBI, needed services and supports to live and work in the community.
                 tbi technical assistance center (tac)
    Another important component of the HRSA Federal TBI Program is the 
TBI TAC which is administered by NASHIA in order to help State grantees 
and non-grantees to:
  --Develop Service delivery infrastructure
  --Develop effective programs that improve access to health and other 
        TBI services
  --Develop plans for sustainability after federal funding ends
  --Develop plan, implement and evaluate TBI related initiatives
  --Identify resources, develop strategies, and implement programs for 
        children and youth and ensure that activities are appropriately 
        family centered and culturally competent.
  --Develop and submit grantee proposal applications
    The TBI TAC also develops and conducts the annual Federal TBI 
Program Grantee Meetings, offers peer mentoring to encourage the 
transfer of knowledge among the States and Territories, and 
disseminates materials and resources.
                      responding to national needs
    The TBI TAC responds to emerging issues through webcast trainings 
and informational packets on state and community initiatives. These 
educational packets include information on returning troops with TBI; 
TBI trust funds to support rehabilitation services and supports; 
educational services for children, screening tools, and training 
programs for direct support personnel and other professionals. Webcasts 
have been conducted on a variety of issues including services provided 
by the Veterans Administration, housing, substance abuse, employment, 
TBI trust funds, domestic violence, children's services, educational 
services and neurobehavioral health.
    The TBI TAC also maintains a data base known as the Traumatic Brain 
Injury Collaboration Space (TBICS). The TBICS is a clearinghouse of all 
products and materials available for improving state service delivery. 
The TBI TAC also operates a listserv for approximately 1,000 
subscribers to disseminate information and for subscribers to submit 
questions and share ``best practices.''
                            still work to do
    While the IOM acknowledged these and other State efforts, it still 
noted that the quality and coordination of post-acute TBI service 
systems remains inadequate. Individuals with TBI, their families, 
caregivers and others report substantial problems in getting basic 
services, including housing, vocational services, neurobehavioral 
services, transportation and respite for caregivers. Service 
coordination, which is offered in some States, is not uniformly offered 
in all States to all age groups. Families still report the need for 
information and assistance at the time of hospitalization, and help 
with resulting behavioral problems that often are too burdensome to the 
family. States report difficulty in finding and paying for qualified 
and experienced providers, professionals and direct care workers. 
Training and education are needed across the board for individuals, 
families, professionals, provides and policy makers to understand the 
complexity of the disability and resulting problems.
    In conclusion, while the Federal TBI Act Programs have impacted 
State and local service delivery significantly, it is the only Federal 
funding available to help States develop, improve and expand service 
delivery to meet the growing, yet differing needs of individuals of all 
ages, all cultures and regardless of cause of injury--motor vehicle, 
falls, sporting, or occupational, including war-related injuries. This 
burden on the States is significant, complex and requires additional 
funding resources. For States to continue their efforts, let alone 
increase their capacity for the growing numbers of individuals with TBI 
needing community and long-term care and supports, will take 
significant federal support. We, therefore, urge you to increase 
funding for HRSA Federal TBI State Grant Program to $15 million, as 
well as appropriate $9 million to CDC and $6 million to the HRSA TBI 
P&A Grant Programs.
    Thank you for your continued support for the millions of 
individuals with TBI and those who serve them.
                                 ______
                                 
 Prepared Statement of the National Association of State Mental Health 
                           Program Directors
    Chairman Harkin, ranking member Specter, and members of the 
subcommittee, on behalf of the National Association of State Mental 
Health Program Directors (NASMHPD), thank you for the opportunity to 
submit testimony on behalf of the $29.5 billion public mental health 
service delivery systems serving 6.1 million people annually in all 50 
States, four territories, and the District of Columbia. NASMHPD is the 
only national association to represent State mental health 
commissioners/directors and their agencies. In addition, NASMHPD has an 
affiliation with the approximately 220 State psychiatric hospitals. Our 
members administer and manage community-based systems of care for the 
millions of individuals with serious mental illness who at times 
require immediate access to a variety of inpatient facilities and 
psychiatric units in general hospitals but are often cared for 
successfully in the community.
    An October 2006 report by NASMHPD illustrates how dire the need is 
for people with mental illness. This report States that persons with 
serious mental illness die, on average, 25 years earlier than the 
general population. In addition, according to the Substance Abuse and 
Mental Health Services Administration (SAMHSA), an estimated 17 million 
adults ages 18 and older (8.0 percent of the adult population) reported 
experiencing at least one major depressive episode during the past 
year. Finally, in the RAND Corporation's 2008 report, ``Invisible 
Wounds of War: Psychological and Cognitive Injuries, Their 
Consequences, and Services to Assist Recovery,'' researchers concluded 
that there needs to be a nationwide effort to expand and improve the 
capacity of the mental health system to provide adequate care to 
members of the military and veterans. RAND further reported that this 
effort must involve the public mental health system, as well as the 
military and veteran health care systems.
    The Community Mental Health Services Block Grant (Block Grant).--
NASMHPD recommends providing $482.9 million for the Block Grant, which 
represents a $61.9 million increase over both the fiscal year 2008 
budget and the President's fiscal year 2009 request.
    The Block Grant is the principal Federal discretionary program 
supporting community-based mental health services for adults and 
children. States use Block Grant funding to provide a range of critical 
services for adults with serious mental illnesses and children with 
serious emotional disturbances, including employment and housing 
assistance, case management, school-based support services, family and 
parenting education, and peer support.
    The Block Grant is vital because it gives each State the 
flexibility to: fund services that are tailored to meet the unique 
needs and priorities of consumers of the public mental health system in 
that State; hold providers accountable for access to, and quality of 
services provided; and coordinate services to help finance medical and 
social services that individuals with mental illnesses need to live 
safely and effectively in the community. The following are recent 
examples of how States used the Block Grant in the past to provide 
vital services:
    Iowa.--Community mental health centers (CMHCs) that receive Block 
Grant funding use the funding to develop and implement evidence based 
practices for adults with serious mental illness and children with 
serious emotional disturbance. Block Grant funding has been used to 
provide training to CMHC about evidence based practices, how to 
evaluate programs for effectiveness, and how to transition from non-
evidence based practices. In addition, the Block Grant funds technical 
assistance to individual CMHCs regarding the implementation of evidence 
based practices.
    Pennsylvania.--Pennsylvania allocated the majority of its fiscal 
year 2006 Block Grant funds to County Mental Health Programs, which 
expanded funds for services and supports to adults and older adults 
with serious mental illness and children with serious emotional 
disturbance. Block Grant funds may be spent in any service center 
except Psychiatric Inpatient services. These service areas include: 
community services; crisis intervention services; adult developmental 
training; community employment services; facility-based vocational 
rehabilitation; social rehabilitation services; family support 
services; community residential services; children's psychosocial 
rehabilitation services; community treatment teams; intensive case 
management; outpatient mental health; day treatment (partial 
hospitalization); family based mental health; resource coordination; 
administrative management; and emergency services such as housing 
support services.
    Wisconsin.--Wisconsin's Block Grant funding has helped one or more 
of the following priorities: Certified Community Support Program 
development and service delivery; supported housing program development 
and service delivery; initiatives to divert persons from jails to 
mental health services; development and expansion of mobile crisis 
intervention programs; consumer peer support and self-help activities; 
coordinated, comprehensive services for children with serious emotional 
disturbance; development of strategies and services for persons with 
co-occurring mental health/substance use disorders, or mental health 
outcome data system improvement.
         programs of regional and national significance (prns)
    NASMHPD recommends providing $343.3 million for PRNS, which 
represents a $44 million increase over fiscal year 2008 and a $188 
million increase over the President's fiscal year 2009 request.
    The Center for Mental Health Services (CMHS) addresses priority 
mental health care needs of regional and national significance by 
developing and applying best practices, providing training and 
technical assistance, building targeted capacity expansion, and 
changing the service delivery system through family, client-oriented 
and consumer-run activities. Several important programs that will be 
positively affected by an increase in PRNS funding include, but are not 
limited to:
Suicide Prevention for Children and Adolescents.--$55.7 million
    In 2004, 32,439 individuals died by suicide in the United States. 
Of these suicides, more than 4,500 were young people between the ages 
of 10-24. Nationally, suicide is the third leading cause of death among 
children aged 10-14 and among adolescents and young adults aged 15-24. 
According to the final report of President Bush's New Freedom 
Commission on Mental Health (2003), ``our Nation's failure to 
prioritize mental health is a national tragedy . . . No loss is more 
devastating than suicide. Over 30,000 lives are lost annually to this 
largely preventable public health problem . . . Many have not had the 
care in the months before their death that would help them to affirm 
life. The families left behind live with shame and guilt . . .''
    CMHS funds two specific suicide prevention initiatives. The first 
initiative is the National Suicide Prevention Lifeline (1-800-273-
TALK), a network of more than 120 crisis centers across the country 
that respond, 24 hours a day, to individuals in emotional distress or 
suicidal crisis. In 2007, SAMHSA and the Department of Veterans' 
Affairs partnered to expand the reach of the Lifeline to provide for 
specialized veteran services. The second initiative is the Suicide 
Prevention Resource Center, which provides prevention support, 
training, and materials to strengthen suicide prevention efforts.
Mental Health Transformation State Incentive Grants.--$29.8 million
    The Mental Health Transformation State Incentive Grants (T-SIGs) 
support States' efforts to create comprehensive mental health plans and 
enhance the use of existing resources to serve persons with mental 
disorders. SAMHSA awarded seven T-SIGs in fiscal year 2005; two 
additional T-SIGs were awarded in fiscal year 2006. Grant funds can 
only be used for infrastructure changes, such as planning, 
collaborating, blended funding or developing service concepts, and 
policies and procedures that support a transformation agenda. Funding 
of direct mental health services must come from other sources. Grantees 
work closely with other agencies, such as criminal justice, housing, 
child welfare, Medicaid and education.
    Federal funding for the State Incentive Grants supports States' 
efforts to develop more comprehensive State mental health plans. These 
plans facilitate the coordination of Federal, State, and local 
resources to support effective and dynamic State infrastructure to best 
serve persons with mental disorders.
Alternatives to Seclusion and Restraint State Infrastructure Grants.--
        $2.5 million
    Deaths due to seclusion and restraint in mental health and 
substance abuse care are estimated at approximately 150 per year across 
the United States. In addition to the risk of death and injury, 
individuals who have experienced previous physical or sexual abuse can 
suffer further traumatization when subjected to these practices.
    The Alternatives to Seclusion and Restraint State Infrastructure 
Grant Project (S/R-SIG) provides training, technical assistance and 
other support to States, providers, facilities, and consumers and 
families in order to reduce and eliminate seclusion and restraint 
practices. SAMHSA awarded eight S/R-SIGs in fiscal year 2007. Most of 
these States are implementing best practices alternatives in multiple 
settings and with a variety of consumers.
National Center for Trauma-Informed Care.--$38 million
    The psychological effects of violence and trauma in our society are 
pervasive, highly disabling, yet largely ignored. Recent research 
indicates that interpersonal violence and trauma, including sexual and/
or physical abuse, are widespread and have a major impact on a wide 
range of social problems which are costly if not addressed.
    The National Center for Trauma-Informed Care provides technical 
assistance and training to publicly-funded agencies, programs, and 
services in order to encourage an environment that supports and 
empowers trauma survivors.
     projects for assistance in transition from homelessness (path)
    NASMHPD recommends providing $61.1 million for PATH, which 
represents a $7.8 million increase over fiscal year 2008 and a $1.4 
million increase over the President's fiscal year 2009 request.
    The PATH formula grant program provides funding to States, 
localities and non-profit organizations to support individuals who are 
homeless (or are at risk of homelessness) and have a serious mental 
illness and/or a co-occurring substance abuse disorder. PATH is 
designed to encourage the development of local solutions to the problem 
of homelessness and mental illness through strategies such as 
aggressive community outreach, case management and housing assistance. 
Other important core services include referral for primary care, job 
training and education. Surveys indicate that, in 2005, 463 PATH-funded 
local agencies enrolled more than 82,000 individuals of diverse racial 
and ethnic background with the most disabling mental illness. The most 
common diagnoses were schizophrenia, psychotic disorders and affective 
disorders. More than half of homeless consumers at first contact had 
been homeless for more than 30 days.
               national institute of mental health (nimh)
    NASMHPD recommends providing $1,498.6 million for NIMH, which 
represents a $94.1 million increase over fiscal year 2008 and a $91.6 
million increase over the President's fiscal year 2009 request.
    The mission of NIMH is to reduce the burden of mental and 
behavioral disorders through research on mind, brain, and behavior. 
Mental illnesses are fundamentally brain disorders that affect 
children, adolescents, and adults. Each year, more than 54 million 
people experience significant symptoms caused by mental disorders. This 
equates to one in every 20 adults who experience a disabling mental 
disorder. Of the ten leading causes of disability in the United States 
and internationally for individuals aged 15-44, four are mental 
disorders: major depression, bipolar disorder, schizophrenia, and 
obsessive-compulsive disorder. Left untreated, a mental disorder can 
lead to more severe and more difficult to treat illnesses, and to the 
development of co-occurring mental disorders.
    NIMH is currently developing a Strategic Plan to: promote discovery 
in the brain and behavioral sciences to fuel research on the causes of 
mental disorders; determine when, where and how to intervene; develop 
new and better interventions that incorporate the diverse needs of 
people with mental disorders; and strengthen the public health impact 
of NIMH-supported research. NIMH must achieve the fundamental 
understanding of how mental disorders begin and progress, to discover 
new treatments, and eventually prevent and cure them.
                other important funding recommendations
  --Substance Abuse Prevention and Treatment Block Grant for $1,858.7 
        million
  --Center for Substance Abuse Prevention Programs of Regional and 
        National Significance for $215.06 million
  --Center for Substance Abuse Treatment Programs of Regional and 
        National Significance for $420 million
  --SAMHSA Integrated Treatment for Co-Occurring Serious Mental Illness 
        and Substance Abuse Disorders for $4.14 million
  --National Institute on Alcohol Abuse and Alcoholism (NIAAA) for 
        $465.5 million
  --National Institute on Drug Abuse (NIDA) for $1,067.7 million
                               conclusion
    Thank you for your continued support for mental health initiatives. 
If you have any questions, please do not hesitate to contact Elizabeth 
Prewitt, NASMHPD's Director of Government Relations, 66 Canal Center 
Plaza, Suite 302, Alexandria, VA, Fax: 703-548-9517, Phone: 703-682-
5196, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e88d848192898a8d9c80c6989a8d9f819c9ca886899b8580988cc6879a8fc6">[email&#160;protected]</a>
                                 ______
                                 
   Prepared Statement of the National Coalition for Homeless Veterans
                              introduction
    The National Coalition for Homeless Veterans (NCHV) appreciates the 
opportunity to submit testimony to the Senate Appropriations 
Subcommittee on Labor, Health and Human Services, Education & Related 
Agencies regarding the Homeless Veteran Reintegration (HVRP) and 
Veteran Workforce Investment Programs (VWIP), administered by the U.S. 
Department of Labor (DOL) Veterans' Employment and Training Service 
(VETS).
    Established in 1990, NCHV is a not for profit organization with the 
mission of ending homelessness among veterans by shaping public policy, 
promoting collaboration, and building the capacity of service 
providers. NCHV is the only national organization wholly dedicated to 
helping end homelessness among America's veterans.
    In the years since its founding, NCHV's membership has grown to 
over 280 organizations in 46 states, the District of Columbia, Guam and 
Puerto Rico. As a network, NCHV members provide the full continuum of 
care to homeless veterans and their families, including emergency 
shelter, food and clothing, primary health care, addiction and mental 
health services, employment supports, educational assistance, legal aid 
and transitional housing.
                      homelessness among veterans
    The homeless veteran assistance movement NCHV represents began in 
earnest in 1990, but like a locomotive it took time to build the 
momentum that has turned the battle in our favor. In partnership with 
the Departments of Veterans Affairs (VA), DOL, and Housing and Urban 
Development (HUD)--supported by the funding measures this committee has 
championed--our community veteran service providers have helped reduce 
the number of homeless veterans on any given night in America by 38 
percent in the last 6 years.
    This assessment is not based on the biases of advocates and service 
providers, but by the federal agencies charged with identifying and 
addressing the needs of the nation's most vulnerable citizens. To its 
credit, the VA has presented to Congress an annual estimate of the 
number of homeless veterans every year since 1994. It is called the 
CHALENG project, which stands for Community Homelessness Assessment, 
and Local Education Networking Groups. In 2003 the VA CHALENG report 
estimate of the number of homeless veterans on any given day stood at 
more than 314,000; in 2006 that number had dropped to about 194,000. We 
have been advised the estimate in the soon-to-be published 2007 CHALENG 
Report shows a continued decline, to about 154,000.
    Part of that reduction can be attributed to better data collection 
and efforts to avoid multiple counts of homeless clients who receive 
assistance from more than one service provider in a given service area. 
But in testimony before the House Committee on Veterans Affairs in the 
summer of 2005, VA officials affirmed the number of homeless veterans 
was on the decline, and credited the agency's partnership with 
community-based and faith-based organizations for making that downturn 
possible.
    Though estimates are not as reliable as comprehensive ``point-in-
time'' counts, the positive trends noted in the CHALENG reports since 
2003 are impressive. The number of contacts reporting data included in 
the assessments is increasing, while the number of identified and 
estimated homeless veterans is decreasing.
    Other federal assessments of veteran homelessness that support our 
testimony are found in HUD's 2007 Annual Homelessness Assessment 
Report--which reported 18 percent of clients in HUD-funded homeless 
assistance programs are veterans--and the 2000 U.S. Census, which 
reported about 1.5 million veteran families are living below the 
Federal poverty level. Earlier this year, the National Alliance to End 
Homelessness published a report, based on information from these 
resources, that estimated approximately 46,000 veterans meet the 
criteria to be considered as ``chronically homeless.''
    Despite the reduction in the ``point-in-time'' counts, the VA 
reports the number of veterans experiencing homeless at sometime during 
the year remains around 400,000. The VA serves about 25 percent or 
100,000 of this population annually and NCHV member community-based 
organizations (CBOs) serve 150,000 or 35 percent each year. 
Consequently, almost 40 percent of the nation's homeless veterans still 
do not receive the help they need. It is likely some of these veterans 
are receiving assistance from other community resources, but there is 
no way to determine how many or the nature of services being provided.
         homeless veterans reintegration program appropriations
    There are only two non-government veteran-specific homeless 
assistance programs serving the men and women who represent nearly a 
quarter of the nation's homeless population. The over-representation of 
veterans among the homeless that is well documented and continues to 
this day is the result of several influences, most notably limited 
resources in communities with a heavy demand for assistance by single 
parents and families with dependent children, the elderly and the 
disabled.
    The DOL HVRP and the VA Homeless Providers Grant and Per Diem were 
created in the late 1980s to provide access to services for veterans 
who were unable to access local, federally funded, ``mainstream'' 
homeless assistance programs. These programs are largely responsible 
for the downturn in veteran homelessness reported during the last six 
years, and must be advanced as essential components in any national 
strategy to prevent future veteran homelessness. This testimony will 
focus solely on the HVRP.
    Administered by DOL-VETS, HVRP is a grant program that awards 
funding to government agencies, private service agencies and community-
based nonprofits that provide employment preparation and placement 
assistance to homeless veterans. As the only federal employment 
assistance program targeted to this population, HVRP serves those who 
may be shunned by other programs and services because of problems such 
as severe post-traumatic stress disorder, long histories of substance 
abuse, serious psychosocial problems, legal issues, and those who are 
HIV-positive. These veterans require more time-consuming, specialized, 
intensive assessment, referrals and counseling than is possible in 
other programs that work with veterans seeking employment.
    The employment focus of HVRP distinguishes it from most other 
programs for the homeless, which concentrate on more immediate needs 
such as emergency shelter, food and substance abuse treatment. While 
these are critical components of any homeless program, and grantees are 
required to demonstrate that their clients' needs in those areas are 
met, the objective of HVRP programs is to enable homeless veterans to 
secure and keep jobs that will allow them to re-enter mainstream 
society as productive citizens.
    The grants are competitive, which means applicants must qualify for 
funding based on their proven record of success at helping clients with 
significant barriers to employment to enter the work force and to 
remain employed. In September 2007 this program was judged by the 
Government Accountability Office as one of the most successful and 
efficient programs in the DOL portfolio.
    HVRP is unique and so highly successful because it doesn't fund 
employment services per se, rather it rewards organizations that 
guarantee job placement. DOL estimates HVRP will serve approximately 
17,066 homeless veterans ($1,500 average cost per participant) and 
approximately 10,240 homeless veterans will be placed into employment 
($2,500 average cost per placement) at the fiscal year 2009 budgeted 
level of $25.62 million. These costs represent a tiny investment for 
moving a veteran out of homelessness, and off of dependency on public 
programs. For Program Year 2006 (the most recent data available), the 
program's entered employment rate was 65.3 percent and the 90-day 
retained employment rate was 79.1 percent of the 65.3 percent who 
entered employment. Those numbers meet or exceed the results produced 
by most other DOL programs.
    Recommendation.--HVRP is authorized at $50 million through fiscal 
year 2009, yet the annual appropriation has been less than half that 
amount. For fiscal year 2009, the proposed funding level of $25.6 
million would fund only eleven percent of the overall homeless veteran 
population. Based on the program's success and effectiveness in terms 
of employment outcomes for one of the most difficult populations to 
serve and its cost effectiveness as compared to other employment 
placement programs, NCHV believes in fiscal year 2009 the program 
should be funded at its full $50 million authorization level. We 
believe the proven outcomes and efficiency of HVRP warrants this 
consideration, and that DOL-VETS has the administrative capacity, will 
and desire to expand the program. Employment is the key to transition 
from homelessness to self sufficiency--this program is critical to the 
campaign to end and prevent veteran homelessness.
                incarcerated veterans transition program
    Between fiscal year 2004 and fiscal year 2007, HVRP was used to 
fund the Incarcerated Veterans' Transition Program (IVTP), a joint DOL 
and VA initiative authorized by Congress to assist veterans 
incarcerated in their reentry to the community. IVTP was successful in 
getting many veterans connected to health care, benefits, employment, 
reunification with families and reducing the return to prison. During 
the three years of operation 4,094 incarcerated veterans were assessed 
by the seven pilot programs. Of those assessed, 2,191 veterans were 
enrolled as participants, and of those enrolled (54 percent) 
successfully entered employment earning an average of $10.00 an hour, 
at an average cost per placement of $4,500.
    Recommendation.--The success of the IVTP warrants both immediate 
reauthorization and expansion of the pilot projects. Once authorized, 
funds should be appropriated separately from HVRP to continue the work 
of those who provide these beneficial and much needed services.
          veterans workforce investment program appropriations
    The Veterans Workforce Investment Program (VWIP) within DOL-VETS 
provides grants to states and community-based, faith-based, and local 
public organizations to offer workforce services targeted to veterans 
with service connected disabilities, with active duty experience in a 
war or campaign, recently separated from the service, or facing 
significant barriers to employment (including homelessness). At least 
80 percent of total VWIP funds are distributed via competition. VETS 
may reserve 20 percent of total VWIP funds for discretionary grants. 
VETS use these discretionary funds for studies, demonstration projects, 
and additional funding to supplement competitive grants. The fiscal 
year 2009 Budget recommendation for VWIP is $7.351 million with plans 
to target 3,990 participants. This amount represents a 0 percent change 
in funding for the program
    The agencies receiving VWIP funds and those hoping to apply for 
this program face the problem of resource scarcity. Due to funding 
limitations, agencies and organizations in less than one-third of 
states receive VWIP funds. The need for the type of targeted assistance 
that VWIP offers is clearly needed by veterans in all states. 
Additionally, caps on the size of grant awards make it difficult for 
existing grantees to recruit and retain staff, which limits program 
effectiveness and the collaborative process.
    Recommendation.--A funding request of only $7.351 million for a 
program that can help our nation's veterans become more economically 
independent is a disgrace. NCHV asks Congress to fund this program at a 
much higher level.
                               conclusion
    NCHV appreciates the opportunity to submit recommendations to 
Congress regarding the DOL programs that assist homeless veterans. We 
look forward to continuing to work with the Senate Appropriations 
Subcommittee on Labor, Health and Human Services, Education and Related 
Agencies to ensure our federal government does what is necessary to 
prevent and end homelessness among our nation's veterans.
                                 ______
                                 
    Prepared Statement of the National Congress of American Indians
    On behalf of the tribal nations of the National Congress of 
American Indians (NCAI), we are pleased to present testimony to the 
Senate Committee on Appropriations, Subcommittee on Labor, Health and 
Human Services, Education, and Related Agencies for the fiscal year 
2009 Budget.
    At the recent State of Indian Nations address, NCAI President Joe 
Garcia spoke about the special place of honor children hold in American 
Indian and Alaska Native cultures. He discussed the community's sacred 
obligation to instill in them the traditional knowledge of past 
generations so their innocence and laughter may develop into wisdom as 
they become the leaders of the future. He stressed our belief that 
every Indian child should have the right to community-based, culturally 
appropriate services that help them grow up safe, healthy, and 
spiritually strong--free from abuse, neglect, and poverty. 
Unfortunately, all too often Native children are born into 
circumstances that may be rich in culture and love, but fail to meet 
their basic needs of health, shelter, safety, and education. Our 
communities have a vision of a restored, safer, healthier Indian 
Country for our children, but President Bush's budget request fails to 
move us in the direction of that vision and will leave Indian children 
in poverty and at risk.
    This NCAI fiscal year 2009 testimony highlights key aspects of the 
vision tribal leaders have expressed to create a safe, healthy Indian 
Country for our children. In developing these recommendations we 
recognize that chipping away at the years of under-funding and backlogs 
that plague Indian Country can only be accomplished over time. The 
requests that follow do not reflect the full need in Indian Country, 
but rather are achievable first steps that we believe Congress and the 
President should be able to support this year.
                               education
    One of the President's major focuses of the fiscal year 2009 
Education budget was closing the achievement gap. However, the numerous 
decreases proposed for programs that support Indian children's 
education government-wide does not support this claim. A standard 
argument of the current administration for eliminating tribal education 
programs is that they are duplicative, claiming that our students are 
eligible for funding through both the Department of Education and the 
Bureau of Indian Education. However, each of these offices provide 
different and essential services to ensure that our students are able 
to achieve the same challenging academic standards as other students.
    Funding levels for Indian education under the Office of Indian 
Education remained stagnate at fiscal year 2008 levels. Of major 
concern is the elimination of discretionary funding for Strengthening 
Tribally Controlled Colleges and Universities (TCUs) and Strengthening 
Alaska Native and Native Hawaiian Serving Institutions. One of the 
primary arguments for their elimination was the substantial increase in 
mandatory funding from 2007. However, this increase is a result of 
funds made available from the College Cost Reduction and Access Act and 
were meant to supplement not supplant TCU funding. This decision was 
not made in consultation with the Tribes.
    The administration proposed eliminating five tribal-specific 
programs at the Department of Education: Education for Native-Hawaiians 
($33.3 million), Alaska Native Education Equity Assistance ($33.3 
million), Strengthening Alaska Native, Native Hawaiian Serving 
Institutions ($11.6 million), Strengthening Tribal Colleges ($23.2 
million), and Tribally Controlled Postsecondary Institutions ($7.4 
million).
  --Restore the 5 Indian specific programs eliminated by the DOE in the 
        fiscal year 2009 budget.
  --Strengthening Tribal Colleges ($23.2 million)
  --Tribally Controlled Postsecondary Institutions ($7.4 million)
  --Education for Native-Hawaiians ($33.3 million)
  --Alaska Native Education Equity Assistance ($33.3 million)
  --Strengthening Alaska Native, Native Hawaiian Serving Institutions 
        ($11.6 million)
  --Increase funding 10 percent for 2 programs that remained stagnate 
        in DOE fiscal year 2009 budget.
  --Impact Aid ($1,365)
  --Indian Education Act, Title VII ($132 million)
                       health and human services
Administration on Aging
    The aging of our Nation's population will challenge Federal 
programs such as those in the Older Americans Act. The tribal service 
delivery systems, with social service programs and delivery systems 
already stretched beyond capacity, face an impending human and 
financial crisis. The crisis is exacerbated by inadequate funding, 
remoteness of the areas, inadequate healthcare funding, increased 
training needs for program staff, and lack of resources. According to 
the National Indian Council on Aging, inadequate funding has made it 
impossible for many Tribes to meet the five days a week home-delivered 
meal requirement and has forced them to provide congregate meals only 2 
or 3 days a week.
  --Increase Older Americans Act, Title VI funding to $50 million to 
        help older American Indian elders to remain independent in 
        their homes and communities.
  --Provide funding support of not less than $10 million to the Older 
        Americans Act, Title VI Native American aging programs to 
        support one-on-one counseling and enrollment assistance 
        regarding Medicare and Medicaid services.
  --Provide funding support of $10 million for the Older Americans Act, 
        Title VII, Subtitle B ``Native American Provision for 
        Prevention of Elder Abuse and Neglect'' and the ``Allotment for 
        Vulnerable Elder Rights Protection Activities'' to protect 
        elder rights and implement elder rights activities in tribal 
        communities.
Administration for Children and Families
    Head Start.--Indian Head Start programs are vital to many Native 
communities, providing support to needy families, strengthening 
revitalization efforts for tribal culture and language, and 
contributing greatly to community-based healthcare strategies. Of the 
approximately 562 federally recognized tribes, only 188 have Head Start 
programs. That means 374 tribes do not have Head Start available for 
their children. Indian Head Start has been receiving a declining 
percentage of Head Start funds, now currently at about 2.7 percent. As 
funding for Head Start over the last seven years has failed to keep 
pace with inflation we continue to support efforts to increase funding 
for Head Start by $1.072 billion in the coming year.
  --To meet the expansion commitment made to the Indian Head Start 
        program in the reauthorization bill, increase Head Start 
        funding by no less than $155 million in fiscal year 2009.
Administration for Native Americans
    Native Languages.--Throughout Indian Country tribes are combating 
the loss of traditional languages by advocating for and instituting 
language programs within their communities. Created to reverse 
centuries of Federal policies meant to destroy Native languages, Native 
language programs prevent the loss of tribal traditions and cultures 
while assisting students in their academic endeavors. The tribal 
students in immersion programs perform substantially better 
academically, including on national tests, than Native students who 
have not gone through such programs.
  --Maintain or increase the $2 million provided for the Esther 
        Martinez Native American Languages program in the 
        Administration for Native Americans.
Substance Abuse and Mental Health Services Administration (SAMHSA)
    Tribal youth between the ages of 15 and 24 commit suicide at a rate 
more than three times the national average. In Alaska, Native youth 
ages 19 and younger make up 19 percent of the population but comprise 
60 percent of the suicides in that age group for the entire State. More 
than half of those who committed suicide in Indian country had never 
been seen by a mental health provider, yet 90 percent of all teens who 
die by suicide suffer from a diagnosable mental illness at the time of 
death.
    American Indian and Alaska Native Grant Program.--The American 
Indian and Alaskan Native specific grant program within SAMHSA was 
authorized to award grants to Indian health programs to provide the 
following services: prevention or treatment of drug use or alcohol 
abuse, mental health promotion, or treatment services for mental 
illness in the amount of $15 million. To date, these funds have never 
been appropriated.
  --Fully fund the American Indian and Alaska Native specific grant 
        program at $15 million.
    Circles of Care.--Circles of Care is the only grant program in 
SAMSHA where tribes do not need to compete with the States to receive 
funding. This grant program was designed specifically to respond to the 
inequity that tribes experience in trying to access Federal behavioral 
health services funding compared to States and the lack of programming 
that is specifically designed to respond to tribal communities and 
their service delivery system realties.
  --Fund Circles of Care at $5 million.
                                 labor
    The unemployment rate among American Indians is twice that for the 
total U.S. population at 8.6 percent according to the U.S. Census 
Bureau. On some reservations, the rate is drastically high. For 
example, according to the Bureau of Indian Affairs, the Blackfeet Tribe 
face a 69 percent unemployment rate and the San Carlos Apache Tribe 
struggle with 81 percent of their population being unemployed.
    Denali Commission.--The Employment and Training Administration 
(ETA) provides tribes with grants to offer these valuable services to 
their members. The purpose of the Denali Commission is to provide 
critical utilities, infrastructure and economic support to distressed 
rural communities in Alaska. This funding stream is being terminated in 
the President's budget.
  --Restore funding to Denali Commission $6,755 million.
    Native American Programs.--One of the ETA's priorities for the 
Native American Section 166 program in fiscal year 2009 will be to 
integrate the program with the One-Stop Career Center system. The One-
Stop Career Center System does not allow flexibility for cultural 
barriers and disability barriers to employment.
  --Fully fund Native American Programs at $53 million.
                               conclusion
    NCAI realizes Congress must make difficult budget choices this 
year. As elected officials, tribal leaders certainly understand the 
competing priorities that you must weigh over the coming months. 
However, the Federal Government's constitutional and treaty 
responsibility to address the serious needs facing Indian Country are 
unique. These responsibilities remain unchanged, whatever the economic 
climate and competing priorities may be. We at NCAI urge you to make a 
strong, across-the-board commitment to meeting the Federal trust 
obligation by fully funding those programs that are vital to the 
creation of vibrant Indian Nations. Such a commitment, coupled with 
continued efforts to strengthen tribal governments and to clarify the 
government-to-government relationship, truly will make a difference in 
helping us to create stable, diversified, and healthy economies in 
Indian Country.
                                 ______
                                 
          Prepared Statement of the National Consumer Law \1\
---------------------------------------------------------------------------
    \1\ Pennsylvania Utility Law Project (PULP) on behalf of its low-
income clients, Esparanza Community Housing Corporation (CA), Community 
Housing Development Corporation of North Richmond (CA).
---------------------------------------------------------------------------
    The Federal Low Income Home Energy Assistance Program (LIHEAP) \2\ 
is the cornerstone of government efforts to help needy seniors and 
families avoid hypothermia in the winter and heat stress (even death) 
in the summer. We are in a sustained period of much higher household 
energy prices and expenditures and the demand for this program is 
growing as increases in energy prices far outstrip the ability of low-
income households to pay. In light of the crucial safety net function 
of this program in protecting the health and well-being of low-income 
seniors, the disabled and families with very young children, we 
respectfully request that LIHEAP be fully funded at its authorized 
level of $5.1 billion for fiscal year 2009 and that advance funding of 
$5.1 billion be provided for the program in fiscal year 2010.
---------------------------------------------------------------------------
    \2\ 42 U.S.C.  8621 et seq.
---------------------------------------------------------------------------
         the cost of home energy remains at record high levels
    Residential heating expenditures remain at record high levels. The 
average residential heating expenditures are projected to be 95 percent 
higher for heating oil, 28 percent higher for natural gas, 66 percent 
higher for propane, and 18.5 percent higher for electricity than the 
averaged expenditures for 2001-2006. The current U.S. Department of 
Energy short-term forecast of residential heating expenditures predicts 
that, on average, residential bills are still among the highest on 
record. The cost of electricity, used for both heating and cooling, has 
been increasing rapidly due, in part, to increases in the price of 
natural gas used to generate electricity in many power plants and the 
lifting of price caps in States that restructured their electric 
markets. In a brief span of time, energy bills have walloped low-income 
households. The effect of these continually rising prices on low-income 
households is devastating.
states' data on electric and natural gas disconnections and arrearages 
              show that more households are falling behind
    The steady and dramatic rise in residential energy costs has 
resulted in increases in electric and natural gas arrearages and 
disconnections. For example, in Rhode Island there were over 30,000 
residential service disconnections in 2007, over 5,000 more than in any 
previous year. Of those 30,000 shutoffs, over 5,200 were not restored. 
Similarly, the gap between service disconnections and reconnections has 
been increasing over time, suggesting increased durations of service 
loss and greater numbers of households that do not regain access to 
service under their own accounts as demonstrated by data from Iowa.\3\
---------------------------------------------------------------------------
    \3\ Chart provided by the Iowa Bureau of Energy Assistance.
---------------------------------------------------------------------------
    Although there are winter utility shut-off moratoria in place in 
many States, not every home is protected against energy shut-offs in 
the middle of winter. As we approach the lifting of winter shut-off 
moratoria, we expect to see a wave of disconnections as households are 
unable to afford the cost of the energy bills. The chart illustrating 
Iowa's shut-off and reconnection data shows the typical sharp increase 
in disconnections in the spring once the winter moratorium ends in a 
State. Low-income families are falling further behind as we endure year 
after year of rising home energy prices. We expect the disconnection 
peaks to grow and the gap between disconnections and reconnections to 
also grow.
    Iowa.--While the basic LIHEAP block grant for Iowa is at last 
year's levels, this winter has been colder than in the past several 
years and natural gas prices remain high and propane prices are around 
a third higher this year than the same point last year. In February 
2008, the number of low-income households with past due energy accounts 
and the total amount of the low-income arrears were the second highest 
on record for this time of year since these data have been tracked. As 
an indication of the effect of long term effect of rising home energy 
prices, the total number of LIHEAP households in arrears in February 
2008 was 67 percent higher than 5 years ago at this point in time and 
159 percent higher than in February 1999. The total amount of 
arrearages of LIHEAP households has also grown sharply due to the 
increase in prices. By February 2008, the total amount of LIHEAP 
household arrears had increased 58 percent from the same period 5 years 
ago and 176 percent compared to arrears in February 1999. The total 
number of LIHEAP households served in fiscal year 2009 is expected to 
exceed the number of households served last year.\4\
---------------------------------------------------------------------------
    \4\ Conversations with the Director of the Iowa Bureau of Energy 
Assistance (March 19, 2008).
---------------------------------------------------------------------------
    Ohio.--Ohio has experienced a steady and dramatic demand for low-
income energy assistance. The number of households entering into the 
State's low-income energy affordability program, the Percentage of 
Income Payment Program (PIPP), increased 7 percent from January 2007 to 
January 2008. The increase is an even more dramatic 75 percent between 
January 2002 and January 2008. The total dollar amount owed (arrearage) 
by low-income PIPP customers increased 14 percent from January 2007 to 
January 2008 and 84 percent when comparing PIPP customer arrears from 
January 2002 to January 2008. The growing demand is also apparent from 
the frontlines. One community action agency in Ohio reports that: ``We 
have been busy with HEAP this winter . . . as always . . . but this 
year even busier than last. There are still many people in the lobby 
every day seeking this assistance, and many we have never seen before. 
It is an indication of how serious the struggle is for Ohioans this 
year.'' Ohio has experienced an increase in enrollment for the regular 
LIHEAP block grant program (HEAP) from 2005 to 2007 with 262,561 total 
households in 2005; 354,371 in 2006; 360,656 in 2007 and expects to see 
an increase in enrollment by the end of this program year as well.'' 
\5\
---------------------------------------------------------------------------
    \5\ Public Utilities Commission of Ohio and correspondence with 
staff at the Ohio Community Development Division (March 11, 2008).
---------------------------------------------------------------------------
    Pennsylvania.--Utilities in Pennsylvania that are regulated by the 
Pennsylvania Public Utility Commission (PA PUC) have established 
universal service programs that assist utility customers in paying 
bills and reducing energy usage. Even with these programs, electric and 
natural gas utility customers find it difficult to keep pace with their 
energy burdens. The PA PUC estimates that more than 16,857 households 
entered the current heating season without heat-related utility 
service--this number includes about 3,095 households who are heating 
with potentially unsafe heating sources such as kerosene or electric 
space heaters and kitchen ovens. In mid-December 2007, an additional 
11,468 residences where electric service was previously terminated were 
vacant and over 5,826 residences where natural gas service was 
terminated were vacant. In 2007, the number of terminations increased 
44 percent compared with terminations in 2004. As of December 2007, 
19.2 percent of residential electric customers and 16.9 percent of 
natural gas customers were overdue on their energy bills.\6\
---------------------------------------------------------------------------
    \6\ Pennsylvania Public Utility Commission Bureau of Consumer 
Services.
---------------------------------------------------------------------------
 liheap is a critical safety net program for the elderly, the disabled 
                   and households with young children
    Preliminary estimates by the National Energy Assistance Directors' 
Association are that fiscal year 2008 participation rates will remain 
near the same levels as in fiscal year 2007, reaching an estimated 5.5 
million households.\7\ Yet, energy prices have been on a continued 
upward climb, eroding LIHEAP's purchasing power. LIHEAP is vital to 
poor seniors: Poor seniors who cut back on energy usage, jeopardize 
their health and safety. In general, elder households use less total 
household energy than non-elderly households, which is attributable 
primarily to the smaller dwelling units. However, poor elderly 
households use markedly less energy than non-poor elderly households. 
The disparity in usage between the poor elderly and the non-poor 
elderly is present in each of the Census regions: with the poor elderly 
using 37 percent less in the Northeast Census Region, 40 percent less 
in the Midwest Census Region, 20 percent less in the South Census 
Region and 54 percent less in the West Census region. Even worse, poor 
elderly households, on average, consume 12 percent more energy per 
square foot of living space (this measurement is also referred to as 
energy intensity) than non-poor elderly households. This disparity is 
attributable to the poorly weatherized living spaces and the use of 
old, inefficient heating equipment and appliances.\8\ In the summer, 
the inability to keep the home cool can be lethal, especially to 
seniors. According to the CDC, in 2001 300 deaths were caused by 
excessive heat exposure, and seniors and young children are 
particularly vulnerable to heat stress.\9\ The CDC also notes that air-
conditioning is the number one protective factor against heat-related 
illness and death.\10\ LIHEAP assistance helps these vulnerable seniors 
keep their homes at safe temperatures during the winter and summer and 
also funds low-income weatherization work to make homes more energy 
efficient.
---------------------------------------------------------------------------
    \7\ National Energy Assistance Directors' Association, Testimony of 
the National Energy Assistance Directors' Association on the Low Income 
Home Energy Assistance Program Before the Subcommittee on Health, 
Education, Labor and Pensions, U.S. Senate (March 5, 2008).
    \8\ NCLC analysis of U.S. Energy Information Administration, 2001 
Residential Energy Consumption Survey data on elderly energy 
consumption and expenditures.
    \9\ CDC, ``Extreme Heat: A Prevention Guide to Promote Your 
Personal Health and Safety'' available at www.bt.cdc.gov/disasters/
extremeheat/heat_guide.asp.
    \10\ Id.
---------------------------------------------------------------------------
    Dire Choices and Dire Consequences.--Recent national studies have 
documented the dire choices low-income households are faced with when 
energy bills are unaffordable. Low-income households faced with 
unaffordable energy bills cut back on necessities such as food, 
medicine and medical care.\11\ The U.S. Department of Agriculture 
recently released a study that shows the connection between low-income 
households, especially those with elderly persons, experiencing very 
low food security and heating and cooling seasons when energy bills are 
high.\12\ The U.S. Conference of Mayor's December 2007 Status Report on 
Hunger and Homelessness in America's Cities cites utility assistance 
programs as one of the most common ways to reduce hunger.\13\ A 
pediatric study in Boston documented an increase in the number of 
extremely low weight children, age 6 to 24 months, in the three months 
following the coldest months, when compared to the rest of the 
year.\14\ Clearly, families are going without food during the winter to 
pay their heating bills, and their children fail to thrive and grow. 
When people are unable to afford paying their home energy bills, 
dangerous and even fatal results occur. Families resort to using unsafe 
heating sources, such as space heaters, ovens and burners, all of which 
are fire hazards.\15\ In the summer, the inability to afford cooling 
bills can result in heat-related deaths and illness.
---------------------------------------------------------------------------
    \11\ See e.g., National Energy Assistance Directors' Association, 
2005 National Energy Assistance Survey, Tables in section IV,G 
(September 2005) To pay their energy bills, 20 percent of LIHEAP 
recipients went without food, 35 percent went without medical or dental 
care, 32 percent did not fill or took less than the full dose of a 
prescribed medicine). Available at http://www.neada.org/comm/surveys/
NEADA_2005_National_Energy_Assistance_Survey.pdf.
    \12\ Mark Nord and Linda S. Kantor, Seasonal Variation in Food 
Insecurity Is Associated with Heating and Cooling Costs Among Low-
Income Elderly Americans, The Journal of Nutrition, 136 (Nov. 2006) 
2939-2944.
    \13\ Exhibit 1.4 shows 60 percent of cities in the study cited 
utility assistance programs as a way to reduce hunger.
    \14\ Deborah A. Frank, MD et al., Heat or Eat: The Low Income Home 
Energy Assistance Program and Nutritional and Health Risks Among 
Children Less Than 3 years of Age, AAP Pediatrics v.118, no.5 (Nov. 
2006) e1293-e1302. See also, Child Health Impact Working Group, 
Unhealthy Consequences: Energy Costs and Child Health: A Child Health 
Impact Assessment Of Energy Costs And The Low Income Home Energy 
Assistance Program (Boston: Nov. 2006) and the Testimony of Dr. Frank 
Before the Senate Committee on Health, Education, Labor and Pensions 
Subcommittee on Children and Families (March 5, 2008).
    \15\ John R. Hall, Jr., Home Fires Involving Heating Equipment: 
Space Heaters (In 2005 there were an estimated 19,700 home fires 
involving space heaters resulting in 490 deaths, 980 injuries and $518 
million in property damage) National Fire Protection Association (Nov. 
2007).
---------------------------------------------------------------------------
    LIHEAP is an administratively efficient and effective targeted 
health and safety program that works to bring fuel costs within a 
manageable range for vulnerable low-income seniors, the disabled and 
families with young children. LIHEAP must be fully funded at its 
authorized level of $5.1 billion in fiscal year 2009 in light of the 
steady increase in home energy costs and the increased need for 
assistance to protect the health and safety of low-income families by 
making their energy bills more affordable. In addition, fiscal year 
2010 advance funding would facilitate the efficient administration of 
the State LIHEAP programs. Advanced funding provided certainty of 
funding levels to States to set income guidelines and benefit levels 
before the start of the heating season. States can also plan the 
components of their program year (e.g., amounts set aside for heating, 
cooling and emergency assistance, weatherization, self-sufficiency and 
leveraging activities).
                                 ______
                                 
          Prepared Statement of the National Council on Aging
          section i--basic programs in the older americans act
    The Older Americans (OAA) is the backbone of services to America's 
aging population. First enacted in 1965, the OAA helps seniors to stay 
independent and healthy through a wide range of services and programs, 
including: home-delivered meals, congregate meals, senior center 
services, transportation, support for family caregivers, home and 
community services, health promotion, disease prevention, nursing home 
ombudsmen, grants for Native Americans, community service employment 
for low-income older workers, and numerous program innovations. With 
strong support from the National Council on Aging (NCOA) and many other 
aging-related organizations, Congress reauthorized the OAA in the fall 
of 2006, strengthening it in many ways and adding important new 
initiatives.
    These are the major components of the OAA, receiving more than 92 
percent of the annual appropriations:
  --Supportive Services (Title III-B).--Services that enable older 
        persons to remain in their own homes and age in place, rather 
        than enter institutions. The most frequently provided services 
        are home health, personal care and transportation.
  --Nutrition Services (Title III-C).--Congregate and home-delivered 
        meals, increasing the health, functionality and quality-of-life 
        for millions of seniors. Approximately 40 percent of home-
        delivered meal providers have waiting lists.
  --National Family Caregiver Support Program (Title III-E).--Services 
        to help ease the burdens of caregivers, including respite care, 
        counseling and supplemental services.
  --Senior Community Service Employment Program (Title V, known as 
        SCSEP).--Part-time employment and training for low-income 
        workers, helping to lift them out of poverty and restore a 
        sense of self-worth. SCSEP strengthens communities through 
        community service job placements.
    All OAA programs are under the Administration on Aging of the 
Department of Health and Human Services, except for the SCSEP, which is 
under the Department of Labor (DoL). Total appropriations for all of 
OAA in fiscal year 2008 come to $1.935 billion--$1.413 billion to the 
Administration on Aging (AoA) and $522 million to DoL for SCSEP.
    OAA funding was virtually frozen (with very small increases) from 
fiscal year 2002 to fiscal year 2005, and then cut in fiscal year 2006. 
This frozen funding eroded many services because of rising prices, and 
simultaneously diminished the ability of OAA programs to reach the 
growing population of seniors in need. In fiscal year 2007 Congress 
increased OAA funding by a small amount, adding $20 million in 
nutrition services and $51.3 million for SCSEP to cover the increase in 
the Federal minimum wage. The fiscal year 2008 increases were similar 
to fiscal year 2007: a modest $30.4 million increase for nutrition and 
some other AoA programs, plus $38.0 million for SCSEP's minimum wage 
increase. Though the SCSEP increases of the past two cycles sound 
significant, they have not expanded the program nor helped it to keep 
up with inflation, but have only provided sufficient funds to pay the 
same number of enrollees at the higher minimum wage level.
    If OAA funding since fiscal year 2002 had simply kept pace with 
inflation and the growing number of seniors, it would be $380 million 
higher in fiscal year 2008 than it actually is. Looked at another way, 
the total increase in appropriations from fiscal year 2002 to fiscal 
year 2008 for all OAA programs was less than 8 percent. However, the 
mandated minimum wage expansion for SCSEP enrollees consumed about two-
thirds of the total funding increase; if the minimum wage dollars are 
not included in the calculation, all OAA programs combined received 
total increases of less than 3 percent in six years, far less than the 
rise in inflation in that period.
    The OAA urgently needs a significant boost in funding, for the 
following reasons:
  --OAA programs help to preserve the health and independence of our 
        Nation's seniors, enabling them to remain in their own homes 
        longer.
  --Spending money on OAA programs saves taxpayers' dollars in the long 
        run, by reducing premature nursing home placements, averting 
        malnutrition and controlling chronic health conditions.
  --With flat funding, service providers are constantly faced with 
        difficult choices about which services to cut. Rising food and 
        gas prices hit nutrition programs hard.
  --Strengthening the OAA was the top priority of the delegates to the 
        once-per-decade 2005 White House Conference on Aging, and 
        Congress responded with the 2006 reauthorization. Congress 
        needs to take the next step and provide substantial increases 
        in funding for the#1 priority of those bipartisan delegates.
    In view of the above, the National Council on Aging urges Congress 
to increase funding for all existing OAA programs by 9 percent in 
fiscal year 2009. An increase of 9 percent over fiscal year 2008 would 
be $174 million--$127 million for AoA and $47 million for the SCSEP in 
DoL.
     section ii--recently-added programs in the older americans act
    The reauthorization of the OAA, signed into law in October of 2006, 
added three valuable new initiatives that deserve significant funding:
    (1) The bill authorized a National Center on Senior Benefits 
Outreach and Enrollment under section 202(20)(B) that will marshal 
person-centered, cost effective techniques to enroll low-income seniors 
in a range of benefits programs for which they are eligible. 
Participation rates in current needs-based programs are unacceptably 
low:
  --Up to 4.2 million low-income beneficiaries eligible for Medicare 
        prescription drug Low-Income Subsidy are still not receiving 
        it. An August 2007 survey found that almost half of low-income 
        Medicare beneficiaries still are not aware of the program.
  --Enrollment in the Specified Low-Income Medicare Beneficiary (SLMB) 
        program, which pays for increasing Medicare Part B premiums, is 
        estimated to be only 13 percent.
  --After more than 40 years, participation rates by eligible seniors 
        in the Food Stamps program have been estimated at only about 30 
        percent.
    Enrolling in these programs for which they are eligible could help 
poor, vulnerable seniors to afford basic needs and emerge from deep and 
chronic poverty. Last year, the National Center received initial, 
start-up funding of $1.97 million. NCOA urges that funding of $4 
million be provided to the National Center in fiscal year 2009, which 
will work with experienced community based organizations to conduct 
one-on-one counseling, provide training and technical assistance, 
maintain web-based decision support tools, and develop a clearinghouse 
on best practices.
    (2) The OAA amendments authorized expansion of evidence-based 
health promotion and disease prevention activities under AoA's Choices 
for Independence initiative, establishing a national technical 
assistance program and directing the aging network to develop evidence-
based educational and behavioral change programs to reduce the risk of 
injury, disease, and disability. Evidence-based programs help older 
people better manage their chronic conditions, improve their physical 
and mental health, and reduce their risk of falls. The Stanford Chronic 
Disease Self-Management Program (CDSMP), has provided ample evidence 
that such initiatives produce significant Medicare and Medicaid savings 
for the Federal Government.
    The Choices initiative also funds Aging and Disability Resource 
Centers (ADRCs) to make it easier for people to access health and long-
term care services and make informed decisions about options that best 
meet their needs, and consumer-directed Nursing Home Diversion programs 
to enable older people at risk of institutionalization to receive 
flexible services that will sustain community living and reduce the 
potential for depleting their resources and relying on Medicaid for 
supports. NCOA believes that the Choices for Independence program 
should be funded for at least $28 million in fiscal year 2009. We 
strongly oppose the proposal to limit the program to five States.
    (3) The OAA amendments under section 417 authorized AoA to conduct 
demonstration projects that provide opportunities for older adults to 
participate in multigenerational and civic engagement activities 
designed to meet critical community needs, including support for 
grandparents raising children and for volunteers working with families 
who have a child with a disability or chronic illness. NCOA strongly 
supported these initiatives when they were passed, because they will 
bring significant benefits to youth, older adults and communities. For 
example:
  --Youth involved in intergenerational mentoring programs demonstrated 
        improved grades, significant decreases in school absences, and 
        suspensions from school, as well as decreases in drug and 
        alcohol abuse.
  --Older adults who volunteer live longer and with greater functional 
        ability and better physical and mental health than their non-
        volunteering counterparts.
  --Investments in civic engagement projects contribute to a 
        community's economy by mobilizing volunteers. Volunteer time is 
        estimated at $18.77/hour.
  --Healthy adults living longer provide talent and resources to the 
        health and aging networks, enabling them to increase services 
        and the quality of care to vulnerable elders.
  --Interacting with older adults enables youth to develop social 
        networks, a sense community service, communication skills, 
        problem solving abilities, and positive attitudes on aging.
    The demonstration projects currently receive about $1 million in 
funding. We urge that this be increased to $9 million. In addition, $1 
million should be provided to develop a national blueprint for civic 
engagement for older adults, as described in Section 202(c) of the OAA.
    Summarizing the three initiatives above, the National Council on 
Aging urges Congress to appropriate sufficient funding in fiscal year 
2009 for these new programs in the 2006 reauthorization:
  --$4 million for the National Center on Senior Benefits Outreach and 
        Enrollment;
  --At least $28 million for the Choices for Independence initiative; 
        and
  --$10 million for multigenerational and civic engagement activities.
   section iii--falls prevention and reduction among older americans
    Each year, one in three Americans aged 65 and older falls; about 30 
percent of those who fall require medical treatment. In 2005, 
approximately 1.8 million older adults were treated in emergency 
departments for nonfatal injuries from falls, more than 433,000 were 
hospitalized, and nearly 16,000 died. Falls are the leading cause of 
both fatal and nonfatal injuries for those 65 and over. According to 
the Centers for Disease Control and Prevention (CDC), the mortality 
rate from falls among older Americans increased 39 percent from 1999 to 
2005.
    The costs of these falls are enormous. CDC reports that $19 billion 
annually is spent on treating the elderly for the effects of falls: $12 
billion for hospitalization, $4 billion for emergency department 
visits, and $3 billion for outpatient care. Most of these expenses are 
paid for through Medicare. If we cannot stem the current rate of 
increase in senior falls, it is projected that the direct treatment 
costs will reach $43.8 billion annually in 2020.
    Many of the falls that seniors suffer are preventable, and the 
results of recent pilot programs offer some promising directions for 
cost-effective interventions, such as: comprehensive clinical 
assessments, exercise programs to improve balance and strength, 
management of medications, correction of vision, and reduction of home 
hazards.
    CDC is the lead Federal agency for injury prevention and control 
through its National Center for Injury Prevention and Control (NCIPC). 
Currently the Federal Government allocates only $1 million per year to 
NCIPC to address a problem that costs us more than $19 billion a year.
    Thanks to the leadership of Senators Enzi and Mikulski, S. 845, the 
Safety of Seniors Act, passed the Senate and House and is awaiting the 
President's signature. The Act encourages the Secretary to conduct 
demonstration projects, public education and research on falls 
prevention.
    The National Council on Aging urges Congress to appropriate an 
additional $20.7 million in the fiscal year 2009 Labor-HHS-Education 
bill for CDC's NCIPC to carry out falls prevention and reduction 
activities. Thirty national organizations support this request, 
including AARP, the Home Safety Council, the National Safety Council, 
the American Physical Therapy Association, the American Occupational 
Therapy Association, the American Association of Homes and Services for 
the Aging, Easter Seals, the National Association for Hospice and Home 
Care, the National Association of Social Workers, and the National 
Committee to Preserve Social Security and Medicare.
                                 ______
                                 
Prepared Statement of the National Federation of Community Broadcasters
    Thank you for the opportunity to submit testimony to this 
subcommittee regarding the appropriation for the Corporation for Public 
Broadcasting (CPB). As the President and CEO of the National Federation 
of Community Broadcasters (NFCB), I speak on behalf of 250 community 
radio stations and related individuals and organizations across the 
country. Nearly half our members are rural stations and half are 
controlled by people of color. In addition, our members include many of 
the new Low Power FM stations that are putting new local voices on the 
airwaves. NFCB is the sole national organization representing this 
group of stations which provide independent, local service in the 
smallest communities of this country as well as the largest 
metropolitan areas.
    In summary, the points we wish to make to this Subcommittee are 
that NFCB:
  --Requests $483 million in funding for CPB for fiscal year 2011;
  --Requests $40 million in fiscal year 2009 for conversion of public 
        radio and television to digital broadcasting;
  --Requests $27 million in fiscal year 2009 for replacement of the 
        radio interconnection system;
  --Requests that advance funding for CPB is maintained to preserve 
        journalistic integrity and facilitate planning and local 
        fundraising by public broadcasters;
  --Rejects the Administration's proposal to rescind $200 million of 
        already-appropriated 2009 CPB funds and $220 million from 2010 
        funds;
  --Supports CPB activities in facilitating programming and services to 
        Native American, African American and Latino radio stations;
  --Supports CPB's efforts to help public radio stations utilize new 
        distribution technologies and requests that the Subcommittee 
        ensure that these technologies are available to all public 
        radio services and not just the ones with the greatest 
        resources.
    Community Radio fully supports the appropriation of $483 million in 
Federal funding for the Corporation for Public Broadcasting in fiscal 
year 2011.--Federal support distributed through CPB is an essential 
resource for rural stations and for those serving communities of color. 
These stations provide critical, life-saving information to their 
listeners and are often in communities with very small populations and 
limited economic bases, thus the community is unable to financially 
support the station without Federal funds.
    In larger towns and cities, sustaining grants from CPB enable 
Community Radio stations to provide a reliable source of noncommercial 
programming about the communities themselves. Local programming is an 
increasingly rare commodity in a Nation that is dominated by national 
program services and concentrated ownership of the media. Federal 
funding allows an alternative to exist in these larger markets.
    For over 30 years, CPB appropriations have been enacted 2 years in 
advance. This insulation has allowed pubic broadcasting to grow into a 
respected, independent, national resource that leverages its Federal 
support with significant local funds. Knowing what funding will be 
available in advance has allowed local stations to plan for programming 
and community service and to explore additional non-governmental 
support to augment the Federal funds. Most importantly, the insulation 
that advance funding provides ``go[es] a long way toward eliminating 
both the risk of and the appearance of undue interference with and 
control of public broadcasting.'' (House Report 94-245.)
    For the past few years, CPB has increased support to rural stations 
and committed resources to help public radio take advantage of new 
technologies such as the internet, satellite radio and digital 
broadcasting. We advocate for these activities which we feel better 
serve the American people but want to ensure that smaller stations with 
more limited resources are not left behind in this technological 
transition. We ask that the subcommittee include language in the 
appropriation that will make certain funds are available to help the 
entire public radio system, particularly rural and minority stations, 
utilize the new technologies.
    NFCB commends CPB for the leadership it has shown in supporting and 
fostering programming services to Latino stations and Native American 
stations. For example, Satelite Radio Bilingue provides 24 hours of 
programming to stations across the United States and Puerto Rico 
addressing issues of particular interest to the Latino population in 
Spanish and English. At the same time, Native Voice One (NV1) is 
distributing politically and culturally relevant programming to Native 
American stations. There are now over 33 stations in the United States 
controlled by and serving Native Americans.
    Two years ago, CPB funded the establishment of the Center for 
Native American Public Radio (CNAPR). After 3 years in operation, CNAPR 
has assisted with the renewal of licenses and expansion of the 
interconnection system to all Native stations and has advanced the 
opportunity for Native Nations to own their own, locally controlled 
station. In the process of this work, it was recognized that radio 
would not be available to all Native Nations and broadband and other 
new technologies would be necessary. CNAPR has been repositioned as 
Native Public Media (NPM) and is working hard to double the number of 
Native stations within the next three years. These stations are 
critical in serving local, isolated communities (all but one are on 
Indian Reservations) and in preserving cultures that are in danger of 
being lost. CPB's 2003 assessment recognized that ``. . . Native Radio 
faces enormous challenges and operates in very difficult 
environments.'' CPB funding is critical to these rural, minority 
stations. The funding of the Intertribal Native Radio Summit by CPB in 
2001 helped to gather these isolated stations together into a system of 
stations that can support one another. The CPB assessment goes on to 
say ``Nevertheless, the Native Radio system is relatively new, fragile 
and still needs help building its capacity at this time in its 
development.'' NPM promises to leverage additional new funding to 
ensure that these stations continue providing essential services to 
their communities.
    CPB also funded a Summit for Latino Public Radio which took place 
in September 2002 in Rohnert Park, California, home of the first Latino 
public radio station. This year, CPB has provided funding to the Latino 
Public Radio Consortium to develop a Strategic Plan and Business Model 
to expand the service of public radio to the Latino population.
    CPB plays an extremely important role in the public and Community 
Radio system: They convene discussions on critical issues facing us as 
a system. They support research so that we have a better understanding 
of how we are serving listeners. And, they provide funding for 
programming, new ventures, expansion to new audiences, and projects 
that improve the efficiency of the system. (This is particularly 
important at a time when there are so many changes in the radio and 
media environment with media consolidation and new distribution 
technologies.)
    Community Radio supports $40 million in fiscal year 2009 for the 
conversion to digital broadcasting by public radio and television.--
While public television's digital conversion needs are mandated by the 
FCC, public radio is converting to digital to provide more public 
service and to keep up with commercial radio. The Federal 
Communications Commission has approved a standard for digital radio 
transmission and to allow multicasting. CPB has provided funding for 
615 radio transmitters to convert to digital. Of those, 365 have 
completed their conversion and 117 are multicasting 153 streams. The 
development of second and third audio channels will potentially double 
or triple the service that public radio can provide listeners, 
particularly in unserved and underserved communities. However, this 
initial funding still leaves nearly 200 radio transmitters that must 
ultimately convert to digital or become obsolete.
    Federal funds distributed by the CPB should be available to all 
public radio stations eligible for Federal equipment support through 
the Public Telecommunications Facilities Program (PTFP) of the National 
Telecommunications and Information Agency in the Department of 
Commerce. In previous years, Federal support for public radio has been 
distributed through the PTFP grant program. The PTFP criteria for 
funding are exacting, but allow for wider participation among public 
stations. Stations eligible for PTFP funding and not for CPB funding 
include small-budget, rural, and minority-controlled stations and the 
new Low Power FM service.
    Community Radio strongly supports $27 million in fiscal year 2009 
for the public radio interconnection system. Public radio pioneered the 
use of satellite technology to distribute programming. The Public Radio 
Satellite System's recently-launched ContentDepot continues this 
tradition of cutting edge technology. Satellite capacity supporting it 
must be renewed and upgrades are necessary at the station and network 
operations levels. Interconnection is vital to the delivery of the 
high-quality programming that public broadcasting provides to the 
American people. This is the second year of a 3-year request for $73 
million for the complete project.
    We are in a period of tremendous change. The digital movement is 
transforming the way we do things; new distribution avenues like 
digital satellite broadcasting and the internet are changing how we 
define our business; and, the concentration of ownership in commercial 
radio makes public radio in general, and Community Radio in particular, 
more important as a local voice than we have ever been. New Low Power 
FM stations are providing local voices in their communities an avenue 
of expression, and many new community stations will be going on the air 
within the next few years. Community Radio is providing essential local 
emergency information, programming about the local impact of major 
global events taking place, and culturally-relevant information and 
entertainment in native languages, as well as helping to preserve 
cultures that are in danger of dying out. During the natural disasters 
of recent years, radio proved once again that it is the most dependable 
and available medium for getting emergency information to the public.
    During these challenging times, the role of CPB as a convener of 
the system becomes even more important. The funding that it provides 
will allow smaller stations to participate alongside larger stations 
that have more resources as we move into a new era of communications.
    Thank you for your consideration of our testimony.
                                 ______
                                 
         Prepared Statement of the National League for Nursing
    The National League for Nursing (NLN) is the sole organization 
representing leaders in nursing education and nurse faculty across all 
the types of nursing programs in the United States. With more than 
1,200 nursing schools and health care agencies, some 25,000 individual 
members comprising nurses, educators, administrators, public members, 
and 18 constituent leagues, the National League for Nursing is the 
premier organization--established 115 years ago--dedicated to 
excellence in nursing education that prepares the nursing workforce to 
meet the needs of our diverse populations in an ever-changing health 
care environment. The NLN appreciates the opportunity to discuss the 
status of nursing education and the damage that could ensue to patients 
and our Nation's health care by the ill-considered cuts aimed at the 
Nursing Workforce Development Programs, authorized under Title VIII of 
the Public Health Service Act.
    The NLN endorses the Subcommittee's past policy strategies for 
health care capacity-building via nursing education. We likewise 
respect your recognition of the requisite role nurses play in the 
delivery of cost-efficient health care services and the generation of 
quality health outcomes.
    The National League for Nursing is disturbed, however, that the 
tenth-year and counting nursing shortage is outpacing the level of 
Federal resources and investments that have been expended to help 
alleviate the nationwide nursing scarcity. The NLN is gravely concerned 
that the Administration's proposed fiscal year 2009 appropriations for 
nursing education are inconsistent with the health care reality facing 
our Nation. The President's budget proposes a funding decrease of 
$46.193 million (or 29.6 percent) for the Health Resources and Services 
Administration's (HRSA) Nursing Workforce Development Programs. This 
budget cut will diminish education and development, a shortsighted and 
hazardous course of action that potentially further jeopardizes the 
delivery of health care for the people in the United States. Thirty-
five years ago in 1973, during another less serious nursing shortage, 
Congress appropriated nearly $161 million for nurse education programs. 
In today's dollars, that amount would be worth more than $742.8 
million--4.76 times the amount the Federal Government currently is 
spending on Title VIII programs.
    The NLN contends that the Federal strategy should be to broaden, 
not curtail, Title VIII initiatives by increasing investments to be 
consistent with national demand. We urge the Subcommittee to fund the 
Title VIII programs at a minimum level of $200 million for fiscal year 
2009. The NLN also advocates that Sec. 811 of Title VIII--Advanced 
Education Nursing Program--be restored and funded at an augmented level 
equal to the other Title VIII programs.
              nurse shortage affected by faculty shortage
    The Subcommittee is well aware that today's nursing shortage is 
real and unique from any experienced in the past with an aging 
workforce and too few people entering the profession at the rate 
necessary to meet growing health care requirements. In its biennial 10-
year employment projections for 2006-2016, the U.S. Department of 
Labor's Bureau of Labor Statistics (BLS) reported that during that 10-
year period, the system is projected to generate 587,000 new registered 
nurses (RN) jobs, with hundreds of thousands of job openings resulting 
from the need to replace experienced nurses who will leave the 
occupation. BLS's model-based findings estimate that employment of RNs 
is expected to grow 23 percent from 2006 to 2016, a much faster rate 
than the average for all occupations. The NLN research provides 
evidence of a strong correlation between the inability of nursing 
programs to keep pace with the demand for new RNs and the shortage of 
nurse faculty. Without faculty to educate our future nurses, the 
shortage cannot be resolved.
    The NLN's Nursing Data Review 2005-2006: Baccalaureate, Associate 
Degree, and Diploma Program revealed that applications to RN programs 
fell a notable 8.7 percent during 2005-06, down from a peak in 
applications a year earlier. The drop is suspected to be the result of 
``applicant discouragement'' defined by the NLN as widespread awareness 
of the difficulty of gaining entry to nursing school, fueled by the 
continuing crippling shortage of nurse educators.
    Despite the reduced number of applications, many factors indicate 
that opportunities to obtain a nursing education are still in short 
supply. Eighty-eight thousand (88,000) qualified applications--or one 
out of every three qualified applications submitted to nursing 
education programs this year--were denied due to lack of capacity. 
Baccalaureate degree programs turned away 20 percent of their 
applications, while associate degree programs turned away 32.7 percent.
    On a positive front, the NLN's data show a marked increase in the 
percentage of graduating pre-licensure students who are members of 
racial or ethnic minority groups, with the increase distributed across 
all racial and ethnic categories: Asians, African Americans, Hispanics, 
and American Indians. After three consecutive years in which the 
proportion of minorities entering the RN workforce stagnated at 
approximately 20 percent, the fraction of minority graduates jumped to 
24.5 percent in 2006. Research increasingly links minority health 
disparities to a lack of cultural competence on the part of health care 
providers, who often differ from their patients with respect to racial-
ethnic background. This concern has been particularly acute within the 
RN workforce where the percentage of minorities has been slow to 
increase, and only exceeded 10 percent in the last decade. 
Additionally, the percentage of men graduating from basic RN programs 
has exhibited a small but steady growth trend over the past 3 years, 
with men reaching just over 12.1 percent of graduates in 2006.
                   trends stressing faculty shortage
    The NLN's research, reported in its Nurse Educators 2006: A Report 
of the Faculty Census Survey of RN and Graduate Programs, indicated 
that the nurse faculty vacancies in the United States continued to grow 
even as the numbers of full- and part-time educators increased. The 
estimated number of budgeted, unfilled, full-time positions countrywide 
in 2006 was 1,390. This number represents a 7.9 percent vacancy rate in 
baccalaureate and higher degree programs, which is an increase of 32 
percent since 2002; and a 5.6 percent vacancy rate in associate degree 
programs, which translates to a 10 percent rise in the same period. It 
is not surprising that the problem of nurse faculty vacancies often is 
described as acute and as exacerbating the national nurse-workforce 
shortfall.
    The present nurse faculty staffing deficit is expected to intensify 
as the existing nurse educator workforce reaches retirement age. A 2006 
NLN/Carnegie Foundation Preparation for the Professions Program 
national survey of nurse educators found that fully one half of today's 
nurse faculty say they expect to retire within the next 10 years, while 
just over one in five (21 percent) expect to retire within the next 5 
years. The NLN/Carnegie data also distinguished the nurse faculty 
cohort from the rest of the academic workforce by age: Where 48 percent 
of nurse educators are age 55 and over, only 35 percent of U.S. 
academics and only 29 percent of health science faculty are over the 
age of 54.
    Salaries are a significant issue for recruitment and retention of 
nurse educators. The NLN/Carnegie study found that nurse faculty earn 
only 76 percent of the salary that faculty in other academic 
disciplines earn. Colleges and universities also are reporting that the 
nurse educator's compensation is not competitive with that of nurses in 
clinical settings. The NLN notes that although few data are available 
on salaries of nurses with doctorates, the U.S. Department of Health 
and Human Services Preliminary Findings: 2004 National Sample Survey of 
Registered Nurses (NSS-RN) data on salaries of master's-prepared nurses 
can be used to compare the competiveness of nurse faculty salaries. The 
NLN/Carnegie study reports ``nurse faculty salaries (annualized to a 
12-month calendar) rank only eighth among the 11 positions evaluated by 
the NSS-RN study. Not only are master's-prepared nurse faculty paid 33 
percent less than nurse anesthetists, but they are also paid 17 percent 
less than head nurses and nurse midwives, and approximately 12 percent 
less than nurse practitioners and clinical nurse specialists with the 
same educational credentials.''
    Workload is another factor distinguishing nurse faculty from their 
peers. According to the NLN/Carnegie research, 90 percent of the nurse 
educators, responding to the survey, work full-time, many adding 
administrative duties to teaching responsibilities, resulting in a 56-
hour average work week. In addition to their work inside their primary 
academic institutions (PAI), more than 62 percent of nurse faculty 
picked up work outside their PAI, averaging an additional day each week 
(7-10 hours). With 45 percent of nurse faculty reporting 
dissatisfaction with their current workload, ``over one in four nurse 
educators who said they were likely to leave their current job cited 
the desire for reduced workload as a motivating factor.''
    Data also indicate that in large part the nurse faculty workforce 
is not reflective of the Nation's population or of the nursing student 
population. The NLN/Carnegie study affirmed that 96 percent of the 
nurse faculty are female, contrasting with the three-fifths of the U.S. 
postsecondary faculty who are males. The 2006 NLN/Carnegie study 
reports that nursing also lags significantly behind the remainder of 
academia with respect to diversity. Seven percent of nurse educators 
are minorities while 16 percent of U.S. faculty belong to a racial 
minority group.
    The homogeneity of the nurse faculty plays out as a unique capacity 
constraint, limiting nursing schools' ability to provide culturally 
appropriate health care education toward developing a health care 
system that understands and addresses the needs of the Nation's rapidly 
diversifying population. Factors such as biases and stereotyping, 
communication barriers, cultural sensitivity/competence, and system and 
organizational determinants contribute to health care disparities, 
generating a compelling need for workforce diversity.
                      the federal funding reality
    Today's undersized supply of appropriately prepared nurses and 
nursing faculty does not bode well for our Nation, where the shortages 
are deepening health disparities, inflated costs, and poor quality 
health care outcomes. Congress moved in the right policy direction in 
passing the Nurse Reinvestment Act in 2002. That act helped develop 
Title VIII programs into a more comprehensive system of capacity-
building strategies to develop nurses by providing schools of nursing 
with grants to strengthen activities, such as faculty recruitment and 
retention efforts, facility and equipment acquisition, clinical lab 
enhancements, and loans, scholarships, and services that enable 
students to overcome obstacles to completing their nursing education 
programs. Yet, as the HRSA Title VIII data show, it is abundantly clear 
that Congress must step up in providing critical attention and 
significantly more funding to this ongoing systemic problem.
    Nursing Education Loan Repayment Program.--In fiscal year 2007, 
with 4,845 applicants to the Title VIII Nursing Education Loan 
Repayment Program, 586 awards were made, or 12 percent of applicants 
received awards. Whereas in fiscal year 2006, of the 4,222 applicants 
to this program, 615 awards were made--translating to 14.6 percent of 
applicants receiving awards.
    Nursing Scholarship Program.--In fiscal year 2007, only 173 
students were awarded scholarships due to the program's funding 
capacity; versus a total of 218 awards in fiscal year 2006.
    Advanced Education Nursing (AEN) Program.--This program supports 
the graduate education that is the foundation to professional 
development of advanced practice nurses, whether with clinical 
specialties or with a specialty in teaching. In fiscal year 2007, AEN 
supported 16,092 graduate nursing students across the various 
specialties. The President's proposed fiscal year 2009 budget 
eliminates this program, which is fundamental to appropriately 
preparing future nursing faculty, the engine of the workforce pipeline. 
AEN must be restored and fully funded in order to prevent the Nation 
from losing ground in the effort to remedy the nurse and nurse faculty 
shortages.
    As the only organization that collects data across all levels of 
the nursing education infrastructure, the NLN can state with authority 
that the nursing shortage in this country will not be reversed until 
the concurrent shortage of qualified nurse educators is addressed. 
Without adequate faculty, there are simply too few spots in nursing 
education programs to train all the qualified applicants out there. 
This challenge requires millions of dollars of increased funding for 
the professional development of nurses. The NLN urges Congress to 
strengthen existing Title VIII nurse education programs by funding them 
at a minimum level of $200 million for fiscal year 2009; and to restore 
the Advanced Education Nursing program (Sec. 811) and fund it at an 
increased level equivalent to the other Title VIII Nursing Workforce 
Development Programs' proposed increase for fiscal year 2009.
    Your support will help ensure that nurses exist in the future who 
are prepared and qualified to take care of you, your family, and all 
those in this country who will need our care.
                                 ______
                                 
      Prepared Statement of the National Primate Research Centers
    The Directors of the eight National Primate Research Centers 
(NPRCs) respectfully submit this written testimony for the record to 
the Senate Appropriations Subcommittee on Labor, Health and Human 
Services, Education and Related Agencies. The NPRCs appreciate the 
commitment that the Members of this Subcommittee have made to 
biomedical research through strong support for the National Institutes 
of Health (NIH).
    The NPRCs are a national network of eight primate research centers 
supported by the NIH National Center for Research Resources (NCRR). The 
centers comprise the National Primate Research Program (NPRP), which 
was created by Congress in 1960. The program seeks to address human 
health problems through scientific research using the animal models 
that most closely resemble humans in their genetics, physiology, and 
disease processes--nonhuman primates. NPRC investigators and resources 
support research projects sponsored by nearly every institute at NIH. 
For example, NPRCs conduct research to help understand and treat 
conditions such as heart disease, hypertension, cancer, diabetes, 
hepatitis, AIDS, kidney disease, Alzheimer's disease, and Parkinson's 
disease. We also conduct research on emerging infectious diseases and 
support many aspects of biodefense. Each NPRC makes its facilities and 
resources available to over 2,000 external NIH-funded investigators 
from around the country. Our centers create collaborative research 
environments that allow scientists to combine their individual 
expertise beyond the scope of established disciplinary research 
projects.
    NPRCs are integral partners in new science partnerships that will 
transform America's health and healthcare in the 21st century. NIH has 
responded to the rapidly changing world by strategically framing the 
next generation of biomedical research through cross-cutting, 
interdisciplinary initiatives such as those supported in the NIH 
Roadmap, the NIH Neuroscience Blueprint, the Clinical and Translational 
Science Award program and the Genes, Environment and Health Initiative. 
NPRCs are poised to continue research and resource partnerships that 
will nurture the collaborative environment necessary to successfully 
and efficiently conduct research within these evolving NIH frameworks.
    In 2007, NPRCs endorsed the fiscal year 2008 Ad Hoc Group for 
Medical Research proposal to increase the NIH budget by 6.7 percent 
over each of the next three fiscal years, fiscal year 2008-fiscal year 
2010. At the time, we recognized that competing budget priorities put 
pressure on Congress to face difficult funding trade-offs yet we asked 
the Subcommittee to adopt long-term commitment to NIH. As you are 
aware, the final fiscal year 2008 appropriation for NIH was a 
disappointment to many. For the fifth straight year, NIH funding failed 
to match even the pace of biomedical inflation.
    Unfortunately, the President's fiscal year 2009 budget request for 
NIH continues this flat funding trend for the agency for the sixth 
straight year. If the President's fiscal year 2009 request is enacted, 
the agency will have lost over 13.4 percent of its purchasing power 
during this time period when taking into account the anticipated 3.5 
percent biomedical inflation rate for this year. As such, the NPRCs 
join with their colleagues in the biomedical community in calling for a 
$1.9 billion (6.6 percent) increase in NIH's total discretionary budget 
for fiscal year 2009.
    As a result of years of expanded investment and advancement in NIH 
biomedical research during the doubling years, the demand for NPRC 
resources has increased. To accommodate the increased focus of NIH on 
translational science and other research demands placed on NPRCs, NCRR 
should increase NPRCs P51 base grant (the mechanism that funds each 
NPRC) so that all appropriate areas of research can benefit from 
primate resources without delay. The ability of NIH-funded researchers 
to conduct future projects with primate models will depend on the 
enhancement of three key areas: (1) the nationwide availability of 
primates; (2) the quality and capacity of primate housing and breeding 
facilities, as well as the availability of related state-of-the-art 
diagnostic and clinical support equipment at NPRCs; and (3) the number 
of personnel trained in primate care and management at NPRCs. It is 
unacceptable that NPRCs budgets were held relatively flat by NCRR while 
the NIH budget doubled.
    To illustrate the value of NPRC resources and expertise, below are 
examples of cutting edge research activities conducted with nonhuman 
primates:
    Heart Disease and Stroke.--To date, advances against heart disease 
have cut deaths due to heart attack and stroke by more than 50 percent 
and save our economy more than half a trillion dollars annually in 
healthcare expenses and worker productivity. Nonhuman primates are used 
to investigate how genes interact with dietary factors to influence an 
individual's risk of developing atherosclerosis or hypertension. It is 
not possible to conduct this research with human subjects because it 
requires long-term feeding of defined diets, specialized pedigrees and 
the ability to frequently monitor multiple aspects of physiology. 
Establishment of the pedigreed baboon as a model in which to study risk 
factors for atherosclerosis has led to improvements in methods used to 
search the genome for genes regulating these risk factors. Increased 
funding for NIH and support for NPRCs will allow investigators to build 
on this research and apply significant findings to human health.
    Alzheimer's Disease.--A new report from the Alzheimer's Association 
shows that there are more than 5 million people in the United States 
living with Alzheimer's disease today--10 percent more than a previous 
estimate 5 years ago. Medicare expenditures for beneficiaries with 
Alzheimer's and other dementias is projected to increase to $160 
billion by 2010 and $189 billion by 2015. NPRCs are using rhesus 
monkeys to establish better models for studying the basic mechanisms of 
Alzheimer's disease, and for testing new diagnostic and therapeutic 
methods. Two distinct and cutting edge approaches are being developed 
to express in rhesus monkeys the human mutant genes that cause 
Alzheimer's disease. Further NIH-funded investigation and NPRCs support 
could lead us to early interventions for Alzheimer's that would 
decrease the healthcare cost burden and safeguard the health of 
millions of Americans.
    Mental Health Disorders.--The National Institute of Mental Health 
points out that the annual economic cost of mental illness in the 
United States is estimated at well over $150 million, including direct 
and indirect costs. Further, according to statistics from the Centers 
for Medicare and Medicaid Services, the direct costs of mental health 
care represent 6.2 percent of overall healthcare costs which totaled 
14.5 percent of the gross domestic product in 2001. Just one example of 
NPRCs contribution to this category of diseases and disorders is a 
project in which research conducted with non-human primates produced a 
strong link between significant stress early in life and the increased 
incidence of mental health problems during adolescence. The research 
strengthens the case for proactive treatment or counseling of children 
who undergo a significant early-life stress. Non-human primates provide 
unique insight into a variety of mental health disorders in ways that 
cannot be achieved in controlled studies in humans. Increased NIH 
funding and NPRCs support will allow researchers across the Nation and 
at NPRCs to continue work toward developing reliable diagnostic tools 
and therapies so that the quality of life will be enhanced for the 
millions of Americans burdened by mental health disorders.
    Cancer.--According to NIH data, the 5-year survival rates 30 years 
ago for the five most common cancers were: breast, 75 percent; prostate 
68 percent; colon, 50 percent; rectum, 49 percent; and lung, 13 
percent. However, due in large part to NIH-funded research advances, 
data as of 2001 (the latest year for which NIH has statistics) shows 
the 5-year survival rates for the most common cancers have increased 
to: prostate, 100 percent; breast, 90 percent; colon, 65 percent; 
rectum, 65 percent; and lung, 16 percent. It is known that 
approximately 20 percent of cancers have a viral etiology. As such, a 
project taken on by NPRCs uses non-human primate models of viral-
induced cancer to help scientists to understand fundamental mechanisms 
through which normal cells are transformed into cancerous cells. 
Increased and steady NIH funding and NPRC support will allow 
researchers to build on past progress in treating, curing and reducing 
the burden of cancer--this will lead to both a decline in the projected 
rise of U.S. healthcare expenditures and result in an American 
workforce with more healthy, productive years.
    As mentioned previously, NPRCs research projects span the disease 
foci at NIH institutes and centers, and also play important roles in 
the various NIH initiatives, such as the NIH Roadmap, the NCRR 
Strategic Plan, and the Clinical and Translational Science Award 
program, among others. In the 1950's, primate research produced the 
first vaccine for one of the world's worst childhood killers, the Polio 
virus, reducing the number of cases in the United States from 58,000 to 
one or two per year. More recently, primate research enabled the 
development of a safe and effective vaccine for hepatitis B. Every 
school child in the country is now vaccinated against hepatitis B. 
Primates have also served as the best model for various types of HIV 
research, and their availability for use has resulted in at least 14 
licensed anti-viral drugs for treatment of HIV infection. Primate 
models will continue to be necessary to defend the world against 
possible future epidemics such as SARS, West Nile Virus, and avian flu. 
In addition to deadly viral epidemics, primate research has enabled the 
discovery of better treatments and therapies for diseases and 
occurrences such as stroke, cataracts, depression and other psychiatric 
illnesses.
    Not only do primates have the potential to provide answers for 
long-standing research questions, primate research provides an 
unparalleled opportunity to address more recently defined research 
priorities, such as those relating to genomics. The specific 
availability of information in the primate genome, which is quite 
similar to the human genome, makes primates essential in studies that 
require an integrated understanding of a whole biological system. 
Recent reports suggest that extensive analysis of genome structure and 
function in nonhuman primates could make immediate and significant 
contributions to the overall mission of NIH by accelerating progress in 
understanding many human diseases. Also, primates serve as critical 
animal models in biodefense research projects for which, in some cases, 
it would be inappropriate to conduct early clinical trials in humans. 
Primates are recognized as vital research resources within Federal 
strategic plans regarding biodefense research, including: the National 
Institute of Allergy and Infectious Diseases (NIAID) Strategic Plan for 
Biodefense Research; the NIAID Research Agenda for Category A Agents; 
and the NIAID Research Agenda for Category B and C Priority Pathogens. 
Also, NPRCs are partners in NIAID-funded Regional Centers of Excellence 
for Biodefense and Emerging Infectious Diseases as well as with NIAID-
funded National and Regional Biocontainment Laboratories.
    As NIH and the national biomedical research agenda evolve, NPRCs 
adjust to meet the resource needs of the research community and also to 
maintain research programs that are on the cutting-edge of science. The 
reservoirs of knowledge residing within the NPRCs create new 
opportunities for research partnerships with investigators at host 
academic institutions and in the biomedical research community at 
large. Never have the research questions been so profound, or the 
implications for human health so critical. NPRCs are poised to bridge 
the gap between knowledge already gleaned from simple cellular and 
animal models and knowledge that is needed to promote human health, and 
to translate that knowledge into vaccines, therapeutic drugs, and other 
strategies to prevent or treat human diseases.
    Thank you for the opportunity to submit this written testimony 
concerning funding for NIH in the fiscal year 2009 appropriations bill 
and for your attention to the critical need for primate research and 
enhancement of the NPRCs P51 base grant. Please do not hesitate to 
contact any one of the eight NPRC Directors should you have any 
questions.
                                 ______
                                 
        Prepared Statement of the National Psoriasis Foundation
                       introduction and overview
    The National Psoriasis Foundation (the Foundation) appreciates the 
opportunity to submit written testimony for the record regarding 
Federal funding for psoriasis and psoriatic arthritis research for 
fiscal year 2009. The Foundation serves as the Nation's largest 
patient-driven non-profit voluntary association committed to improving 
the quality of life for the millions of people affected by psoriasis 
and psoriatic arthritis.
    As part of our mission, we educate health professionals, the public 
and policymakers to increase public awareness and understanding of the 
challenges faced by people with psoriasis and psoriatic arthritis. 
Moreover, the Foundation maintains a strong commitment to securing 
public policies and programs that support its focus of education, 
advocacy and research toward better treatments and a cure. The 
Foundation specifically seeks to advance public and private efforts to 
improve treatment of these diseases, identify a cure and ensure that 
all people with psoriasis and psoriatic arthritis have access to the 
medical care and treatment options they need to live the highest 
quality of life possible.
    The Foundation stands ready to work with policymakers at the local, 
State, and Federal levels to advance policies and programs that will 
reduce and prevent suffering from psoriasis and psoriatic arthritis. 
Specifically, the Foundation advocates that the National Institutes of 
Health (NIH) be given additional resources to support new investigator-
initiated research grants for genetic, clinical, and basic research 
related to the understanding of the cellular and molecular mechanisms 
of psoriasis and psoriatic arthritis, as well as studies to understand 
co-morbidities such as obesity, depression, and heart disease that may 
be associated with inflammation in the skin and joints. Specifically, 
we respectfully call upon Congress to boost psoriasis and psoriatic 
arthritis research efforts by allocating a 6.6 percent increase in 
fiscal year 2009 (to $31.1 billion) to NIH and its institutes and 
centers that play an integral role in psoriasis and psoriatic arthritis 
research:
  --The National Institute of Arthritis and Musculoskeletal and Skin 
        Diseases (NIAMS);
  --The National Institute of Allergy and Infectious Diseases (NIAID);
  --The National Human Genome Research Institute (NHGRI);
  --The National Institute for Environmental Health Systems (NIEHS);
  --The National Institute of Mental Health (NIMH);
  --The National Center for Complementary and Alternative Medicine 
        (NCCAM); and
  --The National Center for Research Resources (NCRR).
    In addition, the Foundation urges the Subcommittee to encourage the 
Centers for Disease Control and Prevention (CDC) to strengthen patient 
data collection on psoriasis to improve the knowledge base of the 
longitudinal impact of these diseases on the individuals they affect. 
The Foundation believes that a greater investment in NIH, NIAMS, NIAID, 
NHGRI, NIEHS, NIMH, NCCAM, NCRR, and CDC will lead to the development 
of new, safe, effective and long-lasting treatments and a cure for 
psoriasis and psoriatic arthritis.
            the impact of psoriasis and psoriatic arthritis
    According to the NIH, as many as 7.5 million Americans have 
psoriasis--an immune-mediated genetic, chronic, inflammatory, painful, 
disfiguring, and life-altering disease that requires life-long 
sophisticated medical intervention and care, and imposes serious 
adverse effects on the individuals and families affected. On average, 
17,000 people with psoriasis live in each Congressional District.
    Psoriasis most often first strikes between the ages of 15 and 25 
and lasts a lifetime. Unfortunately, psoriasis often is overlooked or 
dismissed because it typically does not cause death. It is commonly and 
incorrectly considered by insurers, employers, policymakers, and the 
public as a mere annoyance--a superficial problem, mistakenly thought 
to be contagious and/or due to poor hygiene. Yet, together psoriasis 
and psoriatic arthritis impose significant economic costs on 
individuals and society. Each year, Americans with psoriasis lose 
approximately 56 million hours of work and spend $2 billion to $3 
billion to treat the disease.
    There is mounting evidence that people with psoriasis are at 
elevated risk for myriad other serious, chronic and life-threatening 
conditions. Although data are still emerging on the relationship of 
psoriasis to other diseases and their ensuing costs to the medical 
system, it is clear that psoriasis goes hand-in-hand with co-
morbidities such as Crohn's disease, diabetes, metabolic syndrome, 
obesity, hypertension, heart attack, cardiovascular disease, liver 
disease and psoriatic arthritis--which occurs in up to 30 percent of 
people with psoriasis. Of serious concern is that studies have shown 
that psoriasis causes as much disability as other major chronic 
diseases and individuals with psoriasis are twice as likely to have 
thoughts of suicide as people without psoriasis or with other chronic 
conditions.
    Despite some recent breakthroughs, many people with psoriasis and 
psoriatic arthritis remain in need of improved quality of life and 
effective, safe, and affordable therapies, which could be delivered 
through an increased Federal commitment to genetic, clinical and basic 
research. Research holds the key to improved treatment of these 
diseases, better diagnosis of psoriatic arthritis and eventually a cure 
for both conditions.
           federal psoriasis and psoriatic arthritis research
    While our Nation has benefited from past Federal investment in the 
NIH, unfortunately psoriasis and psoriatic arthritis research progress 
has not keep pace with other chronic conditions. An analysis of 
longitudinal Federal funding data shows that, on average over the past 
decade, NIAMS has spent less than $1 per person with psoriasis per 
year. At the historical and current rate of psoriasis funding, NIH 
funding is not keeping pace with research needs.
    Meetings and correspondence with NIAMS and other Institutes and 
Centers at NIH indicates that the three principal agencies involved in 
psoriasis and psoriatic arthritis research are NIAMS, NCRR and NHGRI, 
the Foundation knows from meetings at NIH that other Federal research 
agencies--such as NIAID, NIEHS, NIMH, and NCCAM--have important roles 
to play in psoriasis and psoriatic arthritis and understanding their 
health and psychosocial impact on affected individuals. The Foundation 
has joined with the broader health community in advocating $31.1 
billion for the NIH in fiscal year 2009. This level of investment will 
allow NIH to sustain and build on its research progress resulting from 
the recent NIH budget doubling effort while avoiding the severe 
disruption to that progress that would result from a minimal increase. 
More than ever, a greater investment today in psoriasis and psoriatic 
arthritis will go farther faster and help the Nation turn the corner on 
finding a cure for these two life-altering, disfiguring diseases.
    We hope that the subcommittee will provide all seven of the 
aforementioned institutes and centers with increased fiscal year 2009 
funding specifically, we urge the subcommittee to provide NIH and the 
aforementioned institutes and centers with a 6.6 percent increase in 
fiscal year 2009 funding and encourage them to undertake and/or expand 
psoriasis and psoriatic arthritis research so they can undertake the 
following:
  --Make efforts to understand the reasons for the co-morbidities 
        associated with psoriasis and psoriatic arthritis such as 
        obesity, depression, heart disease and heart attack and the 
        interplay between inflammation and such co-morbidities found 
        disproportionately among individuals with psoriasis. 
        Individuals with psoriasis are at elevated risk for other 
        chronic and debilitating health conditions, such as heart 
        attacks and diabetes and the risk of mortality is 50 percent 
        higher for people with severe psoriasis.
  --Conduct research within the Institutes and Centers associated with 
        these co-morbidities with particular focus on biomarkers for 
        psoriasis and psoriatic arthritis and shared molecular pathways 
        with comorbid conditions.
  --Support NIAMS in its interest in a strong follow-up study to the 
        Genetic Association Information Network grant. Research is 
        beginning to identify the immune cells involved in psoriasis; 
        this knowledge will help scientists understand which cells or 
        molecular processes should be targeted for more effective 
        treatments and eventually a cure.
  --Undertake research relating to genetics, immunology, and animal 
        models relating to psoriasis and psoriatic arthritis.
  --Expand basic research including how genetic variation gives rise to 
        differences in treatment responses and mechanisms that link 
        skin and joint inflammation.
  --Study the immune cells and inflammatory process as it relates to 
        the pathogenesis of psoriasis.
  --Conduct research to better the understanding between psoriasis and 
        mental health, including identifying any underlying biologic 
        reason for mental health issues associated with psoriasis, as 
        well how negative social and psychological effects impact 
        psoriasis. It is estimated as many as 52 percent of psoriasis 
        patients report clinically significant psychiatric symptoms 
        (such as depression) and that individuals with psoriasis are 
        twice as likely to have thoughts of suicide as people without 
        psoriasis or with other chronic conditions.
  --Study how environmental triggers interact with different genetic 
        susceptibility factors to better understand psoriasis disease 
        development and response to treatment to provide insight in 
        psoriasis and prevention of psoriasis and psoriatic arthritis.
  --Evaluate of the effectiveness of complementary and alternative 
        therapies for the treatment of psoriasis and/or psoriatic 
        arthritis.
     the role of cdc in psoriasis and psoriatic arthritis research
    The Foundation is concerned that there have been very few efforts 
to collect epidemiological and other related data on individuals with 
psoriasis and psoriatic arthritis. Researchers and clinicians continue 
to be limited in their longitudinal understanding of these conditions 
and their effects on individual patients. The Foundation hopes that the 
Subcommittee will encourage the CDC to add psoriasis and psoriatic 
arthritis specific epidemiological studies where appropriate as part of 
its research plan. In addition, we ask that the Subcommittee encourage 
the National Center for Chronic Disease Prevention and Health Promotion 
(NCCDPHP) within the CDC to examine and develop options and 
recommendations for the creation of a National Psoriasis and Psoriatic 
Arthritis Patient Registry in fiscal year 2009. A national patient 
registry that collects longitudinal patient data will help researchers 
to learn about key attributes such as response to treatment, 
substantiating the waxing and waning of psoriasis, understanding 
associated manifestations like nail disease and arthritis, and the 
relationship of psoriasis to other public health concerns.
                               conclusion
    On behalf of the Foundation's Board of Trustees and the millions of 
individuals with psoriasis and psoriatic arthritis who we represent, 
thank you for this opportunity to submit written testimony regarding 
the fiscal year 2009 funding levels necessary to ensure that our Nation 
adequately addresses psoriasis and psoriatic arthritis and to make 
gains in improving therapies and eventually attaining a cure. We thank 
you in advance for encouraging the CDC and the NCCDPHP to become more 
engaged in psoriasis and psoriatic arthritis data collection. We 
believe that additional research undertaken at the NIH coupled with 
epidemiologic efforts at the CDC together will help advance the 
Nation's efforts to improve treatments and identify a cure for 
psoriasis and psoriatic arthritis. Please feel free to contact us at 
any time; we are happy to be a resource to Subcommittee members and 
your staff. We very much appreciate the Subcommittee's attention to our 
requests.
                                 ______
                                 
          Prepared Statement of the National Respite Coalition
    Mr. Chairman, I am Jill Kagan, Chair of the ARCH National Respite 
Coalition, a network of respite providers, family caregivers, State and 
local agencies and organizations across the country who support 
respite. Twenty-five State respite coalitions, including two of the 
most active, the Iowa Respite and Crisis Care Coalition and the 
Pennsylvania Respite Coalition, are also affiliated with the NRC. This 
statement is presented on behalf of the these organizations, as well as 
the members of the Lifespan Respite Task Force, a coalition of over 80 
national and more than 100 State and local groups who support funding 
for the Lifespan Respite Care Act (Public Law 109-442). We are 
requesting that the Subcommittee include funding for the newly enacted 
Lifespan Respite Care Act in the fiscal year 2009 Labor, HHS and 
Education Appropriations bill at its modest authorized level of $53.3 
million for fiscal year 2009. Many Members of Congress already support 
funding for Lifespan Respite. In fact, the Senate Budget Resolution 
reserves $53 million in the Department of Health and Human Services 
Account for Lifespan Respite.
    Who Needs Respite?--A national survey found that 44 million family 
caregivers are providing care to individuals over age 18 with 
disabilities or chronic conditions (National Alliance for Caregiving 
(NAC) and AARP, 2004). In 2006, the last year Federal data were 
collected, 13.9 percent of U.S. children (approximately 10 million) had 
special health care needs and 21 percent of households with children 
included at least one child with a special health care need. These 
rates represent a modest increase since the last survey conducted in 
2001. (National Survey of Children with Special Health Care Needs, U.S. 
Health Resources and Services Administration, 2008). These surveys 
suggest that a conservative estimate of the Nation's family caregivers 
probably exceeds 50 million.
    Compound this picture with the growing number of caregivers known 
as the ``sandwich generation'' caring for young children as well as an 
aging family member. An estimated 20 to 40 percent of caregivers have 
children under the age of 18 to care for in addition to a parent or 
other relative with a disability. And in the US, 6.7 million children, 
with and without disabilities, are in the primary custody of an aging 
grandparent or other relative other than their parents.
    Together, these family caregivers are providing about 80 percent of 
all long-term care in the United States. It has been estimated that 
these family caregivers provide $350 billion in uncompensated care, an 
amount comparable to Medicare spending ($342 billion in 2005) and more 
than total spending for Medicaid, including both Federal and State 
contributions and both medical and long-term care ($300 billion in 
2005). (AARP, 2007).
    What is Respite Need?--State and local surveys have shown respite 
to be the most frequently requested service of the Nation's family 
caregivers, including a recent study by Evercare (Evercare and NAC, 
2006). Yet respite is unused, in short supply, inaccessible, or 
unaffordable to a majority of the Nation's family caregivers. The 2004 
NAC/AARP survey of caregivers found that despite the fact that the most 
frequently reported unmet needs were ``finding time for myself,'' (35 
percent), ``managing emotional and physical stress'' (29 percent), and 
``balancing work and family responsibilities'' (29 percent), only 5 
percent of family caregivers were receiving respite (NAC and AARP, 
2004). In rural areas, the percentage of family caregivers able to make 
use of respite was only 4 percent (Easter Seals and NAC, 2006)
    Barriers to accessing respite include reluctance to ask for help, 
fragmented and narrowly targeted services, cost, and the lack of 
information about how to find or choose a provider. Even when respite 
is an allowable funded service, a critically short supply of well 
trained respite providers may prohibit a family from making use of a 
service they so desperately need.
    Twenty of 35 State-sponsored respite programs surveyed in 1991 
reported that they were unable to meet the demand for respite services. 
In the last 15 years, we suspect that not too much has changed. A study 
conducted by the Family Caregiver Alliance identified 150 family 
caregiver support programs in all 50 states and Washington, DC funded 
with state-only or State/Federal dollars. Most of the funding comes 
through the Federal National Family Caregiver Support Program. As a 
result, programs are administered by local area agencies on aging and 
primarily serve the elderly. And again, some programs provide only 
limited respite, if at all. Only about one-third of these 150 
identified programs serve caregivers who provide care to adults age 18-
60 who must meet stringent eligibility criteria. As the report 
concluded, ``State program administrators see the lack of resources to 
meet caregiver needs in general and limited respite care options as the 
top unmet needs of family caregivers in the States.'' The 25 State 
respite coalitions and other National Respite Network members confirm 
that long waiting lists or turning away of clients because of lack of 
resources is still the norm.
    While most families take great joy in helping their family members 
to live at home, it has been well documented that family caregivers 
experience physical and emotional problems directly related to their 
caregiving responsibilities. Three-fifths of family caregivers age 19-
64 surveyed recently by the Commonwealth Fund reported fair or poor 
health, one or more chronic conditions, or a disability, compared with 
only one-third of non-caregivers (Ho, Collins, Davis and Doty, 2005). A 
study of elderly spousal caregivers (aged 66-96) found that caregivers 
who experience caregiving-related stress have a 63 percent higher 
mortality rate than noncaregivers of the same age (Schulz and Beach, 
December 1999).
    Supports that would ease their burden, most importantly respite 
care, are too often out of reach or completely unavailable. Even the 
simple things we take for granted, like getting enough rest or going 
shopping, become rare and precious events. One Massachusetts mother of 
a seriously ill child spoke to the demands of constant caregiving: ``I 
recall begging for some type of in-home support . . . I fell asleep 
twice while driving on the Massachusetts Turnpike on the way to 
appointments at Children's Hospital. The lack of respite . . . put our 
lives and the lives of everyone driving near me at risk.''
    Restrictive eligibility criteria also preclude many families from 
receiving services or continuing to receive services they once were 
eligible for. A mother of a 12-year-old with autism was denied 
additional respite by her State Developmental Disability agency because 
she was not a single mother, was not at poverty level, wasn't 
exhibiting any emotional or physical conditions herself, and had only 
one child with a disability. She said, ``Do I have to endure a failed 
marriage or serious health consequences for myself or my family before 
I can qualify for respite? Respite is supposed to be a preventive 
service.''
    For the millions of families of children with disabilities, respite 
has been an actual lifesaver. However, for many of these families, 
their children will age out of the system when they turn 21 and they 
will lose many of the services, such as respite, that they currently 
receive. In fact, 46 percent of U.S. State units on aging identified 
respite as the greatest unmet need of older families caring for adults 
with lifelong disabilities. An Alabama mom of a 19-year-old-daughter 
with multiple disabilities who requires constant care recently told us 
about her fears at a respite summit in Alabama, ``My daughter Casey has 
cerebral palsy, she does not communicate, she is incontinent she eats a 
pureed diet, she utilizes a wheelchair, she is unable to bathe or dress 
herself. At 5 feet 5 inches and 87 pounds I carry her from her bedroom 
to the bathroom to bathe her, and back again to dress her. . . . 
Without respite services, I do not think I could continue to provide 
the necessary long-term care that is required for my daughter. . . . As 
I age, I do wonder how much longer I will be able to maintain my daily 
ritual as my daughter's primary caregiver.'' Even with recent changes 
to the National Family Caregiver Support Program, this mom would not 
qualify for respite.
    Disparate and inadequate funding streams exist for respite in many 
States. But even under the Medicaid program, respite is allowable only 
through State waivers for home and community-based care. Under these 
waivers, respite services are capped and limited to narrow eligibility 
categories. Long waiting lists are the norm.
    Respite may not exist at all in some States for individuals under 
age 60 with conditions such as ALS, MS, spinal cord or traumatic brain 
injuries, or children with serious emotional conditions. In Tennessee, 
a young woman in her twenties gave up school, career and a relationship 
to move in and take care of her 53 year-old mom with MS when her dad 
left because of the strain of caregiving. She went for years providing 
constant care to her mom with almost no support. Now 31, she wrote, ``I 
was young--I still am--and I have the energy, but--it starts to weigh. 
Because we've been able to have respite care, we've developed a small 
pool of people and friends that will also come and stand in. And it has 
made all the difference.''
    Respite Benefits Families and is Cost Saving.--Respite has been 
shown to be effective in improving the health and well-being of family 
caregivers that in turn helps avoid or delay out-of-home placements, 
such as nursing homes or foster care, minimizes the precursors that can 
lead to abuse and neglect, and strengthens marriages and family 
stability. A recent report from the U.S. Dept. of Health and Human 
Services prepared by the Urban Institute found that higher caregiver 
stress among those caring for the aging increases the likelihood of 
nursing home entry. Reducing key stresses on caregivers, such as 
physical strain and financial hardship, through services such as 
respite would reduce nursing home entry (Spillman and Long, USDHHS, 
2007)
    The budgetary benefits that accrue because of respite are just as 
compelling, especially in the policy arena. Delaying a nursing home 
placement for just one individual with Alzheimer's or other chronic 
condition for several months can save government long-term care 
programs thousands of dollars. In an Iowa survey of parents of children 
with disabilities, a significant relationship was demonstrated between 
the severity of a child's disability and their parents missing more 
work hours than other employees. They also found that the lack of 
available respite care appeared to interfere with parents accepting job 
opportunities. (Abelson, A.G., 1999)
    Moreover, data from an ongoing research project of the Oklahoma 
State University on the effects of respite care found that the number 
of hospitalizations, as well as the number of medical care claims 
decreased as the number of respite care days increased (Fiscal year 
1998 Oklahoma Maternal and Child Health Block Grant Annual Report, July 
1999). A Massachusetts social services program designed to provide 
cost-effective family-centered respite care for children with complex 
medical needs found that for families participating for more than 1 
year, the number of hospitalizations decreased by 75 percent, physician 
visits decreased by 64 percent, and antibiotics use decreased by 71 
percent (Mausner, S., 1995).
    In the private sector, the most recent study by Metropolitan Life 
Insurance Company and the National Alliance for Caregivers found that 
U.S. businesses lose from $17.1 billion to $33.6 billion per year in 
lost productivity of family caregivers. Offering respite to working 
family caregivers could help improve job performance and employers 
could potentially save billions (MetLife and National Alliance for 
Caregiving, 2006).
    Lifespan Respite Care Program Will Help.--The Lifespan Respite Care 
Act is based on the success of statewide Lifespan Respite programs in 
four States: Oregon, Nebraska, Wisconsin and Oklahoma. A new Arizona 
State Lifespan Respite program is now up and running. Michigan passed 
State Lifespan Respite legislation in 2004 but has not had funding, and 
new State Lifespan Respite legislation is currently pending in Kansas 
in preparation for the Federal funds.
    Lifespan Respite, which is a coordinated system of community-based 
respite services, helps States use limited resources across age and 
disability groups more effectively, instead of each State agency or 
community-based organization being forced to constantly reinvent the 
wheel or beg for small pots of money. Pools of providers can be 
recruited, trained and shared, administrative burdens can be reduced by 
coordinating resources, and the savings used to fund new respite 
services for families who may not qualify for any existing Federal or 
State program.
    The State Lifespan Respite programs provide best practices on which 
to build a national respite policy. The programs have been recognized 
by prominent policy organizations, including the National Conference of 
State Legislatures, which recommended the Nebraska program as a model 
for State solutions to community-based long-term care. The National 
Governors Association and the President's Committee for People with 
Intellectual Disabilities also have highlighted lifespan respite 
systems as viable solutions. And most recently, the White House 
Conference on Aging recommended enactment of the Lifespan Respite Care 
Act to Congress.
    The purpose of the new law is to expand and enhance respite 
services, improve coordination, and improve respite access and quality. 
Under a competitive grant program, States are required to establish 
State and local coordinated Lifespan Respite care systems to serve 
families regardless of age or special need, provide new planned and 
emergency respite services, train and recruit respite workers and 
volunteers and assist caregivers in gaining access. Those eligible 
would include family members, foster parents or other adults providing 
unpaid care to adults who require care to meet basic needs or prevent 
injury and to children who require care beyond that required by 
children generally to meet basic needs.
    The Federal Lifespan Respite program would be administered by the 
U.S. Department of Health and Human Services (HHS), which would provide 
competitive grants to State agencies through Aging and Disability 
Resource Centers working in collaboration with State respite coalitions 
or other State respite organizations. The program is authorized at 
$53.3 million in fiscal year 2009 rising to $95 million in fiscal year 
2011. The program has received no Congressional funding to date.
    No other Federal program mandates respite as its sole focus. No 
other Federal program would help ensure respite quality or choice, and 
no current Federal program allows funds for respite start-up, training 
or coordination or to address basic accessibility and affordability 
issues for families. We urge you to include $53.3 million in the fiscal 
year 2009 Labor, HHS, Education appropriations bill so that Lifespan 
Respite Programs can be replicated in the States and more families, 
with access to respite, will be able to continue to play the 
significant role in long-term care that they are fulfilling today.
                                 ______
                                 
          Prepared Statement of the National Sleep Foundation
    Mr. Chairman and members of the subcommittee, thank you for 
allowing me to submit testimony on behalf of the National Sleep 
Foundation (NSF). I am Dr. Meir Kryger, Chairman of the NSF Board of 
Directors and Director of Sleep Medicine Research and Education, 
Gaylord Hospital, Wallingford, Connecticut. NSF is an independent, non-
profit organization that is dedicated to improving public health and 
safety by achieving understanding of sleep and sleep disorders, and by 
supporting sleep-related education, research, and advocacy. We work 
with sleep medicine and other health care professionals, researchers, 
patients and drowsy driving victims throughout the country as well as 
collaborate with many government, public and private organizations with 
the goal of preventing health and safety problems related to sleep 
deprivation and untreated sleep disorders.
    Sleep problems, whether in the form of medical disorders or related 
to work schedules and a 24/7 lifestyle, are ubiquitous in our society. 
It is estimated that sleep-related problems affect 50 to 70 million 
Americans of all ages and socioeconomic classes. Sleep disorders are 
common in both men and women; however, important disparities in 
prevalence and severity of certain sleep disorders have been identified 
in minorities and underserved populations. Despite the high prevalence 
of sleep disorders, the overwhelming majority of sufferers remain 
undiagnosed and untreated, creating unnecessary public health and 
safety problems, as well as increased health care expenses. Surveys 
conducted by NSF show that more than 60 percent of adults have never 
been asked about the quality of their sleep by a physician, and fewer 
than 20 percent have ever initiated such a discussion.
    Additionally, Americans are chronically sleep deprived as a result 
of demanding lifestyles and a lack of education about the impact of 
sleep loss. Sleepiness affects vigilance, reaction times, learning 
abilities, alertness, mood, hand-eye coordination, and the accuracy of 
short-term memory. Sleepiness, as a result of untreated disorders or 
sleep deprivation, has been identified as the cause of a growing number 
of on-the-job accidents and automobile crashes.
    According to the National Highway Traffic Safety Administration's 
2002 National Survey of Distracted and Drowsy Driving Attitudes and 
Behaviors, an estimated 1.35 million drivers have been involved in a 
drowsy driving crash in the past 5 years. According to NSF's 2008 Sleep 
in America poll, 64 percent of respondents report that they have driven 
drowsy at least once in the past year. In fact, 32 percent say they 
drive drowsy once a month or more! A large number of academic studies 
have linked work accidents, absenteeism, and poor school performance to 
sleep deprivation and circadian effects.
    The 2006 Institute of Medicine (IOM) report, Sleep Disorders and 
Sleep Deprivation: An Unmet Public Health Problem, found the cumulative 
effects of sleep loss and sleep disorders represent an under-recognized 
public health problem and have been associated with a wide range of 
negative health consequences, including hypertension, diabetes, 
depression, heart attack, stroke, and at-risk behaviors such as alcohol 
and drug abuse--all of which represent long-term targets of the 
Department of Health and Human Services (HHS) and other public health 
agencies. Moreover, the personal and national economic impact is 
staggering. The IOM estimates that the direct and indirect costs 
associated with sleep disorders and sleep deprivation total hundreds of 
billions of dollars annually.
    Sleep science and government reports have clearly demonstrated the 
importance of sleep to health, safety, productivity and well-being, yet 
studies continue to show that millions of Americans are at risk for 
serious health and safety consequences of untreated sleep disorders and 
inadequate sleep. Unfortunately, despite recommendations in numerous 
Federal reports, there are no on-going national educational programs 
regarding sleep and fatigue issues aimed at the general public, health 
care professional, underserved communities or at-risk groups.
    NSF believes that every American needs to understand that good 
health includes healthy sleep, just as it includes regular exercise and 
balanced nutrition. We must elevate sleep to the top of the national 
health agenda. We need your help to make this happen.
    Our biggest challenge is bridging the gap between the outstanding 
scientific advances we have seen in recent years and the level of 
knowledge about sleep held by health care practitioners, educators, 
employers, and the general public. Because resources are limited and 
the challenges great, we think creative and new partnerships are needed 
to fully develop sleep awareness, education, and training initiatives. 
Consequently, the NSF is spearheading two important initiatives to 
raise public and physician awareness of the importance of sleep to the 
health, safety and well-being of the Nation.
    First, for the last 4 years, Congress has recommended that the CDC 
support activities related to sleep and sleep disorders. As a result, 
CDC's National Center for Chronic Disease Prevention and Health 
Promotion has been collaborating with more than twenty voluntary 
organizations and Federal agencies to form the National Sleep Awareness 
Roundtable (NSART), which was officially launched in March of 2007. 
NSART is currently working to develop a National Action Plan. This 
document will address what is required to organize a successful 
collaboration to implement effective public and professional awareness 
and education initiatives to improve sleep literacy and healthy sleep 
behaviors. NSART is seeking to expand its membership by reaching out to 
new organizations and State and Federal agencies that are interested in 
raising awareness of sleep issues and implementing NSART's National 
Action Plan.
    In fiscal year 2008, Congress provided $818,000 for activities 
related to sleep and sleep disorders, including CDC's participation in 
NSART and incorporating questions on sleep and sleep-related 
disturbances into established CDC surveillance systems. The President's 
fiscal year 2009 budget request currently includes $818,000 for these 
programs.
    With fiscal year 2008 funding, CDC plans to provide grants to at 
least 15 States to include several sleep questions in their data 
collection through the Behavioral Risk Factor Surveillance System. CDC 
also plans to include one core sleep question in its national data 
collection efforts. This new data will provide important information on 
the prevalence of sleep disorders and enable researchers to better 
address the complex interrelationship between sleep loss and comorbid 
conditions such as obesity, diabetes, depression, hypertension, and 
drug and alcohol abuse.
    CDC also plans to provide support for the goals and activities of 
the National Sleep Awareness Roundtable.
    Although the CDC has taken initial steps to begin to consider how 
sleep affects public health issues, the agency needs additional 
resources to take appropriate actions, as recommended by the IOM and 
other governmental reports.
    Expanded funding for sleep and sleep disorder-related activities 
would allow the Center to create education and training materials for 
current and future health professionals; build and test public health 
interventions; expand surveillance and epidemiological activities; 
create fellowships and research opportunities at State universities; 
and enhance public awareness and education on sleep and sleep 
disorders. The following are detailed scenarios for various funding 
levels.
$2 million
  --Expand Surveillance on BRFSS.--CDC could double the number of 
        grants it provides to States to use the optional sleep module 
        and include more core questions in the nationwide data 
        collection through the Behavioral Risk Factor Surveillance 
        System (BRFSS). CDC would also expand its participation in and 
        funding of the goals and activities of the National Sleep 
        Awareness Roundtable.
$5 million--All activities detailed in the $2 million scenario, plus
  --Public Education.--CDC could support the development of public 
        education and awareness initiatives that use targeted 
        approaches for delivering sleep-related messages.
  --Training Materials.--Tools could be developed for current and 
        future health professionals to increase the diagnosis and 
        treatment of sleep disorders. Today, most health care 
        professionals receive no such training, which increases the 
        Nation's health burden.
$11 million--All activities detailed in the $5 million scenario, plus
  --Initiate Surveillance on YRBSS.--CDC could implement questions on 
        the Youth Risk Behavior Surveillance System (YRBSS). This will 
        further build the evidence base for the prevalence of sleep-
        related conditions that commonly afflict the American 
        population, such as obstructive sleep apnea, in addition to 
        increasing data collection on sleep-related practices and 
        public awareness of their importance across the life stages.
  --Fellowship and Research Opportunities.--Additional funding would 
        also allow the CDC to support the development of targeted 
        approaches for delivering sleep-related messages and increasing 
        public education and awareness on this important issue. 
        Fellowship opportunities could be increased to attract 
        promising researchers into the field of sleep epidemiology.
    NSF and members of the National Sleep Awareness Roundtable believe 
that a partnership with CDC is critical to address the public health 
impact of sleep and sleep disorders. We ask that the Committee 
encourage CDC to continue to take a leadership role in partnering with 
other Federal agencies and voluntary health organizations in the 
National Sleep Awareness Roundtable to create collaborative sleep 
education and public awareness initiatives. We hope that the Committee 
will provide funding of $11,000,000 to the CDC to execute programs as 
outlined here and to financially support efforts developed by NSART 
through a cooperative agreement similar to other roundtables in which 
CDC participates.
    Thank you again for the opportunity to present you with this 
testimony.
                                 ______
                                 
  Prepared Statement of the National Technical Institute for the Deaf
    Mr. Chairman and members of the committee: I am pleased to present 
the fiscal year 2009 appropriation request for the National Technical 
Institute for the Deaf (NTID), one of eight colleges of RIT, in 
Rochester NY. Created by Congress, we have fulfilled our mission with 
distinction for 40 years. We currently provide university technical 
education to a total of 1,343 students including 1,185 deaf and hard-
of-hearing students and 158 hearing students from almost every state.
                             budget request
    We respectfully request your support of our full appropriation 
request, plus additional funds. Since the submission of our fiscal year 
2009 budget request, a number of unanticipated--and unavoidable--
circumstances have affected NTID. The first table below details our 
original request and the second details an additional $2,185,000 that 
we request.
    In total we ask for $64,212,000 ($62,027,000 requested plus 
$2,185,000 in added funds).

                         NTID FISCAL YEAR 2009 ORIGINAL REQUEST AND PRESIDENT'S REQUEST
----------------------------------------------------------------------------------------------------------------
                                                                    Operations     Construction        Total
----------------------------------------------------------------------------------------------------------------
NTID Request....................................................     $60,852,000      $1,175,000     $62,027,000
President's Request.............................................      58,020,000       1,175,000      59,195,000
                                                                 -----------------------------------------------
      Difference................................................       2,832,000  ..............       2,832,000
----------------------------------------------------------------------------------------------------------------


  NTID FISCAL YEAR 2009 ADDITIONAL UNANTICIPATED REQUESTED FUNDING (NOT
                             INCLUDED ABOVE)
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Enrollment: We experienced significant growth in                $350,000
 enrollment, up 93 students to 1,343, the second largest
 in our history. New applications are up another 8
 percent. Scholarships costs will be $350,000 above last
 year...................................................
Fair Labor Standards Act: RIT learned some non-exempt          1,000,000
 staff were improperly classified as exempt.
 Reclassification means about 140 NTID employees will
 receive an added $650,000 overtime pay. Forty more are
 under review, potentially adding $350,000 overtime
 fiscal year 2009.......................................
Salary increases: Intense local competition for                  835,000
 interpreters from video relay services means increased
 salaries are a must. A 10 percent increase is
 approximately $550,000; more may be required to retain
 interpreters. Also NTID budgeted a 3.0 percent faculty/
 staff raise for fiscal year 2009; however, RIT
 allocated 4.5 percent for faculty costing an extra
 $285,000...............................................
                                                         ---------------
      Subtotal Additional Unanticipated Request.........       2,185,000
                                                         ---------------
      Total of Original and Unanticipated Requests......  \1\ 64,212,000
------------------------------------------------------------------------
\1\ Thus we ask that the $2,832,000 cut by the President be restored and
  that an additional $2,185,000 be added to our operations, bringing our
  total request to $64,212,000.

    Adding to our concerns for fiscal year 2009--and as included 
above--RIT learned it was not in compliance with some provisions of the 
Fair Labor Standards Act. This finding affected about 140 NTID 
employees, and others who worked for NTID in the last six years. Forty 
additional NTID positions are now being evaluated for reclassification, 
which we anticipate will result in added pay to these individuals for 
overtime in fiscal year 2009 and beyond.
    The reclassification has already added $800,000 to fiscal year 2008 
overtime expenditures and is expected to grow to $1,000,000 in fiscal 
year 2009 and beyond. We can not support this at our requested level 
much less at the amount recommended in the President's budget.
    Unanticipated salary pressures also impact fiscal year 2009. We 
budgeted for a 3 percent salary increase; however, only two months ago 
RIT increased faculty salaries by 4.5 percent, a $285,000 impact. We 
also face a necessary increase in interpreter salaries for fiscal year 
2009 to compete with video relay service centers in Rochester; they 
have significantly increased local pay scales.
    It is extremely unusual that NTID asks for funds above our original 
request. However, the added circumstances we face--all of which have 
developed since we submitted our fiscal year 2009 request, require us 
to ask for these additional funds. Recall that quite the opposite, we 
have consistently restrained requests. From fiscal year 2003 through 
fiscal year 2007 we documented $6,200,000 of savings by reducing/
reallocating headcounts and increasing revenues. These difficult 
savings controlled requests while improving programs and expanding in 
areas like speech-to-text services for deaf and hard-of-hearing 
students who benefit from this service.
    We are proud of those accomplishments; however, they leave limited 
flexibility in what we respectfully submit is inadequate funding in the 
President's budget. Without the added funds we will need to reduce 
important programs and services. The following are not all inclusive 
but exemplify the actions we will be required to undertake if we are 
not funded as requested.
    1. Technology.--Student curricula demand state-of-the-art 
technology. Students depend on technology updates to prepare for work. 
For deaf and hard-of-hearing students, instructional delivery 
technology is critical. We require $1,000,000 per year to remain 
current.
    2. Endowment.--The Education of the Deaf Act authorizes matching 
private gifts from appropriations, reducing dependence on federal 
funds. In fiscal year 2007 we matched over $800,000; we expect to match 
over $1,000,000 in fiscal year 2008. We need to continue matching to 
follow through on commitments made to donors.
    3. Outreach and Enrollment.--Approximately $500,000 supports 
programs that: attract junior/senior high school students; create a 
community college referral program to enhance college preparation and 
transferability; and revamp English programs to help students to 
improve their reading and writing skills. All increase future 
enrollment of deaf and hard-of-hearing students at the university 
level. Limited funding may impact these efforts.
    4. Open Positions.--Current and future position openings will not 
be filled. The impact of a freeze depends on where vacancies appear. 
The position reduction we planned and implemented from fiscal year 2003 
through fiscal year 2007 leaves few options today that will not 
directly impact services to students; this is especially true in light 
of the significant enrollment increases mentioned earlier.
    Our fiscal year 2009 operations request represents costs driven by 
increases in salary, health benefits, and energy costs, as well as RIT 
service charges that have the same inflationary pressures. We do not 
ask for funds to address program modifications; we will reallocate to 
meet those needs. Our experience from fiscal year 2003 to fiscal year 
2007 proves we can and will do this without additional appropriations.
    Our fiscal year 2009 request was submitted in June 2007, a full 15 
months before the fiscal year begins. NTID is a dynamic institution, 
and needs changed significantly in the interim; while this is not an 
unusual occurrence which we normally are able to accommodate, this year 
we are seriously concerned that the magnitude of the changes may 
overwhelm us.
    But at the same time, we would like you to be aware that there is 
also a decrease in another part of our request; our original 
construction request for $1,640,000 has been reduced by nearly 30 
percent to $1,175,000. We accomplished this by negotiating cost-sharing 
with RIT for two projects in the original submission.
    NTID is committed to providing exemplary education for deaf and 
hard-of-hearing students in a cost-effective manner and has a long 
history of successful stewardship of federal funds.
                               enrollment
    Total enrollment is at 1,343 for school year 2007-08 (fiscal year 
2008), and was 1,250 students last year as we began fiscal year 2007. 
This dramatic increase of 93 students (7.4 percent) brings us to the 
second largest enrollment in our 40-year history, just 15 students 
below our peak 24 years ago. NTID anticipates maintaining or increasing 
enrollment for school year 2008-09 (fiscal year 2009). A five-year 
history of our enrollment numbers follows.

                                        NTID ENROLLMENTS: 5-YEAR HISTORY
----------------------------------------------------------------------------------------------------------------
                                    Deaf and hard-of-hearing students           Hearing students
                                 -----------------------------------------------------------------------
           School year                           Graduate                                                 Grand
                                  Undergrad ------------------ Subtotal  Interpreting    MSSE     Sub-    Total
                                               RIT      MSSE                program              Total
----------------------------------------------------------------------------------------------------------------
2003-2004.......................     1,064        45       41     1,150          92         28      120    1,270
2004-2005.......................     1,055        42       49     1,146         100         35      135    1,281
2005-2006.......................     1,013        53       38     1,104         116         36      152    1,256
2006-2007.......................     1,017        47       31     1,095         130         25      155    1,250
2007-2008.......................     1,103        51       31     1,185         130         28      158    1,353
----------------------------------------------------------------------------------------------------------------

    The number of students in our interpreting program has grown 
substantially in recent years. The number in our graduate secondary 
teacher preparation program (MSSE) has fluctuated (totaling both MSSE 
columns above), and the total of deaf and hard-of-hearing students 
increased dramatically from 1,095 in 2006-2007 to 1185 in 2007-2008 an 
increase of 90 students (8.2 percent).
                        student accomplishments
    Our placement rate for graduates is 95 percent placed in jobs 
commensurate with the level of their education (using the Bureau of 
Labor Statistics methodology). Over the last five years, 64 percent 
were employed in business and industry, 26 percent in education/non 
profits, and 10 percent in government.
    In fiscal year 2005, NTID, the Social Security Administration, and 
Cornell University examined over 13,000 NTID applicants. We learned 
NTID graduation has significant economic benefits. By age 50, deaf and 
hard-of-hearing baccalaureate graduates earn on average $6,021 more per 
year than those with associate degrees, who in turn earn $3,996 more 
per year on average than those who withdraw. Students who withdraw earn 
$4,329 more than those who are not admitted. Students who withdraw also 
experience twice the rate of unemployment as graduates.
    The same studies show 60 percent of students at NTID receive 
Supplemental Security Income benefits, but when they are age 50, less 
than 3 percent draw these benefits. Graduates also access Social 
Security Disability Insurance (an unemployment benefit), at far lesser 
rates than withdrawals; by age 50, withdrawals were twice as likely to 
be receiving these benefits as graduates. A large percentage of school 
leavers without a degree will continue to depend heavily on federal 
income support throughout their lives. But NTID graduates have 
significantly reduced dependence on welfare programs.
    Considering the added taxes graduates pay as a result of their 
increased earnings and the savings derived from reduced dependency on 
the federal income support programs, the federal investment in NTID 
returns significant societal dividends.
    NTID clearly makes a significant, positive difference in earnings, 
and in lives.
                            ntid background
    Academic Programs: NTID offers high quality, career-focused, 
associate degree programs preparing students for specific well-paying 
technical careers. A cooperative education component ties closely to 
high demand employment opportunities. Expanding transfer associate 
degree programs better serve the higher achieving segment of our 
student population who seek bachelors and masters degrees in an 
increasingly demanding marketplace. These associate transfer programs 
provide seamless transition to baccalaureate studies. We also support 
students in RIT baccalaureate programs. One of NTID's greatest 
strengths is our outstanding track record of assisting high-potential 
students gain admission to and graduate from the other colleges of RIT 
at rates that are better than their hearing peers.
    Research: The research program is guided and organized according to 
these general research areas: language and literacy, teaching and 
learning, socio-cultural influences, career development, technology 
integration, and institutional research. All benefit the deaf and hard-
of-hearing population.
    Outreach: Extended outreach activities to junior/senior high school 
students expand their horizons regarding a college education. We also 
serve other universities and post-college adults.
    Student Life: The new CSD Student Development Center, funded by a 
$2,000,000 private gift and a $1,500,000 fiscal year 2005 federal 
appropriations, opened a year ago. Our activities conducted there 
foster student leadership and community service, and provide 
opportunities for students to explore other educational interests.
                                summary
    It is extremely important that our funding be provided at the full 
level detailed in this testimony, particularly in light of the 
unanticipated impacts described above; even at this level, some service 
reductions may be necessary should we be unable to offset these costs.
    We will continue our mission of preparing deaf and hard-of-hearing 
people to enter the workplace and society.
    Our alumni have demonstrated that they can achieve independence, 
contribute to society, earn a living, and live a satisfying life as a 
result of NTID. Research shows that NTID graduates over their lifetimes 
are employed at a much higher rates, earn substantially more (therefore 
paying significantly more in taxes), and participate at a much lower 
rate in federal welfare programs than those who apply but do not attend 
NTID or who withdraw.
    We are hopeful that the members of the Committee will agree that 
NTID, with its outstanding record of service to deaf and hard-of-
hearing people, remains deserving of their support and confidence.
                                 ______
                                 
             Prepared Statement of the NephCure Foundation
                           one family's story
    Chairman Harkin and members of the subcommittee thank you for the 
opportunity to present testimony today, I am Dee Ryan and my husband is 
Lieutenant Colonel John Kevin Ryan, an Iraq war veteran. I would like 
to tell you about my 6 year old daughter Jenna's nephrotic syndrome 
(NS), a medical problem caused by rare diseases of the kidney filter. 
When affected, these filters leak protein from the blood into the urine 
and often cause kidney failure requiring dialysis or kidney 
transplantation. We have been told by our physician that Jenna has one 
of two filter diseases called Minimal Change Disease (MCD) or Focal and 
Segmental Glomerulosclerosis (FSGS). According to a Harvard University 
report there are presently 73,000 people in the United States who have 
lost their kidneys as a result of FSGS. Unfortunately, the causes of 
FSGS and other filter diseases are very poorly understood.
    In October 2007 my daughter began to experience general swelling of 
her body and intermittent abdominal pain, fatigue and general malaise. 
Jenna began to develop a cough and her stomach became dramatically 
distended. We rushed Jenna to the emergency room where her breathing 
became more and more labored and her pulse raced. She had symptoms of 
pulmonary edema, tachycardia, hypertension, and pneumonia. Her lab 
results showed a large amount of protein in the urine and a low 
concentration of the blood protein albumin, consistent with the 
diagnosis of FSGS. Jenna's condition did not begin to stabilize for 
several frightening days.
    Following her release from the hospital we had to place Jenna on a 
strict diet which limited her consumption of sodium to no more than 
1,000 mg per day. Additionally, Jenna was placed on a steroid regimen 
for the next 3 months. We were instructed to monitor her urine protein 
levels and to watch for swelling and signs of infection, in order to 
avoid common complications such as overwhelming infection or blood 
clots. Because of her disease and its treatment, which requires strong 
suppression of the immune system, Jenna did have a serious bacterial 
infection several months after she began treatment.
    We are frightened by her doctor's warnings that NS and its 
treatment are associated with growth retardation and other medical 
complications including heart disease. As a result of NS, Jenna has 
developed hypercholesterolemia and we worry about the effects the 
steroids may have on her bones and development. This is a lot for a 
little girl in kindergarten to endure.
    Jenna's prognosis is currently unknown because NS can reoccur. Even 
more concerning to us is that Jenna may eventually lose her kidneys 
entirely and need dialysis or a kidney transplant. While kidney 
transplantation might sound like a cure, in the case of FSGS, the 
disease commonly reappears after transplantation. And even with a 
transplant, end stage renal disease caused by FSGS dramatically 
shortens one's life span.
    The NephCure Foundation has been very helpful to my family. They 
have provided us with educational information about NS, Minimal Change 
Disease, and FSGS and the organization works to provide grant funding 
to scientists for research into the cause and cure of NS.
    Mr. Chairman, because the causes of Nephrotic Syndrome are poorly 
understood, and because we have a great deal to learn in order to be 
able to effectively treat NS, I am asking you to please significantly 
increase funding for the National Institutes of Health so that 
treatments can be found for other people like Jenna who suffer from NS. 
Also, please support the establishment of a collaborative research 
network that would allow scientists to create a pediatric patient 
registry and biobank for NS/FSGS, and that would allow coordinated 
studies of these deadly diseases for the first time. Finally, please 
urge the National Institute of Diabetes and Digestive and Kidney 
Disease (NIDDK) to continue to focus on FSGS/NS research in general, 
consistent with the recent program announcement entitled Grants for 
Basic Research in Glomerular Disease (R01) (PA-07-367) .
    Mr. Chairman, on behalf of the thousands of people suffering from 
NS and FSGS and the NephCure Foundation, thank you for this chance to 
speak before the Subcommittee and for your consideration of my request; 
Thank you.
                        more research is needed
    We are no closer to finding the cause or the cure of FSGS. 
Scientists tell us that much more research needs to be done on the 
basic science behind the disease.
    NFC would also like to see the Office of Rare Disease (ORD) to 
establish a FSGS Clinical Research Network within the Rare Disease 
Clinical Research Consortia. The development of a Clinical Research 
Network would allow for further collaboration between researchers and 
an expansion of the clinical understanding and treatment of FSGS.
    NCF is also grateful to the NIDDK for issuing of a program 
announcement (PAs) that serve to initiate grant proposals on glomerular 
disease The PA, issued in March of 2006, is glomerular-disease 
specific. The announcement will utilize the R01 mechanism to award 
researchers funding.
    We ask the Committee to encourage the ORD to establisht a FSGS 
Clinical Research Network to expand FSGS research. We also ask the 
NIDDK to continue to issue glomerular disease program announcements.
              too little education about a growing problem
    When glomerular disease strikes, the resulting NS causes a loss of 
protein in the urine and edema. The edema often manifests itself as 
puffy eyelids, a symptom that many parents and physicians mistake as 
allergies. With experts projecting a substantial increase in nephrotic 
syndrome in the coming years, there is a clear need to educate 
pediatricians and family physicians about glomerular disease and its 
symptoms.
    We also applaud the work of the NIDDK in establishing the National 
Kidney Disease Education Program (NKDEP), and we seek your support in 
urging the NIDDK to make sure that glomerular disease remains a focus 
of the NKDEP.
    We ask the Committee to encourage the NIDDK to have glomerular 
disease receive high visibility in its education and outreach efforts, 
and to continue these efforts in conjunction with the NephCure 
Foundation's work. These efforts should be targeted towards both 
physicians and patients.
            glomerular disease strikes minority populations
    Nephrologists tell us that glomerular disease strikes a 
disproportionate number of African-Americans. No one knows why this is, 
but some studies have suggested that a genetic sensitivity to sodium 
may be partly responsible. DNA studies of African Americans who suffer 
from FSGS may lead to insights that would benefit the thousands of 
African Americans who suffer from kidney disease.
    I ask that the NIH pay special attention to why this disease 
affects African-Americans to such a large degree. The NephCure 
Foundation wishes to work with the NIDDK and the National Center for 
Minority Health and Health Disparities (NCMHD) to encourage the 
creation of programs to study the high incidence of glomerular disease 
within the African American population.
    There is also evidence to suggest that the incidence of glomerular 
disease is higher among Hispanic Americans than in the general 
population. An article in the February 2006 edition of the NIDDK 
publication Recent Advances and Emerging Opportunities, discussed the 
case of Frankie Cervantes, a 6 year old boy of Mexican and Panamian 
descent. Frankie has FSGS received a transplanted kidney from his 
mother. We applaud the NIDDK for highlighting FSGS in their 
publication, and for translating the article about Frankie into both 
English and Spanish. Only through similar efforts at cross-cultural 
education can the African-American and Hispanic-American communities 
learn more about glomerular disease.
    We ask the Committee to join with us in urging the NIDDK and the 
National Center for Minority Health and Health Disparities (NCMHD) to 
collaborate on research that studies the incidence and cause of this 
disease among minority populations. We also ask that the NIDDK and the 
NCMHD undertake culturally appropriate efforts aimed at educating 
minority populations about glomerular disease.
                      patient registry and biobank
    Experts currently believe glomerular disease is increasing in 
frequency and it is often misdiagnosed or undetected and, as a result, 
is often unreported. Since many cases of glomerular disease are 
unreported, it is difficult to ascertain different aspects of the 
disease and to form more comprehensive data sets on the patient 
population.
    It is also possible that the development of a biobank would be 
beneficial in understanding the genetic components of glomerular 
disease and their corresponding interactions with environmental 
factors.
    We ask the Committee to support funding for the first-ever national 
database/registry for FSGS within NIDDK. Experts say that the incidence 
of FSGS is increasing and that the disease is often misdiagnosed, 
undetected or unrecorded. While databases and registries have helped 
defeat other diseases, one does not exist for FSGS. We also ask the 
Committee support the development of a biobank as a further means of 
understanding the causes of FSGS, both genetic and environmental.
                                 ______
                                 
Prepared Statement of the Neurofibromatosis, Inc., Northeast and Texas 
                      Neurofibromatosis Foundation
                     national institutes of health
    Thank you for the opportunity to present testimony to the 
subcommittee on the importance of continued funding at the National 
Institutes of Health (NIH) for Neurofibromatosis (NF), a terrible 
genetic disorder closely linked to cancer, learning disabilities, heart 
disease, memory loss, brain tumors, and other disorders affecting up to 
175 million Americans in this generation alone. Thanks in large measure 
to this subcommittee's strong and enduring support, scientists have 
made enormous progress since the discovery of the NF1 gene in 1990 
resulting in clinical trials now being undertaken at NIH with broad 
implications for the general population.
    On behalf of Neurofibromatosis, Inc., Northeast and the Texas 
Neurofibromatosis Foundation, both participants in a national coalition 
of NF advocacy groups, we speak on behalf of the 100,000 Americans who 
suffer from NF as well as approximately 175 million Americans who 
suffer from diseases linked to NF such as cancer, brain tumors, heart 
disease, memory loss and learning disabilities.
                    what is neurofibromatosis (nf)?
    NF is a genetic disorder involving the uncontrolled growth of 
tumors along the nervous system which can result in terrible 
disfigurement, deformity, deafness, blindness, brain tumors, cancer, 
and/or death. NF can also cause other abnormalities such as unsightly 
benign tumors across the entire body and bone deformities. In addition, 
approximately one-half of children with NF suffer from learning 
disabilities. While not all NF patients suffer from the most severe 
symptoms, all NF patients and their families live with the uncertainty 
of not knowing whether they will be seriously affected because NF is a 
highly variable and progressive disease.
    NF is not rare. It is three times more common than Multiple 
Sclerosis (MS) and Cystic Fibrosis combined, but is not widely known 
because it has been poorly diagnosed for many years. Approximately 
100,000 Americans have NF, and it appears in approximately one in every 
3,000 births. It strikes worldwide, without regard to gender, race or 
ethnicity. Approximately 50 percent of new NF cases result from a 
spontaneous mutation in an individual's genes, and 50 percent are 
inherited. There are two types of NF: NF1, which is more common, and 
NF2, which primarily involves tumors causing deafness and balance 
problems. In addition, advances in NF research stand to benefit over 
175 million Americans in this generation alone because NF, the most 
common neurological disorder caused by a single gene, is directly 
linked to many of the most common diseases affecting the general 
population.
    If a child was diagnosed with NF it would mean tumors could grow 
anytime, anywhere on his/her nervous system, from the day he/she was 
born until the day he/she died with no way to predict when or how 
severely the tumors would affect his/her body--and no viable way to 
treat the disease outside of surgery--which often results in more 
tumors that grow twice as fast. That same child would then have a 50 
percent chance to pass the gene to his/her children. That's an 
overwhelming diagnosis and it bears repeating: NF is one of the most 
common genetic disorders in our country and has no cure and no viable 
treatment. But that is changing. The immediate future holds real 
promise.
                        link to other illnesses
    Researchers have determined that NF is closely linked to cancer, 
heart disease, learning disabilities, memory loss, brain tumors, and 
other disorders including deafness, blindness and orthopedic disorders.
    Cancer.--Research has demonstrated that NF's tumor suppressor 
protein, neurofibromin, inhibits RAS, one of the major malignancy 
causing growth proteins involved in 30 percent of all cancer. 
Accordingly, advances in NF research may well lead to treatments and 
cures not only for NF patients but for all those who suffer from cancer 
and tumor-related disorders. Similar studies have also linked epidermal 
growth factor receptor (EGF-R) to malignant peripheral nerve sheath 
tumors (MPNSTs), a form of cancer which disproportionately strikes NF 
patients.
    Heart disease.--Researchers have demonstrated that mice completely 
lacking in NF1 have congenital heart disease that involves the 
endocardial cushions which form in the valves of the heart. This is 
because the same ras involved in cancer also causes heart valves to 
close. Neurofibromin, the protein produced by a normal NF1 gene, 
suppresses ras, thus opening up the heart valve. Promising new research 
has also connected NF1 to cells lining the blood vessels of the heart, 
with implications for other vascular disorders including hypertension, 
which affects approximately 50 million Americans. Researchers believe 
that further understanding of how an NF1 deficiency leads to heart 
disease may help to unravel molecular pathways affected in genetic and 
environmental causes of heart disease.
    Learning disabilities.--Learning disabilities are the most common 
neurological complication in children with NF1. Research aimed at 
rescuing learning deficits in children with NF could open the door to 
treatments affecting 35 million Americans and 5 percent of the world's 
population who also suffer from learning disabilities. Leading 
researchers have already rescued learning deficits in both mice and 
fruit flies with NF1 with a number of drugs, and clinical trials have 
now been approved by the FDA. This NF research could potentially save 
Federal, State, and local governments, as well as school districts 
billions of dollars annually in special education costs resulting from 
a treatment for learning disabilities.
    Memory Loss.--Researchers have also determined that NF is closely 
linked to memory loss and are now investigating conducting clinical 
trials with drugs that may not only cure NF's cognitive disorders but 
also result in treating memory loss as well with enormous implications 
for patients who suffer from Alzheimer's disease and other dementias.
    Deafness.--NF2 accounts for approximately 5 percent of genetic 
forms of deafness. It is also related to other types of tumors, 
including schwannomas and meningiomas, as well as being a major cause 
of balance problems.
    Autism.--While there is no firm scientific evidence at this point, 
some published studies have shown, and leading researchers have stated, 
that there is reason to believe there is an implication between NF and 
Autism.
                          scientific advances
    Thanks in large measure to this subcommittee's support; scientists 
have made enormous progress since the discovery of the NF1 gene in 
1990. Major advances in just the past few years have ushered in an 
exciting era of clinical and translational research in NF with broad 
implications for the general population.
    These recent advances have included:
  --Phase II and Phase III clinical trials involving new drug 
        therapies;
  --Creation of a National Clinical Trials Consortia and NF Centers;
  --Successfully eliminating tumors in NF1 and NF2 mice with the same 
        drug;
  --Developing advanced mouse models showing human symptoms;
  --Rescuing learning deficits and eliminating tumors in mice with the 
        same drug;
  --Linking NF to vascular disorders such as congenital heart disease 
        and hypertension, affecting more than 50 million Americans; and
  --Conducting natural history studies to analyze the progression of 
        the disease.
                           future directions
    NF research has now advanced to the translational and clinical 
stages which hold incredible promise for NF patients, as well as for 
patients who suffer from many of the diseases linked to NF. This 
research is costly and will require an increased commitment on the 
federal level. Specifically, future investment in the following areas 
would continue to advance research on NF:
  --Clinical trials;
  --Funding of a clinical trials network to connect patients with 
        experimental therapies;
  --DNA Analysis of NF tissues;
  --Development of NF Centers, tissue banks, and patient registries;
  --Development of new drug and genetic therapies;
  --Further development of advanced animal models;
  --Expansion of biochemical research on the functions of the NF gene 
        and discovery of new targets for drug therapy; and
  --Natural history studies and identification of modifier genes--
        studies are already underway to provide a baseline for testing 
        potential therapies and differentiate among different 
        phenotypes of NF.
                 congressional support for nf research
    The enormous promise of NF research--and its potential to benefit 
over 175 million Americans in this generation alone--has gained 
increased recognition from Congress and the NIH. This is evidenced by 
the fact that six institutes at NIH are currently supporting NF 
research (NCI, NHLBI, NINDS, NIDCD, NHGRI, AND NCRR), and NIH's total 
research portfolio has increased from $3 million in fiscal year 1990 to 
$15 million in fiscal year 2008. However, we are concerned that the NF 
research portfolio at NIH has declined by several million dollars in 
recent years (fiscal year 2005 $17.5 million, fiscal year 2006 $16 
million, fiscal year 2007 $15.8 million, fiscal year 2008 $15.4 
million), despite appropriations report language recommending a greater 
investment. Given the potential offered by NF research for progress 
against a range of diseases, we are hopeful that NIH will substantially 
increase NF research funding.
    We appreciate the subcommittee's strong support for NF research and 
will continue to work with you to ensure that opportunities for major 
advances in NF research are aggressively pursued.
    Thank you again for the opportunity to tell you of the progress and 
potential of NF research.
                                 ______
                                 
Prepared Statement of the New England Anti-Vivisection Society Project 
   R&R: Release and Restitution for Chimpanzees in U.S. Laboratories
    NEAVS/Project R&R requests that no Federal funding be appropriated 
for:
  --breeding of chimpanzees or other great apes for research
  --transfer of federally-owned chimpanzees to private ownership
  --housing/maintenance/endowments for federally-owned chimpanzees in 
        private facilities
  --maintenance of surplus chimpanzees except in retirement in 
        sanctuary
  --research involving the use of chimpanzees
    NEAVS/Project R&R requests that Federal funding be appropriated 
for:
  --transfer of federally-owned chimpanzees into sanctuary
  --housing/maintenance grants for federally-owned chimpanzees in 
        sanctuary
  --retirement of all ``surplus'' chimpanzees now held in laboratories
  --reallocation of funding for chimpanzee research into funding non-
        animal research methods
                       substantiating information
    1. The National Center for Research Resources (NCRR) announced a 
permanent end to funding for the breeding of federally-owned and 
supported chimpanzees (including funding NIH projects requiring 
chimpanzee breeding). This NCRR decision recognizes the exorbitant 
costs of lifetime care of chimpanzees in laboratory settings and its 
consequent drain to limited and precious research dollars. No other 
Federal agency should threaten this fiscally, ethically, and 
scientifically sound NCRR decision by providing funding for breeding of 
federally-owned chimpanzees. To do so would perpetuate an animal model 
that has been of limited or no value, especially in relation to the 
costs they require for their care and maintenance. Chimpanzees live for 
decades and 71 percent of the American public, according to an 
independent public opinion survey, believe those in labs for 10 or more 
years should be retired. A current estimate of the U.S. population puts 
that figure at approximately 93 percent of the chimpanzees now held in 
labs.
    2. The government is currently spending close to $10 million each 
year to care for approximately 600 federally-owned or supported 
chimpanzees (nearly $1.0 million per chimpanzee's lifetime). Breeding 
perpetuates this fiscal burden on the Government. Further, grants to 
private companies, like Charles River Laboratory's (CRL) Federal $43 
million 10 year grant could have gone further, covered more 
chimpanzees, and provided superior care had it been appropriated for 
sanctuary care and not the laboratory care provided by CRL at 
Alamogordo. This funding is an example of Federal subsidizing of 
private profits, not an example of sound research dollar priorities.
    3. The United States is still managing the ``surplus of 
chimpanzees'' previously bred to be available to HIV research. Today 
their use in HIV/AIDS research has diminished to the point of hardly 
existent. They proved to be a poor, even dangerous model in not only 
AIDS research but in every area of major ``killer diseases'' for 
humans, including cancer, heart disease, stroke, etc. (An Assessment of 
the Role of Chimpanzees in AIDS Vaccine Research, Jarrod Bailey, Ph.D., 
2008)
    4. Studies have indicated that the majority of chimpanzee research 
published (in addition to research not accepted for publication) is 
never later cited in studies to do with human prophylactic, diagnostic, 
or therapeutic methods. This indicates that in general, the chimpanzee 
model has made limited contributions to human health and in many cases 
has actually led to dangerously erroneous applications to humans. 
(Chimpanzee Research: An Examination of Its Contribution to Biomedical 
Knowledge and Efficacy in Combating Human Diseases, Jarrod Bailey, 
Ph.D. and Jonathan Balcombe, Ph.D., 2007)
    5. The transfer of government-owned and supported chimpanzees into 
private facilities with accompanying Federal endowments would 
perpetuate their financial burden on taxpayers, and only private 
facilities would profit from such an arrangement. The lifetime support 
of federally-owned chimpanzees is required by the CHIMP Act. The 
government can provide this care more efficiently and effectively 
through maintaining ownership and transferring all government-owned 
chimpanzees into the federally supported sanctuary system or private 
sanctuary that meets those standards. The government can share the cost 
of their lifetime care with private donations from the public, who 
would be assured that the chimpanzees are no longer available for 
research. Private laboratories interested in ``maintaining'' a 
chimpanzee population are a fiscally inefficient solution for the 
government. Such facilities do not provide the quality care that 
sanctuaries can provide. The private warehousing and/or lifetime use of 
chimpanzees in private research--supported with government taxpayer 
dollars--will lead to public outcry.
    6. If private industry receives Federal support for breeding and 
using government owned, once owned or government endowed chimpanzees 
for their own private research, then private industry would be 
unfairly, and perhaps illegally, benefiting from federally-owned 
``resources'' meant for the betterment of the American public, not for 
the profit of private industry.
    7. To date, the private sector has not been fiscally responsible 
for the lifetime care of chimpanzees once their use to them for private 
profit is over. When their chimpanzees are retired, the private sector 
has not, to date, offered financial compensation for their chimpanzees' 
lifetime care. Instead, on the few occasions where the chimpanzees were 
sent to sanctuary with some funding, the financial compensation falls 
far short of what is actually needed, leaving the burden of 
responsibility on the private facilities and their public donors.
    8. If the Government: transfers all approximately 600 federally-
owned chimpanzees to the national sanctuary system or to private 
sanctuary that meets or exceeds these standards; appropriates to those 
sanctuaries the funding currently being given to chimpanzee 
laboratories; and, prohibits breeding, there is an end to the financial 
burden that this misused and underproductive animal model has caused 
the government. The Government needs a solution, and the funding 
priority suggestions set forth herein would offer a major step toward 
such a solution.
    9. Transferring all federally-owned chimpanzees to sanctuary will: 
(a) consolidate and decrease costs; (b) provide better care; and, (c) 
offer the public the humane solution they are asking for.
    10. Scientific justification for maintaining the exorbitant costs 
associated with such a physically strong, intellectual curious, 
socially and emotionally complex species as a chimpanzee does not 
exists. A 2007 article, ``The Endangered Lab Chimp'' in Science, noted 
that ``a huge number'' of chimpanzees are not being used in active 
research protocols and are therefore ``just sitting there.'' If 
breeding ends and current mortality rates continue (as they are 
expected given the aging population of chimpanzees in U.S. labs), the 
government will have no--or a bare minimal--financial responsibility 
for the chimpanzees it owns within 20-30 years. No Federal funding for 
breeding will ensure that no breeding of federally-owned or supported 
chimpanzees for research will occur in fiscal year 2009 and be a major 
step to ending the government's non-productive, high cost involvement 
in chimpanzee research. As years of a voluntary breeding moratorium 
showed, private industry is not willing to breed without government 
support. It understands the costs and refuses to adequately provide for 
the lifetime care of chimpanzees it already owns. If the use of 
chimpanzees was lucrative or necessary, then the private industry's 
dollars and practices would reflect that. However, it is not. The 
Federal Government needs to follow suit in such ``wise business'' 
decisions.
    11. The American and world (great ape research is banned or 
severely limited in eight scientifically advanced nations and a 
European Union wide ban is expected to pass soon) public are deeply 
concerned about the use of chimpanzees in research. Their close 
emotional, cognitive, and social similarities to humans have put them 
in a unique category of interspecies ethics. This moral reality has 
been acknowledged by the government (requirements for their care in the 
CHIMP Act that apply to no other animal species used in research) and 
scientists (several private laboratories that used chimpanzees have 
closed or stop using them), and the American public are clearly 
concerned about these issues. As the voice of the American public, our 
administrative offices should consider that: 90 percent of Americans 
believe it is unacceptable to confine chimpanzees individually in 
government-approved cages; 71 percent believe that chimpanzees who have 
been in the laboratory for over 10 years should be retired to 
sanctuary; 54 percent believe that it is unacceptable for chimpanzees 
to ``undergo research which causes them to suffer for human benefit''; 
and, twice as many American's support an outright ban on chimpanzee 
research as do those who oppose such a ban.
    12. Therefore, we respectfully request the following committee 
report language: ``The Committee directs that funds provided in this 
act not be used: to support the breeding of chimpanzees or other great 
apes for research; to support research that requires breeding of 
chimpanzees; to support the transfer of ownership of federally-owned 
chimpanzees to private entities (including endowments for their 
maintenance); to maintain surplus chimpanzees except in retirement in 
sanctuary; or to fund new research involving the use of chimpanzees.
    The Committee directs that funds provided in this Act be used:
    to transfer federally-owned chimpanzees into sanctuary; to house 
and maintain federally-owned chimpanzees in sanctuary; to retire all 
``surplus'' chimpanzees now held in laboratories; and to reallocate 
funding from chimpanzee research into non-animal research methods.''
                                 ______
                                 
           Prepared Statement of the Oncology Nursing Society
                                overview
    The Oncology Nursing Society (ONS) appreciates the opportunity to 
submit written comments for the record regarding fiscal year 2009 
funding for cancer and nursing related programs. ONS, the largest 
professional oncology group in the United States, composed of more than 
35,000 nurses and other health professionals, exists to promote 
excellence in oncology nursing and the provision of quality care to 
those individuals affected by cancer. As part of its mission, the 
Society honors and maintains nursing's historical and essential 
commitment to advocacy for the public good.
    This year more than 1,437,180 million Americans will be diagnosed 
with cancer, and more than 565,650 will lose their battle with this 
terrible disease. Overall, age is the number one risk factor for 
developing cancer. Approximately 77 percent of all cancers are 
diagnosed at age 55 and older.\1\ Despite these grim statistics, 
significant gains in the War Against Cancer have been made through our 
Nation's investment in cancer research and its application. Research 
holds the key to improved cancer prevention, early detection, 
diagnosis, and treatment, but such breakthroughs are meaningless, 
unless we can deliver them to all Americans in need. Moreover, a recent 
survey of ONS members found that the nursing shortage is having an 
adverse impact in oncology physician offices and hospital outpatient 
departments. Some respondents indicated that when a nurse leaves their 
practice, they are unable to hire a replacement due to the shortage--
leaving them short-staffed and posing scheduling challenges for the 
practice and the patients. These vacancies in all care settings create 
significant barriers to ensuring access to quality care.
---------------------------------------------------------------------------
    \1\ American Cancer Society. Cancer Facts and Figures 2008. 
Atlanta: American Cancer Society: 2008.
---------------------------------------------------------------------------
    To ensure that all people with cancer have access to the 
comprehensive, quality care they need and deserve, ONS advocates 
ongoing and significant federal funding for cancer research and 
application, as well as funding for programs that help ensure an 
adequate oncology nursing workforce to care for people with cancer. The 
Society stands ready to work with policymakers at the local, state, and 
federal levels to advance policies and programs that will reduce and 
prevent suffering from cancer and sustain and strengthen the Nation's 
nursing workforce. We thank the subcommittee for its consideration of 
our fiscal year 2009 funding request detailed below.
    securing and maintaining an adequate oncology nursing workforce
    Oncology nurses are on the front lines in the provision of quality 
cancer care for individuals with cancer--administering chemotherapy, 
managing patient therapies and side-effects, working with insurance 
companies to ensure that patients receive the appropriate treatment, 
providing counseling to patients and family members, and engaging in 
myriad other activities on behalf of people with cancer and their 
families. Cancer is a complex, multifaceted chronic disease, and people 
with cancer require specialty-nursing interventions at every step of 
the cancer experience. People with cancer are best served by nurses 
specialized in oncology care, who are certified in that specialty.
    As the overall number of nurses will drop precipitously in the 
coming years, we likely will experience a commensurate decrease in the 
number of nurses trained in the specialty of oncology. With an 
increasing number of people with cancer needing high-quality health 
care, coupled with an inadequate nursing workforce, our Nation could 
quickly face a cancer care crisis of serious proportion, with limited 
access to quality cancer care, particularly in traditionally 
underserved areas. A study in the New England Journal of Medicine found 
that nursing shortages in hospitals are associated with a higher risk 
of complications--such as urinary tract infections and pneumonia, 
longer hospital stays, and even patient death.\2\ Without an adequate 
supply of nurses, there will not be enough qualified oncology nurses to 
provide the quality cancer care to a growing population of people in 
need, and patient health and well-being could suffer.
---------------------------------------------------------------------------
    \2\ Needleman J., Buerhaus P., Mattke S., Stewart M., Zelevinsky K. 
``Nurse-Staffing Levels and the Quality of Care in Hospitals.'' New 
England Journal of Medicine 346:, (May 30, 2002): 1715-1722.
---------------------------------------------------------------------------
    Further, of additional concern is that our Nation also will face a 
shortage of nurses available and able to conduct cancer research and 
clinical trials. With a shortage of cancer research nurses, progress 
against cancer will take longer because of scarce human resources 
coupled with the reality that some practices and cancer centers 
resources could be funneled away from cancer research to pay for the 
hiring and retention of oncology nurses to provide direct patient care. 
Without a sufficient supply of trained, educated, and experienced 
oncology nurses, we are concerned that our Nation may falter in its 
delivery and application of the benefits from our federal investment in 
research.
    ONS has joined with others in the nursing community in advocating 
$200 million as the fiscal year 2009 funding level necessary to support 
implementation of the Nurse Reinvestment Act and the range of nursing 
workforce development programs housed at the U.S. Health Resources and 
Services Administration (HRSA). Enacted in 2002, the Nurse Reinvestment 
Act (Public Law 107-205) included new and expanded initiatives, 
including loan forgiveness, scholarships, career ladder opportunities, 
and public service announcements to advance nursing as a career. 
Despite the enactment of this critical measure, HRSA fails to have the 
resources necessary to meet the current and growing demands for our 
Nation's nursing workforce. For example, in fiscal year 2006 HRSA 
received 4,222 applications for the Nurse Education Loan Repayment 
Program, but only had the funds to award 615 of those applications.\3\ 
Also, in fiscal year 2007 HRSA received 6,611 applications for the 
Nursing Scholarship Program, but only had funding to support 220 
awards.\4\
---------------------------------------------------------------------------
    \3\ U.S. Health Resources and Services Administration: Nurse 
Education Loan Repayment Program:http://bhpr.hrsa.gov/nursing/
loanrepay.htm.
    \4\ U.S. Health Resources and Services Administration: Nursing 
Scholarship Program Statistics: http://bhpr.hrsa.gov/nursing/
scholarship/.
---------------------------------------------------------------------------
    While a number of years ago one of the biggest factors associated 
with the shortage was a lack of interested and qualified applicants, 
due to the efforts of the nursing community and other interested 
stakeholders, the number of applicants is growing. As such, now one of 
the greatest factors contributing to the shortage is that nursing 
programs are turning away qualified applicants to entry-level 
baccalaureate programs, due to a shortage of nursing faculty. According 
to the American Association of Colleges of Nursing (AACN), U.S. nursing 
schools turned away 42,866 qualified applicants from baccalaureate and 
graduate nursing programs in 2006, due to insufficient number of 
faculty.\5\ The nurse faculty shortage is only expected to worsen with 
time, as half of the RN workforce is expected to reach retirement age 
with in the next 10 to 15 years.\6\ At the same time, significant 
numbers of faculty are expected to retire in the coming years, with 
insufficient numbers of candidates in the pipeline to take their 
places. If funded sufficiently, the components and programs of the 
Nurse Reinvestment Act will help address the multiple factors 
contributing to the nursing shortage.
---------------------------------------------------------------------------
    \5\ American Association of Colleges of Nursing, ``2006-2007 
Enrollment and Graduations in Baccalaureate and Graduate Programs in 
Nursing.'' http://www.aacn.nche.edu/IDS/datarep.htm, March 2007.
    \6\ Preliminary Results: ``National Survey of Nurse Educators: 
Compensation, Workload, and Teaching Practices.'' National League of 
Nursing/Carnetgie Foundation. (February 7, 2007) http://www.nln.org/
newsreleases/pres_budget2007.htm.
---------------------------------------------------------------------------
    The nursing community opposes the President's fiscal year 2009 
budget proposal that decreases nursing workforce funding by $46 
million--a cut which eliminates all funding for advanced nursing 
education programs. With additional funding in fiscal year 2009, these 
important programs will have much-needed resources to address the 
multiple factors contributing to the nationwide nursing shortage, 
including the shortage of faculty--a principal factor contributing to 
the current shortage. Advanced nursing education programs play an 
integral role in supporting registered nurses interested in advancing 
in their practice and becoming faculty. As such, these programs must be 
adequately funded in the coming year.
    ONS strongly urges Congress to provide HRSA with a minimum of $200 
million in fiscal year 2009 to ensure that the agency has the resources 
necessary to fund a higher rate of nursing scholarships and loan 
repayment applications and support other essential endeavors to sustain 
and boost our Nation's nursing workforce. Nurses--along with patients, 
family members, hospitals, and others--have joined together in calling 
upon Congress to provide this essential level of funding. The National 
Coalition for Cancer Research (NCCR), a non-profit organization 
comprised of 26 national organizations, is also advocating $200 million 
for the Nurse Reinvestment Act in fiscal year 2009. ONS and its allies 
have serious concerns that without full funding, the Nurse Reinvestment 
Act will prove an empty promise, and the current and expected nursing 
shortage will worsen, and people will not have access to the quality 
care they need and deserve.
            sustain and seize cancer research opportunities
    Our Nation has benefited immensely from past federal investment in 
biomedical research at the National Institutes of Health (NIH). ONS has 
joined with the broader health community in advocating a 6.6 percent 
increase ($31.1 billion) for NIH in fiscal year 2009. This will allow 
NIH to sustain and build on its research progress, resulting from the 
recent doubling of its budget, while avoiding the severe disruption to 
that progress that would result from a minimal increase. Cancer 
research is producing extraordinary breakthroughs--leading to new 
therapies that translate into longer survival and improved quality of 
life for cancer patients. We have seen extraordinary advances in cancer 
research, resulting from our national investment, which have produced 
effective prevention, early detection and treatment methods for many 
cancers. To that end, ONS calls upon Congress to allocate $5.26 billion 
to the National Cancer Institute (NCI) in fiscal year 2009 to support 
the battle against cancer.
    The National Institute of Nursing Research (NINR) supports basic 
and clinical research to establish a scientific basis for the care of 
individuals across the life span--from management of patients during 
illness and recovery, to the reduction of risks for disease and 
disability and the promotion of healthy lifestyles. These efforts are 
crucial in translating scientific advances into cost-effective health 
care that does not compromise quality of care for patients. 
Additionally, NINR fosters collaborations with many other disciplines 
in areas of mutual interest, such as long-term care for older people, 
the special needs of women across the life span, bioethical issues 
associated with genetic testing and counseling, and the impact of 
environmental influences on risk factors for chronic illnesses, such as 
cancer. ONS joins with others in the nursing community in advocating a 
fiscal year 2009 allocation of $150 million for NINR.
 boost our nation's investment in cancer prevention, early detection, 
                             and awareness
    Approximately two-thirds of cancer cases are preventable through 
lifestyle and behavioral factors and improved practice of cancer 
screening.\7\ Although the potential for reducing the human, economic, 
and social costs of cancer by focusing on prevention and early 
detection efforts remains great, our Nation does not invest 
sufficiently in these strategies. The Nation must make significant and 
unprecedented Federal investments today to address the burden of cancer 
and other chronic diseases, and to reduce the demand on the healthcare 
system and diminish suffering in our Nation both for today and 
tomorrow.
---------------------------------------------------------------------------
    \7\ American Cancer Society.
---------------------------------------------------------------------------
    As the Nation's leading prevention agency, the Centers for Disease 
Control and Prevention (CDC) plays an important role in translating and 
delivering, at the community level, what is learned from research. 
Therefore, ONS joins with our partners in the cancer community in 
calling on Congress to provide additional resources for the CDC to 
support and expand much-needed and proven effective cancer prevention, 
early detection, and risk reduction efforts. Specifically, ONS 
advocates the following fiscal year 2009 funding levels for the 
following CDC programs:
  --$250 million for the National Breast and Cervical Cancer Early 
        Detection Program;
  --$65 million for the National Cancer Registries Program;
  --$25 million for the Colorectal Cancer Prevention and Control 
        Initiative;
  --$50 million for the Comprehensive Cancer Control Initiative;
  --$25 million for the Prostate Cancer Control Initiative;
  --$5 million for the National Skin Cancer Prevention Education 
        Program;
  --$10 million for the Ovarian Cancer Control Initiative;
  --$5.5 million for the Geraldine Ferraro Blood Cancer Program;
  --$145 million for the National Tobacco Control Program; and
  --$65 million for the Nutrition, Physical Activity, and Obesity 
        Program.
                               conclusion
    ONS maintains a strong commitment to working with Members of 
Congress, other nursing societies, patient organizations, and other 
stakeholders to ensure that the oncology nurses of today continue to 
practice tomorrow, and that we recruit and retain new oncology nurses 
to meet the unfortunate growing demand that we will face in the coming 
years. By providing the fiscal year 2009 funding levels detailed above, 
we believe the subcommittee will be taking the steps necessary to 
ensure that our Nation has a sufficient nursing workforce to care for 
the patients of today and tomorrow and that our Nation continues to 
make gains in our fight against cancer.
                                 ______
                                 
       Prepared Statement of the Ovarian Cancer National Alliance
    On behalf of the Ovarian Cancer National Alliance (the Alliance), 
thank you for this opportunity to submit comments for the record 
regarding the Alliance's fiscal year 2009 funding recommendations. We 
believe these recommendations are critical to ensure advances to help 
reduce and prevent suffering from ovarian cancer. For 11 years, the 
Alliance has worked to increase awareness of ovarian cancer and 
advocated for additional federal resources to support research that 
would lead to more effective diagnostics and treatments.
    As an umbrella organization with 45 State and local organizations, 
the Alliance unites the efforts of survivors, grassroots activists, 
women's health advocates and health care professionals to bring 
national attention to ovarian cancer. Our sole mission is to conquer 
ovarian cancer.
    According to the American Cancer Society, in 2008, more than 22,000 
American women will be diagnosed with ovarian cancer and approximately 
15,000 will lose their lives to this terrible disease. Ovarian cancer 
is the fifth leading cause of cancer death in women. Currently, more 
than half of the women diagnosed with ovarian cancer will die within 
five years. While ovarian cancer has early symptoms, there is no early 
detection test. Most women are diagnosed in Stage III or Stage IV, when 
survival rates are low. If diagnosed early, more than 90 percent of 
women will survive for 5 years, but when diagnosed later, less than 30 
percent will.
    In addition, only a few treatments have been approved by the Food 
and Drug Administration (FDA) for ovarian cancer treatment. These are 
platinum-based therapies and women needing further rounds of treatment 
are frequently resistant to them. More than 70 percent of ovarian 
cancer patients will have a recurrence at some point, underlying the 
need for treatments to which patients do not grow resistant.
    For all of these problems, we urgently call on Congress to 
appropriate funds to find solutions.
    As part of this effort, the Alliance advocates for continued 
federal investment in the Centers for Disease Control and Prevention's 
(CDC) Ovarian Cancer Control Initiative. The Alliance respectfully 
requests that Congress provide $10 million for the program in fiscal 
year 2009.
    The Alliance also fully supports Congress in taking action on 
ovarian cancer through its recent passage of Johanna's Law: The 
Gynecologic Cancer Education and Awareness Act [Public Law 109-475]. 
The Alliance respectfully requests that Congress provide the remaining 
$10 million to implement Johanna's Law in fiscal year 2009.
    Further, the Alliance urges Congress to continue funding the 
Specialized Programs of Research Excellence (SPOREs), including the 
four ovarian cancer sites. These programs are administered through the 
National Cancer Institute (NCI) of the National Institutes of Health 
(NIH). The Alliance respectfully requests that Congress provide a 9.5 
percent increase to NCI in fiscal year 2009.
               centers for disease control and prevention
The Ovarian Cancer Control Initiative
    As the statistics indicate, late detection and, therefore, poor 
survival are among the most urgent challenges we face in the ovarian 
cancer field. The CDC's cancer program, with its strong capacity in 
epidemiology and excellent track record in public and professional 
education, is well positioned to address these problems. As the 
Nation's leading prevention agency, the CDC plays an important role in 
translating and delivering at the community level what is learned from 
research, especially ensuring that those populations disproportionately 
affected by cancer receive the benefits of our Nation's investment in 
medical research.
    Prompted by efforts from leaders of the Alliance and championed by 
Representative Rosa DeLauro--with bipartisan, bicameral support--
Congress established the Ovarian Cancer Control Initiative at the CDC 
in November 1999. Congress' directive to the agency was to develop an 
appropriate public health response to ovarian cancer and conduct 
several public health activities targeted toward reducing ovarian 
cancer morbidity and mortality.
    Through the OCCI, the National Comprehensive Cancer Control Program 
is helping states address issues related to ovarian cancer. The program 
currently funds efforts in California, Florida, Michigan, New York, 
Pennsylvania, Texas and West Virginia. These projects are working to 
develop ovarian cancer health messages for the general public and for 
health care providers.
Johanna's Law: The Gynecologic Cancer Education and Awareness Act
    It is critical for women and their health care providers to be 
aware of the signs, symptoms and risk factors of ovarian and other 
gynecologic cancers. Often, women and providers mistakenly confuse 
ovarian cancer signs and symptoms with those of gastrointestinal 
disorders or early menopause. While symptoms may seem vague--bloating, 
pelvic or abdominal pain, increased abdominal size and bloating and 
difficulty, eating or feeling full quickly, or urinary symptoms 
(urgency or frequency)--they can be deadly without proper medical 
intervention.
    In recognition of the need for awareness and education, Congress 
unanimously passed Johanna's Law in 2006, enacted in early 2007. This 
law provides for an education and awareness campaign that will increase 
providers' and women's awareness of all gynecologic cancers including 
ovarian. Together, Johanna's Law and the Ovarian Cancer Control 
Initiative will help increase awareness and understanding of ovarian 
cancer and work to reduce ovarian cancer morbidity and mortality.
    Already, with only a small amount of seed money, the CDC has 
launched the Inside Knowledge: Get the Facts About Gynecologic Cancer 
campaign to raise awareness of the five main types of gynecologic 
cancer: ovarian, cervical, uterine, vaginal and vulvar. Many fact 
sheets, including the ovarian cancer fact sheet, are already available 
on the CDC's Web site for download. The CDC plans to develop broadcast 
advertisements, posters--such as dioramas for bus stops--and other 
print materials, a comprehensive brochure on gynecologic cancers, and 
materials aimed at health care providers.
                       national cancer institute
Specialized Programs of Research Excellence in the National Institutes 
        of Health
    The Specialized Programs of Research Excellence were created by the 
NCI in 1992 to support translational, organ site-focused cancer 
research. The ovarian cancer SPOREs began in 1999. There are four 
currently funded Ovarian Cancer SPOREs located at the MD Anderson 
Cancer Center, the Fred Hutchinson Cancer Research Center, the Fox 
Chase Cancer Center and the Dana Farber/Harvard Cancer Center.
    These SPORE programs have made outstanding strides in understanding 
ovarian cancer, as illustrated by their more than 300 publications as 
well as other notable achievements, including the development of an 
infrastructure between Ovarian SPORE institutions to facilitate 
collaborative studies on understanding, early detection and treatment 
of ovarian cancer.
Clinical Trials
    The National Cancer Institute supports clinical research--the only 
way to test the safety and efficacy of potential new treatments for 
ovarian cancer. Two recent studies from NCI clinical trials show the 
impact of intraperitoneal chemotherapy in treating ovarian cancer (when 
chemotherapy is introduced directly into the woman's abdominal cavity, 
rather than her bloodstream) and the importance of ultrasound expertise 
in properly diagnosing the disease.
    NCI supports the Gynecology Oncology Group, a more than 50-member 
collaborative focusing on cancers of the female reproductive system. In 
2007 alone, GOG published 23 articles about ovarian cancer.
A Sustained Commitment to Fund Cancer Research
    When funding stagnates or does not keep pace with inflation, 
progress in critical research programs is halted or slows 
significantly. Inadequate funding for the NIH and the NCI means 
smaller--trickle down--occurs for the lesser-known or less frequently 
occurring--yet terribly devastating--diseases such as ovarian cancer.
    From fiscal year 2005 to fiscal year 2006, NCI funds decreased by 
only two percent, while the number of ovarian cancer research grants 
decreased by 20 percent. From fiscal year 2006 to fiscal year 2008, the 
NCI budget was flat, and the number of ovarian cancer research grants 
dropped 15 percent in the first year, and look to drop even more 
significantly for fiscal year 2008.
    To ensure adequate funding for all types of cancer, particularly 
those most deadly and least understood, the Alliance joins the cancer 
community in asking for a 6.5 percent increase for NIH and a 9.5 
percent increase for NCI in fiscal year 2009.
                                summary
    The Alliance maintains a long-standing commitment to work with 
Congress, the Administration, and other policy makers and stakeholders 
to improve the survival rate for women with ovarian cancer through 
education, public policy, research and communication. Please know we 
appreciate and understand that our nation faces many challenges and 
Congress has limited resources to allocate; however, we are concerned 
that without increased funding to bolster and expand ovarian cancer 
education, awareness and research efforts, the nation will continue to 
see growing numbers of women losing their battle with this terrible 
disease.
    On behalf of the entire ovarian cancer community--patients, family 
members, clinicians and researchers--we thank you for your leadership 
and support of federal programs that seek to reduce and prevent 
suffering from ovarian cancer. Thank you in advance for your support of 
$10 million in fiscal year 2009 funding for the CDC' Ovarian Cancer 
Control Initiative and $10 million in fiscal year 2009 funding for 
Johanna?s Law as well as your continued support of the SPORES program, 
a 9.5 percent increase for NCI.
                                 ______
                                 
       Prepared Statement of the Pancreatic Cancer Action Network
    Mr. Chairman and members of the subcommittee: My name is Dr. Randy 
Pausch. I am submitting testimony on behalf of the Pancreatic Cancer 
Action Network and the thousands of Americans who have suffered from 
this deadly disease.
    In the way of background, I am Professor of Computer Science, 
Human-Computer Interaction and Design at Carnegie Mellon University. I 
had the good fortune of being named an NSF Presidential Young 
Investigator, spending time at Walt Disney's Imagineering and 
Electronic Arts, and co-founding the University's Entertainment 
Technology Center. That may sound like a boring resume to you, but to a 
geek like me, it's nirvana!
    My father always advised me that if there is an elephant in the 
room, introduce it. In September 2006, at the age of 45, I was 
diagnosed with pancreatic cancer. I have some of the best doctors in 
the world, but even they couldn't stop what was happening. Last year I 
was told that my cancer had spread to my liver and spleen and that I 
had 3 to 6 months to live. According to the statistics, 75 percent of 
people diagnosed with pancreatic cancer die within the first year. So, 
for me, being alive today is a milestone of sorts.
    In the academic world it's become a common practice to invite 
professors to deliver a ``last lecture,'' the premise being, what 
knowledge would you impart to your students if you were delivering your 
last lecture? Last September I had the opportunity to deliver my last 
lecture at Carnegie Mellon. I talked about fulfilling childhood dreams, 
and how we go about enabling the dreams of others. I thought perhaps my 
testimony today could be a different take on those subjects.
    For me and the 37,680 Americans who will be diagnosed with 
pancreatic cancer this year, the dream is to find a cure or a way to 
prevent what is the most lethal form of cancer. I say that because only 
5 percent survive more than 5 years and the survival rate beyond that 
is even lower. Pancreatic cancer is truly the deadliest cancer and yet 
it is also the fourth leading cause of cancer related death. It seems 
strange to be talking about rankings in this context, but pancreatic 
cancer kills more people than prostate cancer and is just behind breast 
cancer. In other words, this is not a ``little'' disease. It just 
hasn't received a lot of attention to date.
    The money this subcommittee has invested in cancer research over 
the years has paid off in so many wonderful ways. The result has been 
that the death rates associated with many types of cancers have 
declined.
    Not so with pancreatic cancer. In fact, the chances of surviving 
this unmerciful disease are about the same as they were over 30 years 
ago. Pancreatic cancer is where breast cancer was in the 1930's--little 
understanding of the causes, no early detection, few effective 
treatments and single digit survival rates. It is not only the fourth 
leading cause of cancer death in the United States, but the number of 
people diagnosed with pancreatic cancer and the number of deaths it 
causes are going up--not down and have been even in the years when 
overall cancer deaths have decreased.
    So how do we enable the dream of living without the threat of 
pancreatic cancer? How do we reverse the trend that will cause more 
Americans to suffer pain and anguish, and more families to bear the 
physical, emotional and financial burden of pancreatic cancer?
    I am sure you can guess that the easy answer is, more money. The 
more accurate answer is, more money that is better targeted.
    While I realize that Congress is reluctant to direct how NIH 
allocates research dollars, I would argue that something is wrong when 
one of the deadliest types of cancer receives so little attention. You 
may be surprised to learn that of the $4.8 billion this Subcommittee 
appropriated for the National Cancer Institute, less than two percent--
or about $74 million--was spent on pancreatic cancer research. In fact, 
pancreatic cancer research receives the least amount of NCI funding of 
any of the top cancer killers. Please see the attached chart of NCI 
funding for the top five cancer killers and the survival rates for the 
same cancers. There is no question that funding levels and survival 
rates are linked.
    Of the more than 5,000 research grants awarded by the National 
Cancer Institute in 2006, only 134 grants, approximately 3 percent, 
were focused primarily on pancreatic cancer research.
    And of the 160 cancer research centers NCI supports, only three 
specialize in pancreatic cancer research.
    We have heard repeatedly from the brightest scientific minds in the 
country that pancreatic cancer research is an area that holds great 
promise--the ideas are there, we just need the funds to pursue them.
    I believe that Congress and NIH have a leadership role to play--as 
you did in the 1970s, when the war on cancer was declared; in the 
1980s, when this subcommittee provided the first appropriation to 
combat HIV/AIDS; at the start of this decade, with the launch of a 
bioterrorism research initiative and as you have done many times over 
the years for other cancers.
    Ironically, the National Cancer Institute developed a pancreatic 
cancer research plan back in 2001. The problem is it was never fully 
implemented. In fact, only 5 of the plan's 39 recommendations were 
acted upon.
    Last year, the Pancreatic Cancer Action Network gathered together 
the leading experts on this disease, many of whom crafted that original 
plan, and asked them to update it. What they came up with is a detailed 
plan called The National Plan to Advance Pancreatic Cancer Research, 
that:
  --calls for a coordinated research initiative to support very 
        specific research objectives, including finding more precise 
        diagnostic methods and more innovative clinical trials testing;
  --supports more pancreatic cancer research centers to serve as a 
        staging area for highly targeted research on pancreatic cancer;
  --takes the steps necessary to draw more scientists into this 
        particular field of research; and
  --promotes greater awareness among physicians and the general public.
    The initial cost of implementing this plan would be $170 million. 
While I recognize that that seems like a large number, please remember 
what I said about pancreatic cancer research being stuck in the 1930s. 
We need to bring it into the 21st Century.
    The Pancreatic Cancer Action Network has supplied the subcommittee 
with a copy of this plan. Many of you may have learned about it from 
one of the 220 advocates who were here last month for Pancreatic Cancer 
Action Network's Advocacy Day. I urge you to support the implementation 
and funding of the National Plan.
    I should also point out that we strongly support increasing the 
overall budget for the NCI. Therefore, we are also joining our partners 
in the One Voice Against Cancer (OVAC) Coalition in calling for a 9.5 
percent increase over fiscal year 2008 levels.
    My mother always liked to refer to me as her son, the doctor, but 
not the type of doctor who helps people. I hope that by being here 
today, I will help people by shining a spotlight on this disease and 
urging you to provide necessary research funding for this disease.
    I will be glad to answer any questions you have, and thank you for 
the opportunity to present this testimony.
                                 ______
                                 
Prepared Statement of the Population Association of America/Association 
                         of Population Centers
                              introduction
    Thank you, Mr. Chairman Harkin, Mr. ranking member Specter, and 
other distinguished members of the subcommittee, for this opportunity 
to express support for the National Institutes of Health (NIH), the 
National Center for Health Statistics (NCHS), and Bureau of Labor 
Statistics (BLS).
           background on the paa/apc and demographic research
    The Population Association of America (PAA) is a scientific 
organization comprised of over 3,000 population research professionals, 
including demographers, sociologists, statisticians, and economists. 
The Association of Population Centers (APC) is a similar organization 
comprised of over 30 universities and research groups that foster 
collaborative demographic research and data sharing, translate basic 
population research for policy makers, and provide educational and 
training opportunities in population studies. Over 30 population 
research centers are located nationwide, including the University of 
Wisconsin-Madison, State University New York Albany, Brown University, 
Ohio State University, University of California at Los Angeles, 
University of North Carolina-Chapel Hill, and Pennsylvania State 
University.
    Demography is the study of populations and how or why they change. 
Demographers, as well as other population researchers, collect and 
analyze data on trends in births, deaths, and disabilities as well as 
racial, ethnic, and socioeconomic changes in populations. Major policy 
issues population researchers are studying include the demographic 
causes and consequences of population aging, trends in fertility, 
marriage, and divorce and their effects on the health and well being of 
children, and immigration and migration and how changes in these 
patterns affect the ethnic and cultural diversity of our population and 
the Nation's health and environment.
    The NIH mission is to support research that will improve the health 
of our population. The health of our population is fundamentally 
intertwined with the demography of our population. Recognizing the 
connection between health and demography, the NIH supports extramural 
population research programs primarily through the National Institute 
on Aging (NIA) and the Eunice Kennedy Shriver National Institute of 
Child Health and Human Development (NICHD).
                      national institute on aging
    According to the Census Bureau, by 2029, all of the baby boomers 
(those born between 1946 and 1964) will be age 65 years and over. As a 
result, the population age 65-74 years will increase from 6 percent to 
10 percent of the total population between 2005 and 2030. This 
substantial growth in the older population is driving policymakers to 
consider dramatic changes in Federal entitlement programs, such as 
Medicare and Social Security, and other budgetary changes that could 
affect programs serving the elderly. To inform this debate, 
policymakers need objective, reliable data about the antecedents and 
impact of changing social, demographic, economic, and health 
characteristics of the older population. The NIA Behavioral and Social 
Research (BSR) program is the primary source of Federal support for 
research on these topics.
    In addition to supporting an impressive research portfolio, that 
includes the prestigious Centers of Demography of Aging Program, the 
NIA BSR program also supports several large, accessible data surveys. 
One of these surveys, the Health and Retirement Study (HRS), has become 
one of the seminal sources of information to assess the health and 
socioeconomic status of older people in the United States. The HRS, now 
entering its 16th year, has tracked 27,000 people, and has provided 
data on a number of issues, including the role families play in the 
provision of resources to needy elderly and the economic and health 
consequences of a spouse's death. The Social Security Administration 
recognizes and funds the HRS as one of its ``Research Partners'' and 
posts the study on its home page to improve its availability to the 
public and policymakers. HRS is particularly valuable because its 
longitudinal design allows researchers: (1) the ability to immediately 
study the impact of important policy changes such as Medicare Part D; 
and (2) the opportunity to gain insight into future health-related 
policy issues that may be on the horizon, such as recent HRS data 
indicating an increase in pre-retirees self-reported rates of 
disability. Next year, the HRS will begin collecting DNA, enhancing the 
value of this survey as an important source of biosocial data.
    With additional support in fiscal year 2008, the NIA BSR program 
could fully fund its existing centers and support its ongoing surveys 
without enacting draconian cost cutting measures, such as cutting 
sample size. Additional support would allow NIA to expand the centers' 
role in understanding the domestic macroeconomic as well as the global 
competitiveness impact of population aging. NIA could also use 
additional resources to support individual investigator awards by 
precluding an 18 percent cut in competing awards, improving its funding 
payline, and sustaining training and research opportunities for new 
investigators.
        national institute on child health and human development
    Since its establishment in 1968, the NICHD Center for Population 
Research has supported research on population processes and change. 
Today, this research is housed in the Center's Demographic and 
Behavioral Sciences Branch (DBSB). The Branch encompasses research in 
four broad areas: family and fertility, mortality and health, migration 
and population distribution, and population composition. In addition to 
funding research projects in these areas, DBSB also supports a highly 
regarded population research infrastructure program and a number of 
large database studies, including the Fragile Families and Child Well 
Being Study and National Longitudinal Study of Adolescent Health.
    NIH-funded demographic research has consistently provided critical 
scientific knowledge on issues of greatest consequence for American 
families: work-family conflicts; marriage and childbearing; childcare; 
and family and household behavior. However, in the realm of public 
health, demographic research is having an even larger impact, 
particularly on issues regarding adolescent and minority health. 
Understanding the role of marriage and stable families in the health 
and development of children is another major focus of the NICHD DBSB. 
Consistently, research has shown children raised in stable family 
environments have positive health and development outcomes. 
Policymakers and community programs can use these findings to support 
unstable families and improve the health and well being of children.
    In 2007, the DBSB issued a revised five-year strategic plan, Future 
Directions for the DBSB. With the help of its expert panel and with 
input from others inside and outside of the agency, the Branch 
identified three important research areas--family formation; causes and 
consequences for population health; and the effects of migration--for 
focus during the 2007 through 2011 period. In addition to these areas 
of emphasis, the Branch will continue to develop and support other 
areas within its portfolio, including research on HIV/AIDS; unintended 
pregnancy and infertility; race and ethnicity; and population and 
environment. Although the field is enthusiastic about the opportunities 
the revised strategic research plan presents, we recognize the 
Institute needs consistent, sufficient funding to realize its 
potential.
    With additional support in fiscal year 2008, NICHD could restore 
full funding to its large-scale surveys, which serve as a resource for 
researchers nationwide. Furthermore, the Institute could apply 
additional resources toward improving its funding payline. Additional 
support could be used to preclude cuts of 17 percent to 22 percent in 
applications approved for funding and to support and stabilize 
essential training and career development programs necessary to prepare 
the next generation of researchers.
                 national center for health statistics
    Located within the Centers for Disease Control (CDC), the National 
Center for Health Statistics (NCHS) is the Nation's principal health 
statistics agency, providing data on the health of the U.S. population 
and backing essential data collection activities. Most notably, NCHS 
funds and manages the National Vital Statistics System, which contracts 
with the States to collect birth and death certificate information. 
NCHS also funds a number of complex large surveys to help policy 
makers, public health officials, and researchers understand the 
population's health, influences on health, and health outcomes. These 
surveys include the National Health and Nutrition Examination Survey, 
National Health Interview Survey, and National Survey of Family Growth. 
Together, NCHS programs provide credible data necessary to answer basic 
questions about the State of our Nation's health.
    The President's fiscal year 2009 budget requests $125 million in 
program funds for NCHS. This recommendation represents an increase of 
$11 million over fiscal year 2008. Although it may sound generous, this 
increase is absolutely essential for stabilizing the agency and its key 
operations. Before Congress increased the agency's budget last year by 
approximately $4 million, NCHS had lost $13 million in purchasing power 
since fiscal year 2005 due to years of flat funding and inflation. 
These shortfalls forced the elimination of some data collection and 
quality control efforts, threatened the collection of vital statistics, 
stymied the adoption of electronic systems, and limited the agency's 
ability to modernize surveys to reflect changes in demography, 
geography, and changes in health delivery.
    If Congress fails to, at a minimum, provide the Administration's 
fiscal year 2009 request, NCHS will be forced to eliminate over-
sampling of minority populations in its National Health and Nutrition 
Examination Survey, which will compromise our understanding of health 
disparities at a time when our society is becoming increasingly 
diverse. The agency also needs this funding increase to collect vital 
statistics from States for the remainder of the calendar year. Without 
an additional $3 million, which is included in the President's request, 
the United States is at risk of becoming the first industrialized 
Nation unable to continuously collect birth, death, and other vital 
health information.
                       bureau of labor statistics
    The Bureau of Labor Statistics (BLS) produces and disseminates 
valuable economic data used by our members to analyze trends in areas 
such as unemployment, income, health insurance coverage, and spending. 
In its fiscal year 2009 submission, the Administration proposed the 
elimination of an important survey BLS began in 2003, the American Time 
Use Survey (ATUS).
    The ATUS provides the only available information on how Americans 
use their time. ATUS provides essential information on time use 
activities, including time spent caring for children, cleaning the 
house, working for pay, and caring for sick adults. Understanding how 
the population spends its time, outside of traditional work, is 
necessary for anyone who wants to understand the changing lives of 
American families, to monitor the well-being of the American 
population, to measure national output, productivity and other outcomes 
that are essential to forming sound economic policies and to making 
informed social policy decisions.
    Although the ATUS is a relatively new survey, it has already proven 
to be an invaluable component of the statistical infrastructure, giving 
us unique insights into American society. Moreover, the power of the 
ATUS has grown as more years of data have accumulated. Every other 
advanced nation in the world collects time use data. If the ATUS is 
eliminated, American businesses, families, policymakers and researchers 
will lose out on critical information that can improve the quality of 
our lives.
    The BLS needs an additional $6 million in fiscal year 2009 budget 
to collect ATUS data from the full sample originally planned for the 
survey and to preserve its other ongoing survey operations with a full 
sample--most notably, the Current Population Survey.
              summary of fiscal year 2009 recommendations
    NIH is facing the prospect of another decrease in fiscal year 2009 
and another year of funding below the level of inflation. PAA and APC 
join the Ad Hoc Group for Medical Research in supporting an fiscal year 
2009 appropriation of $31.1 billion, an increase of 6.6 percent over 
the fiscal year 2008 appropriation, for the NIH. For population 
research, this increased support is necessary to ensure the best 
research projects, including new and innovative projects, are being 
awarded, surveys and databases are supported, and training programs are 
stabilized. In addition, we urge the Subcommittee to include language 
in the fiscal year 2009 bill allowing NIH to continue the National 
Children's Study (NCS) and to appropriate $192 million for NCS in 
fiscal year 2009 through the NIH Office of the Director.
    PAA and APC, as members of the Friends of NCHS, support a fiscal 
year 2009 appropriation of $125 million, an $11 million increase over 
the fiscal year 2008 appropriation, for the NCHS. This funding is 
needed to maintain the Nation's vital statistics system and to sustain 
and update the agency's major health survey operations.
    We also respectively ask the subcommittee to restore funding for 
the American Time Use Survey by allocating an additional $6 million for 
the Bureau of Labor Statistics and by reversing the administration's 
proposal to end this essential data collection effort.
    Thank you for considering our requests and for supporting Federal 
programs that benefit the field of demographic research.
                                 ______
                                 
          Prepared Statement of the Railroad Retirement Board
    Mr. Chairman and members of the committee: We are pleased to 
present the following information to support the Railroad Retirement 
Board's (RRB) fiscal year 2009 budget request.
    The RRB administers comprehensive retirement/survivor and 
unemployment/sickness insurance benefit programs for railroad workers 
and their families under the Railroad Retirement and Railroad 
Unemployment Insurance Acts. The RRB also has administrative 
responsibilities under the Social Security Act for certain benefit 
payments and Medicare coverage for railroad workers. During fiscal year 
2007, the RRB paid $9.8 billion in retirement/survivor benefits and 
vested dual benefits to about 616,000 beneficiaries. We also paid $74.6 
million in net unemployment/sickness insurance benefits to about 29,000 
claimants.
         president's proposed funding for agency administration
    The President's proposed budget would provide $105,463,000 for 
agency operations in fiscal year 2009, which is about $4 million less 
than we originally requested. By comparison, the Consolidated 
Appropriations Act, 2008 (Public Law 110-161) provided about $101.9 
million for RRB operations in 2008, which includes a rescission of $1.8 
million.
    At the President's proposed level of funding, the RRB would be able 
to maintain a staffing level of 910 full-time equivalent staff years 
(FTEs) in 2009. This represents a reduction of eight FTEs from our 
current funded level, and continues a downward trend which has reduced 
the RRB's staffing by nearly half since 1993. This downward trend 
adversely impacts our succession planning efforts as it restricts our 
ability to replace employees who leave the agency.
    The President's proposed budget would provide $2,370,000 for 
information technology (IT) investments. Nearly $1.5 million of this 
amount will be needed for network operations, emergency equipment 
replacement, IT tools and task order services. The remaining funds, 
totaling about $870,000, would be available for information security 
improvements, system modernization, and E-Government initiatives. At 
this budget level we would delay replacement of desktop computing 
equipment in accordance with the agency's life cycle replacement 
schedules for the second year in a row. In addition, we would delay 
development of electronic personnel files, which is part of the 
Enterprise Human Resources Initiative.
                            agency staffing
    Like many agencies, the RRB has an aging workforce. Current 
estimates show that about one in three RRB employees will be eligible 
for retirement by fiscal year 2009. To prepare for the coming 
transition in our workforce, we have undertaken major initiatives 
related to training and succession planning.
    In connection with these initiatives, the agency is looking at a 
variety of critical positions to identify any gaps in particular 
competencies or skills that exist within the workforce. In some cases, 
we have provided supplemental developmental and training opportunities 
to current employees so that the activities associated with these 
positions will continue effectively as more experienced employees leave 
the agency. We have also continued hiring to fill essential positions 
as funding levels permit. In fiscal year 2007, for the first time in 
many years, the RRB was able to hire entry-level employees for two 
claims examiner training classes. Given the expected increase in the 
agency's attrition rate, new employees such as these will be key to the 
RRB's long-term success in continuing to provide outstanding service to 
our customers.
    Partially in response to recommendations and suggestions made by 
the Office of Personnel Management, the RRB is also in the process of 
developing more formalized human capital management and succession 
planning documents. We have created an internal succession planning 
task force, chaired by the Director of Human Resources, to provide 
coordination and consolidation of existing plans, as well as identify 
new initiatives to address this important area.
                      field service modernization
    During fiscal year 2007, we restructured the RRB's field service 
operations along the lines of a hub-and-satellite configuration, which 
will enable the agency to maintain customer service by utilizing new 
technologies more effectively. The hub-and-satellite configuration will 
support telephone and face-to-face service for our customers, and will 
allow agency management to more effectively balance and share workloads 
among the offices in each network. By the end of fiscal year 2008, we 
will close the RRB's three regional offices and consolidate them into 
corresponding hub offices.
    The field restructuring plan also calls for the possibility of 
using ``virtual offices'' and/or ``co-located offices.'' In 2007, the 
agency began pilot-testing an arrangement to provide customer service 
through an off-site claims representative. The pilot, which is 
continuing, is designed to serve as a test environment to determine the 
kinds of procedures and technologies that would be needed to establish 
virtual offices in the future.
    Work is continuing to build, test and implement technology 
infrastructure improvements for the field service. The completion of 
this infrastructure is contingent upon sufficient funding being made 
available. Ongoing initiatives include, among other things:
  --Toll-Free Telephone Service.--Nationwide toll-free service is a key 
        component of our field technology plans. In fiscal year 2007, 
        we contracted with Qwest Government Services, Inc. (under the 
        General Services Administration's Networx Universal) for 
        development of the RRB's toll-free service. We plan to begin 
        offering the service in 12 pilot offices between April and June 
        2008, as part of the initial proof-of-concept phase, and to 
        complete overall implementation by December 31, 2008.
  --Expansion of Interactive Voice Response (IVR) Service.--After the 
        implementation of toll-free telephone service, we also plan to 
        expand the range of services that can be accessed through the 
        IVR system. The IVR system will continue to be accessible to 
        callers through the 800 number, but will also be substantially 
        modified in the future to allow for more interactive 
        transactions and better security. Initially, it will continue 
        to provide all current services, plus an option for the caller 
        to be able to speak to a field service representative at any 
        time during the call.
  --Additional Internet Self-Service Options.--By fiscal year 2009, we 
        expect to implement a system that will enable railroad 
        employees to file sickness insurance claims through the 
        Internet. We also plan to provide expanded Internet reporting 
        functions for rail employers.
  --Document Imaging.--In fiscal year 2007, we conducted a pilot 
        program involving the expansion of our existing document 
        imaging system to four pilot field offices. During fiscal year 
        2008, we are expanding the use of document imaging to 25 
        additional offices. The remaining offices are scheduled for 
        implementation during fiscal year 2009.
    In March 2007, we also implemented an on-line system to allow our 
employees to track and record direct customer contacts. This system 
enhances our ability to handle telephone calls in a more effective 
manner, regardless of which field office answers the call. We are 
confident that the strategic use of technology in our 
telecommunications and other processes is the foundation needed for the 
most effective and efficient use of agency resources, allowing us to 
continue to provide the excellent service that our customers have come 
to expect.
    The President's proposed budget includes $72 million to fund the 
continuing phase-out of vested dual benefits, plus a 2 percent 
contingency reserve, $1,440,000, which ``shall be available 
proportional to the amount by which the product of recipients and the 
average benefit received exceeds the amount available for payment of 
vested dual benefits.''
    In addition to the requests noted above, the President's proposed 
budget includes $150,000 for interest related to uncashed railroad 
retirement checks.
                  financial status of the trust funds
    Railroad Retirement Accounts.--The RRB continues to coordinate its 
activities with the National Railroad Retirement Investment Trust 
(NRRIT), which was established by the Railroad Retirement and 
Survivors' Improvement Act of 2001 to manage and invest railroad 
retirement assets. Through fiscal year 2007, the RRB transferred about 
$21.3 billion to the NRRIT for this purpose. During the same period, 
the NRRIT transferred approximately $5.0 billion to the Railroad 
Retirement Account for payment of retirement and survivor benefits. 
During fiscal year 2007, these transfers totaled $1.391 billion. As of 
September 30, 2007, the market value of NRRIT-managed railroad 
retirement assets was approximately $32.7 billion.
    In June 2007, we released the annual report on the railroad 
retirement system required by Section 22 of the Railroad Retirement Act 
of 1974, and Section 502 of the Railroad Retirement Solvency Act of 
1983. The report, which reflects changes in benefit and financing 
provisions under the Railroad Retirement and Survivors' Improvement Act 
of 2001, addresses the 25-year period 2007-2031 and contains generally 
favorable information concerning railroad retirement financing. The 
report includes projections of the status of the retirement trust funds 
under three employment assumptions. These indicate that, barring a 
sudden, unanticipated, large decrease in railroad employment or 
substantial investment losses, the railroad retirement system will 
experience no cash flow problems throughout the projection period.
    Railroad Unemployment Insurance Account.--The equity balance of the 
Railroad Unemployment Insurance Account at the end of fiscal year 2007 
was $100.7 million, an increase of $3.4 million from the previous year. 
The RRB's latest annual report on the financial status of the railroad 
unemployment insurance system was issued in June 2007. The report 
indicated that even as maximum daily benefit rates rise 49 percent 
(from $57 to $85) from 2006 to 2017, experience-based contribution 
rates maintain solvency. The average employer contribution rate remains 
well below the maximum throughout the projection period, but a 1.5 
percent surcharge, which is now in effect, is expected for calendar 
year 2009, and is likely for calendar year 2010. The report did not 
recommend any financing changes.
    In conclusion, we want to stress the RRB's continuing commitment to 
improving our operations and providing quality service to our 
beneficiaries. Thank you for your consideration of our budget request. 
We will be happy to provide further information in response to any 
questions you may have.
                                 ______
                                 
          Prepared Statement of the Railroad Retirement Board
    Mr. Chairman and members of the subcommittee: My name is Martin J. 
Dickman and I am the Inspector General for the Railroad Retirement 
Board. I would like to thank you, Mr. Chairman, and the members of the 
committee for your continued support of the Office of Inspector 
General.
               budget request and background information
    I wish to describe our fiscal year 2009 appropriations request and 
our planned activities. The Office of Inspector General (OIG) 
respectfully requests funding in the amount of $7,806,000 to ensure the 
continuation of its independent oversight of the Railroad Retirement 
Board (RRB).
    The agency's central mission is to pay accurate and timely 
benefits. During fiscal year 2007, the RRB paid approximately $9.7 
billion in retirement and survivor benefits to 600,000 beneficiaries. 
RRB also paid $73 million in net unemployment and sickness insurance 
benefits to almost 28,000 claimants during the benefit year ending July 
30, 2007. The Railroad Medicare Part B carrier, Palmetto GBA, paid 
approximately $897 million in medical insurance benefits for more than 
496,000 beneficiaries.
    During fiscal year 2009, the OIG will perform reviews of 
significant policy issues and program operational areas. We will 
coordinate our efforts with agency management to identify and eliminate 
operational weaknesses. We will also continue our investigation of 
allegations of fraud, waste and abuse, and refer cases for prosecution 
and monetary recovery action.
             national railroad retirement investment trust
    The OIG respectfully requests oversight authority to conduct audits 
and investigations of the National Railroad Retirement Investment Trust 
(NRRIT). The sole purpose of the NRRIT is to manage and invest railroad 
retirement assets in a diversified investment portfolio in the same 
manner as those of private sector retirement plans. The NRRIT is 
responsible for the investment of approximately $32.7 billion in trust 
funds used to support Railroad Retirement Act benefit programs. We 
continue to express concerns about the RRB's passive relationship with 
the NRRIT. Federal oversight of the NRRIT does not include performance 
audits by an independent auditor such as the OIG, Government Accounting 
Office or a public accountant. The NRRIT plays a critical role in the 
financing and future solvency of the RRB program. If oversight 
authority is granted, my office would work to ensure sufficient 
reporting mechanisms are in place and that the NRRIT management is 
fulfilling their fiduciary responsibilities. The program and its public 
constituency would benefit from an OIG that is permitted to fulfill its 
statutory role by extending its oversight responsibilities to the 
NRRIT.
                 mandated reimbursements to the agency
    The OIG is currently required to reimburse the agency for office 
space, equipment, communications, office supplies, maintenance and 
other administrative services. We are the only Federal OIG that cannot 
negotiate a service level agreement with its parent agency. The current 
mandate has resulted in a burdensome accounting and reconciliation 
process. Removal of the current language would permit a more efficient 
and fair negotiation between the RRB and the OIG.
                            office of audit
    The Office of Audit (OA) conducts financial, performance and 
compliance audits to ensure the economy, efficiency and effectiveness 
of RRB programs. The OA efforts are directed primarily to fulfilling 
the financial audit and information security evaluation requirements 
mandated by law. As resources permit, audit staff will undertake to 
perform other audits, evaluations and monitoring activities that will 
add value to agency operations.
    The OA conducts the annual audit of the RRB's financial statements. 
During fiscal year 2009, the OA will complete the audit of the agency's 
fiscal year 2008 financial statements and begin the audit of the fiscal 
year 2009 statements. The annual financial statement audit is conducted 
using OA staff with technical assistance from actuarial specialists 
under contract to the OIG. Audit staff will continue to work with 
agency management to ensure that the necessary detailed, verifiable 
financial information is available from the NRRIT. This effort includes 
periodic stand-alone audits that support the office's overall financial 
audit responsibility.
    Audit staff will also conduct the annual evaluation of the RRB's 
information security pursuant to the requirements of the Federal 
Information Security Management Act of 2002. This annual effort 
includes stand-alone audits of controls in various agency systems 
conducted during the year as well as the additional evaluation work 
required to respond to certain areas about which the Office of 
Management and Budget requires more specific information. The related 
area of privacy of sensitive and confidential information will remain a 
concern.
    OA will continue to monitor agency actions in response to audit 
recommendations. As resources permit, the OA will work to identify 
potentially at-risk areas of agency responsibility, perform risk 
assessments and plan audits to disclose deficiencies in internal 
control, compliance with applicable laws and regulations, and fraud 
vulnerabilities in the benefit programs administered by the RRB.
    The OA does not anticipate performance audits of the NRRIT because, 
as we have previously stated, it is our understanding that the OIG does 
not have a role in oversight of the NRRIT.
                        office of investigations
    The Office of Investigations (OI) focuses its efforts on 
identifying, investigating and presenting cases for prosecution, 
throughout the United States, concerning fraud in RRB benefit programs. 
OI conducts investigations relating to the fraudulent receipt of RRB 
sickness, unemployment, disability or retirement benefits. OI also 
investigates railroad employers and unions when there is an indication 
that they have submitted false reports to the RRB. RRB Medicare 
oversight authority was reinstated to the OIG on December 26, 2007. 
This authority allows the OIG to investigate allegations of fraud, 
waste and abuse in the RRB Medicare program. Investigative efforts can 
result in criminal convictions, administrative sanctions, civil 
penalties and the recovery of program benefit funds.
    OI initiates cases based on information from a variety of sources. 
The agency conducts computer matching of employment and earnings 
information reported to State governments and RRB benefits paid. 
Referrals are made to OI if a match is found. OI also receives 
allegations of fraud through the OIG Hotline, contacts with State, 
local, and Federal agencies, and information developed through audits 
conducted by the OIG's Office of Audit.

                                 OI'S INVESTIGATIVE RESULTS FOR FISCAL YEAR 2007
----------------------------------------------------------------------------------------------------------------
       Civil Judgments         Indictments/ Informations          Convictions           Recoveries/Collections
----------------------------------------------------------------------------------------------------------------
25..........................                          32                          46                  $4,655,049
----------------------------------------------------------------------------------------------------------------

    OI anticipates an ongoing caseload of approximately 450 
investigations in fiscal year 2009. During fiscal year 2007, OI opened 
297 new cases and closed 295. At present, OI has cases open in 47 
States, the District of Columbia and Canada with estimated fraud losses 
totaling almost $11 million.
    OI will continue to concentrate its resources on cases with the 
highest fraud losses.
    We anticipate that these cases will relate to the RRB's disability, 
retirement and Medicare programs. These cases involve more complicated 
schemes and result in the recovery of substantial funds. They also 
require considerable time and resources such as travel by special 
agents to conduct sophisticated investigative techniques such as 
surveillance and witness interviews. These fraud investigations are 
extremely document-intensive and involve sophisticated financial 
analysis.
    OI will also continue to investigate fraud violations of railroad 
employees collecting unemployment or sickness insurance benefits while 
working and receiving wages from an employer. OI will also investigate 
retirement fraud which typically involves the theft and fraudulent 
cashing of U.S. Treasury checks or the withdrawal of electronically 
deposited RRB benefits. OI will also use the Department of Justice's 
Affirmative Civil Enforcement Program to recover trust fund monies from 
cases that do not meet U.S. Attorney's guidelines for criminal 
prosecution.
    OI will also investigate complaints involving administrative 
irregularities and any alleged misconduct by agency employees.
    In fiscal year 2009, OI will continue to coordinate its efforts 
with agency program managers to address vulnerabilities in benefit 
programs that allow fraudulent activity to occur and will recommend 
changes to ensure program integrity. OI plans to continue proactive 
projects to identify fraud matters that are not detected through the 
agency's program policing mechanisms. Findings will be conveyed to 
agency management through OIG systemic implication reports to alert 
officials of operational weaknesses that may result in fraud against 
RRB programs. OI will also continue to work with RRB program managers 
to ensure the appropriate and timely referral of all fraud matters to 
the OIG.
                                summary
    In fiscal year 2009, the OIG will continue to focus resources on 
reviewing RRB program operations and ensuring the integrity of agency 
trust funds by aggressively pursuing individuals who engage in 
activities to fraudulently receive RRB funds. OIG will continue to keep 
the Subcommittee and other members of Congress informed of any agency 
operational problems or deficiencies. OIG sincerely appreciates its 
cooperative relationship with the agency and the ongoing assistance 
extended to its staff during the performance of their audits and 
investigations. Thank you for your consideration.
                                 ______
                                 
Prepared Statement of Reaching for the Stars. A Foundation of Hope for 
                      Children With Cerebral Palsy
    Mr. Chairman and Members of the Committee: Thank you for allowing 
us to speak to you today on behalf of the more than 800,000 Americans 
with Cerebral Palsy, and their families. We are Cynthia Gray and Anna 
Marie Champion, mothers of children with cerebral palsy and Co-Founders 
of ``Reaching for the Stars. A Foundation of Hope for Children With 
Cerebral Palsy,'' the only national nonprofit pediatric cerebral palsy 
foundation in the United States. And I am Dr. Janice Brunstrom, Medical 
Advisor to ``Reaching for the Stars'' and pediatric neurologist. 
Together with the thousands of parents across the country affiliated 
with Reaching for the Stars we ask you to help us change the course of 
the future for children, adolescents and adults with Cerebral Palsy 
from one of uncertainty to one of hope.
    With your help of $10 million to the CDC they will be able to 
establish a national CP surveillance and epidemiological research 
program that will provide crucial insights into this group of 
disorders, yield improved treatments, help prevent secondary 
complications and bolster additional research efforts so that we may 
someday prevent and even cure Cerebral Palsy.
                          dr. janice brunstrom
    My expertise in Cerebral Palsy is both professional and personal. I 
am a pediatric neurologist, an Assistant Professor of Neurology, 
Pediatrics and Cell Biology and Director of the Pediatric Neurology 
Cerebral Palsy Center at Washington University School of Medicine and 
St. Louis Children's Hospital. Our CP Center enrolled its first patient 
on June 1, 1998 and now helps an estimated 2,000 children from across 
the United States and around the world to become more independent and 
productive members of society and to participate fully in all aspects 
of life. I am an NIH funded neuroscientist investigating mechanisms of 
prenatal brain development. I am a clinical research scientist 
developing and testing new treatment strategies for children with 
Cerebral Palsy. I am a mother and I am a woman with Cerebral Palsy. My 
Cerebral Palsy is due to complications associated with prematurity and 
low birth weight. I was born 3 months prematurely (29 weeks gestation) 
weighing about 3 pounds. Fourty-five years ago my parents were told I 
would not survive. The experts also predicted I would never walk or 
talk and that I would have mental retardation. Thankfully the experts 
were wrong.
    Unfortunately in the over four decades since my birth, treatments 
for Cerebral Palsy have not progressed much at all. In fact, today, 
there remains little consensus among medical professionals regarding 
what causes CP or how best to treat it. There is no cure. Why does one 
premature baby develop CP and another doesn't? Why do I see many cases 
of twins (including genetically identical twins) where one has CP and 
one doesn't? Or each twin has a different type of CP, despite being 
exposed to the exact same conditions in utero? Why do more than 800,000 
Americans have CP, and yet we don't know much more about what causes it 
or how to prevent it than we did the day I was born?
                  anna marie champion and cynthia gray
    Like Dr. Brunstrom, our young daughters, Cathryn and Morgan were 
born prematurely and have Cerebral Palsy, but we aren't sure why 
Cathryn has CP or why Morgan has CP but her twin, Katelyn does not. 
After an exhausting roller-coaster of searching for answers and help 
for our children and finding there was little research to go on, we 
launched RFTS, Inc. in late 2004 to fill an important void that existed 
nationally for a parent-led voice of children with cerebral palsy 
focusing on advocacy, research and education. We now represent over 
10,000 parents nationally across the United States.
    There are several facts about CP that are worth noting.
    Cerebral Palsy is one of the most common developmental disabilities 
in the United States, affecting at least 800,000 children, adolescents 
and adults in America. Cerebral Palsy is not a disease. It is not even 
a simple or single disorder but rather a broad range of disorders that 
disrupt a person's ability to move, sit, stand, walk, talk and use 
their hands. The severity of the movement disorder and the type of 
movement difficulties can vary greatly. Some patients have only mild 
difficulties with balance, walking and fine motor skills while patients 
at the other extreme are completely trapped in their own bodies, 
fighting rigid limbs, and unable to speak or swallow.
    Cerebral Palsy is increasing in this country. Despite the 
introductions of modern prenatal testing, improved obstetric care, and 
newborn intensive care technologies, the prevalence of Cerebral Palsy 
is not declining, and appears to be increasing in many parts of the 
country.
    Although the national prevalence of Cerebral Palsy is not known, 
recent estimates from CDC studies indicate that its prevalence is now 
as high as 3.6 per 1,000 live births (and even higher in certain 
segments of the population) equating to approximately 1 in 277 8 year-
old U.S. children--a marked increase over previous prevalence data. In 
contrast, the prevalence of CP is significantly lower, and is 
declining, in other countries such as Sweden (1.9 per 1,000) according 
to the CDC.
    And 75 percent of individuals with Cerebral Palsy also have one or 
more additional developmental disabilities including epilepsy, mental 
retardation, autism and visual impairments or blindness.
    In over 80 percent of Cerebral Palsy cases is still unknown. 
Cerebral Palsy results from an injury to the brain during development 
and this injury can occur during pregnancy, around the time of birth or 
anytime within the first 2 years of life. Contrary to popular belief, 
only a small percentage of Cerebral Palsy is caused by birth 
``asphyxia'' or a lack of oxygen at the time of birth.
    There is currently no cure for Cerebral Palsy and in most cases, it 
is not preventable. In over 50 years, treatments for Cerebral Palsy 
have not progressed much at all. In fact, today, there remains little 
consensus among medical professionals regarding what causes CP or how 
best to treat it. With nearly 800,000 or more Americans with CP, we do 
not know much more about the root causes or how to prevent them than we 
did a half century ago.
    As parents with young children we can tell you that living with 
Cerebral Palsy is expensive. The economic impact of Cerebral Palsy is 
enormous: Most children and adults with Cerebral Palsy need long-term 
services or medical care. The average lifetime cost for just one person 
with Cerebral Palsy is estimated to be well over $1,500,000 above and 
beyond the cost of living for an average U.S. citizen--including doctor 
visits, therapy, surgeries, prescriptions, hospital stays, durable 
medical equipment, prescription drugs, orthotic equipment, education/
home/car modifications, and so on. A family's personal resources and 
private insurance shoulder a portion of the burden when possible, 
however federal and state governments in the form of Medicaid and other 
social services currently absorb much of this cost.
    It is estimated that the lifetime care and medical costs for all 
Americans with CP who were born in 2000 alone will total over $13.5 
billion. Investigating the cause of Cerebral Palsy will significantly 
reduce the cost--to society, the government and to the hundreds of 
thousands of families impacted across the United States--as ways to 
prevent CP are uncovered.
    Cerebral Palsy research is severely under-funded. Mr. Chairman, we 
would be remiss if we did not thank you and the Subcommittee and your 
staff for your leadership in supporting the CDC's efforts regarding 
birth defects and developmental disabilities, which has included local 
surveillance in Atlanta, Alabama and Wisconsin for Cerebral Palsy. We 
also thank the committee for your ongoing support of the NIH, 
especially research to understand brain development and injury.
    We are here to ask for some additional help from this subcommittee. 
There is currently no national surveillance for Cerebral Palsy. 
However, we believe that by using existing infrastructure at the 
Centers for Disease Control and Prevention (CDC) we can address the 
causes and cures for CP.
    Reaching for the Stars supports national CP surveillance and 
epidemiological research in order to better understand how to prevent 
and identify causes of damage to the developing brain. In late 2004, a 
national group of committed parents and family members of children with 
Cerebral Palsy, concerned that virtually no progress has been made to 
treat or cure CP in the last 50 years, organized to form ``Reaching for 
the Stars. A Foundation of Hope for Children with Cerebral Palsy''.
    It has been our goal to increase advocacy about the issue of 
Cerebral Palsy and raise national awareness. In fact, many national 
organizations have written letters stating their support for the need 
for the national CP surveillance and epidemiological research. The 
United Cerebral Palsy Education and Research Foundation, The Child 
Neurology Society and the American Academy of Cerebral Palsy and 
Developmental Medicine all support our efforts.
    That is why today we ask Congress to allocate $10 million in 
Federal funding for the Centers for Disease Control and Prevention to 
conduct epidemiology research and surveillance for Cerebral Palsy 
nationwide. We believe a cure can be found for Cerebral Palsy by 
understanding the risk factors for CP, what causes CP, at-risk ethnic 
groups and why different clusters of prevalence and types of CP in 
different parts of the country exist.
    We want a cure for Cerebral Palsy. The only way this will happen is 
to better understand the risk factors for CP, what causes CP, if 
certain ethnic groups are more susceptible and why there are different 
clusters of prevalence and types of CP in different parts of the 
country and world. The only way to begin to answer these questions is 
through national CDC surveillance.
    Basic national surveillance and epidemiological research by the CDC 
will bolster basic science research efforts through the NIH, and assist 
scientists and the medical community to develop more effective 
strategies for the prevention and treatment of CP--much like the 
remarkable progress that has been made with Autism, Spina Bifida, 
Epilepsy and Cystic Fibrosis.
    Cerebral Palsy is a complex problem leaving many feeling 
overwhelmed and hopeless. There is so much that needs to be done and so 
many children that need help. But it doesn't need to be hopeless.
    Children with CP are learning to dream big dreams for their future 
and some aspire to become doctors, teachers, parents and even 
Congressional leaders. Physicians treating children with CP will tell 
you that the first step in helping them is to change their perception 
about themselves and to teach them to stop listening to ``can't and 
``never'' and to start saying ``I'll try.''
    We believe we can change the future for these children if we all 
work together and do our part. We believe we can cure these disorders 
someday.
    On behalf of the over 800,000 impacted children and families across 
the country, we are asking for your support to ensure the CDC 
establishes a national Cerebral Palsy Surveillance Program to change 
the future for children and adults with Cerebral Palsy.
    Mr. Chairman and members of the subcommittee, we thank you so very 
much for the opportunity to speak to you today and for your time and 
attention to this urgent matter.
                                 ______
                                 
             Prepared Statement of the Refugee Council USA
    Chairman Harkin, ranking member Specter, and the members of the 
subcommittee: On behalf of Refugee Council USA (RCUSA), a coalition of 
23 non-governmental organizations committed to refugee protection, 
assistance, and resettlement, I am pleased to submit this statement 
regarding fiscal year 2009 funding needs for the Department of Health 
and Human Services' Office of Refugee Resettlement (ORR). ORR, in 
funding the domestic assistance program for refugees once they have 
been resettled through the State Department's reception and placement 
program, is indispensable in providing the United States a viable and 
vital resettlement program.
    RCUSA recommends an fiscal year 2009 appropriation of at least $983 
million for ORR in order to resettle a recommended 100,000 refugees and 
help address ORR's ever-expanding mandate. In addition to providing 
services to resettled refugees, ORR will also assist Iraqi special 
immigrants who helped the United States during the conflict in Iraq 
(approximately 11,250 individuals), Cuban/Haitian entrants 
(approximately 20,000 people), and persons granted asylum in the United 
States (approximately 25,000). Accordingly, the total number of 
individuals being served by this amount would be 156,250.
    If appropriated, these funds would also address necessary increases 
in resettlement services and programs for survivors of torture and 
human trafficking. RCUSA's recommendation for ORR would allow $20 
million for human trafficking programs and $20 million for programs 
under the Torture Victims Relief Act. We also understand that ORR's 
responsibility for unaccompanied alien children will require at least 
$150 million in fiscal year 2009.
    Refugee Council USA recommends a total of $983 million for refugee 
resettlement services which have traditionally included the below line 
items.
                        a. resettlement services
    RCUSA recommends an allocation of $793 million for ORR's 
resettlement services for fiscal year 2009. A significant portion of 
this funding is necessitated by Congress' decision to increase the 
admission of special immigrants from Iraq and to provide refugee-like 
services to them.\1\
---------------------------------------------------------------------------
    \1\ In 2007, Congress provided for the admission of up to 5,000 
special immigrants from Iraq who helped the United States during the 
conflict there. RCUSA estimates that the cost of providing resettlement 
services to these special immigrants will be $68 million in fiscal year 
2009. According to the Department of State's Bureau of Population, 
Refugees, and Migration, the average family size for each special 
immigrant is expected to be between 2 and 2.5 persons. Thus, the $68 
million estimate is derived by multiplying the number of Iraqis 
expected to be admitted (11,250 persons) by our estimated $6,070 per-
capita cost (based on ORR's fiscal year 2006 budget figures) for 
resettling each special immigrant. This $68 million has been accounted 
for in all of the budget categories which will serve these special 
immigrants (line items A1-4).
---------------------------------------------------------------------------
    ORR resettlement services include the following four line items:
    1. Transitional and Medical Services (TAMS).--ORR reimburses States 
for transitional cash and medical assistance to refugees for up to 8 
months after their arrival in the United States. To be eligible for 
such assistance, refugees must participate in employment services aimed 
at ensuring self-sufficiency in the shortest amount of time possible. 
RCUSA recommends an allocation of $500 million for ORR's Transitional 
and Medical Services for fiscal year 2009.
    (a) Early Employment and Self Sufficiency: ORR utilizes a program, 
known as the Matching Grant Program, which matches federal dollars with 
private sector contributions of cash, goods, and volunteers. Together, 
these funds help newly arriving refugees become self-sufficient without 
entering the welfare system. This Match Grant program provides short-
term cash assistance, intensive job development, employment services, 
and case management, and was nominated last year by ORR as a flagship 
program and a model for alternatives to welfare aimed at early self 
sufficiency through employment. This program regularly leverages $1 of 
private resources for every $2 of Federal funding for refugee self 
sufficiency, and, unlike other Federal programs, serves trafficking 
victims, asylum seekers, and Cuban/Haitian entrants in addition to 
refugees. In order to serve 75,000 refugees, Iraqi special immigrants, 
entrants and persons granted asylum at a cost of $2200 per refugee, 
RCUSA recommends an allocation of $165 million for the Matching Grant 
program for fiscal year 2009.
    (b) Unaccompanied Refugee Minor (URM) Program: ORR provides funding 
for specialized foster care for unaccompanied refugee minors. This is a 
hallmark of the U.S. resettlement program and an internationally 
recognized model of good practice with unaccompanied refugee children. 
RCUSA recommends allocating $10 million for this program in fiscal year 
2009.
    (c) Refugee Social Services and Special Needs Program (RSSP): 
Refugee Cash and Medical Assistance; Other: RSSP funds are allocated to 
States, which design their own refugee service delivery system 
emphasizing job training and placement, English language acquisition, 
and citizenship services. The Cash and Medical Assistance (CMA) Program 
provides reimbursement to States and alternative refugee assistance 
programs for services provided to refugees, as well as associated 
administrative costs. Refugees determined ineligible for Temporary 
Assistance for Needy Families (TANF) and Medicaid are may be eligible 
for RCA and RMA for up to 8 months from the date of arrival in the 
United States, date of final grant of asylum for asylees, and date of 
certification for trafficking victims. CMA also reimburses states for 
medical screening costs through local public health clinics. RCUSA 
recommends an allocation of $325 million for these assistance programs 
for fiscal year 2009.
    2. Targeted Assistance Grants (TAG).--These grants provide services 
to refugees in counties where, because of factors such as high refugee 
concentrations, additional resources are needed. Targeted Assistance 
funds must be used to assist refugee families in achieving economic 
independence. RCUSA recommends an allocation of $70 million for these 
assistance programs for fiscal year 2009.
    3. Preventative Health.--ORR ensures outreach and access for newly 
arrived refugees to health screenings. The cost of the actual refugee 
health screening is billed either to Medicaid or Refugee Medical 
Assistance (as outlined above), depending on eligibility and time of 
screening. In some areas, interpretation, follow-up, treatment, and 
informational services are provided instead through the preventive 
health funds. RCUSA recommends an allocation of $7 million for 
preventative health programs in fiscal year 2009.
    4. Social Services (discretionary).--This line item funds 
discretionary programs such as services to refugees with special needs; 
the unanticipated arrivals program; the ``preferred communities'' 
program; and capacity development programs for refugee Mutual 
Assistance Associations. RCUSA recommends an allocation of $216 million 
for social services in fiscal year 2009.
              b. services for unaccompanied alien children
    The Homeland Security Act of 2002 (Public Law 107-296) transferred 
from the Immigration and Naturalization Service (INS) to ORR the 
responsibility for coordinating and implementing the care and placement 
of unaccompanied alien children. ORR ensures a safe and appropriate 
environment for these children and helps reunite children with 
guardians or sponsors when appropriate. In fiscal year 2007, ORR 
provided services to approximately 9,000 children, compared to about 
7,000 in the previous year. More funding is needed in order to ensure 
quality custodial care and services even as the number of children 
served has risen; to increase the use of smaller, child-centered 
custodial settings that are more appropriate for children; and to 
ensure sufficient home studies and suitability assessments are 
performed. Of these funds, $5 million are needed to expand ORR's pro 
bono legal services pilot that will sunset this year. RCUSA recommends 
an allocation of $150 million for services for Unaccompanied Alien 
Children in fiscal year 2009.
                           c. torture victims
    ORR is responsible for certain services to victims of torture. 
Currently, ORR is in the 2nd year of a 3 year cycle with 20 grantees 
and 2 technical assistance programs. Funding for torture rehabilitation 
has remained static for several years. The result has been a demand for 
services that far exceeds resources, and several programs have closed 
or drastically scaled back services to survivors. All these programs 
worked in areas with a significant refugee population. In addition, a 
number of sources have indicated that the percentage of torture victims 
within the Iraqi refugee population will be considerably higher than 
that of other recent refugee flows.\2\ For all of these reasons, RCUSA 
recommends an allocation of $20 million for services to victims of 
torture in fiscal year 2009.
---------------------------------------------------------------------------
    \2\ For more information, see UNHCR's recent report on the 
incidence of severe trauma among Iraqi refugees in Syria: http://
www.unhcr.org/news/NEWS/479616762.html.
---------------------------------------------------------------------------
                         d. trafficking victims
    ORR has a mandate to serve victims of trafficking--men, women and 
children whose migration to the United States is the result of forced 
labor or involuntary participation in the sex industry or other 
industry. Because the Trafficking Victims Protection Reauthorization 
Act of 2005 expanded programs to assist U.S. citizen and permanent 
resident trafficking victims, ORR has needed to serve a higher number 
of victims in recent years, while the number identified continues to 
grow. At the same time, current funding levels are not adequate to 
serve the number of victims that request them, and those that are being 
served would benefit greatly from a longer service period. While 
trafficking victims are currently eligible for four months of basic 
services after victim certification, we believe that the length of the 
service period should be 2-3 times longer so that victims can utilize 
necessary services until they are back on their feet after suffering 
the effects of such a horrendous crime. RCUSA recommends an allocation 
of at least $20 million for services to trafficking victims in fiscal 
year 2009.
    The U.S. resettlement program remains one of the most cost 
effective humanitarian efforts carried out by the U.S. Government given 
its ability to garner large scale private support for its goals. A 
program of $983 million--the amount which we are asking Congress to 
consider--leverages millions more in maintaining the position of the 
United States as the world's leading society in extending a 
compassionate and caring hand to refugees who are fortunate enough to 
find their safety in our shores.
    Thank you.
                                 ______
                                 
               Prepared Statement of Rotary International
    Chairman Harkin, Senator Specter, members of the subcommittee, 
Rotary International appreciates this opportunity to submit testimony 
in support of the polio eradication activities of the U.S. Centers for 
Disease Control and Prevention (CDC). The effort to eradicate polio 
stands as an unprecedented model of cooperation among national 
governments, civil society and U.N. agencies which have worked together 
over many years to achieve a global public good. Longstanding 
collaboration has enabled us to overcome tremendous challenges: war, 
natural disasters, and lack of infrastructure among them, so that we 
are currently within reach of shared victory over polio. What have we 
learned? Polio eradication strategies work even in the most challenging 
environments and under the most trying circumstances.
           progress in the global program to eradicate polio
    I would like to take this opportunity to thank you, Chairman 
Harkin, Senator Specter, and members of the subcommittee for your 
tremendous commitment to this effort. Thanks to your leadership in 
appropriating funds, progress toward a polio-free world continues.
  --Only 4 countries are still polio-endemic--the lowest number in 
        history: Nigeria, India, Pakistan and Afghanistan. And in these 
        countries, polio circulates in very limited geographic areas.
  --The number of polio cases has fallen from an estimated 350,000 in 
        1988 to slightly more than 1300 in 2007--a more than 99 percent 
        decline in reported cases.
  --Cases due to type 1 polio, the most virulent and paralytic of the 
        two remaining types of polio, fell by 84 percent in 2007. The 
        absence of type 1 polio from the western part of Uttar Pradesh 
        state, India, is a particularly striking development as this is 
        the only area in India which had never interrupted indigenous 
        polio transmission.
  --Polio was cut by 76 percent in northern Nigeria in 2007.
  --25 of the 27 countries that were reinfected between 2003 and 2007 
        have stopped transmission of imported poliovirus.
  --Among the reinfected countries, Somalia has just demonstrated that 
        polio eradication can be achieved even in countries where a 
        functioning government does not exist, and where longstanding 
        civil strife and insecurity prevail. March 25, 2008 marks the 
        1-year anniversary since the last case of polio was reported in 
        Somalia.
  --The tools to eradicate polio are better than ever--the program now 
        has vaccines which are twice as effective and diagnostic tools 
        that detect and track poliovirus twice as fast as before.
  --Policies to minimize the risks and consequences of the 
        international spread of wild poliovirus are now in place.
    Prospects for polio eradication are bright, but significant 
challenges remain. For example, operational challenges in reaching 
every child in the four endemic countries range from issues related to 
campaign quality, security, and funding. In addition, outbreak response 
activities in countries such as the Democratic Republic of Congo, 
Angola, Chad and Sudan are tragic and costly reminders that no child is 
safe until polio has been eradicated everywhere.
    The strong support received from the Department of Health and Human 
Services and the U.S. State Department in promoting global polio 
eradication efforts at various international forums, engaging with 
other donor countries to secure additional resources, and addressing 
challenges in polio-affected countries is greatly appreciated. The 
continued engagement of the U.S. State Department will also be 
necessary to help secure ``Days of Tranquility'' in zones of conflict 
in southern Afghanistan to provide safe access to vaccinators to reach 
and vaccinate children during polio eradication campaigns.
    The ongoing support of donor countries is essential to assure the 
necessary human and financial resources are made available to polio-
endemic countries to take advantage of the window of opportunity to 
forever rid the world of polio. Access to children is needed, 
particularly in conflict-affected areas such as Afghanistan and its 
shared border with Pakistan. Polio-free countries must maintain high 
levels of routine polio immunization and surveillance. The continued 
leadership of the United States is essential to ensure we meet these 
challenges.
                    the role of rotary international
    Since 1985, Rotary International, a global association of more than 
30,000 Rotary clubs, with a membership of over 1.2 million business and 
professional leaders in more than 200 countries, has been committed to 
battling this crippling disease. In the United States today there are 
more than 7,700 Rotary clubs with over 375,000 members. All of our 
clubs work to promote humanitarian service, high ethical standards in 
all vocations, and international understanding. Rotary International 
stands hand-in-hand with the United States Government and governments 
around the world to fight polio through local volunteer support of 
National Immunization Days, raising awareness about polio eradication, 
and providing financial support for the initiative.
    Rotary International's financial commitment will reach U.S. $850 
million by the time the world is certified polio free--representing the 
largest contribution by an international service organization to a 
public health initiative ever. These funds have been allocated for 
polio vaccine, operational costs, laboratory surveillance, cold chain, 
training and social mobilization in 122 countries. More importantly, 
tens of thousands of Rotarians have been mobilized to work together 
with their national ministries of health, UNICEF and WHO, and with 
health providers at the grassroots level in thousands of communities. 
In the United States, hundreds of Rotarians have been inspired to 
travel at their own expense to assist their fellow Rotarians in polio-
affected countries in Africa and Asia during National Immunization 
Days.
    Rotary also leads the United States Coalition for the Eradication 
of Polio, a group of committed child health advocates that includes the 
March of Dimes Birth Defects Foundation, the American Academy of 
Pediatrics, the Task Force for Child Survival and Development, the 
United Nations Foundation, and the U.S. Fund for UNICEF. These 
organizations join us in expressing appreciation to you for your 
staunch support of the Global Polio Eradication Initiative.
 the role of the u.s. centers for disease control and prevention (cdc)
    Rotary commends CDC for its leadership in the global polio 
eradication effort, and greatly appreciates the subcommittee's support 
of CDC's polio eradication activities. For fiscal year 2009, we would 
expect that CDC will spend $101.254 million for their polio eradication 
efforts, equal to the fiscal year 2006 level. This investment has 
helped to make the United States the leader among donor nations in the 
drive to eradicate this crippling disease. Due to Congress's unwavering 
support, in 2008 CDC is able to:
  --Support the international assignment of more than 350 long- and 
        short-term epidemiologists, virologists, and technical officers 
        to assist the World Health Organization and polio-endemic 
        countries to implement polio eradication strategies, and 15 
        technical staff on direct assignment to WHO and UNICEF to 
        assist polio-endemic countries.
  --Provide $40 million to UNICEF for approximately 240 million doses 
        of polio vaccine and $9 million for operational costs for NIDs 
        in all polio-endemic countries and other high-risk countries in 
        Asia, the Middle East and Africa. Most of these NIDs would not 
        take place without the assurance of CDC's support.
  --Provide more than $25 million to WHO for surveillance, technical 
        staff and NIDs' operational costs, primarily in Africa. As 
        successful NIDs take place, surveillance is critical to 
        determine where polio cases continue to occur. Effective 
        surveillance can save resources by eliminating the need for 
        extensive immunization campaigns if it is determined that polio 
        circulation is limited to a specific locale.
  --Train virologists from all over the world in advanced poliovirus 
        research and public health laboratory support. CDC's Atlanta 
        laboratories serve as a global reference center and training 
        facility.
  --Provide the largest volume of both operational (poliovirus 
        isolation) and technologically sophisticated (genetic 
        sequencing of polio viruses) lab support to the 145 
        laboratories of the global polio laboratory network. CDC has 
        the leading specialized polio reference lab in the world.
  --Serve as the primary technical support agency to WHO on scientific 
        and programmatic research regarding: (1) laboratory containment 
        of wild poliovirus stocks following polio eradication, and (2) 
        when and how to stop or modify polio vaccination worldwide 
        following global certification of polio eradication.
                     benefits of polio eradication
    Since 1988, over 5 million people who would otherwise have been 
paralyzed will be walking because they have been immunized against 
polio. Tens of thousands of public health workers have been trained to 
investigate cases of acute flaccid paralysis and manage massive 
immunization programs. Cold chain, transport and communications systems 
for immunization have been strengthened.
    Increased political and financial support for childhood 
immunization has many documented long-term benefits. Polio eradication 
is helping countries to develop public health and disease surveillance 
systems useful in the control of other vaccine-preventable infectious 
diseases. Already all 47 countries of the Americas are free of 
indigenous measles, due in part to improvements in the public health 
infrastructure implemented during the war on polio. The disease 
surveillance system--the network of 145 laboratories and trained 
personnel established during the Polio Eradication Initiative--is now 
being used to track measles, rubella, yellow fever, meningitis, and 
other deadly infectious diseases. Most recently, polio health workers 
have been trained to recognize symptoms of Avian Influenza in order to 
support surveillance and potential outbreak response activities for 
this emerging public health threat. The AFP surveillance system and 
global laboratory network that supports it will continue to support the 
surveillance of other diseases long after polio has been eradicated.
    NIDs for polio have been used as an opportunity to give children 
essential vitamin A, which, like polio, is administered orally, saving 
the lives of at least 1.5 million children since 1998. The campaign to 
eliminate polio from communities has led to an increased public 
awareness of the benefits of immunization, creating a ``culture of 
immunization'' and resulting in increased usage of primary health care 
and higher immunization rates for other vaccines. It has improved 
public health communications and taught nations important lessons about 
vaccine storage and distribution, and the logistics of organizing 
nation-wide health programs. Also, the unprecedented public/private 
sector cooperation is a model for other public health initiatives.
    Polio eradication is a cost-effective public health investment, as 
its benefits accrue forever. On the other hand, more than 10 million 
children will be paralyzed in the next 40 years if the world fails to 
capitalize on the more than $5 billion already invested in polio 
eradication.
                    fiscal year 2009 budget request
    The World Health Organization estimates that $1.8 billion is needed 
from donors for the period 2008-2012. For fiscal year 2009, we 
respectfully request that you maintain the level of funding that has 
been provided in the past ($101.254 million) for the targeted polio 
eradication efforts of the Centers for Disease Control and Prevention. 
The funds we are seeking will allow CDC to continue intense 
supplementary immunization activities in Asia and to improve the 
quality of immunization campaigns in Africa to interrupt transmission 
of polio in these regions as quickly as possible. These funds will also 
help maintain certification standard surveillance. This will ensure 
that we protect the substantial investment we have made to protect the 
children of the world from this crippling disease by supporting the 
necessary eradication activities to eliminate polio in its final 
strongholds--in South Asia and sub-Saharan Africa.
    The United States' commitment to polio eradication has stimulated 
other countries to increase their support. G8 member states, many of 
which were already leading donors to the Polio Eradication Initiative, 
have encouraged other donors to provide support, and have emphasized 
the importance of polio eradication when meeting with leaders of polio-
endemic countries. As a result, the base of donor nations that have 
contributed to the Global Polio Eradication Initiative has expanded to 
include Spain, Sweden, Saudi Arabia, and even contributions from United 
Arab Emirates, Kuwait, Hungary, and Turkey.
    Continued political commitment is essential in all polio-affected 
countries. Intense political commitment on the part of endemic nations 
is also essential to ensuring polio eradication is achieved. India, 
Nigeria and Pakistan have invested significant human and financial 
resources in their own polio eradication activities. In Afghanistan, 
President Karzai has appointed a special Polio Action Group to maximize 
ministerial coordination of all polio eradication activities. In 
Afghanistan, President Karzai has appointed a Polio Action Group that 
reports directly to him. Such strong leadership demonstrates the 
priority these countries place on polio eradication.
    The strong resolve of the remaining polio affected countries 
combined with the continued leadership of the United States and other 
global donors will ensure that we seize the opportunity to banish the 
crippling polio virus to the history books. The lessons learned from 
the shared victory of governments, U.N. agencies, and civil society 
entities like Rotary International will leave a lasting legacy for 
future public health and development initiatives.
                                 ______
                                 
            Prepared Statement of the Scleroderma Foundation
    I am Cynthia Cervantes, I am 12 and in the eighth grade. I live in 
Southern California and in October 2006 I was diagnosed with 
scleroderma. Scleroderma means ``hard skin'' which is literally what 
scleroderma does and, in my case, also causes my internal organs to 
stiffen and contract. This is called diffuse scleroderma. It is a 
relatively rare disorder effecting only about 300,000 Americans.
    About 2 years ago I began to experience sudden episodes of 
weakness, my body would ache and my vision was worsening, some days it 
was so bad I could barely get myself out of bed. I was taken to see a 
doctor after my feet became so swollen that calcium began to ooze out. 
It took the doctors (period of time) to figure out exactly what was 
wrong with me, because of how rare scleroderma is.
    There is no known cause for Scleroderma, which affects three times 
as many women as men. Generally, women are diagnosed between the ages 
of 25 and 45, but some kids, like me, are affected earlier in life. 
There is no cure for scleroderma, but it is often treated with skin 
softening agents, anti-inflammatory medication, and exposure to heat. 
Sometimes a feeding tube must be used with a scleroderma patient 
because their internal organs contract to a point where they have 
extreme difficulty digesting food.
    The Scleroderma Foundation has been very helpful to me and my 
family. They have provided us with materials to educate my teachers and 
others about my disease. Also, the support groups the foundation helps 
organize are very helpful because they help show me that I can live a 
normal, healthy life, and how to approach those who are curious about 
why I wear gloves, even in hot weather. It really means a lot to me to 
be able to interact with other people in the same situation as me 
because it helps me feel less alone.
    Mr. Chairman, because the causes of scleroderma are currently 
unknown and the disease is so rare, and we have a great deal to learn 
about it in order to be able to effectively treat it. I would like to 
ask you to please significantly increase funding for the National 
Institute of Health so treatments can be found for other people like me 
who suffer from scleroderma. It would also be helpful to start a 
program at the Centers for Disease Control and Prevention to educate 
the public and physicians about scleroderma.
                         scleroderma foundation
    The Scleroderma Foundation is a nonprofit organization based in 
Danvers, MA with a three-fold mission of support, education, and 
research. The Foundation has 21 chapters nationwide and over 175 
support groups.
    The Scleroderma Foundation was established on January 1, 1998 
through a merger between two organizations, one on the west coast and 
one on the east coast. Both organizations can trace their beginnings 
back to the early 1970s.
    The Foundation provides support for people living with scleroderma 
and their families through programs such as peer counseling, doctor 
referrals, and educational information, along with a toll-free 
telephone helpline for patients and a quarterly magazine, The 
Scleroderma Voice.
    The Foundation provides education about the disease to patients, 
families, the medical community, and the general public through a 
variety of awareness programs at both the local and national levels.
    The Foundation awards over $1 million in peer-reviewed research 
grants annually to institutes and universities to stimulate progress in 
the search for a cause and cure for scleroderma.
    The Foundation strives to boost awareness about the disease to 
patients, families, the medical community and the general public to not 
only generate more funding for medical research, but foster a greater 
understanding of the complications faced by people living with the 
disease.
    Among the many programs arranged by the Foundation is the Annual 
Patient Education Conference held each summer. The conference brings 
together an average of 500 attendees and experts for a wide range of 
workshops on such topics as the latest research initiatives, coping and 
disease management skills, caregiver support, and exercise programs.
                          scleroderma overview
    Scleroderma is an autoimmune disease which means that it is a 
condition in which the body's immune system attacks its own tissues. In 
autoimmune disorders, this ability to distinguish foreign from self is 
compromised. As immune cells attack the body's own tissue, inflammation 
and damage result. Scleroderma (the name means ``hard skin'') can vary 
a great deal in terms of severity. For some, it is a mild condition; 
for others it can be life threatening. Although there are medications 
to slow down disease progression and help with symptoms, there is as 
yet no cure for scleroderma.
                         who gets scleroderma?
    There are many clues that define susceptibility to develop 
scleroderma. A genetic basis for the disease has been suggested by the 
fact that it is more common among patients whose family members have 
other autoimmune diseases (such as lupus). In rare cases, scleroderma 
runs in families, although for the vast majority of patients there is 
no other family member affected. Some Native Americans and African 
Americans get worse scleroderma disease than Caucasians.
    Women are more likely to get scleroderma. Environmental factors may 
trigger the disease in the susceptible host. Localized scleroderma is 
more common in children, whereas scleroderma is more common in adults. 
However, both can occur at any age.
    There are an estimated 300,000 people in the United States who have 
scleroderma, about one third of whom have the systemic form of 
scleroderma. Diagnosis is difficult and there may be many misdiagnosed 
or undiagnosed cases as well.
    Scleroderma can develop and is found in every age group from 
infants to the elderly, but its onset is most frequent between the ages 
of 25 to 55. There are many exceptions to the rules in scleroderma, 
perhaps more so than in other diseases. Each case is different.
                         causes of scleroderma
    The cause is unknown. However, we do understand a great deal about 
the biological processes involved. In localized scleroderma, the 
underlying problem is the overproduction of collagen (scar tissue) in 
the involved areas of skin. In systemic sclerosis, there are three 
processes at work: blood vessel abnormalities, fibrosis (which is 
overproduction of collagen) and immune system dysfunction, or 
autoimmunity.
                                research
    Research suggests that the susceptible host for scleroderma is 
someone with a genetic predisposition to injury from some external 
agent, such as a viral or bacterial infection or a substance in the 
diet or environment. In localized scleroderma, the resulting damage is 
confined to the skin. In systemic sclerosis, the process causes injury 
to blood vessels, or indirectly perturbs the blood vessels by 
activating the immune system.
    Research continues to assemble the pieces of the scleroderma puzzle 
to identify the susceptibility genes, to find the external trigger and 
cellular proteins driving fibrosis, and to interrupt the networks that 
perpetuate the disease.
                          types of scleroderma
    There are two main forms of scleroderma: systemic (systemic 
sclerosis, SSc) that usually affects the internal organs or internal 
systems of the body as well as the skin, and localized that affects a 
local area of skin either in patches (morphea) or in a line down an arm 
or leg (linear scleroderma), or as a line down the forehead 
(scleroderma en coup de sabre). It is very unusual for localized 
scleroderma to develop into the systemic form.
Systemic Sclerosis (SSc)
    There are two major types of systemic sclerosis or SSc: limited 
cutaneous SSc and diffuse cutaneous SSc. In limited SSc, skin 
thickening only involves the hands and forearms, lower legs and feet. 
In diffuse cutaneous disease, the hands, forearms, the upper arms, 
thighs, or trunk are affected.
    The face can be affected in both forms. The importance of making 
the distinction between limited and diffuse disease is that the extent 
of skin involvement tends to reflect the degree of internal organ 
involvement.
    Several clinical features occur in both limited and diffuse 
cutaneous SSc. Raynaud's phenomenon occurs in both. Raynaud's 
phenomenon is a condition in which the fingers turn pale or blue upon 
cold exposure, and then become ruddy or red upon warming up. These 
episodes are caused by a spasm of the small blood vessels in the 
fingers. As time goes on, these small blood vessels become damaged to 
the point that they are totally blocked. This can lead to ulcerations 
of the fingertips.
    People with the diffuse form of SSc are at risk of developing 
pulmonary fibrosis (scar tissue in the lungs that interferes with 
breathing, also called interstitial lung disease), kidney disease, and 
bowel disease.
    The risk of extensive gut involvement, with slowing of the movement 
or motility of the stomach and bowel, is higher in those with diffuse 
rather than limited SSc. Symptoms include feeling bloated after eating, 
diarrhea or alternating diarrhea and constipation.
    Calcinosis refers to the presence of calcium deposits in, or just 
under, the skin. This takes the form of firm nodules or lumps that tend 
to occur on the fingers or forearms, but can occur anywhere on the 
body. These calcium deposits can sometimes break out to the skin 
surface and drain whitish material (described as having the consistency 
of toothpaste).
    Pulmonary Hypertension (PH) is high blood pressure in the blood 
vessels of the lungs. It is totally independent of the usual blood 
pressure that is taken in the arm. This tends to develop in patients 
with limited SSc after several years of disease. The most common 
symptom is shortness of breath on exertion. However, several tests need 
to be done to determine if PH is the real culprit. There are now many 
medications to treat PH.
Localized Scleroderma
            Morphea
    Morphea consists of patches of thickened skin that can vary from 
half an inch to six inches or more in diameter. The patches can be 
lighter or darker than the surrounding skin and thus tend to stand out. 
Morphea, as well as the other forms of localized scleroderma, does not 
affect internal organs.
Linear scleroderma
    Linear scleroderma consists of a line of thickened skin down an arm 
or leg on one side. The fatty layer under the skin can be lost, so the 
affected limb is thinner than the other one. In growing children, the 
affected arm or leg can be shorter than the other.
Scleroderma en coup de sabre
    Scleroderma en coup de sabre is a form of linear scleroderma in 
which the line of skin thickening occurs on the forehead or elsewhere 
on the face. In growing children, both linear scleroderma and en coup 
de sabre can result in distortion of the growing limb or lack of 
symmetry of both sides of the face.
                               conclusion
    Unfortunately, support for scleroderma research at the National 
Institutes of Health over the past 5 years has been flat funded at $11 
million, down from $13 million in 2003. These figures are extremely 
frustrating to our patients who recognize biomedical research as their 
best hope for a better quality of life. It is also of great concern to 
our researchers who have promising ideas they would like to explore if 
resources were available.
    As Congress works to finalize the HHS appropriations bill for 
fiscal year 2009, we encourage you to support a 6.5 percent increase 
for the NIH. This funding recommendation has been endorsed by over 300 
health care organizations and would ensure additional support for 
scleroderma research. The main institute responsible for scleroderma at 
the NIH is the National Institute of Arthritis and Musculoskeletal and 
Skin Diseases.
                                 ______
                                 
           Prepared Statement of the Society for Neuroscience
                              introduction
    Mr. Chairman and members of the subcommittee, I am Eve Marder, 
Ph.D., president of the Society for Neuroscience (SfN) and the Victor 
and Gwendolyn Beinfield Professor of Neuroscience at Brandeis 
University. It is my honor to submit this testimony on behalf of SfN in 
support of the National Institutes of Health.
    My research focuses on understanding how circuit function arises 
from the intrinsic properties of individual neurons and their synaptic 
connections. Of particular interest is the extent to which similar 
circuit outputs can be generated by multiple mechanisms, both in 
different individual animals, or in the same animal over its lifetime. 
To address this, my lab studies the central pattern generating circuits 
in the crustacean stomatogastric nervous system, such as those found in 
crabs and lobsters. Central pattern generators are groups of neurons 
found in vertebrate and invertebrate nervous systems responsible for 
the generation of specific rhythmic behaviors such as walking, 
swimming, and breathing. I am the recipient of Federal research and 
training support from the National Institutes of Health and National 
Science Foundation.
                    fiscal year 2009 budget request
    I respectfully request that Congress commit to continuing to expand 
the Nation's investment in medical research by increasing the NIH 
budget by $1.9 billion in fiscal year 2009. This recommended increase 
would match biomedical inflation with 3 percent added to account for 
real growth. The administration's request of $29.2 billion for NIH in 
fiscal year 2009 represents the sixth consecutive year that the 
President's proposed budget for the NIH has failed to keep pace with 
biomedical inflation. In that period, a combination of minimal 
increases and cuts has resulted in an approximately 11 percent decline 
in the agency's purchasing power due to inflation. If the President's 
fiscal year 2009 request becomes law, NIH will have lost 13.4 percent 
of its purchasing power due to inflation, undermining the value of the 
increases gained when Congress doubled the NIH budget.
    This recommendation, supported across the research and patient 
advocacy communities, would increase NIH's budget by 6.5 percent, 
halting the erosion of the Nation's medical research effort, and 
allowing the world's pre-eminent research enterprise to accelerate the 
momentum of discovery to improve the health and quality of life for 
millions of Americans. NIH-funded research is driving the 
transformation of science, medicine and health care. At a time of 
unparalleled scientific opportunities and unprecedented health 
challenges, NIH must be given the resources to continue to move 
forward, not stand in place.
                 what is the society for neuroscience?
    The Society for Neuroscience is a nonprofit membership organization 
of basic scientists and physicians who study the brain and nervous 
system. Recognizing the field's tremendous potential, the Society was 
formed in 1969 with less than 500 members. Today, SfN's membership 
numbers more than 38,000 and it is the world's largest organization of 
scientists devoted to the study of the brain. Our member 
neuroscientists work to describe the human brain and how it functions 
normally, determine how the nervous system develops, matures and 
maintains itself through life; and improve treatment and prevention of 
many devastating neurological and psychiatric disorders.
    Neuroscience is a unified field that integrates biology, chemistry, 
and physics with studies of structure, physiology, and behavior, 
including human emotional and cognitive functions. Neuroscience 
research includes genes and other molecules that are the basis for the 
nervous system, individual neurons, and ensembles of neurons that make 
up systems and behavior. SfN is devoted to education about the latest 
advances in brain research, and to raising awareness of the need to 
make neuroscience research a funding priority.
         nih-funded research successes lead to health advances
    Today, scientists have a greatly improved understanding of how the 
brain functions thanks to NIH-funded research. To illustrate this 
progress, SfN has created a 36-part series, called Brain Research 
Success Stories, which discusses some of the progress that has resulted 
from Federal funding for biomedical research during the period of the 
doubling. The successes in neuroscience research outlined below would 
not have been possible without NIH funding, but future discoveries are 
threatened by eroding funds. Sustained, consistent and predictable NIH 
support is essential to fully exploring the possible advances unearthed 
by this exciting research.
  --Depression.--Depression is one of the most common and costly brain 
        diseases, afflicting 18.8 million adults in the United States 
        each year--about 10 percent of the country's population over 
        the age of 18. Depressed people are at increased risk for 
        substance abuse, suicide, eating disorders, and illnesses like 
        heart disease and stroke. Depression is also a drain on the 
        economy. It costs $44 billion in lost productivity in the 
        United States every year. The National Institute of Mental 
        Health now lists depression as the country's leading cause of 
        disability. Over the past 10 years, research funded by NIH has 
        led to a new generation of antidepressants--selective serotonin 
        reuptake inhibitors (SSRIs)--that produce fewer serious side 
        effects, and more recently, scientists are discovering 
        potentially powerful strategies for entirely new classes of 
        antidepressants. With continued NIH funding, scientists will 
        uncover how these new drugs, sometimes in combination with 
        psychotherapy, can dramatically improve the depressed brain's 
        functioning. Investigations into brain stimulation, brain 
        imaging, and genetics promise to yield better treatments for 
        depression.
  --Traumatic Brain Injury.--Whether it is from a slip on the ice, a 
        crash into the windshield, or a blast from an improvised 
        explosive device, each year an estimated 1.5 million Americans 
        sustain a traumatic brain injury (TBI). Characterized by a 
        sudden blow to the head, this type of injury can brutally 
        damage the brain and its functioning, resulting in acute 
        impairment of consciousness, or visual, motor, or sensory 
        deficits. While patients with these symptoms often recover 
        partially or even completely, those with even mild to moderate 
        TBI can later develop epilepsy or related disorders. In fact, 
        TBI is a leading cause of disability among American children 
        and young adults. Recent research also has shown that TBI may 
        increase a person's risk for future development of Alzheimer's 
        disease. Research funded by NIH will lead to new strategies 
        that could take direct action against the injury and create 
        much greater improvement in patient care. Techniques that hold 
        promise include the use of transplanted neural stem cells and 
        imaging tests that can identify brain tissue swelling, allowing 
        early medical intervention. Continued funding for research 
        could help scientists develop new therapies that reverse brain 
        damage and significantly improve the lives of Americans.
  --Parkinson's Disease.--Recent advances in understanding the causes 
        of Parkinson's disease, and the possibility of new treatment 
        options, have brought a renewed sense of optimism that 
        Parkinson's disease can be treated more effectively. Current 
        research programs funded by National Institute of Neurological 
        Disorders and Stroke are using animal models to study how the 
        disease progresses and to develop new drug therapies. 
        Scientists looking for the cause of PD continue to search for 
        possible environmental factors, such as toxins, that may 
        trigger the disorder, and study genetic factors to determine 
        how defective genes play a role. Other scientists are working 
        to develop new protective drugs that can delay, prevent, or 
        reverse the disease. Research on deep brain stimulation is a 
        potentially revolutionary therapeutic approach that is being 
        explored as a treatment for Parkinson's and other diseases and 
        disorders. As scientists search for new treatments and a 
        possible cure for Parkinson's disease, they are finding that 
        this illness shares much with several other diseases and 
        conditions, such as depression, Alzheimer's disease, 
        Amyotrophic Lateral Sclerosis, and Huntington's disease. Basic 
        research examining gene mutations, cell death, and how to 
        repair damaged cells has been essential to discovering these 
        commonalities. With continued funding, scientists will be able 
        to follow those paths and bring about the medical advances 
        needed to halt the progression of Parkinson's and diseases with 
        similar traits.
  --Epilepsy.--Researchers supported by NIH are studying potential 
        antiepileptic drugs with the goal of enhancing treatment for 
        epilepsy. Scientists continue to study how neurotransmitters 
        interact with brain cells to control nerve firing and how non-
        neuronal cells in the brain contribute to seizures and are 
        working to identify genes that may influence epilepsy. This 
        information may allow doctors to prevent epilepsy or to predict 
        which treatments will be most beneficial. Doctors are now 
        experimenting with several new types of therapies for epilepsy, 
        including transplanting fetal pig neurons into the brains of 
        patients to learn whether cell transplants can help control 
        seizures, transplanting stem cells, and using a device that 
        could predict seizures up to 3 minutes before they begin. 
        Funding is needed to pursue patient-oriented research, 
        developmental neurobiology, genetics, advanced technology, 
        imaging, pharmacotherapeutics, and other disciplines to develop 
        innovative research proposals related to the field of epilepsy.
                  basic research--fundamental science
    Continued investment in basic research funded by NIH is also 
essential to ensuring discoveries that will inspire scientific pursuit 
and medical progress for future generations. Basic research advances 
scientific knowledge and medical innovation by expanding understanding 
of the structure and function of molecules, genes, cells, systems and 
complex behaviors. Clinical researchers often use these fundamental 
findings to identify new applications that lead to medical treatments.
  --Plasticity and Alzheimer's Disease.--Researchers in the 1960s 
        wanted to understand more about growth and repair in the adult 
        brain and conducted a number of experiments with rodents to 
        help illuminate these processes. They made an amazing and 
        unexpected discovery: newly created cells that later became 
        neurons, or brain cells. This process, called neurogenesis, is 
        just one example of how ``plastic'' or adaptable the brain is. 
        With this knowledge, researchers are investigating how normal 
        aging, as well as neurodegenerative diseases like Alzheimer's 
        disease, affect that adaptability, and how we can maintain 
        health brain function as we age. Future research may one day 
        allow scientists to capture the adult brain's enormous capacity 
        to adapt in order to help prevent, or perhaps even reverse, 
        memory-robbing Alzheimer' disease.
  --Light-activated Molecules.--The discovery of a new class of 
        proteins from algae molecules is now enabling scientists to 
        develop new tools to explore how specific types of nerve cells 
        are interconnected and how they function in circuits in the 
        brain. These molecules, called channelrhodopsins, can be used 
        to effectively turn electrical activity in cells ``on'' and 
        ``off'' with light. The new application allows researchers to 
        use light to study and even manipulate brain activity, and 
        could result someday in improved therapies that target only 
        diseased cells and avoid unwanted side effects in disorders 
        such as Parkinson's, depression, chronic pain, and epilepsy.
  --Central Pattern Generators and Spinal Cord Recovery.--Central 
        pattern generators are circuits in the brainstem and spinal 
        cord that generate rhythmic movements such as breathing and 
        walking. Studies on central pattern generators in animals after 
        spinal cord injury first suggested the importance of weight-
        assisted treadmill and bicycle training for spinal cord injured 
        patients. These methods, together with advances in 
        understanding the molecular control of regeneration and 
        regrowth in the spinal cord, should lead to significant 
        improvements in the outcomes of individuals with spinal cord 
        injury.
                    the pipeline of new researchers
    Five consecutive years of flat funding the NIH budget is deterring 
promising young researchers. A recent report issued by a consortium of 
leading research universities and a major teaching hospital--A Broken 
Pipeline? Flat Funding of the NIH Puts a Generation of Science at 
Risk--warns that America stands to lose a generation of young 
researchers and the cures they could discover if current NIH funding 
trends continue.
    The NIH budget constraints compromise all sections of the academic 
research pipeline. The overall success rate for NIH research project 
grants dropped from 32 percent in 1999 to 24 percent in 2007, meaning 
that more than three of every four research proposals are not funded. 
Undergraduate and graduate students watch their mentors struggling for 
funding, and are opting out of science as a career. Extremely 
productive senior investigators are forced to fire long-term research 
personnel, often compromising the transmission of important laboratory 
methods. Even if those investigators are refunded 6 months or a year 
later, the damage to the research enterprise may long outlast the time 
course of the lapsed funding, because of loss of momentum and loss of 
crucial trained laboratory personnel. In the past year, NIH has been 
very proactive to ensure that a number of first-time investigators are 
funded, even with the very restricted resources available. However, 
young investigators remain extremely vulnerable at the time of their 
first grant renewal. During the past year or two many investigators 
have been spending significantly more time writing, rewriting and 
reviewing grant applications, and consequently doing less actual 
science. The cost of the loss of productivity due to the grant squeeze 
is difficult to calculate, but is considerable.
    This squeeze on the research workforce impacts the Nation's 
economic vitality globally, as the United States fights to retain its 
competitive edge in scientific and technological sectors. In fact, 70 
percent of Americans believe the United States is losing its global 
competitive edge in science, technology, and innovation, according to a 
Research!America poll. We are especially concerned that the United 
States may soon no longer be the source of the basic and translational 
science that fosters advances in medicine. Also, decreases in the 
science workforce could have a deleterious effect on local and State 
economies, as universities and research institutions are the largest 
employers in some communities. The dollars brought in by these 
institutions help to spur growth in biotechnology, pharmaceutical, 
device and imaging manufacturing, and other industries.
                               conclusion
    The brain is the most complex living structure known in the 
universe. Neuroscience advances our understanding of the brain and 
nervous system. This enables us to better understand human behavior--
from how we learn to why people have trouble getting along together--
and to discover ways to prevent or cure many devastating brain 
disorders. The more than 1,000 disorders of the brain and nervous 
system result in more hospitalizations than any other disease group, 
including heart disease and cancer.
    As SfN members continue to pursue exciting new avenues of research 
and make amazing breakthroughs everyday, I urge Congress not to limit 
these innovations and revelations by providing inadequate Federal 
funding. Sustained, healthy increases for the National Institutes of 
Health that keep up with inflation are essential to neuroscientists who 
conduct the research that advances scientific understanding and leads 
to health improvements urgently needed by countless Americans.
    Thank you for the opportunity to submit this testimony.
                                 ______
                                 
   Prepared Statement of the Society of Teachers of Family Medicine, 
 Association of Departments of Family Medicine, Association of Family 
   Medicine Residency Directors, and the North American Primary Care 
                             Research Group
    Mr. Chairman, the Society of Teachers of Family Medicine, the 
Association of Departments of Family Medicine, the Association of 
Family Medicine Residency Directors, and the North American Primary 
Care Research Group, thank you for the opportunity to provide this 
statement for the record on behalf of funding for family medicine 
training programs under the Health Services and Resources 
Administration (HRSA), the Agency for Healthcare Research and Quality 
(AHRQ) and the National Institutes of Health (NIH).
  health professions--primary care medicine and dentistry (title vii, 
                              section 747)
    We request that this committee return funding of the Primary Care 
Medicine and Dentistry Cluster (Section 747 of Title VII) to its 
earlier (fiscal year 2002) funding level of $93 million. Since fiscal 
year 2004, this program has lost more than 50 percent of its funding. 
Currently (fiscal year 2008), the program is funded at less than $48 
million. The President's budget for fiscal year 2009 continues to zero 
out funding for this cluster.
Primary Care in Crisis
    Why should Congress restore funding for this program? Primary care 
in the United States is in crisis. The United States Government 
Accountability Office (GAO) testified before the Senate HELP Committee 
in February of this year. It described the difficulties of increasing 
the number of primary care physicians in the United States and the 
benefits to the nation of doing so. One of its findings concluded:
    ``Health professional workforce projections that are mostly silent 
on the future supply of and demand for primary care services are 
symptomatic of an ongoing decline in the nation's financial support for 
primary care medicine.'' \1\
---------------------------------------------------------------------------
    \1\ Testimony before the Committee on Health, Education, Labor, and 
Pensions, U.S. Senate. Primary Care Professionals: Recent Supply 
Trends, Projections and Valuation of Services. Statement of A. Bruce 
Steinwald, Director Health Care, United States Accountability Office. 
February 12, 2008 GAO-08-472T.
---------------------------------------------------------------------------
    Data from the Congressional Research Service (CRS) also show that 
reduced funding for the primary care medicine and dentistry cluster had 
a deleterious impact on the effectiveness of these programs--at a time 
when more, rather than less primary care is needed. For example, ``In 
fiscal year 2006, the program supported a total of 17,870 individuals 
in clinical training in underserved areas, a decrease from the support 
of 31,153 individuals in fiscal year 2005.'' \2\ This is a decrease of 
almost 43 percent.
---------------------------------------------------------------------------
    \2\ CRS Report to Congress. February 7, 2008 Title VII Health 
Professions Education and Training: Issues in Reauthorization (Order 
Code RL32546).
---------------------------------------------------------------------------
    Additional testimony before the Senate HELP Committee last month 
clarified the problems that primary care in the United States currently 
faces. Kevin Grumbaugh, MD, Professor and Chair, UCSF Department of 
Family and Community Medicine, and a recognized expert in workforce 
research, put it this way: ``The primary care infrastructure in the 
United States is crumbling, and patient access to primary care is 
suffering throughout the nation. From 1997 to 2005, the number of U.S. 
medical school graduates entering careers in family medicine 
residencies dropped by 50 percent, as did the number of internal 
medicine residents planning careers in primary care rather than 
specialty medicine. In a 2006 survey of 92 large or medium-sized 
physician groups, 94 percent of the respondents ranked internists or 
family physicians as the most difficult to recruit. Federally funded 
community health centers reported more than 750 vacant positions for 
primary care physicians in 2004. In 2007, 29 percent of Medicare 
beneficiaries reported a problem finding a primary care physician, up 
from 24 percent in 2006.''
The Primary Care Payoff \3\
---------------------------------------------------------------------------
    \3\ Access Granted: The Primary Care Payoff, August 2007, National 
Association of Community Health Centers, The Robert Graham Center, 
Capitol Link (pgs 1-2).
---------------------------------------------------------------------------
    According to a report prepared by the National Association of 
Community Health Centers, The Robert Graham Center, and Capitol Link, 
``There is a growing consensus among the nation's political and 
industry leaders that the U.S. health care crisis has shifted from the 
realm of the poor and disenfranchised, to the doorstep of middle-class 
America.'' Additionally, they cite the following: ``If every American 
made use of primary care, the health care system would see $67 billion 
in savings annually. This reflects not only those who do not have 
access to primary care, but also those who rely extensively on costly 
specialists for most of their care, leading to inefficiencies in the 
system. More specifically, the expansion of Medical homes can even more 
dramatically facilitate effective use of health care, improve health 
outcomes, minimize health disparities, and lower overall costs of 
care.''
    The GAO also cites the importance of primary care in terms of 
quality and cost:
    ``Ample research in recent years concludes that the Nation's over 
reliance on specialty care services at the expense of primary care 
leads to a health care system that is less efficient. At the same time, 
research shows that preventive care, care coordination for the 
chronically ill, and continuity of care--all hallmarks of primary care 
medicine--can achieve improved outcomes and cost savings.'' \4\ 
[emphasis added]
---------------------------------------------------------------------------
    \4\ Testimony before the Committee on Health, Education, Labor, and 
Pensions, U.S. Senate. Primary Care Professionals: Recent Supply 
Trends, Projections and Valuation of Services. Statement of A. Bruce 
Steinwald, Director Health Care, United States Accountability Office. 
February 12, 2008 GAO-08-472T.
---------------------------------------------------------------------------
    An April, 2004 Health Affairs article found the quality of health 
care lower in states with higher levels of Medicare spending. The 
authors suggest that more specialists and fewer primary care physicians 
mean higher costs and lower quality. A small increase in the number of 
primary care physicians in a state was associated with a large boost in 
that state's quality ranking.
The Success of Title VII, Section 747
    A 2006 study by the University of California San Francisco and the 
Robert Graham Center shows that medical schools that receive primary 
care training dollars produce more physicians who work in Community 
Health Centers (CHCs) and serve in the National Health Service Corps 
(NHSC) compared to schools without Title VII primary care funding. This 
finding is particularly true for family physicians. Without funding for 
primary care training, fewer family physicians will be trained to work 
in CHCs and serve in the Corps. Almost 4,000 family physicians and 
general practitioners exposed to Title VII funding during medical 
school subsequently chose to work in a CHC. Without this exposure, we 
would anticipate a decrease of over 750 family physicians working in a 
CHC in 2003. The JAMA article mentioned below shows 600 current 
vacancies for family physicians in CHCs. Without Title VII dollars, 
these data point to twice as many vacancies.
    The Health Resources and Services Administration (HRSA) has 
provided some new data regarding the success of Title VII programs as 
part of the fiscal year 2009 budget justification document published by 
the administration. It directly counters the administration's claims of 
ineffectiveness of these programs, and shows the folly of zeroing out 
these programs. Below are some selected excerpts:
    ``During the [PART] review Health Professions developed new long-
term and annual performance measures and established baseline data and 
has since begun regularly collecting data and reporting on performance.
    In 2007, 57 percent of graduates and program completers of Titles 
VII and VIII supported programs were underrepresented minorities and/or 
from disadvantaged backgrounds. This exceeded the target by 17 percent.
    The proportion of trainees in Titles VII and VIII supported 
programs training in medically underserved communities was 43 percent 
in 2007 which exceeded the target of 41 percent. The percentage of 
health professionals supported by the program entering practice in 
underserved areas was 35 percent in 2007. This exceeded the target by 
14 percent.''
    We have demonstrated (1) the Nation needs more primary care 
physicians, (2) the efficacy of primary care in reducing costs and 
promoting quality, and (3) the success of Title VII programs in 
producing more primary care physicians. Based on these factors, we 
recommend that the Committee reinvigorate these programs by increasing 
the Primary Care Medicine and Dentistry funding to a previous level of 
$93 million.
The Agency for Health Care Research and Quality (AHRQ)
    We request funding of $360 million for AHRQ in fiscal year 2009. 
This is an increase of $25 million over fiscal year 2008, and $34 
million more than the President's fiscal year 2009 Budget request. For 
the last several years, even with an increase in fiscal year 2008, 
funding for AHRQ has remained relatively stagnant, while it's portfolio 
of work has increased dramatically. Our researchers are finding that 
investigator-initiated grants are very difficult to obtain.
    It should be noted that a much larger investment should be made, as 
recommended by The Institute of Medicine's report, Crossing the Quality 
Chasm: A New Health System for the 21st Century (2001). It recommended 
$1 billion a year for AHRQ to ``develop strategies, goals, and actions 
plans for achieving substantial improvements in quality in the next 5 
years . . .'' The report looked at redesigning health care delivery in 
the United States. AHRQ is critical to retooling the American health 
care system.
    One of the hallmarks of the patient centered medical home is 
evidence-based medicine. Comparative effectiveness research, which 
compares the impact of different options for treating a given medical 
condition, is vital to improving the quality of health care. Studies 
comparing various treatments (e.g. competing drugs) or differing 
approaches (e.g. surgery and drug therapy) can inform clinical 
decisions by analyzing not only costs but the relative medical benefits 
and risks for particular patient populations.
    Comparative effectiveness research holds out the promise of 
reducing health care costs while improving medical outcomes. AHRQ's 
Effective Health Care Program is critical if we are to realize that 
promise. Although the President's budget request proposed to hold this 
important program at $30 million, the same as fiscal year 2008, we hope 
that the Congress will increase our investment in comparative 
effectiveness research.
National Institutes of Health (NIH)
    Historically, the research at NIH has failed to pose the questions 
asked by family doctors in primary care practice regarding treatment of 
their patients. We are encouraged by the development of the NIH Roadmap 
and the Clinical and Translational Science Awards (CTSA), along with 
the establishment, in statute, of a funding stream for the common fund 
that demonstrates the willingness of NIH to become a more fertile arena 
for family medicine and other primary care research. Hence, we support 
the Ad Hoc Group for Medical Research and others' call for an increase 
in NIH funding. In addition, we would like to see some report language 
that would help NIH ensure that the promise of bench to bedside 
research truly becomes bench to bedside to community--and back.
    We support the inclusion of the following language in the report to 
accompany the Labor/HHS appropriations bills for fiscal year 2008.
    ``Translational Research has been identified by the Director of the 
National Institutes of Health (NIH) as a road map initiative. The 
committee supports this effort and encourages NIH to integrate such 
research as a permanent component of the research portfolio of each 
institute and center. The committee urges NIH to begin discussions to 
determine how best to facilitate progress in translating existing 
research findings and to disseminate and integrate these findings at 
the practice level. Translational research should also include the 
discovery and application of knowledge within the practice setting 
using such laboratories as practice-based research networks. This 
research spans biological systems, patients, and communities, and 
arises from questions of importance to patients and their physicians, 
particularly those practicing primary care. The Committee requests that 
the Director of NIH include a progress update in next year's Budget 
Justification.''
                               conclusion
    We hope that the committee will be able, with the more generous 
figures included in the fiscal year 2009 House and Senate Budget 
Resolutions this year, to fund increases in these three important 
programs: health professions primary care medicine and dentistry 
training, AHRQ, and NIH. Certainly, at a minimum, we request that 
funding cuts to the health professions primary care medicine and 
dentistry training program be restored to at least fiscal year 2005 
levels of $88.8 million. However, these programs were funded at a 
historic high of $93 million in fiscal year 2002, and we support a 
return to that figure.
                                 ______
                                 
   Prepared Statement of the Society for Women's Health Research and 
                   Women's Health Research Coalition
    On the behalf of the Society for Women's Health Research and the 
Women's Health Research Coalition, we are pleased to submit the 
following testimony in support of Federal funding of biomedical 
research, and more specifically women's health research.
    The Society for Women's Health Research is the only national non-
profit women's health organization whose mission is to improve the 
health of women through research, education, and advocacy. Founded in 
1990, the Society brought to national attention the need for the 
appropriate inclusion of women in major medical research studies and 
the need for more information about conditions affecting women 
disproportionately, predominately, or differently than men. In 1999, 
the Women's Health Research Coalition was created by the Society as a 
grassroots advocacy effort consisting of scientists, researchers, and 
clinicians from across the country that are concerned and committed to 
improving women's health research.
    The Society and Coalition are committed to advancing the health of 
women through the discovery of new and useful scientific knowledge. We 
believe that sustained funding for biomedical and women's health 
research programs conducted and supported across the Federal agencies 
is absolutely essential if we are to meet the health needs of the 
population and advance the Nation's research capability.
                     national institutes of health
    From decoding the human genome to elucidating the scientific 
components of human physiology, behavior, and disease, scientists are 
unearthing exciting new discoveries which have the potential to make 
our lives and the lives of our families longer and healthier. The 
National Institutes of Health (NIH) has facilitated these advances by 
conducting and supporting our Nation's biomedical research. World-class 
researchers, scientists, and programs at NIH are dedicated to 
understanding how the human body works and to gaining insight into 
countless diseases and disorders. Congressional investment and support 
for NIH has made the United States the world leader in medical research 
and has provided a direct and significant impact on women's health 
research and the careers of women scientists over the last decade.
    Great strides and advancements have been made since the doubling of 
the NIH budget from $13.7 billion in 1998 to $27 billion in 2003. 
However, we are concerned that the momentum driving new research has 
been eroded under the current budgetary constraints. Medical research 
must be considered an essential investment--an investment in thousands 
of newly trained and aspiring scientists; an investment to remain 
competitive in the global marketplace; and an investment in our 
Nation's health.
    Unfortunately, the administration's proposed fiscal year 2009 
budget request of $29.2 billion for NIH is identical to the final 
approved budget for fiscal year 2008. This trend of flat lining not 
only unravels the successes gained from the doubling of NIH's budget, 
but it directly contributes to decreasing NIH's purchasing power by 
almost 14 percent due to inflation. NIH only receives $28.3 billion in 
the proposed budget due to the transfer of $300 million to the Global 
Fund to Fight HIV/AIDS. Not only does the proposed decrease not keep 
pace with the inflation rate, but it is lower than that of the 
Biomedical Research and Development Price Index (BRDPI) which is 
indicative of how much funding the NIH needs to maintain purchasing 
power and compensate for the average yearly cost increases that occur 
in maintaining research activity at the previous year's level.
    Without a robust budget, NIH will be forced to reduce the number of 
grants it is able to fund. The number of new grants funded by NIH has 
been dropping steadily since fiscal year 2003 and this trend must stop. 
This shrinking pool of available grants has a significant impact on 
scientists who depend upon NIH support to cover their salaries and 
laboratory expenses to conduct high quality biomedical research. 
Failure to obtain a grant results in reduced likelihood of achieving 
tenure. This means that new and less established researchers will be 
forced to consider other careers, the end result being the loss of the 
critical workforce so desperately needed to sustain America's cutting 
edge in biomedical research.
    In order to continue the momentum of scientific advancement and 
expedite the translation of research findings from the laboratory to 
the patients who depend on these advances for improved health and 
welfare, the Society proposes $31.1 billion for NIH, an increase of 
$1.9 billion over the fiscal year 2008 funding level. In addition, we 
request that Congress strongly encourage the NIH to assure that women's 
health research receives resources sufficient to meet the health needs 
of all women.
    Scientists have long known of the anatomical differences between 
men and women, but only within the past decade have they begun to 
uncover significant biological and physiological differences. Sex-based 
biology, the study of biological and physiological differences between 
men and women, has revolutionized the way that the scientific community 
views the sexes. Sex differences play an important role in disease 
susceptibility, prevalence, time of onset and severity and are evident 
in cancer, obesity, heart disease, immune dysfunction, mental health 
disorders, and many other illnesses. It is imperative that research 
addressing these important differences between males and females be 
supported and encouraged. Congress clearly recognizes these important 
sex-based differences and should support NIH at an appropriate level of 
funding and direct NIH to continue expanding research into sex-based 
biology.
                  office of research on women's health
    The NIH Office of Research on Women's Health (ORWH) has a 
fundamental role in coordinating women's health research at NIH, 
advising the NIH Director on matters relating to research on women's 
health; strengthening and enhancing research related to diseases, 
disorders, and conditions that affect women; working to ensure that 
women are appropriately represented in research studies supported by 
NIH; and developing opportunities for and support of recruitment, 
retention, re-entry and advancement of women in biomedical careers. 
ORWH has a pivotal role within the NIH structure and beyond to maintain 
and advance not only biomedical research in women's health but also to 
support careers of women in science and medicine. Furthermore, ORWH 
strives to address sex and gender perspectives of women's health and 
women's health research, as well as differences among special 
populations of women across the entire life span, from birth through 
adolescence, reproductive years, menopausal years and elderly years.
    Two highly successful programs supported by ORWH that are critical 
to furthering the advancement of women's health research are Building 
Interdisciplinary Research Careers in Women's Health (BIRCWH) and 
Specialized Centers of Research on Sex and Gender Factors Affecting 
Women's Health (SCOR). These programs benefit the health of both women 
and men through sex and gender research, interdisciplinary scientific 
collaboration, and provide important support for young investigators in 
a mentored environment.
    The BIRCWH program is an innovative, trans-NIH career development 
program that provides protected research time for junior faculty by 
pairing them with senior investigators in an interdisciplinary mentored 
environment. It is expected that each scholar's BIRCWH experience will 
culminate in the development of an established independent researcher 
in women's health. In 2007, ORWH funded 15 new or type II centers in 
the fourth round of BIRCWH. Since 2000, 287 scholars have been trained 
(76 percent women) in the twenty-four centers resulting in over 882 
publications, 750 abstracts, 83 NIH grants and 85 awards from industry 
and institutional sources. Each BIRCWH receives approximately $500,000 
a year, most of which comes from the ORWH budget.
    The SCOR program, administered by the National Institute of 
Arthritis and Musculoskeletal and Skin Diseases, was developed by ORWH 
in 2000 through an initial RFA that resulted in 11 SCOR Centers out of 
36 applications. SCORs are designed to increase the transfer of basic 
research findings into clinical practice by housing laboratory and 
clinical studies under one roof. The eleven SCOR programs are 
conducting interdisciplinary research focused on major medical problems 
affecting women and comparing gender difference to health and disease. 
Each SCOR works hard to transfer their basic research findings into the 
clinical practice setting. Each program costs approximately $1 million 
per year.
    ORWH has made significant strides in raising awareness for women's 
health issue. This past year it launched a national educational and 
awareness campaign on vulvodynia in collaboration with other DHHS 
agencies and non-Federal partners; co-sponsored the 8th International 
Association for Chronic Fatigue Syndrome conference; co-sponsored an 
agency-wide training session on sex/gender, race and ethnicity issues 
in clinical research attended by over 300 NIH staff members; awarded 
the co-funding of sixteen grants to 9 institutes and centers exceeding 
$3.8 million for the advancement of sex/gender specific biomedical 
research; and led the NIH observance of the National Women's Health 
week.
    Despite the advancement of women's health research and ORWH's 
innovative programs to advance women scientists, it has been flat lined 
at $40.9 million for fiscal year 2008 and 2009 after having also 
received a cut of $249,000 in fiscal year 2006 and no additional 
funding in fiscal year 2007. Flat funding must not continue to happen. 
It imperative that the ORWH programs and research grants continue to 
thrive. This research is vital to women and men and we implore Congress 
to direct NIH to continue its support of ORWH and its programs.
                department of health and human services
    The Department of Health and Human Services (HHS) has several 
offices that enhance the focus of the government on women's health 
research, in addition to ORWH described above. Agencies with offices, 
advisors or coordinators for women's health or women's health research 
are the Department of HHS, the Food and Drug Administration, the 
Centers for Disease Control and Prevention, the Agency for Healthcare 
Quality and Research, the Indian Health Service, the Substance Abuse 
and Mental Health Services Administration, the Health Resources and 
Services Administration, and the Centers for Medicare and Medicaid 
Services. These agencies must be funded at levels adequate for them to 
perform their assigned missions. We ask that the Committee Report 
clarify that Congress supports the permanent existence of these various 
offices and would like to see them appropriately funded to ensure that 
their programs can continue and be strengthened in the coming fiscal 
year.
    The focus on women's health within HHS has been critical to the 
advances made in women's health in communicating the appropriate 
message to patients and health care providers. Scientists have only 
just scratched the surface of understanding female biology, with new 
information forthcoming as a result of the recent sequencing of the 
human X chromosome. Now is the time to strongly press ahead with this 
vital research to continue making discoveries and educating women about 
their health and these offices are critical to the success of this 
effort. Although many important programs can be identified from these 
women's health offices, we would like to bring two such programs to 
your specific attention, as follows.
                      hhs office of women's health
    The HHS Office of Women's Health (OWH) is the government's champion 
and focal point for women's health issues. It works to redress 
inequities in research, health care services, and education that have 
historically placed the health of women at risk. The OWH coordinates 
women's health efforts in HHS to eliminate disparities in health status 
and supports culturally sensitive educational programs that encourage 
women to take personal responsibility for their own health and 
wellness.
    In 2007, the OWH led efforts to improve breastfeeding information 
available to women of all cultures by offering multilingual websites 
and helplines. They collaborated with other organizations to lead a 
conference on ``Charting New Frontiers in Rural Women's Health,'' as 
well as hosting the third Minority Women's Health Summit to address the 
unique health issues many women of color experience. The OWH has 
continued their efforts to improve the health of young women by 
providing information on their website to address eating disorders and 
HIV/AIDS prevention for aldolescent girls, in conjunction with 
conducting their HIV/AIDS National Awareness Day.
    Since the beginning of 2008, the OWH has led a series of Women's 
Heart Health Fairs nationwide. In addition, they will empower women 
across the country to get healthy by sponsoring the National Women's 
Health Week in May of 2008. In conjunction with families, communities, 
business and other governmental and health organizations, the OWH will 
educate women on how they can improve their physical and mental health 
through various behavior modifications.
    It is only through continued funding that the OWH will be able to 
achieve its goals. While the budget for fiscal year 2008 increased the 
OWH budget by $2 million to a total of $30 million, it has been flat 
lined for fiscal year 2009. This is, in essence, a decrease due to 
inflation. Considering the amount and impact of women's health programs 
from OWH, we urge Congress to provide an increase of $2 million for the 
HHS OWH.
               agency for healthcare and research quality
    The Agency for Healthcare Research and Quality (AHRQ) is the lead 
public health service agency focused on health care quality, including 
coordination of all Federal quality improvement efforts and health 
services research. AHRQ's work serves as a catalyst for change by 
promoting the results of research findings and incorporating those 
findings into improvements in the delivery and financing of health 
care. This important information provided by AHRQ is brought to the 
attention of policymakers, health care providers, and consumers all of 
whom make a difference in the quality of health care that women 
receive.
    AHRQ has a valuable role in improving health care for women. 
Through AHRQ's research projects and findings, lives have been saved 
and underserved populations have been treated. For example, women 
treated in emergency rooms are less likely to receive life-saving 
medication for a heart attack. AHRQ funded the development of two 
software tools, now standard features on hospital electrocardiograph 
machines, which have improved diagnostic accuracy and dramatically 
increased the timely use of ``clot-dissolving'' medications in women 
having heart attacks.
    While AHRQ has made great strides in women's health research, the 
Administration's budget for fiscal year 2009 could threaten such life-
saving research. While AHRQ's fiscal year 2008 budget received an $11 
million increase, the President's proposed fiscal year 2009 budget 
marks an almost $9 million decrease. With the cost of inflation and 
years of flat funding, AHRQ has lost $19 million in purchasing power 
since 2005. With the President's proposed budget of approximately $325 
million, the agency stands to lose an additional $9 million. This 
Agency has been operating under a major shortfall for years. Decreased 
funding seriously jeopardizes the research and quality improvement 
programs that Congress mandates from AHRQ. We encourage Congress to 
fund AHRQ at $360 million for fiscal year 2009, an increase of $26 
million over the fiscal year 2008 level. This will ensure that adequate 
resources are available for high priority research, including women's 
health care, sex and gender-based analyses, Medicare, and health 
disparities.
    In conclusion, Mr. Chairman, we thank you and this Committee for 
its strong record of support for medical and health services research 
and its unwavering commitment to the health of the Nation through its 
support of peer-reviewed research. We look forward to continuing to 
work with you to build a healthier future for all Americans.
                                 ______
                                 
           Prepared Statement of the Spina Bifida Association
                                summary
    The Spina Bifida Association (SBA) respectfully requests that the 
Subcommittee provide the following allocations in fiscal year 2009 to 
help improve quality-of-life for people with Spina Bifida:
  --$7 million to the National Spina Bifida Program at the National 
        Center on Birth Defects and Developmental Disabilities at the 
        Centers for Disease Control and Prevention (CDC) to support 
        existing program initiatives and allow for the further 
        development of the National Spina Bifida Patient Registry.
                       background on spina bifida
    On behalf of the more than 70,000 individuals and their families 
who are affected by Spina Bifida--the Nation's most common, permanently 
disabling birth defect--the SBA appreciates the opportunity to submit 
written testimony for the record regarding fiscal year 2009 funding for 
the National Spina Bifida Program and other related Spina Bifida 
initiatives. SBA is the national voluntary health agency working on 
behalf of people with Spina Bifida and their families through 
education, advocacy, research and service. The Association was founded 
in 1973 to address the needs of the Spina Bifida community and today 
serves as the representative of 45 chapters serving more than 125 
communities nationwide. SBA stands ready to work with Members of 
Congress and other stakeholders to ensure our nation takes all the 
steps necessary to reduce and prevent suffering from Spina Bifida.
    Spina Bifida, a neural tube defect (NTD), occurs when the spinal 
cord fails to close properly during the early stages of pregnancy, 
typically within the first few weeks of pregnancy and most often before 
the mother knows that she is pregnant. Over the course of the 
pregnancy--as the fetus grows--the spinal cord is exposed to the 
amniotic fluid which increasingly becomes toxic. It is believed that 
the exposure of the spinal cord to the toxic amniotic fluid erodes the 
spine and results in Spina Bifida. There are varying forms of Spina 
Bifida occurring from mild--with little or no noticeable disability--to 
severe--with limited movement and function. In addition, within each 
different form of Spina Bifida the effects can vary widely. 
Unfortunately, the most severe form of Spina Bifida occurs in 96 
percent of children born with this birth defect.
    The result of this neural tube defect is that most people with it 
suffer from a host of physical, psychological, and educational 
challenges--including paralysis, developmental delay, numerous 
surgeries, and living with a shunt in their skulls which seeks to 
ameliorate their condition by helping to relieve cranial pressure 
associated with spinal fluid that does not flow properly. As we have 
testified previously, the good news is that after decades of poor 
prognoses and short life expectancy, children with Spina Bifida are now 
living long enough to become adults with Spina Bifida. These gains in 
longevity principally are due to breakthroughs in research, combined 
with improvements generally in health care and treatment. However, with 
this extended life expectancy, our nation and people with Spina Bifida 
now face new challenges--education, job training, independent living, 
health care for secondary conditions, aging concerns, among others. 
Despite these gains, individuals and families affected by Spina Bifida 
face many challenges--physical, emotional, and financial. Fortunately, 
with the advent of the National Spina Bifida Program 4 years ago, 
individuals and families affected by Spina Bifida now have a national 
resource to provide them with the support, information, and assistance 
they need and deserve.
    While the consumption of 400 micrograms of folic acid daily prior 
to becoming pregnant and throughout the first trimester of pregnancy, 
can help reduce the incidence of Spina Bifida by up to 75 percent, 
1,500 babies are born with Spina Bifida each year and our nation still 
must take steps to ensure that the tens of thousands of individuals 
living with Spina Bifida can live full, healthy, and productive lives.
                          cost of spina bifida
    It is important to note that the lifetime costs associated with a 
typical case of Spina Bifida--including medical care, special 
education, therapy services, and loss of earnings--are as much as $1 
million. The total societal cost of Spina Bifida is estimated to exceed 
$750 million per year, with just the Social Security Administration 
payments to individuals with Spina Bifida exceeding $82 million per 
year. Moreover, tens of millions of dollars are spent on medical care 
paid for by the Medicaid and Medicare Programs. Our nation must do more 
to help reduce the emotional, financial, and physical toll of Spina 
Bifida on the individuals and families affected. Efforts to reduce and 
prevent suffering from Spina Bifida help to save money and save lives.
  improving quality-of-life through the national spina bifida program
    SBA has worked with Members of Congress to ensure that our nation 
is taking all the steps possible to prevent Spina Bifida and diminish 
suffering for those currently living with this condition. With 
appropriate, affordable, and high-quality medical, physical, and 
emotional care, most people born with Spina Bifida likely will have a 
normal or near normal life expectancy. The National Spina Bifida 
Program at the CDC works on two critical levels--to reduce and prevent 
Spina Bifida incidence and morbidity and to improve quality-of-life for 
those living with Spina Bifida. The program seeks to ensure that what 
is known by scientists is practiced and experienced by the 70,000 
individuals and families affected by Spina Bifida. Moreover, the 
National Spina Bifida Program works to improve the outlook for a life 
challenged by this complicated birth defect--principally identifying 
valuable therapies from in-utero throughout the lifespan and making 
them available and accessible to those in need.
    The National Spina Bifida Program serves as a national center for 
information and support to help ensure that individuals, families, and 
other caregivers, such as health professionals, have the most up-to-
date information about effective interventions for the myriad primary 
and secondary conditions associated with Spina Bifida. Among many other 
activities, the program helps individuals with Spina Bifida and their 
families learn how to treat and prevent secondary health problems, such 
as bladder and bowel control difficulties, learning disabilities, 
depression, latex allergy, obesity, skin breakdown and social and 
sexual issues. Children with Spina Bifida often have learning 
disabilities and may have difficulty with paying attention, expressing 
or understanding language, and grasping reading and math. All of these 
problems can be treated or prevented, but only if those affected by 
Spina Bifida--and their caregivers--are properly educated and taught 
what they need to know to maintain the highest level of health and 
well-being possible. The National Spina Bifida Program's secondary 
prevention activities represent a tangible quality-of-life difference 
to the 70,000 individuals living with Spina Bifida with the goal being 
living well with Spina Bifida.
    One way to increase research in Spina Bifida, improve quality and 
save precious resources is to establish a patient registry for Spina 
Bifida. Plans are underway to create the National Spina Bifida Patient 
Registry intended to determine both the best practices clinically and 
the cost effectiveness of treatment of Spina Bifida and the support the 
creation of quality measures to improve care overall. It is only 
through research towards improved care that we can truly save lives 
while realizing a significant cost savings.
    In fiscal year 2008, SBA requested $7 million be allocated to the 
National Spina Bifida Program to support and expand the National Spina 
Bifida Program. While the Senate version of the fiscal year 2008 LHHS 
appropriations bill provided $5.5 million request, the fiscal year 2008 
Continuing Appropriations Resolution provided just $5.198 million for 
this program. SBA understands and appreciates that the Congress and the 
nation face difficult budgetary challenges. However, the progress being 
made by the National Spina Bifida Program must be sustained and 
expanded to ensure that people with Spina Bifida--over the course of 
their lifespan--have the support and access to quality care they need 
and deserve. To that end, SBA advocates that Congress allocate $7 
million in fiscal year 2009 to the National Spina Bifida Program it can 
continue its current scope of the work and increase its folic acid 
awareness and Spina Bifida prevention efforts, further develop the 
National Spina Bifida Patient Registry, and sustain the National Spina 
Bifida Clearinghouse and Resource Center. Increasing funding for the 
National Spina Bifida Program will help ensure that our nation 
continues to mount a comprehensive effort to prevent and reduce 
suffering from Spina Bifida.
                        preventing spina bifida
    While the exact cause of Spina Bifida is unknown, over the last 
decade, medical research has confirmed a link between a woman's folate 
level before pregnancy and the occurrence of Spina Bifida. Sixty-five 
million women are at-risk of having a child born with Spina Bifida and 
each year approximately 3,000 pregnancies in this country are affected 
by Spina Bifida, resulting in 1,500 births. As mentioned above, the 
consumption of 400 micrograms of folic acid daily prior to becoming 
pregnant and throughout the first trimester of pregnancy can help 
reduce incidence of Spina Bifida up to 75 percent. There are few public 
health challenges that our nation can tackle and conquer by three-
fourths in such a straightforward fashion. However, we must still be 
concerned with addressing the 25 percent of Spina Bifida cases that 
cannot be prevented by folic acid consumption, as well as ensuring that 
all women of childbearing age--particularly those most at-risk for a 
Spina Bifida pregnancy--consume adequate amounts of folic acid prior to 
becoming pregnant.
    The good news is that progress has been made in convincing women of 
the importance of folic acid consumption and the need to maintain a 
diet rich in folic acid. Since 1968, the CDC has led the nation in 
monitoring birth defects and developmental disabilities, linking these 
health outcomes with maternal and/or environmental factors that 
increase risk, and identifying effective means of reducing such risks. 
This public health success should be celebrated, but it is only half of 
the equation as approximately 3,000 pregnancies still are affected by 
this devastating birth defect. The nation's public education campaign 
around folic acid consumption must be enhanced and broadened to reach 
segments of the population that have yet to heed this call--such an 
investment will help ensure that as many cases of Spina Bifida can be 
prevented as possible.
    SBA is the managing agent for the National Council on Folic Acid, a 
multi-sector partnership reaching over 100 million people a year with 
the folic acid message. The goal is to increase awareness of the 
benefits of folic acid, particular for those at elevated risk of having 
a baby with neural tube defects (those who have Spina Bifida themselves 
or those who have already conceived a baby with Spina Bifida). With 
additional funding in fiscal year 2009 these activities could be 
expanded to reach the broader population in need of these public health 
education, health promotion, and disease prevention messages. SBA 
advocates that Congress provide additional funding to CDC to allow for 
a particular public health education and awareness focus on at-risk 
populations (e.g. Hispanic-Latino communities) and health professionals 
who can help disseminate information about the importance of folic acid 
consumption among women of childbearing age.
    In addition to a $7 million fiscal year 2009 allocation for the 
National Spina Bifida Program, SBA urges the Subcommittee to provide 
increased funding for the NCBDDD so the agency can enhance its programs 
and initiatives to prevent birth defects and developmental disabilities 
and promote health and wellness among people with disabilities.
        improving health care for individuals with spina bifida
    The mission of the Agency for Healthcare Research and Quality 
(AHRQ) is to improve the outcomes and quality of health care; reduce 
its costs; improve patient safety; decrease medical errors; and broaden 
access to essential health services. The work conducted by the agency 
is vital to the evaluation of new treatments in order to ensure that 
individuals and their families living with Spina Bifida continue to 
receive the high quality health care that they need and deserve--SBA 
urges the Subcommittee to provide $360 million to AHRQ so the agency 
can continue to provide guidance to support the National Spina Bifida 
Patient Registry.
         sustain and seize spina bifida research opportunities
    Our nation has benefited immensely from our past federal investment 
in biomedical research at the National Institutes of Health (NIH). SBA 
joins with the rest of the public health and research community in 
advocating that NIH receive a 6.4 percent increase ($30.842 billion) in 
fiscal year 2009. This funding will support applied and basic 
biomedical, psychosocial, educational, and rehabilitative research to 
improve the understanding of the etiology, prevention, cure and 
treatment of Spina Bifida and its related conditions. In addition, SBA 
requests that the Subcommittee include language in the report 
accompanying the fiscal year 2009 LHHS measure to:
  --Urge the National Institute of Child Health and Human Development 
        (NICHD)--expansion of its role--and support of--a more 
        comprehensive Spina Bifida research portfolio;
  --Commend the National Institute of Diabetes and Digestive and Kidney 
        Diseases (NIDDK) for its interest in exploring issues related 
        to the neurogenic bladder and to encourage the institute to 
        forge ahead with its work in this important topic area; and
  --Encourage the National Institute of Neurological Diseases and 
        Stroke (NINDS) to continue and expand its research related to 
        the treatment and management of hydrocephalus.
                               conclusion
    SBA stands ready to work with the Subcommittee and other Members of 
Congress to advance policies that will reduce and prevent suffering 
from Spina Bifida. Again, we thank you for the opportunity to present 
our views on funding for programs that will improve the quality-of-life 
for the 70,000 Americans and their families living with Spina Bifida 
and stand ready to answer any questions you may have.
                                 ______
                                 
 Prepared Statement of the State Association of Addition Services and 
                          Legal Action Center
    State Associations of Addiction Services (SAAS) and Legal Action 
Center (LAC) appreciate the opportunity to submit testimony on fiscal 
year 2009 funding for substance abuse prevention and addiction 
treatment, recovery, and research programs. SAAS is a national 
organization representing State provider associations and community-
based alcohol and drug abuse prevention and addiction treatment 
programs in 44 States. The mission of SAAS is to ensure the 
availability and accessibility of quality drug and alcohol treatment, 
prevention, education, and research programs. LAC is a non-profit law 
and policy organization that works to expand services for people with 
alcohol and/or drug addictions, people living with HIV/AIDS, and people 
with criminal records.
   field recommendations for drug and alcohol prevention, treatment, 
          education and research funding for fiscal year 2009
    In partnership with other prevention and treatment advocates, we 
urge Congress to adopt the following funding levels in fiscal year 2009 
for alcohol and drug prevention, treatment, recovery and research 
programs in the Substance Abuse and Mental Health Services 
Administration (SAMHSA), the Department of Education, and the National 
Institutes of Health. These investments will provide desperately needed 
services in communities across the country:
  --$1.8587 billion for the Substance Abuse Prevention and Treatment 
        Block Grant
  --$420 million for the Center for Substance Abuse Treatment (CSAT)
  --$215 million for the Center for Substance Abuse Prevention (CSAP)
  --$346.5 million for the Safe and Drug Free Schools and Communities 
        State Grants program
  --$465.5 million for the National Institute on Alcohol Abuse and 
        Alcoholism (NIAAA)
  --$1.0678 billion for the National Institute on Drug Abuse (NIDA)
           closing the prevention and treatment services gap
    According to SAMHSA, in 2006 23.6 million Americans, or 9.6 percent 
of the population aged 12 or older, needed treatment for an illicit 
drug or alcohol use problem. Of these, just 2.5 million individuals 
received treatment at a specialty facility, leaving 21.2 million 
persons in need of these life-saving services. Over forty percent of 
those who tried to get help for their addiction were denied treatment 
because of cost or insurance barriers. Such barriers mean that for many 
people, Federal- and State-funded programs are the only means available 
to obtain these critical services.
  addiction can be prevented and treated with cost-effective services
    Numerous studies have demonstrated the effectiveness of substance 
abuse prevention and addiction treatment services in reducing alcohol 
and drug addiction and use. Addictions treatment has been shown to cut 
drug use in half, reduce crime by 80 percent and reduce arrests up to 
64 percent. Addiction treatment is also sustainable; addictions 
treatment is significantly associated with a 67 percent reduction in 
weekly cocaine use, a 65 percent reduction in weekly heroin use, a 52 
percent decrease in heavy alcohol use, a 61 percent reduction in 
illegal activity, and a 46 percent decrease in suicidal ideation one 
year post treatment. Moreover, these outcomes are generally stable for 
the same clients five years post treatment.
    Prevention activities and strategies have also been shown to be 
effective in reducing alcohol and drug use and the risk of addiction, 
and in effecting academic achievement. A recent University of 
Washington study found that the level of peer substance use in schools 
has a substantial impact on academic performance; students whose peers 
avoided substance use had test scores that were on average 18 points 
higher for reading, and 45 points higher for math. The Center for 
Substance Abuse Prevention (CSAP) has identified numerous models of 
prevention programs backed by research findings of effectiveness that 
empower communities to meet their unique needs.
    In addition to reducing drug use, treatment and prevention are 
cost-effective. According to SAMHSA, for every dollar the U.S. 
Government spends on addictions treatment it saves $7 to $25 in other 
costs. A number of State studies have also demonstrated the cost-
effectiveness of treatment and prevention. One study found that in 
Ohio, every $1 spent on addiction treatment saved $11 in other health 
care costs. A Washington State study showed a 50 percent decrease in 
all other medical expenses for those receiving treatment. In addition, 
a Washington State study of school-based prevention programs found that 
a number of these programs resulted in a $70.34 benefit for each dollar 
of programming spent for each participating young person. These savings 
resulted from increased productivity and reduced health care, criminal 
justice, and social services costs.
   federal funding is essential to prevent substance abuse and treat 
                               addiction
    Programs that serve people with alcohol and drug addiction depend 
nearly exclusively on public funds. According to SAMHSA's recent 
National Expenditure Report, public funding provides the vast majority 
of substance abuse expenditures, increasing from 62 percent in 1991 to 
76 percent in 2001. Private insurance represented only 13 percent of 
addiction treatment expenditures in 2001, while it covered 36 percent 
of all health care expenditures. However, although the alcohol and drug 
addiction treatment system relies heavily on public funds, an extremely 
small percentage of health care spending is used for treatment. In 
2001, of the $1.4 trillion spent on health care, an estimated $18 
billion was devoted to treatment of alcohol and drug addiction, 
constituting just 1.3 percent of all health care spending. In 1998, the 
total economic costs of alcohol and drug addiction, including medical 
consequences, lost earnings linked to premature death, lost 
productivity, motor vehicle crashes, crime, and other social 
consequences, were estimated at $328 billion. Expenditures on addiction 
treatment grew 1.7 percentage points less than the growth rate of all 
health care.
the continuum of drug and alcohol programming must be adequately funded
    We urge Congress to improve access to, and the effectiveness of, 
life-saving drug and alcohol services and research by increasing 
support for the following programs:
$1.8587 billion for the Substance Abuse Prevention and Treatment Block 
        Grant
    Funding for the Substance Abuse Prevention and Treatment (SAPT) 
Block Grant, the foundation of the publicly supported prevention and 
treatment system in this country, has been cut by over $20 million over 
the past several years. As the cornerstone of the nation's prevention 
and treatment system, the SAPT Block Grant must receive increased 
funding in order to meet current demand and increase access to 
services. SAMHSA's most recent data indicates that the SAPT Block Grant 
serves nearly 2 million people every year, providing roughly half of 
all public funding for treatment services. Over 10,500 community-based 
organizations receive Block Grant funding from the States. The Block 
Grant also provides crucial support for the States' prevention 
programs, designating 20 percent of the total funding for this purpose.
    In many local jurisdictions, individuals can wait long periods 
before they are able to access appropriate drug and alcohol treatment. 
This access problem is caused in part by the fact that private and 
public insurance frequently do not cover the cost of treatment and 
States face unprecedented financial pressures, making treatment funding 
even more scarce and increasing the importance of the Block Grant. 
Funding the full continuum of services is extremely difficult for many 
jurisdictions given the limited amounts of funds that are available, 
the pressures facing other funding streams, such as Medicaid, and the 
restricted coverage provided by private insurance. Additional Block 
Grant funding would help alleviate the pressure on services and provide 
greater access to high-quality drug and alcohol prevention and 
treatment services.
$420 million for the Center for Substance Abuse Treatment (CSAT)
    Although the fiscal year 2009 proposes a $62.8 million cut to CSAT, 
sustaining and increasing funding for CSAT programming is essential to 
close the treatment gap. Funding for CSAT's Programs of Regional and 
National Significance supports States and communities to carry out an 
array of activities for service capacity expansion, service 
improvements and other priority needs. These programs are critical in 
order to ensure that what is learned about addiction through scientific 
research is effectively shared with the treatment provider community. 
In addition, funding for CSAT's Capacity category of programming that 
support services that are tailored to address specific and emerging 
drug epidemics and/or underserved populations, such as youth, pregnant 
and parenting women, and communities of color must be strengthened. 
Unfortunately, under the fiscal year 2009 budget, these programs would 
be cut by $48.5 million from last year. These CSAT funds are critical 
and enable States and regions dealing with emerging needs, such as 
veterans returning home in need of essential addiction treatment 
services, to appropriately address them. Another key program we urge 
support for within CSAT is the Screening, Brief Intervention, and 
Referral to Treatment (SBIRT) program which helps to link primary care 
and emergency services providers with treatment programs.
    We also support the innovative approaches that SAMHSA has developed 
to expand the continuum of services offered and the range and capacity 
of providers. Peer recovery support services, provided through CSAT's 
Access to Recovery and Recovery Community Services Programs, are 
integral to recovery-oriented systems of care. We support building on 
these program's successes, including providing additional support for 
recovery support services critical to helping individuals stay healthy 
and drug-free.
$215 million for the Center for Substance Abuse Prevention (CSAP)
    Addiction is a disease that begins in adolescence; young people who 
start drinking before the age of 15 are five times more likely to have 
alcohol problems later in life than those who begin drinking at age 21 
or older. Research by the National Institute on Drug Abuse (NIDA) has 
shown that if we can stop use and abuse before age 25, we will 
significantly reduce the prevalence of addiction. Under the proposed 
budget, CSAP would receive a cut of $36 million. Prevention efforts are 
effective in deterring young people from using illicit drugs and 
alcohol. We strongly support CSAP's Strategic Prevention Framework to 
promote the use of performance measurement by providers, expand 
collaboration across community agencies, and support implementation of 
effective prevention programs at the State and community levels. 
Unfortunately, the President's request would cut funding for this 
critical program by $9.3 million. CSAP's Strategic Prevention Framework 
is helping communities to promote youth development, reduce risk-taking 
behaviors, build assets and resilience, and prevent problem behaviors 
across the life span and needs increased funding to continue and to 
expand its reach.
$346.5 million for the Safe and Drug Free Schools and Communities State 
        Grants program
    The Safe and Drug Free Schools and Communities (SDFSC) State Grants 
Program is the backbone of school-based prevention efforts in the 
United States, and supports community-based prevention programming 
throughout this country. According to recent data, upwards of 37 
million youth are served annually by programs funded through SDFSC. The 
SDFSC program has had a significant impact on helping to achieve the 17 
percent overall decline in youth drug use over the past three years, 
documented by the 2004 Monitoring the Future survey, and is having a 
significant impact in many States. We strongly urge the subcommittee to 
support this program and to protect its funding. The President's budget 
proposes funding of $100 million for the SDFSC State Grants program, a 
crippling cut of nearly $195 million. Cutting the SDFSC program will 
leave millions of American children without any drug prevention 
education.
$465.5 million for research at the National Institute on Alcohol Abuse 
        and Alcoholism (NIAAA) and $1.0678 billion at the National 
        Institute on Drug Abuse (NIDA)
    Research into the causes, costs, treatment, and prevention of 
alcoholism and drug addiction plays an essential role in improving the 
quality of services. Increasing the support available for research on 
drug and alcohol addiction would allow future research to focus on 
additional effective prevention strategies, medications development, 
and treatment and service delivery throughout the criminal justice 
system.
    NIAAA and NIDA are both taking steps to promote the transfer of new 
research to practice, including collaboration with SAMHSA, State 
agencies and providers. Over the past several years, NIDA has made 
extraordinary scientific advances in understanding the nature of 
addiction, such as those made through the use of imaging technologies 
like PET scans, and through the development of the new treatment 
technologies and medications. Additionally, NIDA's Criminal Justice 
Drug Abuse Treatment Studies (CJ-DATS) research is designed to improve 
outcomes for people with substance use disorders by improving the 
integration of drug abuse treatment with other public health and public 
safety systems. Research on addiction as a disease has been useful in 
the development and testing of new science-based therapies. NIAAA also 
has conducted breakthrough research that has improved clinical 
practice, with much of this research focusing on the genetics, 
neurobiology, and environmental factors that underlie alcohol 
addiction. NIAAA also has sought to use new information about alcohol 
use to promote education and an effective public health response to 
this problem.
                               conclusion
    Our Nation is spending only a fraction of what is necessary to 
prevent alcohol and drug abuse and treat addiction--a total of $18 
billion from all sources of funds, compared to social and economic 
costs estimated well in excess of $300 billion. Funding appropriated by 
Congress is the critical foundation for prevention, treatment, 
education, and research. We urge the Subcommittee to approve the 
funding levels that we and other organizations in the field have 
recommended. Thank you for your consideration.
                                 ______
                                 
    Prepared Statement of the Susan G. Komen Cure Advocacy Alliance
    Chairman Harkin, ranking member Specter, and members of the 
subcommittee:
    On behalf of the Susan G. Komen for the Cure Advocacy Alliance, I 
would like to thank you for the opportunity to submit written testimony 
regarding Federal funding to fight breast cancer. Specifically, I would 
like to take this time to stress the importance of increased funding 
for the National Institutes of Health (NIH), including the National 
Cancer Institute (NCI), and the Centers for Disease Control and 
Prevention (CDC), both of which play a critical role in finding and 
delivering the cures for breast cancer. In addition, Komen for the Cure 
supports full funding for the Patient Navigator Outreach and Chronic 
Disease Prevention Act of 2005 administered by the Health Resources and 
Services Administration. As the appropriations subcommittee with 
jurisdiction over these agencies, we hope you will consider our 
request.
               background on susan g. komen for the cure
    Susan G. Komen for the Cure is the world's largest grassroots 
network of breast cancer survivors and activists fighting to save 
lives, empower people, ensure quality care for all and energize science 
to find the cures. Thanks to events like the Komen Race for the Cure, 
in its first 25 years, Komen for the Cure invested $1 billion to 
fulfill its promise, becoming the largest source of nonprofit funds 
dedicated to the fight against breast cancer in the world. To continue 
this progress, Komen for the Cure has pledged to invest another $2 
billion in the next 10 years. In 2007 alone, Komen for the Cure awarded 
almost $70 million in community health grants for education, screening 
and treatment, and more than $75 million in grants for cancer research. 
And Komen is on track to award more than $100 million in research 
grants this year. But while Komen has had a significant impact on 
breakthrough research in breast cancer, we can't do it alone. Federal 
funding for research must keep pace with biomedical inflation and the 
ever-changing world of science.
    In addition to grant-making, Komen has advocated tirelessly for 
improved access to high quality care for breast cancer patients. We 
have long been a champion of the National Breast and Cervical Cancer 
Early Detection Program (NBCCEDP), and we successfully advocated for 
the program's reauthorization last year. But again, we can't do it 
alone. Successful programs such as the NBCCEDP must be fully funded to 
allow all women access to the screening and treatment services they 
deserve.
                 the importance of nih and nci funding
    Komen for the Cure supports the One Voice Against Cancer (OVAC) 
request of $30.81 billion for the NIH in fiscal year 2009. This 
represents a 6.5 percent increase over the fiscal year 2008 budget. In 
addition, Komen supports OVAC's request for a 9.5 percent increase in 
funding for fiscal year 2009 for the NCI ($5.26 billion). The NCI 
funding increase is based on the professional judgment budget (also 
known as the ``by-pass'' budget) issued by the NCI and would provide 
sufficient funding for continuing current services. It should be noted 
that the appropriation given to the NCI by Congress has traditionally 
met or exceeded the amount requested in the by-pass budget. Fiscal year 
2006 marked the first year that the appropriation dipped below the by-
pass budget--we must reverse this trend. In addition, a 9.5 percent 
increase provides the NCI only with enough resources to continue 
current services. The Institute has stated that a 25 percent increase 
would be needed to implement new initiatives. In this context, we 
believe 9.5 percent is a reasonable request.
    Previous investments in research have allowed us to make 
significant progress toward discovering and delivering the cures for 
breast cancer. During the ``doubling'' of the NIH budget from 1998-
2003, incredible advances were made in our understanding of the genetic 
causes of cancer, how to disrupt the growth and spread of cancerous 
cells without destroying healthy cells, and in the development of 
diagnostic tools and treatments that can be tailored to an individual 
or specific type of cancer based on genetic traits. Today, research 
opportunities abound in both basic and translational settings, 
including:
  --Adult Stem Cell Research.--Some researchers believe that stem cells 
        (cells that give rise to all cells in the body) are the source 
        of at least some, and perhaps all, cancers. Breakthroughs in 
        adult stem cell research may allow us to develop more effective 
        treatments;
  --RNA Interference.--A technology with the potential to turn off the 
        genes that make cancer grow;
  --Nanotechnology.--Tiny particles can be coated with a special 
        material, and when introduced into the body, these particles 
        may be able to target and kill cancer cells from the inside 
        out;
  --Gene Therapy.--In gene therapy, a specific gene can be transferred 
        into a patient's cancer cells to make them more responsive to 
        treatment. A gene can also be transferred into a patient's 
        immune system cells to make them better able to fight the 
        cancer;
  --Anti-angiogenesis Drugs.--Anti-angiogenesis drugs work by 
        preventing tumors from developing new blood vessels, thereby 
        preventing growth of the tumor; and
  --Targeted Therapies and Personalized Medicine.--An ever-expanding 
        list of targeted therapies is making breast cancer treatment 
        more specific and possibly less toxic.
    However, many of these promising areas of research will not receive 
funding if the NIH and the NCI continue to be under-funded. A recent 
report by a group of concerned universities, ``A Broken Pipeline?: Flat 
Funding of the NIH Puts a Generation of Science at Risk'' paints a grim 
picture for the future of science. Only 24 percent of NIH R01 grants 
(or equivalents) were funded in 2007, down from 32 percent in 1999. 
Even worse, only 12 percent of grants were funded on the first 
submission in 2007, compared to 29 percent in 1999. Scientists spend 
more time writing than researching. For young investigators, the 
success rate is particularly difficulty--1 in 4 NIH grants is awarded 
to a first-time grantee. Persistent under-funding at the NIH is costing 
us a generation of promising young scientists and untold missed 
opportunities to find a cure for breast cancer. Opportunities we can't 
recoup if we do not act now to reverse the downward trend in the NIH 
budget.
    One in eight women will be diagnosed with breast cancer in the 
course of her lifetime. In 2008, more than 182,000 women will be 
diagnosed with breast cancer and more than 40,000 women will die from 
the disease. The burden of breast cancer, and of all cancers, remains 
enormous. Cancer deaths account for one out of every four deaths in the 
United States and cost our economy over $200 billion annually, and yet 
we spend only $5 billion at NCI on oncology research. We owe it to all 
of those affected by this disease, and to their families, friends and 
loved ones, to adequately fund the NIH and the NCI so that we can find 
a cure for cancer. We owe it to young investigators who have dedicated 
their professional lives to cancer research to provide adequate federal 
funding through the NIH and NCI so they can continue to make innovative 
breakthroughs in science. And finally, we owe it to the United States, 
as the global leader of biomedical research to continue to provide 
increases in funding to the NIH.
  the cdc national breast and cervical cancer early detection program
    In addition to an increase in funding for NIH and NCI, Komen for 
the Cure also requests that Congress appropriate $250 million for CDC's 
National Breast and Cervical Cancer Early Detection Program (NBCCEDP).
    The NBCCEDP is designed to reach underserved women to provide 
screening services for breast and cervical cancer as well as 
appropriate referrals for treatment and support services as necessary. 
In addition to clinical services, NBCCEDP programs develop and 
disseminate public information about the importance of screening, 
improve the education, training and skills of health professionals in 
the detection of breast and cervical cancer, engage in outreach efforts 
to serve as many eligible women as possible, monitor and evaluate the 
program, including the quality of screening services, and report 
certain data to CDC. The heart of the program is to provide screening 
services to low-income, uninsured, and underinsured women aged 18 to 64 
with incomes under 250 percent of the Federal poverty level. The women 
served are often in at-risk populations and those least likely to be 
screened. According to the CDC, since 1991, the NBCCEDP has served more 
than 3 million women by providing more than 7.2 million screening 
examinations, and diagnosing 30,963 breast cancers, 1,934 invasive 
cervical cancers, and 101,624 precursor cervical lesions.
    The NBCCEDP is an invaluable service to women who are served by the 
program. There is no cure for breast cancer. Without a cure, early 
detection is key to survival. Timely mammography screening of women 
over age 40 could prevent 15 to 30 percent of all deaths from breast 
cancer--when breast cancer is detected early, while still confined to 
the breast, the 5-year survival rate is more than 98 percent. However, 
many low income women are uninsured or underinsured and would never 
receive a mammogram without access to NBCCEDP services.
    From a high of $210 million in fiscal year 2004, funding for the 
NBCCEDP has either declined or remained essentially flat for the 
subsequent years. In fiscal year 2008, the program received only 
approximately $200 million, despite an authorization level of $225 
million. Programs are severely strained by the lack of adequate 
resources--only 14.7 percent of eligible women were screened for breast 
cancer and only 6.7 percent of eligible women were screened for 
cervical cancer in 2006. We urge Congress to fully fund NBCCEDP to 
allow these programs to reach as many women as possible and save as 
many lives as possible.
                           patient navigators
    Finally, Komen for the Cure would like to offer support for full 
funding ($6.5 million) for fiscal year 2009 for the Patient Navigator 
Outreach and Chronic Disease Prevention Act of 2005 administered by the 
Health Resources and Services Administration. The Act authorizes 
appropriations of $2 million for fiscal year 2006, $5 million for 
fiscal year 2007, $8 million for fiscal year 2008, $6.5 million for 
fiscal year 2009, and $3.5 million for fiscal year 2010, however no 
money has been appropriated to date.
    Patient navigation services are critical to address barriers to 
quality cancer care, particularly for minority and underserved patients 
who often do not speak English, have low literacy skills, are 
uninsured, and/or live long distances from treatment centers. These 
patients have difficulty accessing quality care and have trouble 
coordinating their cancer care, leading to disjointed treatment, 
inadequate patient-doctor communication, difficulty with follow-up 
appointments, and poor adherence to treatment regimens. Patient 
navigators help patients ``navigate'' the maze of doctors, insurers and 
patient support groups. For breast cancer patients, a patient navigator 
can provide personalized education on breast surgery options, 
chemotherapy, and radiation therapy, as well as facilitating 
communication with physicians and other health professionals.
    Komen for the Cure is committed to ensuring all breast cancer 
patients have access to a patient navigator if they so desire. To this 
end, we urge Congress to fully fund the Patient Navigator Outreach and 
Chronic Disease Prevention Act at $6.5 million for fiscal year 2009.
                            funding requests
    Thank you for the opportunity to submit this written testimony. To 
reiterate, our fiscal year 2009 funding requests are as follows:
  --NIH.--$30.81 billion (6.5 percent increase over fiscal year 2008);
  --NCI.--$5.26 billion (9.5 percent increase in over fiscal year 
        2008);
  --CDC's National Breast and Cervical Cancer Program.--$250 million.
  --Patient Navigator Outreach and Chronic Disease Prevention Act.--
        $6.5 million.
                                 ______
                                 
                   Prepared Statement of Teanya Davis
                            my fibromyalgia
    My name is Teanya Davis and I have Fibromyalgia. It has taken years 
to, finally, get a diagnosis to explain what is wrong with me. To this 
day, I don't understand why it took so long to reach that conclusion, 
all the while, being made to feel ``it was all in my head''. The 
following is my story, in hopes that it will help bring light to the 
needed research and obvious help we, as sufferers, must have so that we 
may lead as normal a life as possible with this dreaded syndrome. 
Please, help us so we can, prayerfully, live a more fulfilling life for 
our families and ourselves.
    I'm going to try to explain what it's like for me to live with this 
syndrome so that, hopefully, you will understand me better.
    I have spent years (approx. 5) suffering with all kinds of pain and 
different phenomenon going on with my body, yet, not understanding why. 
In the same turn, have spent the same being told, or made to feel, 
``it's all in my head'' and I'm a ``hypochondriac''. Being referred 
from one specialist to another, finding little things here and there, 
but no real answers to the big problems I've been plagued with. Some 
even going so far as to look at my psychotropic med list and, 
instantly, write me off as ``depressed''.
    First of all, who wouldn't be depressed living with so much going 
on with their bodies and feeling as though most were writing them off 
as a hypochondriac, especially, their own family members? But think how 
it would feel if you knew that, even though you were depressed, you 
knew the pain wasn't caused from that; it was the other way around and, 
yet, you couldn't get people to understand that.
    Picture having blinding headaches (migraines) that hurt so bad, you 
find yourself worrying when the next one will strike--a debilitating/
blinding pain that keeps you from being able to do anything but pray 
for it to stop. It hurts so much you can't even cry, fearing your head 
will explode so, lying motionless, awaiting precious sleep/
unconsciousness to take you away and pray you'll wake to less, or no 
pain, if you're lucky.
    Picture knowing that, when you walk, you must look like some kind 
of clown because your hips have an unbearable ache and one of your legs 
is forever threatening to give way, feeling as though you're a walking 
slinky, on top of the further pain that spreads through your back and 
legs.
    Picture the ``simple'' task of merely sweeping your floor, with 
every muscle in your body screaming in agony, as you try to remind 
yourself, ``it has to be done'' and, ``this is not actually causing 
physical damage, even though it feels like it's killing me''. And, at 
the same time, you have to pry your hands open because the muscles have 
painfully contracted and formed themselves around the broom handle, as 
they do with about anything else, when held in position for any length 
of time.
    Picture yourself just standing and having a conversation with 
someone when, all of a sudden, you get a stabbing pain in your lower 
back that turns into a horrible ache, as you find your muscles are 
pulling you in the wrong direction (like you're doing a backbend).
    Picture the worst flu you've ever had and multiply it by 10, if not 
more, and imagine someone telling you that the reason you're vomiting 
has to be, ``because you must have gorged on a meal'' or, making you 
feel guilty because you literally can't get out of bed, due to the 
constant ache, fatigue, etc.
    Picture yourself trying to do something as simple as sitting to 
watch a movie and, in a split second, your legs get an almost 
unbearable ache that's indescribable, and there's no way to relieve it, 
except just wait for it to go away on it's own.
    Picture being afraid of a mere hug from someone because it actually 
hurts but, since you want to hug the person, you have to mentally 
prepare yourself for the pain you know is coming. A simple act you say? 
For you, yes; for me, I can only wish!
    Picture being so exhausted that you could, literally, collapse 
right where you stand, or even sit (yes, even sitting can hurt). Now, 
think of having that exhaustion 24/7, while knowing at times it just 
can't matter because there are things you have to do, no matter what's 
going on with you, even when you feel like you could die and sometimes 
wish it.
    Picture feeling every kind of weird sensation that a body can 
experience and knowing that there are days you are going to have them 
all happen at once, or at least in a single day. Anything from twitches 
that can be so strong, you actually see them; indescribable aches/
pains; itching for no reason, except that it feels there's a hair/
feathery-like feeling on your skin; shocking sensations that make you 
feel like you could wet yourself; finding your hair actually hurts to 
move it; stabbing, shooting, aching, prickling, tingling, shocking; a 
really odd sensation I still don't understand when I find out it's from 
the barometric pressure.
    Picture talking to someone and feeling frustrated because you're 
finding it hard to follow the conversation (not because you're 
distracted); you can be looking right into the person's eyes and, all 
of a sudden, it's like they might as well be speaking a foreign 
language. Also, think of trying to say something and tripping over 
every word, IF you can recall what you were saying in the first place, 
or mid-sentence. Frustrating for both parties, no?
    Picture having times when your chest hurts, in a way that feels 
like you must be having a heart attack because it spreads through your 
entire chest, up into your jaw, and down your left arm but you're 
afraid to say anything, just in case it's not, but wondering if you'll 
actually die, one of these days, from not knowing the difference.
    Now, take all of the above, put them together, and you have my life 
with fibromyalgia. Yes, I have other health, and emotional, problems 
but have found this to be the most frustrating factor because there is 
no ``fix''. Visualize yourself in my shoes. Even though I, finally, 
have had a name put to the face of all this, I still feel I have a 
constant battle, trying to get people to truly understand it. You may 
say you do but, do you really? If so, why are you still taking it 
personal when I say I can't go somewhere or do something that, at 
first, I thought I would be able to do? Why are you still wondering why 
I was able to do something one moment but not the next, as with days? 
Why are you judging me, as though I'm being lazy or making things up, 
``just to get out of things'', or making me out to be a hypochondriac?
    I didn't ask to be this way! I hate not feeling well, disappointing 
you, and feeling like a couch potato 90+ percent of the time, feeling 
inadequate, etc. Please, understand the way I am physically is not the 
way I am emotionally or psychologically! I need your prayers and 
encouragement, not judgment or ridicule! The latter only makes me want 
to withdraw into my own little world and brings more negative thoughts 
I care to admit, or you'd want to know about. I ridicule myself enough 
for everyone; I don't need that kind of help.
                                 ______
                                 
                Prepared Statement of The AIDS Institute
    The AIDS Institute, a national public policy research, advocacy, 
and education organization, is pleased to comment in support of 
critical HIV/AIDS and Hepatitis programs as part of the fiscal year 
2009 Labor, Health and Human Services, Education and Related Agencies 
appropriation measure. We thank you for your consistent support of 
these programs and trust you will do your best to adequately fund them 
in the future in order to provide for, and protect the health of many 
Americans.
                                hiv/aids
    HIV/AIDS remains one of the world's worst health pandemics in 
history. Here in the United States, according to the CDC, 984,155 
people have been diagnosed with AIDS, and 550,394 people have died. It 
is estimated there are more than 40,000 new infections in the United 
States each year, although this number may soon be revised to as high 
as 55,000 to 60,000. At the end of 2005, an estimated 1.2 million 
people in the United States were living with HIV/AIDS.
    Persons of minority races and ethnicities are disproportionately 
affected by HIV/AIDS. African Americans, who make up 12 percent of the 
U.S. population, account for half of the HIV/AIDS cases. HIV/AIDS also 
disproportionately affects the poor, and about 70 percent of those 
infected rely on public health care financing.
    The AIDS Institute, working in coalition with other AIDS 
organizations, has developed funding request numbers for federally 
funded AIDS programs. We ask you to do your best to adequately fund 
them at the requested level.
    We are keenly aware of budget constraints and competing interests 
for limited dollars. Unfortunately, despite the growing need, several 
domestic HIV/AIDS programs have experienced cuts in recent years 
including HIV prevention funding at the CDC and some parts of the Ryan 
White HIV/AIDS Program.
    This year, the President has proposed to cut CDC HIV Prevention 
even more, and increase Ryan White programs by a mere .004 percent, 
while cutting some parts of the program. The AIDS Institute asks you to 
reject these cuts and increase the entire program at the community 
requested level. Below are the program requests and supporting 
explanation by The AIDS Institute:

     CENTERS FOR DISEASE CONTROL AND PREVENTION--HIV PREVENTION AND
                              SURVEILLANCE
                        [In millions of dollars]
------------------------------------------------------------------------
                        Fiscal year                             Amount
------------------------------------------------------------------------
2008.......................................................          692
2009 President's request...................................          691
2009 community request.....................................        1,300
------------------------------------------------------------------------

    While the CDC has reported for many years the number of new HIV 
infections in the United States is estimated to be 40,000 each year, 
they have announced they will release new incidence numbers in the near 
future in which, according to press reports, indicate the number is 
more like 55,000 to 60,000. While the current numbers are enough to 
cause alarm, the new estimates will hopefully convince Congress there 
is a heightened immediate need for increased funding, rather than 
additional cuts.
    The increase in new infections is particularly occurring in certain 
populations, such as the poor, African-Americans, men who have sex with 
men, Latinos, substance users, and the incarcerated. In order to 
address the specific needs of these populations, CDC is going to need 
additional funding.
    Investing in prevention today will save money tomorrow. Every case 
of HIV that is prevented saves, on average, $1 million of lifetime 
treatment costs for HIV. One recent study concluded the cost of new HIV 
infections in the United States in 2002 was estimated at $36.4 billion, 
including $6.7 billion in direct medical costs and $29.7 billion in 
productivity losses. Another study concluded preventing the estimated 
40,000 new HIV infections in the United States each year would avoid 
obligating $12.1 billion annually in future medical costs.
    Despite the savings of lives and costs that prevention provides, 
the Congress cut the program by $3.5 million in fiscal year 2008 and 
the Administration is proposing to cut it in fiscal year 2009 by 
another $1 million. Cuts of greater magnitude have been occurring for 
actual direct prevention programming while increases have gone for HIV 
testing. Since one quarter of the over one million people living with 
HIV in the United States are unaware of their HIV status, The AIDS 
Institute supports increased testing programs. However, we do not 
support funding these efforts at the expense of prevention intervention 
programs.
    The administration is also proposing $30 million to implement the 
Early Diagnosis Grant Program. The AIDS Institute does not support this 
request and urges that the money should be directed instead to CDC HIV/
AIDS prevention programs.

                      RYAN WHITE HIV/AIDS PROGRAMS
                        [In millions of dollars]
------------------------------------------------------------------------
                        Fiscal year                             Amount
------------------------------------------------------------------------
2008.......................................................        2,167
2009 President's request...................................        2,168
2009 community request.....................................        2,782
------------------------------------------------------------------------

    The centerpiece of the government's response to caring and treating 
low-income people with HIV/AIDS is the Ryan White HIV/AIDS Program. 
Ryan White currently reaches over 531,000 low-income, uninsured, and 
underinsured people each year.
    In fiscal year 2008, the program overall received an increase of 
$29 million, although some parts of it experienced cuts. The President 
has proposed a .004 percent increase for Ryan White in fiscal year 
2009, or only $1.1 million. The AIDS Institute urges you to reject this 
budget proposal and instead provide substantial funding increases to 
all parts of the Ryan White Program. Consider the following:
    (1) Caseload levels are increasing. People are living longer due to 
lifesaving medications; there are at least 40,000 new infections each 
year; and increased testing programs, according to the CDC, will 
identify 12,000 to 20,000 new people infected with HIV each year.
    (2) The price of healthcare, including medications, is increasing 
and State and local budgets are experiencing cutbacks due to the 
economic downturn.
    (3) There are significant numbers of people in the United States 
who are not receiving life-saving AIDS medications. An IOM report 
concluded that 233,069 people in the United States who know their HIV 
status do not have continuous access to Highly Active Antiretroviral 
Therapy. A CDC study concluded 212,000 or 44 percent of eligible people 
living with HIV/AIDS, aged 15-49 in the United States, are not 
receiving antiretroviral therapy.
    Given these factors, cuts in funding or flat or minor increases are 
unacceptable. Specifically, The AIDS Institute requests the following 
funding levels for each part of the Program:
    Part A provides medical care, and vital support services for 
persons living with HIV/AIDS in the metropolitan areas most affected by 
HIV/AIDS. We urge you to reject the President's proposed cut of $7.7 
million and instead request an increase of $213 million, for a total of 
$840 million.
    Part B base provides essential services including diagnostic, viral 
load testing and viral resistance monitoring and HIV care to all 50 
states, DC, Puerto Rico and the territories. We are requesting a $95 
million increase, for a total of $482 million.
    The AIDS Drug Assistance Program (ADAP) provides life-saving HIV 
drug treatment to over 100,000 people; the majority of whom are people 
of color (60 percent) and very poor (80 percent are at or below 200 
percent of the federal poverty level). Due to a lack of funding, states 
have not been able to include all necessary drugs on their formularies, 
have limited eligibility and capped enrollment. In order to address the 
386 new ADAP clients each month and drug cost increases, we are 
requesting an increase of $134.6 million for a total of $943.5 million.
    Part C provides early medical intervention and other supportive 
services to over 225,000 people at over 360 directly funded clinics. We 
are requesting a $100.5 million increase, for a total of $299 million.
    Part D provides care to over 53,000 women, children, youth and 
families living with and affected by HIV/AIDS. This family-centered 
care promotes better health, prevents mother-to-child transmission, and 
brings hard-to-reach youth into care. We are requesting a $48.8 million 
increase, for a total of $122.5 million.
    Part F includes the AIDS Education and Training Centers (AETCs) 
program and the Dental Reimbursement program. We are requesting a $15.9 
million increase for the AETC program, for a total of $50 million, and 
a $6 million increase for the Dental Reimbursement program, for a total 
of $19 million.
    The AIDS Institute supports increased funding for the Minority AIDS 
Initiative (MAI). MAI funds services nationwide that address the 
disproportionate impact that HIV has on communities of color.

              NATIONAL INSTITUTES OF HEALTH--AIDS RESEARCH
                        [In billions of dollars]
------------------------------------------------------------------------
                        Fiscal year                            Amount
------------------------------------------------------------------------
2008......................................................          2.9
2009 President's request..................................          2.9
2009 community request....................................          3.35
------------------------------------------------------------------------

    Through the NIH, research is conducted to understand the AIDS virus 
and its complicated mutations; discover new drug treatments; develop a 
vaccine and other prevention programs such as microbicides; and 
ultimately, a cure. The critically important work performed by the NIH 
not only benefits those in the United States, but the entire world.
    As neither a cure nor a vaccine exists, and patients continue to 
build resistance to existing medications, additional research must 
continue. NIH also conducts the necessary behavioral research to learn 
how best HIV can be prevented in various affected communities. We ask 
the committee to fund critical AIDS research at the community requested 
level of $3.35 billion.
  administration for children & families: community based abstinence 
                               education
    Efforts to improve prevention methods and weed out non-effective 
programs should be a constant undertaking and be guided by science and 
fact based decision-making. It is for these reasons The AIDS Institute 
opposes abstinence-only-until-marriage programs, for which the 
President requested a $28 million increase. While we support 
abstinence-based prevention programs as part of a comprehensive 
prevention message, there is no scientific proof that abstinence-only 
programs are effective. On the contrary, they reject proven prevention 
tools, such as condoms, and fail to address the needs of homosexuals, 
who can not marry, and who remain greatly impacted by HIV/AIDS.
       substance abuse and mental health services administration
    Many persons infected with HIV also experience drug abuse and/or 
mental health problems, and require the programs funded by SAMHSA. 
Given the growing need for services, we are disappointed by proposed 
funding cuts at SAMHSA, including $63 million for the Center for 
Substance Abuse Treatment, $36 million for the Center for Substance 
Abuse Prevention, and $126 million for the Center for Mental Health 
Services. We ask the Committee to reject these cuts, and adequately 
fund these programs.
                            viral hepatitis
    Viral Hepatitis is an infectious disease that also deserves 
increased attention by the federal government. According to the CDC, 
there are an estimated 1.25 million Americans chronically infected with 
Hepatitis B, and 60,000 new infections each year. Although there is no 
cure, a vaccine is available, and a few treatment options are 
available. An estimated 4.1 million (1.6 percent) Americans have been 
infected with Hepatitis C, of whom 3.2 million are chronically 
infected. Currently, there is no vaccine and very few treatment 
options. It is believed that one-third of those infected with HIV are 
co-infected with Hepatitis C.
    Given these numbers, we are disappointed the administration is 
calling for a decrease in funding for Hepatitis at the CDC. The program 
is currently being funded at a level that is substantially less than 
what it was funded in fiscal year 2003 and falls short of the $50 
million that is needed. These funds are needed to establish a program 
to lower the incidence of Hepatitis through education, outreach, and 
surveillance.
    The AIDS Institute asks that you give great weight to our testimony 
and remember it as you deliberate over the fiscal year 2009 
appropriation bill. Should you have any questions or comments, feel 
free to contact Carl Schmid, Director of Federal Affairs, The AIDS 
Institute, 1705 DeSales Street, Suite 700, Washington DC 20036, (202) 
462-3042, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dab9a9b9b2b7b3be9aaeb2bfbbb3bea9b3b4a9aeb3aeafaebff4b5a8bdf4">[email&#160;protected]</a> Thank you very much.
                                 ______
                                 
          Prepared Statement of the Trust for America's Health
    Trust for America's Health (TFAH), a national non-profit, 
nonpartisan organization dedicated to saving lives by protecting the 
health of every community and working to make disease prevention a 
national priority, is pleased to provide the subcommittee with the 
following testimony.
    Americans deserve a well-financed, modern, and accountable public 
health system. As we worry about rising health care costs and continued 
threats from terrorism or natural threats such as pandemic influenza, 
resources for public health should be on the rise, not decreasing as 
proposed in the President's fiscal year 2009 budget. Indeed, the 
Centers for Disease Control and Prevention's (CDC) budget would be cut 
by $433 million, or 7 percent. Almost every program that provides 
support for prevention and public health at the State and local level 
would be cut, continuing an alarming trend of disinvestment in the very 
programs that save lives and reduce long-term health care costs.
                            case for support
    There is increasing evidence that community level interventions, 
the kind of programs that CDC funding supports, make a difference in 
health outcomes and health care costs. TFAH is leading a consensus 
building initiative entitled, the Healthier America Project. One of the 
central elements of the Project is to define the financing needs for 
public health for the next decade. TFAH and the New York Academy of 
Medicine have convened an expert panel to ascertain the current 
spending levels by the public health sector. The panel will soon be 
making a recommendation regarding how much additional funding the 
United States should invest in public health. TFAH is also working with 
the Urban Institute and Prevention Institute to develop an economic 
model that demonstrates the return on investment of certain community-
level public health interventions, like physical activity, improved 
nutrition, or smoking cessation programs, and the corresponding savings 
by funding source. We hope the results of this model, to be released 
later this spring, will influence your investment choices as you 
consider the fiscal year 2009 budget. To help ensure the implementation 
of effective community-based interventions, Trust for America's Health 
supports increased funding for a number of programs.
                            chronic diseases
    Chronic diseases, most of which are preventable, account for 70 
percent of deaths in the United States and approximately 75 percent of 
health care spending. Yet the President's budget would cut funding for 
chronic disease prevention and health promotion by over $28 million, 
bringing cuts to over $100 million in inflation-adjusted dollars since 
fiscal year 2003.
    In the United States, two-thirds of adults are obese or overweight, 
and the rate of childhood obesity has tripled over the last 20 years. 
CDC's Division of Nutrition, Physical Activity and Obesity (DNPAO), 
which provides funding that allows State health departments to develop 
a nutrition and physical activity infrastructure, has been virtually 
flat funded over the past 3 years, with only small increases that have 
not kept pace with inflation. Similarly, funding levels for the 
Division of Adolescent School Health (DASH) have actually decreased 
over the last 5 years. DASH's School Health Program assists States in 
improving the health of children through a school level program that 
engages families and communities and develops healthy school 
environments. To begin to mitigate the obesity epidemic, we need 
chronic disease prevention and promotion programs in all 50 States. 
That will require $65 million for the DNPAO and at least an additional 
$20 million for DASH's School Health Program to fund all states that 
have been approved. Another important anti-obesity program is Steps to 
a Healthier United States. Steps grants support communities, cities and 
tribal entities to implement health promotion programs and community 
initiatives. TFAH supports at least $30 million for the Steps Program.
                preparing for public health emergencies
    In December of last year, TFAH released its annual ``Ready or Not'' 
report on our Nation's preparedness. TFAH found significant improvement 
in State preparedness over prior years. Unfortunately, there are many 
areas, such as creating medical surge capacity, where we remain 
woefully under-prepared. That is why we are concerned that the 
diminished Federal support for an all-hazards approach to preparedness 
will put the progress we have made at risk.
    Funding for the Public Health Emergency Preparedness (PHEP) 
Cooperative Agreements to States and localities--where public health 
actually happens--has been drastically cut in recent years. With these 
funds, local health departments have enhanced their disease 
surveillance systems and trained their staff in emergency response. 
Over 90 percent of local health departments have developed mass 
vaccination and prophylaxis planning, conducted all-hazards 
preparedness training, and implemented new or improved communication 
systems. All States have established the infrastructure necessary to 
evaluate urgent disease reports and to activate emergency response 
operations 24 hours a day. A recent report by the National Association 
of County and City Health Officials clearly detailed the impact of 
recent cuts, with staff time, planning, and acquisitions of equipment 
and supplies cut by upwards of 25 percent.
    Unfortunately, the President's budget proposes another cut, 
totaling 18 percent, as well as cuts of $62 million, or over 14 
percent, to hospital preparedness funding due to a proposed realignment 
of grant funding cycles. The primary focus of the Hospital Preparedness 
Program (HPP) is to improve the capacity of the Nation's hospitals and 
other supporting healthcare entities to respond to bioterrorist 
attacks, infectious disease epidemics, and other large-scale 
emergencies by enabling hospitals, EMS and health centers to plan a 
coordinated response. TFAH recommends restoring funding for the PHEP 
cooperative agreements to fiscal year 2005 levels ($919 million) and 
providing $474 million for the HPP.
    The President's budget proposes $250 million for the Biomedical 
Advanced Research and Development Authority (BARDA). BARDA was 
established to help jumpstart a new cycle of innovation in vaccines, 
diagnostics and therapeutics to combat health threats. BARDA provides 
incentives and guidance for research and development of products to 
counter bioterrorism and pandemic flu and manages Project BioShield, 
which includes the procurement and advanced development of medical 
countermeasures for chemical, biological, radiological, and nuclear 
agents. TFAH requests $500 million for BARDA, with 2 years of fiscal 
availability.
                        public health workforce
    In order to prepare for any public health emergency, it is 
necessary to have a well-trained workforce. The Office of the Civilian 
Medical Reserve Corps, located in the Office of the Surgeon General, 
supports local public health and helps provide for an adequate supply 
of volunteers in the case of a public health emergency. MRC units are 
community-based and serve as a way to locally organize and utilize 
volunteers desiring to prepare for and respond to emergencies and 
promote healthy living throughout the year. TFAH supports fully funding 
the President's request of $15 million for the Office of the Civilian 
Volunteer Medical Reserve Corps to enable the MRC to award more 
capacity building grants, which local units use for a variety of 
purposes, such as purchasing equipment, training, purchasing uniforms 
and providing salaries for coordinators.
    Public health epidemiologists are another important part of our 
Nation's public health workforce. They investigate and monitor public 
health threats, identify potential relationships between exposures and 
disease, provide the foundations for public health interventions, and 
help combat disease outbreaks. A 2006 national assessment of 
epidemiologic capacity shows the number and level of training of 
epidemiologists is perceived as seriously deficient in most States. 
CDC's training fellowship program for epidemiologists can help expand 
State capacity and provide future leadership in the field. TFAH 
recommends providing $5 million for CDC's Office of Workforce and 
Career Development to support 65 CDC/Council of State and Territorial 
Epidemiology (CSTE) first year applied epidemiology fellows.
   bolstering the nation's ability to detect and control infectious 
                  diseases such as pandemic influenza
    Since 2003, scientists have become increasingly concerned that the 
H5N1 strain of avian influenza could become more contagious among 
humans and mutate into a strain against which humans have little or no 
immunity. H5N1 has infected millions of birds and resulted in 235 
deaths in humans, with a human case fatality rate of over 61 percent.
    In November 2005, President Bush requested $7.1 billion over 3 
years for emergency funding for pandemic influenza preparedness. In 
fiscal year 2006, Congress appropriated $5.6 billion to the Department 
of Health and Human Services (HHS) for emergency and agency funding for 
pandemic preparedness. The funding has been used for stockpiling enough 
antiviral drugs for the treatment of more than 50 million Americans, 
licensing a pre-pandemic influenza vaccine, developing rapid 
diagnostics and completing the sequencing of the entire genetic 
blueprints of 2,250 human and avian influenza viruses.
    To enhance our pandemic preparedness, TFAH recommends fully funding 
the President's fiscal year 2009 request for $313 million for ongoing 
pandemic preparedness activities at the CDC, National Institutes of 
Health (NIH), Food and Drug Administration (FDA) and the Office of the 
Secretary. TFAH also supports the President's request of $507 million 
to be used to build vaccine production capacity, maintain a ready 
supply of eggs for the production of vaccine, and enable HHS to 
purchase medical countermeasures for its critical employees and 
contractors, as well as the Indian Health Service population. The 
administration has also requested that Congress fund the $870 million 
requested by the President in fiscal year 2008 for one-time pandemic 
preparedness activities, including acquiring vaccine, purchasing 
antivirals, and accelerating research and development for rapid 
diagnostic tests. TFAH supports this request.
    The one major gap in pandemic preparedness not addressed in the 
President's budget is funding for States and localities. In April, the 
Department of Health and Human Services will release the final 
installment of the $600 million appropriated in fiscal year 2006 for 
State and local pandemic preparedness activities. This funding has been 
used to conduct statewide pandemic influenza preparedness summits, 
assess and address preparedness gaps, develop antiviral distribution 
plans, review and update State pandemic plans, and conduct exercises at 
the State and local levels, including mass vaccination using seasonal 
flu clinics, school closures and medical surge. These are clearly not 
one-time activities. We are concerned that these cuts will limit 
States' ability to continue to conduct exercises. As a result, we urge 
you to provide $350 million in recurring, annual funding for State and 
local pandemic preparedness activities.
                          environmental health
    One final area of interest for TFAH is the connection between our 
environment and our health. For more than 30 years, the Environmental 
Health Laboratory of the National Center for Environmental Health has 
been performing biomonitoring measurements. Biomonitoring is the direct 
measurement of people's exposure to toxic substances in the 
environment. By analyzing blood, urine, and tissues, scientists can 
measure actual levels of almost 300 chemicals in people's bodies, and 
determine which population groups are at high risk for exposure and 
adverse health effects, assess public health interventions, and monitor 
exposure trends over time. Additional funds are needed to upgrade 
facilities and equipment and to bolster the workforce. Of the suggested 
$20 million increase, $10 million would be used to enhance State public 
health laboratory biomonitoring capabilities, including upgrading 
facilities and equipment and bolstering workforce capacity. The 
remaining $10 million would be used to provide technical assistance and 
training to States.
    The Pew Commission on Environmental Health in 2000 recommended the 
development of a Nationwide Health Tracking Network to help track 
environmental hazards and the diseases they may cause. The Network 
would coordinate and integrate local, State, and Federal health 
agencies' collection of critical health and environmental data. Since 
2002, Congress has provided funding for pilot programs, funding only 16 
States and one city in fiscal year 2007, down from 24 grantees. Since 
fiscal year 2002, tracking has led to 38 public health actions to 
prevent or control potential adverse health effects from environmental 
exposures. In fiscal year 2007, 17 public health actions were completed 
based on information obtained from tracking. The Tracking Network is 
scheduled to be launched in 2008. TFAH recommends providing $50 million 
for CDC's Environmental and Health Outcome Tracking Network to expand 
it to 22 new States and support the continued development of a 
sustainable Network.
    Mr. Chairman, thank you again for the opportunity to submit 
testimony on the urgent need to enhance Federal funding for public 
health programs which will save countless lives and protect our 
communities and our Nation.
                                 ______
                                 
       Prepared Statement of the United Tribes Technical College
    For 39 years, United Tribes Technical College (UTTC) has provided 
postsecondary career and technical education, job training and family 
services to some of the most impoverished Indian students from 
throughout the nation. We are governed by the five tribes located 
wholly or in part in North Dakota. We have consistently had excellent 
results, placing Indian people in good jobs and reducing welfare rolls. 
The Perkins funds constitute about half of our operating budget and 
provide for our core instructional programs. We do not have a tax base 
or State-appropriated funds on which to rely. Our program is entirely 
consistent with one of the stated goals of the U.S. Department of 
Education's Strategic Plan: access to postsecondary education.
    The request of the United Tribes Technical College Board is:
  --$8.5 million or $1 million above the fiscal year 2008 enacted level 
        under Section 117 of the Carl Perkins Act. These funds are 
        shared by United Tribes Technical College and Navajo Community 
        College.
  --$1 million from Title III of the Higher Education Act (HEA) to 
        continue the infrastructure development of our south campus.
    Authorization.--Section 117 of the Carl Perkins Career and 
Technical Education Act (20 U.S.C. section 2327) is the source of 
authorization of Perkins funding for UTTC. Funding under this Act has 
in recent years been distributed on a formula basis to UTTC and to 
Navajo Technical College, neither of which receive funding under the 
Tribally Controlled Colleges or Universities Act. Funds have been 
authorized and appropriated by Congress for the program since fiscal 
year 1991.
    Administration Request.--Despite the explicit Congressional 
authorization for Carl Perkins funding for section 117, and despite the 
administration's requests for funding for section 117 in all previous 
years, the administration has requested nothing for this program for 
fiscal year 2009. This crass, outrageous and irresponsible cut, if 
carried out, would irreparably harm Indian students who often have no 
other chance for improving their lives but through UTTC and Navajo 
Technical College. It represents a failure to understand our 
educational mission, the nature of the populations we serve and 
contradicts the Department of Education stated goal of access to 
postsecondary education mentioned above.
    Our students are disadvantaged in many ways. They often come from 
impoverished backgrounds or broken families. They may be overcoming 
extremely difficult personal circumstances as single parents. They 
often lack the resources, both culturally and financially, to go to 
other mainstream institutions. UTTC provides a set of family and 
culturally-based campus services, including: an elementary school for 
the children of students, housing, day care, a health clinic, a 
wellness center, several on-campus job programs, student government, 
counseling, services relating to drug and alcohol abuse and job 
placement programs that enable our students to start on the road to 
realizing their potential.
    The administration states that UTTC has other sources of funding to 
carry out its mission. This is not correct. Our present Perkins and 
Bureau of Indian Education funds (also cut entirely from the 
President's fiscal year 2009 budget) provide for nearly all of our core 
postsecondary educational programs. Almost none of the other funds we 
receive can be used for core career and technical educational programs; 
they are supplemental and help us provide the services our students 
need to be successful. Moreover, these other programs are competitive, 
which means we have no guarantee that such funds will be available to 
us in the future. We cannot continue operating without Perkins funds.
    Core Perkins Funding.--Below are some important facts about United 
Tribes Technical College which supports our request for $8.5 million 
under the Perkins Act.
    UTTC Performance Indicators. UTTC has:
  --An 81 percent retention rate
  --A placement rate of 94 percent (job placement and going on to 4-
        year institutions)
  --A projected return on Federal investment of 20-to-1 (2005 study 
        comparing the projected earnings generated over a 28-year 
        period of UTTC Associate of Applied Science and Bachelor degree 
        graduates of June 2005 with the cost of educating them.)
  --The highest level of accreditation. The North Central Association 
        of Colleges and Schools has accredited UTTC again in 2001 for 
        the longest period of time allowable--10 years or until 2011--
        and with no stipulations. We are also the only tribal college 
        accredited to offer accredited on-line (Internet based) 
        associate degrees.
  --More than 20 percent of our students now go on to 4-year or 
        advanced degree institutions.
    The Demand for our Services is Growing and we are Serving More 
Students.--For the 2007-2008 year we enrolled 1,122 students (an 
unduplicated count), nearly four times the number served just 6 years 
ago. Most of our students are from the Great Plains, where the Indian 
reservations have a jobless rate of 76 percent (Source: 2003 BIA Labor 
Force Report), along with increasing populations. The need for our 
services will continue to increase at least for the next 5 to 10 years.
    In addition, we are serving 248 students during school year 2007-
2008 in our Theodore Jamerson Elementary school and 252 children, birth 
to 5, are being served in our child development centers.
    UTTC Course Offerings and Partnerships With Other Educational 
Institutions.--We offer 15 vocational/technical programs and award a 
total of 15 2-year degrees (Associate of Applied Science (AAS)) and (6) 
1-year certificates, as well as a 4-year degree in elementary education 
in cooperation with Sinte Gleska University in South Dakota. We are 
accredited by the North Central Association of Colleges and Schools for 
the longest accrediting period provided of 10 years.
    Licensed Practical Nursing.--This program has one of the highest 
enrollments at UTTC and results in the greatest demand for our 
graduates. Our students have the ability to transfer their UTTC credits 
to the North Dakota higher educational system to pursue a 4-year 
nursing degree.
    Medical Transcription and Coding Certificate Program.--This program 
provides training in transcribing medical records into properly coded 
digital documents. It is offered through the college's Exact Med 
Training program and is supported by Department of Labor funds.
    Tribal Environmental Science.--Our Tribal Environmental Science 
program is supported by a National Science Foundation Tribal College 
and Universities Program grant. This 5-year project allows students to 
obtain a 2-year AAS degree in Tribal Environmental Science.
    Community Health/Injury Prevention.--Through our Community Health/
Injury Prevention Program we are addressing the injury death rate among 
Indians, which is 2.8 times that of the U.S. population, the leading 
cause of death among Native Americans ages 1-44, and the third leading 
cause of death overall. This program has in the past been supported by 
the Indian Health Service, and is the only degree-granting Injury 
Prevention program in the nation.
    Online Education.--We are continuing to create increased 
opportunities for education by providing web-based and Interactive 
Video Network courses from our North Dakota campus to American Indians 
residing at other remote sites as well as to students on our campus. 
Online courses provide the scheduling flexibility students need, 
especially those students with young children.
    We offer online fully accredited degree programs in the areas of 
Early Childhood Education, Community Health/Injury Prevention, Health 
Information Technology, Nutrition and Food Service and Elementary 
Education. Over 50 courses are currently offered online, including 
those in the Medical Transcription and Coding program. We presently 
have 59 online students.
    Another significant online course is suicidology--the study of 
suicide: its causes, prevention and the behavior of those who threaten 
or attempt suicide. Suicide in Indian country dramatically affects our 
communities, particularly our youth. According to the IHS, suicide 
rates in Indian Country are 6-8 times the national rate.
    We also provide an online Indian Country Environmental Hazard 
Assessment program, offered through the Environmental Protection 
Agency. This is a training course designed to help mitigate 
environmental hazards in reservation communities.
    Computer Information Technology.--This program is at maximum 
student capacity because of limitations on resources for computer 
instruction. In order to keep up with student demand and the latest 
technology, we need more classrooms, equipment and instructors. We 
provide all of the Microsoft Systems certifications that translate into 
higher income earning potential for graduates.
    Nutrition and Food Services.--UTTC helps meet the challenge of 
fighting diabetes in Indian Country through education. Indians and 
Alaska Natives have a disproportionately high rate of type 2 diabetes, 
and have a diabetes mortality rate that is three times higher than the 
general U.S. population. The increase in diabetes among Indians and 
Alaska Natives is most prevalent among young adults aged 25-34, with a 
160 percent increase from 1990-2004. (Source: fiscal year 2009 Indian 
Health Service Budget Justification).
    As a 1994 Tribal Land Grant institution, we offer a Nutrition and 
Food Services AAS degree in order to increase the number of Indians 
with expertise in nutrition and dietetics. Currently, there are very 
few Indian professionals in the country with training in these areas. 
Our degree places a strong emphasis on diabetes education, traditional 
food preparation, and food safety.
    We have also established the United Tribes Diabetes Education 
Center that assists local tribal communities, our students and staff to 
decrease the prevalence of diabetes by providing educational programs, 
training and materials. We publish and make available tribal food 
guides to our on-campus community and to tribes.
    Business Management/Tribal Management.--Another critical program 
for Indian country is business and tribal management. This program is 
designed to help tribal leaders be more effective administrators and 
entrepreneurs. As with all our programs, curriculum is constantly being 
updated.
    Job Training and Economic Development.--UTTC continues to provide 
economic development opportunities for many tribes. We are a designated 
Minority Business Development Center serving South and North Dakota. We 
administer a Workforce Investment Act program and an internship program 
with private employers in the region.
    South Campus Infrastructure Development.--The bulk of our current 
educational training and student housing is provided in 100 year old 
buildings, part of a former military base used by UTTC since its 
founding in 1969 and donated to us by the United States in 1973. They 
are very expensive to maintain, do not meet modern construction and 
electrical code requirements, are not generally ADA compliant, and 
cannot be retrofitted to be energy efficient.
    As a result, UTTC has developed plans for serving more students in 
new facilities that will provide training and services to meet future 
needs. These plans include the development of infrastructure on 
adjacent land purchased with a donation that will become our south 
campus. We have received some funds for this project and have the plans 
in place. We are asking for an additional $1 million in fiscal year 
2009 from Title III of the HEA to be able to continue this work.
    Our vision for the south campus is to serve up to 5,000 students. 
We expect that funding for the entire project will come from Federal, 
State, tribal, and private sources. Aside from student housing, the 
first building will be a combined science and administration building.
    We cannot survive without the core career and technical education 
funds that come through the Department of Education. These funds are 
essential to the operation of our campus. Our programs at UTTC continue 
to be critical and relevant to the welfare of Indian people throughout 
the Great Plains region and beyond. Thank you for your consideration of 
our request.


       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page

AIDS Institute, Prepared Statement of the........................   434
Americans for Nursing Shortage Relief, Prepared Statement of the.   213
American:
    Academy of:
        Family Physicians, Prepared Statement of the.............   176
        Otolaryngology--Head and Neck Surgery, Prepared Statement 
          of 
          the....................................................   179
    Association:
        For Cancer Research, Prepared Statement of the...........   179
        Of:
            Immunologists, Prepared Statement of the.............   185
            Museums, Prepared Statement of the...................   188
            Nurse Anesthetists, Prepared Statement of the........   191
    Chemical Society, Prepared Statement of the..................   194
    College of Obstetricians and Gynecologists, Prepared 
      Statement of the...........................................   195
    Diabetes Association, Prepared Statement of the..............   198
    Heart Association, Prepared Statement of the.................   200
    Indian Higher Education Consortium, Prepared Statement of the   203
    Liver Foundation, Prepared Statement of the..................   206
    Lung Association, Prepared Statement of the..................   209
    National Red Cross and the United Nations Foundation, 
      Prepared Statement of the..................................   212
    Occupational Therapy Association, Prepared Statement of the..   216
    Physiological Society, Prepared Statement of the.............   222
    Psychological Association (APA), Prepared Statement of the...   219
    Society:
        For:
            Microbiology, Prepared Statements of the......223, 226, 228
            Nutrition, Prepared Statement of the.................   228
        Of Tropical Medicine and Hygiene, Prepared Statement of 
          the....................................................   230
    Thoracic Society, Prepared Statement of the..................   233
Arthritis Foundation, Prepared Statement of the..................   236
Association:
    For:
        Academic Health Sciences Libraries, Prepared Statement of 
          the....................................................   319
        Clinical Research Training, Prepared Statement of the....   242
        Psychological Science, Prepared Statement of the.........   248
        Research in Vision and Ophthalmology (ARVO), Prepared 
          Statement of the.......................................   251
        Supervision and Curriculum Development (ASCD), Prepared 
          Statement of the.......................................   254
    Of:
        American Cancer Institutes, Prepared Statement of the....   239
        Departments of Family Medicine, Prepared Statement of....   418
        Family Medicine Residency Directors, Prepared Statement 
          of.....................................................   418
        Farmworker Opportunity Programs, Prepared Statement of 
          the....................................................   243
        Independent Research Institutes, Prepared Statement of 
          the....................................................   245
        Maternal and Child Health Programs, Prepared Statement of 
          the....................................................   246
        Population Centers, Prepared Statement of................   396
        University Programs in Occupational Health and Safety, 
          Prepared Statement of the..............................   257
        Women's Health, Obstetric and Neonatal Nurses, Prepared 
          Statement of the.......................................   259

Brain Injury Association of America, Prepared Statement of the...   262

Chao, Hon. Elaine L., Secretary, Office of the Secretary, 
  Department of La- 
  bor............................................................     1
    Prepared Statement of........................................     6
    Summary Statement of.........................................     5
Coalition:
    For Health Services Research, Prepared Statement of the......   264
    Of Northeastern Governors, Prepared Statement of the.........   267
Cochran, Senator Thad, U.S. Senator From Mississippi:
    Prepared Statement of........................................   133
    Statement of.................................................     4
Collins, Francis S., M.D., Ph.D., Director, National Human Genome 
  Research Institute, National Institutes of Health, Department 
  of Health and Human Services...................................    93
    Prepared Statement of........................................   127
Commissioned Officers Association of the U.S. Public Health 
  Service, Prepared Statement of the.............................   268
Cooley's Anemia Foundation, Prepared Statement of the............   269
Council:
    For Opportunity in Education, Prepared Statement of the......   271
    On Social Work Education, Prepared Statement of the..........   272
Craig, Senator Larry E., U.S. Senator From Idaho, Questions 
  Submitted by...................................................    89
Curran, Abbey, Miss Iowa USA, Prepared Statement of..............   175
Cystic Fibrosis Foundation, Prepared Statement of the............   274

Davis, Teanya, Prepared Statement of.............................   432
Durbin, Senator Richard J., U.S. Senator From Illinois, Statement 
  of.............................................................    96
Dystonia Medical Research Foundation, Prepared Statement of the..   278

Endocrine Society, Prepared Statement of the.....................   280

Families USA, Prepared Statement of..............................   285
Fauci, Anthony S., M.D., Director, National Institute of Allergy 
  and Infectious Diseases, National Institutes of Health, 
  Department of Health and Human Services........................    93
    Prepared Statement of........................................   129
Friends of CDC, Prepared Statement of the........................   287
Friends of the National Institute for Dental and Craniofacial 
  Research, Prepared Statement of................................   290
Friends of the National Institute on Aging, Prepared Statement of   288
FSH Society, Inc., Prepared Statement of the.....................   281

Harkin, Senator Tom, U.S. Senator From Iowa:
    Opening Statement of.........................................    93
    Questions Submitted by......................................47, 164
Harrison, Patricia S., Prepared Statement of.....................   292
Hepatitis:
    B Foundation, Prepared Statement of the......................   297
    C Appropriations Partnership, Prepared Statement of the......   300
    Foundation International, Prepared Statement of the..........   301
Heart Rhythm Society, Prepared Statement of the..................   295
HIV Medicine Association, Prepared Statement of the..............   304

Infectious Diseases Society of America, Prepared Statement of the   306
Inouye, Senator Daniel K., U.S. Senator From Hawaii, Questions 
  Submitted by..................................................78, 166
International:
    Foundation for Functional Gastrointestinal Disorders, 
      Prepared Statement of the..................................   309
    Myeloma Foundation, Prepared Statement of the................   311
Interstate Mining Compact Commission, Prepared Statement of the..   313

Jeffrey Modell Foundation, Prepared Statement of the.............   314

March of Dimes Foundation, Prepared Statement of the.............   316
Medical Library Association, Prepared Statement of the...........   319
Melanoma Research Foundation, Prepared Statement of the..........   322
Mended Hearts, Prepared Statement of.............................   324
Montgomery County Stroke Association, Prepared Statement of the..   325
Murray, Senator Patty, U.S. Senator From Washington:
    Prepared Statement of........................................    98
    Questions Submitted by......................................78, 167

Nabel, Elizabeth G., M.D., Director, National Heart, Lung, and 
  Blood Institute, National Institutes of Health, Department of 
  Health and Human Services......................................    93
    Prepared Statement of........................................   122
National:
    Alliance:
        For Eye and Vision Research (NAEVR), Prepared Statement 
          of the.................................................   329
        Of State and Territorial AIDS Directors, Prepared 
          Statement of the.......................................   334
        On Mental Illness, Prepared Statement of the.............   331
        To End Homelessness, Prepared Statement of the...........   326
    Association:
        For State Community Services Programs, Prepared Statement 
          of
          the....................................................   346
        Of:
            County:
                And City Health Officials, Prepared Statement of 
                  the............................................   339
                Behavioral Health and Developmental Disability 
                  Directors, Prepared Statement of the...........   336
            Foster Grandparent Program Directors, Prepared 
              Statement of the...................................   341
            State:
                Alcohol and Drug Abuse Directors, Prepared 
                  Statement of the...............................   344
                Head Injury Administrators, Prepared Statement of 
                  the............................................   349
                Mental Health Program Directors, Prepared 
                  Statement of the...............................   352
    Coalition for Homeless Veterans, Prepared Statement of the...   355
    Congress of American Indians, Prepared Statement of the......   357
    Consumer Law, Prepared Statement of the......................   360
    Council on Aging, Prepared Statement of the..................   363
    Federation of Community Broadcasters, Prepared Statement of 
      the........................................................   365
    Institute for Dental and Craniofacial Research, Prepared 
      Statement of the...........................................   290
    League for Nursing, Prepared Statement of the................   367
    Primate Research Centers, Prepared Statement of the..........   370
    Psoriasis Foundation, Prepared Statement of the..............   373
    Respite Coalition, Prepared Statement of the.................   375
    Sleep Foundation, Prepared Statement of the..................   378
    Technical Institute for the Deaf, Prepared Statement of the..   380
NephCure Foundation, Prepared Statement of the...................   383
Neurofibromatosis, Inc., Northeast, Prepared Statement of the....   385
New England Anti-Vivisection Society Project R&R, Prepared 
  Statement of the...............................................   388
Niederhuber, John E., M.D., Director, National Cancer Institute, 
  National Institutes of Health, Department of Health and Human 
  Services.......................................................    93
    Prepared Statement of........................................   124
North American Primary Care Research Group, Prepared Statement of 
  the............................................................   418

Oncology Nursing Society, Prepared Statement of the..............   390
Ovarian Cancer National Alliance, Prepared Statement of the......   393

Pancreatic Cancer Action Network, Prepared Statement of the......   395
Population Association of America, Prepared Statement of the.....   396

Railroad Retirement Board, Prepared Statements of the..........399, 401
Reaching for the Stars. A Foundation of Hope for Children With 
  Cerebral Palsy, Prepared Statement of..........................   404
Reed, Senator Jack, U.S. Senator From Rhode Island:
    Prepared Statement of........................................    97
    Statement of.................................................    97
Refugee Council USA, Prepared Statement of the...................   406
Rotary International, Prepared Statement of......................   408

Scleroderma Foundation, Prepared Statement of the................   411
Spina Bifida Association, Prepared Statement of the..............   424
Society:
    For:
        Neuroscience, Prepared Statement of the..................   414
        Women's Health Research Coalition, Prepared Statement of 
          the....................................................   420
        Women's Health Research, Prepared Statement of the.......   420
    Of Teachers of Family Medicine, Prepared Statement of the....   418
Specter, Senator Arlen, U.S. Senator From Pennsylvania:
    Opening Statements of........................................ 3, 95
    Questions Submitted by......................................84, 169
State Association of Addition Services and Legal Action Center, 
  Prepared Statement of the......................................   427
Susan G. Komen Cure Advocacy Alliance, Prepared Statement of the.   430

Texas Neurofibromatosis Foundation, Prepared Statement of the....   385
Trust for America's Health, Prepared Statement of the............   437

United Tribes Technical College, Prepared Statement of the.......   440

Zerhouni, Hon. Elias A., M.D., Director, National Institutes of 
  Health, Department of Health and Human Services................    93
    Farewell Remarks.............................................   163
    Prepared Statement of........................................   110
    Summary Statement of.........................................    99


                             SUBJECT INDEX

                              ----------                              

                DEPARTMENT OF HEALTH AND HUMAN SERVICES

                     National Institutes of Health

                                                                   Page

AAMC and AAU Recommendations.....................................   154
A:
    New Strategic Vision for Medicine............................   110
    Unique National Resource.....................................   124
Additional:
    Committee Questions..........................................   164
    Funding for NIH..............................................   146
AIDS Vaccine Research............................................   149
Applying New Knowledge About the Genome to Health................   127
Behavioral Research..............................................   166
Biodefense Research..............................................   132
Biology of Aging and the Aging Process...........................   158
Bridging Research and Practice...................................   124
Budgetary Challenges.............................................   137
Cancer...........................................................   173
    And the Immune System........................................   150
    As a Model of Disease........................................   126
Cardiovascular:
    Disease......................................................   157
    Guidelines...................................................   146
Chemical Genomics and Molecular Libraries........................   128
ClinSeq..........................................................   128
Conflict of Interest in Extramural Research......................   151
Cost to Cure Cancer..............................................   138
Disease:
    Funding......................................................   143
    Gene Associations............................................   127
Disrupted Gene Function--Disease State...........................   101
Emerging Infectious Diseases and Global Health...................   130
ENCODE (Scale Up and Modencode)..................................   129
Food Allergy Research............................................   154
Future of Human Genome Research..................................   135
Genetic Discrimination...........................................   129
Genetics:
    Of Aging.....................................................   159
    Research.....................................................   173
Genes and Environment............................................   136
Genome-Wide Association Discoveries..............................   102
Genomics.........................................................   142
Heart Attack Prevention..........................................   156
Herditary Risk Factors...........................................   161
HIV/AIDS:
    Research.....................................................   131
    Vaccine......................................................   172
        Trials Network Liability Issues..........................   144
Individual Genome Mapping........................................   162
Knockout Mouse Project...........................................   128
K30 Awards.......................................................   164
LP(a)............................................................   172
Medicine in the Future...........................................   129
Minority Outreach Activities and Health Disparities..............   129
Multiplex........................................................   128
Molecular Advances in Vaccine Development........................   149
Neurological Diseases............................................   167
    And Setting Priorities.......................................   141
New Investigators................................................   134
NIH Funding...............................................133, 169, 142
Normal Gene Function--Healthy State..............................   100
Obesity Challenges...............................................   145
1000 Genomes.....................................................   128
Opportunities in Cancer Research: New Genomic Clues..............   108
Our Nation Must Spur Innovation..................................   113
Pancreatic Cancer................................................   168
    Research.....................................................   144
Pandemic Influenza Vaccine Development...........................   147
Peer Review and Transformative Research..........................   114
Pharmacogenomics.................................................   161
    Moves Closer to the Bedside..................................   124
Promise of Personalized Medicine.................................   161
Research on Immune-Mediated Diseases.............................   132
Rare and Neglected Diseases......................................   136
Setting the Stage for Personalized Medicine......................   123
Stem Cells.......................................................   171
Statins and Mortality............................................   156
Success Rate.....................................................   134
Supporting Research..............................................   126
Technology Advances, on the Way to the $1,000 Genome.............   128
The:
    Cancer Genome Atlas..........................................   127
    Challenges That Lie Ahead....................................   112
    Human Microbiome.............................................   128
    Next Steps in Unraveling the Mystery.........................   109
    NHLBI Strategic Plan.........................................   122
Therapeutic Targets..............................................   162
Today's Scientific Advances are Tomorrow's Medicine..............   111
Translation of Research Findings.................................   167
Traumatic Brain Injury...........................................   143
Vaccine Safety...................................................   165
Weicker Building.................................................   166
Working for Patients.............................................   126

                          DEPARTMENT OF LABOR

                        Office of the Secretary

Addendum--MSHA/NIOSH Cooperation on Retreat Mining...............    89
Additional Committee Questions...................................    47
Administrative Fees..............................................    68
American Time Use Survey.........................................    73
Assistance:
    To:
        Low-Income, Out-of-School Youth..........................    79
        Older Workers............................................    53
    With Making Training Decisions...............................    56
Attracting and Retaining Staff...................................    59
Budget Justification of Spending for Special Personal Services 
  Payments and Other Personnel Compensation......................    70
Bureau of International Labor Affairs............................    21
Capacity Building and Evaluation.................................    49
Community Service Employment for Older Americans.................    53
Cranes and Derricks Standard.....................................    68
Criminal Prosecutions............................................    87
Disclosure to Plan Sponsor Regulations...........................    68
Documenting Missing Injury Cases.................................    73
Elimination of Employment Service State Grants...................    85
Employee Benefits Security Administration........................    68
Employment:
    And Training Services in Pennsylvania........................    85
    Service Grants to States.....................................    55
    Services to Unemployment Insurance Claimants.................    84
Enhanced Enforcement Program.....................................    65
Ergonomic Injuries...............................................    39
Family and Medical Leave.........................................72, 82
Federal Support of Employment Services...........................    56
Fiscal Year 2009 Priorities......................................     7
High Growth Job Training Initiative..............................    29
Hispanic Worker Fatalities.......................................    27
Increasing the Competitiveness of America's Workforce............     9
Job Corps........................................................    18
Labor-Management Reporting.......................................    37
    And Disclosure Act...........................................    89
Legal Service/Solicitor's Office.................................    75
LM-30 Reporting Requirements.....................................    34
Mentoring........................................................    84
Mine Safety and Health Administration............................38, 87
National Farmworker Jobs Program.................................    51
Notable Accomplishments..........................................     6
Noncompetitive Grants............................................    14
Office of:
    Apprenticeship...............................................    82
    Disability Employment Policy.................................19, 74
    Foreign Labor Certification..................................    57
    Job Corps....................................................75, 85
    Labor-Management Standards...................................    71
OIG Audit on Consultation Program................................    58
OSHA:
    Information System...........................................    66
    Penalties....................................................    86
    Safety and Health Regulations................................    23
    Standards and Guidance Activity..............................    59
    State:
        Plans....................................................    44
        Programs.................................................    81
    23 Final Regulatory Actions Since 2001.......................    24
Other Programs...................................................    12
Pension Benefits Guaranty Corporation............................    69
Program Integration..............................................    47
Protecting Workers':
    Pay, Benefits, and Union Dues................................     7
    Safety and Health............................................     7
Providing Additional Workers With Services.......................    78
Reauthorization of Trade Adjustment Assistance...................    83
Recordkeeping Audits.............................................    67
Re-Employment and Eligibility Assessments Grants.................    54
Securing Employment Rights and Opportunities for Veterans........    12
Senior Community Service Employment Program......................    91
State:
    Of Hawaii National Emergency Grant...........................    78
    Unemployment Insurance and Employment Service Operations.....53, 55
Susan Harwood Training Grants....................................    67
Underreporting of Injuries.......................................    80
Veteran's Employment and Training Administration.................    78
Wage and Hour Division...........................................    69
Whistleblower Activity...........................................    66
WIA:
    Consolidation................................................    31
    Rescissions..................................................    32
    Youth Services...............................................    50
Workers Compensation Data........................................    33
Youthbuild.......................................................17, 52

                                   - 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
